                           CT
                      INSPE OR GE
               AL                        N
             CI




                                         ER
        E
       SP




                                            A L
      TRO




                                              M
                                              RA
       UB




            LE                           OG
                 D
                     ASS                 PR
                           E T R ELIEF




SIGTARP                                            Office of the Special Inspector General
                                                   for the Troubled Asset Relief Program
Advancing Economic Stability Through Transparency, Coordinated Oversight and Robust Enforcement



                                                                    Quarterly Report to Congress
                                                                                    July 28, 2011
MISSION
SIGTARP’s mission is to advance economic stability by promoting the
efficiency and effectiveness of TARP management, through transparency,
through coordinated oversight, and through robust enforcement against
those, whether inside or outside of Government, who waste, steal or abuse
TARP funds.
	


STATUTORY AUTHORITY
SIGTARP was established by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”) and amended by the Special Inspector
General for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”).
Under EESA and the SIGTARP Act, the Special Inspector General has the
duty, among other things, to conduct, supervise and coordinate audits and
investigations of any actions taken under the Troubled Asset Relief Program
(“TARP”) or as deemed appropriate by the Special Inspector General. In
carrying out those duties, SIGTARP has the authority set forth in Section 6 of
the Inspector General Act of 1978, including the power to issue subpoenas.




Office of the Special Inspector General
for the Troubled Asset Relief Program
General Telephone: 202.622.1419
Hotline: 877.SIG.2009
SIGTARP@do.treas.gov
www.SIGTARP.gov
Contents


Executive Summary 	                                                       3
	   Program Updates and Financial Overview	                               8
	   Oversight Activities of SIGTARP	                                      9
	   SIGTARP Recommendations on the Operation of TARP	                    10
	   Report Organization	                                                 10

Section 1
The Office of the Special Inspector General for the
	Troubled asset relief program	                                          11
	 SIGTARP Creation and Statutory Authority	                              13
	 SIGTARP Oversight Activities Since the April 2011 Quarterly Report	    14
	 The SIGTARP Organization	                                              25
	
Section 2 	
TARP overview	                                                           27
	 TARP Funds Update	                                                     29
	 Financial Overview of TARP	                                            32
	 Housing Support Programs 	                                             51
	 Financial Institution Support Programs	                                76
	 Asset Support Programs	                                               115
	 Automotive Industry Support Programs	                                 131
	 Executive Compensation	                                               140
	
Section 3 	
tarp operations and administration	                                     143
	 TARP Administrative and Program Expenditures	                         145
	 Current Contractors and Financial Agents	                             146	

Section 4     	
SIGTARP Recommendations	                                                155
	 Update on SIGTARP’s Recommendation Regarding the
  	 Home Affordable Unemployment Program Forbearance Term	              157
	 Recommendations Regarding Implementation of
  	 Making Home Affordable Servicer Assessments	                        158

		 Endnotes	                                                            173
appendices
A. 	 Glossary	                                                         195
B. 	 Acronyms and Abbreviations	                                       199
C. 	 Reporting Requirements	                                           202
D.	 Transaction Detail	                                                206
E. 	 Cross-Reference of Report to the Inspector General Act of 1978	   289
F. 	 Public Announcements of Audits	                                   290
G. 	 Key Oversight Reports and Testimony	                              291
H.	Correspondence	                                                     293
I. 	 Organizational Chart	                                             300
EXECUTIVE SUMMARY
4   special inspector general I troubled asset relief program
                                                                                   quarterly report to congress I july 28, 2011   5




The American taxpayers have the dedicated men and women of SIGTARP on their
side. SIGTARP continues to build on its dynamic and critical oversight and inves-
tigative record. This past quarter, SIGTARP made important recommendations
related to Treasury’s housing programs, and Treasury adopted a prior SIGTARP rec-
ommendation that gives additional relief to unemployed homeowners. In addition
to its oversight role, SIGTARP actively uncovers and investigates criminal wrong-
doing in its role as a law enforcement agency, and this quarter alone, 14 criminals
investigated by SIGTARP and its partners were sentenced to prison, including the
mastermind of the largest and longest running bank fraud scheme in a generation
and his co-conspirators. Also this quarter as a result of SIGTARP’s investigations,
six individuals were convicted of criminal charges and five individuals were crimi-
nally charged. As of the drafting of this report, 65 individuals and 18 entities had
been charged in criminal or civil actions related to SIGTARP investigations, with
25 individuals criminally convicted. SIGTARP has helped prevent more than $550
million in taxpayer funds from being lost to fraud, has assisted in the recovery of
$151 million, and has more than 150 ongoing investigations.
     TARP’s wind down continues as Treasury sold some of its stock in American
International Group, Inc. (“AIG”) and all of its equity in Chrysler Group LLC
(“Chrysler”), and more banks exited TARP. This is a relief for the taxpayers who
bore the risk of these investments. But TARP is not a done deal. Taxpayers still bear
the risk of $130.5 billion in outstanding TARP funds and $53.2 billion obligated
and available to be spent. Taxpayers also bear the risk of Treasury’s 77% stake in
AIG, 32% stake in General Motors Company, and 74% stake in Ally Financial Inc.
(formerly GMAC, Inc.), as well as other investments. While it is good news that
Treasury is exiting its investments in many of these larger financial institutions, this
should not distract from the hard work ahead. The smaller community banks are
not exiting TARP with the same speed (with more than 500 of the 700 TARP banks
remaining). The number of banks that are not paying their TARP-related dividends
to Treasury continues to increase (now at 188). In addition, although TARP’s sig-
nature housing program, Home Affordable Modification Program (“HAMP”), has
helped more than 600,000 homeowners reduce their mortgage payments, it is still
having trouble reaching millions of homeowners who are desperate for relief.
     One reason why HAMP still has not helped enough homeowners is that mort-
gage servicers are not following HAMP’s rules. Treasury’s new servicer assessment
process of the top 10 servicers showed that four needed “substantial improvement”
and the remaining six needed “moderate improvement.” It is telling that no servicer
was identified as needing only “minor improvement.” The servicer assessments
could serve as an important step in holding servicers accountable for following
HAMP rules and providing much-needed assistance to struggling homeown-
ers. However, proper implementation of the assessment process and the actions
Treasury takes in response to unacceptable assessments may determine whether
6   special inspector general I troubled asset relief program




                                           servicers improve. In the June 2011 assessment, three of the servicers ranked
                                           poorly on a critical metric known as “second-look” – when Treasury’s compliance
                                           agent (“MHA-C”) reviewed loans for which the servicer did not offer the borrower a
                                           permanent modification, MHA-C did not concur with the servicer’s determination.
                                           That is, borrowers who should have received a permanent mortgage modification
                                           were wrongly denied. Four servicers had an unacceptably high number of cases
                                           where in the second-look process, MHA-C was unable to determine, based on the
                                           documentation provided, how the servicer reached the decision that it would not
                                           offer a permanent modification. In addition, all 10 servicers ranked poorly in the
                                           area of borrower income calculation errors – a calculation described by Treasury as
                                           “a critical component of evaluating eligibility for MHA [Making Home Affordable],
                                           as well as establishing an accurate modification payment.”
                                               Clearly, many homeowners are not getting the fair shake they deserve from
                                           some of the largest servicers in determining who gets the benefit of a HAMP mort-
                                           gage modification. However, Treasury is withholding incentives only from the three
                                           servicers that it determined required “substantial improvement,” not from the three
                                           servicers who ranked poorly in the second-look category. It is not clear from the as-
                                           sessments how Treasury determined when a servicer required “substantial improve-
                                           ment,” for which incentives would be withheld, versus “moderate improvement,”
                                           for which incentives would be paid. Treasury must take strong action, including
                                           withholding and clawing back incentives, in response to unacceptable ratings to
                                           force meaningful change in the servicer’s treatment of homeowners. Section 4
                                           discusses initial recommendations SIGTARP made related to this servicer assess-
                                           ment process.
                                               In addition, many homeowners face a daily struggle with unemployment and a
                                           mortgage they cannot afford. On April 29, 2011, Federal Reserve Chairman Ben
                                           Bernanke noted that high levels of unemployment and home foreclosures are hold-
                                           ing back the United States recovery “and many people and neighborhoods are in
                                           danger of being left behind.” According to the Bureau of Labor Statistics, 42% of
                                           unemployed workers have been out of work for 27 weeks. Long-term unemploy-
                                           ment results in a borrower’s inability to afford mortgage payments and can lead to
                                           foreclosure.
                                               In July 2011, Treasury agreed to implement a SIGTARP recommendation de-
                                           signed to give unemployed homeowners greater relief in HAMP’s Home Affordable
                                           Unemployment Program (“UP”). Originally, under UP, borrowers whose hardship is
                                           related to unemployment could receive forbearance on their mortgage payment for
                                           a minimum of three months. SIGTARP recommended more than one year ago that
                                           UP’s minimum forebearance period be extended so that the program would assist
                                           the typical unemployed borrower. SIGTARP’s concern over the disastrous tie be-
                                           tween unemployment and home foreclosure, along with the long-term nature of re-
                                           cent unemployment, led to this important recommendation. At that time, Treasury
                                                                                  quarterly report to congress I july 28, 2011   7




declined to implement SIGTARP’s recommendation. The Administration recently
announced that it will extend the minimum term of unemployment forbearance
under the U.S. Department of Housing and Urban Development (“HUD”) pro-
grams to 12 months. The announcement also included that there would be an in-
crease in the minimum forbearance term to 12 months in UP. Treasury’s adoption
of SIGTARP’s recommendation gives the typical unemployed homeowner much
needed breathing room to find a job without fear of losing his or her home.
     Recovery from the financial crisis requires efforts on multiple fronts and
SIGTARP will aggressively root out and investigate fraud and other unlawful activ-
ity related to TARP. Fraud related to TARP is reprehensible to taxpayers, regula-
tors, Treasury, Congress, and all those who have struggled just to keep their head
above water in recent times. One of the biggest fears surrounding TARP was that
taxpayers who were putting billions of dollars on the line would lose that money to
unscrupulous individuals who took advantage of the nation’s vulnerability during
a time of crisis. SIGTARP remains committed to protecting the taxpayer’s invest-
ment and bringing to justice those criminals – including those in positions of power
and responsibility – who seek to profit from the financial crisis by exploiting TARP
through fraud.
     As a result of SIGTARP’s investigations and the work of its prosecutorial part-
ners, 14 executives were sentenced to prison this quarter alone. In the largest and
longest running bank fraud in a generation, based on an investigation by SIGTARP
and its law enforcement partners, seven executives of two of the nation’s largest
financial institutions, Taylor, Bean & Whitaker Mortgage Corporation (“TBW”) and
Colonial Bank, were sentenced to prison for their role in a massive eight-year $2.9
billion fraud. The greed exhibited by Lee Bentley Farkas, the former chairman of
TBW and mastermind of the fraud, and his co-conspirators, caused billions of dol-
lars in holes on the books of TBW and Colonial Bank. The fraud ultimately led to
both companies’ failures and victimized numerous other public and private institu-
tions. During the housing and financial crisis, while many American taxpayers were
in dire straits, Farkas lived in the lap of luxury using the more than $38 million that
he stole from TBW and Colonial Bank to buy a jet, expensive collector cars includ-
ing a Rolls Royce, and multiple vacation homes. His fraud began to unravel when
he and his co-conspirators tried to obtain TARP funds to fill the billions of dollars
of holes at TBW and Colonial Bank. Shameless in his duping of investors and regu-
lators, he attempted to deceive taxpayers. This fraud was discovered by SIGTARP
and its law enforcement partners. Notwithstanding Colonial’s conditional approval
to receive $553 million in TARP funds, SIGTARP notified Treasury of its investiga-
tion, thereby ensuring that no TARP funds were disbursed to Colonial. On June 30,
2011, Farkas was sentenced to 30 years in prison for his crimes and ordered to for-
feit $38.5 million. At the sentencing hearing, The Honorable Leonie M. Brinkema
told Farkas that she did “not detect one bit of actual remorse” and that Farkas’ only
8   special inspector general I troubled asset relief program




                                           regrets were getting caught and having to go to jail. Farkas’ co-conspirators were
                                           sentenced to a combined total of more than 20 years in prison.
                                               The American taxpayers became shareholders in hundreds of banks that
                                           received TARP funds. SIGTARP is committed to protecting the taxpayers’ in-
                                           vestment. In another SIGTARP investigation, two executives of Mount Vernon
                                           Money Center (“MVMC”) received prison sentences for their fraud against TARP
                                           recipient banks and others. Robert Egan and Bernard McGarry, the president
                                           and chief operating officer of MVMC, respectively, ran an ATM and cash man-
                                           agement business where they “played the float” with their clients’ money and
                                           skimmed money off the top for their own expenses. From 2005 through early
                                           2010, they misappropriated their clients’ money, including the funds of sev-
                                           eral TARP recipients, to fund tens of millions of dollars in operating losses in
                                           MVMC’s businesses, to repay outstanding client obligations, and to enrich them-
                                           selves at their clients’ expense. The court sentenced Egan to 11 years’ imprison-
                                           ment and McGarry to five years’ imprisonment.
                                               All of these individuals have caused serious harm to real victims by preying on
                                           the vulnerability we faced as a nation. They have been brought to justice and are
                                           now being held accountable for their actions. SIGTARP is the only law enforce-
                                           ment agency whose singular focus is to protect Treasury’s unprecedented TARP
                                           investment. The hardworking staff of SIGTARP is proud to serve the American
                                           taxpayer in thwarting crime and preventing loss of taxpayer dollars to fraud,
                                           waste, and abuse.


                                           PROGRAM UPDATES AND FINANCIAL OVERVIEW
                                           TARP consists of 13 implemented programs. Because TARP investment authority
                                           expired on October 3, 2010, no new obligations may be made with TARP funds.
                                           However, dollars that have already been obligated to existing programs may still be
                                           expended. As of October 3, 2010, $474.8 billion had been obligated across TARP
                                           to provide support for U.S. financial institutions, the automobile industry, the mar-
                                           kets in certain types of asset-backed securities, and homeowners. Of the obligated
                                           amount, $412.1 billion had been spent as of June 30, 2011, leaving $53.2 billion
                                           in three programs remaining as obligated and available to spend after accounting
                                           for reductions in exposure related to the Asset Guarantee Program (“AGP”) and
                                           the termination of equity and debt facilities for AIG and Chrysler, respectively,
                                           that were never drawn down. According to Treasury, through June 30, 2011, 120
                                           TARP recipients, including 10 with the largest CPP investments, had paid back all
                                           of their principal or repurchased shares, and 21 TARP recipients had made partial
                                           repayments by paying back some of their principal or repurchasing from Treasury
                                           some of their preferred shares, for an aggregate total of $269 billion of repayments.
                                           According to Treasury, this left $130.5 billion in TARP funds outstanding as of
                                                                                 quarterly report to congress I july 28, 2011   9




June 30, 2011, after accounting for losses and write-offs.
     In addition to the principal repayments, Treasury has received interest and divi-
dend payments on its investments, as well as revenue from the sale of its warrants.
According to Treasury, as of June 30, 2011, the Government had received $39
billion in interest, dividends, and other income, including $9.1 billion in sales pro-
ceeds that had been received from the sale of warrants and preferred stock received
as a result of exercised warrants. At the same time, some TARP participants have
missed interest or dividend payments. Among CPP participants, 188 missed paying
dividend or interest to the Government as of June 30, 2011, for a total of $320.8
million in unpaid CPP interest and dividends.


OVERSIGHT ACTIVITIES OF SIGTARP
SIGTARP actively strives to fulfill its audit and investigative functions. Since its
inception, SIGTARP has issued 14 audit reports, including one that has been
issued since the end of the last quarter. As highlighted in SIGTARP’s April 2011
Quarterly Report, “Treasury’s Process for Contracting for Professional Services
under the Troubled Asset Relief Program,” released on April 14, 2011, discussed
the results of SIGTARP’s audit of the contracting processes of Treasury’s Office of
Financial Stability (“OFS”) related to legal fee billing and SIGTARP’s audit of fee
bills submitted by the law firm Venable LLP. Section 1 of this report “The Office
of the Special Inspector General for the Troubled Asset Relief Program” discusses
SIGTARP’s recently released audits.
    SIGTARP is a highly sophisticated white-collar law enforcement agency. As of
June 30, 2011, SIGTARP had more than 150 ongoing criminal and civil investiga-
tions, many in partnership with other law enforcement agencies. Since SIGTARP’s
inception, its investigations have delivered substantial results, including:

•	 asset recoveries of $151 million, with an additional estimated savings of $555.2
   million through fraud prevention
•	 civil or criminal actions against 65 individuals to date, including 43 senior of-
   ficers (CEOs, owners, founders or senior executives) of their organizations
•	 criminal convictions of 25 defendants for fraud
•	 civil cases naming 18 corporate entities as defendants

   Although much of SIGTARP’s investigative activity remains confidential, over
the past quarter there have been significant public developments in several of
SIGTARP’s investigations. For a description of recent developments, including
those relating to SIGTARP investigations into The Colonial BancGroup, Inc./
Taylor, Bean & Whitaker, FirstCity Bank, Compliance Audit Solutions, Orion
Bank, Nations Housing Modification Center, Omni National Bank, Mount Vernon
10   special inspector general I troubled asset relief program




                                            Money Center, The Park Avenue Bank, and Karl Rodney (New York Carib News,
                                            Inc.), see Section 1 of this report “The Office of the Special Inspector General for
                                            the Troubled Asset Relief Program.”


                                            SIGTARP RECOMMENDATIONS ON THE
                                            OPERATION OF TARP
                                            One of SIGTARP’s oversight responsibilities is to provide recommendations to
                                            Treasury so that TARP programs can be designed or modified to facilitate effective
                                            oversight and transparency and to prevent fraud, waste, and abuse. Section 4 of
                                            this report “SIGTARP Recommendations” provides updates on existing recommen-
                                            dations and summarizes the implementation of previous recommendations.
                                                This quarter, Section 4 features a discussion of SIGTARP’s recommendations
                                            on Treasury’s newly implemented quarterly MHA Servicer Assessments. In a letter
                                            to Treasury dated May 23, 2011, SIGTARP made two recommendations to im-
                                            prove transparency and accountability in the proposed servicer assessment process.
                                            Section 4 reviews these recommendations and Treasury’s response.
                                                Additionally, Section 4 includes an update on SIGTARP’s recommendation in
                                            the April 2010 Quarterly Report that Treasury reconsider the length of the mini-
                                            mum term of HAMP’s unemployment forbearance program (“UP”). This discus-
                                            sion considers both the recommendation and Treasury’s prior response in light of
                                            Treasury’s recent decision to extend the minimum UP forbearance term from three
                                            to 12 months.


                                            REPORT ORGANIZATION
                                            The report is organized as follows:

                                            •	 Section 1 discusses the activities of SIGTARP.
                                            •	 Section 2 details how Treasury has spent TARP funds thus far and contains an
                                               explanation or update of each program.
                                            •	 Section 3 describes the operations and administration of the Office of Financial
                                               Stability, the office within Treasury that manages TARP.
                                            •	 Section 4 discusses SIGTARP’s recommendations to Treasury with respect to
                                               the operation of TARP.

                                                The report also includes numerous appendices containing, among other things,
                                            figures and tables detailing all TARP investments through June 30, 2011, except
                                            where otherwise noted.
            The Office of the Special
section 1   Inspector General for the
            Troubled Asset Relief Program
12   special inspector general I troubled asset relief program
                                                                                 quarterly report to congress I july 28, 2011   13




SIGTARP CREATION AND STATUTORY AUTHORITY
The Office of the Special Inspector General for the Troubled Asset Relief Program
(“SIGTARP”) was created by Section 121 of the Emergency Economic Stabilization
Act of 2008 (“EESA”). Under EESA, SIGTARP has the responsibility, among
other things, to conduct, supervise, and coordinate audits and investigations of the
purchase, management, and sale of assets under the Troubled Asset Relief Program
(“TARP”) and, with certain limitations, any other action taken under EESA.
SIGTARP is required to report quarterly to Congress to describe SIGTARP’s activi-
ties and to provide certain information about TARP over that preceding quarter.
EESA gives SIGTARP the authorities listed in Section 6 of the Inspector General
Act of 1978, including the power to obtain documents and other information from
Federal agencies and to subpoena reports, documents, and other information from
persons or entities outside the Government.
    TARP investment authority expired on October 3, 2010. As a result, Treasury
cannot make new purchases or guarantees of troubled assets. This termination of
authority, however, does not affect Treasury’s ability to administer existing troubled
asset purchases and guarantees. In accordance with Section 106(e) of EESA,
Treasury may expend TARP funds after October 3, 2010, as long as it does so pur-
suant to obligations entered into before that date. SIGTARP’s oversight mandate
did not end with the expiration of Treasury’s authorization for new TARP funding.
Rather, under the authorizing provisions of EESA, SIGTARP is to carry out its
duties until the Government has sold or transferred all assets and terminated all
insurance contracts acquired under TARP. In other words, SIGTARP will remain
“on watch” as long as TARP assets remain outstanding.
14   special inspector general I troubled asset relief program




                                            SIGTARP OVERSIGHT ACTIVITIES SINCE THE APRIL
                                            2011 QUARTERLY REPORT
                                            SIGTARP has continued to fulfill its oversight role on multiple parallel tracks:
                                            investigating allegations of fraud, waste, and abuse in TARP programs; auditing
                                            various aspects of TARP and TARP-related programs and activities; coordinating
                                            closely with other oversight bodies; and striving to promote transparency in TARP
                                            programs.

                                            SIGTARP Investigations Activity
                                            SIGTARP’s Investigations Division has developed into a highly sophisticated white-
                                            collar investigative agency. As of June 30, 2011, SIGTARP had more than 150 on-
                                            going criminal and civil investigations, many in partnership with other law enforce-
                                            ment agencies. From SIGTARP’s inception through the drafting of this report, its
                                            investigations have delivered substantial results, including:

                                            •	 asset recoveries of $151 million, with an additional estimated savings of $555.2
                                               million through fraud prevention
                                            •	 civil or criminal actions against 65 individuals, including 43 senior officers
                                               (CEOs, owners, founders, or senior executives) of their organizations
                                            •	 criminal convictions of 25 defendants
                                            •	 civil cases naming 18 corporate or other legal entities as defendants

                                                SIGTARP’s investigations concern suspected TARP fraud, accounting fraud,
                                            securities fraud, insider trading, bank fraud, mortgage fraud, mortgage-servicer
                                            misconduct, fraudulent advance-fee schemes, public corruption, false statements,
                                            obstruction of justice, theft of trade secrets, money laundering, and tax-related mat-
                                            ters. Although the majority of SIGTARP’s investigative activity remains confidential,
                                            over the past quarter there have been significant public developments in several
                                            SIGTARP investigations.

                                            The Colonial BancGroup, Inc./Taylor, Bean & Whitaker
                                            On June 30, 2011, Lee Bentley Farkas, the former chairman of Taylor, Bean &
                                            Whitaker Mortgage Corporation (“TBW”), was sentenced to serve 30 years in
                                            prison by the U.S. District Court for the Eastern District of Virginia. A preliminary
                                            order of forfeiture in the amount of more than $38 million was also entered by
                                            the court. Restitution orders will be determined at a later date. This sentencing
                                            followed Farkas’ April 19, 2011, conviction by a federal jury on 14 counts of bank,
                                            wire, and securities fraud that included charges relating to his role in a massive
                                            $2.9 billion bank fraud scheme and attempting to steal $553 million from TARP
                                            through the fraudulent application by The Colonial BancGroup, Inc. (“Colonial”)
                                            to the Capital Purchase Program (“CPP”). Notwithstanding Colonial’s conditional
                                                                                quarterly report to congress I july 28, 2011   15




approval to receive TARP funds, SIGTARP notified Treasury of its investigation,
thereby ensuring that no TARP funds were disbursed to Colonial. Farkas’ fraud
scheme ultimately contributed to the failures of Colonial and TBW and victimized
numerous other public and private institutions. In August 2009, Colonial Bank
(a subsidiary of Colonial) was seized by its regulator, which appointed the Federal
Deposit Insurance Corporation (“FDIC”) as receiver. Colonial filed for bankruptcy
in August 2009.
    In addition to Farkas, six individuals from Colonial Bank and TBW were
sentenced to prison terms by the U.S. District Court for the Eastern District of
Virginia for their roles in various aspects of the bank and TARP-fraud schemes.
    On June 21, 2011, Paul Allen, the former chief executive officer (“CEO”) of
TBW, was sentenced to 40 months in prison. Allen pled guilty on April 1, 2011, to
one count of conspiracy to commit bank and wire fraud and one count of making
false statements to the Department of Housing and Urban Development (“HUD”).
Allen admitted that he and others engaged in a scheme to defraud financial institu-
tions that had invested in TBW’s wholly-owned lending facility, Ocala Funding.
Shortly after Ocala Funding was established, Allen learned that inadequate assets
were backing its commercial paper – a deficiency referred to within TBW as a
“hole” in Ocala Funding. Allen admitted that he kept the chairman of TBW, Farkas,
informed of the collateral shortfall, and that Farkas told him that the “hole” had
been moved from Ocala Funding to Colonial Bank. Allen was later directed to
approach a private equity investor to secure capital to help meet a $300 million pri-
vate capital requirement that Treasury had set for Colonial Bank in order to receive
$553 million from TARP. Although Allen failed to secure the funding from the in-
vestor, he admitted in court that Farkas represented to others that the investor was
a $50 million participant and that Farkas diverted $5 million from Ocala Funding
to an escrow account in the investor’s name. This deception caused Colonial Bank
to falsely announce that it had met its $300 million capital contingency and to
send a letter to the FDIC stating that all investors had met a 10% escrow deposit
requirement. Allen also admitted to making false statements in a letter he sent to
HUD, through Ginnie Mae, regarding TBW’s audited financial statements for the
fiscal year ended March 31, 2009.
    Catherine Kissick, the former senior vice president of Colonial Bank and head
of its Mortgage Warehouse Lending Division, was sentenced to eight years in
prison on June 17, 2011. Kissick pled guilty on March 2, 2011, to conspiracy to
commit bank, wire, and securities fraud. According to court documents, Kissick ad-
mitted that from 2002 through August 2009, she and her co-conspirators, includ-
ing Farkas, engaged in a scheme to defraud various entities and individuals, includ-
ing Colonial Bank, Colonial, TARP, and the investing public. In connection with
the TARP application, Colonial submitted materially false financial data and filings
as a result of the fraudulent scheme perpetrated by Kissick and her co-conspirators.
16   special inspector general I troubled asset relief program




                                            Further, Kissick admitted that she deleted, and instructed members of her staff to
                                            delete, electronic communications on their BlackBerry hand-held devices to evade
                                            SIGTARP subpoenas.
                                                 Desiree Brown, the former treasurer of TBW, was sentenced to six years in
                                            prison on June 10, 2011. Brown pled guilty on February 24, 2011, to conspiracy to
                                            commit bank, wire, and securities fraud. Brown admitted to participating in a fraud
                                            scheme that included generating money for TBW through fictitious “sales” of mort-
                                            gage loans to Colonial Bank by sending the bank mortgage data for loans that did
                                            not exist or that TBW had already committed or sold to other third-party investors.
                                            The scheme also included the fraudulent effort to obtain TARP funding through
                                            the materially false Colonial TARP application.
                                                 Raymond Bowman, the former president of TBW, was sentenced to 30 months
                                            in prison on June 10, 2011. Bowman pled guilty on March 14, 2011, to conspiracy
                                            to commit bank, wire, and securities fraud, and to lying to SIGTARP and Federal
                                            Bureau of Investigation (“FBI”) agents. Bowman admitted that from 2003 through
                                            August 2009, he and his co-conspirators, including Farkas, engaged in a fraud
                                            scheme that caused Colonial Bank and Colonial to purchase tens of millions of
                                            dollars of worthless assets. They also caused Colonial to report false information
                                            in its financial statements and to artificially inflate the value of TBW’s mortgage-
                                            servicing rights.
                                                 Sean W. Ragland, the former senior financial analyst at TBW, pled guilty on
                                            March 31, 2011, to conspiring to commit bank and wire fraud for his role in the
                                            scheme to defraud financial investors in Ocala Funding. Ragland learned of the
                                            Ocala Funding “hole” and reported its status to senior TBW executives. Ragland
                                            was also aware that TBW co-conspirators were improperly transferring hundreds of
                                            millions of dollars from Ocala Funding to TBW accounts. Ragland admitted that,
                                            at the direction of other co-conspirators, he prepared fraudulent documents that
                                            inflated the aggregate value of the loans held in Ocala Funding. He sent this false
                                            information to the financial institution’s investors, other third parties, and to an
                                            outside auditing firm. Ragland was sentenced to three months in prison on June
                                            21, 2011.
                                                 Teresa Kelly, the former operations supervisor in Colonial Bank’s Mortgage
                                            Warehouse Lending Division, pled guilty on March 16, 2011, to conspiracy to
                                            commit bank, wire, and securities fraud. According to court records, Kelly and her
                                            co-conspirators caused TBW to engage in sales to Colonial Bank of fictitious secu-
                                            rities that were not backed by collateral and had no value. Kelly and others caused
                                            the false information to be entered into Colonial Bank’s books and records, giving
                                            the appearance that Colonial Bank owned a 99% interest in legitimate securities
                                            serviced by TBW, when in fact the securities had no value and could not be sold.
                                            Kelly was sentenced to three months in prison on June 17, 2011.
                                                                                     quarterly report to congress I july 28, 2011   17




    The cases, brought in coordination with the President’s Financial Fraud
Enforcement Task Force (“FFETF”), were investigated by SIGTARP, FBI, the
Office of the Inspector General of the FDIC (“FDIC OIG”), the Office of the
Inspector General of HUD (“HUD OIG”), the Office of the Inspector General of
the Federal Housing Finance Agency (“FHFA OIG”), and the Internal Revenue
Service Criminal Investigation Division (“IRS-CI”). The Financial Crimes
Enforcement Network (“FinCEN”) of the Department of the Treasury also provid-
ed support. The Securities and Exchange Commission (“SEC”) has filed enforce-
ment actions against Farkas, Kissick, Brown, and Kelly.

FirstCity Bank
As previously reported, on March 16, 2011, a Federal grand jury sitting in the
Northern District of Georgia indicted Mark A. Conner and Clayton A. Coe, two for-
mer top officers of FirstCity Bank (“FirstCity”) in Stockbridge, Georgia, on Federal
bank fraud charges relating to alleged misconduct at FirstCity, which was an
unsuccessful TARP applicant. On June 22, 2011, a superseding indictment was re-
turned against Conner, Coe, and FirstCity’s in-house counsel, Robert E. Maloney.
Federal agents previously arrested Conner and Coe and a Federal judge ordered
Conner to remain in the custody of the U.S. Marshals Service pending trial. Coe
was released to home detention and electronic monitoring. Maloney was arraigned
on the Federal charges on June 24, 2011.
    The superseding indictment charges Conner, Coe, and Maloney with conspiracy
to commit bank fraud, making false entries in the records of an FDIC-insured finan-
cial institution, and conspiracy to commit money laundering. It also charges Conner
with conducting a continuing financial crimes enterprise at the bank between
February 2006 and February 2008, during which Conner and his co-conspirators’
crimes allegedly generated over $5 million in unlawful gross proceeds, and it charges
Coe with making a false Federal credit application. The superseding indictment
alleges that Connor, Coe, Maloney, and others conspired to defraud FirstCity’s loan
committee and board of directors into approving multiple, multi-million dollar com-
mercial loans to borrowers who, unbeknownst to FirstCity, were actually purchasing
property owned by Conner or Coe personally. Conner, Coe, Maloney, and their co-
conspirators then allegedly caused at least 10 other federally-insured banks to invest
in, or “participate in” the fraudulent loans based on these and other fraudulent mis-
representations. That shifted all or part of the risk of default to the other banks. Coe’s
bonus compensation was tied to the origination of FirstCity loans, including the
fraudulent loans with which he and Conner allegedly assisted each other. Maloney is
alleged to have taken extra payments in the form of “legal fees” from the fraudulent
transactions, even though as corporate counsel he was actually a salaried employee
of FirstCity. He also allegedly helped launder and distribute funds to, for the benefit
18   special inspector general I troubled asset relief program




                                            of Conner, Coe, other co-conspirators, or himself through an attorney trust account
                                            maintained at the bank. In the process of defrauding FirstCity and the “participating”
                                            banks, Conner, Coe, Maloney, and their co-conspirators allegedly routinely misled
                                            Federal and state bank regulators and examiners to conceal their unlawful scheme.
                                            They also unsuccessfully sought TARP funds and engaged in other misconduct in
                                            an attempt to avoid seizure by regulators and prevent the discovery of their fraud.
                                            FirstCity was seized by Federal and state authorities on March 20, 2009.
                                                The case is being investigated by SIGTARP, FBI, IRS-CI, and FDIC OIG.

                                            Compliance Audit Solutions
                                            On April 28, 2011, a Federal grand jury sitting in the Southern District of
                                            California returned an indictment against three individuals, Ziad al Saffar, Sara
                                            Beth Rosengrant, and Daniel al Saffar, for allegedly perpetrating a fraudulent
                                            mortgage modification business under the names Compliance Audit Solutions,
                                            Inc. (“CAS”), and CAS Group, Inc. Ziad al Saffar, Rosengrant, and Daniel al Saffar
                                            were each charged with one count of conspiracy to commit wire fraud and mail
                                            fraud. All three defendants were arrested on April 29, 2011. Ziad al Saffar and
                                            Rosengrant operated CAS and CAS Group, Inc. and Daniel al Saffar worked as a
                                            sales representative.
                                                The indictment alleges that CAS and CAS Group targeted homeowners who
                                            were seeking to modify their mortgages, most of whom were already behind on
                                            their mortgage payments or unable to afford their mortgages. CAS and CAS Group
                                            allegedly solicited these struggling homeowners through paid Internet advertising
                                            targeting certain Internet searches and websites with names such as “hampnow.
                                            org” and “obamahope4homeowners.com.” According to the indictment, the ads
                                            and websites were designed to suggest that CAS and CAS Group were affiliated
                                            with the Federal Government. The indictment further alleges that the defendants
                                            made false representations to homeowners that CAS and CAS Group were affili-
                                            ated with or were part of the U.S. Department of Housing and Urban Development
                                            (“HUD”), that Zaid al Saffar worked for HUD, and that they were participating in a
                                            Federal program called “Hope for Homeowners.” However, CAS, CAS Group, and
                                            the other defendants had no affiliation with the Federal Government or the Home
                                            Affordable Modification Program (“HAMP”). The defendants engaged in this al-
                                            leged misconduct at a time when Treasury was administering HAMP to encourage
                                            loan servicers and investors to modify mortgages to reduce to affordable levels the
                                            monthly payments of homeowners who were at risk of default.
                                                According to the indictment, it was further part of the conspiracy that Zaid al
                                            Saffar and Daniel al Saffar attempted to sell homeowners an “audit” of their home
                                            mortgage that they claimed was virtually certain to identify “violations” that could
                                            be used to force banks to negotiate new terms for the loans. Homeowners were
                                                                               quarterly report to congress I july 28, 2011   19




charged an initial fee of between $995 and $3,500 for such an “audit” of their
mortgage. After providing homeowners with an audit, which CAS or CAS Group
would purchase from another company, Zaid al Saffar and others made additional
false representations to induce homeowners to send more money to CAS, CAS
Group, or accounts controlled by Zaid al Saffar. These additional misrepresenta-
tions included claims that the audit fees were tax deductible, that the banks have
agreed to renegotiate the terms of the homeowner’s loan to reduce the principal
balance and interest rate, that CAS and CAS Group had an “attorney” on staff who
could finalize these negotiations with the bank on behalf of the homeowner, and
that additional “good faith” payments were necessary to finalize the loan modifica-
tion and that such payments would be held in escrow until the loan modification
was complete.
    The case is being investigated by SIGTARP and FBI.

Orion Bank
As previously reported, on March 30, 2011, a Federal grand jury sitting in the
Middle District of Florida returned an indictment against Jerry J. Williams, former
president, CEO, and board chairman of Orion Bancorp, Inc., and Orion Bank
(“Orion”), for conspiracy to commit bank fraud and to deceive Federal and state
bank examiners. Williams was also charged with two counts of misapplication
of bank funds; two counts of making false entries in Orion’s reports; mail fraud;
wire fraud; and money laundering. In October 2008, Orion Bancorp, Inc. filed an
unsuccessful application for $64 million of TARP money through CPP. According
to the indictment, Williams orchestrated a complex conspiracy to fraudulently
raise $100 million in capital and falsify bank records in order to mislead state and
Federal regulators as to the bank’s true financial condition. This was accomplished
by two “round-trip” transactions through which Orion’s own funds were used to
create the illusion of genuine capital infusions, creating the false impression to
regulators that Orion’s capital position had improved considerably.
    On May 2, 2011, Francesco Mileto, a former customer of Orion, and Thomas
Hebble, and Angel Guerzon, both of whom are former officers of Orion, all pled
guilty to conspiracy to commit bank fraud while Hebble and Guerzon also pled
guilty to obstruction of a Federal bank examination for their roles in the scheme.
They are expected to be sentenced in 2012. Florida’s Office of Financial Regulation
closed Orion Bank on November 13, 2009, and named the FDIC as receiver. The
FDIC estimates that Orion’s failure will cost the Deposit Insurance Fund more
than $600 million.
    The case is being investigated by SIGTARP, FBI, IRS-CI, the Office of the
Inspector General of the Federal Reserve Board (“FRB OIG”), and FDIC OIG.
20   special inspector general I troubled asset relief program




                                            Nations Housing Modification Center
                                            As discussed in previous SIGTARP reports, Glenn Rosofsky, Roger Jones, and
                                            Michael Trap pled guilty to their involvement in a fraudulent loan-modification
                                            scheme. The conspiracy sold loan-modification services to homeowners who
                                            were delinquent on their monthly mortgage payments. Using the names “Nations
                                            Housing Modification Center” (“NHMC”) and “Federal Housing Modification
                                            Department,” the conspiracy used false and fraudulent statements and repre-
                                            sentations to induce customers to pay advance fees of $2,500 to $3,000 each to
                                            purchase loan-modification services from NHMC. Included among the misrepre-
                                            sentations made by the defendants was that NHMC was affiliated with the Federal
                                            Government or HAMP and was located on Capitol Hill in Washington, DC. In
                                            fact, as Trapp admitted, NHMC had no connection to the Federal Government or
                                            HAMP and its only presence in Washington, DC, was a rented post office box. The
                                            fraud grossed at least $900,000 from more than 300 homeowners.
                                                On June 10, 2011, Trap was sentenced by the U.S. District Court for the
                                            Southern District of California to 30 months incarceration and three years of
                                            supervised release and ordered to pay restitution of $460,249 following his earlier
                                            guilty plea to one count of conspiracy to commit wire fraud and money laundering,
                                            and one count of money laundering.
                                                Previously, on January 24, 2011, Rosofsky was sentenced by the U.S. District
                                            Court for the Southern District of California to 63 months incarceration and 36
                                            months of supervised release and ordered to pay restitution of $456,749. The same
                                            court also sentenced Jones, on January 18, 2011, to 33 months incarceration and
                                            36 months of supervised release, and ordered him to pay restitution of $456,749.
                                                The case was investigated by SIGTARP, IRS-CI, the Federal Trade Commission
                                            (“FTC”), the San Diego District Attorney’s Office, and the U.S. Attorney’s Office
                                            for the Southern District of California, with the support of FinCEN and the New
                                            York High Intensity Financial Crime Area.

                                            Omni National Bank
                                            As previously reported, Omni National Bank (“Omni”), a national bank headquar-
                                            tered in Atlanta, failed and was taken over by the FDIC on March 27, 2009. Prior
                                            to its failure, Omni applied for, but did not receive, TARP funding under CPP.
                                            SIGTARP’s participation in a mortgage fraud task force, which also includes the
                                            U.S. Attorney’s Office for the Northern District of Georgia, FDIC OIG, HUD OIG,
                                            the U.S. Postal Inspection Services (“USPIS”), and FBI, has resulted in criminal
                                            charges, convictions, and sentencings against multiple individuals concerning
                                            Omni.
                                                Most recently, on June 1, 2011, Karim Walthour Lawrence, a former loan of-
                                            ficer of Omni, was sentenced by the U.S. District Court for the Northern District
                                            of Georgia to serve 21 months in Federal prison on charges of accepting bribes
                                                                                 quarterly report to congress I july 28, 2011   21




from contractors he selected to renovate Omni-foreclosed properties while he was
an officer for Omni. Lawrence pled guilty in January 2011 to one count of receiv-
ing commissions or gifts for procurement of loans. In his role as a bank officer at
Omni, from February 2008 to March 2009, Lawrence had the authority to select
contractors to perform renovations on foreclosed properties the bank owned.
Lawrence corruptly accepted hundreds of thousands of dollars from contractors
who wanted to perform work on the Omni houses. Contractors who hoped to influ-
ence Lawrence paid him more than $600,000 in cash and services.
    On April 22, 2011, Jeffrey L. Levine, a former executive vice president of Omni
and head of the bank’s Community Redevelopment Lending Department, was
sentenced by the U.S. District Court for the Northern District of Georgia to serve
five years in prison on charges of causing materially false entries to be made on the
books, reports, and statements of the bank that overvalued the bank’s assets. Levine
and others at Omni failed to disclose many exceptions made to Omni’s policies and
procedures that resulted in Omni being exposed to greater risk of loss. Practices
that went unreported included: diversion of loan proceeds escrowed for rehab;
excessive credit concentrations to a single borrower; funding additional loans for
Omni foreclosures at ever-increasing amounts; and failing to create sufficient
reserves for those questionable loans or to properly record them on Omni’s books
and records.
    Also on April 22, 2011, Delroy Oliver Davy was sentenced by the same court to
serve 14 years in prison on charges of bank fraud and conspiring to commit bank,
mail, and wire fraud. Davy’s conduct included forming corporations and companies
to purchase properties from financial institutions secured by the FDIC, including
Omni. Davy would “flip” the properties within a short period of time to unquali-
fied “investors,” and arrange mortgage loans from banks based on false qualifying
information, all while concealing from the lenders that his own companies had
recently purchased the properties for amounts significantly less than the new loans.
Davy paid kickbacks to a loan officer at Omni, as well as to employees at another
lender, who approved the funding for his “investors.” Ultimately, Davy’s scheme
forced many properties into foreclosure, causing lenders, insurers and others to in-
cur millions of dollars in losses. Davy also collected money from investors by falsely
promising they would receive property, which they never received.
    Previously, Brent Merriell was sentenced in August 2010 to 39 months in prison
for his role in a scheme to prompt Omni to forgive $2.2 million in loans. Merriell
had pled guilty to charges of making false statements to the FDIC and six counts of
aggravated identity theft in connection with the scheme. In addition, Christopher
Bernard Loving was sentenced in August 2010 to three years of probation for mak-
ing false statements to agents of SIGTARP and the FDIC in connection with an
investigation of kickbacks he paid Lawrence for construction contracts.
22   special inspector general I troubled asset relief program




                                            Mount Vernon Money Center
                                            On June 16, 2011, Robert Egan, former president of the Mount Vernon Money
                                            Center (“MVMC”), and Bernard McGarry, former chief operating officer of
                                            MVMC, were sentenced by the U.S. District Court for the Southern District of
                                            New York to 11 and five years in prison, respectively, and three years of supervised
                                            release, for their roles in defrauding banks that had received TARP funds and other
                                            MVMC clients. An Order of Forfeiture in the amount of $70 million was also en-
                                            tered by the court. Restitution orders will be determined at a later date.
                                                As discussed in previous SIGTARP reports, Egan and McGarry each pled
                                            guilty in late 2010 to conspiracy to commit bank fraud and wire fraud. The guilty
                                            pleas arose from a scheme in which Egan and McGarry defrauded MVMC clients,
                                            including banks that had received TARP funds, universities, and hospitals, out of
                                            more than $60 million that had been entrusted to MVMC. MVMC engaged in var-
                                            ious cash management businesses, including replenishing cash in more than 5,300
                                            automated teller machines owned by financial institutions. From 2005 through
                                            February 2010, Egan and McGarry solicited and collected hundreds of millions
                                            of dollars from MVMC’s clients on the false representations that they would not
                                            co-mingle clients’ funds or use the funds for purposes other than those specified in
                                            the various contracts with their clients. Relying upon the continual influx of funds,
                                            Egan and McGarry misappropriated the clients’ funds for their own and MVMC’s
                                            use, to cover operating expenses of the MVMC operating entities, to repay prior
                                            obligations to clients, or for their own personal enrichment.
                                                This case was jointly investigated by SIGTARP, FBI and the U.S. Attorney’s
                                            Office for the Southern District of New York.

                                            The Park Avenue Bank
                                            On May 18, 2011, Carlos Peralta was sentenced by the U.S. District Court for
                                            the Southern District of New York to 12 months and one day of confinement and
                                            three years of supervised released for wire fraud. Peralta participated in a fraudu-
                                            lent investment scheme through which he caused the pastors of a church in Coral
                                            Springs, Florida, to wire $103,940 from a Florida bank account to one at The Park
                                            Avenue Bank (“Park Avenue Bank”) in New York.
                                                As discussed in previous SIGTARP reports, on October 8, 2010, Charles
                                            Antonucci, former president and CEO of Park Avenue Bank, pled guilty in the
                                            U.S. District Court for the Southern District of New York to offenses including
                                            securities fraud, making false statements to bank regulators, bank bribery, and
                                            embezzlement of bank funds. Antonucci had previously been arrested in March
                                            2010 after attempting to steal $11 million of TARP funds by, among other things,
                                            making fraudulent claims about the bank’s capital position related to a TARP ap-
                                            plication. With his guilty plea, Antonucci became the first defendant convicted of
                                            attempting to steal from the taxpayers’ investment in TARP.
                                                                                 quarterly report to congress I july 28, 2011              23




   The case is being investigated by SIGTARP, FBI, U.S. Immigration and
Customs Enforcement, the New York State Banking Department Criminal
Investigations Bureau, and FDIC OIG.

Karl Rodney (New York Carib News, Inc.)
On July 22, 2011, Karl B. Rodney was sentenced by the U.S. District Court for the
District of Columbia to two years’ probation, plus a fine and community service,
following his previous guilty plea to one count of making a false statement within
the jurisdiction of a Committee of the U.S. House of Representatives.
    As discussed in previous SIGTARP reports, on February 11, 2011, a criminal
information was filed in the U.S. District Court for the District of Columbia by
prosecutors with the Department of Justice’s Public Integrity Section charging
Rodney, co-founder of Carib News, Inc., and the Carib News Foundation, with
one count of making a false statement within the jurisdiction of a Committee of
the U.S. House of Representatives in seeking approval for a privately funded trip to
the “Carib News Foundation Multi-National Business Conference” in Antigua and
Barbuda in November 2007. Several key sponsors of the conference were TARP
recipient banks. The information charges Rodney with violating the Federal false
statement statute for failing to “identify [in the travel certification form submitted
to the Committee] all the sponsors of the trip” and for failing “to disclose [in the
certification form] all the sources that had earmarked funds and other support to
finance aspects of the trip.”
    The case was investigated by SIGTARP and FBI.

SIGTARP Audit Activity
SIGTARP has initiated a total of 28 audits and two evaluations since its inception.           A complete list of SIGTARP’s released
SIGTARP has issued a total of 14 audit reports, including one since the close of the          audit reports and audit engagement
                                                                                              memorandums since SIGTARP’s
quarter ended March 31, 2011. In addition, 13 other previously announced audits
                                                                                              inception is posted at www.sigtarp.gov/
and evaluations are in progress. Some examples of ongoing audits and evaluations
                                                                                              audits.shtml
include a review of the following: (i) process that Treasury and Federal banking
regulators established for banks to repay Treasury and exit TARP; (ii) criteria used          For a discussion of SIGTARP’s recom-
by Treasury to select states and programs to receive money under the Hardest Hit              mendations to Treasury to address weak-
Fund; (iii) review of Treasury and the Auto Task Force’s role in the decision of              nesses in Treasury’s Office of Financial
                                                                                              Stability (“OFS”) contracts for legal ser-
General Motors Company to “top up” the pension plan for hourly workers of Delphi
                                                                                              vices as well as OFS procedures for the
Automotive LLP; and (iv) application of the HAMP net present value test.
                                                                                              review of legal bills, see SIGTARP’s April
                                                                                              2011 Quarterly Report, pages 182-185.
Recent Audits Released
On April 14, 2011, SIGTARP released the audit report, “Treasury’s Process for
Contracting for Professional Services under the Troubled Asset Relief Program.”
24   special inspector general I troubled asset relief program




                                            SIGTARP Hotline
                                            One of SIGTARP’s primary investigative priorities is to operate the SIGTARP
                                            Hotline and thus provide a simple, accessible way for the American public to report
                                            concerns, allegations, information, and evidence of violations of criminal and civil
                                            laws in connection with TARP. From its inception in February 2009 through June
                                            30, 2011, the SIGTARP Hotline has received and analyzed more than 27,500
                                            Hotline contacts. These contacts run the gamut from expressions of concern over
                                            the economy to serious allegations of fraud involving TARP, and a substantial num-
                                            ber of SIGTARP’s investigations were generated in connection with Hotline tips.
                                            The SIGTARP Hotline can receive information anonymously. SIGTARP honors all
                                            applicable whistleblower protections and will provide confidentiality to the fullest
                                            extent possible. SIGTARP urges anyone aware of waste, fraud or abuse involving
                                            TARP programs or funds, whether it involves the Federal Government, state and
                                            local entities, private firms, or individuals, to contact its representatives at 877-SIG-
                                            2009 or www.sigtarp.gov.


                                            Communications with Congress
                                            One of the primary functions of SIGTARP is to ensure that members of Congress
                                            remain adequately and promptly informed of developments in TARP initiatives and
                                            of SIGTARP’s oversight activities. To fulfill that role, the Acting Special Inspector
                                            General and her staff meet regularly with and brief members and Congressional staff:

                                            •	 On April 26 and 28, 2011, Acting Special Inspector General Christy Romero
                                               presented open-ended briefings for Senate and House staff, respectively. The
                                               focus of each briefing was SIGTARP’s April 2011 Quarterly Report.
                                            •	 On June 14, 2011, Acting Special Inspector General Christy Romero testified
                                               before the House Committee on Financial Services, Subcommittee on Financial
                                               Institutions and Consumer Credit. The title of the hearing was “Does the Dodd
                                               Frank Act End ‘Too Big To Fail’?” Acting Special Inspector General Romero’s
                                               testimony included an overview of SIGTARP’s January 2011 Audit Report, en-
                                               titled “Extraordinary Financial Assistance Provided to Citigroup, Inc.” This audit
                                               examined the basis for the Government’s decision to deem Citigroup to be too
                                               systemically significant to be allowed to fail and to provide it with not just $25
                                               billion through the Capital Purchase Program, but also additional Government
                                               assistance in the amount of a $20 billion capital injection through the Targeted
                                               Investment Program and Government guarantees against losses on certain
                                               assets under the Asset Guarantee Program. Acting Special Inspector General
                                               Romero’s testimony also focused on the impact of TARP and the Dodd-Frank
                                               Wall Street Reform and Consumer Protection Act on the problems related to
                                               the continued existence of institutions deemed “too big to fail” and the process
                                               for designating systemically important financial institutions.
                                                                                 quarterly report to congress I july 28, 2011                 25




    Copies of the written testimony, hearing transcripts, and a variety of other mate-
rials associated with Congressional hearings since SIGTARP’s inception are posted
at www.sigtarp.gov/reports.shtml.



THE SIGTARP ORGANIZATION
SIGTARP has worked to build its organization through various complementary
strategies, leveraging the resources of other agencies, and, where appropriate
and cost-effective, obtaining services through SIGTARP’s authority to contract.
SIGTARP continues to make substantial progress in building its operation.
                                                                                           Figure 1.1
                                                                                           SIGTARP FY 2011
Hiring
                                                                                           PROPOSED OPERATING PLAN
As of June 30, 2011, SIGTARP had 146 personnel, including two detailees from               ($ MILLIONS, PERCENTAGE OF $40.2 MILLION)
FHFA. SIGTARP’s employees hail from many Federal agencies, including the
Justice Department, FBI, IRS-CI, Air Force Office of Special Investigations,                             Other Services
                                                                                                                $1.9, 5%
the Government Accountability Office (“GAO”), the Congressional Oversight
Panel for TARP, the Transportation Department, the Energy Department, the                   Advisory Services
                                                                                                        $5.4
SEC, the Secret Service, USPS, U.S. Army Criminal Investigation Command,
                                                                                                                13%
Naval Criminal Investigative Service, Treasury-Office of the Inspector General,
Department of Energy-Office of the Inspector General, Department of                                                                Salaries
                                                                                           Interagency     23%               55%   and
Transportation-Office of the Inspector General, Department of Homeland                     Agreements
                                                                                                 $9.4                              $22.0
Security-Office of the Inspector General, FDIC OIG, Office of the Special
Inspector General for Iraq Reconstruction, and HUD OIG. SIGTARP employees
                                                                                                        Travel/
also hail from various private-sector businesses and law firms. Hiring is ongoing.               Transportation
The SIGTARP organizational chart, as of July 3, 2011, can be found in Appendix I:                     $1.4, 4%

“Organizational Chart.”

                                                                                           Figure 1.2
Budget
On February 2, 2010, the Administration submitted to Congress Treasury’s fis-               SIGTARP FY 2012
cal year 2011 budget request, which includes SIGTARP’s full initial request for             PROPOSED BUDGET
                                                                                            ($ MILLIONS, PERCENTAGE OF $47.2 MILLION)
$49.6 million. Adjusting for the fiscal year 2011 pay-raise reduction, the annual
                                                                                                            Other Services
amount has been revised to $49.4 million. Public Law 111-242, Public Law 111-                                    $2.0, 4%
322, Public Law 112-4 and Public Law 112-6, the Continuing Appropriations Act
                                                                                                    Advisory Services
of 2011 as amended and extended through April 8, 2011, provides $18.9 mil-                                      $3.5
lion based on an annual estimate of $36.3 million. Figure 1.1 provides a detailed                                     7%
breakdown of SIGTARP’s fiscal year 2011 budget, which reflects an adjusted total             Interagency
                                                                                             Agreements
spending plan of $40.2 million, which includes, among other things, portions of                    $11.2        24%                Salaries
                                                                                                                           62%     and
SIGTARP’s initial funding that have not yet been spent.
    On February 14, 2011, the Administration submitted to Congress Treasury’s                                                      $29.2
                                                                                                 Travel/
fiscal year 2012 budget request, which includes SIGTARP’s funding request for             Transportation
                                                                                               $1.3, 3%
26   special inspector general I troubled asset relief program




                                            $47.4 million. Figure 1.2 provides a detailed breakdown of SIGTARP’s fiscal year
                                            2012 budget, which reflects a total of $47.2 million.

                                            Physical and Technical SIGTARP Infrastructure
                                            SIGTARP occupies office space at 1801 L Street, NW, in Washington, DC, the
                                            same office building in which most Treasury officials managing TARP are located.
                                            To facilitate more efficient and effective oversight across the nation, SIGTARP has
                                            regional offices in New York City, Los Angeles, San Francisco, and Atlanta.
                                                SIGTARP has a website, www.SIGTARP.gov, on which it posts all of its reports,
                                            testimony, audits, contracts, and more. Since its inception, SIGTARP’s website has
                                            had more than 50.7 million web “hits,” and there have been more than 3.6 million
                                            downloads of SIGTARP’s quarterly reports, which are available on the site.1




                                            1
                                                In October 2009 Treasury started to encounter challenges with its website counting system, and, as a result, changed to a new system
                                                in January 2010. SIGTARP has calculated the total number of website hits reported herein based on the number reported to SIGTARP
                                                as of September 30, 2009, plus an archived number provided by Treasury for October — December 2009 and information generated
                                                from Treasury’s new system from January 2010 through June 2011.
sect io n 2   tarp overview
28   special inspector general I troubled asset relief program
                                                                               quarterly report to congress I July 28, 2011            29




This section summarizes how the U.S. Department of the Treasury (“Treasury”)
has managed the Troubled Asset Relief Program (“TARP”). This section also
reviews TARP’s overall finances, provides updates on established TARP component
programs, and gives the status of TARP executive compensation restrictions.



TARP FUNDS UPDATE
Because TARP investment authority expired on October 3, 2010, no new
obligations may be made with TARP funds. However, dollars that have already                 Obligations: Definite commitments that
been obligated to existing programs may still be expended. As of October 3, 2010,           create a legal liability for the Govern-
$474.8 billion had been obligated to 13 announced programs. Of the obligated                ment to pay funds.
amount, as of June 30, 2011, $412.1 billion had been spent and $53.2 billion
remained obligated and available to be spent after accounting for reductions in
exposure related to the Asset Guarantee Program (“AGP”) and the termination of
equity and debt facilities for AIG and Chrysler, respectively, that were never drawn
down.1 According to Treasury, as of June 30, 2011, $130.5 billion of TARP funds
remained outstanding after accounting for losses and write-offs.
    Initial authorization for TARP funding came through the Emergency Economic
Stabilization Act of 2008 (“EESA”), which was signed into law on October 3,
2008.2 EESA appropriated $700 billion to “restore liquidity and stability to the
financial system of the United States.”3 On December 9, 2009, the Secretary of the
Treasury (“Treasury Secretary”) exercised the powers granted him under Section
120(b) of EESA and extended TARP through October 3, 2010.4 In accordance
with Section 106(e) of EESA, Treasury may expend TARP funds after October 3,
2010, as long as it does so pursuant to obligations entered into before that date.5
    The Dodd-Frank Wall Street Reform and Consumer Protection Act (“Dodd-
Frank Act”), which became law (Public Law 111-203) on July 21, 2010, amended
the timing and amount of TARP funding.6 The upper limit of the Treasury
Secretary’s authority to purchase and guarantee assets under TARP was reduced to
$475 billion from the original $700 billion available.
    With the expiration of TARP funding authorization, no new expenditures may
be made through the Capital Purchase Program (“CPP”), the Capital Assistance
Program (“CAP”), the Targeted Investment Program (“TIP”), AGP, the Auto Supplier
Support Program (“ASSP”), the Auto Warranty Commitment Program (“AWCP”),
the Unlocking Credit for Small Businesses (“UCSB”) initiative, the Community
Development Capital Initiative (“CDCI”), the Systemically Significant Failing
Institutions (“SSFI”) program, and the Automotive Industry Financing Program
(“AIFP”) because all obligated dollars have been spent. For three programs — the
Making Home Affordable (“MHA”) program, the Term Asset-Backed Securities
Loan Facility (“TALF”), and the Public-Private Investment Program (“PPIP”) —
dollars that were obligated but unspent as of October 3, 2010, are available to be
30   special inspector general I troubled asset relief program




                                            expended up to the obligated amount. No new obligations may be made for TARP
                                            programs. Table 2.1 provides a breakdown of program obligations, expenditures, and
                                            obligations available to be spent as of June 30, 2011. Table 2.1 lists 10 TARP sub-
                                            programs, instead of all 13, because it excludes CAP (which was never funded) and
                                            summarizes three programs under “Automotive Industry Support Programs.”
                                            Table 2.1

                                            OBLIGATIONS, EXPENDITURES, AND OBLIGATIONS AVAILABLE TO BE SPENT
                                            ($ Billions)
                                                                                                                                                                      Available to
                                            Program                                                         Obligation                 Expenditure                      Be Spent
                                            Housing Support Programs                                               $45.6                           $2.0                        $43.6
                                            CPP                                                                    204.9                         204.9                            0.0
                                            CDCI                                                                      0.6                            0.2                          0.0a
                                            SSFI                                                                    69.8                           67.8                           0.0
                                            TIP                                                                     40.0                           40.0                           0.0
                                            AGP                                                                       5.0                            0.0                          0.0
                                            TALF                                                                      4.3                            0.1                          4.2
                                            PPIP                                                                    22.4                           17.0                           5.4b
                                            UCSB                                                                      0.4                            0.4                          0.0
                                            Automotive Industry Support
                                                                                                                    81.8                           79.7                           0.0
                                            Programs (AIFP, ASSP, and AWCP)c
                                            Total                                                               $474.8                        $412.1                          $53.2d

                                            Notes: Numbers may not total due to rounding. Obligation figures are as of 10/3/2010 and expenditure figures are as of 6/30/2011.
                                            a
                                              CDCI obligation amount of $570.1 million. There are no remaining dollars to be spent on CDCI. Of the total obligation, $363.3 million
                                               was related to CPP conversions for which no additional CDCI cash was expended and $100.7 million was for new CDCI expenditures
                                               for previous CPP participants. Of the total obligation, only $106 million went to non-CPP institutions.
                                            b
                                               Total obligation of $22.4 billion and expenditure of $17 billion for PPIP includes $356.3 million of the initial obligation to The TCW
                                               Group, Inc. (“TCW”) that was funded. TCW subsequently repaid the funds that were invested in its PPIF; however, these dollars are not
                                               included in the amount available to be spent.
                                            c
                                               Obligations include $80.7 billion for AIFP, $0.6 billion for AWCP, and $0.4 billion for ASSP.
                                            d
                                               The $5 billion reduction in exposure under AGP is not included in the expenditure total because this amount was not an actual cash
                                               outlay.

                                            Sources: Treasury, Transactions Report, 7/1/2011, accessed 7/13/2011; Treasury, responses to SIGTARP data call, 7/8/2011,
                                            7/13/2011.



                                            Cost Estimates
                                            Several Government agencies are responsible under EESA for generating cost
                                            estimates for TARP, including the Office of Management and Budget (“OMB”), the
                                            Congressional Budget Office (“CBO”), and Treasury, whose estimated costs are au-
                                            dited each year by the Government Accountability Office (“GAO”). Beginning with
                                            CBO’s March 2009 cost estimate of a $356 billion loss and OMB’s August 2009
                                            cost estimate of a $341 billion loss, the cost estimates have continued to decrease.7
                                                On November 15, 2010, Treasury issued its fiscal year audited agency financial
                                            statements for TARP, which contained its cost estimate as of September 30, 2010.
                                            Treasury estimated that the ultimate cost of TARP would be $78 billion, down from
                                            its previous cost estimates of $101 billion on May 13, 2010, and $105 billion on
                                            March 31, 2010.
                                                                              quarterly report to congress I July 28, 2011   31




     On February 14, 2011, OMB issued the Administration’s fiscal year 2012
budget proposal, which contained an estimated lifetime cost estimate for TARP of
$48 billion. In calculating the estimate, OMB used data as of November 30, 2010.8
Postings on Treasury’s website indicate that Treasury appears to have adopted the
$48 billion estimate in the Administration’s fiscal year 2012 budget.9 The $48
billion estimate assumes that all housing funds will be spent. However, in its most
recent 105(a) report to Congress, Treasury estimated that as of March 31, 2011,
the ultimate cost of TARP would be $49.3 billion.10
     On March 29, 2011, CBO issued an updated TARP cost estimate based on its
evaluation as of March 3, 2011.11 CBO estimated that the ultimate cost of TARP
would be $19 billion.12
     The most recent TARP program cost estimates from each agency are listed in
Table 2.2.
     According to Treasury, the highest losses from TARP are expected to come
primarily from housing programs and assistance to AIG and the automotive
industry.13 A notable difference exists between CBO’s estimate for TARP housing
programs, which assumes that only $13 billion of the $46 billion obligated will be
spent, and Treasury’s and OMB’s assertions that all of the obligated funds will be
expended.14
32   special inspector general I troubled asset relief program




                                            Table 2.2

                                            Cost (gain) of TARP Programs                               ($ Billions)
                                                                                             OMB Estimate,                                             Treasury Estimate,
                                                                                             President’s FY                        CBO               TARP Audited Agency
                                            Program Name                                      2012 Budget                      Estimate               Financial Statement
                                               Report issued:                                  2/14/2011                     3/29/2011                       11/15/2010
                                               Data as of:                                    11/30/2010                      3/3/2011                        9/30/2010
                                            Housing Support Programs                                    $46                         $13                               $46
                                            CPP                                                                (6)                       (16)                                    (11)
                                            SSFI                                                               12                         14                                      37
                                            TIP and AGP                                                        (7)                         (7)                                    (8)
                                            TALF                                                                 0                          0                                      0
                                            PPIP                                                                 0                          0                                     (1)
                                            Automotive Industry Support
                                                                                                               20                         14                                      15
                                            Programsa
                                            Otherb                                                               *                          *                                      *
                                            Total                                                            $64                        $19c                                     $78d
                                            Interest on Reestimatese                                         (16)
                                            Adjusted Total                                                  $48d
                                            Notes: Numbers may not total due to rounding.
                                            a
                                              Includes AIFP, ASSP, and AWCP.
                                            b
                                               Consists of CDCI and UCSB, both of which have estimated costs between negative $500 million and $500 million.
                                            c
                                              The estimate is before administrative costs and interest effects.
                                            d
                                               The estimate includes interest on reestimates but excludes administrative costs.
                                            e
                                              Cumulative interest on reestimates is an adjustment for interest effects on changes in TARP subsidy costs from original subsidy
                                               estimates; such amounts are a component of the deficit impacts of TARP programs but are not a direct programmatic cost.
                                            Sources: OMB Estimate—OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2012,” 2/14/2011,
                                            www.whitehouse.gov/sites/default/files/omb/budget/fy2012/assets/spec.pdf, accessed 7/14/2011; CBO Estimate—CBO, “Report
                                            on the Troubled Asset Relief Program–March 2011,” 3/2011, www.cbo.gov/ftpdocs/121xx/doc12118/03-29-TARP.pdf, accessed
                                            7/14/2011; CBO, response to SIGTARP data call, 3/31/2011; Treasury Estimate—Treasury, “Office of Financial Stability Agency
                                            Financial Report–Fiscal Year 2010,” 9/30/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/
                                            Documents/2010%200FS%20AFR%20Nov%2015.pdf, accessed 7/14/2011.




                                            FINANCIAL OVERVIEW OF TARP
                                            The enactment of the Dodd-Frank Act reduced TARP’s maximum investment
                                            authority from $698.8 billion to $475 billion.15 The $698.8 billion represented the
                                            initial $700 billion authorized for TARP by EESA less a $1.2 billion reduction as a
                                            result of the Helping Families Save Their Homes Act of 2009.16 Treasury has obli-
                                            gated $474.8 billion of the $475 billion. Of the total obligations, $412.1 billion was
                                            expended as of June 30, 2011, through 13 announced programs intended to sup-
                                            port U.S. financial institutions, companies, and individual mortgage borrowers.17
                                                 According to Treasury, as of June 30, 2011, 120 TARP recipients had paid back
                                            all of their principal or repurchased shares and 21 TARP recipients had partially
                                            repaid their principal or repurchased their shares, for a total of $269 billion.18
                                            According to Treasury, as of June 30, 2011, $130.5 billion of TARP funds remained
                                            outstanding, including losses and write-offs. There remains approximately $53.2
                                            billion still available to be spent.19 Figure 2.1 provides a snapshot of the cumula-
                                            tive obligations, expenditures, repayments, and exposure reductions as of June 30,
                                                                                    quarterly report to congress I July 28, 2011                                 33




                                                                                               Figure 2.1
2011. As of June 30, 2011, the Government had also collected $39 billion in inter-
                                                                                               CUMULATIVE TARP OBLIGATIONS,
est, dividends, and other income, including approximately $9 billion in proceeds               EXPENDITURES, REPAYMENTS, AND
from the sale of warrants and stock received as a result of exercised warrants.20              REDUCTIONS IN EXPOSURE
                                                                                               ($ BILLIONS)
    Most of the outstanding TARP money is in the form of equity ownership in
troubled, or previously troubled, companies. Treasury (and therefore the tax-                 $500

payer) remains a shareholder in companies that have not repaid the Government.                          $474.8
                                                                                               400
Treasury’s equity ownership is largely in two forms — common and preferred stock                                             $412.1
— although it also has received debt in the form of senior subordinated debentures.            300
    As of June 30, 2011, obligated funds totaling $53.2 billion were still available to
                                                                                               200                                                $269.0
be drawn down by TARP recipients under three of TARP’s 13 announced pro-
grams.21 TARP’s component programs fall into four categories, depending on the
                                                                                               100
type of assistance offered:
                                                                                                  0

•	 Housing Support Programs — These programs are intended to help home-                               TARP                 TARP                TARP
                                                                                                      Obligationsa         Expendituresb       Repaymentsc
   owners who are having trouble making their mortgage payments by subsidizing
                                                                                                      Notes: Numbers may not total due to rounding.
   loan modifications, loan servicer costs, potential equity declines, and incentives                 Obligations reported as of 10/3/2010. Expenditures
                                                                                                      and repayments and reductions in exposure reported
   for foreclosure alternatives.                                                                      as of 6/30/2011.
•	 Financial Institution Support Programs — These programs share a common                             a
                                                                                                        Treasury experienced a $2.6 billion loss on some
                                                                                                        investments under the Capital Purchase Program
   stated goal of stabilizing financial markets and improving the economy.                            b
                                                                                                        (“CPP”).
                                                                                                        Expenditure total does not include $5.0 billion for
•	 Asset Support Programs — These programs attempt to support asset values                              AGP as this amount was not an actual cash outlay.
                                                                                                      c
                                                                                                        Repayments include $180.6 billion for CPP, $40.0
   and market liquidity by providing funding to certain holders or purchasers of                        billion for TIP, $34.7 billion for auto programs, $1.1
                                                                                                        billion for PPIP, $12.8 billion for SSFI. The $12.8
   assets.                                                                                              billion payment for SSFI includes amounts applied to
                                                                                                        pay (i) accrued preferred returns, (ii) redeem the
•	 Automotive Industry Support Programs — These programs are intended to                                outstanding liquidation amount, and according to
                                                                                                        Treasury, does not include proceeds from the sale
   stabilize the U.S. automotive industry and promote market stability.                                 of AIG stock that Treasury received from the AIG
                                                                                                        Credit Facility Trust during the January 2011
                                                                                                        Recapitalization.

Housing Support Programs                                                                               Sources: Treasury, Transactions Report, 7/1/2011;
                                                                                                       accessed 7/13/2011; Treasury, response to
The stated purpose of TARP’s housing support programs is to help homeown-                              SIGTARP data call, 7/8/2011.

ers and financial institutions that hold troubled housing-related assets. Although
Treasury originally committed to use $50 billion in TARP funds for these programs,
it obligated only $45.6 billion.22 As of June 30, 2011, $2 billion, or 4.3% of this
amount, has been expended.


 Common Stock: Equity ownership entitling     Preferred Stock: Equity ownership that         Senior Subordinated Debentures: Debt
 an individual to share in corporate earn-    usually pays a fixed dividend before distri-   instrument ranking below senior debt but
 ings and voting rights.                      butions for common stock owners but only       above equity with regard to investors’
                                              after payments due to debt holders and         claims on company assets or earnings.
                                              depositors. It typically confers no voting
                                              rights. Preferred stock also has priority
                                              over common stock in the distribution
                                              of assets when a bankrupt company is
                                              liquidated.
34   special inspector general I troubled asset relief program




                                            •	 Making Home Affordable (“MHA”) Program — According to Treasury, this
                                               foreclosure mitigation effort is intended to “help bring relief to responsible
                                               homeowners struggling to make their mortgage payments, while preventing
                                               neighborhoods and communities from suffering the negative spillover effects of
                                               foreclosure, such as lower housing prices, increased crime, and higher taxes.”23
                                               MHA, for which Treasury has obligated $29.9 billion, has many components,
                                               including several funded through TARP: the Home Affordable Modification
                                               Program (“HAMP”), the Federal Housing Administration (“FHA”) HAMP loan
                                               modification option for FHA-insured mortgages (“Treasury/FHA-HAMP”), the
                                               U.S. Department of Agriculture Office of Rural Development (“RD”) HAMP
                                               (“RD-HAMP”), and the Second-Lien Modification Program (“2MP”).24 HAMP
                                               in turn encompasses various initiatives in addition to the modification of
                                               first-lien mortgages, including the Home Affordable Foreclosure Alternatives
                                               (“HAFA”) program, the Home Price Decline Protection (“HPDP”) program, the
                                               Home Affordable Unemployment Program (“UP”), and the Principal Reduction
                                               Alternative (“PRA”) program. HAMP is intended to help homeowners with
                                               mortgage modifications and foreclosure-prevention efforts.25 Additionally, part
                                               of the overall MHA obligation of $29.9 billion includes $2.7 billion to support
                                               the Treasury/FHA Second-Lien Program (“FHA2LP”), which complements the
                                               FHA Short Refinance program (discussed later) and is intended to support the
                                               extinguishment of second-lien loans.26
                                                   As of June 30, 2011, MHA had expended $2 billion of TARP money.27 Total
                                               expenditures in incentives and payments for HAFA were $37.9 million in con-
                                               nection with 10,280 deed-in-lieu and short sale transactions. Expenditures in
                                               incentives and payments for 2MP were $27.5 million in connection with 2,564
                                               full extinguishments, 1,303 partial extinguishments, and 29,848 permanent
                                               modifications of second-liens.28 As of June 30, 2011, there were 299,334 active
                                               permanent first-lien modifications under the completed TARP-funded portion of
                                               HAMP, an increase of 32,880 active permanent modifications over the past quar-
                                               ter.29 For more detailed information, including participation numbers for each
                                               of the MHA programs and subprograms, see the “Housing Support Programs”
                                               discussion in this section.
                                            •	 Housing Finance Agency (“HFA”) Hardest-Hit Fund (“HHF”) — The stated
                                               purpose of this program was to provide TARP funds to create “measures to help
                                               families in the states that have been hit the hardest by the aftermath of the burst
                                               of the housing bubble.”30 Treasury obligated $7.6 billion for this program in four
                                               increments: an initial amount of $1.5 billion made available on June 23, 2010;
                                               a second amount of $600 million made available on August 3, 2010; a third
                                               amount of $2 billion made available on September 23, 2010; and a final amount
                                               of $3.5 billion made available on September 29, 2010.31 As of June 30, 2011,
                                               $0.5 billion had been drawn down by the states from the Hardest-Hit Fund,
                                                                                  quarterly report to congress I July 28, 2011               35




   which includes funds for program expenses (direct assistance to borrowers), ad-
   ministrative expenses and cash-on-hand.32 See the “Housing Support Programs”
   discussion in this section for more detailed information.
•	 FHA Short Refinance — Treasury has allocated $8.1 billion of TARP funding
   to this program to purchase a letter of credit to provide loss protection on refi-
   nanced first-liens. Additionally, to facilitate the refinancing of non-FHA mort-
   gages into new FHA-insured loans under this program, Treasury has allocated
   approximately $2.7 billion in TARP funds for incentive payments to servicers
   and holders of existing second-liens for full or partial principal extinguishments
   under the related FHA2LP; these funds are part of the overall MHA funding of
   $29.9 billion, as noted above.33 As of June 30, 2011, there had been 257 refi-
   nancings under the program.34 For more detailed information, see the “Housing
                                                                                               Systemically Significant Institutions:
   Support Programs” discussion in this section.
                                                                                               Term referring to any financial institu-
                                                                                               tion whose failure would impose signifi-
Financial Institution Support Programs                                                         cant losses on creditors and counter-
Treasury primarily invests capital directly into the financial institutions it aids.           parties, call into question the financial
For TARP purposes, financial institutions included banks, bank holding compa-                  strength of similar institutions, disrupt
nies, and, if deemed critical to the financial system, some systemically significant           financial markets, raise borrowing
institutions.35                                                                                costs for households and businesses,
                                                                                               and reduce household wealth.
•	 Capital Purchase Program (“CPP”) — Under CPP, Treasury directly pur-
   chased preferred stock or subordinated debentures in qualifying financial insti-            Qualifying Financial Institutions (“QFIs”):
   tutions (“QFIs”).36 CPP was intended to provide funds to “stabilize and strength-           Private and public U.S.-controlled
                                                                                               banks, savings associations, bank
   en the U.S. financial system by increasing the capital base of an array of healthy,
                                                                                               holding companies, certain savings and
   viable institutions, enabling them [to] lend to consumers and business[es].”37
                                                                                               loan holding companies, and mutual
   Treasury invested $204.9 billion in 707 institutions through CPP. As of June 30,
                                                                                               organizations.
   2011, Treasury had received $180.6 billion in principal repayments and pro-
   ceeds from sales of common stock (or 88.1% of Treasury’s expenditures under                 Community Development Financial
   CPP).38 Of the repaid amount, $355.7 million comes from the principal that                  Institutions (“CDFIs”): Financial institu-
   was converted from CPP investments into CDCI and therefore still repre-                     tions eligible for Treasury funding to
   sents outstanding obligations to TARP.39 CPP closed on December 29, 2009.40                 serve urban and rural low-income
   Treasury continues to manage its portfolio of CPP investments, including, for               communities through the CDFI Fund.
   certain struggling institutions, converting its preferred equity ownership into a           CDFIs were created in 1994 by the
   more junior form of equity ownership, often at a discount to par value (which               Riegle Community Development and
   may result in a loss) in an attempt to preserve some value that might be lost if            Regulatory Improvement Act. These
   these institutions were to fail. For more detailed information, see the “Capital            entities must be certified by Treasury;
                                                                                               certification confirms that they target
   Purchase Program” discussion in this section.
                                                                                               at least 60% of their lending and other
•	 Community Development Capital Initiative (“CDCI”) — Under CDCI,
                                                                                               economic development activities to ar-
   Treasury used TARP money to buy preferred stock in or subordinated debt from
                                                                                               eas underserved by traditional financial
   Community Development Financial Institutions (“CDFIs”). Treasury intended                   institutions.
   for CDCI to “improve access to credit for small businesses in the country’s
36   special inspector general I troubled asset relief program




                                               hardest-hit communities.”41 Under CDCI, TARP made capital investments in
                                               the preferred stock or subordinated debt of eligible banks, bank holding compa-
                                               nies, thrifts, and credit unions.42 Eighty-four institutions have received $570.1
                                               million in funding under CDCI.43 However, 28 of these institutions converted
                                               their existing CPP investment into CDCI ($363.3 million of the $570.1 million)
                                               and ten of those that converted received combined additional funding of $100.7
                                               million under CDCI.44 Only $106 million of CDCI money went to institutions
                                               that were not already TARP recipients.
                                            •	 Small Business Lending Fund (“SBLF”) — On September 27, 2010, the
                                               President signed into law the Small Business Jobs Act of 2010, which created
                                               the SBLF with a $30 billion authorization. The Administration intends for the
                                               fund to stimulate small-business lending.45 Under SBLF, Treasury invests capital
                                               in banks and other financial institutions with less than $10 billion in assets
                                               in return for preferred shares or debt instruments, in a manner similar to that
                                               followed under CPP and CDCI, albeit with incentives to increase certain types
                                               of lending and with fewer governance provisions.46 On December 20, 2010,
                                               Treasury published terms under which CPP and CDCI recipients are permitted
                                               to refinance into SBLF.47 Although this program operates outside of TARP, many
                                               TARP recipients will likely convert their investments from CPP to SBLF and
                                               thus could benefit from lower dividend rates, non-cumulative dividends, and
                                               the removal of rules on executive compensation and luxury expenditures.48 As of
                                               June 30, 2011, Treasury had received 927 applications, of which 319 were from
                                               existing TARP recipients (which includes 314 CPP participants and five CDCI
                                               participants) that had applied to refinance their investments under SBLF.49 For
                                               more detailed information, see the “Small-Business Lending Initiatives” discus-
                                               sion in this section.
                                            •	 Systemically Significant Failing Institutions (“SSFI”) Program — SSFI en-
                                               abled Treasury to invest in systemically significant institutions to prevent them
                                               from failing.50 Only one firm received SSFI assistance: American International
                                               Group, Inc. (“AIG”). There were two TARP investments in AIG. On November
                                               25, 2008, Treasury bought $40 billion of AIG’s preferred stock, the proceeds of
                                               which were used to repay a portion of AIG’s debt to the Federal Reserve Bank
                                               of New York (“FRBNY”). Then, on April 17, 2009, Treasury obligated approxi-
                                               mately $29.8 billion to an equity capital facility that AIG was been allowed to
                                               draw on as needed.51
                                                    On January 14, 2011, AIG executed its previously announced
                                               Recapitalization Plan with Treasury, FRBNY, and the AIG Credit Facility Trust
                                               (“AIG Trust”). According to Treasury, the intent of the restructuring was to fa-
                                               cilitate the repayment of AIG’s government loans and investments.52 In carrying
                                               out the Recapitalization Plan:
                                               çç AIG repaid and terminated its revolving credit facility with FRBNY with cash
                                                                                 quarterly report to congress I July 28, 2011            37




        proceeds that it had received from sales of equity interests in two compa-
        nies: American International Assurance Co., Ltd. (“AIA”) and American Life
        Insurance Company (“ALICO”).53
   çç AIG redeemed FRBNY’s remaining $6.1 billion interest in the special
        purpose vehicles (“SPVs”) that hold AIA and ALICO.54 AIG next drew down
        an additional $20.3 billion in available TARP funds from the equity capital
        facility and purchased an equivalent amount of FRBNY’s preferred interest
        in the SPVs; AIG then provided the preferred interest to Treasury. AIG desig-
        nated its remaining $2 billion TARP equity capital facility to a new Series G
                                                                                              Special Purpose Vehicle (“SPV”): Off-
        standby equity commitment available for general corporate purposes, which
                                                                                              balance-sheet legal entity that holds
        was terminated this quarter.55
                                                                                              transferred assets presumptively be-
   çç AIG issued common stock in exchange for the preferred shares held by
                                                                                              yond the reach of the entities providing
        Treasury and the AIG Trust. The conversion of the TARP preferred stock                the assets, and is legally isolated.
        increased the Government’s total common equity ownership in AIG from
        79.8% to approximately 92.1%.56                                                       Senior Preferred Stock: Shares that
        On May 27, 2011, Treasury sold 200 million shares of AIG’s common stock               give the stockholder priority dividend
   for $5.8 billion in proceeds, which decreased Treasury’s equity ownership to               and liquidation claims over junior pre-
   77%. Pursuant to the terms of the Recapitalization Plan, the Series G standby              ferred and common stockholders.
   equity commitment was terminated.57 For more detailed information on the
   Recapitalization Plan, the sale of AIG common stock, and other AIG transac-                Illiquid Assets: Assets that cannot be
   tions, see the “Systemically Significant Failing Institutions Program” discussion          quickly converted to cash.
   in this section.
                                                                                              Trust Preferred Securities (“TRUPS”):
•	 Targeted Investment Program (“TIP”) — Through TIP, Treasury invested in
                                                                                              Securities that have both equity and
   financial institutions it deemed critical to the financial system.58 There were two
                                                                                              debt characteristics, created by estab-
   expenditures under this program, totaling $40 billion — the purchases of $20
                                                                                              lishing a trust and issuing debt to it.
   billion each of senior preferred stock in Citigroup Inc. (“Citigroup”) and Bank
   of America Corp. (“Bank of America”).59 Treasury also accepted common stock
   warrants from each, as required by EESA. Both banks fully repaid Treasury
   for its TIP investments.60 Treasury auctioned its Bank of America warrants on
   March 3, 2010, and auctioned its Citigroup warrants on January 25, 2011.61
   For more information on these two transactions, see the “Targeted Investment
   Program and Asset Guarantee Program” discussion in this section.
•	 Asset Guarantee Program (“AGP”) — AGP was designed to provide insur-
   ance-like protection for a select pool of mortgage-related or similar assets
   held by participants whose portfolios of distressed or illiquid assets threatened
   market confidence.62 Treasury, the Federal Deposit Insurance Corporation
   (“FDIC”), and the Federal Reserve offered certain loss protections in connec-
   tion with $301 billion in troubled Citigroup assets.63 In exchange for providing
   the loss protection, Treasury received $4 billion of preferred stock that was
   later converted to trust preferred securities (“TRUPS”) on a dollar-for-dollar
   basis. The FDIC received $3 billion of preferred stock that was similarly
38            special inspector general I troubled asset relief program




                                                        converted.64 On December 23, 2009, in connection with Citigroup’s TIP repay-
                                                        ment, Citigroup and the Government terminated the AGP agreement. Under
                                                        the agreement, Treasury’s guarantee commitment was terminated with no
                                                        loss to the Government. In addition, Treasury agreed to cancel $1.8 billion of
                                                        the TRUPS issued by Citigroup, reducing the amount of preferred stock from
                                                        $4.0 billion to $2.2 billion, in exchange for early termination of the guarantee.
                                                        Additionally, the FDIC and Treasury agreed that at the close of Citigroup’s
                                                        participation in the FDIC’s Temporary Liquidity Guarantee Program, the FDIC
                                                        will transfer to Treasury $800 million of TRUPS that it retained as a premium,
                                                        if no loss is suffered.65 On September 30, 2010, Treasury announced the sale of
                                                        all of its TRUPS for $2.2 billion in gross proceeds, which represents a profit to
                                                        taxpayers.66 On January 25, 2011, Treasury auctioned for $67.2 million the war-
                                                        rants it had received from Citigroup under AGP.67 For more information on this
                                                        program, see the “Targeted Investment Program and Asset Guarantee Program”
                                                        discussion in this section.

                                                     Asset Support Programs
                                                     The stated purpose of these programs was to support the liquidity and market value
                                                     of assets owned by financial institutions. These assets included various classes of
     Asset-Backed Securities (“ABS”): Bonds          asset-backed securities (“ABS”) and several types of loans. Treasury’s asset support
     backed by a portfolio of consumer               programs sought to bolster the balance sheets of financial firms and help free capi-
     or corporate loans, e.g., credit card,          tal so that these firms could extend more credit to support the economy.
     auto, or small-business loans. Financial
     companies typically issue ABS backed            •	 Term Asset-Backed Securities Loan Facility (“TALF”) — TALF was origi-
     by existing loans in order to fund new
                                                        nally designed to increase credit availability for consumers and small businesses
     loans for their customers.
                                                        through a $200 billion Federal Reserve loan program. TALF provided inves-
                                                        tors with non-recourse loans secured by certain types of ABS, including credit
     Commercial Mortgage-Backed Securi-
                                                        card receivables, auto loans, equipment loans, student loans, floor plan loans,
     ties (“CMBS”): Bonds backed by one
     or more mortgages on commercial                    insurance-premium finance loans, loans guaranteed by the Small Business
     real estate (e.g., office buildings, rental        Administration (“SBA”), residential mortgage servicing advances, and commer-
     apartments, hotels).                               cial mortgage-backed securities (“CMBS”).68 TALF closed to new loans on June
                                                        28, 2010.69 TALF ultimately provided $71.1 billion in Federal Reserve financ-
                                                        ing. Of that amount, as of June 30, 2011, $12.7 billion remained outstanding.70
                                                        FRBNY facilitated 13 TALF subscriptions of non-mortgage-related ABS over
                                                        the life of the program totaling approximately $59.0 billion, with $9.9 billion of
                                                        TALF borrowings outstanding as of June 30, 2011.71 FRBNY also conducted 13
                                                        CMBS subscriptions totaling $12.1 billion, with $2.8 billion in loans outstand-
                                                        ing as of June 30, 2011.72 Treasury originally obligated $20 billion of TARP
                                                        funds to support this program by providing loss protection to the loans extended
                                                        by FRBNY in the event that a borrower surrendered the ABS collateral and
                                                        walked away from the loan.73 As of June 30, 2011, there had been no surrender
                                                                                quarterly report to congress I July 28, 2011              39




   of collateral.74 Treasury reduced its obligation for TALF to $4.3 billion based on
   the amount of loans outstanding at the end of the active lending phase of the
   program in June 2010. As of June 30, 2011, $15.8 million in TARP funds had
   been allocated under TALF for administrative expenses.75 For more information
   on these activities, see the “TALF” discussion in this section.
•	 Public-Private Investment Program (“PPIP”) — PPIP’s goal was to restart
   credit markets by using a combination of private equity, matching Government              Legacy Securities: Real estate-related
   equity, and Government debt to purchase legacy securities, i.e., CMBS and                 securities originally issued before
   non-agency residential mortgage-backed securities (“non-agency RMBS”).76                  2009 that remained on the balance
   Under the program, eight Public-Private Investment Funds (“PPIFs”) managed                sheets of financial institutions because
   by private asset managers invested in non-agency RMBS and CMBS. Treasury                  of pricing difficulties that resulted from
                                                                                             market disruption.
   has obligated $22.4 billion.77 As of June 30, 2011, the current PPIFs had drawn
   down $17 billion in debt and equity financing from Treasury funding out of the
                                                                                             Non-Agency Residential Mortgage-
   total obligation, which includes $1.1 billion that has been repaid.78 As the PPIFs
                                                                                             Backed Securities (“non-agency
   continue to make purchases, they will continue to have access to draw down                RMBS”): Financial instrument backed
   the remaining funding through the end of their respective investment periods,             by a group of residential real estate
   the last of which will close in December 2012.79 For details about the program            mortgages (i.e., home mortgages for
   structure and fund-manager terms, see the “Public-Private Investment Program”             residences with up to four dwelling
   discussion in this section.                                                               units) not guaranteed or owned by
•	 Unlocking Credit for Small Businesses (“UCSB”)/Small Business                             a Government-sponsored enterprise
   Administration (“SBA”) Loan Support Initiative — In March 2009, Treasury                  (“GSE”) or a Government Agency.
   officials announced that Treasury would buy up to $15 billion in securities
   backed by SBA loans under UCSB.80 Treasury entered into agreements with                   SBA Pool Certificate: Ownership
   two pool assemblers, Coastal Securities, Inc. (“Coastal Securities”), and Shay            interest in a bond backed by SBA
                                                                                             guaranteed loans.
   Financial Services, Inc. (“Shay Financial”).81 Under the agreements, Treasury’s
   agent, EARNEST Partners, purchased SBA pool certificates from Coastal
   Securities and Shay Financial without confirming to the counterparties that
   Treasury was the buyer.82 Treasury obligated a total of $400 million for UCSB
   and made purchases of $368.1 million in securities under the program. On June
   2, 2011, Treasury announced its intention to sell the securities over time. As of
   June 30, 2011, Treasury had completed sales of a total of 12 SBA 7(a) securities
   for gross proceeds of $151.5 million.83 For more information on the program,
   see the discussion of “Unlocking Credit for Small Businesses/Small Business
   Administration Loan Support” in this section.

Automotive Industry Financing Program (“AIFP”)
TARP’s automotive industry support through AIFP aimed to “prevent a significant
disruption of the American automotive industry, which would pose a systemic
risk to financial market stability and have a negative effect on the economy of the
United States.”84
40   special inspector general I troubled asset relief program




                                                Through AIFP, Treasury made emergency loans to Chrysler Holding LLC
                                            (“Chrysler”), Chrysler Financial Services Americas LLC (“Chrysler Financial”), and
                                            General Motors Company (“GM”). Additionally, Treasury bought senior preferred
                                            stock from GMAC Inc. (“GMAC”), which was later renamed Ally Financial Inc.
                                            (“Ally Financial”), and assisted Chrysler and GM during their bankruptcy restruc-
                                            turings. Treasury obligated $84.8 billion to AIFP, then reduced the total obligation
                                            to $81.8 billion.85 As of June 30, 2011, $79.7 billion had been disbursed through
                                            AIFP and Treasury had received $34.7 billion principal repayments and stock sale
                                            proceeds. These investments paid an additional $4.3 billion in dividends, interest,
                                            and fees.86 These figures include the amounts related to AIFP, ASSP, and AWCP.
                                                With respect to AIFP support to GM, in return for a total of $49.5 billion
                                            in loans, Treasury received $6.7 billion in debt in GM (which was subsequently
                                            repaid), in addition to $2.1 billion in preferred stock and a 60.8% common equity
                                            stake.87 A separate $985.8 million loan was left behind with Old GM for wind-
                                            down costs associated with its liquidation, for which Treasury was granted an
                                            allowed administrative expense once Old GM’s Plan of Liquidation went into effect
                                            on March 31, 2011.88 On December 2, 2010, GM closed an initial public offering
                                            (“IPO”) in which Treasury sold a portion of its ownership stake for $18.1 billion in
                                            gross proceeds, reducing its ownership percentage to 33.3% (an amount that could
                                            be diluted should GM’s bondholders or the United Auto Workers Retiree Medical
                                            Benefits Trust exercise warrants they received).89 On December 15, 2010, GM
                                            repurchased the $2.1 billion in preferred stock from Treasury. As of June 30, 2011,
                                            Treasury has received $22.4 billion in principal repayments and proceeds from the
                                            sale of common stock from GM, including approximately $110.9 million in repay-
                                            ments related to its right to recover proceeds from Old GM.90
                                                With respect to AIFP support to Chrysler, Treasury provided $12.5 billion in
                                            loan commitments to Chrysler, Inc. (“Old Chrysler”), and Chrysler Group LLC
                                            (“New Chrysler”), of which $2.1 billion was never drawn down.91 Treasury also
                                            received a 9.9% equity stake, which was diluted to 8.6% in April 2011 after Fiat
                                            increased its ownership interest by meeting certain performance metrics. Upon full
                                            repayment of New Chrysler’s TARP debt obligations on May 24, 2011, Fiat simul-
                                            taneously exercised an equity call option, which increased its stake in New Chrysler
                                            to 46% from 30%. As a result, Treasury’s equity stake in New Chrysler was diluted
                                            and further decreased to 6.6%.92 On June 2, 2011, Treasury agreed to sell to Fiat
                                            Treasury’s remaining equity ownership interest in New Chrysler and Treasury’s in-
                                            terest in an agreement with the United Auto Workers (“UAW”) VEBA retiree trust,
                                            subject to certain closing conditions.93 Treasury retains the right to recover certain
                                            proceeds from Old Chrysler’s bankruptcy.
                                                With respect to AIFP support to Ally Financial, Treasury invested a total of
                                            $17.2 billion. On December 30, 2010, Treasury’s investment was restructured
                                            to provide for a 73.8% common equity stake, $2.7 billion in TRUPS (including
                                                                                   quarterly report to congress I July 28, 2011   41




amounts received in warrants that were immediately converted into additional
securities), and $5.9 billion in mandatorily convertible preferred shares.94 Treasury
sold the $2.7 billion in TRUPS on March 2, 2011.95 On March 31, 2011, Ally
Financial announced that it had filed a registration statement with the Securities
and Exchange Commission (“SEC”) for a proposed initial public offering of com-
mon stock owned by Treasury. On May 17, 2011, Ally Financial disclosed addi-
tional details about its upcoming IPO in an amended negotiation statement filed
with the SEC. Concurrent with the IPO, Treasury plans to convert $2.9 billion of
its existing $5.9 billion of mandatorily convertible preferred shares (“MCP”) into
common stock.96 Treasury will exchange the remaining $3 billion of its MCP into
so-called tangible equity units, a type of preferred stock, and will offer a portion of
these tangible equity units alongside the common equity offering.97 As of the draft-
ing of this report, the timing of the offering, the number of shares to be offered,
and the price range had yet to be determined.98
    For details on assistance to these companies, see the “Automotive Industry
Support Programs” discussion in this section.
    AIFP also included two subprograms:

•	 Auto Supplier Support Program (“ASSP”) — According to Treasury, this pro-
   gram was intended to provide auto suppliers “with the confidence they need to
   continue shipping their parts and the support they need to help access loans to
   pay their employees and continue their operations.”99 The original allocation of
   $5 billion was reduced to $3.5 billion — $1 billion for Chrysler and $2.5 billion
   for GM.100 Of the $3.5 billion available, only $413.1 million was borrowed.101
   After purchasing substantially all of the assets of Old GM and Old Chrysler,
   New GM and New Chrysler assumed the respective debts associated with
   ASSP.102 After repayment of all funds expended under ASSP, along with $115.9
   million in interest, fees, and other income, ASSP ended on April 5, 2010, for
   GM and on April 7, 2010, for Chrysler.103 For more information, see the “Auto
   Supplier Support Program” discussion in this section.
•	 Auto Warranty Commitment Program (“AWCP”) — This program was
   designed to bolster consumer confidence by guaranteeing Chrysler and GM
   vehicle warranties during the companies’ restructuring through bankruptcy. It
   ended in July 2009 after Chrysler fully repaid its AWCP loan of $280.1 mil-
   lion with interest and GM repaid just the principal — $360.6 million — of its
   loan.104
42   special inspector general I troubled asset relief program




                                                The following tables and figures summarize the status of TARP and TARP-
                                            related initiatives:

                                            •	 Table 2.3 — total funds subject to SIGTARP oversight as of June 30, 2011
                                            •	 Table 2.4 — obligations/expenditures by program as of June 30, 2011
                                            •	 Table 2.5 and Table 2.6 — summary of TARP terms and agreements
                                            •	 Table 2.7 — summary of largest warrant positions held by Treasury, by program,
                                               as of June 30, 2011
                                            •	 Table 2.8 — summary of dividends, interest payments, and fees received, by
                                               program, as of June 30, 2011

                                              For a report of all TARP purchases, obligations, expenditures, and revenues, see
                                            Appendix C: “Reporting Requirements.”
                                                                                                                               quarterly report to congress I July 28, 2011                                      43




Table 2.3

TOTAL FUNDS SUBJECT TO SIGTARP OVERSIGHT, AS OF 6/30/2011 ($ BILLIONS)
                                                                                                                                                                                    Total       TARP
Program                                                                 Brief Description or Participant                                                                      Funding ($) Funding ($)
Capital Purchase Program (“CPP”)                                        Investments in 707 banks to date; received $180.6 billion in capital                                        $204.9              $204.9
CLOSED                                                                  repayments                                                                                                 ($180.6)            ($180.6)
                                                                        GM, Chrysler, Ally Financial Inc. (formerly GMAC), Chrysler Financial;
Automotive Industry Financing Program (“AIFP”)                                                                                                                                          80.7                80.7
                                                                        received $33.7 billion in loan repayments and terminated Chrysler’s $2.1
CLOSED                                                                                                                                                                                 (35.8)              (35.8)
                                                                        billion undrawn loan commitments
Auto Suppliers Support Program (“ASSP”)                                 Government-backed protection for auto parts suppliers; received $0.4                                              0.4a                0.4a
CLOSED                                                                  billion in loan repayments                                                                                       (0.4)               (0.4)
Auto Warranty Commitment Program (“AWCP”)                               Government-backed protection for warranties of cars sold during the GM                                            0.6                 0.6
CLOSED                                                                  and Chrysler bankruptcy restructuring periods                                                                    (0.6)               (0.6)
Unlocking Credit for Small Businesses (“UCSB”)                                                                                                                                            0.4b                0.4b
                                                                        Purchase of securities backed by SBA loans
CLOSED                                                                                                                                                                                   (0.2)               (0.2)
Systemically Significant Failing Institutions (“SSFI”)                  AIG Investment; received $16.9 billion in repayments and reduced Gov-                                           69.8                69.8
CLOSED                                                                  ernment exposure by $2.0 billion                                                                              (16.9)c             (16.9)c
Targeted Investment Program (“TIP”)                                                                                                                                                     40.0                40.0
                                                                        Citigroup, Bank of America Investments
CLOSED                                                                                                                                                                                 (40.0)              (40.0)
Asset Guarantee Program (“AGP”)                                                                                                                                                        301.0                  5.0
                                                                        Citigroup, ring-fence asset guarantee
CLOSED                                                                                                                                                                                  (5.0)                (5.0)
                                                                                                                                                                                         71.1                 4.3d
Term Asset-Backed Securities Loan Facility (“TALF ”) FRBNY non-recourse loans for purchase of asset-backed securities
                                                                                                                                                                                         (0.0)               (0.0)
Making Home Affordable (“MHA”) Program                                  Modification of mortgage loans                                                                                  70.6e               45.6f
Community Development Capital Initiative (“CDCI”)
                                                                        Investments in Community Development Financial Institutions (“CDFIs”)                                              0.6                 0.6
CLOSED
                                                                                                                                                                                        29.8g               22.4h
Public-Private Investment Program (“PPIP”)                              Disposition of legacy assets; Legacy Securities Program
                                                                                                                                                                                         (1.1)               (1.1)
Total Obligations                                                                                                                                                                   $869.9              $474.8
Notes: Numbers may not total due to rounding. Numbers in red represent repayments and reductions in exposure as of 6/30/2011.
a
  Treasury’s original commitment under this program was $5.0 billion, which was reduced to $3.5 billion effective 7/1/2009. Of the $3.5 billion available, only $413.0 million was borrowed.
b
  Treasury reduced commitment from $15 billion to an obligation of $400 million.
c
  The $16.9 billion in reduced exposure and repayment for SSFI includes amounts applied to pay (i) accrued preferred returns, (ii) redeem the outstanding liquidation amount, and the cancellation of the series
  G capital facility.
d
  Treasury reduced obligation from $20.0 billion to $4.3 billion.
e
  Program was initially announced as a $75 billion initiative with $50 billion funded through TARP. Treasury reduced the commitment from $50.0 billion to an obligation of $45.6 billion; therefore, including the
  $25.0 billion estimated to be spent by the GSEs, the total program amount is $70.6 billion.
f
  Treasury reduced commitment from $50.0 billion to an obligation of $45.6 billion.
g
  PPIP funding includes $7.4 billion of private-sector equity capital. Includes $0.4 billion of initial obligations to The TCW Group, Inc., which has been repaid.
h
  Treasury reduced commitment from $30.0 billion to approximately $22.4 billion in debt and equity obligations to the Public-Private Investment Funds.

Sources: Treasury, Transactions Report, 7/1/2011, Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 1/16/2009, www.treasury.gov/press-center/
press-releases/Pages/hp1358.aspx, accessed 7/19/2011; FRBNY, response to SIGTARP data call, 7/8/2011; Treasury, “Making Home Affordable Updated Detailed Program Description,” 3/4/2009, www.
treasury.gov/press-center/press-releases/Documents/housing_fact_sheet.pdf, accessed 7/14/2011.
44               special inspector general I troubled asset relief program



     Table 2.4

     OBLIGATION/EXPENDITURE LEVELS BY PROGRAM, AS OF 6/30/2011                            ($ BILLIONS)

                                                                         Amount     Percent (%)
     Authorized Under EESA                                  $700.0
     Released Immediately                                                  250.0         52.6%
     Released Under Presidential Certificate of Need                       100.0         21.1%
     Released Under Presidential Certificate of Need &
                                                                           350.0         73.7%
     Resolution to Disapprove Failed
     Helping Families Save Their Home Act of 2009                           (1.2)         -0.3%
     The Dodd-Frank Act                                                   (223.8)        -47.1%
     Total Released                                                      $475.0        100.0%

                                                                                     Obligation       Repaid/
                                                                                       as % of       Reduced          Obligation
     Less: Obligations by Treasury under TARPa                         Obligation     Released       Exposure        Outstanding Section Reference
     Capital Purchase Program ("CPP"):                                    $204.9         43.1%           ($180.6)               “Financial Institution
     CPP Total Gross                                                     $204.9         43.1%            ($180.6)         $24.3 Support Programs”
     Community Development Capital Initiative ("CDCI"):                     $0.6                                                “Financial Institution
     CDCI Total                                                             $0.6          0.1%                 —           $0.6 Support Programs”
     Systemically Significant Failing Institutions (“SSFI”) Program:
                                                                                                                                   “Financial Institution
        American International Group, Inc. (“AIG”)b                        $69.8         14.7%            ($16.9)
                                                                                                                                   Support Programs”
     SSFI Total                                                            $69.8        14.7%             ($16.9)         $52.9
     Targeted Investment Program (“TIP”):
        Bank of America Corporation                                        $20.0          4.2%            ($20.0)                  “Financial Institution
        Citigroup, Inc.                                                    $20.0          4.2%            ($20.0)                  Support Programs”

     TIP Total                                                             $40.0          8.4%            ($40.0)             —
     Asset Guarantee Program (“AGP”):
                                                                                                                                   “Financial Institution
        Citigroup, Inc.c                                                    $5.0          1.1%              ($5.0)
                                                                                                                                   Support Programs”
     AGP Total                                                              $5.0          1.1%             ($5.0)             —
     Term Asset-Backed Securities Loan Facility (“TALF”):
                                                                                                                                   “Asset Support
        TALF LLC                                                            $4.3          0.9%                 —
                                                                                                                                   Programs”
     TALF Total                                                             $4.3          0.9%                 —           $4.3
     Unlocking Credit for Small Businesses (“UCSB”):                        $0.4          0.1%              ($0.2)              “Asset Support
     UCSB Total                                                             $0.4          0.1%             ($0.2)          $0.2 Programs”
     Automotive Industry Financing Program (“AIFP”):
        General Motors Corporation ("GM")                                  $49.5         10.4%            ($22.5)
        Ally Financial Inc. formerly GMAC)                                $17.2          3.6%              ($2.7)                 “Automotive Industry
        Chrysler                                                           $12.5          2.6%              ($9.1)                 Support Programs”

        Chrysler Financial Services Americas LLCd                           $1.5          0.3%              ($1.5)
     AIFP Total                                                            $80.7        16.9%             ($35.8)         $44.9
     Automotive Supplier Support Program (“ASSP”):
        GM Suppliers Receivables LLCe                                       $0.3          0.1%              ($0.3)                 “Automotive Industry
        Chrysler Holding LLC  eg
                                                                            $0.1          0.0%              ($0.1)                 Support Programs”

     ASSP Total                                                             $0.4          0.1%             ($0.4)             —
     Automotive Warranty Commitment Program (“AWCP”):
        General Motors Corporation (“GM”)                                   $0.4          0.1%              ($0.4)                 “Automotive Industry
        Chrysler Holding LLC                                                $0.3          0.1%              ($0.3)                 Support Programs”

     AWCP Total                                                             $0.6          0.1%             ($0.6)             —
                                                                                                                                  Continued on next page.
                                                                                                                                     quarterly report to congress I July 28, 2011                                        45




OBLIGATION/EXPENDITURE LEVELS BY PROGRAM, AS OF 6/30/2011                                                                 ($ BILLIONS) (Continued)
                                                                                                                  Obligation                Repaid/
                                                                                                                    as % of                Reduced                 Obligation
Less: Obligations by Treasury under TARPa                                             Obligation                   Released                Exposure               Outstanding Section Reference
Legacy Securities Public-Private Investment Program (“PPIP”)
    Invesco Legacy Securities Master Fund, L.P.                                                $2.6                        0.5%                  ($0.7)
    Wellington Management Legacy Securities PPIF Master
                                                                                               $3.4                        0.7%                       —
    Fund, LP
    AllianceBernstein Legacy Securities Master Fund, L.P.                                      $3.5                        0.7%                        *
    Blackrock PPIF, L.P.                                                                       $2.1                        0.4%                       —
                                                                                                                                                                                       “Asset Support
    AG GECC PPIF Master Fund, L.P.                                                             $3.7                        0.8%                       —
                                                                                                                                                                                       Programs”
    RLJ Western Asset Public/Private Master Fund, L.P.                                         $1.9                        0.4%                        *
    Marathon Legacy Securities Public-Private Investment
                                                                                               $1.4                        0.3%                       —
    Partnership, L.P.
    Oaktree PPIP Fund, L.P.                                                                    $3.5                        0.7%                       —
    UST/TCW Senior Mortgage Securities Fund, L.P.                      g
                                                                                               $0.4                        0.1%                  ($0.4)
PPIP Total                                                                                  $22.4                         4.7%                  ($1.1)                     $21.3
Making Home Affordable (“MHA”):
    Countrywide Home Loans Servicing LP                                                        $6.3                        1.3%
    Wells Fargo Bank, NA                                                                       $5.1                        1.1%
    J.P.Morgan Chase Bank, NA                                                                  $3.3                        1.0%
    OneWest Bank                                                                               $1.8                        0.4%
    Bank of America, N.A.                                                                      $1.6                        0.3%
    Ally Financial Inc. (formerly GMAC)                                                        $1.5                        0.3%
                                                                                                                                                                                       “Housing Support
    American Home Mortgage Servicing, Inc                                                      $1.3                        0.3%                                                        Programs”
    CitiMortgage, Inc.                                                                         $1.1                        0.2%
    Litton Loan Servicing LP                                                                   $1.1                        0.2%
              Other Financial Institutions, including Ocwen Loan
                                                                                               $6.7                        1.4%
              Servicing, LLC
Housing Finance Agency: Hardest Hit Funds Program ("HHF")                                     $7.6                         1.6%
FHA Short Refinance Program                                                                   $8.1                         1.7%
Housing Support Programs Total                                                              $45.6                         9.6%                        —                    $45.6
TARP Obligations Subtotal                                                                 $474.8                         100%
TARP Repayments/Reductions in Exposure Subtotal                                                                                             ($280.6)
TARP Obligations Outstanding Subtotal                                                                                                                                    $194.1
Notes: Numbers may not total due to rounding.
a
   From a budgetary perspective, what Treasury has obligated to spend (e.g., signed agreements with TARP fund recipients).
b
   The $16.9 billion in reduced exposure and repayment for SSFI includes amounts applied to pay (i) accrued preferred returns, (ii) redeem the outstanding liquidation amount, and (iii) cancellation of the series
   G capital facility. Includes all proceeds from the sale of AIG stock. However, Treasury does not include in its calculation on its AIG investment proceeds from the sale of AIG stock that Treasury received from
   the AIG credit facility trust in the January 2011 recapitalization.
c
   Treasury committed $5 billion to Citigroup under AGP; however, the funding was conditional based on losses that could potentially be realized and may potentially never be expended. This amount was not an
   actual outlay of cash.
d
   Treasury’s $1.5 billion loan to Chrysler Financial represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
e
   Represents an SPV created by the manufacturer. Balance represents the maximum loan amount, which will be funded incrementally. Treasury’s original commitment under this program was $5.0 billion, but
   subsequently reduced to $3.5 billion effective 7/1/2009. Of the $3.5 billion available, only $413.0 million was borrowed.
f
  The $9.1 billion in repayments and reductions in exposure includes (i) loan repayments from New Chrysler, (ii) proceeds related to the liquidation of Old Chrysler, (iii) a settlement payment for a loan to Chrys-
  ler Holding, and (iv) termination of New Chrysler’s ability to draw the remaining $2.1 billion under a loan facility made available in May 2009.
g
   Treasury selected nine fund management firms to establish PPIFs. One PPIF manager, The TCW Group, Inc., subsequently withdrew. According to Treasury, the current PPIP obligation is $22.4 billion, this
   includes $365.25 million of an initial obligation to TCW that was funded. TCW repaid the funds that were invested in their PPIF.

* Amount less than $50 million.

Sources: Emergency Economic Stabilization Act, P.L. 110-343, 10/3/2008; Library of Congress, “A joint resolution relating to the disapproval of obligations under the Emergency Economic Stabilization
Act of 2008,” 1/15/2009, www.thomas.loc.gov, accessed 1/25/2009; Helping Families Save Their Homes Act of 2009, P.L. 111-22, 5/20/2009; Treasury, Transactions Report, 7/1/2011, accessed
7/14/2011; Treasury, Transactions Report - Housing Programs, 6/30/2011, accessed 7/13/2011; Treasury, response to SIGTARP data call, 4/6/2011; Treasury, Section 105(a) Report, 7/11/2011,
accessed 7/14/2011.
46               special inspector general I troubled asset relief program




     Table 2.5

     DEBT AGREEMENTS
     TARP                   Date of   Cost               Description of         Investment                               Interest /             Term of
     Program Company        Agreement Assigned           Investment             Information                              Dividends              Agreement
                                                         Senior Subordinated    Each QFI may issue senior securities 7.7% for first 5 years;    30 years
                                                         Securities             with an aggregate principal amount of 13.8% thereafter
                                                                                1% - 3% of its risk-weighted assets,
     CPP –                                                                      but not to exceed $25 billion.
             52 QFIs        1/14/2009a $0.5 billion
     S Corps                                             Senior Subordinated    Treasury will receive warrants to      13.8%                    30 years
                                                         Security Warrants      purchase an amount equal to 5% of
                                                         that are exercised     the senior securities purchased on the
                                                         immediately            date of investment.
                                                                                This loan was funded incrementally;
                                                                                $4 billion funded on 12/31/2008,         For General Advances
                                                                                $5.4 billion funded on 1/21/2009,        — (i) the greater of (a)
                                                                                and $4 billion funded on 2/17/2009.      3-month LIBOR or (b) 2%
                                                      Debt Obligation with      Subsequently, this loan was then         plus (ii) 3%; For Warrant
             General
     AIFP                   12/31/2008 $19.8 billionb Warrants and              amended; $2 billion on 4/22/2009         Advances (i) the greater 12/29/2011
             Motors
                                                      Additional Note           and $4 billion on 5/20/2009              of (a) 3-month LIBOR
                                                                                (General Advances). In addition,         for the related interest
                                                                                on 5/27/2009, $361 million was           period or (b) 2% plus
                                                                                set aside in an SPV for the AWCP         (ii) 3.5%
                                                                                (Warranty Advances).
                                                                                This loan was exchanged for a portion
                                                                                of GM’s common equity interest
             General
     AIFP                   1/16/2009    $0.9 billion    Debt Obligation        in GMAC LLC on 5/29/2009. See         3-month LIBOR + 3%        1/16/2012
             Motors
                                                                                “Equity Agreement” table for more
                                                                                information.
                                                                                Loan of $4 billion; Additional note of
                                                                                $267 million (6.67% of the maximum       For General Advances
                                                                                loan amount). Subsequently, this loan    — (i) the greater of (a)
                                                                                was then amended; $500 million on        3-month LIBOR or (b) 2%
                                                                                4/29/2009, this amount was never         plus (ii) 3%; For Warrant
                                                         Debt Obligation with
     AIFP    Chrysler       1/2/2009c    $4.8 billionb                          drawn and subsequently de-obligated      Advances(i) the greater 1/2/2012
                                                         Additional Note
                                                                                (General Advances). In addition,         of (a) 3-month LIBOR
                                                                                on 4/29/2009, $280 million was           for the related interest
                                                                                set aside in an SPV for the AWCP,        period or (b) 2% plus
                                                                                this advance was repaid (Warrant         (ii) 3.5%
                                                                                Advances).
                                                                                Loan was funded incrementally at
                                                                                $100 million per week until it reached
                                                                                the maximum amount of $1.5 billion LIBOR + 1% for first
             Chrysler                                    Debt Obligation with
     AIFP                   1/16/2009    $1.5 billion                           on 4/9/2009. Additional note is $75 year LIBOR + 1.5% for 1/16/2014
             Financial                                   Additional Note
                                                                                million (5% of total loan size), which remaining years
                                                                                vests 20% on closing and 20% on
                                                                                each anniversary of closing.
                                                                                Loan of $3.0 billion committed
                                                                                to Chrysler for its bankruptcy
                                                                                                                                                9/30/2009,
                                                                                period. Subsequently, this loan was    (i) the greater of (a)
                                                         Debt Obligation with                                                                   subject
     AIFP    Chrysler       5/1/2009     $3.8 billion                           amended; $757 million was added on 3-month Eurodollar or
                                                         Additional Note                                                                        to certain
                                                                                5/20/2009. Treasury funded $1.9        (b) 2% plus (ii) 3.0%
                                                                                                                                                conditions
                                                                                billion during bankruptcy period. The
                                                                                remaining amount will be de-obligated.
                                                                                                                                        Continued on next page.
                                                                                                                          quarterly report to congress I July 28, 2011                                   47




DEBT AGREEMENTS                   (CONTINued)

TARP                          Date of   Cost                       Description of               Investment                                        Interest /                      Term of
Program Company               Agreement Assigned                   Investment                   Information                                       Dividends                       Agreement
                                                                                           Commitment to New CarCo                                For $2 billion: (i) The
                                                                                                                                                                                  For $2
                                                                                           Acquisition LLC (renamed Chrysler                      3-month Eurodollar rate,
                                                                                                                                                                                  billion note:
                                                                                           Group LLC on or about 6/10/2009)                       plus (ii) (a) 5% or, on
                                                                                                                                                                                  12/10/2011;
                                                                                           of up to $6.6 billion. The total loan                  loans extended past
                                                                                                                                                                                  provided that
                                                                                           amount is up to $7.1 billion including                 the original maturity
                                                                                                                                                                                  issuer may
                                                                                           $500 million of debt assumed                           date, (b) 6.5%. For $5.1
                                                                   Debt Obligation with                                                                                           extend maturity
                                                                                           from Treasury’s 1/2/2009 credit                        billion note: (i) The
AIFP         Chrysler         5/27/2009         $6.6 billion       Additional Note, Equity                                                                                        for up to
                                                                                           agreement with Chrysler Holding LLC.                   3-month Eurodollar Rate
                                                                   Interest                                                                                                       $400 million
                                                                                           The debt obligations are secured by a                  plus 7.91% and (ii) an
                                                                                                                                                                                  of principal to
                                                                                           first priority lien on the assets of New               additional $17 million
                                                                                                                                                                                  6/10/2017.
                                                                                           CarCo Acquisition LLC (the company                     in PIK interest per
                                                                                                                                                                                  For other
                                                                                           that purchased Chrysler LLC’s assets                   quarter. For other notes:
                                                                                                                                                                                  notes:
                                                                                           in a sale pursuant to Section 363 of                   3-month Eurodollar rate
                                                                                                                                                                                  6/10/2017.
                                                                                           the Bankruptcy Code).                                  plus 7.91%.
                                                                                                                                                  Originally, (i) the greater
                                                                                                Original $30.1 billion funded.                                                    Originally
                                                                                                                                                  of (a) 3-Month Eurodollar
                                                                                                Amended loan documents provided                                                   10/31/2009,
                                                                                                                                                  or (b) 2% plus (ii) 3.0%.
                                                                                                that $986 million of the original                                                 for amounts
                              6/3/2009,                                                                                                           For amounts assumed
             General                                               Debt Obligation with         DIP loan was left for the old GM. In                                              assumed by
AIFP                          amended           $30.1 billion                                                                                     by New GM, the interest
             Motors                                                Additional Note              addition $7.1 billion was assumed                                                 New GM, June
                              7/10/2009                                                                                                           rates became (i) the
                                                                                                by New GM of which $0.4 billion                                                   10, 2015,
                                                                                                                                                  greater of (a) 3-month
                                                                                                was repaid resulting in $6.7 billion                                              subject to
                                                                                                                                                  Eurodollar or (b) 2% plus
                                                                                                remaining outstanding.                                                            acceleration.
                                                                                                                                                  (ii) 5%.
                                                                                                                                                                                  The debt
                                                                                                                                                                                  obligation for
                                                                                                                                                                                  each fund
                                                                   Debt Obligation with         Each of the loans will be funded
                              9/30/2009                                                                                                                                           matures at the
PPIP         All                                $20 billion        Contingent Interest          incrementally, upon demand by the                 LIBOR + 1%
                              and later                                                                                                                                           earlier of the
                                                                   Promissory Note              fund manager.
                                                                                                                                                                                  dissolution of
                                                                                                                                                                                  the fund or 10
                                                                                                                                                                                  years.
                                                                                         Each QCU may issue CDCI Senior
                                                                                         Securities with an aggregate principal
CDCI -
                                                                   Subordinated Debt for amount equal to not more than 3.5% 2% for first 8 years, 9%
Credit       All
                                                                   Credit Unions         of its total assets and not more than thereafter
Unions
                                                                                         50% of the capital and surplus of the
                                                                                         QCU.
                                                                                         Each QFI may issue CDCI Senior
                                                                                         Securities with an aggregate principal
                                                                                         amount equal to not more than 5% of
                                                                                         (i), if the QFI is a Certified Entity the
                                                                                         risk-weighted assets of the QFI, or
CDCI – S                                                           Subordinated Debt for                                             3.1% for first 8 years,
                                                                                         (ii), if the QFI is not a Certified Entity,
corps                                                              S corps                                                           13.8% thereafter
                                                                                         the sum of the RWAs of each of the
                                                                                         Certified Entities, in each case less the
                                                                                         aggregate capital or, as the case may
                                                                                         be, principal amount of any outstanding
                                                                                         TARP assistance of the QFI.

Notes: Numbers affected by rounding.
a
  Announcement date of CPP S-Corporation Term Sheet.
b
  Amount includes AWCP commitments.
c
  Date from Treasury’s 1/27/2009 Transactions Report. The Security Purchase Agreement has a date of 12/31/2008.

Sources: Treasury, “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008.”
12/31/2008. Treasury, “General Motors Corporation, Indicative Summary of Terms for Secured Term Loan Facility,” 12/19/08; Treasury, “General Motors Promissory Note,” 1/16/2009; Treasury, “Loan and
Security Agreement By and Between Chrysler Holding LLC as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008.” 12/31/2008; Treasury, “Chrysler, Indicative
Summary of Terms for Secured Term Loan Facility,” 12/19/2008; Treasury, “Chrysler LB Receivables Trust Automotive Industry Financing Program, Secured Term Loan, Summary of Terms,” 1/16/2009; OFS,
response to SIGTARP draft report, 1/30/2009; Treasury, Transactions Report, 9/30/2010; Treasury, response to SIGTARP data call, 10/7/2010; Treasury’s “TARP Community Development Capital Initiative
Program Agreement, CDFI Bank / Thrift Senior Preferred Stock, Summary of CDCI Senior Preferred Terms,” 04/26/2010; Treasury’s “TARP Community Development Capital Initiative CDFI Credit Unions Senior
Securities Summary of Terms of CDCI Senior Securities,” 04/26/2010; Treasury’s “TARP’s Community Development Capital Initiative CDFI Subchapter S Corporation Senior Securities Summary of Terms of
CDCI Senior Securities,” 04/26/2010.
48             special inspector general I troubled asset relief program




     Table 2.6

     Equity Agreements
     TARP                      Date             Cost             Description of                                                                Term of
     Program Company           of Agreement     Assigned         Investment           Investment Information                  Dividends        Agreement
                                                                                                                              5% for first 5
                                                                 Senior Preferred     1-3% of risk-weighted assets, not to
                                                                                                                              years, 9% there- Perpetual
     CPP –                     10/14/2008   a                    Equity               exceed $25 billion for each QFI
               286 QFIs                         $200.1 billion                                                                after
     Public                    and later
                                                                 Common Stock
                                                                                      15% of senior preferred amount          —                Up to 10 years
                                                                 Purchase Warrants
                                                                                                                              5% for first 5
                                                                                      1-3% of risk-weighted assets, not to
                                                                 Preferred Equity                                             years, 9% there- Perpetual
                                                                                      exceed $25 billion for each QFI
                                                                                                                              after
     CPP –                     11/17/2008b
               369 QFIs                         $4 billion       Preferred Stock
     Private                   and later
                                                                 Purchase Warrants
                                                                                      5% of preferred amount                  9%               Perpetual
                                                                 that are exercised
                                                                 immediately
                                                                 Non-Cumulative       $41.6 billion aggregate liquidation
                                                                                                                              10%              Perpetual
                                                                 Preferred Equity     preference
                                                                                      2% of issued and outstanding
               American                                                               common stock on investment date of
     SSFI      International   4/17/2009        $41.6 billionc                        11/25/08; the warrant was originally
               Group, Inc.                                       Common Stock         for 53,798,766 shares and had a
                                                                                                                              —                Up to 10 years
                                                                 Purchase Warrants    $2.50 exercise price, but after the
                                                                                      6/30/09 split, it is for 2,689,938.30
                                                                                      shares and has an exercise price
                                                                                      of $50.
                                                                                      Up to $29.8 billion aggregate
                                                                                                                                               Perpetual (life
                                                                 Non-Cumulative       liquidation preference. As of
               American                                                                                                       10%              of the facility is
                                                                 Preferred Equity     9/30/09, the aggregate liquidation
     SSFI      International   4/17/2009        $29.8 billiond                                                                                 5 years)
                                                                                      preference was $3.2 billion.
               Group, Inc.
                                                                 Common Stock         150 common stock warrants
                                                                                                                              —                Up to 10 years
                                                                 Purchase Warrants    outstanding; $0.00002 exercise price
                                                                 Trust Preferred
                                                                                      $20 billion                             10%              Perpetual
                                                                 Securities
     TIP       Citigroup Inc. 12/31/2008        $20.0 billione
                                                                                      10% of total preferred stock issued;
                                                                 Warrants                                                     —                Up to 10 years
                                                                                      $10.61 exercise price
                                                                                                                                               Converts to
                                                                 Mandatorily
                                                                                                                                               common equity
                                                                 Convertible          $5 billion                              9%
                                                                                                                                               interest after 7
               Ally Financial                                    Preferred Stockf
                                                                                                                                               years
     AIFP      Inc. (formerly 12/29/2008        $5.0 billion
               GMAC)                                             Preferred Stock                                                               Converts to
                                                                 Purchase Warrants                                                             common equity
                                                                                      5% of original preferred amount         9%
                                                                 that are exercised                                                            interest after 7
                                                                 immediately                                                                   years
                                                                                                                                               Converts to
                                                                 Mandatorily
                                                                                                                                               common equity
                                                                 Convertible          $4.5 billion                            9%
                                                                                                                                               interest after 7
                                                                 Preferred Stockg
                                                                                                                                               years
               Ally Financial
                                                                 Preferred Stock                                                               Converts to
     AIFP      Inc. (formerly 5/21/2009         $7.5 billion
                                                                 Purchase Warrants                                                             common equity
               GMAC)                                                                  5% of original preferred amount         9%
                                                                 that are exercised                                                            interest after 7
                                                                 immediately                                                                   years
                                                                 Common Equity
                                                                                      $3.0 billion                            —                Perpetual
                                                                 Interestg
                                                                                                                                       Continued on next page.
                                                                                                                                quarterly report to congress I July 28, 2011                                   49




Equity Agreements                      (CONTINued)

TARP                             Date                   Cost                  Description of                                                                                              Term of
Program Company                  of Agreement           Assigned              Investment                   Investment Information                                 Dividends               Agreement
                                                                                                           This equity interest was obtained by
             Ally Financial                                                                                exchanging a prior debt obligation
                                                                              Common Equity
AIFP         Inc. (formerly 5/29/2009                   $0.9 billion                                       with General Motors. See “Debt                         —                       Perpetual
                                                                              Interest
             GMAC)                                                                                         Agreements” table for more
                                                                                                           information.
                                                                              Trust Preferred
                                                                                                           $2.5 billion
                                                                              Securities                                                                                                  Redeemable
             Ally Financial
                                                                              Trust Preferred                                                                                             upon the
AIFP         Inc. (formerly 12/30/2009                  $2.5 billion                                                                                              8%
                                                                              purchase warrants                                                                                           repayment of
             GMAC)                                                                                         5% of trust preferred amount
                                                                              that are exercised                                                                                          the debenture
                                                                              immediately
                                                                              Mandatorily
                                                                              Convertible                  $1.3 billion
                                                                              Preferred Stock                                                                                             Converts to
             Ally Financial
                                                                                                                                                                                          common equity
AIFP         Inc. (formerly 12/30/2009                  $1.3 billion          Preferred Stock                                                                     9%
                                                                                                                                                                                          interest after 7
             GMAC)                                                            Purchase Warrants
                                                                                                           5% of preferred amount                                                         years
                                                                              that are exercised
                                                                              immediately
             Ally Financial
                                                                              Common Equity
AIFP         Inc. (formerly 12/30/2009                  $5.5 billion                                       $5.5 billion                                                                   Perpetual
                                                                              Interesth
             GMAC)
                                                                              Trust Preferred
AGP          Citigroup Inc 12/23/2009                   $2.2 billion          Securities with
                                                                              warrants
                                                                                                                                                                                          8 years with
                                                                                                  Each of the membership interest                                                         the possibility
                                 9/30/2009                                    Membership interest
PPIP         All                                        $10 billion                               will be funded upon demand from                                 —                       of extension
                                 and later                                    in a partnership
                                                                                                  the fund manager.                                                                       for 2 additional
                                                                                                                                                                                          years.
                                                                              Preferred Equity                                                                    2% for first
                                                                                                           5% of risk-weighted assets for
CDCI         All                                        $780.2 million        for banks & thrift                                                                  eight years, 9%         Perpetual
                                                                                                           banks and bank holding companies.
                                                                              institutions                                                                        thereafter

Notes: Numbers affected by rounding.
a
  Announcement date of CPP Public Term Sheet.
b
  Announcement date of CPP Private Term Sheet.
c
  AIG exchanged Treasury’s $40 billion investment in cumulative preferred stock (obtained on 11/25/2008) for non-cumulative preferred stock, effectively cancelling the original $40 billion investment.
d
  The Equity Capital Facility was announced as a $30 billion commitment, but Treasury reduced this amount by the value of the AIGFP Retention Payment amount of $165 million.
e
  Citigroup exchanged its $20 billion senior preferred equity (obtained on 12/31/2008) for trust preferred securities.
f
  On 12/31/2009, Treasury exchanged $5.25 billion of preferred stock, which it acquired on December 29, 2009, into mandatorily convertible preferred stock (“MCP”).
g
  On 12/31/2009, Treasury converted $3.0 billion of its existing MCP, which was invested in May 2009, into common equity. Treasury’s equity ownership of Ally Financial Inc. (formerly GMAC) increased from
  35% to 56% due to this conversion.
h
  On 12/31/2010, Treasury converted $5.5 billion of its existing MCP, which was invested in May 2009, into common equity. Treasury’s equity ownership of Ally Financial Inc. (formerly GMAC) increased from
  56% to 74% due to this conversion.

Sources: Treasury, “TARP Capital Purchase Program Agreement, Senior Preferred Stock and Warrants, Summary of Senior Preferred Terms,” 10/14/2008; Treasury, “TARP Capital Purchase Program Agree-
ment, (Non-Public QFIs, excluding S Corps and Mutual Organizations) Preferred Securities, Summary of Warrant Terms,” 11/17/2008; Treasury, “Securities Purchase Agreement dated as of November 25,
2008 between American International Group, Inc. and United States Department of Treasury,” 11/25/2008; Treasury, “TARP AIG SSFI Investment, Senior Preferred Stock and Warrant, Summary of Senior Pre-
ferred Terms,” 11/25/2008; Treasury, “Securities Purchase Agreement dated as of January 15, 2009 between Citigroup, Inc. and United States Department of Treasury,” 1/15/2009; Treasury, “Citigroup, Inc.
Summary of Terms, Eligible Asset Guarantee,” 11/23/2008; “Securities Purchase Agreement dated as of January 15, 2009 between Bank of America Corporation and United States Department of Treasury,”
1/15/2009; Treasury, “Bank of America Summary of Terms, Preferred Securities,” 1/16/2009; Treasury, “GMAC LLC Automotive Industry Financing Program, Preferred Membership Interests, Summary of
Preferred Terms,” 12/29/2008; Treasury, Transactions Report, 7/1/2011; Treasury, response to SIGTARP data call, 10/7/2010; Treasury, “TARP Community Development Capital Initiative Program Agreement,
CDFI Bank/Thrift Senior Preferred Stock, Summary of CDCI Senior Preferred Terms,” 04/26/2010; Treasury, “TARP Community Development Capital Initiative CDFI Credit Unions Senior Securities Summary of
Terms of CDCI Senior Securities,” 04/26/2010; Treasury, “TARP’s Community Development Capital Initiative CDFI Subchapter S Corporation Senior Securities Summary of Terms of CDCI Senior Securities,”
04/26/2010; Treasury, “Treasury Converts Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/10; Ally Financial Inc. (GOM ), 8−K, 12/30/2010.
50                special inspector general I troubled asset relief program




     Table 2.7

     LARGEST POSITIONS IN WARRANTS HELD BY TREASURY, BY PROGRAM, AS OF 6/30/2011
                                                                                                                                              Current
                                                                                                                                           Number of
                                                                                                                                            Warrants                                     Stock Price as of
     Participant                                                                                          Transaction Date                Outstanding              Strike Price               6/30/2011
     Capital Purchase Program (“CPP”):
           Regions Financial Corporation                                                                  11/14/2008                        48,253,677                    $10.88                          $6.20
           Popular, Inc.                                                                                    12/5/2008                       20,932,836                      $6.70                         $2.76
           Synovus Financial Corp.                                                                        12/19/2008                        15,510,737                      $9.36                         $2.08
           SunTrust Banks, Inc.     c
                                                                                                          11/14/2008                        11,891,280                    $44.15                        $25.80
           Flagstar Bancorp, Inc.                                                                           1/16/2009                        6,451,379                      $6.20                         $1.19
           SunTrust Banks, Inc.     c
                                                                                                          12/31/2008                         6,008,902                    $33.70                        $25.80
           First Bancorp                                                                                  12/31/2008                         5,842,259                      $0.73                         $4.31
           Zions Bancorporation                                                                           11/14/2008                         5,789,909                    $36.27                        $24.01
           Associated Banc-Corp.                                                                          11/21/2008                         3,983,308                    $19.77                        $13.90
           Citizens Republic Bancorp, Inc.                                                                12/12/2008                         1,757,812                    $25.60                          $0.69
           Sterling Financial Corporation                                                                 12/23/2008                              97,541                  $13.20                        $16.07
     Systemically Significant Failing Institutions (“SSFI”) Program
           AIGa                                                                                           11/25/2008                         2,689,938                    $50.00                        $29.32
           AIGa                                                                                             4/17/2009                                  150                  $0.00b                      $29.32

     Notes: Numbers affected by rounding.
     a
       All warrant and stock data for AIG are based on the 6/30/2009 reverse stock split of 1 for 20.
     b
       Strike price is $0.00002.
     c
       On 11/14/2008 Treasury invested $3.5 billion in SunTrust Banks, Inc. in return for preferred stock and warrants. On 12/31/2008 SunTrust Banks, Inc. received another $1.4 billion in preferred stocks and
       warrants.

     Sources: Treasury, Transactions Report, 7/1/2011, accessed 7/15/2011; Treasury, Cumulative Cumulative Dividends, Interest, and Distributions Report, 7/11/2011, accessed 7/15/2011; Treasury,
     response to SIGTARP data call, 7/15/2011; Market Data, Bloomberg L.P., accessed 7/20/2011.

     Table 2.8

     DIVIDENDS, INTEREST, DISTRIBUTION, AND OTHER INCOME PAYMENTS, AS OF 6/30/2011
                                        Dividends                                 Interest                         Distributiona                      Other Incomeb                                         Total
     AGP                          $442,964,764                                          $—                                     $—                    $2,589,197,045                         $3,032,161,809
     AIFPc                       2,606,582,051                          1,665,336,675                                            —                       403,000,000                          4,674,918,726
     ASSP                                          —                         31,949,931                                          —                         84,000,000                           115,949,931
     CDCI                               5,200,627                              2,531,548                                         —                                      —                           7,732,175
     CPP   d
                                10,884,956,435                               76,024,993                                          —                   14,404,410,024                         25,365,391,452
     PPIP                                          —                       147,435,189                            731,748,959                              20,644,319                           899,828,467
     TIP                         3,004,444,444                                            —                                      —                     1,446,025,527                          4,450,469,971
     UCSB                                          —                           9,403,247                                         —                         20,423,531                             29,826,778
     SSFIe                                         —                                      —                                      —                       316,715,582                            316,715,582
     Total                  $16,944,148,321                          $1,932,681,583                            $731,748,959                      $19,284,416,028                        $38,892,994,892

     Notes: Numbers may not total due to rounding.
     a
       Distributions are investment proceeds from the PPIF’s trading activities allocated to the partners, including Treasury, not later than 30 days after the end of each quarter.
     b
        Other income includes Citigroup common stock gain for CPP, Citigroup payment for AGP, warrant sales, additional note proceeds from the auto programs and the Consumer and Business Lending Initiative/
         SBA 7(a) programs, principal repayments on the SBA 7(a) program, and repayments associated with the termination of the TCW fund for PPIP.
     c
        Includes AWCP.
     d
        Includes $13 million fee received as part of the Popular exchange.
     e
        Other income from SSFI includes $165.0 million in fees and $151.7 million representing returns on securities held in the AIA and ALICO SPVs.

     Source: Treasury, Transactions Report, 7/1/2011, accessed 7/13/2011; Treasury, Section 105(a) Report, 7/11/2011; Treasury, Cumulative Dividends, Interest, and Distributions Report, 7/11/2011, ac-
     cessed 7/13/2011; Treasury, response to SIGTARP data call, 7/8/2011; Treasury, call with SIGTARP 7/16/2011; Treasury, response to SIGTARP data call, 7/18/2011.
                                                                                quarterly report to congress I July 28, 2011             51




Housing SUPPORT PROGRAMS
On February 18, 2009, the Administration announced a foreclosure prevention
plan that became the Making Home Affordable (“MHA”) program, an umbrella                     Government-Sponsored Enterprises
program for the Administration’s homeowner assistance and foreclosure prevention             (“GSEs”): Private corporations created
efforts.105 MHA initially consisted of the Home Affordable Modification Program              and chartered by the Government to
(“HAMP”), a Treasury program that uses TARP funds to provide incentives for                  reduce borrowing costs and provide
mortgage servicers to modify eligible first mortgages, and two initiatives at the            liquidity in the market, the liabilities
Government-sponsored enterprises (“GSEs”) that use non-TARP funds.106 HAMP                   of which are not officially considered
was originally intended “to help as many as three to four million financially strug-         direct taxpayer obligations. On Septem-
gling homeowners avoid foreclosure by modifying loans to a level that is affordable          ber 7, 2008, the two largest GSEs, the
                                                                                             Federal National Mortgage Association
for borrowers now and sustainable over the long term.”107
                                                                                             (“Fannie Mae”) and the Federal Home
    Since the announcement of MHA, Treasury expanded the program by imple-
                                                                                             Loan Mortgage Corporation (“Fred-
menting additional sub-programs. Several of these are designed to overcome ob-
                                                                                             die Mac”), were placed into Federal
stacles to sustainable HAMP modifications, such as unemployed borrowers or the               conservatorship. They are currently
presence of second-liens. Treasury has also partnered with other Federal agencies            being financially supported by the
on housing programs outside of HAMP.108 Treasury also allocated TARP funds to                Government.
support two additional housing support efforts: a Federal Housing Administration
(“FHA”) refinancing program and a state housing finance agency grant program.                Loan Servicers: Companies that
    Not all housing support programs are funded, or completely funded, by TARP.              perform administrative tasks on
Of the originally anticipated $75 billion cost for MHA, $50 billion was to be                monthly mortgage payments until the
funded by TARP, with the remainder funded by the GSEs.109 Treasury has since                 loan is repaid. These tasks include
reduced the final obligation of TARP funds for these programs to $45.6 billion.110           billing, tracking, and collecting monthly
Of this, $29.9 billion is obligated for MHA incentive payments.111 Housing support           payments; maintaining records of
                                                                                             payments and balances; allocating
programs include the following initiatives:
                                                                                             and distributing payment collections
                                                                                             to investors in accordance with each
•	 Home Affordable Modification Program (“HAMP”) — HAMP is intended to
                                                                                             mortgage loan’s governing documenta-
   use incentive payments to encourage loan servicers (“servicers”) and investors to         tion; following up on delinquencies; and
   modify eligible first-lien mortgages so that the monthly payments of homeown-             initiating foreclosures.
   ers who are currently in default or at imminent risk of default will be reduced to
   affordable and sustainable levels. Incentive payments for modifications to loans          Investors: Owners of mortgage loans
   owned or guaranteed by the GSEs are paid by the GSEs, not TARP.112 While                  or bonds backed by mortgage loans
   HAMP generally refers to the first-lien mortgage modification program, it also            who receive interest and principal
   includes the following subprograms:                                                       payments from monthly mortgage
   çç Home Price Decline Protection (“HPDP”) — HPDP is intended to en-                       payments. Servicers manage the cash
       courage additional investor participation and HAMP modifications in areas             flow from borrowers’ monthly pay-
       with recent price declines by providing TARP-funded incentives to offset              ments and distribute them to investors
                                                                                             according to Pooling and Servicing
       potential losses in home values.113
                                                                                             Agreements (“PSAs”).
   çç Principal Reduction Alternative (“PRA”) — PRA is intended to encourage
       the use of principal reduction in modifications for eligible borrowers whose
       homes are worth significantly less than the remaining outstanding balances
52            special inspector general I troubled asset relief program




                                                               of their first-lien mortgage loans. It provides TARP-funded incentives to
     Short Sales: Sales of a home for less                     offset a portion of the principal reduction provided by the investor.114
     than the unpaid mortgage balance. A                  çç Home Affordable Unemployment Program (“UP”) — UP is intended to
     borrower sells the home and the lender                    offer assistance to unemployed homeowners through temporary forbearance
     collects the proceeds as full or partial                  of a portion of their payments.115 TARP funds are not used to support this
     satisfaction of the unpaid mortgage                       program.
     balance, thus avoiding the foreclosure               çç Home Affordable Foreclosure Alternatives (“HAFA”) — HAFA is intend-
     process.
                                                               ed to provide incentives to servicers and borrowers to pursue short sales and
                                                               deeds-in-lieu of foreclosure for HAMP-eligible borrowers in cases in which
     Deed-in-Lieu of Foreclosure: Instead
                                                               the borrower is unable or unwilling to enter into a modification.116
     of going through foreclosure, the bor-
     rower voluntarily surrenders the deed
                                                     •	   Second-Lien Modification Program (“2MP”) — 2MP is intended to modify
     to the home to the home lender, as                   second-lien mortgages when a corresponding first-lien is modified under HAMP.
     satisfaction of the unpaid mortgage                  However, the requirement to modify second-liens applies only to servicers that
     balance.                                             executed a Servicer Participation Agreement (“SPA”) to participate in 2MP prior
                                                          to October 3, 2010.117 As of June 30, 2011, 19 servicers are participating in
     Underwater Mortgage: Mortgage loan                   2MP. These servicers represent approximately 55% to 60% of the second-lien
     on which a homeowner owes more                       servicing market.118
     than the home is worth, typically as            •	   Agency-Insured Programs — Similar in structure to Treasury’s HAMP first-
     a result of a decline in the home’s                  lien program, these initiatives are intended to reduce payments to more afford-
     value. Underwater mortgages are also                 able levels on eligible first-lien mortgages insured by FHA or guaranteed by
     referred to as having negative equity.
                                                          the Department of Agriculture’s Office of Rural Development (“RD”) and the
                                                          Department of Veterans Affairs (“VA”).119 Treasury provides TARP-funded incen-
                                                          tives to encourage modifications under the FHA and RD modification programs.
                                                     •	   FHA Short Refinance Program and Treasury/FHA Second-Lien Program
                                                          (“FHA2LP”) — The FHA Short Refinance Program, which is partially support-
                                                          ed by TARP funds, is intended to encourage refinancing of existing underwater
                                                          mortgage loans that are not currently insured by FHA into an FHA-insured
                                                          mortgages with lower principal balances. Treasury has provided a TARP-funded
                                                          letter of credit for up to $8 billion in loss coverage on these newly originated
                                                          FHA loans. To facilitate refinancing under this program, Treasury also uses
                                                          TARP funds to provide incentives under FHA2LP to existing second-lien hold-
                                                          ers and participating servicers who agree to partial or full extinguishment of
                                                          their liens.120
                                                     •	   Housing Finance Agency Hardest Hit Fund (“HHF”) — A TARP-funded
                                                          program, HHF is intended to fund foreclosure prevention programs run by state
                                                          housing finance agencies in states hit hardest by the decrease in home prices
                                                          and in states with high unemployment rates. Eighteen states and the District of
                                                          Columbia have received approval for aid through the program.121
                                                                                                                                         quarterly report to congress I July 28, 2011   53




Status of TARP Funds Obligated to Housing Support
Programs
Treasury obligated $45.6 billion to housing support programs, of which $2 billion,
or 4.3%, has been expended as of June 30, 2011.122 Effective October 1, 2010,
Treasury established that the aggregate amount available to pay servicer, borrower,
and investor incentives under MHA programs would be capped at $29.9 billion.123
The remaining $15.7 billion is allocated to funding the FHA Short Refinance and
HHF programs.124 The amount obligated to each MHA-participating servicer is es-
tablished pursuant to its Program Participation Cap under its SPA with Treasury.125
Treasury set each servicer’s initial cap by estimating the number of services ex-
pected to be performed by each servicer across all housing support programs in
which it participates during the term of the SPA. According to Treasury, a servicer’s
cap will be adjusted based on several factors: (1) upward or downward, pursuant
to a Servicer Cap Model that aims to reallocate funds from servicers that have a
relatively large amount of unused funds under their cap to servicers with a rela-
tively small amount of unused funds under their cap, or (2) downward, based on
Treasury’s analysis of the servicer’s eligible loan portfolio.126
    Table 2.9 shows the breakdown in estimated funding allocations for these hous-
ing support programs.

Table 2.9

TARP allocations by Housing Support programs,
AS OF 6/30/2011 ($ BILLIONS)
HAMP
    First-Lien Modification                                                                                                             $19.1
    PRA Modification                                                                                                                        2.0
    HPDP                                                                                                                                    1.6
    HAFA                                                                                                                                    4.1
    UP                                                                                                                                      —a
2MP                                                                                                                                         0.1
Treasury FHA-HAMP                                                                                                                           0.2
RD-HAMP                                                                                                                                     —b
FHA2LP                                                                                                                                      2.7
FHA Short Refinance (Loss-Coverage)                                                                                                        8.1c
HHF                                                                                                                                         7.6
Total Allocations                                                                                                                      $45.6

Note: Numbers may not total due to rounding.
a
  Treasury does not allocate TARP funds to UP.
b
  Treasury estimates that $17.8 million will be allocated to RD-HAMP.
c
  This amount includes the up to $117.0 million in fees Treasury will incur for the availability and usage of the $8.0 billion letter of credit.

Source: Treasury, responses to SIGTARP data call, 6/30/2011, 7/22/2011.
54   special inspector general I troubled asset relief program




                                                As of June 30, 2011, Treasury had active agreements with 126 servicers.
                                            Originally, 145 servicers had agreed to participate in MHA.127 According to
                                            Treasury, of the $29.9 billion obligated to participating servicers under their SPAs,
                                            as of June 30, 2011, $1.2 billion had been spent on completing permanent modifi-
                                            cations of first-liens (299,334 of which remain active); $27.5 million on completing
                                            2,564 full extinguishments, 1,303 partial extinguishments, and 29,848 permanent
                                            modifications of second-liens under the 2MP; and $37.9 million on incentives for
                                            10,280 short sales or deeds-in-lieu of foreclosure under HAFA.128 Of the combined
                                            amount of incentive payments, according to Treasury, approximately $575.6 million
                                            went to pay servicer incentives, $623.4 million went to pay investor incentives, and
                                            $227 million went to pay borrower incentives.129 As of June 30, 2011, Treasury had
                                            disbursed approximately $478.4 million of the $7.6 billion allocated to state hous-
                                            ing finance agencies participating in HHF, most of which has been allocated to ad-
                                            ministrative expenses.130 The remaining $8.1 billion has been obligated under FHA
                                            Short Refinance to purchase a letter of credit to provide up to $8 billion in first loss
                                            coverage and to pay $117 million in fees for the letter of credit. Treasury was un-
                                            able to confirm whether there have been any defaults on the 257 loans refinanced
                                            under the FHA Short Refinance program.131 Therefore, TARP has not incurred any
                                            losses under the program and the line of credit has not yet been accessed.
                                                The breakdown of incentive payments for TARP (non-GSE) loans is shown in
                                            Table 2.10.
                                                                                           quarterly report to congress I July 28, 2011   55




Table 2.10

BREAKDOWN OF TARP (NON-GSE) INCENTIVE PAYMENTS,
AS OF 6/30/2011 ($ MILLIONs)
HAMP First-Lien Modification Incentives                                                 Non-GSEs
Servicer Incentive Payment ($1,000)                                                       $331.6
Servicer Current Borrower Incentive Payment ($500)                                          12.6
Annual Servicer Pay for Success                                                            205.7
Investor Current Borrower Incentive Payment ($1,500)                                        37.5
Investor Monthly Reduction Cost Share                                                     446.4a
Annual Borrower Pay for Success                                                            201.4
   HAMP First-Lien Modification Incentives Total                                        $1,235.2
Second-Lien Modification Program Incentives
2MP Servicer Incentive Payment                                                             $14.2
2MP Servicer Pay for Success                                                                  —
2MP Borrower Pay for Success                                                                  —
2MP Investor Cost Share                                                                      6.4
2MP Investor Full Extinguishment                                                             6.0
2MP Investor Partial Extinguishment                                                          0.9
   Second-Lien Modification Program Incentives Total                                       $27.5
HAFA Incentives
Servicer Incentive Payment                                                                  10.1
Investor Reimbursement                                                                       3.5
Borrower Relocation                                                                         24.2
   HAFA Incentives Total                                                                   $37.9
HPDP                                                                                      $122.6
FHA2LP                                                                                        —
PRA                                                                                          —b
RD-HAMP                                                                                      —c
Treasury/FHA-HAMP Incentives
Annual Servicer Pay for Success                                                              1.4
Annual Borrower Pay for Success                                                              1.4
   Treasury/FHA-HAMP Incentives Total                                                        2.8
TOTAL                                                                                   $1,426.0

Note: Numbers affected by rounding.
a
  Investor Monthly Reduction Cost Share is considered an incentive payment.
b
  PRA has paid $18,224 in incentives.
c
  Treasury could not provide SIGTARP with RD-HAMP incentive data as of June 30, 2011.

Source: Treasury, response to SIGTARP data call, 7/6/2011.
56            special inspector general I troubled asset relief program




                                                     HAMP
                                                     According to Treasury, HAMP was intended “to help as many as three to four
                                                     million financially struggling homeowners avoid foreclosure by modifying loans to a
                                                     level that is affordable for borrowers now and sustainable over the long term.”132

                                                     HAMP First-Lien Modification Program
                                                     In designing HAMP, the Administration envisioned a “shared partnership” between
                                                     the Government and investors to bring distressed borrowers’ first-lien monthly
                                                     payments down to an “affordable” and sustainable level — defined by Treasury as
                                                     31% of the borrower’s monthly gross income.133 Under the program, investors are
                                                     responsible for all payment reductions necessary to bring a borrower’s monthly
                                                     payment down to 38% of their monthly gross income. The additional reductions
                                                     needed to bring the monthly payment down to a 31% ratio are shared between in-
                                                     vestors and the Government.134 Treasury will also compensate investors for reduc-
                                                     ing the principal on certain underwater mortgages.135

                                                     Trial Plan Evaluation
                                                     Borrowers may be solicited for participation by their servicers or they may request
                                                     participation in HAMP.136 Before offering the borrower a trial modification plan,
                                                     the servicer must verify the accuracy of the borrower’s income and other eligibil-
                                                     ity criteria. In order to verify the borrower’s eligibility for a modification under the
                                                     program, borrowers must submit the following documents:137

     For more information on the RMA                 •	 an MHA “request for modification and affidavit” (“RMA”) form, which provides
     form and what constitutes hardship,                the servicer with the borrower’s financial information, including the cause of the
     see SIGTARP’s April 2011 Quarterly                 borrower’s hardship;
     Report, page 62.
                                                     •	 signed and completed requests for Federal tax return transcripts or the most
     For more information on the borrower
                                                        recent Federal income tax return, including all schedules and forms;
     certification process required by the           •	 income verification documentation, such as recent pay stubs or evidence of
     Dodd-Frank Act, see SIGTARP’s October              other sources of income; and
     2010 Quarterly Report, page 83.                 •	 Dodd-Frank certification of whether a borrower is eligible to receive assistance
                                                        under the MHA program, provided that the borrower has not been convicted in
     For more information on the Verification
                                                        the past 10 years of any of the following in connection with a mortgage or real
     Policy, see SIGTARP’s April 2011
     Quarterly Report, page 63.
                                                        estate transaction: felony larceny, theft, fraud, or forgery; money laundering, or
                                                        tax evasion.

                                                         Effective May 1, 2011, participating servicers are required to develop and ad-
                                                     here to written policy and procedures that, among other things, detail the method-
                                                     ology that the servicer will use to calculate and verify monthly gross income for the
                                                     borrower and the borrower’s household.138
                                                         After verifying eligibility and income, the servicer follows the modification
                                                     steps prescribed by HAMP guidelines to calculate the reduction in the borrower’s
                                                                                    quarterly report to congress I July 28, 2011             57




monthly mortgage payment needed to achieve a 31% debt-to-income (“DTI”) ratio,
that is, a payment equal to 31% of his or her gross monthly income.139
     In the first step, the servicer capitalizes any unpaid interest and fees (i.e., adds
them to the outstanding principal balance). Second, the servicer reduces the inter-
est rate in incremental steps to as low as 2%. If the 31% DTI ratio threshold has
still not been reached, in the third step the servicer extends the term of the mort-
gage to a maximum of 40 years from the modification date. If these steps are still
insufficient to reach the 31% threshold, the servicer may forbear principal (defer its
due date), subject to certain limits.140 The forbearance amount is not interest bear-
ing and results in a lump-sum payment due upon the earliest of the sale date of the
property, the payoff date of the interest-bearing mortgage balance, or the maturity
date of the mortgage.141
     Servicers are not required to forgive principal under HAMP. However, servicers
may forgive principal in order to lower the borrower’s monthly payment to achieve
the DTI ratio goal of 31% on a stand-alone basis or before any of the other HAMP
modification steps described above.142
     Finally, after engaging in the modification calculations, “all loans that meet              Net Present Value (“NPV”) Test: Com-
HAMP eligibility criteria and are either deemed to be in imminent default or                     pares the money generated by modify-
delinquent [by] two or more payments must be evaluated using a standardized Net                  ing the terms of the mortgage with
                                                                                                 the amount an investor can reasonably
Present Value (“NPV”) test that compares the NPV result for a modification to
                                                                                                 expect to recover in a foreclosure sale.
the NPV result for no modification.”143 The NPV test uses a series of inputs that
compares the expected cash flow from a modified loan with the cash flow from the
                                                                                                 Loan-to-Value (“LTV”) Ratio: Lending
same loan with no modifications, based on certain assumptions. A positive NPV                    risk assessment ratio that mortgage
test result indicates that a modified loan is more valuable to the investor than if the          lenders examine before approving a
loan is not modified. In that case, under HAMP rules, the servicer must offer the                mortgage; calculated by dividing the
borrower a mortgage modification. If the test generates a negative result, modifica-             outstanding amount of the loan by the
tion is optional.144 In reviewing a borrower’s application, servicers cannot refuse              value of the collateral backing the loan.
to evaluate a borrower for a modification simply because the outstanding loan                    Loans with high LTV ratios are gener-
currently has a low loan-to-value (“LTV”) ratio. (The lower the LTV ratio is, the                ally seen as higher risk because the
higher the probability that a foreclosure will be more profitable to an investor than            borrower has less of an equity stake in
a modification, because of the proceeds that would be realized from a foreclosure                the property.
sale.) The servicer is required to perform and document the evaluation in a manner
                                                                                                 Trial Modification: Under HAMP, a pe-
consistent with program guidelines.145
                                                                                                 riod of at least three months in which a
     With respect to loans owned or guaranteed by the GSEs, servicers are required
                                                                                                 borrower is given a chance to establish
to offer a trial modification if the NPV test results are equal to or greater than
                                                                                                 that he or she can make lower monthly
negative $5,000. In other words, even if the NPV test indicates that a modified                  mortgage payments and qualify for a
mortgage would cost the GSE up to $5,000 more than foreclosure would, the ser-                   permanent modification.
vicer still must offer the modification.146
58   special inspector general I troubled asset relief program




                                            How Trial Modifications Work
                                            Treasury originally intended that HAMP trial period modifications would last three
                                            months; however, according to Treasury, as of June 30, 2011, of a combined total
                                            of 115,515 (non-GSE and GSE) active trials, 22,230, or 19%, had lasted more than
                                            six months.147
                                                 During a trial period, the borrower must make at least three modified pay-
                                            ments.148 Under a “trial period plan” (“TPP”), borrowers may qualify for a perma-
                                            nent modification as long as they make all required payments on time, are eligible,
                                            and provide proper documentation, including a modification agreement.149 The
                                            terms of these permanent modifications remain fixed for at least five years.150 After
                                            five years, the loan’s interest rate can increase if the modified interest rate had been
                                            reduced below the current 30-year conforming fixed interest rate on the date of the
                                            initial modification. The interest rate can rise incrementally by up to 1% per year
                                            until it reaches that rate.151 Otherwise, the modified interest rate remains perma-
                                            nent. Beginning May 1, 2011, if a borrower is denied a permanent modification
                                            because of missed trial payments, the servicer must, within 30 days of the missed
                                            payment, re-calculate the borrower’s income using the original income documenta-
                                            tion to ensure that the trial payment was correctly calculated. The servicer is not
                                            required to re-run the calculation if the borrower missed a trial payment because of
                                            a significant change in circumstances resulting in a reduction in income. If the re-
                                            calculation shows that the borrower’s trial payment exceeded the proper payment
                                            by 10% or more, the servicer must offer the borrower a new trial period with the
                                            correct payment.152
                                                 If the borrower misses a payment during the trial or is denied a permanent
                                            modification for any other reason, the borrower is, in effect, left with the original
                                            terms of the mortgage. The borrower is responsible for the difference between
                                            the original mortgage payment amount and the reduced trial payments that were
                                            made during the trial. In addition, the borrower may be liable for late fees that were
                                            generated during the trial. In other words, a borrower can be assessed late fees for
                                            failing to make the original pre-modification scheduled payments during the trial
                                            period, even though under the trial modification the borrower is not required to
                                            make these payments. Late fees are waived only for borrowers who receive a per-
                                            manent modification.153

                                            Modification Incentives
                                            As of June 30, 2011, servicers received a one-time incentive fee payment of $1,000
                                            for each permanent modification completed under HAMP, and additional compen-
                                            sation of $500 if the borrower was current but at imminent risk of default before
                                            enrolling in the trial plan. On July 6, 2011, Treasury announced that it was chang-
                                            ing the flat $1,000 incentive to a new sliding scale based on the length of time the
                                            loan was delinquent as of the effective date of the TPP. For loans less than or equal
                                                                                  quarterly report to congress I July 28, 2011   59




to 120 days delinquent, servicers will now receive $1,600.154 For loans 121-210
days delinquent, servicers will receive $1,200. For loans more than 210 days de-
linquent, servicers will only receive $400. Additionally, under this new system, the
$500 current borrower incentive will no longer be paid. Servicers are also prohib-
ited from taking additional collection measures to reduce the delinquency period in
order to qualify for higher incentives. Treasury stated that this system is “designed
to encourage servicers to provide an appropriate solution, at the very early stages of
the delinquency, to borrowers who are suffering a hardship.”155 The new incentive
scale will affect all permanent HAMP modifications with a trial period plan effec-
tive date on or after October 1, 2011.156
    For borrowers whose monthly mortgage payment was reduced through HAMP
by 6% or more, servicers also receive “pay for success” payments of up to $1,000
annually for three years if the borrower remains in good standing (defined as less
than three full monthly payments delinquent).157
    Borrowers whose monthly mortgage payment is reduced through HAMP by
6% or more and who make monthly payments on time earn an annual “pay for
performance” principal balance reduction of up to $1,000.158 The principal balance
reduction accrues monthly and is payable for each of the first five years as long as
the borrower remains current on his or her monthly payments.159
    An investor is entitled to compensation, for up to five years, equal to one-half of
the dollar difference between the borrower’s monthly payment (principal and inter-
est) under the modification, based on 31% of gross monthly income, and the lesser
of (1) the borrower’s monthly principal and interest at 38% and (2) the borrower’s
pre-modification monthly principal and interest payment.160 If applicable, inves-
tors also earn an extra one-time, up-front payment of $1,500 for modifying a loan
that was current before the trial period (i.e., at risk of imminent default) and whose
monthly payment was reduced by at least 6%.161
    As of June 30, 2011, of the $29.9 billion in TARP funds allocated to the 126
servicers participating in HAMP, approximately 81% was allocated to the 10 largest
servicers.162 Table 2.11 outlines these servicers’ relative progress in implementing
the HAMP modification programs.
60                special inspector general I troubled asset relief program




      Table 2.11

     tarp (Non-GSE) INCENTIVE PAYMENTS BY 10 LARGEST SPA SERVICERS, AS OF 6/30/2011
                                                                             Incentive Payments             Incentive Payments Incentive Payments             Total Incentive
                                                           SPA Cap Limit            to Borrowers                    to Investors       to Servicers                Payments
     BAC Home Loans Servicing, LP
     (Formerly known as Countrywide
     Home Loans Servicing)                                $6,349,073,089               $27,559,698                    $78,530,233              $68,216,221        $174,306,152
     Wells Fargo Bank, NA                                  5,128,387,058                 28,374,162                    80,352,602               69,281,823         178,008,588
     J.P. Morgan Chase Bank, NA                            3,345,783,295                 42,687,366                    68,670,462               85,201,942         196,559,770
     OneWest Bank                                          1,836,229,265                  9,688,319                    34,003,983               24,184,841          67,877,144
     Bank of America, NA                                   1,555,113,000                  3,107,416                    13,713,245               10,080,939          26,901,599
     Ally Financial Inc. (formerly GMAC)                   1,499,075,924                 10,126,737                    39,142,406               30,951,449          80,220,591
     American Home Mortgage Servicing, Inc.                1,308,575,052                 12,023,297                    49,651,169               39,422,434         101,096,901
     Ocwen Financial Corporation, Inc.                     1,144,140,562                 15,103,345                    42,459,575               36,907,445          94,470,365
     CitiMortgage, Inc.                                    1,065,966,341                 15,033,316                    46,787,377               41,072,284         102,892,977
     Litton Loan Servicing, LP                             1,055,266,911                  7,805,147                    23,240,915               19,540,214          50,586,276
     Total                                              $24,287,610,497             $171,508,803                  $476,551,966               $424,859,593    $1,072,920,363

     Note: Numbers may not total due to rounding.

     Source: Treasury, Transactions Report, 7/1/2011.




                                                                 Modification Statistics
                                                                 As of June 30, 2011, a total of 657,044 mortgages were in active permanent modi-
                                                                 fications (GSE and non-GSE) and 115,515 were in active trial modifications. For
                                                                 borrowers receiving non-GSE permanent modifications, 100% received an interest
                                                                 rate reduction, 59.7% received a term extension, 30.5% received principal forbear-
                                                                 ance, and 3.69% received principal forgiveness.163 HAMP modification activity,
                                                                 broken out by GSE and TARP (non-GSE) loans, is shown in Table 2.12.

                                                                 Table 2.12
                                                                 HAMP MODIFICATION ACTIVITY BY GSE/NON-GSE, AS OF 6/30/2011
                                                                                                                                              Trials
                                                                                                          Trials             Trials       Converted Permanents Permanents
                                                                               Trials Started         Cancelled             Active     to Permanent   Cancelled    Active
                                                                 GSE                  880,772            420,891           50,923           408,958      51,248       357,710
                                                                 Non-GSE              758,610            339,905           64,592           354,113      54,779       299,334
                                                                 Total             1,639,382            760,796         115,515             763,071    106,027       657,044

                                                                 Sources: Treasury, responses to SIGTARP data call, 7/22/2011, 7/23/2011.
                                                                                quarterly report to congress I July 28, 2011             61




What Happens When a HAMP Modification Is Denied: Servicer Obligations and                    For more information on HAMP
Borrower Rights                                                                              servicer obligations and borrower rights,
                                                                                             see SIGTARP’s April 2011 Quarterly
Treasury has issued a series of guidance governing both the obligations of servicers
                                                                                             Report, pages 67-76.
and the rights of borrowers in connection with the denial of loan modification
requests. This guidance includes the rights of borrowers to receive Non-Approval
Notices if they are not approved for a HAMP modification and to request reconsid-
eration or re-evaluation if they believe one or more NPV analysis inputs is incorrect
or if they experience a change in circumstance. In addition, Treasury guidance out-
lines the obligations of servicers to have written procedures and personnel in place
to respond to borrower inquiries and disputes that constitute “escalated cases” in a
timely manner.

Single Point of Contact
Beginning September 1, 2011, the 20 largest mortgage servicers participating in
MHA (i.e., those servicers that had a Program Participation Cap of $75 million
or more as of May 18, 2011) will be required to assign a single point of contact to
borrowers potentially eligible for evaluation under HAMP, HAFA, or UP.164 The
other participating servicers are encouraged, but not required, to adopt this new
guidance. Borrowers who are: (a) in the process of being evaluated for HAMP,
HAFA or UP; or (b) already participating in a trial HAMP modification, an un-
employment forbearance program, or who have executed a HAFA short sale or
deed-in-lieu agreement as of September 1, 2011, will need to be assigned a single
point of contact no later than November 1, 2011.165 Borrowers who were deemed
ineligible for HAMP, HAFA or UP prior to September 1, 2011, and who request
re-evaluation after September 1, 2011, must be assigned a single point of contact
if the servicer determines that there has been a significant change in the borrower’s
circumstances.
     The single point of contact, referred to as the “relationship manager,” will
have the sole primary responsibility for communicating with the borrower (or the
borrower’s authorized advisor) about options to avoid foreclosure, his/her status
in the process, coordination of receipt of documents, and coordination with other
servicer personnel to promote compliance with MHA timelines and requirements.
The relationship manager must be an employee of the servicer and cannot be a
contractor, and will be assigned when the servicer makes successful contact with
the borrower.166 This single relationship manager will be responsible for managing
the borrower relationship throughout the entire delinquency or imminent default
resolution process, and if the loan is subsequently referred to foreclosure, must be
available to respond to borrower inquiries regarding the status of the foreclosure.
The relationship manager’s proactive responsibilities end when a homeowner com-
pletes a loan modification or when all loss mitigation actions have been exhausted.
62   special inspector general I troubled asset relief program




                                                 The servicer must ensure that one relationship manager is always reachable. If
                                            it is necessary to change the relationship manager (e.g., the relationship manager is
                                            no longer employed, work responsibilities change, on extended leave), the servicer
                                            must provide written notification of the changed contact information to the bor-
                                            rower within five business days of assignment of the new relationship manager.167
                                            The servicer must also ensure that it has the appropriate personnel and infra-
                                            structure in place to carry out the relationship manager’s responsibilities when the
                                            relationship manager is not reachable.

                                            Launch of NPV Calculator Website (www.CheckMyNPV.com)
                                            Pursuant to Section 1482 of the Dodd-Frank Act, Treasury and the Department of
                                            Housing and Urban Development (“HUD”) launched a publicly available web-based
                                            NPV calculator based on the HAMP NPV model on May 23, 2011, to assist borrow-
                                            ers in understanding the NPV evaluation process under HAMP and in conducting
                                            an estimated NPV evaluation of their mortgage. The web-based NPV calculator can
                                            be used by borrowers prior to applying for a HAMP modification to help them better
                                            understand the NPV evaluation process. The tool can also be used by borrowers who
                                            have been denied a HAMP modification because of their NPV result. Borrowers can
                                            enter the NPV input values listed in the HAMP Non-Approval Notice received from
                                            their mortgage servicer, or substitute with estimated NPV input values, to compare
                                            the outcome provided by CheckMyNPV.com against that on the Non-Approval
                                            Notice. According to Treasury, the calculator provides a downloadable results page
                                            that lists “all input variables as well as the outcome, so that borrowers and servicers
                                            together can discuss the factors considered in the NPV evaluations and their eligibil-
                                            ity for HAMP or other foreclosure prevention programs.”168

                                            Home Price Decline Protection Program (“HPDP”)
                                            The HPDP initiative provides investors with additional incentives for modifications
                                            of loans on properties located in areas where home prices have recently declined
                                            and where investors are concerned that price declines may persist. HPDP incen-
                                            tive payments are linked to the rate of recent home price decline in a local housing
                                            market, as well as the unpaid principal balance (“UPB”) and mark-to-market LTV
                                            ratio of the mortgage loan.169
                                                HPDP is intended to address the fears of investors who may withhold their
                                            consent to loan modifications because of potential future declines in the value of
                                            the homes that secure the mortgages, should the modification fail and the loan go
                                            into foreclosure. In such a circumstance, the investor could suffer greater losses for
                                            offering modifications than under an immediate foreclosure. By providing incentive
                                            payments to mitigate that potential loss for a 24-month period, Treasury hopes to
                                            encourage more lenders and investors to modify loans.
                                                                                  quarterly report to congress I July 28, 2011   63




    Under HPDP, Treasury has published a standard formula, based on the UPB of
the mortgage, the recent decline in area home prices during the six months before
the start of the HAMP modification, and the LTV ratio, that will determine the size
of the incentive payment.170 The HPDP incentive payments accrue monthly over a
24-month period and are paid out annually on the first and second anniversaries of
the initial HAMP trial period mortgage payment. Accruals are discontinued if the
borrower loses good standing under HAMP by missing three mortgage payments.
As of June 30, 2011, according to Treasury, approximately $122.6 million in TARP
funds had been paid to investors. According to Treasury, 74,537 loans have received
HPDP investor incentives.171

Principal Reduction Alternative (“PRA”)	
On June 3, 2010, Treasury announced that it would implement a program in-
tended to provide investors with incentive payments to encourage them to forgive
principal for significantly underwater mortgages. Although the Principal Reduction
Alternative (PRA) did not officially take effect until October 1, 2010, servicers
were permitted to begin offering PRA assistance immediately.172 PRA is applicable
only to non-GSE loans and therefore does not cover loans owned, guaranteed, or
insured by Freddie Mac or Fannie Mae, which have refused to participate in the
program.173 Treasury reported to SIGTARP that as of June 30, 2011, 26,258 bor-
rowers are participating in PRA.174
    Before PRA started, servicers were allowed to forgive principal to achieve the
DTI ratio goal of 31% on a stand-alone basis or before any of the other HAMP
modification steps but did not receive additional incentive payments for doing so.175
PRA gave servicers new flexibility in applying waterfall steps if they forgave at least
5% of a borrower’s UPB in conjunction with a PRA modification and added incen-
tives for investors.176 PRA does not require servicers to forgive principal under any
circumstances, even when doing so is deemed to offer greater financial benefit to
the investor.177

Who Is Eligible
Borrowers who meet all HAMP eligibility requirements and who owe more than
115% of their home’s value are eligible for PRA.178 According to Treasury, servicers
may but are not required to evaluate for PRA assistance those existing HAMP
borrowers who were in HAMP permanent modifications or existing second-lien
mortgage loans modified through 2MP retroactively.179 Servicers that choose to do
so must develop written policies and procedures to identify existing loans that are
eligible and treat them in a consistent manner.180 If a servicer chose to consider
existing HAMP borrowers for retroactive application of PRA, it had to evaluate
those loans by January 31, 2011.181
64               special inspector general I troubled asset relief program




 Table 2.13
                                                                    How PRA Works
                                                                    Principal forbearance divides a mortgage loan into two segments, one interest-
PRA incentives to investors per
dollar of loan principal
                                                                    bearing and the other not. The borrower continues to make regular principal and
reduced                                                             interest payments on the interest-bearing segment, but no monthly payments are
Mark-to-Market      105%                 115%         > 140%        due on the non-interest-bearing segment. Rather, that segment, which represents
Loan-to-Value Ratio to                   to                         the principal forbearance amount, is due as an additional lump-sum or “balloon”
(“LTV”) Rangea      115%                 140%
                                                                    payment at the earlier of the sale of the property or the maturity date of the mort-
Incentive Amounts          $0.21         $0.15        $0.10
                                                                    gage. Under PRA, if the borrower remains in good standing on the first, second,
Note: Loans less than or equal to six months past due. For loans
that were more than six months delinquent within the previous
                                                                    and third anniversaries of the modification, the servicer reduces the principal bal-
year, investors receive $0.06 per dollar of UPB forgiven in com-
pensation, regardless of the LTV ratio.
                                                                    ance in the separate forbearance account on each anniversary in installments equal
a
  The mark-to-market LTV is based on the pre-modified UPB of the
  first-lien mortgage divided by the value of the property.
                                                                    to one-third of the initial PRA forbearance amount.182
 Source: Treasury, “Making Home Affordable Program Handbook
                                                                         Participating servicers must evaluate for PRA assistance every HAMP-eligible
 for Servicers of Non-GSE Mortgages, Version 3.2,” 6/1/2011,
 www.hmpadmin.com/portal/programs/docs/hamp_servicer/
                                                                    loan that has an outstanding LTV greater than 115%. A servicer does so by running
 mhahandbook_32.pdf, accessed 6/29/2011.
                                                                    two NPV tests — one with and one without principal forgiveness — using method-
                                                                    ologies prescribed by Treasury.183 If the standard waterfall produces a positive NPV
                                                                    result, the servicer must modify the loan.184 However, servicers are not required to
                                                                    offer principal reduction, even when the NPV result under the alternative water-
     Equity Share Agreement: Agreement                              fall using principal forgiveness is positive and exceeds the NPV result under the
     that a homeowner will share future in-                         standard waterfall; they are required simply to consider PRA-eligible borrowers for
     creases in home value with a mortgage                          such assistance.185
     investor or other party. In the context
     of mortgage loan modifications, the                            Who Gets Paid
     investor may reduce the borrower’s                             According to Treasury, in addition to the other incentives paid for first-lien modi-
     UPB in return for the right to share in a
                                                                    fications, investors are entitled to receive a percentage of each dollar of principal
     portion of any future rise in the home’s
                                                                    forgiven under PRA. Incentive payments are received on the first, second, and third
     value. An equity share agreement thus
                                                                    anniversaries of the modification date and are paid at the same time that the previ-
     may provide the mortgage investor
                                                                    ously forborne principal is forgiven.186 According to Treasury, as of June 30, 2011,
     with a prospect of recovering its full in-
     vestment, even if it provides a principal                      Treasury had paid $18,224 in PRA incentives.187 Table 2.13 shows the schedule
     reduction to the borrower. Conversely,                         under which investors are compensated for forgiving principal for those loans that
     it may also provide an immediate ben-                          have been delinquent for six months or less within the previous year. The incentive
     efit to an “underwater” borrower, yet                          payments range from $0.06 to $0.21 per dollar of UPB forgiven, depending on the
     still offer that borrower some prospect                        level to which the outstanding LTV ratio was reduced and the period of delin-
     of benefiting from future home price                           quency.188 The schedule provides increasing incentive payments for the additional
     appreciation.                                                  amount by which investors are willing to reduce a mortgage’s UPB compared with
                                                                    the property’s value. Treasury states that although servicers may reduce the mort-
                                                                    gage principal balance below the floor of a 105% LTV ratio, no PRA incentives will
                                                                    be paid for that portion of the principal reduction amount.189
     For more information concerning                                    As an additional incentive, an investor may agree to reduce a borrower’s UPB as
     equity share agreements in the context
                                                                    part of an equity share agreement under which the borrower and investor agree to
     of HAMP mortgage loan modifications,
     see SIGTARP’s April 2011 Quarterly                             share in the increase of the value of the property, under certain conditions.190
     Report, page 84.
                                                                               quarterly report to congress I July 28, 2011             65




Home Affordable Unemployment Program (“UP”)
UP, which was announced on March 26, 2010, provides temporary assistance
to borrowers whose hardship is related to unemployment.191 Under the program,
unemployed borrowers who meet certain qualifications can receive forbearance for
a portion of their mortgage payments. As of June 30, 2011, the forbearance period
was a minimum of three months, unless the borrower found work during this
time.192 On July 7, 2011, Treasury announced that it would increase the minimum
forbearance period to 12 months, subject to investor and regulatory guidance.193
According to Treasury, forbearance will soon become available to unemployed
borrowers who are seriously delinquent (by more than three months). As of May
31, 2001, which according to Treasury is the latest data available, 6,752 borrowers
were actively participating in UP.194

Who Is Eligible
As of June 30, 2011, HAMP servicers are required to offer an UP forbearance plan
of at least three months to a borrower who meets minimum eligibility criteria for
HAMP and certain additional requirements under UP including, among others,
that the borrower requested an UP forbearance plan before the first-lien mort-
gage loan was seriously delinquent (three months or more overdue), the borrower
received unemployment benefits for up to three months before the forbearance
period begins, and that the borrower be unemployed and receive unemployment
benefits in the month the UP forbearance becomes effective. On July 7, 2011,
Treasury announced that it would increase the minimum forbearance plan period
from three months to 12 months and make UP available to borrowers who are
seriously delinquent.195 If the borrower becomes eligible for the UP forbearance
plan and accepts the plan offer, the servicer must cancel the HAMP trial period
plan. Eligible borrowers may request a new HAMP trial period plan after the UP
forbearance plan is completed. If an unemployed borrower in bankruptcy proceed-
ings requests consideration for HAMP, the servicer must first evaluate the borrower
for UP, subject to any required bankruptcy court approvals.196
    A borrower who has been determined to be ineligible for HAMP may request
assessment for an UP forbearance plan if he or she meets all the eligibility crite-
ria.197 If a borrower who is eligible for UP declines an offer for an UP forbearance
plan, the servicer is not required to offer the borrower a modification under HAMP
or 2MP while the borrower remains eligible for an UP forbearance plan.198

How UP Works
For qualifying homeowners, the mortgage payments during the forbearance pe-                 For more information on additional UP
riod are lowered to no more than 31% of gross monthly income, which includes                eligibility criteria, see SIGTARP’s April
                                                                                            2011 Quarterly Report, pages 80-81.
unemployment benefits.199 The UP forbearance plan is required to last a mini-
mum of three months, unless the borrower becomes employed within that time.200
66            special inspector general I troubled asset relief program




                                                     However, on July 7, 2011, Treasury announced that it will increase the minimum
                                                     forbearance period to 12 months in the future.
     For more information on the                         If the borrower regains employment but because of reduced income still has a
     Home Affordable Unemployment                    hardship, the borrower must be considered for HAMP. If the borrower is eligible,
     Program, see Section 4: “SIGTARP
                                                     any payments missed prior to and during the period of the UP forbearance plan are
     Recommendations” of this report.
                                                     capitalized as part of the normal HAMP modification process.201 If the UP forbear-
                                                     ance period expires and the borrower is ineligible for HAMP, the borrower may be
                                                     eligible for HAMP foreclosure alternatives, such as HAFA.202

                                                     Home Affordable Foreclosure Alternatives (“HAFA”)
                                                     According to Treasury, HAFA is intended to encourage servicers to provide
                                                     borrowers with an alternative to foreclosure by offering financial incentives to
     Deficiency Judgment: Court order                servicers and borrowers utilizing a streamlined process for conducting short sales
     authorizing a lender to collect all or          or deeds-in-lieu of foreclosure as an alternative to foreclosure.203 Under HAFA,
     part of an unpaid and outstanding debt          the servicer forfeits the ability to pursue a deficiency judgment against a borrower
     resulting from the borrower’s default           who uses a short sale or deed-in-lieu when the property is worth less than the
     on the mortgage note securing a debt.           outstanding amount on the mortgage.204 HAFA provides financial incentives and
     A deficiency judgment is rendered               reimbursements for a successful short sale or deed-in-lieu of foreclosure, including
     after the foreclosed or repossessed             a $3,000 “relocation” incentive payment to borrowers, a $1,500 incentive payment
     property is sold when the proceeds are          to servicers, and incentive payments to subordinate mortgage lien holders of up
     insufficient to repay the full mortgage         to $2,000 in exchange for a release of the lien and the borrower’s liability.205
     debt.
                                                     The program was announced on November 30, 2009, and went into effect on
                                                     April 5, 2010.206
                                                         While a borrower must still provide sufficient evidence of hardship by com-
                                                     pleting and executing a Hardship Affidavit or RMA, and servicers must continue
                                                     to independently verify a borrower’s hardship, servicers are no longer required by
                                                     Treasury to verify a borrower’s financial information or determine whether the
                                                     borrower’s total monthly payment exceeds 31% of his or her gross monthly income,
                                                     unless this verification is required by the investor. However, servicers retain the dis-
                                                     cretion to require borrowers to provide additional financial information or evidence
                                                     of hardship.207
                                                         To receive the $3,000 relocation incentive under the program, a borrower is
                                                     required only to provide documentation that the property was used as the primary
                                                     residence at some point within the 12 months preceding the request for assis-
                                                     tance.208 Servicers are required to obtain third-party verification that the property
                                                     was the borrower’s primary residence at some point within the prior 12 months,
                                                     and may not rely exclusively on an affidavit provided by the borrower. The property
                                                     can be vacant or even rented to a non-borrower. A borrower’s reason for reloca-
                                                     tion and the distance of that relocation from the property are not relevant.209 In
                                                     addition, borrowers do not have to move out of their homes in order to receive the
                                                     $3,000 “relocation” incentive payment.210 With these changes, after a borrower
                                                                                   quarterly report to congress I July 28, 2011              67




relinquishes title, the servicer can allow the borrower to remain in the home on a
rental basis (referred to as a “deed-for-lease”) or to repurchase the property later
without affecting the borrower’s right to receive the incentive payment. Servicers
have the option to pay the incentive either upon successful surrender of the title or
when the borrower vacates or repurchases the property.211
    As of June 30, 2011, which according to Treasury is the latest data available,
approximately $37.9 million from TARP had been paid to investors, borrowers,
and servicers in connection with 10,280 short sales or deeds-in-lieu of foreclo-
sure transfers completed under HAFA.212 As of May 31, 2011, which according to
Treasury is the latest data available, Treasury reported that the 10 largest servicers
alone had completed 112,525 short sales and deeds-in-lieu outside HAMP for bor-
rowers whose HAMP trial modifications had failed, borrowers who had chosen not
to participate, or were ineligible for the program.213 The greater volume of activity
outside HAMP may be explained, in part, by the fees and deficiency judgments that
servicers are able to collect from the borrower in non-HAFA transactions, fees, and
judgments that are not available within HAFA.

Second-Lien Modification Program (“2MP”)
According to Treasury, 2MP is designed to work in tandem with HAMP and to
help provide relief for borrowers with second mortgages that are serviced by a
participating 2MP servicer. The same servicer does not have to service both liens
in order for the second-lien to be eligible for modification under 2MP. Under the
program, when a borrower’s first-lien is modified under HAMP and the servicer
of the second-lien is a 2MP participant, that servicer must offer to modify or
extinguish the borrower’s second-lien. 2MP relies on existing first-lien data and any
additional information obtained from HAMP’s administrator. The servicer modifies
the borrower’s second-lien according to “a defined protocol,” accepting a lump-sum
payment from Treasury for full extinguishment of the second-lien principal or in
exchange for a partial extinguishment and the modification of the remainder of the
second-lien.214 Second-lien servicers are not required to verify any of the borrower’s
financial information and do not perform a separate NPV analysis in order to
modify the second-lien.
    To be eligible for a 2MP modification or partial extinguishment, the second-lien            Servicing Advances: If borrowers’
must have a UPB of at least $5,000 and a pre-modification mortgage payment of                   payments are not made promptly and
at least $100 as of the date of its initial evaluation for the program.215 For a second-        in full, servicers are contractually obli-
lien modification under 2MP, the servicer first capitalizes any accrued interest                gated to advance the required monthly
                                                                                                payment amount in full to the investor:
and servicing advances, then reduces the interest rate, which is determined by the
                                                                                                Once a borrower becomes current
nature of the loan. The interest rate for amortizing second-liens (those that require
                                                                                                or the property is sold or acquired
payments of both interest and principal) decreases to 1% for the first five years
                                                                                                through foreclosure, the servicer is
of the loan. If the loan is interest-only (non-amortizing), the servicer can either             repaid all advanced funds.
convert the interest-only payment to an amortizing equivalent bearing a 1% interest
68               special inspector general I troubled asset relief program




                                                                      rate or retain the interest-only schedule and reduce the rate to 2% for the first five
                                                                      years. In both cases, after the five-year period the rate increases to match the rate
                                                                      on the HAMP-modified first-lien. When modifying the second-lien, the servicer
                                                                      must, at a minimum, extend the term to match the term of the first-lien but can
                                                                      extend the term up to a maximum of 40 years. To the extent that there is forbear-
                                                                      ance or principal reduction for the modified first-lien, the second-lien holder must
                                                                      forbear or forgive at least the same percentage on the second-lien.216
                                                                          The servicer receives a $500 incentive payment upon modification of a second-
                                                                      lien. If a borrower’s monthly second-lien payment is reduced by 6% or more, the
Table 2.14                                                            servicer is eligible for an annual “pay for success” incentive payment of $250
                                                                      per year for up to three years, and the borrower is eligible for an annual “pay for
2MP COMPENSATION PER DOLLAR OF
LOAN PRINCIPAL EXTINGUISHED                                           performance” principal balance reduction payment of up to $250 per year for up
Combined                                                              to five years.217 Investors receive modification incentive payments equal to an an-
                                        115%
Loan-to-Value
               < 115%                   to            > 140%
                                                                      nualized amount of 1.6% of the unmodified UPB, paid on a monthly basis for up
Ratio (“CLTV”)
Rangea
                                        140%                          to five years. If the borrower misses three consecutive payments on the modified
Incentive                                                             second-lien or if the associated first-lien is no longer in good standing, no further
                     $0.21              $0.15         $0.10
Amounts                                                               incentive payments are typically made to the servicer or the borrower.218 However,
Note: Loans less than or equal to six months past due. For loans
                                                                      the incentives may be paid under certain conditions.219 If the second-lien is fully
that were more than six months past delinquent within the previ-
ous year, investors will receive $0.06 per dollar in compensation,
                                                                      or partially extinguished, the investor receives a payment of a percentage of the
regardless of the LTV ratio.
a
  The LTV is the ratio of the sum of the current total UPB of the
                                                                      amount extinguished, using the schedule shown in Table 2.14. This schedule ap-
  HAMP-modified first lien and the current total UPB of the unmodi-
  fied second-lien divided by the property value determined in
                                                                      plies only to loans that have been six months delinquent or less within the previous
  connection with the permanent HAMP modification.                    year. For loans that have been more than six months delinquent within the previous
Source: Treasury, “Making Home Affordable Program Handbook
for Servicers of Non-GSE Mortgages, Version 3.2,” 6/1/2011,
                                                                      12 months, investors are paid $0.06 per dollar of the UPB of second-liens being ex-
www.hmpadmin.com/portal/programs/docs/hamp_servicer/
mhahandbook_32.pdf, accessed 6/29/2011.
                                                                      tinguished, regardless of the combined LTV ratio.220 As of June 30, 2011, according
                                                                      to Treasury, approximately $27.5 million in TARP funds had been paid to servicers
                                                                      and investors in connection with 33,715 loan extinguishments and modifications
                                                                      under 2MP.221

                                                                      Agency-Insured Loan Programs (FHA-HAMP, RD-HAMP and
                                                                      VA-HAMP)
                                                                      Some mortgage loans insured or guaranteed by the Federal Housing Administration
                                                                      (FHA), Department of Veterans Affairs (VA), or the U.S. Department of Agriculture
                                                                      Rural Development (RD) are eligible for modification under HAMP companion
                                                                      programs. Similar to HAMP, Treasury/FHA-HAMP and RD-HAMP reduce borrow-
                                                                      ers’ monthly mortgage payments to 31% of their gross monthly income and require
                                                                      borrowers to complete trial payment plans before their loans are permanently
                                                                      modified. Subject to meeting Treasury’s eligibility criteria, borrowers are eligible
                                                                      to receive a maximum $1,000 pay-for-performance compensation incentive and
                                                                      servicers are eligible to receive a maximum $1,000 pay-for-success compensation
                                                                      incentive from Treasury on mortgages in which the monthly payment was reduced
                                                                      by at least 6%.222 Incentive payments to servicers are paid annually for the first
                                                                                  quarterly report to congress I July 28, 2011        69




three years after the first anniversary of the first trial payment due date, as long as
the loan remains in good standing and has not been fully repaid at the time the
incentive is paid. Incentive payments to borrowers are paid over five years.223 Unlike
HAMP, no payments are made to investors because they already have the benefit
of a Government loan guarantee.224 In order to participate in these programs,
servicers that previously executed a SPA were required to execute — by October
3, 2010 — an Amended and Restated SPA or an additional Service Schedule that
includes Treasury/FHA-HAMP or RD-HAMP.225 As of June 30, 2011, according to
Treasury, approximately $2.8 million in TARP funds had been paid to servicers and
borrowers in connection with 3,383 permanent FHA-HAMP modifications. For the
third quarter in a row, Treasury stated that it could not provide SIGTARP with the
amount of incentive payments and modifications completed under RD-HAMP.226
    VA-HAMP follows the typical HAMP modification procedure, aiming to reduce
monthly mortgage payments to 31% of a borrower’s gross monthly income.227
However, VA-HAMP modifications do not have a trial period. The modification
agreement immediately changes the installment amount of the mortgage pay-
ment.228 Treasury does not provide incentive compensation related to VA-HAMP.229
VA-HAMP also does not require servicers to sign a SPA.230

Ensuring Effective Servicer Compliance with MHA Programs
                                                                                               For more information on Treasury’s
Treasury required servicers in its April 6, 2009, guidance to develop and execute
                                                                                               guidance concerning servicer
quality assurance programs and has since updated that guidance. According to                   compliance with MHA programs,
the updated guidance, effective May 1, 2011, servicers are required to develop,                see SIGTARP’s April 2011 Quarterly
document, and execute an effective internal quality assurance (“QA”) program that              Report, pages 75-76.
includes independent reviews, conducted at least quarterly, of each MHA program
in which the servicer participates. The purpose of these reviews is to ensure that
the servicer is following the SPA and program guidelines.231 The QA team must
conduct reviews at least quarterly and distribute a report to senior management
that includes recommendations for remediation actions. These reports must be
retained by senior management and made available to Treasury’s compliance agent,
Making Home Affordable-Compliance (“MHA-C”), upon request.232

MHA Servicer Assessments
Treasury has begun publishing quarterly Servicer Assessments of the 10 largest                 For more information on MHA Servicer
mortgage servicers participating in MHA. The first of these assessments, primarily             Assessments, see Section 4: “SIGTARP
                                                                                               Recommendations” of this report.
covering the first quarter of 2011, was published in the April 2011 MHA Program
Report that was issued in June 2011.233
   Servicer Assessments focus on compliance with the requirements of the MHA
program and on program results. The compliance assessment portion is based on
the findings of servicer compliance reviews conducted by MHA-C. These find-
ings are divided into three performance categories: Identifying and Contacting
70   special inspector general I troubled asset relief program




                                            Homeowners; Homeowner Evaluation and Assistance; and Program Management,
                                            Reporting, and Governance. These categories in turn contain several quantitative
                                            and qualitative metrics, which Treasury rates using a score of one, two, or three
                                            stars, with three stars denoting the highest rating.234 Program results are assessed in
                                            four quantitative metrics: Aged Trials as a Percentage of Active Trials; Conversion
                                            Rate for Trials Started On or After June 1, 2010; Average Calendar Days to Resolve
                                            Escalated Cases; and Percentage of Missing Modification Status Reports. The ser-
                                            vicer’s performance in each of the four metrics is compared with the best and worst
                                            performances of all evaluated MHA servicers.235 The servicers are also rated on the
                                            effectiveness of their internal controls in each of the three categories.
                                                 Based on the assessment results, Treasury issues determinations indicating
                                            whether the servicer requires minor improvement, moderate improvement, or
                                            substantial improvement. Treasury informs the servicer of any specific deficiencies
                                            it has identified. According to Treasury, in some cases, Treasury may withhold or
                                            permanently reduce servicer incentives based on the assessment results. If Treasury
                                            does not withhold or reduce incentives in a particular quarter, it may do so in sub-
                                            sequent quarters if the deficiencies are not corrected.236
                                                 In the first quarter 2011 assessment, Treasury determined that J.P. Morgan
                                            Chase Bank, N.A.; Bank of America, N.A.; and Wells Fargo Bank, N.A. all required
                                            substantial improvement. Treasury has stated that it will withhold incentives from
                                            these servicers at this time. Ocwen Loan Servicing, LLC was also found to require
                                            substantial improvement, but due to Ocwen’s acquisition of a large servicing portfo-
                                            lio during the assessment period, no incentives were withheld or reduced. Treasury
                                            has stated that it will continue to monitor Ocwen’s performance. The remaining
                                            six large servicers were all found to require moderate improvement. Treasury did
                                            not withhold or reduce incentives for these servicers. No servicers were found to
                                            require only minor improvement.237

                                            FHA Short Refinance Program and Treasury/FHA Second-
                                            Lien Program (”FHA2LP”)
                                            On March 26, 2010, Treasury and HUD announced the FHA Short Refinance
                                            program, which gives borrowers the option of refinancing an underwater, non-FHA-
                                            insured mortgage into an FHA-insured mortgage at 97.75% of the home’s value. The
                                            program was launched on September 7, 2010; FHA2LP, which provides incentives
                                            for partial or full extinguishment of second-liens associated with an FHA refinance,
                                            went into effect on September 27, 2010.238 Treasury has allocated TARP support
                                            for the programs at $10.8 billion, consisting of (1) up to $8 billion to provide loss
                                            protection to FHA on the refinanced first-liens through the purchase of a letter of
                                            credit; (2) up to $117 million in fees Treasury will incur for the availability and use
                                            of the letter of credit; and (3) an allocation of $2.7 billion to make incentive pay-
                                            ments to servicers and holders of existing second-liens for full or partial principal
                                                                                  quarterly report to congress I July 28, 2011          71




extinguishments under the related FHA2LP.239 FHA Short Refinance is voluntary
for servicers; therefore, not all underwater borrowers who qualify may be able to
participate in the program.240 As of June 30, 2011, according to Treasury and HUD,
257 loans had been refinanced under the program.241 Treasury was unable to con-
firm whether there have been any defaults on these loans as of June 30, 2011.242
According to Treasury, it had not made incentive payments and no second-liens had
been extinguished under FHA2LP through June 30, 2011.243

Who Is Eligible
To be eligible for FHA Short Refinance, a homeowner must be current on the
existing first-lien mortgage; be in a negative equity position; occupy the home as
a primary residence; qualify for the new loan under standard FHA underwriting
                                                                                               FICO Credit Score: Used by lenders to
requirements and have a FICO credit score of at least 500; have an existing loan
                                                                                               assess an applicant’s credit risk and
that is not insured by FHA; and fully document his or her income.244 Additionally,
                                                                                               whether to extend a loan. It is deter-
to be eligible under FHA2LP, second-liens must have been originated on or before
                                                                                               mined by the Fair Isaac Corporation
January 1, 2009; be immediately subordinate to the first-lien before the FHA                   (“FICO”) using mathematical models
refinance; require the borrower to make a monthly payment; not be GSE-owned                    based on an applicant’s payment his-
or guaranteed; and have a UPB of $2,500 or more on the day before the FHA                      tory, level of indebtedness, types of
refinance closing date.                                                                        credit used, length of credit history,
    According to HUD, applications are evaluated using FHA’s TOTAL Scorecard                   and newly extended credit.
(“TOTAL”). TOTAL evaluates the credit risk of FHA loans that are submitted to
an automated underwriting system. It is FHA’s policy that no borrower be denied
an FHA-insured mortgage solely on the basis of a risk assessment generated by                  For more information concerning FHA
TOTAL.245                                                                                      Short Refinance/FHA2LP eligibility,
                                                                                               see SIGTARP’s April 2011 Quarterly
                                                                                               Report, pages 85-87.
How FHA Short Refinance Works
Servicers must first determine the current value of the home pursuant to FHA
underwriting standards, which require a third-party appraisal by a HUD-approved
appraiser. The borrower is then reviewed through TOTAL and, if necessary,
referred for a manual underwriting review to confirm that the borrower’s total
monthly mortgage payment (including all payments on subordinate liens) after the
refinance is not greater than 31% of the borrower’s gross monthly income and the
total debt service, including all forms of household debt, is not greater than 50%.246
Next, the lien holders must forgive principal that is more than 115% of the value of
the home. In addition, the original first-lien lender must forgive at least 10% of the
unpaid principal balance of the first-lien loan. Although the first-lien investors must
recognize a loss as a result of the mortgage write-down, they receive a cash pay-
ment for 97.75% of the current home value from the proceeds of the refinance and
may maintain a subordinate second-lien for up to 17.25% of that value (for a total
balance of 115.0% of the home’s value).247
72               special inspector general I troubled asset relief program




Table 2.15
                                                                        The 115% cap applies to all mortgage liens on the property. Under FHA2LP, ex-
TREASURY FHA2LP COMPENSATION
PER DOLLAR OF LOAN PRINCIPAL                                        isting second-lien holders may receive incentive payments to extinguish their debts
EXTINGUISHED                                                        in accordance with the schedule set forth in Table 2.15, or they may negotiate with
Mark-to-Market      105%               115%         > 140%          the first-lien holder for a portion of the new subordinate lien loan.248 By obtaining
Loan-to-Value Ratio to                 to                           a new FHA-guaranteed loan for an amount that is closer to the current home value
(“LTV”) Rangea      115%               140%
                                                                    than their previous loan, homeowners receive the benefits of a lower monthly mort-
 Incentive Amounts $0.21 $0.15                      $0.10
                                                                    gage payment and reduction in the principal balance, improving their opportunity
Notes: Loans less than or equal to six months past due. For
loans that were more than six months delinquent within the
                                                                    to achieve positive equity in their homes.249
previous year, investors will receive $0.06 per dollar of loan
principle extinguished in compensation, regardless of the CLTV
                                                                        If a borrower defaults on a loan refinanced under FHA Short Refinance and
ratio.
a
  The CLTV is the ratio of all mortgage debt to the current FHA-
                                                                    submits a claim, the letter of credit purchased by TARP compensates the refi-
  appraised value of the property.
                                                                    nancing investor for a first percentage of losses on each defaulted mortgage, up
 Source: Treasury, “Supplemental Directive 10-08: Making Home
 Affordable Program — Treasury/FHA Second-Lien Program
                                                                    to the maximum amount specified by the program guidelines.250 This percentage
 (FHA2LP) to Support FHA Refinance of Borrowers in Negative
 Equity Positions,” 8/6/2010, https://www.hmpadmin.com/
                                                                    varies from year to year and is set according to a formula derived by the Office of
 portal/programs/docs/hamp_servicer/sd1012.pdf, accessed
 6/28/2011.
                                                                    Management and Budget (“OMB”).251 FHA thus is potentially responsible for the
                                                                    remaining approximately 86.6% of potential losses on each mortgage, until the
                                                                    earlier of either (1) the time that the $8 billion letter of credit posted by Treasury is
                                                                    exhausted, or (2) 10 years from the issuance of the letter of credit (October 2020),
                                                                    at which point FHA will bear all of the remaining losses.252 TARP has also made an
                                                                    allocation of $2.7 billion under its existing servicer caps to make incentive pay-
                                                                    ments, subject to certain limitations, to (1) investors for pre-existing second-lien
                                                                    balances that are partially or fully extinguished under FHA2LP and (2) servicers, in
                                                                    the amount of $500 for each second-lien mortgage placed into the program.253

                                                                    Housing Finance Agency Hardest Hit Fund (“HHF”)
                                                                    On February 19, 2010, the Administration announced a housing support program
                                                                    known as the Hardest Hit Fund, which was intended to promote “innovative” mea-
                                                                    sures to protect home values, preserve homeownership, and promote jobs and eco-
                                                                    nomic growth in the states that have been hit the hardest by the housing crisis.254
                                                                    The first round of HHF allocated $1.5 billion of the amount designated for MHA
                                                                    initiatives. According to Treasury, these funds were designated for five states where
                                                                    the average home price, determined using the FHFA Purchase Only Seasonally
                                                                    Adjusted Index, had decreased more than 20% from its peak. The five states were
                                                                    Arizona, California, Florida, Michigan, and Nevada.255 Plans to use these funds
                                                                    were approved on June 23, 2010.256
                                                                        On March 29, 2010, Treasury expanded HHF to include five additional states
                                                                    and increased the program’s potential funding by $600 million, bringing total funding
                                                                    to $2.1 billion. The additional $600 million was designated for North Carolina, Ohio,
                                                                    Oregon, Rhode Island, and South Carolina. Treasury indicated that these states
                                                                    were selected because of their high concentrations of people living in economically
                                                                    distressed areas, defined as counties in which the unemployment rate exceeded 12%,
                                                                    on average, in 2009.257 Plans to use these funds were approved on August 3, 2010.258
                                                                                quarterly report to congress I July 28, 2011   73




    On August 11, 2010, the Government pledged a third round of HHF funding of
$2 billion in additional assistance to state HFA programs that focus on unemployed
homeowners who are struggling to make their payments.259 According to Treasury,
the third funding round was limited to states that have experienced unemploy-
ment rates at or above the national average during the preceding 12 months.260
The states designated to receive funding were Alabama, California, Florida,
Georgia, Illinois, Indiana, Kentucky, Michigan, Mississippi, Nevada, New Jersey,
North Carolina, Ohio, Oregon, Rhode Island, South Carolina, and Tennessee.
Washington, DC, will also receive funding.261 States already covered by the first two
HHF rounds of funding may use the additional resources “to support the unem-
ployment programs previously approved by Treasury or they may opt to implement
a new unemployment program.”262 States seeking to tap HHF for the first time
were required to submit need-specific proposals that met program guidelines to
Treasury by September 1, 2010.263 Plans to use to these funds were approved on
September 23, 2010.264 Finally, on September 29, 2010, an additional $3.5 billion
was made available to existing HHF participants, weighted by population, to be
used in previously announced programs.265
    The Housing Finance Agencies (“HFAs”) of the eligible 18 states and
Washington, DC, each submitted proposals to Treasury. The purpose of these
proposals, according to Treasury, was to “meet the unique challenges facing strug-
gling homeowners in their respective housing markets.”266 Treasury required each
state to estimate in its proposal the number of borrowers to be helped. According to
Treasury, each state’s HFA will report program results (i.e., number of applications
approved or denied and assistance provided) on a quarterly basis and post the re-
ports on its website. Some states will initiate pilot programs to assess program per-
formance before full implementation. Treasury indicated that states can reallocate
funds between programs and modify existing programs as needed, with Treasury
approval, until funds are expended or returned to Treasury after December 31,
2017. According to Treasury, since April 5, 2011, several states have reallocated
funds, modified existing programs or established new HHF programs with Treasury
approval. For example, Arizona added a new short sale program, Rhode Island add-
ed a principal reduction program, Illinois added a Mortgage Resolution Fund and
California added three new innovation fund programs, bringing the total number of
HHF programs in 18 states and Washington, DC, as of June 30, 2011, to 55.267
    Table 2.16 shows the obligation of funds and funds drawn for states participat-
ing in the four rounds of HHF as of June 30, 2011. As of that date, the states had
drawn down $478.4 million under the program. According to the latest data avail-
able from the states and Treasury as of March 31, 2011, the states had only spent a
limited portion of the amount drawn on assisting borrowers, see Table 2.16.268
74             special inspector general I troubled asset relief program




                                                      Table 2.16
     For more information on HHF program              HHF FUNDING OBLIGATED AND DRAWDOWNS BY STATE, AS OF 6/30/2011
     specifics and funding details for the
                                                      Recipient                                                              Amount Obligated                     Amount Drawn*
     participating states and Washington, DC,
                                                      Alabama                                                                      $162,521,345                          $8,000,000
     as of April 5, 2011, see SIGTARP’s April
     2011 Quarterly Report, pages 90-101.             Arizona                                                                        267,766,006                           6,255,000
     For updated information regarding the            California                                                                  1,975,334,096                        217,490,000
     use of HHF funds, see: www.treasury.             Florida                                                                     1,057,839,136                          10,450,000
     gov/initiatives/financial-stability/housing-     Georgia                                                                        339,255,819                           8,500,000
     programs/hhf/Pages/default.aspx.                 Illinois                                                                       445,603,557                         11,500,000
                                                      Indiana                                                                        221,694,139                         22,000,000
                                                      Kentucky                                                                       148,901,875                           4,000,000
                                                      Michigan                                                                       498,605,738                         30,166,175
                                                      Mississippi                                                                    101,888,323                           2,547,208
                                                      Nevada                                                                         194,026,240                           7,451,000
                                                      New Jersey                                                                     300,548,144                           7,513,704
                                                      North Carolina                                                                 482,781,786                         28,000,000
                                                      Ohio                                                                           570,395,099                         36,600,000
                                                      Oregon                                                                         220,042,786                         59,501,070
                                                      Rhode Island                                                                     79,351,573                          3,000,000
                                                      South Carolina                                                                 295,431,547                           7,500,000
                                                      Tennessee                                                                      217,315,593                           6,315,593
                                                      Washington, DC                                                                   20,697,198                          1,634,860
                                                      Total                                                                    $7,600,000,000                       $478,424,610

                                                      * Amount Drawn includes funds for program expenses (direct assistance to borrowers), administrative expenses and cash-on-hand.

                                                      Source: Treasury, response to SIGTARP data call, 6/29/2011.



                                                          As of March 31, 2011, which according to Treasury is the latest data available,
                                                      14 states had provided $11.2 million in assistance to 2,343 unique borrowers under
                                                      their HHF programs since inception.269 Treasury requires states to publish updated
                                                      borrower assistance and program data on their websites on a quarterly basis—the
                                                      information for the program as of the second quarter of 2011 will be posted on
                                                      August 15, 2011. Each state estimates the number of borrowers to be helped in its
                                                      programs. Table 2.17 provides this estimate as well as the actual number of borrow-
                                                      ers helped by state using data as of March 31, 2011.
                                                                                                                  quarterly report to congress I July 28, 2011   75




Table 2.17

HHF ESTIMATED AND ACTUAL NUMBER OF BORROWERS ASSISTED AND
ASSISTANCE PROVIDED, BY STATE, AS OF 3/31/2011
                               Estimated                 Estimated                       Actual
                                Minimum                   Maximum                    Borrowers
                            Borrowers to                 Borrowers                    Receiving             Assistance
                           be Assisted by               Assisted by            Assistance as of          Provided as of
State                      12/31/2017*                12/31/2017*               3/31/2011**              3/31/2011**
Alabama                                9,033                    13,500                             89        $244,150
Arizona                                7,276                     10,542                            10          246,522
California                          101,337                            —                           201       2,217,417
Florida                             106,000                            —                           150         377,554
Georgia                               18,300                           —                            9            9,113
Illinois                              16,000                     27,000                             —               —
Indiana                               16,257                           —                            —               —
Kentucky                               6,250                     13,000                            24           49,923
Michigan                              49,422                           —                           817       2,381,891
Mississippi                            3,800                           —                            —               —
Nevada                                23,008                     25,540                             1              258
New Jersey                             6,900                           —                            —               —
North Carolina                        21,280                           —                           212       1,200,376
Ohio                                  63,485                           —                           398       2,282,377
Oregon                                13,295                           —                            —               —
Rhode Island                          13,125                           —                           331       1,937,510
South Carolina                        21,100                     34,100                            90          187,670
Tennessee                             11,211                           —                            8           31,259
Washington, DC                            540                     1,000                             3           10,398
Total:                             507,619                    549,094                        2,343        $11,176,419

* Estimates are from latest HFA Participation Agreements as of 3/31/2011.
 Later amendments not included for consistency with Quarterly Performance reporting.
** From first quarter 2011 HFA Performance Data quarterly reports and OFS Aggregate Data report.

Source: First quarter 2011 HFA Performance Data quarterly reports and OFS Aggregate Data report.
76   special inspector general I troubled asset relief program




                                            FINANCIAL INSTITUTION SUPPORT PROGRAMS
                                            Treasury created six TARP programs through which it made capital investments
                                            or asset guarantees in exchange for equity in participating financial institutions.
                                            Three of the programs, the Capital Purchase Program (“CPP”), the Community
                                            Development Capital Initiative (“CDCI”), and the Capital Assistance Program
                                            (“CAP”), were open to all qualifying financial institutions (“QFIs”). The other
                                            three, the Systemically Significant Failing Institutions (“SSFI”) program, the
                                            Targeted Investment Program (“TIP”), and the Asset Guarantee Program (“AGP”),
                                            were available on a case-by-case basis to institutions that needed assistance beyond
                                            that available through CPP. With the expiration of TARP funding authorization, no
                                            new investments can be made through CPP, CAP, TIP, AGP, CDCI, and SSFI.
                                                To help improve the capital structure of some struggling TARP recipients,
                                            Treasury has agreed to modify its investment by converting the preferred stock it
                                            originally received into other forms of equity, such as common stock or mandatorily
                                            convertible preferred stock.270

                                            Capital Purchase Program
                                            Treasury’s stated goal for CPP was to invest in “healthy, viable institutions” as a way
                                            to promote financial stability, maintain confidence in the financial system, and enable
                                            lenders to meet the nation’s credit needs.271 CPP was a voluntary program open to all
                                            QFIs through an application process. QFIs included U.S.-controlled banks, savings
                                            associations, and certain bank and savings and loan holding companies.272
                                                Under CPP, Treasury used TARP funds predominantly to purchase preferred
                                            equity interests in QFIs. The QFIs issued Treasury senior preferred shares that pay
                                            a 5% annual dividend for the first five years and a 9% annual dividend thereafter. In
                                            addition to the senior preferred shares, publicly traded QFIs issued Treasury war-
                                            rants to purchase common stock with an aggregate market price equal to 15% of
                                            the senior preferred share investment. Privately held QFIs issued Treasury warrants
                                            to purchase additional senior preferred stock worth 5% of Treasury’s initial pre-
                                            ferred stock investment.273 In total, Treasury invested $204.9 billion of TARP funds
                                            in 707 QFIs through CPP.274
                                                According to Treasury, through June 30, 2011, $180.6 billion of the principal
                                            (or 88.1%) has been repaid under the program, leaving $24.3 billion outstanding.
                                            In addition, Treasury had received from CPP recipients approximately $11 billion
                                            in interest and dividends. Treasury also had received $7.5 billion through the sale
                                            of CPP warrants that were obtained from TARP recipients.275 For a snapshot of
                                            CPP funds outstanding and associated repayments, see Figure 2.2.
                                                                                                     quarterly report to congress I July 28, 2011   77




  Figure 2.2
 SNAPSHOT OF CPP FUNDS OUTSTANDING AND REPAID,
 BY QUARTER
 ($ BILLIONS)

                      198.8
$200                   0.4 203.2 204.6 204.9 204.9 204.9 204.9 204.9 204.9 204.9
                177.5       70.1 70.7 121.9 135.8 146.9 152.8 167.9 179.1 180.6
                      198.4
                177.5
 150
     115.0                       133.1 133.9
 100 115.0
                                                    83.0
  50                                                       69.1
                                                                  58.0   52.1
                                                                                37.0
    0                                                                                  25.9   24.3
         Q308 Q408 Q109 Q209 Q309 Q409 Q110 Q210 Q310 Q410 Q111 Q211


            CPP Funds Outstanding at Quarter’s End
            CPP Funds Repaid at Quarter’s End

 Note: Numbers affected by rounding.

 Source: Treasury, Transactions Report, 7/1/2011.




Status of Funds
According to Treasury, through CPP, Treasury purchased $204.9 billion in pre-
ferred stock and subordinated debentures from 707 QFIs in 48 states, the District
of Columbia, and Puerto Rico. Although the 10 largest investments accounted for
$142.6 billion of the program, CPP made many smaller investments: 331 of 707
recipients received $10 million or less.276 Table 2.18 and Table 2.19 show the distri-
bution of investments by amount.

Repayment of Funds
According to Treasury, through June 30, 2011, 146 banks — including ten with the
largest CPP investments — had fully repaid CPP by repurchasing all of the banks’
preferred shares. In addition, 14 banks have partially repaid by purchasing from
Treasury some of the banks’ preferred shares.277 In addition, some CPP recipients
have failed, filed for bankruptcy, or had Treasury’s CPP investment restructured
or sold at a discount. As of June 30, 2011, Treasury had received approximately
$180.6 billion in principal repayments and proceeds from sales of common stock,
thus leaving approximately $24.3 billion outstanding.278 Of the repaid amount,
$355.7 million was converted from CPP investments into CDCI and therefore still
represents outstanding obligations to TARP.279 For a complete list of CPP share
repurchases, see Appendix D: “Transaction Detail.”
78   special inspector general I troubled asset relief program




                                            Table 2.18

                                            CPP INVESTMENT SUMMARY BY TRANSACTION
                                                                                                                  Originala                   Currentb
                                            Total Investment                                                $204.9 billion               $24.3 billion
                                            Largest Capital Investment                                        $25.0 billion                $3.5 billion
                                            Smallest Capital Investment                                   $301 thousand               $301 thousand
                                            Average Capital Investment                                     $277.3 million                $38.2 million
                                            Median Capital Investment                                        $10.3 million                $9.3 million

                                            Notes: Data as of 6/30/2011. Data are based on the institutions’ total CPP investments. There are more
                                            than 30 institutions that have received multiple transactions through CPP.
                                            a
                                              These numbers are based on total Treasury CPP investment since 10/28/2008.
                                            b
                                              Amount does not include those investments that have already been repaid or are related to institutions that
                                              filed for bankruptcy protection, and is based on total investments outstanding. Treasury does not include
                                              in the number of banks with outstanding CPP investments those institutions that have repaid their CPP
                                              principal but still have warrants outstanding.

                                            Source: Treasury, Transactions Report, 7/1/2011.



                                            Table 2.19

                                            CPP INVESTMENT SIZE BY INSTITUTION
                                                                                                                 Originala            Outstandingb
                                            $10 billion or more                                                             6                           0
                                            $1 billion to $10 billion                                                     19                            3
                                            $100 million to $1 billion                                                    57                          27
                                            Less than $100 million                                                      625                         509
                                            Total                                                                       707                         539

                                            Notes: Data as of 6/30/2011. Data are based on the institutions’ total CPP investments. There are more
                                              than 30 institutions that have received multiple transactions through CPP.
                                            a
                                              These numbers are based on total Treasury CPP investment since 10/28/2008.
                                            b
                                              Amount does not include those investments that have already been repaid, sold to a third party at a
                                              discount, merged out of the CPP portfolio, exchanged their CPP investments for an investment under
                                              CDCI, or are related to institutions that filed for bankruptcy protection or had a subsidiary bank fail.
                                              Figures are based on total investments outstanding. Treasury does not include in the number of banks with
                                              outstanding CPP investments those institutions that have repaid their CPP principal but still have warrants
                                              outstanding.

                                            Source: Treasury, Transactions Report, 7/1/2011; Treasury, response to SIGTARP data call, 7/13/2011.
                                                                                    quarterly report to congress I July 28, 2011                               79




Program Administration
Although Treasury’s investment authority for CPP has ended, Treasury still has signifi-
cant responsibilities for managing the existing CPP portfolio, including the following:

•	 collecting dividends and interest payments on outstanding investments
•	 monitoring the performance of outstanding investments
•	 disposing of warrants as investments are repaid
•	 selling or restructuring Treasury’s investment in some troubled financial
   institutions
•	 selecting observers for recipients that have missed five quarterly dividend                 Table 2.20

   payments                                                                                     MISSED DIVIDEND/INTEREST
•	 potentially selecting directors for recipients that have missed six or more quar-            PAYMENTS BY QFIs, 9/30/2009
                                                                                                TO 6/30/2011 ($ millions)
   terly dividend payments
                                                                                                                                           Value of
                                                                                               Quarter                   Number             Unpaid
Dividends and Interest                                                                         End                        of QFIs        Amountsa,b,c
As of June 30, 2011, Treasury had received approximately $11 billion in dividends              9/30/2009                          38                75.7

and interest on its CPP investments.280 However, as of that date, 188 QFIs had                 12/31/2009                         43              137.4

unpaid dividend or interest payments to Treasury totaling approximately $320.8 mil-            3/31/2010                          67              182.0

lion, an increase from the 173 QFIs that had unpaid dividend (or interest) payments            6/30/2010d                       109               209.7
                                                                                               9/30/2010                        137               211.3
totaling approximately $277.3 million as of March 31, 2011. Approximately $12.8
                                                                                               12/31/2010                       155               276.4
million of the unpaid amounts are non-cumulative, meaning that the institution has
                                                                                               3/31/2011                        173               277.3
no legal obligation to pay Treasury unless the institution declares a dividend.281 Table
                                                                                               6/30/2011                        188               320.8
2.20 shows the number of QFIs and total unpaid amount of dividend and interest
payments by quarter from September 30, 2009, to June 30, 2011.                                 Notes:
                                                                                               a
                                                                                                 Includes unpaid cumulative dividends, non-cumulative
                                                                                                 dividends, and Subchapter S interest payments but
                                                                                                 does not include interest accrued on unpaid cumulative
Treasury’s Policy on Missed Dividend and Interest Payments                                       dividends.
                                                                                               b
                                                                                                 Excludes institutions that missed payments but (i) had
According to Treasury, it “evaluates its CPP investments on an ongoing basis with                fully caught up on missed payments at the end of the
                                                                                                 quarter reported in column 1 or (ii) had repaid their
the help of outside advisors, including external asset managers. The external asset              investment amounts and exited CPP.
                                                                                               c
                                                                                                 Includes institutions that missed payments and (i)
managers provide a valuation for each CPP investment” that results in Treasury                   entered into a recapitalization or restructuring with
                                                                                                 Treasury, (ii) for which Treasury sold the CPP investment
assigning the institution a score.282 For those that have unfavorable scores, includ-            to a third party or otherwise disposed of the investment
                                                                                                 to facilitate the sale of the institution to a third party
ing any institution that has missed more than three dividend (or interest) payments,             without receiving full repayment of unpaid dividends,
                                                                                                 (iii) filed for bankruptcy relief, or (iv) had a subsidiary
Treasury has stated that the “asset manager dedicates more resources to monitoring               bank fail.
                                                                                               d
                                                                                                 Includes four QFIs and their missed payments not
the institution and may talk to the institution on a more frequent basis.”283                    reported in Treasury’s Capital Purchase Program Missed
                                                                                                 Dividends & Interest Payments Report as of 6/30/2010
    Under the terms of the preferred shares or subordinated debentures held by                   but reported in Treasury’s Cumulative Dividends, Inter-
                                                                                                 est, and Distributions Report as of the same date. The
Treasury as a result of its CPP investments, in certain circumstances, such as when              four QFIs are CIT, Pacific Coast National Bancorp, UCBH
                                                                                                 Holdings, Inc., and Midwest Banc Holdings, Inc.
a participant misses six dividend (or interest) payments, Treasury has the right to ap-
                                                                                                Sources: Treasury, Cumulative Dividends, Interest and
point up to two additional members to the institution’s board of directors.284 Treasury         Distributions Report, 7/11/2011; Treasury, responses
                                                                                                to SIGTARP data calls, 10/7/2009, 1/12/2010,
has stated that it will prioritize the institutions for which it appoints directors based       4/8/2010, and 6/30/2010;
                                                                                                SIGTARP Quarterly Report to Congress, 1/30/2010;
on “the size of its investment, Treasury’s assessment of the extent to which new direc-         SIGTARP Quarterly Report to Congress, 4/20/2010;
                                                                                                SIGTARP Quarterly Report to Congress, 7/21/2010;
tors may make a contribution and Treasury’s ability to find appropriate directors for           SIGTARP Quarterly Report to Congress, 10/26/2010.

a given institution.”285 These directors will not represent Treasury but have the same
80   special inspector general I troubled asset relief program




                                            fiduciary duties to shareholders as all other directors. They will be compensated by
                                            the institution in a manner similar to other directors.286 Treasury has engaged an
                                            executive search firm to identify suitable candidates for board of directors positions
                                            and has begun interviewing such candidates.287
                                                 According to Treasury, it continues to prioritize institutions for nominating
                                            directors in part based on whether its investment exceeds $25 million. When
                                            Treasury’s right to nominate a new board member becomes effective, it evaluates
                                            the institution’s condition and health and the functioning of its board, including
                                            the information gathered by observers, to determine whether additional directors
                                            are necessary.288 As of June 30, 2011, Treasury had not yet appointed board mem-
                                            bers to any CPP institution’s board of directors.289
                                                 For institutions that miss five or more dividend payments, Treasury has stated
                                            that it would seek consent from such institutions to send observers to the institu-
                                            tions’ board meetings.290 According to Treasury, the observers would be selected
                                            from the Office of Financial Stability (“OFS”) and assigned to “gain a better under-
                                            standing of the institution’s condition and challenges and to observe how the board
                                            is addressing the situation.”291 Their participation would be limited to inquiring
                                            about distributed materials, presentations, and actions proposed or taken during
                                            the meetings, as well as addressing any questions concerning their role.292 As of
                                            June 30, 2011, Treasury had assigned observers to 34 CPP recipients.293
                                                 SIGTARP and Treasury do not use the same methodology to report unpaid
                                            dividend and interest payments. For example, Treasury generally excludes institu-
                                            tions from its “non-current” reporting: (i) that have completed a recapitalization,
                                            restructuring, or exchange with Treasury (though Treasury does report such institu-
                                            tions as non-current during the pendency of negotiations); (ii) for which Treasury
                                            sold the CPP investment to a third party, or otherwise disposed of the investment
                                            to facilitate the sale of the institution to a third party; (iii) that filed for bankruptcy
                                            relief; or (iv) that had a subsidiary bank fail.294 SIGTARP generally includes such
                                            activity in Table 2.21 under “Value of Unpaid Amounts” with the value set as of
                                            the date of the bankruptcy, restructuring, or other event that relieves the institu-
                                            tion of the legal obligation to continue to make dividend and interest payments. If
                                            a completed transaction resulted in payment to Treasury for all unpaid dividends
                                            and interest, SIGTARP does not include the institution’s obligations under unpaid
                                            amounts. SIGTARP, unlike Treasury, does not include in its table institutions that
                                            have “caught up” by making previously missed dividend and interest payments.295
                                                 According to Treasury, as of June 30, 2011, 53 QFIs had missed at least six
                                            dividend payments (up from 33 last quarter) and 28 banks had missed five dividend
                                            (or interest) payments totaling $181.4 million.296 Table 2.21 lists CPP recipients
                                            that had unpaid dividend or interest payments as of June 30, 2011. For a complete
                                            list of CPP recipients and institutions making dividend or interest payments, see
                                            Appendix D: “Transaction Detail.”
                                                                                quarterly report to congress I July 28, 2011     81



Table 2.21

CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 6/30/2011 (ContinueD)
                                                                       Observer
                                                                       Assigned to          Value of             Value of
                                          Dividend or      Number of   Board of              Missed               Unpaid
Institution Name                          Payment Type      Payments   Directors1         Payments2           Amounts2, 3, 4
Saigon National Bank                      Non-Cumulative         10                        $202,043               $202,043
Anchor BanCorp Wisconsin, Inc.            Cumulative              9        ü              12,604,167            12,604,167
Blue Valley Ban Corp                      Cumulative              9        ü               2,446,875              2,446,875
Lone Star Bank                            Non-Cumulative          9        ü                 380,972                380,972
OneUnited Bank                            Non-Cumulative          9        ü               1,357,088              1,357,088
Seacoast Banking Corporation of Florida   Cumulative              9        ü               5,625,000              5,625,000
United American Bank                      Non-Cumulative          9                        1,060,252              1,060,252
Centrue Financial Corporation             Cumulative              8        ü               3,266,800              3,266,800
Citizens Bancorp                          Cumulative              8        ü               1,133,600              1,133,600
Dickinson Financial Corporation II        Cumulative              8        ü              15,919,840            15,919,840
First Banks, Inc.                         Cumulative              8        ü              32,198,600            32,198,600
Georgia Primary Bank                      Non-Cumulative          8        ü                 500,038                500,038
Grand Mountain Bancshares, Inc.           Cumulative              8        ü                 328,800                328,800
Idaho Bancorp                             Cumulative              8        ü                 752,100                752,100
One Georgia Bank                          Non-Cumulative          8        ü                 605,328                605,328
Pacific City Financial Corporation        Cumulative              8        ü               1,765,800              1,765,800
Premier Service Bank                      Non-Cumulative          8        ü                 432,972                432,972
Royal Bancshares of Pennsylvania, Inc.    Cumulative              8        ü               3,040,700              3,040,700
Cascade Financial Corporation*****        Cumulative              7                        3,409,875              3,409,875
Citizens Commerce Bancshares, Inc.        Cumulative              7                          600,863                600,863
FC Holdings, Inc.                         Cumulative              7        ü               2,006,865              2,006,865
Heritage Commerce Corp                    Cumulative              7        ü               3,500,000              3,500,000
Integra Bank Corporation                  Cumulative              7                        7,313,775              7,313,775
Northern States Financial Corporation     Cumulative              7        ü               1,505,963              1,505,963
Omega Capital Corp.                       Cumulative              7                          268,608                268,608
Pathway Bancorp                           Cumulative              7                          355,408                355,408
Premierwest Bancorp                       Cumulative              7        ü               3,622,500              3,622,500
Ridgestone Financial Services, Inc.       Cumulative              7        ü               1,039,588              1,039,588
Rising Sun Bancorp                        Cumulative              7                          570,605                570,605
Rogers Bancshares, Inc.                   Cumulative              7        ü               2,384,375              2,384,375
Syringa Bancorp                           Cumulative              7        ü                 763,000                763,000
The Freeport State Bank                   Non-Cumulative          7                           28,700                 28,700
Alliance Financial Services, Inc.*        Interest                6                        1,510,200              1,510,200
BNCCORP, Inc.                             Cumulative              6        ü               1,642,650              1,642,650
Cecil Bancorp, Inc.                       Cumulative              6        ü                 867,000                867,000
Central Virginia Bankshares, Inc.         Cumulative              6        ü                 853,875                853,875
Citizens Bancshares Co. (MO)              Cumulative              6        ü               2,043,000              2,043,000
Citizens Republic Bancorp, Inc.           Cumulative              6        ü              22,500,000            22,500,000
City National Bancshares Corporation      Cumulative              6                          707,925                707,925
                                                                                                       Continued on next page.
82     special inspector general I troubled asset relief program




     CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 6/30/2011 (ContinueD)
                                                                               Observer
                                                                               Assigned to     Value of             Value of
                                                 Dividend or       Number of   Board of         Missed               Unpaid
     Institution Name                            Payment Type       Payments   Directors1    Payments2           Amounts2, 3, 4
     Community 1st Bank                          Non-Cumulative           6                   $184,974               $184,974
     Duke Financial Group, Inc.*                 Interest                 6        ü         1,510,200               1,510,200
     Fidelity Federal Bancorp                    Cumulative               6                    528,224                 528,224
     First Security Group, Inc.                  Cumulative               6        ü         2,475,000               2,475,000
     First Sound Bank                            Non-Cumulative           6                    555,000                 555,000
     First Southwest Bancorporation, Inc.        Cumulative               6                    449,625                 449,625
     FPB Bancorp, Inc. (FL)                      Cumulative               6                    435,000                 435,000
     Intermountain Community Bancorp             Cumulative               6                  2,025,000               2,025,000
     Intervest Bancshares Corporation            Cumulative               6        ü         1,875,000               1,875,000
     Investors Financial Corporation of Pettis
                                                 Interest                 6                    503,400                 503,400
     County, Inc.*
     Monarch Community Bancorp, Inc.             Cumulative               6                    508,875                 508,875
     Tennessee Valley Financial Holdings, Inc.   Cumulative               6                    245,250                 245,250
     U.S. Century Bank                           Non-Cumulative           6        ü         4,106,820               4,106,820
     Bankers' Bank of the West Bancorp, Inc.     Cumulative               5                    861,038                 861,038
     Bridgeview Bancorp, Inc.                    Cumulative               5                  2,588,750               2,588,750
     Citizens Bank & Trust Company               Non-Cumulative           5                    163,500                 163,500
     Commonwealth Business Bank                  Non-Cumulative           5                    524,625                 524,625
     First Community Bancshares, Inc. (KS)       Cumulative               5                  1,008,250               1,008,250
     First Federal Bancshares of
                                                 Cumulative               5                  1,031,250               1,031,250
     Arkansas, Inc.*****
     First Trust Corporation*                    Interest                 5                  1,884,421               1,884,421
     FNB United Corp.                            Cumulative               5                  3,218,750               3,218,750
     Gold Canyon Bank                            Non-Cumulative           5                    105,838                 105,838
     Goldwater Bank, N.A.**                      Non-Cumulative           5                    244,860                 174,900
     Gregg Bancshares, Inc.                      Cumulative               5                     56,175                  56,175
     Heritage Oaks Bancorp                       Cumulative               5                  1,312,500               1,312,500
     Madison Financial Corporation               Cumulative               5                    229,638                 229,638
     Midtown Bank & Trust Company**              Non-Cumulative           5                    426,885                 355,738
     Millennium Bancorp, Inc.**                  Cumulative               5                    593,505                 494,588
     Northwest Bancorporation, Inc.              Cumulative               5                    715,313                 715,313
     Pacific International Bancorp Inc.          Cumulative               5                    406,250                 406,250
     Patapsco Bancorp, Inc.                      Cumulative               5                    408,750                 408,750
     Plumas Bancorp                              Cumulative               5                    746,813                 746,813
     Prairie Star Bancshares, Inc.               Cumulative               5                    190,750                 190,750

     Premier Bank Holding Company                Cumulative               5                    647,188                 647,188

     Santa Clara Valley Bank, N.A.               Non-Cumulative           5                    197,563                 197,563
     Stonebridge Financial Corp.                 Cumulative               5                    747,575                 747,575
                                                                                                          Continued on next page.
                                                                         quarterly report to congress I July 28, 2011         83




CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 6/30/2011 (ContinueD)
                                                                    Observer
                                                                    Assigned to          Value of             Value of
                                       Dividend or      Number of   Board of              Missed               Unpaid
Institution Name                       Payment Type      Payments   Directors1         Payments2           Amounts2, 3, 4
TCB Holding Company                    Cumulative              5                        $799,163               $799,163
Timberland Bancorp, Inc.               Cumulative              5                        1,040,063              1,040,063
Valley Financial Corporation           Cumulative              5                        1,001,188              1,001,188
1st FS Corporation                     Cumulative              4                          818,450                818,450
Berkshire Bancorp, Inc.                Cumulative              4                          157,650                157,650
BNB Financial Services Corporation     Cumulative              4                          408,750                408,750
Boscobel Bancorp, Inc.*                Interest                4                          468,624                468,624
Broadway Financial Corporation         Cumulative              4                          750,000                750,000
Capital Commerce Bancorp, Inc.         Cumulative              4                          277,950                277,950
CBS Banc-Corp                          Cumulative              4                        1,324,350              1,324,350
Community Bank of the Bay      6
                                       Non-Cumulative          4                           72,549                 72,549
Community Bankers Trust Corporation    Cumulative              4                          884,000                884,000
Covenant Financial Corporation         Cumulative              4                          272,500                272,500
First Community Bank Corporation of
                                       Cumulative              4                          534,250                534,250
America*****
Harbor Bankshares Corporation**        Cumulative              4                          510,000                340,000
HomeTown Bankshares Corporation        Cumulative              4                          533,660                533,660
Market Bancorporation, Inc.            Cumulative              4                          112,270                112,270
Maryland Financial Bank                Non-Cumulative          4                           92,650                 92,650
Mercantile Bank Corporation            Cumulative              4                        1,050,000              1,050,000
Midwest Banc Holdings****,5            Cumulative              4                        4,239,000              4,239,000
MS Financial, Inc.                     Cumulative              4                          420,890                420,890
Patterson Bancshares, Inc              Cumulative              4                          201,150                201,150
Pierce County Bancorp****              Cumulative              4                          370,600                370,600
Pinnacle Bank Holding Company          Cumulative              4                          239,160                239,160
Premier Financial Corp*                Interest                4                          532,619                532,619
Provident Community Bancshares, Inc.   Cumulative              4                          463,300                463,300
The Bank of Currituck*****             Non-Cumulative          4                          219,140                219,140
The Queensborough Company              Cumulative              4                          654,000                654,000
TIB Financial Corp *****               Cumulative              4                        1,850,000              1,850,000
Western Community Bancshares, Inc.     Cumulative              4                          397,350                397,350
CalWest Bancorp                        Cumulative              3                          190,328                190,328
CB Holding Corp.                       Cumulative              3                          168,180                168,180
Central Federal Corporation            Cumulative              3                          270,938                270,938
CSRA Bank Corp.                        Cumulative              3                           98,100                 98,100
First Financial Service Corporation    Cumulative              3                          750,000                750,000
First United Corporation               Cumulative              3                        1,125,000              1,125,000
Florida Bank Group, Inc.               Cumulative              3                          836,783                836,783
                                                                                                    Continued on next page.
84    special inspector general I troubled asset relief program




     CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 6/30/2011 (ContinueD)
                                                                              Observer
                                                                              Assigned to     Value of             Value of
                                                 Dividend or      Number of   Board of         Missed               Unpaid
     Institution Name                            Payment Type      Payments   Directors1    Payments2           Amounts2, 3, 4
     Fort Lee Federal Savings Bank               Non-Cumulative          3                    $53,138                 $53,138
     Great River Holding Company*                Interest                3                    528,570                 528,570

     Green Bankshares, Inc.                      Cumulative              3                   2,710,425              2,710,425

     Legacy Bancorp, Inc.****                    Cumulative              3                    206,175                 206,175
     Liberty Shares, Inc.                        Cumulative              3                    706,320                 706,320
     Marine Bank & Trust Company                 Non-Cumulative          3                    122,625                 122,625
     Old Second Bancorp, Inc.                    Cumulative              3                   2,737,500              2,737,500
     Pacific Commerce Bank**                     Non-Cumulative          3                    197,914                 142,596

     Private Bancorporation, Inc.                Cumulative              3                    325,065                 325,065

     Regent Bancorp, Inc.**                      Cumulative              3                    544,010                 408,008
     Santa Lucia Bancorp                         Cumulative              3                    150,000                 150,000

     Sonoma Valley Bancorp ****                  Cumulative              3                    353,715                 353,715

     Spirit BankCorp, Inc.                       Cumulative              3                   1,226,250              1,226,250
     The Connecticut Bank and Trust Company      Non-Cumulative          3                    178,573                 178,573
     The South Financial Group, Inc. ****        Cumulative              3                  13,012,500            13,012,500
     Tidelands Bancshares, Inc                   Cumulative              3                    541,800                 541,800
     Treaty Oak Bancorp, Inc. *****              Cumulative              3                    135,340                 135,340
     Alpine Banks of Colorado                    Cumulative              2                   1,907,500              1,907,500
     Bank of the Carolinas Corporation           Cumulative              2                    329,475                 329,475
     Blue Ridge Bancshares, Inc.                 Cumulative              2                    327,000                 327,000
     Cadence Financial Corporation*****     ,7
                                                 Cumulative              2                   1,650,000              1,650,000
     CIT Group Inc.***                           Cumulative              2                    550,000                 550,000
     Clover Community Bankshares, Inc.           Cumulative              2                     81,750                  81,750
     Coastal Banking Company, Inc.               Cumulative              2                    248,750                 248,750
     Colonial American Bank                      Non-Cumulative          2                     15,655                  15,655
     Community Financial Shares, Inc.            Cumulative              2                    189,955                 189,955
     Crescent Financial Corporation              Cumulative              2                    622,500                 622,500
     Eastern Virginia Bankshares, Inc.           Cumulative              2                    600,000                 600,000
     FBHC Holding Company* ****
                              ,
                                                 Interest                2                    123,127                 123,127
     Fresno First Bank                           Non-Cumulative          2                     33,357                  33,357
     Greer Bancshares Incorporated               Cumulative              2                    272,325                 272,325
     HCSB Financial Corporation                  Cumulative              2                    322,375                 322,375
     Highlands Independent Bancshares, Inc.      Cumulative              2                    182,575                 182,575
     HMN Financial, Inc.                         Cumulative              2                    650,000                 650,000
     Monadnock Bancorp, Inc.                     Cumulative              2                     49,990                  49,990
     Naples Bancorp, Inc.                        Cumulative              2                    109,000                 109,000
     National Bancshares, Inc.                   Cumulative              2                    672,085                 672,085
                                                                                                         Continued on next page.
                                                                                quarterly report to congress I July 28, 2011         85




CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 6/30/2011 (ContinueD)
                                                                           Observer
                                                                           Assigned to          Value of             Value of
                                             Dividend or       Number of   Board of              Missed               Unpaid
Institution Name                             Payment Type       Payments   Directors1         Payments2           Amounts2, 3, 4
Ojai Community Bank                          Non-Cumulative           2                          $56,680                $56,680
Pacific Coast National Bancorp ****          Cumulative               2                          112,270                112,270
Patriot Bancshares, Inc.                     Cumulative               2                          709,540                709,540
Princeton National Bancorp, Inc.             Cumulative               2                          627,075                627,075
Reliance Bancshares, Inc.                    Cumulative               2                        1,090,000              1,090,000
Security State Bank Holding-Company* **  ,
                                             Interest                 2                        1,127,493                450,997
SouthCrest Financial Group, Inc.             Cumulative               2                          351,525                351,525
Southern Community Financial Corp.           Cumulative               2                        1,068,750              1,068,750
White River Bancshares Company               Cumulative               2                          457,800                457,800
AB&T Financial Corporation                   Cumulative               1                           43,750                 43,750
Atlantic Bancshares, Inc.                    Cumulative               1                           27,205                 27,205
Bank of George                               Non-Cumulative           1                           36,415                 36,415
BCB Holding Company, Inc.                    Cumulative               1                           23,238                 23,238
Blue River Bancshares, Inc.                  Cumulative               1                           68,125                 68,125

Carrollton Bancorp                           Cumulative               1                          115,013                115,013

Central Bancorp, Inc.                        Cumulative               1                          306,563                306,563
CoastalSouth Bancshares, Inc.                Cumulative               1                          210,988                210,988
Community First, Inc.                        Cumulative               1                          242,600                242,600
Community Pride Bank Corporation             Cumulative               1                           89,254                 89,254
Exchange Bank                                Non- Cumulative          1                          585,875                585,875
First Place Financial Corp.                  Cumulative               1                          911,588                911,588
MetroCorp Bancshares, Inc.**                 Cumulative               1                        2,250,000                562,500
Metropolitan Bank Group, Inc.
                                             Cumulative               1                        2,923,605                559,503
(Archer Bank)**
Mid-Wisconsin Financial Services, Inc.       Cumulative               1                          136,250                136,250
Randolph Bank & Trust Company                Non-Cumulative           1                           84,860                 84,860
Suburban Illiniois Bancorp, Inc.*            Interest                 1                          314,625                314,625
Tennessee Commerce Bancorp, Inc.             Cumulative               1                          375,000                375,000
Tifton Banking Company ****                  Non-Cumulative           1                           51,775                 51,775
UCBH Holdings, Inc.****                      Cumulative               1                        3,734,213              3,734,213
Valley Community Bank                        Non-Cumulative           1                           74,938                 74,938
Village Bank and Trust Financial Corp.       Cumulative               1                          184,225                184,225
Yadkin Valley Financial Corporation          Cumulative               1                          616,400                616,400
                                                                                                           Continued on next page.
86         special inspector general I troubled asset relief program




     CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 6/30/2011 (ContinueD)
                                                                                                                          Observer
                                                                                                                          Assigned to                     Value of                    Value of
                                                                 Dividend or                      Number of               Board of                         Missed                      Unpaid
     Institution Name                                            Payment Type                      Payments               Directors1                    Payments2                  Amounts2, 3, 4
     Exchanges

     Central Pacific Financial Corp.***,9                        Cumulative                                     6                                     $10,125,000

     Independent Bank Corporation**, ***                         Cumulative                                     5                                        5,821,071                      4,021,071

     Pacific Capital Bancorp***          ,9
                                                                 Cumulative                                     5               ü                      13,547,550

     Sterling Financial
                                                                 Cumulative                                     4                                      18,937,500                     18,937,500
     Corporation (WA) ***,9

     Hampton Roads Bankshares, Inc.***,9                         Cumulative                                     4                                        4,017,350                      4,017,350

     First BanCorp (PR)**, ***                                   Cumulative                                     4               ü                      37,379,351                     17,379,351

     Superior Bancorp Inc.***                                    Cumulative                                     3                                        2,587,500                      2,587,500


     Total                                                                                                                                        $371,628,396                  $320,826,403

     Notes: Numbers may not total due to rounding. Approximately $12.8 million of the $330.8 million in unpaid CPP dividend/interest payments are non-cumulative and Treasury has no legal
     right to missed dividends that are non-cumulative.

     * Missed interest payments occur when a Subchapter S recipient fails to pay Treasury interest on a subordinated debenture in a timely manner.
     ** Partial payments made after the due date.
     *** Completed an exchange with Treasury. For an exchange of mandatorily convertible preferred stock or trust preferred securities, dividend payments normally continue to accrue. For an
     exchange of mandatorily preferred stock for common stock, no additional preferred dividend payments will accrue.
     **** Filed for bankruptcy or subsidiary bank failed. For completed bankruptcy proceedings, Treasury’s investment was extinguished and no additional dividend payments will accrue. For bank
     failures, Treasury may elect to file claims with bank receivers to collect current and/or future unpaid dividends.
     ***** Treasury sold or is selling its CPP investment to the institution or a third party. No additional preferred dividend payments will accrue after a sale, absent an agreement to the contrary.
     1
       F or First BanCorp and Pacific Capital Bancorp, Treasury had a contractual right to assign an observer to the board of directors. For the remainder, Treasury obtained consent from the
            institution to assign an observer to the board of directors.
     2
        Includes unpaid cumulative dividends, non-cumulative dividends, and Subchapter S interest payments but does not include interest accrued on unpaid cumulative dividends.
     3
        Excludes institutions that missed payments but (i) have fully caught-up or exchanged new securities for missed payments, or (ii) have repaid their investment amounts and exited the Capital
       Purchase Program.
     4
        Includes institutions that missed payments and (i) completed an exchange with Treasury for new securities, (ii) purchased their CPP investment from Treasury, or saw a third party purchase
            its CPP investment from Treasury, or (iii) are in, or have completed bankruptcy proceedings or its subsidiary bank failed.
     5
        For Midwest Banc Holdings, Inc., the number of missed payments is the number last reported from SIGTARP Quarterly Report to Congress 4/20/2010, prior to bankruptcy filing; missed
         payment amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
     6
         Treasury reported four missed payments by Community Bank of the Bay before it was allowed to transfer from CPP to CDCI. Upon transfer, Treasury reset the number of missed payments
       to zero.
     7
         For South Financial Group, Inc. and TIB Financial Corp, the number of missed payments and unpaid amounts reflect figures Treasury reported prior to the sale.
     8
          For CIT Group Inc., the number of missed payments is from the number last reported from SIGTARP Quarterly Report to Congress 1/30/2010, shortly after the bankruptcy filing; missed
           payment amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
     9
           Completed exchanges:
     - The exchange between Treasury and Hampton Roads, and the exchange between Treasury and Sterling Financial did not account for unpaid dividends. The number of missed payments and
     unpaid amounts reflect the figures Treasury reported prior to the exchange.
     - The exchange between Treasury and Central Pacific Financial Corp., and the exchange between Treasury and Pacific Capital Bancorp did account for unpaid dividends, thereby eliminating
     any unpaid amounts. The number of missed payments reflects the amount Treasury reported prior to the exchange.

     Sources: Treasury, Cumulative Dividends, Interest and Distributions Report as of June 30, 2011, 7/11/2011; Treasury, responses to SIGTARP data call, 1/7/2011, 4/6/2011, and
     7/8/2011; SIGTARP Quarterly Report to Congress, 1/30/2010; SIGTARP Quarterly Report to Congress, 4/20/2010, SIGTARP Quarterly Report to Congress, 4/28/2011.
                                                                                  quarterly report to congress I July 28, 2011             87




Warrant Disposition
As required by EESA, Treasury receives warrants when it invests in troubled assets
from financial institutions, with an exception for certain small institutions. With
respect to financial institutions with publicly traded securities, these warrants give
Treasury the right, but not the obligation, to purchase a certain number of shares of
common stock at a predetermined price.297 Because the warrants rise in value as a
company’s share price rises, they permit Treasury (and the taxpayer) to benefit from
a firm’s potential recovery.298 For publicly traded institutions, the warrants received
by Treasury under CPP allowed Treasury to purchase additional shares of common
stock in a number equal to 15% of the value of the original CPP investment at a
specified exercise price.299 Treasury’s warrants constitute assets with a fair market          Exercise Price: Preset price at which
value that Treasury estimates using relevant market quotes, financial models, and/             a warrant holder may purchase each
                                                                                               share. For warrants in publicly traded
or third-party valuations.300
                                                                                               institutions issued through CPP, this
    For publicly traded participants, Treasury received warrants to purchase com-
                                                                                               was based on the average stock price
mon stock that expire ten years from the date of the CPP investment. As of June
                                                                                               during the 20 days before the date
30, 2011, Treasury had not exercised any of these warrants.301 For privately held              that Treasury granted preliminary CPP
institutions, Treasury received warrants to purchase additional preferred stock or             participation approval.
debt in an amount equal to 5% of the CPP investment. Treasury exercised these
warrants immediately.302

Repurchase of Warrants by Financial Institutions                                                 For more information on warrant
Upon repaying its CPP investment, a recipient may seek to negotiate with Treasury                disposition, see SIGTARP’s audit report
to buy back its warrants. As of June 30, 2011, 66 publicly traded institutions had               of May 10, 2010, “Assessing Treasury’s
bought back $3.7 billion worth of warrants, of which $82.3 million was purchased                 Process to Sell Warrants Received from
                                                                                                 TARP Recipients.”
this quarter. As of that same date, 37 privately held institutions, the warrants
of which had been immediately exercised, bought back the resulting additional
preferred shares for a total of $17.1 million, of which approximately $2.9 million
was bought back this quarter.303 Table 2.22 lists publicly traded institutions that
have repaid TARP and repurchased warrants as of June 30, 2011. Table 2.23 lists
privately held institutions that had done so as of the same date.304
88   special inspector general I troubled asset relief program




              Table 2.22

              CPP WARRANT SALES AND REPURCHASES (PUBLIC), AS OF 6/30/2011 (ContinueD)
                                                                                                             Amount of
                                                                              Number of Warrants           Repurchase
              Repurchase Date        Institution                                   Repurchased              ($ Thousands)

              7/22/2009              The Goldman Sachs Group, Inc.                    12,205,045          $1,100,000.0
              8/12/2009              Morgan Stanley                                   65,245,759              950,000.0
              7/29/2009              American Express Company                         24,264,129              340,000.0
              3/16/2011              Fifth Third Bancorp                              43,617,747              280,025.9
              7/7/2010               Discover Financial Services                      20,500,413              172,000.0
              7/15/2009              U.S. Bancorp                                     32,679,102              139,000.0
              8/5/2009               Bank of New York Mellon                          14,516,129              136,000.0
              8/26/2009              Northern Trust Corporation                        3,824,624               87,000.0
              3/9/2011               First Horizon National Corporation               14,842,624               87,000.0
              4/20/2011              Keycorp                                          35,244,361               70,000.0
              7/22/2009              BB&T Corp.                                       13,902,573               67,010.4
              8/26/2009              State Street Corporationa                         2,788,104               60,000.0
              1/19/2011              Huntington Bancshares                           23 ,562,994               49,100.0
              4/7/2010               City National Corporation                         1,128,668               18,500.0
              1/26/2011              East West Bancorp, Inc.                           1,157,555               14,500.0
              9/8/2010               Fulton Financial Corporation                      5,509,756               10,800.0
              12/30/2009             Trustmark Corporation                             1,647,931               10,000.0
              6/3/2011               Whitney Holding Corporation                       2,631,579                 6,900.0
              6/16/2010              SVB Financial Group                               3,028,264                 5,269.2
              1/19/2011              Susquehanna Bancshares, Inc.                      3,028,264                 5,269.2
              5/27/2009              FirstMerit Corporation                             952,260                  5,025.0
              9/8/2010               The Bancorp, Inc.                                  980,203                  4,754.0
              3/31/2010              Umpqua Holdings Corp.                             1,110,898                 4,500.0
              2/23/2011              Sandy Springs Bancorp, Inc.                        651,547                  4,450.0
              3/9/2011               1st Source Corporation                             837,947                  3,750.0
              9/1/2010               Columbia Banking System, Inc.                      398,023                  3,301.6
              6/24/2009              First Niagara Financial Group                      953,096                  2,700.0
              11/24/2009             Bank of the Ozarks, Inc.                          3,779,811                 2,650.0
              5/27/2009              Independent Bank Corp.                             481,664                  2,200.0
              5/27/2009              Sun Bancorp, Inc.                                 1,620,545                 2,100.0
              5/11/2011              Financial Institutions, Inc.                       378,175                  2,080.0
              3/2/2011               Washington Banking Company                         246,082                  1,625.0
              4/7/2010               First Litchfield Financial Corporation             199,203                  1,488.0
              9/30/2009              Bancorp Rhode Island, Inc.                         303,083                  1,400.0
              6/24/2009              SCBT Financial Corporation                         192,967                  1,400.0
              10/28/2009             CVB Financial Corporation                          834,761                  1,307.0
              5/20/2009              Iberiabank Corporation                             813,008                  1,200.0
              5/8/2009               Old National Bancorp                               138,490                  1,200.0
              6/24/2009              Berkshire Hills Bancorp                            226,330                  1,040.0
              4/20/2011              Bridge Capital Holdings                            396,412                  1,395.0
              1/5/2011               First PacTrust Bancorp, Inc.                       280,795                  1,003.2
              4/13/2011              National Penn Banchares, Inc.                      735,294                  1,000.0
                                                                                                   Continued on next page.
                                                                                                       quarterly report to congress I July 28, 2011        89




CPP WARRANT SALES AND REPURCHASES (PUBLIC), AS OF 6/30/2011 (ContinueD)
                                                                                                                                          Amount of
                                                                                    Number of Warrants                                  Repurchase
Repurchase Date                  Institution                                             Repurchased                                     ($ Thousands)

12/23/2009                       WesBanco, Inc.                                                      439,282                                   $950.0
5/18/2011                        Sterling Bancorp                                                    516,817                                     945.8
6/17/2009                        Alliance Financial Corporation                                      173,069                                     900.0
12/30/2009                       Flushing Financial Corporation                                      375,806                                     900.0
6/30/2009                        HF Financial Corp., Sioux Falls                                     302,419                                     650.0
12/16/2009                       Wainwright Bank & Trust Company                                     390,071                                     568.7
12/16/2009                       LSB Corporation                                                     209,497                                     560.0
                                 Union First Market Bankshares
12/23/2009                       Corporation (Union Bankshares                                       211,318                                     450.0
                                 Corporation)
2/3/2010                         OceanFirst Financial Corp.                                          190,427                                     430.8
9/1/2010                         Citizens & Northern Corporation                                     194,794                                     400.0
9/30/2010                        South Financial Group, Inc.        b
                                                                                                 10,106,796                                      319.7
12/1/2010                        Central Jersey Bancorp                                              268,621                                     319.7
6/24/2009                        Somerset Hills Bancorp                                              163,065                                     275.0
2/10/201                         Monarch Financial Holdings, Inc.                                    132,353                                     260.0
7/28/2010                        Bar Harbor Bankshares                                                 52,455                                    250.0
9/2/2009                         Old Line Bancshares, Inc.                                           141,892                                     225.0
10/28/2009                       Centerstate Banks of Florida, Inc.                                  125,413                                     212.0
10/14/2009                       Manhattan Bancorp                                                     29,480                                      63.4
9/30/2010                        TIB Financialb                                                    1,106,389                                       40.0
3/4/2011                         Cadence Financial Corporationc                                    1,145,833                                           —
1/28/2011                        Capital Bank Corporationc                                           749,619                                           —
6/30/2011                        Cascade Financial Corporationc                                      863,442                                           —
                                 First Federal Bancshares of
5/3/2011                                                                                             321,847                                           —
                                 Arkansas, Inc.c
                                 First Community Bank Corporation
5/31/2011                                                                                            228,312                                           —
                                 of Americac
Total                                                                                         329,493,492                            $3,668,663.6

Notes: Numbers may not total due to rounding. This table represents warrants for common stock issued to Treasury by publicly traded TARP recipients.
Treasury may hold one warrant for millions of underlying shares rather than millions of warrants of an individual financial institution.
a
  State Street Corporation reduced its original amount of warrants issued through a qualified equity offering.
b
  Warrant sales to third parties.
c
  Treasury sold its TARP investment to a third party and assigned a value of zero to the warrant portion.

Sources: Treasury, Transactions Report, 7/1/2011; Treasury, responses to SIGTARP data call, 1/4/2011, 1/7/2011, 4/6/2011, and 7/8/2011.
90   special inspector general I troubled asset relief program




                  Table 2.23

                  CPP REPURCHASES OF PREFERRED SHARES RESULTING FROM IMMEDIATE
                  EXERCISE OF WARRANTS (PRIVATE), AS OF 6/30/2011
                                                                                                              Number of                   Amount of
                  Repurchase                                                                                   Warrants                 Repurchase
                  Date                   Institution                                                        Repurchased                  ($ Thousands)

                  9/29/2010              Community Bancshares of Mississippi, Inc.a                             2,600,000                    $2,600.0
                  6/29/2011              State Bankshares, Inc.                                                 2,500,000                      2,500.0
                  9/29/2010              BancPlus Corporationa                                                  2,400,000                      2,400.0
                  3/16/2011              Stockmens Financial Corporation                                           778,000                        778.0
                  9/29/2010              State Capital Corporationa                                                750,000                        750.0
                  4/15/2009              Centra Financial Holdings, Inc.                                           750,000                        750.0
                  5/27/2009              First Manitowoc Bancorp, Inc.                                             600,000                        600.0
                  6/16/2010              First Southern Bancorp, Inc.                                              545,000                        545.0
                  9/29/2010              Security Capital Corporationa                                             522,000                        522.0
                  12/23/2009             Midland States Bancorp, Inc.                                              509,000                        509.0
                  11/18/2009             1st United Bancorp, Inc.                                                  500,000                        500.0
                  9/29/2010              PSB Financial Corporationa                                                464,000                        464.0
                  2/16/2011              Georgia Commerce Bancshares, Inc.                                         435,000                        435.0
                  9/17/2010              First Eagle Bancshares, Inc.a, b                                          375,000                        375.0
                  4/13/2011              Hamilton State Bancshares, Inc.                                           350,000                        350.0
                  11/24/2010             Leader Bancorp, Inc.                                                      292,000                        292.0
                  4/22/2009              First ULB Corp.                                                           245,000                        245.0
                  9/29/2010              First Vemon Bankshares, Inc.a                                             245,000                        245.0
                  12/23/2008             Capital Bancorp, Inc.                                                     235,000                        235.0
                  2/6/2009               The Bank of Currituckc                                                    201,000                        201.0
                  4/21/2010              Hilltop Community Bancorp, Inc.                                           200,000                        200.0
                  5/19/2010              Texas National Bancorporation                                             199,000                        199.0
                  1/23/2009              California Oaks State Bank                                                165,000                        165.0
                  2/15/2011              Treaty Oak Bancorp, Inc.                                                  163,000                        163.0
                  6/16/2010              FPB Financial Corp.                                                       162,000                        162.0
                  10/6/2010              Frontier Bancshares, Inc.b                                                150,000                        150.0
                  9/24/2010              First Choice Banka                                                        110,000                        110.0
                  12/29/2009             Surrey Bancorp/Surrey Bank & Trust                                        100,000                        100.0
                  12/11/2009             Nationwide Bankshares, Inc.b                                              100,000                        100.0
                  9/29/2010              Lafayette Bancorp       a
                                                                                                                   100,000                        100.0
                  3/9/2011               FBHC Holding Companyb                                                       91,000                         91.0
                  1/26/2011              American Premier Bancorp                                                    90,000                         90.0
                  6/26/2009              Signature Bancshares, Inc.b                                                 85,000                         85.0
                  4/14/2010              First State Bank of Mobeetie                                                37,000                         37.0
                  11/10/2009             Midwest Regional Bancorp, Inc.                                              35,000                         35.0
                  7/14/2010              Green City Bancshares, Inc.                                                 33,000                         33.0
                  3/13/2009              Haviland Bancshares, Inc.                                                   21,000                         21.0
                                         Total                                                               17,137,000                   $17,137.0
                  Notes: Numbers may not total due to rounding. This table represents the preferred shares held by Treasury as a result of the exercise of
                  warrants issued by non-publicly traded TARP recipients. These warrants were exercised immediately upon the transaction date. Treasury
                  may hold one warrant for millions of underlying shares rather than millions of warrants of an individual financial institution.
                  a
                    Transferred to CDCI.
                  b
                    S-Corporation Institution: issued subordinated debt instead of preferred stock.
                  c
                    For The Bank of Currituck, the Transaction Report listed “N/A” for the final disposition date, description, and proceeds.

                  Sources: Treasury, Transactions Report, 7/1/2011; Treasury, responses to SIGTARP data call, 1/4/2011, 1/7/2011, 4/6/2011, and
                  7/8/2011.
                                                                                   quarterly report to congress I July 28, 2011               91




Treasury Warrant Auctions
                                                                                                Dutch Auction: A Treasury warrant auc-
If Treasury and the repaying QFI cannot agree upon the price for the institution                tion (which has multiple bidders bidding
to repurchase its warrants, Treasury may conduct a public offering to auction the               for different quantities of the asset) in
warrants.305 In November 2009, Treasury began using a “modified Dutch auction”                  which the accepted price is set at the
to sell the warrants publicly.306 On the announced auction date, potential investors            lowest bid of the group of high bidders
(which may include the CPP recipient) submit bids to the auction agent that man-                whose collective bids fulfill the amount
ages the sale (for CPP-related warrants, Deutsche Bank) at specified increments                 of shares offered by Treasury. As an
above a minimum price set by Treasury.307 Once the auction agent receives all bids,             example, three investors place bids to
it determines the final price and distributes the warrants to the winning bidders.308           own a portion of 100 shares offered by
    Treasury conducted one warrant auction this quarter for Webster Financial                   the issuer:

Corporation, for total gross proceeds of $20.4 million.309 Through June 30, 2011,
                                                                                                • Bidder A wants 50 shares at $4/
Treasury had held 21 public auctions for warrants it received under CPP, TIP, and
                                                                                                   share.
AGP, raising a total of approximately $5.4 billion.310 Final closing information for
                                                                                                • Bidder B wants 50 shares at $3/
all auctions is shown in Table 2.24.                                                               share.
                                                                                                • Bidder C wants 50 shares at $2/
Restructurings, Recapitalizations, Exchanges, and Sales of                                         share.
CPP Investments
Certain CPP institutions continue to experience high losses and financial difficul-             The seller selects Bidders A and B as
ties, resulting in inadequate capital or liquidity. To avoid insolvency or improve              the two highest bidders, and their col-
the quality of their capital, these institutions may ask Treasury to convert its CPP            lective bids consume the 100 shares
preferred shares into a more junior form of equity or accept a lower valuation,                 offered. The winning price is $3, which
resulting in Treasury taking a discount or loss. If a CPP institution is undercapital-          is what both bidders pay per share.
ized and/or in danger of becoming insolvent, it may propose to Treasury a restruc-              Bidder C’s bid is not filled.

turing (or recapitalization) plan to avoid failure (or to attract private capital) and
                                                                                                Auction Agent: Firm (such as an invest-
to “attempt to preserve value” for Treasury’s investment.311 Treasury may also sell
                                                                                                ment bank) that buys a series of securi-
its investment in a troubled institution to a third party at a discount in order to
                                                                                                ties from an institution for resale.
facilitate that party’s acquisition of a troubled institution. Treasury has explained to
SIGTARP that although it may incur partial losses on its investment in the course               Undercapitalized: Condition in which a
of these transactions, such an outcome may be deemed necessary to avoid the total               financial institution does not meet its
loss of Treasury’s investment that would occur if the institution failed.312                    regulator’s requirements for sufficient
     Under these circumstances, the CPP participant asks Treasury for a formal re-              capital to operate under a defined level
view of its proposal. The proposal details the institution’s recapitalization plan and          of adverse conditions.
may estimate how much capital the institution plans to raise from private investors
and whether Treasury and other preferred shareholders will convert their preferred              Due Diligence: Appropriate level of
stock to common stock. The proposal may also involve a proposed discount on the                 attention or care a reasonable person
conversion to common stock, although Treasury would not realize any loss until it               should take before entering into an
                                                                                                agreement or a transaction with an-
disposes of the stock.313 In other words, Treasury would not know whether a loss
                                                                                                other party. In finance, it often refers to
will occur, or the extent of such a loss, until it sells the common stock it receives as
                                                                                                the process of conducting an audit or
part of such an exchange. According to Treasury, when it receives such a request, it
                                                                                                review of the institution before initiating
asks one of the external asset managers that it has hired to analyze the proposal and           a transaction.
perform due diligence on the institution.314 The external asset manager interviews
92               special inspector general I troubled asset relief program




     Table 2.24

     TREASURY WARRANT AUCTIONS, AS OF 6/30/2011
                                                                                                                                                                                      Proceeds to
                                                                                                 Number of                        Minimum                        Selling                 Treasury
     Auction Date                Institution                                                Warrants Offered                      Bid Price                       Price                    ($ Millions)

                                 Bank of America A Auction (TIP)a                                  150,375,940                         $7.00                       $8.35                  $1,255.6
     3/3/2010
                                 Bank of America B Auction (CPP)a                                  121,792,790                           1.50                       2.55                       310.6
     12/10/2009                  JPMorgan Chase                                                      88,401,697                          8.00                      10.75                       950.3
     5/20/2010                   Wells Fargo and Company                                           110,261,688                           6.50                       7.70                       849.0
     9/21/2010                   Hartford Financial Service Group, Inc.                              52,093,973                        10.50                       13.70                       713.7
     4/29/2010                   PNC Financial Services Group, Inc.                                  16,885,192                        15.00                       19.20                       324.2
                                 Citigroup A Auction (TIP &AGP)        a
                                                                                                   255,033,142                           0.60                       1.01                       257.6
     1/25/2011
                                 Citigroup B Auction (CPP)a                                        210,084,034                           0.15                       0.26                        54.6
     9/16/2010                   Lincoln National Corporation                                        13,049,451                        13.50                       16.60                       216.6
     5/6/2010                    Comerica, Inc.                                                      11,479,592                        15.00                       16.00                       183.7
     12/3/2009                   Capital One                                                         12,657,960                          7.50                      11.75                       148.7
     2/8/2011                    Wintrust Financial Corporation                                       1,643,295                        13.50                       15.80                        26.0
     6/2/2011                    Webster Financial Corporation                                        3,282,276                          5.50                       6.30                        20.4
     3/9/2010                    Washington Federal, Inc.                                             1,707,456                          5.00                       5.00                        15.6
     3/10/2010                   Signature Bank                                                          595,829                       16.00                       19.00                        11.3
     12/15/2009                  TCF Financial                                                        3,199,988                          1.50                       3.00                          9.6
     3/11/2010                   Texas Capital Bancshares, Inc.                                          758,086                         6.50                       6.50                          6.7
     2/1/2011                    Boston Private Financial Holdings, Inc.                              2,887,500                          1.40                       2.20                          6.4
     5/18/2010                   Valley National Bancorp                                              2,532,542                          1.70                       2.20                          5.6
     6/2/2010                    First Financial Bancorp                                                 465,117                         4.00                       6.70                          3.1
     6/9/2010                    Sterling Bancshares, Inc.                                            2,615,557                          0.85                       1.15                          3.0
     TOTAL                                                                                   $1,061,803,105                                                                              $5,372.3

     Note: Numbers affected by rounding.				
     a
        Treasury held two auctions each for the sale of Bank of America and Citigroup warrants.
     		
     Sources: The PNC Financial Services Group, Inc., “Final Prospectus Supplement,” 4/29/2010, www.sec.gov/Archives/edgar/data/713676/000119312510101032/d424b5.htm, accessed 7/11//2011;
     Valley National Bancorp, “Final Prospectus Supplement,” 5/18/2010, www.sec.gov/Archives/edgar/data/714310/000119312510123896/d424b5.htm, accessed 7/25/2011; Comerica Incorpo-
     rated, “Final Prospectus Supplement,” 5/6/2010, www.sec.gov/Archives/edgar/data/28412/000119312510112107/d424b5.htm, accessed 7/11/2011; Wells Fargo and Company, “Definitive
     Prospectus Supplement,” 5/20/2010, www.sec.gov/Archives/edgar/data/72971/000119312510126208/d424b5.htm, accessed 7/11/2011; First Financial Bancorp, “Prospectus Supplement,”
     6/2/2010, www.sec.gov/Archives/edgar/data/708955/000114420410031630/v187278_424b5.htm, accessed 7/11/2011; Sterling Bancshares, Inc., “Prospectus Supplement,” 6/9/2010, www.
     sec.gov/Archives/edgar/data/891098/000114420411041029/v228841_8k.htm, accessed 7/25/2011; Signature Bank, “Prospectus Supplement,” 3/10/2010, files.shareholder.com/downloads/
     SBNY/ 865263367x0x358381/E87182B5-A552-43DD-9499-8B56F79AEFD0/8-K__Reg_FD_Offering_Circular.pdf, accessed 7/11/2011; Texas Capital Bancshares, Inc., “Prospectus Supplement,”
     3/11/2010, www.sec.gov/Archives/edgar/data/1077428/000095012310023800/d71405ae424b5.htm, accessed 7/11/2011; Bank of America, “Form 8-K,” 3/3/2010, www.sec.gov/Archives/edgar/
     data/70858/000119312511190694/d8k.htm, accessed 7/25/2011; Bank of America, “Prospectus Supplement,” 3/1/2010, www.sec.gov/Archives/edgar/data/70858/000119312510044940/
     d424b7.htm, accessed 7/11/2011; Bank of America, “Prospectus Supplement,” 3/1/2010, www.sec.gov/Archives/edgar/data/70858/000119312510044945/d424b7.htm, accessed 7/11/2011;
     Washington Federal, Inc., “Prospectus Supplement,” 3/9/2010, www.sec.gov/Archives/edgar/data/936528/000119312510052062/d424b5.htm, accessed 7/25/2011; TCF Financial, “Prospectus
     Supplement,” 12/16/2009, www.sec.gov/Archives/edgar/data/814184/000104746909010786/a2195869z424b5.htm, accessed 7/11/2011; JPMorgan Chase, “Prospectus Supplement,” 12/11/2009,
     www.sec.gov/Archives/edgar/data/19617/000119312509251466/d424b5.htm, accessed 7/11/2011; Capital One Financial, “Prospectus Supplement,” 12/3/2009, hwww.sec.gov/Archives/edgar/
     data/927628/000119312511188817/d424b2.htm, accessed 7/25/2011; Treasury, Transactions Report, 6/30/2010; Hartford Financial Services Group, Prospectus Supplement to Prospectus filed
     with the SEC 8/4/2010, www.sec.gov/Archives/edgar/data/874766/000095012310087985/y86606b5e424b5.htm, accessed 7/11/2011; Hartford Financial Agreement, 8/21/2010, www.sec.gov/
     Archives/ edgar/data/874766/000095012310089083/y86713exv1w1.htm, accessed 7/25/2011; Treasury, “Treasury Announces Pricing of Public Offering to Purchase Common Stock of The Hartford
     Financial Services Group, Inc.,” 9/22/2010, www.treasury.gov/press-center/press-releases/Pages/tg865.aspx, accessed 7/11/2011; Lincoln National Corporation, Prospectus Supplement to Prospectus
     filed with SEC 3/10/2009, www.sec.gov/Archives/edgar/data/59558/000119312510211941/d424b5.htm, accessed 7/25/2011; Lincoln National Corporation, 8-K, 9/22/2010, www.sec.gov/Archives/
     edgar/data/59558/000119312511173295/d8k.htm, accessed 7/25/2011; Treasury, Section 105(a) Report, 1/31/2011; Treasury, “Treasury Announces Public Offerings of Warrants to Purchase
     Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1033.aspx, accessed 7/25/2011; Citigroup, Prospectus, 1/24/2011, www.sec.gov/Archives/
     edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 7/25/2011; Citigroup, Prospectus, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/
     y89177b7e424b7.htm, accessed 7/25/2011; Boston Private Financial Holdings, Inc., Prospectus, 1/28/2011, www.sec.gov/Archives/edgar/data/821127/000119312511021392/d424b5.htm, ac-
     cessed 7/25/2011; Boston Private Financial Holdings, Inc. 8-K, 2/7/2011, www.sec.gov/Archives/edgar/data/821127/000144530511000189/tarpwarrant020711.htm, accessed 7/11/2011; Wintrust
     Financial Corporation, Prospectus, 2/8/2011, www.sec.gov/Archives/edgar/data/1015328/000095012311011007/c62806b5e424b5.htm, accessed 7/25/2011; Wintrust Financial Corporation, 8-K,
     2/8/2011, www.sec.gov/Archives/edgar/data/1015328/000095012311013436/c62955e8vk.htm, accessed 7/11/2011; Treasury, Section 105(a) Report, 1/31/2011; Treasury, “Treasury Announces
     Public Offerings of Warrants to Purchase Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1033.aspx, accessed 7/11/2011; Treasury, Citigroup Pre-
     liminary Prospectus – CPP Warrants, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004666/y89178b7e424b7.htm, accessed 7/11/2011; Citigroup, Preliminary Prospectus –
     TIP & AGP Warrants, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 7/11/2011. Treasury, responses to SIGTARP data call, 4/6/2011
     and 7/14/2011.
                                                                                 quarterly report to congress I July 28, 2011   93




the institution’s managers, gathers non-public information, and conducts loan-loss
estimates and capital structure analysis. The manager submits its evaluation to
Treasury, which then decides whether to restructure its CPP investment.315
    Table 2.25 shows all restructurings, recapitalizations, exchanges, and sales of
CPP investments through June 30, 2011.

Recent Exchanges and Sales
Cascade Financial Corporation
On November 21, 2008, Treasury invested $39 million in Cascade Financial
Corporation, Everett, Washington (“Cascade”) through CPP in return for pre-
ferred stock and warrants.316 On March 7, 2011, Cascade announced in an SEC
form 8-K filing that it had entered into a definitive merger agreement with Opus
Bank, Irvine, California (“Opus”).317 As part of the transaction, Opus has offered to
purchase Cascade’s preferred stock and the associated warrants issued to Treasury
under CPP for $16.3 million in cash. In the filing, Cascade noted that Treasury
has indicated its “willingness” to sell its TARP investments in Cascade to Opus.
The sale is subject to Cascade’s entry into definitive documentation that is accept-
able to Treasury.318 Cascade shareholders approved the merger on May 31, 2011,
and received regulatory approval on June 27, 2011.319 On June 30, 2011, Treasury
completed the sale of its TARP investment to Opus, which resulted in a loss of ap-
proximately $22.7 million.320

FNB United Corporation
On February 13, 2009, Treasury invested $51.5 million in FNB United
Corporation, Asheboro, North Carolina (“FNB United”) through CPP in return for
preferred stock and warrants.321 On April 27, 2011, FNB United announced in an
SEC form 8-K filing that it had agreed to merge with Bank of Granite Corporation,
Granite Falls, North Carolina. As part of the transaction, FNB United will receive a
$77.5 million investment from two third-party firms in exchange for shares of FNB
United’s common stock.322
   The filing also states that Treasury issued a letter on April 6, 2011, in which it
agreed to exchange the FNB United’s CPP preferred stock for common stock worth
25% of the preferred equity’s par value plus any accrued and unpaid dividends. In
addition, Treasury indicated its intent to reduce the exercise price of the warrant.
Before the exchange can be completed, FNB United must enter into a definitive
agreement with Treasury, complete its recapitalization with the third-party firms,
and repay outstanding debt and preferred stock issued by its subsidiary bank to
SunTrust Bank, Atlanta, Georgia.323 As of the drafting of this report, Treasury has
made no public disclosure of the agreement.
94                  special inspector general I troubled asset relief program




     Table 2.25

         TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 6/30/2011 ($ millions)
                                                                                            Original           Combined
                                                              Date of                    Investment            Investment
     Institution                                              Investment                     ($ Millions)     ($ Millions)      Investment Status
     Citigroup, Inc.                                          10/28/2008                    $2,500.0                            Exchanged for common stock/warrants and sold
     Provident Bankshares                                     11/14/2008                        151.5
                                                                                                                                Provident preferred stock exchanged for new M&T Bank
     M&T Bank Corporation                                     12/23/2008                        600.0           1,081.5a        Corporation preferred stock; Wilmington Trust preferred stock
                                                                                                                                redeemed by M&T Bank Corporation
     Wilmington Trust Corporation                             12/12/2008                        330.0
     Popular, Inc.                                            12/5/2008                         935.0                           Exchanged for trust preferred securities
     First BanCorp                                            1/6/2009                          400.0                           Exchanged for mandatorily convertible preferred stock
     South Financial Group, Inc.                              12/5/2008                         347.0                           Sold
     Sterling Financial Corporation                           12/5/2008                         303.0                           Exchanged for common stock
     Whitney Holding Corporation                              6/3/2011                          300.0                           Sold
     Pacific Capital Bancorp                                  11/21/2008                        180.6                           Exchanged for common stock
     Wilmington Trust Corporation                             5/13/2011                         151.5                           Sold
     Central Pacific Financial Corp.                          1/9/2009                          135.0                           Exchanged for common stock
     First Merchants                                          2/20/2009                         116.0                           Exchanged for trust preferred securities and preferred stock
     Metropolitan Bank Group, Inc.                            6/26/2009                           71.5  b
                                                                                                                                Exchanged for new preferred stock in Metropolitan Bank
                                                                                                                81.9b
     NC Bank Group, Inc                                       6/26/2009                             6.9                         Group, Inc.

     Hampton Roads Bankshares                                 12/31/2008                          80.3                          Exchanged for common stock
     Independent Bank Corporation                             12/12/2008                          72.0                          Exchanged for mandatorily convertible preferred stock
     Superior Bancorp, Inc.                                   12/5/2008                           69.0                          Exchanged for trust preferred securities
     Cadence Financial Corporation                            1/9/2009                            44.0                          Sold
     Capital Bank Corporation                                 12/12/2008                          41.3                          Sold
     Cascade Financial Corporation                            6/30/2011                           39.0                          Sold
     TIB Financial Corp.                                      12/5/2008                           37.0                          Sold
     First Federal Bankshares of
                                                              5/3/2011                            16.5                          Sold
     Arkansas, Inc.
     First Community Bank Corporation
                                                              12/23/2008                          10.7                          Sold
     of America
     Bank of Currituck                                        2/6/2009                              4.0                         Sold
     Treaty Oak Bancorp, Inc.                                 1/16/2009                             3.3                         Sold
     FBHC Holding Company                                     12/29/2009                            3.0                         Sold
     Fidelity Resources Company                               6/26/2009                             3.0                         Exchanged for preferred stock in Veritex Holding
     a
          &T Bank Corporation (“M&T”) has redeemed the entirety of the preferred shares issued by Wilmington Trust Corporation plus accrued dividends. In addition, M&T has also repaid $370 million of
         M
         Treasury’s original $600 million investment. As of June 30, 2011, Treasury’s remaining principal investment in M&T is $381.5 million.
     b
         The new investment amount of $81.9 million includes the original investment amount in Metropolitan Bank Group, Inc. or $71.5 million plus the original investment amount in NC Bank Group, Inc. or
         $6.9 million plus unpaid dividends of $3.5 million.

     Sources: Treasury, Transactions Report, 7/1/2011; Treasury response to SIGTARP data call, 7/8/2011; SIGTARP, October Quarterly Report, 10/26/2010; Treasury, Section 105(a) Report,
     9/30/2010; Treasury Press Release, “Taxpayers Receive $10.5 Billion in Proceeds Today from Final Sale of Treasury Department Citigroup Common Stock”; Treasury Press Release, “Treasury
     Announces Pricing of Citigroup Common Stock Offering,” 12/7/2010; Treasury, Transactions Report, 12/31/2010; Treasury, Section 105(a) Report, 1/31/2011; Treasury Press Release, “Treasury
     Announces Intent to Sell Warrant Positions in Public Dutch Auctions”; Treasury, Transactions Report, 3/2/2011; Broadway Financial Corporation, 8-K, 2/16/2011, www.sec.gov/Archives/edgar/
     data/1001171/000119312511039152/d8k.htm, accessed 7/25/2011; FDIC and Texas Department of Banking, In the Matter of Treaty Oak Bank, Consent Order, 2/5/2010, www.fdic.gov/
     bank/individual/enforcement/2010-02-34.pdf, accessed 7/25/2011; Fort Worth Business Press, “Shareholders Approve Sale of Treaty Bank to Fort Worth Investors,” www.timesleader.com/FwBp/
     news/breaking/Shareholders-approve-sale-of-Treaty-Oak-bank-to-Fort-Worth-investors.html, accessed 7/25/2011; Central Pacific Financial Corp., 8-K, 11/4/2010,/www.sec.gov/Archives/edgar/
     data/701347/000070134710000055/form8-k.htm, accessed 7/25/2011; Central Pacific Financial Corp., 8-K, 2/17/2011, www.sec.gov/Archives/edgar/data/701347/000110465911008004/
     a11-6202_18k.htm, accessed 7/25/2011; Central Pacific Financial Corp., 8-K, 2/22/2011, www.sec.gov/Archives/edgar/data/701347/000110465911008879/a11-6350_18k.htm, accessed
     7/25/2011; Scottrade, Central Pacific Financial Corp., 2/18/2011, research.scottrade.com/qnr/Public/Stocks/Snapshot?symbol=cpf, accessed 7/25/2011; Cadence Financial Corporation, 8-K,
     3/4/2011, www.sec.gov/Archives/edgar/data/742054/000089882211000148/kbody.htm, accessed 7/25/2011; M&T Bank Corporation, 10-K, 2/19/2010, www.sec.gov/Archives/edgar/
     data/36270/000095012311016289/l40880e10vk.htm, accessed 7/25/2011.
                                                                                 quarterly report to congress I July 28, 2011   95




Valley National Bancorp and State Bancorp, Inc.
On November 14, 2008, Treasury invested $300 million in Valley National
Bancorp, Wayne, New Jersey (“Valley”) through CPP in return for preferred stock
and warrants.324 As of December 23, 2009, Valley has repaid Treasury’s principal
investment, and Treasury has since auctioned off the warrants for $5.6 million
in proceeds. On December 5, 2008, Treasury invested $36.8 million in State
Bancorp, Inc., Jericho, New York (“State Bancorp”) for preferred stock and war-
rants to purchase additional shares of common stock.325
    According to an SEC form 8-K filing, Valley entered into a merger agreement
with State Bancorp on April 28, 2011. Under the agreement, Valley will provide
funds to repurchase the preferred shares issued by State Bancorp through CPP.
Valley may also purchase the warrants for State Bancorp common stock, though it
is not required to do so. Should Valley choose not to purchase the warrants, they
will convert to warrants to purchase Valley common stock upon completion of the
merger.326 As of the drafting of this report, Treasury has made no public disclosure
of the agreement.

First Federal Bankshares of Arkansas, Inc.
On March 6, 2009, Treasury invested $16.5 million in First Federal Bancshares of
Arkansas, Inc., Harrison, Arkansas (“FFBA”) through CPP in return for preferred
stock and warrants.327 On January 28, 2011, FFBA announced in an SEC form
8-K filing that it had entered into a definitive investment agreement with its wholly
owned subsidiary, First Federal Bank, and Bear State Financial Holdings, LLC,
Little Rock, Arkansas (“Bear State”).328 On May 3, 2011, pursuant to an agree-
ment with FFBA, Treasury sold all if its FFBA preferred stock, along with related
warrants and any accrued and unpaid dividends, to Bear State for an aggregate
purchase price of $6 million. This resulted in a loss to Treasury of approximately
$10.5 million.329

M&T Bank Corporation and Wilmington Trust Corporation
On November 14, 2008, Treasury invested $151.5 million in Provident Bankshares
Corporation, Baltimore, Maryland (“Provident”) through CPP in return for pre-
ferred stock and warrants.330 On December 23, 2008, Treasury invested $600
million in M&T Bank Corporation, Buffalo, New York (“M&T”) through CPP
in return for preferred stock and warrants.331 On May 26, 2009, M&T acquired
Provident, including Provident’s obligations related to Treasury’s $151.5 million
TARP investment in Provident.332
    On December 12, 2008, Treasury invested $330 million in Wilmington Trust
Corporation, Wilmington, Delaware (“Wilmington”) through CPP in return for
preferred stock and warrants.333
96   special inspector general I troubled asset relief program




                                                On November 1, 2010, M&T announced its application to acquire Wilmington,
                                            and the Federal Reserve approved the application on April 26, 2011. Upon approval,
                                            M&T announced that it would repay $370.0 million of the $751.5 million of pre-
                                            ferred equity issued to M&T and Provident.334 On May 13, 2011, Treasury sold its
                                            TARP investment in Wilmington to M&T at par value plus accrued dividends, and
                                            the related warrants were exchanged for warrants to purchase shares of M&T com-
                                            mon stock.335 M&T completed its acquisition of Wilmington on May 16, 2011.336

                                            Whitney Holding Corporation
                                            On December 19, 2008, Treasury invested $300 million in Whitney Holding
                                            Corporation, New Orleans, Louisiana (“Whitney”) through CPP in return for pre-
                                            ferred stock and warrants.337 On December 22, 2008, Whitney announced that it
                                            had entered into a definitive merger agreement involving a stock-for-stock transac-
                                            tion with Hancock Holding Company, Gulfport, Mississippi (“Hancock”).338 On
                                            June 3, 2011, Hancock purchased Treasury’s Whitney preferred stock at par value
                                            plus accrued and unpaid dividends. This resulted in no gain or loss to Treasury. In
                                            addition, Hancock purchased the related warrants for $6.9 million.339 The merger
                                            received all required regulatory approval on May 13, 2011, and was completed on
                                            June 4, 2011.340

                                            F.N.B. Corporation and Parkvale Financial Corporation
                                            On December 23, 2008, Treasury invested $31.8 million in Parkvale Financial
                                            Corporation, Monroeville, Pennsylvania (“Parkvale”) through CPP in return for
                                            preferred stock and warrants. On January 9, 2009, Treasury invested $100 million
                                            in F.N.B. Corporation, Hermitage, Pennsylvania (“F.N.B.”) through CPP in return
                                            for preferred stock and warrants. F.N.B. repaid Treasury’s preferred equity invest-
                                            ment on September 9, 2009, and as of June 30, 2011, the warrant to purchase
                                            F.N.B. common stock remains outstanding.341
                                                On June 15, 2011, Parkvale announced in an SEC form 8-K filing that it had
                                            entered into a definitive merger agreement with F.N.B. As part of the agreement,
                                            Parkvale may repurchase the preferred shares it issued to Treasury or they may
                                            be purchased by F.N.B. or one of its subsidiaries and would become extinguished
                                            upon completion of the merger. F.N.B. may also choose to purchase the associated
                                            warrants. If Treasury’s TARP investments are not repurchased prior to the merger,
                                            the Parkvale preferred shares will convert into shares of F.N.B. preferred stock and
                                            the associated warrants will convert into warrants to purchase F.N.B. common
                                            stock. Should such conversions occur, the F.N.B. preferred stock would hold the
                                            same rights and preferences as the Parkvale CPP preferred equity, and the war-
                                            rants would be adjusted to reflect the agreed-upon exchange ratio for Parkvale and
                                            F.N.B. common stock.342
                                                                                 quarterly report to congress I July 28, 2011   97




    Completion of the merger remains subject to shareholder and regulatory ap-
proval.343 As of the drafting of this report, Treasury has made no public disclosure
of the agreement.

Mission Community Bancorp and Santa Lucia Bancorp
On December 19, 2008, Treasury invested $4 million in Santa Lucia Bancorp,
Atascadero, California (“Santa Lucia”) through CPP in return for preferred stock
and warrants.344 On January 9, 2009, Treasury invested $5.1 million in Mission
Community Bancorp, San Luis Obispo, California (“Mission”) through CPP in
return for preferred stock.345 However, Treasury did not require the issuance of
warrants since Mission was a certified CDFI that received a TARP investment of
less than $50 million.346
     On June 27, 2011, Mission and Santa Lucia announced in an SEC form 8-K
filing that the two companies, along with Carpenter Fund Manager GP LLC,
Irvine, California (“Carpenter”), entered into a definitive merger agreement.347
Under the agreement, Mission would acquire Santa Lucia’s subsidiary bank, and
Carpenter would acquire Santa Lucia as a vehicle to hold the subsidiary bank’s
nonperforming assets.348 As part of the merger agreement, Carpenter would also
repurchase the preferred stock and related warrants issued by Santa Lucia under
CPP, as well as any accrued and unpaid dividends, for $2.8 million. According
to the filing, Treasury provided its written consent for the repurchase, however
the transaction remains subject to the entry of the parties into a definitive agree-
ment.349 As of the drafting of this report, Treasury has made no public disclosure
of the agreement.350

Update on Previously Announced Exchanges
First Community Bank Corporation of America
On December 23, 2008, Treasury invested $10.7 million in First Community Bank
Corporation of America, Pinellas Park, Florida (“FCBA”) through CPP in return
for preferred stock and warrants.351 According to an SEC filing on January 6, 2011,
the Office of Thrift Supervision (“OTS”) proposed a cease and desist to FCBA
based on its subsidiary bank, First Community Bank of America, Pinellas Park,
Florida (“FCB”), operating “with an inadequate level of capital.”352 On February 10,
2011, FCBA agreed to merge FCB with Community Bank of Manatee, Bradenton,
Florida (“Community Bank”).353
    On March 11, 2011, Treasury agreed to sell its TARP investment to FCBA for
$7.2 million plus 72% of remaining cash assets after payments of acquisition ex-
penses, debts, liabilities, and other distributions.354 The agreement was contingent
upon the merger of FCB with Community Bank, and FCBA entering into defini-
tive documentation that is acceptable to Treasury.355 Treasury completed the sale
98   special inspector general I troubled asset relief program




                                            on May 31, 2011, concurrent with the completion of the FCB-Community Bank
                                            merger.356 This resulted in a loss to Treasury of approximately $2.9 million.

                                            Central Pacific Financial Corporation
                                            On January 9, 2009, Treasury invested $135 million in Central Pacific Financial
                                            Corp., Honolulu, Hawaii (“Central Pacific”) through CPP in return for preferred
                                            stock and warrants.357 On November 4, 2010, Central Pacific entered into two
                                            separate investment agreements with an affiliate of the Carlyle Group and an af-
                                            filiate of Anchorage Capital Group, LLC, pursuant to which each affiliate would
                                            invest approximately $98 million in common stock. Both investment commitments
                                            were subject to certain conditions, including the exchange of Treasury’s preferred
                                            stock for common stock at a discount, plus 100% of the amount of unpaid divi-
                                            dends. The investment agreements are part of an overall plan to raise at least $325
                                            million of new capital.358
                                                 On February 17, 2011, Treasury agreed to exchange its preferred stock and
                                            unpaid dividends for newly issued common shares in Central Pacific and amended
                                            warrants. On February 18, 2011, Central Pacific announced it had successfully
                                            raised $325 million in new capital in a direct private placement and Treasury had
                                            exchanged its preferred stock in Central Pacific and unpaid dividends for approxi-
                                            mately 5.6 million common shares and amended warrants.359
                                                 On June 26, 2011, Treasury sold 2.9 million of its 5.6 million shares of Central
                                            Pacific common stock at $12.75 per share for aggregate net proceeds to Treasury
                                            of $35.9 million.360 Following the offering, Treasury still holds 2.8 million shares,
                                            along with the warrants for 79,288 shares of common stock. The final loss or gain
                                            on Treasury’s investment will depend on the market price of the common stock at
                                            the time Treasury disposes the entirety of its interests.

                                            CPP Recipients: Bankrupt or with Failed Subsidiary Banks
                                            Despite Treasury’s stated goal of limiting CPP investments to “healthy and viable
                                            institutions,” a number of CPP participants went bankrupt or had a subsidiary bank
                                            fail, as indicated in Table 2.26.361

                                            Closure of Superior Bank
                                            On December 5, 2008, Treasury invested $69 million in Superior Bancorp Inc.,
                                            Birmingham, Alabama (“Superior”) through CPP in return for preferred stock
                                            and a warrant to purchase shares of common stock.362 On December 11, 2009,
                                            Superior exchanged the preferred equity investment for a like amount in trust
                                            preferred securities.363 On November 2, 2010, the Office of Thrift Supervision
                                            (“OTS”) issued a cease-and-desist order against Superior and its subsidiary bank,
                                            citing insufficient liquidity to meet their debt obligations and inadequate capital
                                            and earnings. Furthermore, both institutions operated with “an excessive level of
                                                                                quarterly report to congress I July 28, 2011         99




adversely classified loans and assets,” and also had large concentrations of commer-
cial real estate and construction loans.364
    On April 15, 2011, OTS closed Superior’s subsidiary bank and the FDIC was
named receiver. The FDIC entered into a purchase and assumption agreement
with Superior Bank, N.A., Birmingham Alabama, a newly-chartered, wholly-owned                For more information on the Community
subsidiary of Community Bancorp LLC, Houston, Texas (“Community”), to as-                    Bancorp and Cadence Financial merger
sume all deposits of Superior’s subsidiary bank.365 Community previously purchased           agreement, see SIGTARP’s April 2011
                                                                                             Quarterly Report, page 123.
CPP preferred equity issued by another TARP participant, Cadence Financial
Corporation, in connection with its merger agreement with the company.366 The
FDIC estimates that the cost to the Deposit Insurance Fund will be $259.6 mil-
lion.367 While the amount of Treasury’s recovery is not clear, all of Treasury’s TARP
investment in Superior may be lost.368
100   special inspector general I troubled asset relief program




                            Table 2.26

                           CPP recipients: Bankrupt oR with failed subsidiary banks                                                       ($ Millions)
                                                              Initial
                                                           Invested          Investment                                              Bankruptcy/                            Subsidiary
                           Institution Name                 Amount                 Date                                 Status       Failure Datea                               Bank
                                                                                                 Bankruptcy proceedings
                                                                                                      completed with no
                           CIT Group Inc., New                                                                                                                              CIT Bank,
                                                           $2,330.0         12/31/2008             recovery of Treasury’s               11/1/2009
                           York, NY                                                                                                                                 Salt Lake City, UT
                                                                                                  investment; subsidiary
                                                                                                     bank remains active
                           UCBH Holdings Inc.,                                                              In bankruptcy;                                United Commercial Bank,
                                                              $298.7        11/14/2008                                                  11/6/2009
                           San Francisco, CA                                                         subsidiary bank failed                                      San Francisco, CA
                                                                                                       Bankruptcy proceed-
                           Pacific Coast                                                           ings completed with no
                                                                                                                                                             Pacific Coast National
                           National Bancorp,                     $4.1         1/16/2009              recovery of Treasury’s           11/13/2009
                                                                                                                                                           Bank, San Clemente, CA
                           San Clemente, CA                                                         investment; subsidiary
                                                                                                                bank failed
                           Midwest Banc                                                                                                                     Midwest Bank and Trust
                                                                                                            In bankruptcy;
                           Holdings, Inc.,                    $89.4 b         12/5/2008                                                 5/14/2010              Company, Elmwood
                                                                                                     subsidiary bank failed
                           Melrose Park, IL                                                                                                                               Park, IL
                           Sonoma Valley                                                                    Winding down
                                                                                                                                                                      Sonoma Valley
                           Bancorp, Sonoma,                      $8.7         2/20/2009             operations; subsidiary              8/20/2010
                                                                                                                                                                   Bank, Sonoma, CA
                           CA                                                                                  bank failed
                           Pierce County
                                                                                                                                                          Pierce Commercial Bank,
                           Bancorp,                              $6.8         1/23/2009              Subsidiary bank failed             11/5/2010
                                                                                                                                                                     Tacoma, WA
                           Tacoma, WA
                           Tifton Banking
                           Company,                              $3.8         4/17/2009                                   Failed      11/12/2010                                      N/A
                           Tifton, GA

                           Legacy Bancorp,                                                                                                                               Legacy Bank,
                                                                 $5.5         1/30/2009              Subsidiary bank failed             3/11/2011
                           Inc. Milwaukee, WI                                                                                                                            Milwaukee, WI

                           Superior Bancorp,
                                                                                                                                                                       Superior Bank,
                           Inc., Birmingham,                    $69.0         12/5/2008              Subsidiary bank failed             4/15/2011
                                                                                                                                                                      Birmingham, AL
                           AL
                           TOTAL                          $2,816.0

                           Notes: Numbers may not total due to rounding.
                           a
                             Date is the earlier of the bankruptcy filing by holding company or the failure of subsidiary bank.
                           b
                             The amount of Treasury’s investment prior to bankruptcy was $89,874,000. On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest
                             Banc Holdings, Inc. (MBHI) for $89,388,000 of MCP, which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previ-
                             ously accrued and unpaid dividends.

                           Sources: Treasury, Transactions Report, 7/1/2011; FDIC, “Failed Bank List,” no date, www.fdic.gov/bank/individual/failed/banklist.html, accessed
                           7/25/2011; FDIC, “Institution Directory,” no date, www2.fdic.gov/idasp/main.asp, accessed 7/25/2011; CIT, “CIT Board of Directors Approves Pro-
                           ceeding with Prepackaged Plan of Reorganization with Overwhelming Support of Debtholders,” 11/1/2009, ir.cit.com/phoenix.zhtml?c=99314&p=irol-
                           newsArticle&ID=1349179&highlight, accessed 7/25/2011; Pacific Coast National Bancorp, 8-K, 12/17/2009, www.sec.gov/Archives/edgar/
                           data/1302502/000092708909000240/pcnb-8k122209.htm, accessed 7/25/2011; Sonoma Valley Bancorp, 8-K, 8/20/2010, www.sec.gov/Archives/edgar/
                           data/1120427/000112042710000040/form8k_receivership.htm, accessed 7/25/2011; Midwest Banc Holdings, Inc., 8-K, 8/20/2010, www.sec.gov/Archives/
                           edgar/data/1051379/000095012310081020/c60029e8vk.htm, accessed 7/25/2011; UCBH Holdings, Inc., 8-K, 11/6/2009, www.sec.gov/Archives/edgar/
                           data/1061580/000095012309062531/f54084e8vk.htm, accessed 7/25/2011; FDIC Press Release, “Heritage Bank, Olympia, Washington, Assumes All of
                           the Deposits of Pierce Commercial Bank, Tacoma, Washington,” 11/5/2010, www.fdic.gov/news/news/press/2010/pr10244.html, accessed 7/25/2011; FDIC
                           Press Release, “Ameris Bank, Moultrie, Georgia, Acquires All of the Deposits of Two Georgia Institutions,” 11/12/2010, www.fdic.gov/news/news/press/2010/
                           pr10249.html, accessed 7/25/2011; Treasury, Transactions Report, 3/11/2011; Federal Reserve Board Press Release, 5/10/2010, www.federalreserve.gov/
                           newsevents/press/enforcement/20100510b.htm, accessed 7/25/2011; Board of Governors of the Federal Reserve System, Written Agreement by and among
                           Legacy Bancorp, Inc., Legacy Bank, Federal Reserve Bank of Chicago, and State of Wisconsin Department of Financial Institutions, Madison, Wisconsin, www.
                           federalreserve.gov/newsevents/press/enforcement/enf20100505b1.pdf, accessed 7/25/2011; FDIC Press Release, “Seaway Bank and Trust Company, Chi-
                           cago, Illinois Assumes All of the Deposits of Legacy Bank, Milwaukee, Wisconsin,” 3/11/2011, www.fdic.gov/news/news/press/2011/pr11055.html, accessed
                           7/25/2011; FDIC Press Release, “Superior Bank, N.A., Birmingham, Alabama, Assumes All of the Deposits of Superior Bank, Birmingham, Alabama,” 4/15/2011,
                           www.fdic.gov/news/news/press/2011/pr11073.html, accessed 7/15/2011.
                                                                                quarterly report to congress I July 28, 2011             101




Small-Business Lending Initiatives
Treasury has taken steps to launch two programs that it describes as small-business
lending initiatives. Both are similar to TARP’s CPP in that they involve Treasury
purchases of preferred shares or subordinated debt in certain QFIs. The first, the
                                                                                             Subordinated Debt: Loan (or security)
Community Development Capital Initiative (“CDCI”), uses TARP money. The
                                                                                             that ranks below other loans (or securi-
second, the Small Business Lending Fund (“SBLF”), authorized by statute on
                                                                                             ties) with regard to claims on assets or
September 27, 2010, operates outside TARP but will likely involve many current
                                                                                             earnings.
TARP recipients.369
                                                                                             Community Development Financial Insti-
Community Development Capital Initiative                                                     tutions (“CDFIs”): Financial institutions
The Administration announced CDCI on October 21, 2009. According to Treasury,                eligible for Treasury funding to serve
it was intended to help small businesses obtain credit.370 Under CDCI, TARP                  urban and rural low-income communi-
made capital investments in the preferred stock or subordinated debt of eligible             ties through the CDFI Fund. CDFIs were
banks, bank holding companies, thrifts, and credit unions certified as Community             created in 1994 by the Riegle Com-
Development Financial Institutions (“CDFIs”) by Treasury. According to Treasury,             munity Development and Regulatory
                                                                                             Improvement Act. These entities must
these lower-cost capital investments were intended to strengthen the capital base
                                                                                             be certified by Treasury; certification
of CDFIs and enable them to make more loans in low and moderate-income
                                                                                             confirms they target at least 60% of
communities.371
                                                                                             their lending and other economic devel-
    CDCI was open to certified, qualifying CDFIs or financial institutions that              opment activities to areas underserved
applied for CDFI status by April 30, 2010.372 According to Treasury, CPP-                    by traditional financial institutions.
participating CDFIs that were in good standing could exchange their CPP invest-
ments for CDCI investments.373 Each application for new or incremental funds                 Risk-Weighted Assets: Risk-based mea-
had to be reviewed by the financial institution’s Federal regulator and approved by          sure of total assets held by a financial
Treasury.374 CDCI closed to new investments on September 30, 2010.375                        institution. Assets are assigned broad
                                                                                             risk categories. The amount in each
Terms for Senior Securities and Dividends                                                    risk category is then multiplied by a
An eligible bank, bank holding company, or thrift could apply to receive capital in          risk factor associated with that catego-
an amount up to 5% of its risk-weighted assets. A credit union (which is a member-           ry. The sum of the resulting weighted
                                                                                             values from each of the risk categories
owned, nonprofit financial institution with a capital and governance structure
                                                                                             is the bank’s total risk-weighted assets.
different from that of for-profit banks) could apply for Government funding of up
to 3.5% of its total assets — roughly equivalent to the 5% of risk-weighted assets
                                                                                             Subchapter S Corporations (“S Corpo-
for banks.376 Participating credit unions and subchapter S corporations (“S corpora-         rations”): Corporate form that passes
tions”) issued subordinated debt to Treasury in lieu of the preferred stock issued by        corporate income, losses, deductions,
other CDFI participants.377 Many CDFI investments have an initial dividend rate              and credit through to shareholders for
of 2%, which increases to 9% after eight years. Participating S corporations pay an          Federal tax purposes. Shareholders of
initial rate of 3.1%, which increases to 13.8% after eight years.378                         S corporations report the flow-through
    A CDFI participating in CPP had the opportunity to request to convert those              of income and losses on their personal
shares into CDCI shares, thereby reducing the annual dividend rate it pays the               tax returns and are taxed at their indi-
Government from 5% to as low as 2%.379 According to Treasury, CDFIs were not                 vidual income tax rates.
required to issue warrants because of the de minimis exception in EESA, which
grants Treasury the authority to waive the warrant requirement for qualifying insti-
tutions in which Treasury invested $100 million or less.380
102   special inspector general I troubled asset relief program




                                                 If during the application process a CDFI’s primary regulator deemed it to be un-
                                             dercapitalized or to have “quality of capital issues,” the CDFI had the opportunity
                                             to raise private capital to achieve adequate capital levels. Treasury would match the
                                             private capital raised on a dollar-for-dollar basis, up to a total of 5% of the financial
                                             institution’s risk-weighted assets. In such cases, private investors had to agree to
                                             assume any losses before Treasury.381

                                             CDCI Investment Update
                                             Treasury invested $570.1 million of the $780.2 million it originally allocated for
                                             CDCI.382 Treasury made investments in 84 institutions under the program — 36
                                             banks or bank holding companies and 48 credit unions.383 Of these 84 investments,
                                             28 were conversions from CPP (representing $363.3 million of the total $570.1
                                             million); the remaining 56 were not CPP participants. For the 28 CPP banks,
                                             Treasury provided an additional $100.7 million in CDCI funds in addition to
                                             converting the CPP investments. Only $106 million of the total CDCI funds went
                                             to institutions that were not in CPP. As of June 30, 2011, Treasury had received
                                             $7.7 million in dividends and interest from CDCI recipients. However, as of that
                                             date, five institutions (Carver Bancorp, Inc., First Vernon Bancshares, Inc., First
                                             American International Corporation, PGB Holdings, Inc., and Premier Bancorp,
                                             Inc.) had unpaid dividend or interest payments to Treasury totaling $511,146.384 A
                                             list of all CDCI investments is included in Appendix D: “Transaction Detail.”

                                             Carver Bancorp, Inc.
                                             On January 16, 2009, Treasury invested approximately $19 million in Carver
                                             Bancorp, Inc., New York, New York (“Carver”) through CPP in return for preferred
                                             stock.385 Treasury did not require the issuance of warrants since Carver was a
                                             certified CDFI that received a TARP investment of less than $50 million.386 Carver
                                             exchanged its CPP investment for an equivalent investment amount under CDCI
                                             on August 27, 2010.387 On February 7, 2011, OTS issued a cease-and-desist order
                                             against Carver and its subsidiary bank, citing inadequate capital protection and
                                             earnings, deteriorating asset quality, and ineffective risk management.388
                                                 On June 29, 2011, Treasury agreed to exchange its $19.0 million preferred in-
                                             vestment for an equivalent amount of common stock, which is approximately 34.8
                                             million shares.389 As of June 30, 2011, Carver had missed two dividend payments
                                             totaling approximately $189,800.390 Upon completion of the exchange, Carver must
                                             repay all accrued and unpaid dividends on its preferred stock.391 Completion of the
                                             exchange remains subject to shareholder approval and Carver raising new equity
                                             capital.392
                                                                                  quarterly report to congress I July 28, 2011             103




Small Business Lending Fund
On September 27, 2010, the President signed into law the Small Business Jobs
Act of 2010, which created the SBLF with a $30 billion authorization.393 SBLF is
intended to allow Treasury “to make capital investments in eligible institutions in
order to increase the availability of credit for small businesses.”394 To be eligible
for SBLF, the institution must have had less than $10 billion in total assets as of
December 31, 2009.
     On December 20, 2010, Treasury announced terms under which insured
depository institutions, bank holding companies, and savings and loan holding
companies (hereinafter “banks”) may request funds under SBLF.395 The deadline
for banks to apply to participate in SBLF was May 16, 2011.396 Terms and guidance
                                                                                               Mutual Depository Institution: Any bank,
for S corporations and mutual depository institutions to apply were announced                  savings association, bank holding
on May 9, 2011, and the application deadline for these institutions was June 6,                company, or savings and loan hold-
2011.397 Community development loan funds (“CDLFs”) received guidance on                       ing company organized in a mutual
May 25, 2011, along with an application deadline of June 22, 2011.398 Prospective              form. Savings associations organized
participants in SBLF were required to submit an application and a “small business              as mutual institutions issue no capital
lending plan,” which addresses their intended use of funds and anticipated increase            stock and therefore have no stockhold-
in small-business lending, to their primary Federal regulator and to their state regu-         ers. Mutual savings associations build
lator, if applicable.399 According to Treasury, the total number of SBLF applications          capital almost exclusively through
Treasury received as of June 30, 2011 was 927, of which 319 were from existing                 retained earnings.
TARP recipients.
                                                                                               Community Development Loan Fund
     Banks, S corporations, and mutual depository institutions can receive a capital
                                                                                               (“CDLF”): Financial institution that is a
investment totaling up to 3% or 5% of its risk-weighted assets, depending on their
                                                                                               type of certified CDFI. These entities
size.400 Bank holding companies (“BHCs”) applying for SBLF must contribute at
                                                                                               (usually non-profits) serve businesses,
least 90% of any funding they receive to their insured depository institution subsid-          organizations, and individuals in urban
iaries that originate small-business loans.401 CDLFs may apply for SBLF funding                and rural low-income communities.
equal to 1% to 5% of their total assets as of December 31, 2009.402
     An institution is not eligible for the program if it is on the FDIC’s problem bank        Bank Holding Company (“BHC”):
list or if it has been removed from that list in the 90 days preceding its application         Company that owns and/or controls
to SBLF.403 Treasury consults with Federal and, where applicable, state regulators             one or more U.S. banks.
about the bank’s financial condition and whether it is eligible to receive funding
from SBLF.404
     Qualified Small Business Lending under SBLF allows participants to extend
loans of up to $10 million to businesses with no more than $50 million in annual
revenues. Such loans include:405

•	   commercial and industrial loans to small businesses
•	   loans secured by owner-occupied nonfarm, nonresidential real estate
•	   loans to finance agricultural production and other loans to farmers
•	   loans secured by farmland
104            special inspector general I troubled asset relief program




                                                      Dividend and Interest Payments
      For more information on how adjust-             According to the governing provisions of the Small Business Jobs Act, the initial 5%
      ments to the dividend rate are calculated       annual dividend drops 1% for every 2.5% increase over two years in the institution’s
      for SBLF banks whose Qualified Small            Qualified Small Business Lending, as defined by SBLF, subject to a minimum rate
      Business Lending exceeds baseline levels,
                                                      of 1%.406 If an institution achieves this lending increase during an initial two-year
      see SIGTARP’s April 2011 Quarterly
                                                      adjustment period, the decreased dividend holds until four and a half years from
      Report, page 128.
                                                      Treasury’s investment date.407 If the institution does not increase its small-business
      See SIGTARP’s April 2011 Quarterly              lending during the first two years, the rate later rises to 7%.408 In addition, CPP
      Report, pages 128-129, for a discussion         banks that refinance into SBLF and fail to increase small-business lending after
      on Treasury’s policies regarding missed         two years following their entry into SBLF are subject to an additional 2% annual
      dividend payments under SBLF.
                                                      fee from the fifth anniversary of their CPP investment date until four and a half
                                                      years after Treasury’s SBLF investment, at which time the dividend rate for all
                                                      SBLF participants becomes 9%.409 Increases in Qualified Small Business Lending
                                                      are compared with a “baseline” amount equal to the average amount of such lend-
                                                      ing that an SBLF participant had outstanding for the four calendar quarters ending
                                                      June 30, 2010 (adjustments are made to exclude loans obtained through “mergers,
                                                      acquisitions, and loan purchases”).410 Participating financial institutions qualify for
                                                      reduced dividend and interest rates to the extent that their outstanding Qualified
                                                      Small Business Lending exceeds baseline levels. The dividend rates are adjusted
                                                      quarterly to reflect changes in an institution’s small business lending relative to its
                                                      baseline amount.411 As a result, a bank may receive a reduced dividend rate based
                                                      on increases in its lending that occurred before it received any SBLF funding.

                                                      CPP and CDCI Refinancing into SBLF
      See SIGTARP’s January 2011 Quarterly            Although this program operates outside TARP, as of June 30, 2011, 319 TARP re-
      Report, pages 185–192, for SIGTARP’s
                                                      cipients under either CPP or CDCI had applied to refinance their investments and,
      recommendations to Treasury about
                                                      thus, potentially benefit from lower dividend rates, noncumulative dividends, and
      how SBLF is applied to current TARP
      recipients and, in particular, Treasury’s       the removal of rules on executive compensation and luxury expenditures.412 As of
      rejection of two important taxpayer-            June 30, 2011, 314 existing CPP participants and five existing CDCI participants
      protecting recommendations advanced             applied to SBLF.413
      by SIGTARP.                                         According to Treasury, the applications of current CPP or CDCI participants
                                                      are evaluated under the same processes used for other applicants, though addition-
                                                      al eligibility restrictions pertain to institutions refinancing from CPP or CDCI.414
                                                      On December 20, 2010, Treasury issued further guidance under which CPP and
                                                      CDCI recipients can refinance into SBLF.415 Among the additional terms for TARP
                                                      recipients are:416

                                                      •	 Banks that participate in SBLF cannot continue to participate in CPP or CDCI.
                                                      •	 Banks that use SBLF to refinance their CPP or CDCI investments must redeem
                                                         all outstanding preferred stock issued under those programs on or before the
                                                                                 quarterly report to congress I July 28, 2011   105




   date of Treasury’s SBLF investment. Banks may use the SBLF funding to meet
   this requirement.
•	 Banks must be in material compliance with all the terms, conditions, and cov-
   enants of CPP or CDCI in order to refinance through SBLF.
•	 Banks must be current in their dividend payments and must pay any accrued
   and unpaid dividends due to Treasury under CPP or CDCI. In addition, banks
   cannot have missed more than one previous dividend payment under CPP or
   CDCI (defined as a payment submitted more than 60 days late).
•	 Banks’ matching funds from private sources are not considered in the prelimi-
   nary approval process.

   Additional specific terms apply to banks that previously received investments
under CPP:

•	 Two years after refinancing to SBLF funding, a CPP-recipient bank must have
   increased its small-business lending relative to the baseline level of small-
   business lending as defined in the Small Business Jobs Act. If it has not, then in
   addition to its SBLF dividends (which reset to 7%) the bank must pay Treasury
   an additional “lending incentive fee” equal to 2% per annum of its then out-
   standing SBLF investment, starting on the fifth anniversary of Treasury’s CPP
   investment. The lending incentive fee will be in effect until four and a half years
   after the SBLF investment (i.e., the time at which the SBLF dividend rate for
   all participants rises to 9%). This fee does not apply to a bank that redeemed, or
   applied to redeem, its CPP investment as of December 16, 2010.
•	 Banks are not required to repurchase warrants from Treasury that were provided
   as a condition of receiving funds under CPP. Treasury does not require banks to
   issue warrants for participation in SBLF.
106            special inspector general I troubled asset relief program




                                                      Systemically Significant Failing Institutions Program
                                                      According to Treasury, the Systemically Significant Failing Institutions (“SSFI”)
                                                      program was established to “provide stability and prevent disruptions to financial
                                                      markets from the failure of a systematically significant institution.”417 Through
                                                      SSFI, Treasury obligated $69.8 billion to American International Group, Inc.
                                                      (“AIG”), the program’s sole participant.418

                                                      Status of SSFI Funds
                                                      On November 25, 2008, Treasury made an initial $40 billion investment in AIG.
      Cumulative Preferred Stock: Stock
                                                      In return, Treasury received AIG Series D cumulative preferred stock and warrants
      requiring a defined dividend payment. If
                                                      to purchase AIG common stock.419 On April 17, 2009, AIG and Treasury signed a
      the company does not pay the dividend
                                                      securities exchange agreement under which Treasury exchanged the Series D cu-
      on schedule, it still owes the missed
      dividend to the stock’s owner.
                                                      mulative preferred stock, which required AIG to make quarterly dividend payments,
                                                      for less valuable and less liquid Series E non-cumulative preferred stock, which did
      Non-Cumulative Preferred Stock: Pre-            not require AIG to make quarterly dividend payments. Additionally, on April 17,
      ferred stock with a defined dividend,           2009, Treasury committed to fund an equity capital facility under which AIG could
      without the obligation to pay missed            draw down up to $29.8 billion in exchange for Series F non-cumulative preferred
      dividends.                                      stock and additional warrants, of which AIG drew down $27.8 billion.420
                                                          On January 14, 2011, AIG executed a Recapitalization Plan (discussed in
      Equity Capital Facility: Commitment to          greater detail in this section), which resulted in the conversion of the Series E and
      invest equity capital in a firm under cer-      F preferred shares to common stock.421 In addition, portions of the Series F pre-
      tain future conditions. An equity facility      ferred stock were exchanged for preferred interests in two special purpose vehicles
      when drawn down is an investment
                                                      (“SPV”) formed to hold two of AIG’s foreign life insurance subsidiaries, American
      that increases the provider’s ownership
                                                      International Assurance Co., Ltd. (“AIA”) and American Life Insurance Company
      stake in the company. The investor
                                                      (“ALICO”), and for a new $2 billion Series G equity capital facility.422
      may be able to recover the amount in-
      vested by selling their ownership stake
                                                          On May 27, 2011, AIG and Treasury completed a stock offering for AIG com-
      to other investors at a later date.             mon stock. Treasury sold 200 million shares of its AIG common stock as part of
                                                      the offering. Total proceeds from the sale were $8.7 billion, with $5.8 billion going
      Special Purpose Vehicle (“SPV”): Off-           to Treasury. As of June 30, 2011, Treasury held a 77% common equity stake.423
      balance- sheet legal entity that holds          The Series G equity capital facility remained undrawn and was terminated this
      transferred assets presumptively                quarter pursuant to the terms of the common stock offering.424 See the “AIG
      beyond the reach of the entities that           Recapitalization Plan” and “Sale of AIG Common Stock” discussions below for
      provide the assets, and that is legally         more detailed information.
      isolated.
                                                      Dividend Payments
                                                      Before the recapitalization, for the period November 25, 2008, to January 14,
                                                      2011, AIG had failed to pay any dividends. As of December 31, 2010, AIG had not
                                                      paid or had failed to declare dividends for eight consecutive quarters, for a total of
                                                      $7.9 billion in missed or undeclared dividend payments.425 When AIG failed to pay
                                                      dividends for four consecutive quarters on the Series E preferred stock, this gave
                                                      Treasury the right to appoint to AIG’s board the greater of either two directors or
                                                      a number (rounded upward) of directors equal to 20% of all AIG directors.426 On
                                                                                  quarterly report to congress I July 28, 2011             107




April 1, 2010, Treasury appointed Donald H. Layton and Ronald A. Rittenmeyer
as directors of AIG.427 After the Recapitalization Plan was executed, AIG no longer
had an obligation to pay dividends.

Federal Reserve Credit Facility, Maiden Lane II and III, and Special
Purpose Vehicles
In September 2008, the Federal Reserve Bank of New York (“FRBNY”) extended
an $85 billion revolving credit facility to AIG in an effort to stabilize the company.         Revolving Credit Facility: Line of credit
In return, AIG committed 79.8% of its voting equity to a trust for the sole benefit            for which borrowers pay a commit-
of the Treasury.428 The terms of the credit facility included a high interest rate and         ment fee, allowing them to repeatedly
increased AIG’s debt ratios significantly. Servicing this debt contributed to AIG’s            draw down funds up to a guaranteed
financial troubles and put downward pressure on its credit rating.429 Federal offi-            maximum amount. The amount of avail-
cials feared that future downgrades in AIG’s credit rating could have “catastrophic”           able credit decreases and increases as
effects on the company, forcing it into bankruptcy.430                                         funds are borrowed and then repaid.

    FRBNY and Treasury determined that this possibility posed a threat to the
nation’s financial system and decided that additional transactions were necessary
to modify the revolving credit facility.431 In November 2008, FRBNY and Treasury
took the following actions to stabilize AIG’s operations:432

•	 Treasury purchased $40 billion in AIG preferred shares under TARP, the pro-
   ceeds of which went directly to FRBNY to pay down a portion of the existing
   revolving credit facility. After that payment, the total amount available to AIG
   under FRBNY’s revolving credit facility was reduced from $85 billion to $60
   billion.
•	 FRBNY created Maiden Lane II, a SPV, to which FRBNY lent $19.5 billion to
   fund the purchase of residential mortgage-backed securities (“RMBS”) from the
   securities-lending portfolios of several of AIG’s U.S.-regulated insurance subsid-
   iaries, in order to help relieve liquidity pressures stemming from their security-
                                                                                               For more on the creation of the Maiden
   lending programs.
                                                                                               Lane III SPV see SIGTARP audit
•	 FRBNY created Maiden Lane III, another SPV, to which FRBNY lent $24.3                       report, “Factors Affecting Payments to
   billion to buy from AIG’s counterparties collateralized debt obligations underly-           AIG’s Counterparties,” dated November
   ing credit default swap contracts written by AIG.                                           17, 2009.


   On March 30, 2011, FRBNY announced that it will sell the securities in
Maiden Lane II over time using a competitive sales process through its invest-
ment manager BlackRock Solutions. According to FRBNY, there will be no fixed
timeframe for the sales.433 FRBNY also announced that, along with providing
quarterly updates on total proceeds from sales and the total amount purchased by
each counterparty, it will publish the identity of the purchasers and sale price for
each individual security three months after the last asset is sold.434 According to
the Federal Reserve, the fair value of the Maiden Lane II assets was $12.5 billion
108            special inspector general I troubled asset relief program




                                                      (based on valuations as of March 31, 2011, which according to FRBNY is the
                                                      latest data available).435 As of June 30, 2011, FRBNY had completed nine sales
      Committee on Uniform Securities                 of a total of 306 Committee on Uniform Securities Identification Procedures
      Identification Procedures (“CUSIPs”):           (“CUSIPs”) from the Maiden Lane II portfolio with a current face value totaling
      Committee set up by securities ex-              approximately $10 billion.436
      changes to allocate a unique identifica-            Table 2.27 details the offerings that have been completed through June 30,
      tion code to each security traded.              2011.

                                                      Table 2.27

                                                      FRBNY MAIDEN LANE II SECURITIES SALES, AS OF 6/30/2011
                                                                                       Number of                                                                        CUSIPs Sold as
                                                       Auction Closing                   CUSIPs             Number of            Current Face Value                    a Percentage of
                                                       Date                              Offered           CUSIPs Sold              of CUSIPs Solda                     CUSIPs Offered
                                                       4/6/2011                                    52                    42            $1,326,856,873                                    81%
                                                       4/13/2011                                   42                    37                626,080,072                                   88%
                                                       4/14/2011                                     8                     8               534,127,946                                 100%
                                                       4/28/2011                                   10                      8             1,122,794,209                                   80%
                                                       5/4/2011                                    43                    38              1,773,371,055                                   88%
                                                       5/10/2011                                   79                    74                427,486,898                                   94%
                                                       5/12/2011                                   53                    34              1,373,506,029                                   64%
                                                       5/19/2011                                   29                    29                878,641,682                                 100%
                                                       6/9/2011                                    73                    36              1,898,594,878                                   49%
                                                       Total                                     389                   306           $9,961,459,642                                     79%

                                                      Note: Numbers affected by rounding.
                                                      a
                                                        The current face value represents the most recent balance of principal outstanding on the assets. It does not reflect the market value
                                                        of the bonds nor the price originally paid by Maiden Lane II LLC for the bonds.

                                                      Sources: FRBNY, “Maiden Lane II LLC: Bid List Offering,” no date, www.newyorkfed.org/markets/MLII/maidenlane.cfm?showMore=1,
                                                      accessed 7/8/2011.



                                                           Treasury and the Federal Reserve on March 2, 2009, announced a restructur-
                                                      ing of Government assistance to AIG that, according to Treasury, was designed to
                                                      strengthen the company’s capital position.437 The measures included an authoriza-
                                                      tion for FRBNY to acquire up to $26 billion of preferred equity interests in two
                                                      SPVs formed for AIA and ALICO. The SPVs’ creation also facilitated the indepen-
                                                      dence of these two subsidiaries in anticipation of a sale or initial public offering
                                                      (“IPO”).438
                                                           On December 1, 2009, FRBNY received $16 billion in preferred equity inter-
                                                      ests in AIA Aurora LLC (“AIA SPV”) and $9 billion in the ALICO Holdings LLC
                                                      (“ALICO SPV”). This action decreased the outstanding principal balance of AIG’s
                                                      revolving credit facility by $25 billion and reduced its total facility borrowing capac-
                                                      ity from $60 billion to $35 billion.439 Under the transaction’s original terms, with
                                                      limited exceptions, all proceeds from the voluntary sale, public offering, or other
                                                      liquidation of the assets or businesses held by the SPVs had to be used first to fully
                                                                                 quarterly report to congress I July 28, 2011              109




redeem FRBNY’s interests in the SPVs and then to reduce the outstanding revolv-
ing credit facility.440 After a series of additional payments, from March 12, 2010, to
December 31, 2010, the borrowing capacity under the revolving credit facility was
reduced to approximately $25.1 billion and AIG’s total outstanding principal and
interest balance was $20.3 billion.441 As of January 14, 2011, that total, including
fees, had grown to $20.7 billion.442
    Upon closing the Recapitalization Plan on January 14, 2011, AIG repaid the re-
                                                                                              For more on AIG’s Federal Reserve
maining balance of the FRBNY revolving credit facility with proceeds from an IPO              credit facility reduction transaction, see
of AIA Group Limited and the sale of ALICO to MetLife, Inc. (both are described               SIGTARP’s January 2010 Quarterly
below), and the facility was terminated.443                                                   Report, page 73.


Sale of Business Assets
AIG announced on September 30, 2010, that it had entered into a definitive sale
agreement with Prudential Financial, Inc., for the sale of its two Japanese-based life
insurance subsidiaries, AIG Star Life Insurance Co., Ltd. (“Star”), and AIG Edison
Life Insurance Company (“Edison”), for a total of $4.8 billion.444 On February 1,
2011, AIG completed the sale of Star and Edison to Prudential Financial, Inc., for
$4.8 billion, consisting of $4.2 billion in cash and $0.6 billion in the assumption of
third-party debt.445 Under the terms of the Recapitalization Plan, AIG was required
to use all net cash proceeds from the Star and Edison sales to repay a portion of
Treasury’s preferred interests in the AIA and ALICO SPVs.446 Instead, on February
8, 2011, AIG entered into a letter agreement with Treasury permitting AIG to retain
$2 billion of net cash proceeds from the sale of Star and Edison to strengthen loss
reserves and support the capital of one of AIG’s operating companies, Chartis, Inc.,
which had taken a charge of more than $4 billion to its reserves.447 On February
14, 2011, the remaining $2.2 billion in cash proceeds went to repay a portion of
Treasury’s preferred interests in the AIA and ALICO SPVs.448
     On October 29, 2010, AIG completed an IPO of 8.1 billion shares of AIA
Group Limited.449 According to AIG, the gross proceeds from the IPO were $20.5
billion. Upon completion of the IPO, AIG owned approximately 33% of AIA Group
Limited’s outstanding shares, which will continue to be held in the AIA SPV. AIG is
precluded from selling or hedging any of these remaining shares until October 18,
2011, and from selling or hedging more than half of these remaining shares until
April 18, 2012.450
     On November 1, 2010, AIG finalized the sale of ALICO to MetLife, Inc. AIG
received $16.2 billion through the sale of ALICO, $7.2 billion of which was paid in
cash and $9.0 billion in equity interests in MetLife. These equity interests were ini-
tially held in the ALICO SPV, then were sold on March 8, 2011, for $9.6 billion.451
     Effective January 14, 2011, the cash proceeds from the AIA Group Limited IPO
and ALICO sale were disbursed to FRBNY as part of the Recapitalization Plan.
110   special inspector general I troubled asset relief program




                                                On January 12, 2011, AIG accepted a $2.2 billion cash offer for 97.6% of its
                                             Taiwan life insurance unit, Nan Shan Life Insurance Company, Ltd. (“Nan Shan”),
                                             from Ruen Chen Investment Holding Co., Ltd., subject to regulatory approval.452
                                                For a summary of AIG asset sales in excess of $1 billion, see Table 2.28.
                                             Table 2.28

                                             AIG ASSET SALES IN EXCESS OF $1 BILLION, As Of 6/30/2011
                                              AIG Asset                              Gross Proceeds           Date                    Buyer or Public
                                              AIA (sold 67%)                         $20.5 billion            10/29/2010              Public: Initial Public Offering
                                                                                     $7.2 billion cash
                                              ALICO                                  $9 billion MetLife       11/1/2010               Buyer: MetLife, Inc.
                                                                                     equity interests
                                              MetLife equity interests               $9.6 billion             3/8/2011                Buyer: MetLife, Inc.
                                              AIG Star Life Insurance and            $4.8 billion             2/1/2011                Buyer: Prudential
                                              AIG Edison Life Insurance                                                               Financial, Inc.
                                              Nan Shan Life Insurance Co.            $2.2 billion             Subject to regu-        Buyer: Ruen Chen
                                              (agreed to sell 97.6%)                                          latory approval         Investment Holding Co., Ltd.

                                             Notes: Numbers affected by rounding.

                                             Source: AIG, “AIG Enters Into Agreement To Sell Star and Edison Life Companies,” 9/30/2010, www.aigcorporate.com/news-
                                             room/index.html, accessed 7/8/2011; SEC, “8-K American International Group,” 10/22/2010, www.sec.gov/Archives/edgar/
                                             data/5272/000095012310095032/y87334e8vk.htm, accessed 7/25/2011; AIG, “AIG Raises Nearly $37 Billion In Two Transactions
                                             To Repay Government,” 11/1/2010, ir.aigcorporate.com/External.File?t=2&item=g7rqBLVLuv81UAmrh20Mp/lptmOSyzUBWuL0H-
                                             cUb4QPW7icXt6tSsNcMErV4ODIOk1KW0aD3/sacvpSe5qek1w==, accessed 7/8/2011; SEC, “10-Q American International Group,”
                                             10/29/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 7/8/2011; AIG, “AIG
                                             Raises Nearly $37 Billion In Two Transactions To Repay Government,” 11/1/2010, ir.aigcorporate.com/External.File?t=2&item=g7rqB
                                             LVLuv81UAmrh20Mp/lptmOSyzUBWuL0HcUb4QPW7icXt6tSsNcMErV4ODIOk1KW0aD3/sacvpSe5qek1w==, accessed 7/8/2011; AIG,
                                             “AIG Enters Into Agreement To Sell Nan Shan To Taiwan-Based Consortium Led By The Ruentex Group,” 1/12/2011, ir.aigcorporate.
                                             com/External.File?t=2&item=g7rqBLVLuv81UAmrh20Mp2GDwAh4Ju2qNKZiaQ+LC4eLA/wD8wJ898T+OGLtuOD53u0EV2e/b6wq8H-
                                             GwkVuaVQ==, accessed 7/8/2011; SEC, “10-K American International Group,” 2/24/2011; AIG, “13G,” 3/08/2011, www.sec.gov/
                                             Archives/edgar/data/5272/000095012311023024/y90152sc13gza.htm, accessed 7/8/2011.



                                             AIG Recapitalization Plan
                                             On January 14, 2011, AIG completed its Recapitalization Plan as outlined in a
                                             Master Transaction Agreement dated December 8, 2010. The Recapitalization Plan
                                             was based on a plan originally announced on September 30, 2010.453 AIG executed
                                             the Recapitalization Plan with Treasury, FRBNY, the AIG Credit Facility Trust
                                             (“AIG Trust”) (the entity in which FRBNY placed the management of the 79.8%
                                             equity interest in AIG that was issued as a condition of the FRBNY credit facil-
                                             ity), ALICO SPV, and AIA SPV to recapitalize itself, with the intent to repay the
                                             Government’s loans and investments in AIG.454
                                                 Execution of the Recapitalization Plan entailed three main steps. First, AIG
                                             terminated its revolving credit facility with FRBNY by repaying the $20.7 billion
                                             balance in full using a portion of the cash proceeds from the AIA IPO and the sale
                                             of ALICO.455
                                                 Second, the remaining amount of FRBNY’s holdings in the AIA and ALICO
                                             SPVs, $6.1 billion, was redeemed by AIG with cash proceeds from the AIA Group
                                             Limited IPO and the ALICO sale.456 AIG then drew $20.3 billion of the remaining
                                             funds available under the TARP Series F equity capital facility (which had $22.3
                                                                                   quarterly report to congress I July 28, 2011      111




billion still available as of December 31, 2010) to repurchase an equivalent amount
of FRBNY’s preferred interests in the AIA and ALICO SPVs, and then transferred
those interests to Treasury.457 The remaining available TARP funds, approximately
$2 billion, were used to create a Series G preferred equity capital facility, which was
terminated this quarter.458
     Treasury’s preferred SPV interests are secured by the following:459

•	 AIG’s remaining shares in AIA Group Limited post-IPO (approximately 33% of
   AIA Group Limited’s outstanding shares)
•	 AIG’s equity and residual interests in Maiden Lane II and III
•	 the proceeds of the sale of Nan Shan
•	 AIG’s ownership interest in International Lease Finance Corporation (“ILFC”)

     On February 14, 2011, AIG used part of the proceeds from the sales of Star and
Edison to repay $2.2 billion of Treasury’s preferred interests in the AIA and ALICO
SPVs.460 AIG also used $6.6 billion from the March 8, 2011, sale of its equity inter-
ests in MetLife and $300.0 million held in an expense reserve related to the sale of
ALICO to MetLife to completely repay Treasury’s preferred interest in the ALICO
SPV and to reduce Treasury’s preferred interests in the AIA SPV.461 The remaining
$3 billion from the sale was placed in an escrow that will be released to Treasury
over a 30-month period.462
     According to Treasury, the outstanding balance of Treasury’s preferred interest
in the AIA SPV as of June 30, 2011, was $11.5 billion.463 AIG expects to continue
to repay Treasury for its preferred interest in the AIA SPV through proceeds from
future asset sales.464 If the proceeds from the sales of all the remaining assets se-
curing the SPVs are insufficient to fully redeem Treasury’s interest in the AIA SPV,
Treasury will recognize a loss in the amount of the shortfall.
     In the third and final step of the Recapitalization Plan, AIG extinguished all pri-
or outstanding preferred shares held by the Government, made up of $40.0 billion
of Series E preferred shares, $1.6 billion in unpaid Series D dividends, and $7.5
billion drawn from the Series F equity capital facility. In exchange, it issued 1.655
billion shares of common stock (which included 563 million shares held by the
AIG Trust for the benefit of Treasury), representing 92.1% of the common stock
                                                                                                For a more detailed description of
of AIG.465 The AIG Trust was then terminated. To its existing non-Government                    the AIG Recapitalization Plan, see
common shareholders, AIG issued 10-year warrants to purchase up to a cumulative                 SIGTARP’s January 2011 Quarterly
total of 75 million shares of common stock at a strike price of approximately $45               Report to Congress, pages 135–139.
per share.466

Treasury’s Rights under the Exchange Plan
As part of the exchange, AIG entered into an agreement with Treasury that grants
Treasury registration rights with respect to the shares of AIG common stock. Under
112   special inspector general I troubled asset relief program




                                             the rights agreement, until Treasury’s ownership of AIG’s voting securities falls
                                             below 33%, AIG will have to obtain Treasury’s consent to the terms, conditions, and
                                             pricing of any equity offering, including any primary offering by AIG. Additionally,
                                             AIG is required to pay Treasury’s expenses for the registration of shares and under-
                                             writing fees, up to 1% of the amount offered by Treasury.467
                                                 With respect to Treasury’s preferred interests in the AIA SPV, should Treasury
                                             hold any preferred interests after May 1, 2013, it will have the right to compel the
                                             sale of all or a portion of one or more of the entities that secure the SPV.468

                                             Sale of AIG Common Stock
                                             On May 27, 2011, Treasury sold 200 million shares of AIG common stock for
                                             $29.00 per share ($0.28 above Treasury’s prior break-even price of $28.72).469 The
                                             total proceeds to Treasury from the sale were $5.8 billion. In addition, the Series G
                                             equity capital facility was terminated, pursuant to the terms of the Recapitalization
                                             Plan, and AIG cancelled all Series G preferred stock.470 As of June 30, 2011,
                                             Treasury owns 1.455 billion shares of AIG’s common stock, representing an owner-
                                             ship stake of 77%.471

                                             Recent AIG Credit Developments
                                             On March 31, 2011, ILFC, AIG’s aircraft leasing subsidiary, announced that a
                                             group of 15 banks had made a commitment for a $1.3 billion secured term loan;
                                             the company can borrow an additional $200.0 million under the facility if more
                                             banks participate. According to ILFC, proceeds from the loan will prepay existing
                                             bank facilities that were scheduled to mature in October 2011 and 2012. ILFC will
                                             draw down the new term loan over the next year, with final maturity scheduled for
                                             2018.472
                                                On April 21, 2011, ILFC increased this secured term loan for a total com-
                                             mitment of $1.5 billion with the addition of Kreditanstalt für Wiederaufbau
                                             Bankengruppe (“KfW IPEX-Bank GmbH”), German government-owned develop-
                                             ment bank, to the group of banks pooling into the loan. The facility will be funded
                                             over the next 12 months and will mature in 2018. The proceeds will be used pri-
                                             marily to prepay existing unsecured and secured loans that would otherwise mature
                                             in October 2011 and 2012.473
                                                                                   quarterly report to congress I July 28, 2011             113




Targeted Investment Program and Asset Guarantee Program
Treasury invested a total of $40 billion in two financial institutions, Citigroup Inc.
(“Citigroup”) and Bank of America Corp. (“Bank of America”), through the
Targeted Investment Program (“TIP”). Treasury invested $20 billion in Citigroup
on December 31, 2008, and $20 billion in Bank of America on January 16, 2009,
in return for preferred shares paying quarterly dividends at an annual rate of 8%
and warrants from each institution.474 According to Treasury, TIP’s goal was to
“strengthen the economy and protect American jobs, savings, and retirement secu-
rity [where] the loss of confidence in a financial institution could result in signifi-
cant market disruptions that threaten the financial strength of similarly situated
financial institutions.”475 Both banks repaid TIP in December 2009.476 On March
3, 2010, Treasury auctioned the Bank of America warrants it received under TIP
for $1.26 billion.477 On January 25, 2011, Treasury auctioned the Citigroup war-
rants it had received under TIP for $190.4 million.478
     Under the Asset Guarantee Program (“AGP”), Treasury, the Federal Deposit
Insurance Corporation (“FDIC”), the Federal Reserve, and Citigroup agreed to
provide loss protection on a pool of Citigroup assets valued at approximately $301
billion. In return, as a premium, the Government received warrants to purchase
Citigroup common stock and $7 billion in preferred stock. The preferred stock was
subsequently exchanged for trust preferred securities (“TRUPS”).479                             Trust Preferred Securities (“TRUPS”):
     Treasury received $4 billion of the TRUPS and the FDIC received $3 bil-                    Securities that have both equity and
lion.480 Although Treasury’s asset guarantee was not a direct cash investment, it               debt characteristics created by estab-
exposed taxpayers to a potential TARP loss of $5 billion. On December 23, 2009,                 lishing a trust and issuing debt to it.
in connection with Citigroup’s TIP repayment, Citigroup and Treasury terminated
the AGP agreement. Although at the time of termination the asset pool suffered
a $10.2 billion loss, this number was below the agreed-upon deductible and the
Government suffered no loss.481
     Treasury agreed to cancel $1.8 billion of the TRUPS issued by Citigroup,
reducing the premium it received from $4.0 billion to $2.2 billion, in exchange for
the early termination of the loss protection. The FDIC retained all of its $3 billion
in securities.482 Under the termination agreement, however, the FDIC will transfer
up to $800 million of those securities to Treasury if Citigroup’s participation in the
FDIC’s Temporary Liquidity Guarantee Program closes without a loss.483
     On September 29, 2010, Treasury entered into an agreement with Citigroup                   For a discussion of the basis of the
to exchange the entire $2.2 billion in Citigroup TRUPS that it held under AGP for               decision to provide Federal assistance to
new TRUPS. Because the interest rate necessary to receive par value was below                   Citigroup, see SIGTARP’s audit report,
                                                                                                “Extraordinary Financial Assistance
the interest rate paid by Citigroup to Treasury, Citigroup increased the principal
                                                                                                Provided to Citigroup Inc.” dated
amount of the securities sold by Treasury by an additional $12.0 million, thereby
                                                                                                January 13, 2011.
enabling Treasury to receive an additional $12.0 million in proceeds from the $2.2
billion sale of the Citigroup TRUPS, which occurred on September 30, 2010.484
On January 25, 2011, Treasury auctioned the Citigroup warrants it had received
under AGP for $67.2 million.485 According to Treasury, it has realized a gain of ap-
proximately $12.3 billion over the course of Citigroup’s participation in AGP, TIP,
and CPP, including dividends, other income, and warrant sales.486
114   special inspector general I troubled asset relief program




                                                 Bank of America announced a similar asset guarantee agreement with respect
                                             to approximately $118 billion in Bank of America assets, but the final agreement
                                             was never executed. Bank of America paid $425 million to the Government as a
                                             termination fee.487 Of this $425 million, $276 million was paid to Treasury, $92
                                             million was paid to the FDIC, and $57 million was paid to the Federal Reserve.488
                                                                                 quarterly report to congress I July 28, 2011             115




ASSET SUPPORT PROGRAMS
Three TARP programs have focused on supporting markets for specific asset class-
es: the Term Asset-Backed Securities Loan Facility (“TALF”), the Public-Private
Investment Program (“PPIP”), and the Unlocking Credit for Small Businesses
(“UCSB”) program.
    As initially announced, TALF was designed to support asset-backed securities
(“ABS”) transactions by providing investors up to $200 billion in non-recourse
loans through the Federal Reserve Bank of New York (“FRBNY”) to purchase non-                 Non-Recourse Loan: Secured loan in
mortgage-backed ABS and commercial mortgage-backed securities (“CMBS”). The                   which the borrower is relieved of the
program was supported by up to $20 billion in TARP funds to be used if borrowers              obligation to repay the loan upon
surrendered the ABS purchased through the program and walked away from their                  surrendering the collateral.
loans. The TARP obligation was subsequently reduced to $4.3 billion.489 TALF ulti-
mately provided $71.1 billion in Federal Reserve financing by the time the program
closed to new loans.490 Of that amount, as of June 30, 2011, $12.7 billion remains
outstanding.491
    PPIP uses a combination of private equity, Government equity, and
Government debt through TARP to facilitate purchases of legacy mortgage-backed
securities (“MBS”) held by financial institutions. In July 2009, Treasury announced
the selection of nine Public-Private Investment Fund (“PPIF”) managers and a
total potential commitment of $30 billion in TARP funds.492 The actual funding
of that commitment depended on how much private capital the PPIF managers
raised. After the fund-raising period was completed, Treasury’s PPIP obligation was
capped at $22.4 billion.493 The PPIF managers are currently purchasing invest-
ments and managing their portfolios.
    Through the UCSB loan support initiative, Treasury launched a program to
purchase SBA 7(a) securities, which are securitized small-business loans. Treasury
originally committed $15 billion to the program; the commitment was subsequently
lowered several times. By the time the program closed, it had made a total of ap-
proximately $368.1 million in purchases.494 Treasury has sold some of these securi-
ties leaving $216.6 million remaining.495


TALF
TALF, which was announced in November 2008, issued loans collateralized by
eligible ABS.496 According to FRBNY, “The ABS markets historically have funded a
substantial share of credit to consumers and businesses,” and TALF was “designed              Collateral: Asset pledged by a bor-
to increase credit availability and support economic activity by facilitating renewed         rower to a lender until a loan is repaid.
issuance of consumer and business ABS.”497 The program was extended to eligible               Generally, if the borrower defaults on
newly issued CMBS in June 2009 and to eligible legacy CMBS in July 2009.498                   the loan, the lender gains ownership
                                                                                              of the pledged asset and may sell it to
TALF closed to new lending in June 2010.499
                                                                                              satisfy the debt. In TALF, the ABS or
    TALF is divided into two parts:500
                                                                                              CMBS purchased with the TALF loan
                                                                                              is the collateral that is posted with
•	 a lending program, TALF, that originated non-recourse loans to eligible borrow-            FRBNY.
   ers using eligible ABS and CMBS as collateral
116            special inspector general I troubled asset relief program




                                                      •	 an asset disposition facility, TALF LLC, that purchases the collateral from
                                                         FRBNY if borrowers choose to surrender it and walk away from their loans or if
                                                         the collateral is seized in the event of default

                                                          TALF, which was managed and substantially funded by FRBNY, closed its
                                                      lending program in 2010. The asset disposition facility, TALF LLC, is managed
                                                      by FRBNY and remains in operation.501 TALF LLC charges FRBNY a fee for the
                                                      commitment to purchase any collateral surrendered by the borrowers. TALF LLC’s
                                                      funding comes first from that fee, which is derived from the principal balance of
                                                      each outstanding TALF program loan.502 In the event that such funding proves
                                                      insufficient, funding would then come from TARP, which is obligated to lend up to
                                                      the authorized limit in subordinated debt from TALF LLC.503 TARP’s original TALF
                                                      obligation was $20 billion, to support up to $200 billion in TALF loans. However,
                                                      when TALF’s lending phase ended in June 2010 with $42.5 billion in loans out-
                                                      standing, Treasury and the Federal Reserve agreed to reduce the TARP obligation
                                                      to $4.3 billion.504 The TARP money is available for TALF LLC to use to purchase
                                                      surrendered assets from FRBNY and may offset losses associated with disposing
                                                      of the surrendered assets. As of June 30, 2011, $12.7 billion in TALF loans were
                                                      outstanding.505 No TALF borrowers have surrendered collateral in lieu of repay-
                                                      ment and consequently no collateral has been purchased by TALF LLC since its
                                                      inception.506

                                                      Lending Program
                                                      TALF’s lending program made secured loans to eligible borrowers.507 The loans
                                                      were issued with terms of three or five years and were available for non-mortgage-
                                                      backed ABS, newly issued CMBS, and legacy CMBS.508
      Synthetic ABS: Security deriving its
                                                          To be eligible for TALF, the non-mortgage-backed ABS had to meet certain
      value and cash flow from sources other          criteria, including the following:509
      than conventional debt, equities, or
      commodities — for example, credit               •	 be U.S.-dollar-denominated cash (not synthetic ABS)
      derivatives.                                    •	 bear short-term and long-term credit ratings of the highest investment grade
                                                         (i.e., AAA) from two or more major nationally recognized statistical rating orga-
      Nationally Recognized Statistical Rating           nizations (“NRSROs”) identified by FRBNY as eligible to rate non-mortgage-
      Organization (“NRSRO”): Credit rating              backed ABS collateral for TALF loans
      agency registered with the SEC. Credit          •	 not bear a long-term credit rating less than the highest rating by a major
      rating agencies provide their opinion of           NRSRO
      the creditworthiness of companies and
                                                      •	 have all or substantially all of the underlying loans originate in the United States
      the financial obligations issued by com-
                                                      •	 have any one of the following types of underlying loans: automobile, student,
      panies. The ratings distinguish between
                                                         credit card, equipment, dealer floor plan, insurance premium finance, small busi-
      investment grade and non–investment
      grade equity and debt obligations.
                                                         ness with principal and interest fully guaranteed by SBA, or receivables related to
                                                         residential mortgage servicing advances (“servicing advance receivables”)
                                                                                quarterly report to congress I July 28, 2011           117




•	 not have collateral backed by loans originated or securitized by the TALF bor-            For a discussion of the credit rating
                                                                                             agency industry and an analysis of the
   rower or one of its affiliates
                                                                                             impact of NRSROs on TARP and the
                                                                                             overall financial market, see SIGTARP’s
  To qualify as TALF collateral, newly issued CMBS and legacy CMBS had to meet               October 2009 Quarterly Report, pages
numerous requirements, some of which were the same for both CMBS types:510                   113–148.


•	 evidence an interest in a trust fund that consists of fully funded mortgage loans
   and not other CMBS, other securities or interest rate swap or cap instruments
   or other hedging instruments
•	 possess a credit rating of the highest long-term investment grade from at least
   two rating agencies identified by FRBNY as eligible to rate CMBS collateral for
   TALF loans, and not possess a credit rating below the highest investment grade
   from any of those rating agencies
•	 offer principal and interest payments
•	 have been issued by any institution other than a Government-sponsored enter-
   prise (“GSE”) or an agency or instrumentality of the U.S. Government
•	 include a mortgage or similar instrument on a fee or lease-hold interest in one
   or more income-generating commercial properties

    Some differences existed between requirements for eligible newly issued CMBS
and eligible legacy CMBS. Newly issued CMBS had to meet the following addi-
tional requirements:511

•	 be issued on or after January 1, 2009
•	 evidence first-priority mortgage loans that were current in payment at the time
   of securitization
•	 not be junior to other securities with claims on the same pool of loans
•	 have 95% or more of the dollar amount of the underlying credit exposures origi-
   nated by a U.S.-organized entity or a U.S. branch or agency of a foreign bank
•	 have each property located in the United States or its territories

   Legacy CMBS had to meet the following additional requirements:512

•	 be issued before January 1, 2009
•	 not have been junior to other securities with claims on the same pool of loans at
   the time the CMBS was issued
•	 have 95% or more of the underlying properties, in terms of the related loan
   principal balance, located in the United States or its territories

   The final maturity date of loans in the TALF portfolio is March 30,
2015.513 TALF loans are non-recourse (unless the borrower has made any
118            special inspector general I troubled asset relief program




                                                      misrepresentations or breaches warranties or covenants), which means that
                                                      FRBNY cannot hold the borrower liable for any losses beyond the surrender of any
                                                      assets pledged as collateral.514

                                                      Loan Terms
                                                      TALF participants were required to use a TALF agent to apply for a TALF loan.515
                                                      After the collateral (the particular asset-backed security financed by the TALF loan)
                                                      was deemed eligible by FRBNY, the collateral was assigned a haircut. A haircut,
      TALF Agent: Financial institution that
                                                      which represents the amount of money put up by the borrower (the borrower’s
      is party to the TALF Master Loan and
                                                      “skin in the game”), was required for each TALF loan.516 Haircuts for non-mort-
      Security Agreement and that occasion-
                                                      gage-backed ABS varied based on the riskiness and maturity of the collateral, and
      ally acts as an agent for the borrower.
                                                      generally ranged between 5% and 16% for non-mortgage-backed ABS with average
      TALF agents include primary and non-
      primary broker-dealers.                         lives of five years or less.517 The haircut for legacy and newly issued CMBS was
                                                      generally 15% but increased above that amount if the average life of the CMBS was
      Haircut: Difference between the value           greater than five years.518
      of the collateral and the value of the              FRBNY lent each borrower the amount of the market price of the pledged col-
      loan (the loan value is less than the           lateral minus the haircut, subject to certain limitations.519 The borrower delivered
      collateral value).                              the collateral to the custodian bank, which collects payments generated by the
                                                      collateral and distributes them to FRBNY (representing the borrower’s payment of
      Skin in the Game: Equity stake in an            interest on the TALF loan).520 Any excess payments from the collateral above the
      investment; down payment; the amount            interest due and payable to FRBNY on the loan go to the TALF borrower.521
      an investor can lose.
                                                          Because the loans are non-recourse, the risk for any borrower is limited to the
                                                      haircut and any additional principal that may be paid down on the TALF loan. If
      Custodian Bank: Bank holding the
                                                      the securities pledged as collateral are worth less than the loan balance when the
      collateral and managing accounts for
                                                      loan is due, the borrower would likely surrender the collateral rather than pay the
      FRBNY; for TALF the custodian is Bank
      of New York Mellon.                             loan balance. The Government would then be at risk for potential losses equal to
                                                      the difference between the loan balance and the value of the collateral.522

                                                      TALF Loan Subscriptions
                                                      The final TALF loans collateralized by non-mortgage-backed ABS were settled on
                                                      March 11, 2010.523 TALF provided $59 billion of loans to purchase non-mortgage-
                                                      backed ABS during the lending phase of the program. Of all such loans settled,
                                                      $9.9 billion was outstanding as of June 30, 2011.524 Table 2.29 lists all settled
                                                      TALF loans collateralized by non-mortgage-backed ABS, by ABS sector.
                                                                                                                               quarterly report to congress I July 28, 2011   119




Table 2.29

TALF Loans Settled by ABS Sector
(Non-mortgage-backed Collateral)                                    ($ Billions)
                                         1st              2nd              3rd               4th              1st
                                     Quarter           Quarter          Quarter          Quarter          Quarter
ABS Sector                             2009              2009             2009             2009             2010               Total
Auto Loans                                $1.9              $6.1             $4.5             $0.2             $0.1        $12.8
Credit Card Receivables                     2.8             12.4               8.4              1.8             0.9            26.3
Equipment Loans                              —               1.0               0.1              0.3             0.2             1.6
Floor Plan Loans                             —                 —               1.0              1.5             1.4             3.9
Premium Finance                              —               0.5               0.5               —              1.0             2.0
Servicing Advance
                                             —               0.4               0.1              0.6             0.1             1.3
Receivables
Small-Business Loans                         —               0.1               0.4              0.9             0.7             2.2
Student Loans                                —               2.5               3.6              1.0             1.8             8.9
Total                                     $4.7           $23.0             $18.7              $6.4            $6.1        $59.0

Notes: Numbers may not total due to rounding. Data as of 6/30/2011. The first subscription in the program was in March 2009;
therefore, the first quarter of 2009 represents one subscription while the remaining quarters represent three subscriptions.

Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.
html, accessed 7/14/2011; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/
TALF_recent_operations.html, accessed 7/14/2011.


    The final subscription for TALF CMBS loans was settled on June 28, 2010.
TALF provided $12.1 billion of loans to purchase CMBS during the lending phase
of the program; approximately 99% of the loan amount was used to purchase legacy
securities.525 Of all such loans settled, $2.8 billion was outstanding as of June 30,
2011.526 Table 2.30 includes all TALF CMBS loans that have been settled.

Table 2.30

TALF LOANS SETTLED (CMBS COLLATERAL)                                    ($ Billions)
                                         2nd              3rd               4th               1st             2nd
Type of Collateral                    Quarter          Quarter          Quarter           Quarter          Quarter
Assets                                  2009             2009             2009              2010             2010              Total
Newly Issued CMBS                           $—               $—              $0.1               $—               $—            $0.1
Legacy CMBS                                   —               4.1             4.5               3.3                —           12.0
Total                                       $—             $4.1             $4.6              $3.3               $—        $12.1

Notes: Numbers may not total due to rounding. Data as of 6/30/2011. The second quarter of 2009 was only for legacy CMBS, while
the second quarter of 2010 was only for newly issued CMBS.

Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html,
accessed 7/14/2011; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/CMBS_re-
cent_operations.html, accessed 7/14/2011.




  The Federal Reserve posted on its website detailed information on the 177
TALF borrowers, including:527

•	 the names of all the borrowers from TALF (some of which share a parent
   company)
•	 each borrower’s city, state, and country
120            special inspector general I troubled asset relief program




                                                      •	 the name of any material investor in the borrower (defined as a 10% or greater
                                                         beneficial ownership interest in any class of security of a borrower)
                                                      •	 the amount of the loan
                                                      •	 outstanding loan amount as of September 30, 2010
                                                      •	 the loan date
                                                      •	 the loan maturity date
                                                      •	 the date of full repayment (if applicable)
                                                      •	 the date of loan assignment (if applicable)
                                                      •	 the loan rate (fixed or floating)
                                                      •	 the market value of the collateral associated with the loan at the time the loan
                                                         was extended
                                                      •	 the name of the issuer of the ABS collateral associated with the loan
                                                      •	 the collateral asset class and subclass

      For the complete list of TALF borrowers,            As of June 30, 2011, $58.4 billion in TALF loans had been repaid. According
      refer to the FRBNY website: www.feder-          to FRBNY, the outstanding collateral on the remaining $12.7 billion in TALF loans
      alreserve.gov/newsevents/reform_talf.htm.       was performing as expected.528

                                                      Asset Disposition Facility
                                                      When FRBNY created TALF LLC, the facility that is used to purchase collateral
                                                      received by FRBNY if TALF borrowers walk away from their loans, TARP loaned
                                                      the facility $100 million. Of this initial funding, $15.8 million was allocated to
                                                      cover administrative costs.529 TARP will continue to fund TALF LLC, as needed,
                                                      until TARP’s entire $4.3 billion obligation has been funded, all TALF loans are
                                                      retired, or the loan commitment term expires. Any additional funds, if needed, will
                                                      be provided by a loan from FRBNY that will be collateralized by the assets of TALF
                                                      LLC and will be senior to the TARP loan.530 Payments by TALF LLC from the
                                                      proceeds of its holdings will be made in the following order:531

                                                      •	   operating expenses of TALF LLC
                                                      •	   principal due to FRBNY and funding of FRBNY’s senior loan commitment
                                                      •	   principal due to Treasury
                                                      •	   interest due to FRBNY
                                                      •	   interest due to Treasury
                                                      •	   other secured obligations

                                                           Any remaining money will be shared by Treasury (90%) and FRBNY (10%).532
                                                                                quarterly report to congress I July 28, 2011            121




Current Status
As of June 30, 2011, no collateral had been surrendered or purchased by TALF
LLC.533 As of the same date, TALF LLC had assets of $757 million.534 That amount
included the $100 million in initial TARP funding.535 The remainder consisted of
interest and other income and fees earned from permitted investments. From its
February 4, 2009, formation through June 30, 2011, TALF LLC had spent approxi-
mately $1.6 million on administration.536
    When TALF closed for new loans in June 2010, FRBNY’s responsibilities under
the program shifted primarily to portfolio management, which includes the follow-
ing duties:537

                                                                                             Excess Spread: Funds left over after
•	 maintaining documentation
                                                                                             required payments and other contractu-
•	 overseeing the custodian that is responsible for holding ABS collateral
                                                                                             al obligations have been met. In TALF it
•	 calculating and collecting principal and interest on TALF loans
                                                                                             is the difference between the periodic
•	 disbursing excess spread to TALF borrowers in accordance with the governing               amount of interest paid out by the
   documents                                                                                 collateral and the amount of interest
•	 monitoring the TALF portfolio                                                             charged by FRBNY on the nonrecourse
•	 collecting and managing collateral assets if a borrower defaults or surrenders the        loan provided to the borrower to pur-
   collateral in lieu of repayment                                                           chase the collateral.
•	 paying TALF LLC interest that borrowers pay FRBNY on TALF loans, in excess
   of FRBNY’s cost of funding
122             special inspector general I troubled asset relief program




                                                       Public-Private Investment Program
                                                       According to Treasury, the purpose of the Public-Private Investment Program
      Legacy Securities: Real estate-related           (“PPIP”) is to purchase legacy securities from financial institutions through Public-
      securities originally issued before              Private Investment Funds (“PPIFs”). PPIFs are partnerships, formed specifically
      2009 that remained on the balance                for this program, that invest in mortgage-backed securities using equity capital
      sheets of financial institutions because         from private-sector investors combined with TARP equity and debt. A private-sector
      of pricing difficulties that resulted from       fund management firm oversees each PPIF on behalf of these investors. According
      market disruption.                               to Treasury, the aim of PPIP was to “restart the market for legacy securities, al-
                                                       lowing banks and other financial institutions to free up capital and stimulate the
      Equity: Investment that represents an            extension of new credit.”538
      ownership interest in a business.                    Treasury selected nine fund management firms to establish PPIFs. One PPIF
                                                       manager, The TCW Group, Inc. (“TCW”), subsequently withdrew. Private investors
      Debt: Investment in a business that is           and Treasury co-invested in the PPIFs to purchase legacy securities from financial
      required to be paid back to the inves-           institutions. The fund managers raised private-sector capital. Treasury matched the
      tor, usually with interest.                      private-sector equity dollar for dollar and provided debt financing in the amount
                                                       of the total combined equity. Each PPIF manager was also required to invest at
                                                       least $20 million of its own money in the PPIF.539 Each PPIF is approximately 75%
      For more information on the selection of         TARP funded. PPIP was designed as an eight-year program but, under certain
      PPIF managers, see SIGTARP’s October             circumstances, Treasury can terminate it early or extend it for up to two additional
      7, 2010, audit report entitled “Selecting        years.540
      Fund Managers for the Legacy Securities              The intent of the program is for the PPIFs to purchase securities from banks,
      Public-Private Investment Program.”
                                                       insurance companies, mutual funds, pension funds, and other eligible financial
                                                       institutions, as defined in EESA.541 Treasury, the PPIF managers, and the private
      For more information on the with-
                                                       investors share PPIF profits on a pro rata basis based on their limited partnership
      drawal of TCW as a PPIF manager, see
      SIGTARP’s January 2010 Quarterly                 interests. PPIF losses are also shared on a pro rata basis, up to each participant’s
      Report, page 88.                                 investment amount.542 In addition to its pro rata share, Treasury received warrants
                                                       in each PPIF, as mandated by EESA.543
                                                           The securities eligible for purchase by PPIFs (“eligible assets”) are supported by
                                                       real estate-related loans, including non-agency residential mortgage-backed securi-
                                                       ties (“non-agency RMBS”) and commercial mortgage-backed securities (“CMBS”)
                                                       that meet the following criteria:544




       Pro Rata: Refers to dividing something          Limited Partnership: Partnership in which       Non-Agency Residential Mortgage-Backed
       among a group of participants accord-           there is at least one partner whose liability   Securities (“non-agency RMBS”): Financial
       ing to the proportionate share that each        is limited to the amount invested (limited      instrument backed by a group of resi-
       participant holds as a part of the whole.       partner) and at least one partner whose         dential real estate mortgages (i.e., home
                                                       liability extends beyond monetary invest-       mortgages for residences with up to four
                                                       ment (general partner).                         dwelling units) not guaranteed or owned
                                                                                                       by a Government-sponsored enterprise
                                                                                                       (“GSE”) (Fannie Mae or Freddie Mac), or a
                                                                                                       Government Agency.
                                                                                   quarterly report to congress I July 28, 2011   123




•	 issued before January 1, 2009 (legacy)
•	 rated when issued AAA or equivalent by two or more credit rating agencies des-
   ignated as nationally recognized statistical rating organizations (“NRSROs”)
•	 secured directly by actual mortgages, leases, or other assets, not other securities
   (other than certain swap positions, as determined by Treasury)
•	 located primarily in the United States (the loans and other assets that secure the
   non-agency RMBS and CMBS)
•	 purchased from financial institutions that are eligible for TARP participation

Legacy Securities Program Process
The following steps describe the process by which funds participate in the Legacy
Securities Program:545

1.	 Fund managers applied to Treasury to participate in the program.
2.	 Pre-qualified fund managers raised the necessary private capital for the PPIFs.
3.	 Treasury matched the capital raised, dollar for dollar, up to a preset maximum.
    Treasury also received warrants so that it could benefit further if the PPIFs turn
    a profit.
4.	 Fund managers may borrow additional funds from Treasury up to 100% of the
    total equity investment (including the amount invested by Treasury).
5.	 Each fund manager purchases and manages the legacy securities and provides
    monthly reports to its investors, including Treasury.

    Obligated funds are not given immediately to PPIF managers. Instead, PPIF
managers send a notice to Treasury and the private investors requesting portions of
obligated contributions in order to purchase specific investments or to pay certain
expenses and debts of the partnerships.546 When the funds are delivered, the PPIF
is said to have “drawn down” on the obligation.547

PPIF Purchasing Power
During the capital-raising period, the eight PPIP fund managers raised $7.4 billion
of private-sector equity capital, which Treasury matched with a dollar-for-dollar
obligation for a total of $14.7 billion in equity capital. Treasury also obligated $14.7
billion of debt financing, resulting in $29.4 billion of PPIF purchasing power. As of
June 30, 2011, the current PPIFs have drawn down a total of approximately $22.2
billion, of which $0.8 billion was repaid by three PPIP managers. The $22.2 billion
($5.6 billion from private-sector equity capital and $16.6 billion from TARP fund-
ing ($5.6 billion in equity and $11.1 billion in debt)) was used to purchase PPIP-
eligible assets.548 The assets purchased have been valued according to a process
administered by Bank of New York Mellon, operating as valuation agent, at $21.3
124           special inspector general I troubled asset relief program




                                                     billion as of June 30, 2011.549 Treasury has disbursed a total of $17 billion for PPIP,
                                                     $16.6 billion for the eight active PPIFs, and $356.3 million for TCW.550
                                                          The fund-raising stage for PPIFs is now complete. PPIF managers had six months
                                                     from the closing date of their first private-sector fund raising to raise additional pri-
                                                     vate-sector equity.551 Although Treasury initially pledged up to $30 billion for PPIP,
                                                     the fund managers did not raise enough private-sector capital for Treasury’s combi-
                                                     nation of matching funds and debt financing to reach that amount. Treasury’s total
                                                     obligation is now limited to $22.4 billion, which includes $22.1 billion for active
                                                     PPIFs, and $356.3 million disbursed to TCW, which TCW repaid.552
                                                          Notwithstanding the expiration of TARP’s purchasing authority on October 3,
                                                     2010, each active PPIF manager has up to three years from closing its first private-
                                                     sector equity contribution (the investment period) to draw upon the TARP funds
                                                     obligated for the PPIF.553 The last of the three-year investment periods expires in
                                                     December 2012. Table 2.31 shows all equity and debt obligated for active PPIFs
                                                     under the program.

                                                     Table 2.31

                                                     PUBLIC-PRIVATE INVESTMENT PROGRAM, AS OF 6/30/2011                                                       ($ Billions)
                                                                                                                                                                                    Total
                                                                                                     Private-Sector                Treasury                Treasury            Purchasing
                                                                                                     Equity Capital                  Equity                    Debt                Power
                                                     AG GECC PPIF Master Fund, L.P.                                 $1.2                  $1.2                    $2.5                   $5.0
                                                     AllianceBernstein Legacy
                                                                                                                      1.2                   1.2                    2.3                        4.6
                                                     Securities Master Fund, L.P.
                                                     BlackRock PPIF, L.P.                                             0.7                   0.7                     1.4                       2.8
                                                     Invesco Legacy Securities Master
                                                                                                                      0.9                  0.9                      1.7                       3.4
                                                     Fund, L.P.
                                                     Marathon Legacy Securities Public-
                                                                                                                      0.5                   0.5                    0.9                        1.9
                                                     Private Investment Partnership, L.P.
                                                     Oaktree PPIP Fund, Inc.                                          1.2                   1.2                    2.3                        4.6
                                                     RLJ Western Asset Public/Private
                                                                                                                      0.6                  0.6                      1.2                       2.5
                                                     Master Fund, L.P.
                                                     Wellington Management Legacy
                                                                                                                      1.1                   1.1                    2.3                        4.6
                                                     Securities PPIF Master Fund, LP
                                                     Current Totals                                                 $7.4                 $7.4                  $14.7                  $29.4a
                                                     Notes: Numbers affected by rounding.
                                                     a
                                                       Treasury initially obligated $0.4 billion to TCW. The $0.4 billion was paid to TCW, and TCW subsequently repaid the funds that were
                                                        invested in its PPIF. As this PPIF has closed, the amount is not included in the total purchasing power.

                                                     Source: PPIF Monthly Performance Reports submitted by each PPIF manager, June 2011, received 7/15/2011.




                                                     Departure of RLJ Western Asset Management Company (“RLJ”)
      Key Person: Individual recognized as
                                                     Key Person
      being important to the ongoing opera-
                                                     Jeffery Katz, portfolio manager in RLJ’s structured products group, resigned from
      tion and investment decisions of an
      investment fund.
                                                     RLJ effective June 9, 2011.554 Mr. Katz is listed as a key person in Western’s PPIF
                                                     Agreement with Treasury. Under the specific terms of the agreement, Treasury can
                                                                                                                             quarterly report to congress I July 28, 2011   125




freeze RLJ’s PPIF if a specified number of key persons cease to be actively involved
in the PPIP or in RLJ’s fixed income business.555

Fund Performance
Each PPIF’s performance — its gross and net returns since inception — as re-
ported by PPIF managers, is listed in Table 2.32. The returns are calculated based
on a methodology requested by Treasury. Each PPIF has three years to buy legacy
securities on behalf of its private and Government investors. The program strives to
maintain “predominantly a long-term buy and hold strategy.”556
    The data in Table 2.32 constitutes a snapshot of the funds’ performance during
the quarter ended June 30, 2011, and may not predict the funds’ performance over
the long term. According to some PPIF managers, it would be premature to draw
any long-term conclusions because, among other reasons, some managers have not
fully executed their investment strategies or fully drawn down Treasury’s capital or
debt obligations.
Table 2.32

PPIF INVESTMENT STATUS, AS OF 6/30/2011
                                                                                       Cumulative         Net Internal Rate
                                                      1-Month          3-Month               Since         of Return Since
                                                       Return           Return           Inception                Inception
Manager                                             (percent)a       (percent)a         (percent)a               (percent)b

AG GECC PPIF Master                    Gross              (4.36)            (5.16)             67.85                       32.76
Fund, L.P.                             Net                (4.39)            (5.23)             65.36                       32.19

AllianceBernstein Legacy     Gross                        (3.63)            (4.42)             37.17                       23.04
Securities Master Fund, L.P. Net                          (3.79)            (4.80)             33.43                       21.36
                                       Gross              (4.60)            (5.84)             43.06                       22.00
BlackRock PPIF, L.P.
                                       Net                (4.77)            (6.21)             39.93                       20.43

Invesco Legacy Securities              Gross              (2.31)            (3.48)             40.48                       25.83
Master Fund, L.P.                      Net                (2.50)            (3.95)             36.27                       24.13
Marathon Legacy Securities             Gross              (3.97)            (6.40)             38.82                       20.28
Public-Private Investment
                                       Net                (4.12)            (6.76)             34.34                       18.61
Partnership, L.P.
                                       Gross                0.02            (0.76)             33.46                       22.44
Oaktree PPIP Fund, Inc.
                                       Net                (0.18)            (1.45)             25.41                       19.06

RLJ Western Asset Public/              Gross              (2.67)            (3.44)             42.48                       24.96
Private Master Fund, L.P.              Net                (2.81)            (3.78)             39.58                       23.47
Wellington Management                  Gross              (4.91)            (7.80)             21.95                         9.83
Legacy Securities PPIF
                                       Net                (5.09)            (8.20)             19.08                         8.33
Master Fund, LP
Notes: The performance indicators are listed as reported by the PPIF managers without further analysis by SIGTARP. The net returns
include the deduction of management fees and partnership expenses attributable to Treasury.
a
  Time-weighted, geometrically linked returns.
b
  Dollar-weighted rate of return.

Source: PPIF Monthly Performance Reports submitted by each PPIF manager, June 2011, received 7/15/2011.
126               special inspector general I troubled asset relief program




      Figure 2.3                                                     According to their agreements with Treasury, PPIF managers may trade in both
      AGGREGATE COMPOSITION OF PPIF                              RMBS and CMBS, except for Oaktree PPIP Fund, Inc., which may purchase
      PURCHASES, AS OF 6/30/2011                                 only CMBS.557 Figure 2.3 shows the collective value of securities purchased by all
      Percentage of $21.3 Billion
                                                                 PPIFs as of June 30, 2011, broken down by RMBS and CMBS.
               CMBS                                                  PPIF investments can be classified by underlying asset type. All non-agency
                       21%                                       RMBS investments are considered residential. The underlying assets are mortgages
                                                                 for residences with up to four dwelling units. For CMBS, the assets are com-
                                        79%          RMBS        mercial real estate mortgages: office, retail, multi-family, hotel, industrial (such
                                                                 as warehouses), mobile home parks, mixed-use (combination of commercial and/
                                                                 or residential uses), and self-storage. Figure 2.4 breaks down CMBS investment
                                                                 distribution by sector. The aggregate CMBS portfolio had large concentrations in
      Notes: Numbers affected by rounding. Calculated based on
                                                                 office (30%) and retail (25%) loans as of June 30, 2011.
      monthly data supplied by the PPIF managers.                    Non-agency RMBS and CMBS can be classified by the degree of estimated
      Source: PPIF Monthly Performance Reports, June 2011.       default risk (sometimes referred to as “quality”). Investors are most concerned
                                                                 about whether borrowers will default and the underlying collateral will be sold at a
                                                                 loss. Estimated risk, or quality, attempts to measure the likelihood of that outcome.
      Figure 2.4
                                                                 There are no universal standards for ranking mortgage quality, and the designations
      AGGREGATE CMBS PURCHASES BY                                vary depending on context. In general, the highest-quality rankings are granted to
      SECTOR, AS OF 6/30/2011                                    mortgages that have the strictest requirements regarding borrower credit, com-
      Percentage of $4.4 Billion
                                                                 pleteness of documentation, and underwriting standards. Treasury characterizes
                             Other
                                                                 these investment-quality levels of risk for the types of mortgage loans that support
                             11%
                                                                 non-agency RMBS as follows:558
      Lodging/
         Hotel         15%                  30%
                                                                 •	 Prime — mortgage loan made to a borrower with good credit that generally
       Industrial 5%
                                                                    meets the lender’s strictest underwriting criteria. Non-agency prime loans gener-
        Multi-family    14%                                         ally exceed the dollar amount eligible for purchase by GSEs (jumbo loans) but
                                      25%

                                         Retail
                                                                    may include lower-balance loans as well.
                                                                 •	 Alt-A — mortgage loan made to a borrower with good credit but with limited
      Notes: Numbers affected by rounding. Calculated based on
      monthly data supplied by the PPIF managers.                   documentation or other characteristics that do not meet the standards for prime
      Source: PPIF Monthly Performance Reports, June 2011.          loans. An Alt-A loan may have a borrower with a lower credit rating, a higher
                                                                    loan-to-value ratio, or limited or no documentation, compared with a prime
                                                                    loan.
                                                                 •	 Subprime — mortgage loan made to a borrower with a poor credit rating.
                                                                 •	 Option Adjustable Rate Mortgage (“Option ARM”) — mortgage loan that
                                                                    gives the borrower a set of choices about how much interest and principal to
                                                                    pay each month. This may result in negative amortization (an increasing loan
                                                                    principal balance over time).
                                                                 •	 Other (RMBS) — RMBS that do not meet the definitions for prime, Alt-A,
                                                                    subprime, or option ARM but meet the definition of “eligible assets” above.
                                                                                                                   quarterly report to congress I July 28, 2011   127




   Treasury characterizes CMBS according to the degree of “credit enhancement”
supporting them:559

•	 Super Senior — most senior originally rated AAA bonds in a CMBS securitiza-
   tion with the highest level of credit enhancement. Credit enhancement refers to
   the percentage of the underlying mortgage pool by balance that must be written
   down before the bond suffers any losses. Super senior bonds often compose
   approximately 70% of a securitization and, therefore, have approximately 30%
   credit enhancement at issuance.
•	 AM (Mezzanine) — mezzanine-level originally rated AAA bond. Creditors
   receive interest and principal payments after super senior creditors but before
   junior creditors.560 AM bonds often compose approximately 10% of a CMBS
   securitization.
•	 AJ (Junior) — the most junior bond in a CMBS securitization that attained a
   AAA rating at issuance.
•	 Other (CMBS) — CMBS that do not meet the definitions for super senior,
   AM, or AJ but meet the definition of “eligible assets” above.

  Figure 2.5 and Figure 2.6 show the distribution of non-agency RMBS and
CMBS investments held in PPIP by respective risk levels, as reported by PPIF
managers.

Figure 2.5                                                  Figure 2.6
AGGREGATE RMBS PURCHASES BY                                 AGGREGATE CMBS PURCHASES BY
QUALITY, AS OF 6/30/2011                                    QUALITY, AS OF 6/30/2011
Percentage of $16.8 Billion                                 Percentage of $4.4 Billion

       Other RMBSa 0%

               Option ARM                                           Other                  Super Senior
                                                                    (CMBS)
    Subprime            8%                                                      17%      11%
                 12%

                                       33% Prime
                                                           AJ (Junior)       32%              40%         AM (Mezzanine)

       Alt-A      47%




Notes: Numbers affected by rounding. Calculated based on    Notes: Numbers affected by rounding. Calculated based on
monthly data supplied by the PPIF managers.                 monthly data supplied by the PPIF managers.
a
 The actual percentage for “Other RMBS” is 0.20%.
                                                            Source: PPIF Monthly Performance Reports, June 2011.
Source: PPIF Monthly Performance Reports, June 2011.
128   special inspector general I troubled asset relief program




                                                 Non-agency RMBS and CMBS can be classified geographically, according to
                                              the states where the underlying mortgages are held. Figure 2.7 and Figure 2.8
                                              show the states with the greatest representation in the underlying non-agency
                                              RMBS and CMBS investments in PPIFs, as reported by PPIF managers.

                                              Figure 2.7                                                     Figure 2.8

                                              AGGREGATE GEOGRAPHICAL                                         AGGREGATE GEOGRAPHICAL
                                              DISTRIBUTION — PERCENT OF                                      DISTRIBUTION — PERCENT OF
                                              TOTAL RMBS, AS OF 6/30/2011                                    TOTAL CMBS, AS OF 6/30/2011
                                                     40%      44%
                                                                                                                  15%
                                                                                                                           15%
                                                      30
                                                                                                                  10                    11%
                                                      20                                                                                             9%
                                                                                                                                                                 8%
                                                                                                                    5
                                                      10

                                                                          9%
                                                                                      6%
                                                        0                                        3%                 0
                                                              CA          FL          NY         VA                         CA          NY           FL          TX

                                              Notes: Only states with the largest representation shown.      Notes: Only states with largest representation shown. Calculated
                                              Calculated based on monthly data supplied by PPIF managers.    based on monthly data supplied by the PPIF managers.

                                              Source: PPIF Monthly Performance Reports, June 2011.           Source: PPIF Monthly Performance Reports, June 2011.




                                                 Non-agency RMBS and CMBS can also be classified by the delinquency of
                                              the underlying mortgages. Figure 2.9 and Figure 2.10 show the distribution of
                                              non-agency RMBS and CMBS investments held in PPIP by delinquency levels, as
                                              reported by PPIF managers.
                                              Figure 2.9                                                    Figure 2.10

                                              AGGREGATE AVERAGE RMBS                                        AGGREGATE AVERAGE CMBS
                                              DELINQUENCIES BY MARKET VALUE,                                DELINQUENCIES BY MARKET VALUE,
                                              AS OF 6/30/2011                                               AS OF 6/30/2011
                                              Percentage of $16.8 Billion                                   Percentage of $4.4 Billion

                                              60+ Days                                                                               60+ Days
                                              (FCL/REO included)a
                                                                                                            1% 30 − 59 Days
                                                                                                                                     10%
                                                                    28%




                                              30 − 59         3%                      69%      Current
                                              Days
                                                                                                                                             89%           Current



                                              Notes: Numbers affected by rounding. Calculated based on      Notes: Numbers affected by rounding. Calculated based on
                                              monthly data supplied by the PPIF managers.                   monthly data supplied by the PPIF managers.

                                              Source: PPIF Monthly Performance Reports, June 2011.          Source: PPIF Monthly Performance Reports, June 2011.
                                              a
                                                  “REO” means Real Estate Owned and “FCL” Foreclosure.
                                                                                  quarterly report to congress I July 28, 2011           129




Unlocking Credit for Small Businesses (“UCSB”)/Small
Business Administration (“SBA”) Loan Support Initiative
On March 16, 2009, Treasury announced the Unlocking Credit for Small
Businesses (“UCSB”) program, designed to encourage banks to increase lend-
ing to small businesses. Treasury stated that, through UCSB, it would purchase                 7(a) Loan Program: SBA loan program
up to $15 billion in securities backed by pools of loans from two Small Business               guaranteeing a percentage of loans for
Administration (“SBA”) programs: the 7(a) Loan Program and the 504 Community                   small businesses that cannot otherwise
Development Loan Program.561 Treasury never purchased any 504 Community                        obtain conventional loans at reasonable
                                                                                               terms.
Development Loan-backed securities through UCSB.562 Treasury later lowered the
amount available to purchase securities under UCSB to $400 million.563
                                                                                               504 Community Development Loan
    Treasury initiated the 7(a) portion of the program and signed contracts with
                                                                                               Program: SBA program combining
two pool assemblers, Coastal Securities, Inc. (“Coastal Securities”), and Shay                 Government-guaranteed loans with
Financial Services, Inc. (“Shay Financial”), on March 2, 2010, and August 27,                  private-sector mortgages to provide
2010, respectively.564 Under the governing agreement, EARNEST Partners, on be-                 loans of up to $10 million for commu-
half of Treasury, purchased SBA pool certificates from Coastal Securities and Shay             nity development.
Financial without confirming to the counterparties that Treasury was the buyer.565
    From March 19, 2010, to September 28, 2010, Treasury purchased 31 floating-                Pool Assemblers: Firms authorized to
rate 7(a) securities from Coastal Securities and Shay Financial for a total of ap-             create and market pools of SBA- guar-
proximately $368.1 million.566                                                                 anteed loans.
    On June 2, 2011, Treasury announced its intention to sell the SBA 7(a) securi-
ties portfolio over time using a competitive sales process through its financial agent,        SBA Pool Certificates: Ownership inter-
                                                                                               est in a bond backed by SBA- guaran-
EARNEST Partners.567
                                                                                               teed loans.
    According to Treasury, there will be no fixed timeframe for the sales; the timing
and pace of the sales will be subject to market conditions.568 As of June 30, 2011,
Treasury had completed sales of a total of 12 SBA 7(a) securities, for total proceeds
of $151.5 million.569 As of June 30, 2011, Treasury had received $20.2 million and
                                                                                               For more information on SBA 7(a) Loan
$9.4 million in amortizing principal and interest payments, respectively.570                   Program mechanics and TARP support
    Table 2.33 shows the CUSIPs, investment amounts for the securities Treasury                for the program, see SIGTARP’s April
bought as well as the sales price and other income to Treasury.                                2010 Quarterly Report, pages 105-106.
130   special inspector general I troubled asset relief program




                                             Table 2.33

                                             FLOATING-RATE SBA 7(A) SECURITIES, AS OF 6/30/2011                                         ($ millions)
                                                                                                                                                      Principal,
                                                                                                                                           Sale   Interest, and
                                                                                                                                      Proceeds Other Proceeds
                                                                                                                  Investment             Where     Received by
                                             Trade Date            CUSIP                Pool Assembler               Amounta         Applicable        Treasury
                                             3/19/2010             83164KYN7            Coastal Securities                 $4.4              $3.5                     $1.0
                                             3/19/2010             83165ADC5            Coastal Securities                   8.3                                       1.6
                                             3/19/2010             83165ADE1            Coastal Securities                   8.7               6.6                     2.3
                                             4/8/2010              83165AD84            Coastal Securities                    26                25                     2.1
                                             4/8/2010              83164KZH9            Coastal Securities                   9.6               7.1                     2.6
                                             5/11/2010             83165AEE0            Coastal Securities                 11.5              10.6                      1.2
                                             5/11/2010             83164K2Q5            Coastal Securities                 14.2              13.9                      0.7
                                             5/11/2010             83165AED2            Coastal Securities                   9.7               9.5                     0.6
                                             5/25/2010             83164K3B7            Coastal Securities                   9.3                  9                    0.5
                                             5/25/2010             83165AEK6            Coastal Securities                 18.8                                        2.3
                                             6/17/2010             83165AEQ3            Coastal Securities                 38.3              36.1                      2.7
                                             6/17/2010             83165AEP5            Coastal Securities                 31.7                                        2.1
                                             7/14/2010             83164K3Y7            Coastal Securities                   6.4               6.1                     0.4
                                             7/14/2010             83164K4J9            Coastal Securities                   7.5                                       0.4
                                             7/14/2010             83165AE42            Coastal Securities                 14.8              14.2                      0.6
                                             7/29/2010             83164K4E0            Coastal Securities                   2.8                                       0.4
                                             7/29/2010             83164K4M2            Coastal Securities                 10.4              10.2                      0.3
                                             8/17/2010             83165AEZ3            Coastal Securities                   9.2                                       0.9
                                             8/17/2010             83165AFB5            Coastal Securities                   5.5                                       0.4
                                             8/17/2010             83165AE91            Coastal Securities                 11.1                                        0.6
                                             8/31/2010             83165AEW0            Shay Financial                     10.3                                        0.9
                                             8/31/2010             83165AFA7            Shay Financial                     11.7                                        0.4
                                             8/31/2010             83164K5H2            Coastal Securities                   7.3                                       0.4
                                             9/14/2010             83165AFC3            Shay Financial                        10                                       1.1
                                             9/14/2010             83165AFK5            Shay Financial                       8.9                                       0.7
                                             9/14/2010             83164K5F6            Coastal Securities                   6.1                                       0.2
                                             9/14/2010             83164K5L3            Coastal Securities                   6.4                                       0.2
                                             9/28/2010             83164K5M1            Coastal Securities                   3.8                                       0.1
                                             9/28/2010             83165AFT6            Coastal Securities                 13.1                                        0.9
                                             9/28/2010             83165AFM1            Shay Financial                     15.3                                        0.6
                                             9/28/2010             83165AFQ2            Shay Financial                     17.1                                        0.4
                                             Total Investment Amount                                                   $368.1            $151.5                    $29.6

                                             Notes: Numbers affected by rounding.
                                             a
                                               Investment amounts may include accrued principal interest.

                                             Sources: Treasury, Transactions Report, 7/1/2011; Treasury, responses to SIGTARP data call, 12/16/2010, 1/14/2011, 4/6/2011,
                                             and 7/13/2011.
                                                                               quarterly report to congress I July 28, 2011   131




AUTOMOTIVE INDUSTRY SUPPORT PROGRAMS
During the financial crisis, Treasury, through TARP, launched three automotive
industry support programs: the Automotive Industry Financing Program (“AIFP”),
the Auto Supplier Support Program (“ASSP”), and the Auto Warranty Commitment
Program (“AWCP”). According to Treasury, these programs were established “to
prevent a significant disruption of the American automotive industry that poses
a systemic risk to financial market stability and will have a negative effect on the
economy of the United States.”571
     AIFP has not expended any TARP funds for the automotive industry since
December 30, 2009, when GMAC Inc. (“GMAC”), now Ally Financial Inc. (“Ally
Financial”), received a $3.8 billion capital infusion.572 ASSP, designed to “ensure
that automotive suppliers receive compensation for their services and products,”
was terminated in April 2010 after all $413.1 million in loans made through it were
fully repaid.573 AWCP, a $640.7 million program, was designed to assure car buyers
that the warranties on any vehicles purchased during the bankruptcies of General
Motors Corp. (“Old GM”) and Chrysler LLC (“Old Chrysler”) would be guaran-
teed by the Government. It was terminated in July 2009 after all loans under the
program were fully repaid upon the companies’ emergence from bankruptcy.574
     Treasury obligated approximately $84.8 billion through these three programs to
Old GM and General Motors Company (“New GM” or “GM”), Ally Financial, the
Chrysler entities (Chrysler Holding LLC [now called CGI Holding LLC], Chrysler
LLC [collectively, “Old Chrysler”], and Chrysler Group LLC [“New Chrysler”]),
and Chrysler Financial Services Americas LLC (“Chrysler Financial”).575 Treasury
originally obligated $5.0 billion under ASSP but adjusted this amount to $413.1
million to reflect actual borrowings, thereby reducing the total obligation for all
automotive industry support programs to approximately $81.8 billion (including
approximately $2.1 billion in loan commitments to New Chrysler that were never
drawn down).576 As of June 30, 2011, Treasury had received approximately $34.7
billion in principal repayments and stock sale proceeds and $4.3 billion in divi-
dends, interest, and fees.577 The amount and types of Treasury’s outstanding AIFP
investments have changed over time as a result of principal repayments, Treasury’s
sale of common stock, old loan conversions (into equity), and post-bankruptcy
restructurings. Treasury now holds 32.0% of the common equity in New GM and
an administrative claim in Old GM’s bankruptcy for $985.8 million based on loans
made to old GM. The administrative claim has an outstanding principal amount of
approximately $874.9 million. Additionally, Treasury holds $5.9 billion in man-
datorily convertible preferred shares (“MCP”) and 73.8% of the common equity
in Ally Financial. On June 2, 2011, Treasury agreed to sell to Fiat Automotive
LLC (“Fiat”) Treasury’s remaining equity ownership interest in New Chrysler and
Treasury’s interest in an agreement with the United Auto Workers retiree trust,
subject to certain closing conditions. Treasury retains the right to recover certain
proceeds from Old Chrysler’s bankruptcy.
132   special inspector general I troubled asset relief program




                                                 Treasury’s investments in these three programs and the companies’ payments
                                             of principal are summarized in Table 2.34 and, for Chrysler and GM, categorized
                                             by the timing of the investment in relation to the companies’ progressions through
                                             bankruptcy.

                                            Table 2.34

                                             TARP Automotive programs expenditures and payments,
                                             AS OF 6/30/2011 ($ BILLIONS)
                                                                                                                                                           Ally
                                                                                                                                                      Financial
                                                                                                                                                           Inc.
                                                                                                                                   Chrysler           (formerly
                                                                                                Chrysler               GMa         Financial             GMAC)               Total
                                             Pre-Bankruptcy
                                                 AIFP                                                $4.0            $19.4                $1.5             $17.2           $42.1
                                                 ASSP   b
                                                                                                       0.1              0.3                                                    0.4
                                                 AWCP                                                  0.3              0.4                                                    0.6
                                                 Subtotal                                           $4.4            $20.1                $1.5              $17.2           $43.1
                                             In-Bankruptcy (DIP Financing)
                                                 AIFP                                                $1.9            $30.1                                                 $32.0
                                                 Subtotal                                           $1.9            $30.1                                                  $32.0
                                             Post-Bankruptcy (Working Capital)
                                                 AIFP                                               $4.6c                                                                    $4.6
                                                 Subtotal                                           $4.6                                                                     $4.6
                                             Subtotals by Program:
                                                 AIFP                                                                                                                      $78.6
                                                 ASSP                                                                                                                          0.4
                                                 AWCP                                                                                                                          0.6
                                             Total Expenditures                                   $10.9             $50.2                $1.5              $17.2           $79.7
                                             Principal Repaid to Treasury                          ($7.4)          ($23.1)              ($1.5)             ($2.7)c        ($34.7)
                                             Net Expenditures                                       $3.5            $27.0                  $0              $14.5           $45.0

                                             Notes: Numbers may not total due to rounding.
                                             a
                                               Including GM’s debt payments of $50.0 million on March 31, 2011, $45.0 million on April 5, 2011, and approximately $15.9 million on
                                               May 3, 2011.
                                             b
                                               The final commitment and repayment amounts reflect the total funds expended under the ASSP loans. Treasury initially obligated $5.0
                                               billion under ASSP. Treasury adjusted its obligation to $0.4 billion.
                                             c
                                               On March 2, 2011, Treasury entered into an underwriting offering of its Ally Financial TRUPS, which resulted in approximately $2.7
                                               billion in total proceeds to Treasury.

                                             Source: Treasury, Transactions Report, 7/1/2011.




                                             Automotive Industry Financing Program
                                             Treasury provided $80.7 billion through AIFP to support automakers and their fi-
                                             nancing arms in order to “avoid a disorderly bankruptcy of one or more auto[motive]
                                             companies.”578 As of June 30, 2011, Treasury had received approximately $3.7
                                             billion in dividends, interest, and fees from participating companies.579 Of
                                                                               quarterly report to congress I July 28, 2011             133




AIFP-related loan principal repayments and share sale proceeds, Treasury has re-
ceived approximately $22.4 billion related to its GM investment, $7 billion related
to its Chrysler investment, $2.7 billion related to its Ally Financial/GMAC invest-
ment, and $1.5 billion related to its Chrysler Financial investment.580 As discussed
below, additional payments of $640.7 million and $413.1 million, respectively, were
received under AWCP and ASSP.581

GM
Through June 30, 2011, Treasury had provided approximately $49.5 billion to GM
through AIFP. Of that amount, $19.4 billion was provided before bankruptcy and
$30.1 billion was provided as debtor-in-possession (“DIP”) financing during bank-           Debtor-in-Possession (“DIP”): Company
ruptcy. During bankruptcy proceedings, most of Treasury’s pre-bankruptcy and                operating under Chapter 11 bank-
                                                                                            ruptcy protection that technically still
DIP financing loans to Old GM were converted into common or preferred stock in
                                                                                            owns its assets but is operating them
New GM (the company that purchased substantially all of the assets of Old GM
                                                                                            to maximize the benefit to its creditors.
pursuant to Section 363 of the Bankruptcy Code) or debt assumed by New GM. As
a result, after Old GM’s bankruptcy, Treasury’s investment in Old GM was con-
verted to a 60.8% common equity stake in New GM, $2.1 billion in preferred stock
in New GM, and a $7.1 billion loan to New GM ($6.7 billion through AIFP and
$360.6 million through AWCP). As part of a credit agreement with Treasury, $16.4
billion of the DIP money was set in an escrow account that GM could access only
with Treasury’s permission. Separately, approximately $985.8 million in loans was
left as an obligation of Old GM to facilitate the orderly wind-down and liquidation
of Old GM.582 On March 31, 2011, Old GM’s Plan of Liquidation became effective
and Treasury’s $985.8 million loan to Old GM was converted to an administrative
claim. According to Treasury, under the Plan of Liquidation, Treasury retained the
right to receive additional proceeds; however, any additional recovery is dependent
on actual liquidation proceeds and pending litigation.583

Debt Repayments
New GM repaid the $6.7 billion loan provided through AIFP with interest, using a
portion of the previously mentioned $16.4 billion held in an escrow account that
had been funded originally with TARP funds provided to GM during its bankruptcy.
What remained in escrow was released to New GM without restrictions with the
final debt payment in April 2010.584 A separate $985.8 million loan was left behind
with Old GM for wind-down costs associated with its liquidation.585 As previously
discussed, Treasury was granted an allowed administrative claim for its $985.8 mil-
lion loan to Old GM in the bankruptcy. As of June 30, 2011, Treasury had received
approximately $110.9 million in repayments related to this claim. As of June 30,
2011, the GM entities had made approximately $756.7 million in dividend and
interest payments to Treasury under AIFP.586
134           special inspector general I troubled asset relief program




                                                     GM IPO Results and GM’s Repurchase of Series A Preferred Shares
                                                     from Treasury
                                                     In November and December 2010, New GM successfully completed an initial
                                                     public offering (“IPO”) in which New GM’s shareholders sold 549.7 million shares
                                                     of their common stock for $33.00 per share, or $18.1 billion in gross proceeds.587
                                                     New GM also sold 100 million shares of Series B mandatorily convertible pre-
                                                     ferred shares (“MCP”) priced at $50.00 per share, bringing the offering’s total
                                                     gross proceeds to $23.1 billion.588 As part of the IPO, Treasury sold a total of 412.3
                                                     million common shares for $13.5 billion in net proceeds (after taking into account
                                                     underwriting fees associated with the IPO), reducing its number of common shares
                                                     to 500.1 million and its ownership in New GM from 60.8% to 33.3%.589 In addition
                                                     to Treasury selling a portion of its common shares in the IPO, on December 15,
                                                     2010, GM repurchased Treasury’s Series A preferred stock (83.9 million shares)
                                                     for total proceeds of $2.1 billion.590 The share sale price included a 2% premium to
                                                     the liquidation price of $25.00 and resulted in a capital gain to Treasury of approxi-
                                                     mately $41.9 million.591
                                                          In order to recoup its total investment in GM, Treasury will need to recover an
                                                     additional $27 billion in proceeds. This translates to an average of $53.98 per share
                                                     on its remaining common shares in New GM, not taking into account dividend
                                                     and interest payments received from the GM entities.592 The break-even price —
                                                     $53.98 per share — is calculated by dividing the $27 billion that Treasury extended
                                                     to GM (but that was still outstanding after the IPO, repurchase of the Series A
                                                     preferred shares [including a $41.9 million gain], and repayments related to the
                                                     Old GM bankruptcy claim) by the 500.1 million remaining shares. If the $756.7
                                                     million in dividend and interest received by Treasury is included in this computa-
                                                     tion, then Treasury will need to recover $26.2 billion in proceeds, which translates
                                                     into a break-even price of $52.39 per share, not taking into account other fees or
                                                     costs associated with selling the shares. On May 23, 2011, pursuant to the terms of
                                                     the lock-up agreement described in the prospectus, Treasury and the other selling
      For more on the results of GM’s
      November 2010 IPO, see SIGTARP’s               shareholders were no longer restricted from selling additional common shares. As
      January 2011 Quarterly Report,                 of the drafting of this report, Treasury had not made a public statement articulating
      page 163.                                      its specific plans for the future disposition of its remaining common stock holdings
                                                     in New GM.

                                                     Chrysler
                                                     Through October 3, 2010, Treasury had made approximately $12.5 billion avail-
                                                     able to Chrysler directly through AIFP in three stages to three corporate entities:
                                                     $4.0 billion before bankruptcy to CGI Holding LLC — the parent company of
                                                     Old Chrysler (the bankrupt entity) — and Chrysler Financial; $1.9 billion in DIP
                                                     financing to Old Chrysler during bankruptcy; and $6.6 billion to New Chrysler,
                                                     the company formed post-bankruptcy that purchased most of Old Chrysler’s assets
                                                                                  quarterly report to congress I July 28, 2011                      135




through a working capital facility.593 In consideration for its assistance to Chrysler,
Treasury received 9.9% of the common equity in New Chrysler.
    On April 30, 2010, following the bankruptcy court’s approval of the plan of
liquidation for Old Chrysler, the $1.9 billion DIP loan was extinguished without
repayment. In return, Treasury retained the right to recover proceeds from the sale
of assets that were collateral for the DIP loan from a liquidation trust that received
all of Old Chrysler’s remaining assets.594 According to Treasury, it is unlikely to
fully recover its initial investment of approximately $1.9 billion related to the DIP
loan.595 As of June 30, 2011, Treasury had recovered approximately $48.1 mil-
lion from asset sales.596 Of the $4 billion lent to Old Chrysler’s parent company,
CGI Holding LLC, before bankruptcy, $500 million of the debt was assumed by
New Chrysler while the remaining $3.5 billion was held by CGI Holding LLC.597
Under the terms of this loan agreement, as amended on July 23, 2009, Treasury
was entitled to the greater of approximately $1.4 billion or 40% of any proceeds
that Chrysler Financial paid to its parent company, CGI Holding LLC, after certain
other distributions were made.598 On May 14, 2010, Treasury accepted $1.9 billion
in full satisfaction of its $3.5 billion loan to CGI Holding LLC.599
    On May 24, 2011, New Chrysler used the proceeds from a series of refinanc-
                                                                                              Figure 2.11
ing transactions and an equity call option exercised by Fiat to repay the loans from
                                                                                              OWNERSHIP IN NEW CHRYSLER
Treasury and the Canadian government.600 The repaid loans were made up of
$6.6 billion in post-bankruptcy financing (of which $2.1 billion was never drawn               Government of Canada 1.7%
down), and the $500.0 million in debt assumed by New Chrysler from the original                United States
$4 billion loan to CGI Holding LLC.601 The refinancing transactions included the               Department of the
                                                                                               Treasury 6.6%
issuance of debt securities, a term loan, and an undrawn revolving credit facility.
Concurrent with the repayment of the loans, Treasury terminated New Chrysler’s
ability to draw the remaining $2.1 billion TARP loan obligation.602                                                                         UAW
                                                                                                                                45.7%       VEBA
    Fiat has been increasing its ownership of New Chrysler’s common equity since                     Fiat       46%
                                                                                                                                            Trust
January 2011 after meeting specific performance goals.603 Simultaneous with the
full repayment of New Chrysler’s debt obligations described above on May 24,
2011, Fiat exercised an equity call option for $1.3 billion, which increased its stake
in New Chrysler to from 30% to 46%. As a result, Treasury’s equity stake in New
Chrysler was diluted and further decreased to 6.6%.604                                         Notes: Numbers may not total due to rounding. Ownership
                                                                                               percentages are shown prior to Fiat meeting additional
    On June 2, 2011, Treasury agreed to sell to Fiat Treasury’s remaining equity               performance metrics, which would allow it to increase its
                                                                                               ownership in New Chrysler.
ownership interest in New Chrysler and Treasury’s interest in an agreement with
the United Auto Workers (“UAW”) VEBA retiree trust, subject to certain closing                 Source: Chrysler Press Release, "Chrysler Group LLC
                                                                                               Completes Refinancing and Repays U.S. and Canadian
conditions.605                                                                                 Government Loans in Full," 5/24/2011, media.chrysler.com/
                                                                                               newsrelease.do;jsessionid=9EA3763020DEE492C441
    As of June 30, 2011, the Chrysler entities had made approximately $1.2 bil-                D11426FDC5D4?&id=10922&mid=1, accessed 7/23/2011.
lion in interest payments to Treasury under AIFP.606 As discussed above, Treasury
retains the right to recover certain proceeds from Old Chrysler’s bankruptcy.
    Figure 2.11 represents the allocation of ownership in New Chrysler’s common
equity as of June 30, 2011.
136   special inspector general I troubled asset relief program




                                             Automotive Financing Companies
                                             Ally Financial/GMAC
                                             On December 29, 2008, Treasury purchased $5 billion in senior preferred equity
                                             from GMAC and received an additional $250 million in preferred shares through
                                             warrants that Treasury exercised immediately at a cost of $2,500.607 On the same
                                             day, Treasury agreed to lend up to $1 billion to Old GM in order to increase Old
                                             GM’s ownership interest in GMAC. In January 2009, Old GM borrowed $884
                                             million, which it invested in GMAC.608 In May 2009, Treasury exchanged that
                                             $884 million note for a 35.4% common equity ownership in GMAC, thereby giving
                                             Treasury the right to appoint two directors to GMAC’s board.609
                                                 On May 21, 2009, Treasury made an additional investment in GMAC when it
                                             purchased $7.5 billion of MCP and received warrants that Treasury immediately
                                             exercised for an additional $375 million in MCP at an additional cost of approxi-
                                             mately $75,000.610 On December 30, 2009, Treasury invested another $3.8 billion
                                             in GMAC, consisting of $2.5 billion in trust preferred securities (“TRUPS”) and
                                             $1.3 billion in MCP. Treasury also received warrants, which were immediately
                                             exercised, to purchase an additional $127 million in TRUPS and $62.5 million in
                                             MCP at an additional cost of approximately $1,270 and $12,500, respectively.611
                                             Additionally, Treasury converted $3 billion of its MCP into GMAC common stock,
                                             increasing its common equity ownership from 35.4% to 56.3%. This gave Treasury
                                             the right to appoint two additional directors to GMAC’s board, potentially bring-
                                             ing the total number of Treasury-appointed directors to four.612 On May 10, 2010,
                                             GMAC changed its name to Ally Financial Inc.613
                                                 On December 30, 2010, Treasury announced the conversion of $5.5 billion of
                                             its MCP in Ally Financial to common equity. This conversion increased Treasury’s
                                             ownership stake in Ally Financial’s common equity from 56.3% to 73.8%. Treasury
                                             converted the MCP at 1.0 times the book value of Ally Financial’s tangible com-
                                             mon equity balance as of September 30, 2010, subject to certain adjustments.614
                                             According to Treasury, the conversion aimed to stabilize Ally Financial through
                                             the addition of common equity to its capital structure, thereby allowing it easier
                                             access to both equity and debt financing in private capital markets. The move was
                                             also intended to facilitate any future efforts on the part of Treasury to reduce its
                                             investment in Ally Financial through the sale of its common equity holdings in
                                             the company.615 As a result, Treasury will no longer receive the quarterly dividend
                                             payments that Ally Financial was required to pay on the $5.5 billion of MCP. On
                                             March 1, 2011, Treasury announced its intention to sell its $2.7 billion in TRUPS
                                             in Ally Financial in a public offering.616 The public offering closed on March 7,
                                             2011, resulting in approximately $2.7 billion in total proceeds to Treasury.617
                                                 As a result of its conversion of MCP to common stock in Ally Financial, and
                                             for so long as Treasury maintains common equity ownership at or above 70.8%,
                                             Treasury has the right to appoint two additional directors, for a total of six, to Ally
                                                                                 quarterly report to congress I July 28, 2011                           137




                                                                                             Figure 2.12

                                                                                             OWNERSHIP IN ALLY FINANCIAL/GMAC
Financial’s board, increasing the size of the board to 11 members.618 On February
                                                                                                           New GM 4%
28, 2011, Treasury appointed its fourth director to Ally Financial’s board.619 As of
                                                                                              GM Trust
June 30, 2011, Treasury had not exercised its right to fill its remaining two director       Third-Party
                                                                                                                     6%
positions.620 The conversion of $5.5 billion of Treasury’s MCP diluted the shares of          Investors
                                                                                                                7%
other existing shareholders in Ally Financial. Following the conversion, the private
                                                                                             Cerberus       9%                                  United States
equity firm Cerberus Capital Management, L.P. (“Cerberus”) held 8.7%, third-party                                                      74%      Department
                                                                                                                                                of the
investors collectively held 7.6%, an independently managed trust owned by New                                                                   Treasury
GM held 5.9%, and New GM directly held a 4% stake in Ally Financial’s common
equity.621 Figure 2.12 shows the breakdown of common equity ownership in Ally
Financial as of June 30, 2011.
                                                                                             Note: Numbers may not total due to rounding.

Ally Financial Files Amended S-1 Registration Statement in Preparation for IPO               Source: SEC, “Ally Financial Inc.: Form S-1,” 3/31/2011.

On March 31, 2011, Ally Financial filed a Form S-1 Registration statement for
an IPO with the Securities and Exchange Commission (“SEC”).622 The document
includes a prospectus relating to the issuance of Ally Financial common stock.623
The prospectus also outlines certain aspects of Ally Financial’s business operations
and risks facing the company.624
     Ally Financial stated that the IPO would consist of “common stock to be sold by
the U.S. Department of the Treasury.”625 On May 17, 2011, Ally Financial disclosed
additional details about its upcoming IPO in an amended Form S-1 Registration
statement filed with the SEC.626 Concurrent with the IPO, Treasury plans to con-
vert $2.9 billion of its existing $5.9 billion of MCP into common stock.627 Treasury
will exchange the remaining $3 billion of its MCP into so-called tangible equity
units, a type of preferred stock, and will offer a portion of these tangible equity
units alongside the common equity offering.628 Treasury agreed to be named as a
seller but retained the right to decide whether to sell any of its 73.8% ownership of
Ally Financial’s common stock and in what amounts.629
     As of June 30, 2011, Treasury still held approximately $14.5 billion in Ally
Financial/GMAC, composed of 73.8% of Ally Financial’s common stock and $5.3
billion in MCP.630 In return for these investments, Treasury was also granted war-
rants, which it exercised immediately at a cost of $90,015, to purchase securities
with a par value of approximately $688 million: $250 million in preferred shares
(which were later converted to MCP) and $438 million in additional MCP.631
This brought Treasury’s total holdings in Ally Financial securities to a par value of
approximately $15.3 billion, for which it expended approximately $14.5 billion in
TARP funds.632 Table 2.35 summarizes Treasury’s Ally Financial holdings as of June
30, 2011.
138   special inspector general I troubled asset relief program




                                             Table 2.35

                                             Treasury holdings in Ally Financial (formerly GMAC),
                                             AS OF 6/30/2011 ($ BILLIONS)
                                                                                                                                                                                Total
                                             Mandatorily Convertible Preferred Shares (MCP)                                                                                    $5.9a
                                             Common Equity                                                                                                                       9.4b
                                             Total                                                                                                                           $15.3c

                                             Notes: Numbers affected by rounding.
                                             a
                                               This figure includes three separate tranches of MCP acquired via the exercise of warrants: $250 million in warrants that were exercised
                                               to acquire preferred shares that were later converted to MCP on December 30, 2009, $375 million in MCP warrants exercised on May
                                               21, 2009, and $63 million in MCP warrants exercised on December 30, 2009.
                                             b
                                               The dollar value of Treasury’s 73.8% stake in Ally Financial’s common equity is based on the costs to acquire such a stake, including
                                               the conversion of the GM rights loan of $884.0 million in May 2009, the $3.0 billion of MCP in December 2009, and the $5.5 billion of
                                               MCP in December 2010.
                                             c
                                               This figure includes $687.5 million in shares acquired by the exercise of the warrants discussed above. These warrants were exercised
                                               at an aggregate cost of $90,015 to the taxpayer.

                                             Sources: Treasury Press Release, “Treasury Converts Nearly Half of its Ally Preferred Shares to Common Stock,” 12/30/2010, www.
                                             treasury.gov/press-center/press-releases/Pages/tg1014.aspx, accessed 7/20/2011; Ally Financial, Form 8-K, 1/5/2010, www.
                                             sec.gov/Archives/edgar/data/40729/000119312510001221/d8k.htm, accessed 7/14/2011; Treasury Press Release, “Treasury
                                             Announces Pricing of $2.7 Billion of Ally TRuPs,” 3/2/2011, www.treasury.gov/press-center/press-releases/Pages/tg1086.aspx, ac-
                                             cessed 06/30/2011.




                                                 As of June 30, 2011, Ally Financial had made approximately $2.3 billion in
                                             dividend and interest payments to Treasury.633

                                             Chrysler Financial
                                             In January 2009, Treasury loaned Chrysler Financial $1.5 billion under AIFP to
                                             support Chrysler Financial’s retail lending. On July 14, 2009, Chrysler Financial
                                             fully repaid the loan in addition to approximately $7.4 million in interest pay-
                                             ments.634 In connection with the $3.5 billion pre-bankruptcy loan remaining with
                                             CGI Holding LLC, the parent company of Old Chrysler (the bankrupt entity)
                                             and Chrysler Financial, Treasury was entitled to the greater of approximately $1.4
                                             billion or 40.0% of any proceeds that Chrysler Financial paid to its parent com-
                                             pany, CGI Holding LLC, after certain other distributions were made.635 On May
                                             14, 2010, Treasury accepted $1.9 billion in full satisfaction of its $3.5 billion loan
                                             to CGI Holding LLC, thereby relinquishing any interest in or claim on Chrysler
                                             Financial.636 Seven months later, on December 21, 2010, TD Bank Group an-
                                             nounced it had agreed to purchase Chrysler Financial from Cerberus, the owner
                                             of CGI Holding LLC, for approximately $6.3 billion.637 TD Bank Group completed
                                             its acquisition of Chrysler Financial on April 1, 2011, and has rebranded Chrysler
                                             Financial under the TD Auto Finance brand.638

                                             Auto Supplier Support Program (“ASSP”)
                                             On March 19, 2009, Treasury announced a commitment of $5 billion to ASSP to
                                             “help stabilize the automotive supply base and restore credit flows in a critical sec-
                                             tor of the American economy.”639 Because of concerns about the auto manufactur-
                                             ers’ ability to pay their invoices, suppliers had not been able to borrow from banks
                                             by using their receivables as collateral. ASSP enabled automotive parts suppliers
                                                                              quarterly report to congress I July 28, 2011   139




to access Government-backed protection for money owed to them for the products
they shipped to manufacturers.
    The total commitment of $5 billion was reduced to $3.5 billion on July 8, 2009
— $2.5 billion for GM and $1 billion for Chrysler.640 Of the $3.5 billion reduced
commitment to GM and Chrysler, approximately $413.1 million was actually
expended. Because the actual expenditure was lower than initially anticipated,
Treasury reduced its obligation under ASSP to $413.1 million. Treasury received a
total of $413.1 million in ASSP loan repayments — $290 million from GM and ap-
proximately $123.1 million from Chrysler.641 Additionally, Treasury received $115.9
million in fees and interest payments — $65.6 million from GM and $50.3 million
from Chrysler.642 ASSP was terminated on April 5, 2010, for GM and April 7, 2010,
for Chrysler.643

Auto Warranty Commitment Program (“AWCP”)
AWCP was designed to bolster consumer confidence by guaranteeing Chrysler
and GM vehicle warranties during the companies’ restructuring in bankruptcy.644
Treasury obligated $640.7 million to this program — $360.6 million for GM
and $280.1 million for Chrysler.645 On July 10, 2009, the companies fully repaid
Treasury upon their exit from bankruptcy.646
140            special inspector general I troubled asset relief program




                                                      EXECUTIVE COMPENSATION
                                                      TARP recipients are subject to executive compensation restrictions. The original
                                                      executive compensation rules set forth in Section 111 of EESA were amended in
                                                      February 2009 in the American Recovery and Reinvestment Act of 2009 (“ARRA”)
                                                      and have been interpreted and implemented by Treasury regulations and notices.647
                                                      On June 10, 2009, Treasury released its Interim Final Rule on TARP Standards for
                                                      Compensation and Corporate Governance (“The Rule”), which “implement[s] the
                                                      ARRA provisions, consolidates all of the executive-compensation-related provisions
                                                      that are specifically directed at TARP recipients into a single rule (superseding
                                                      all prior rules and guidance), and utilizes the discretion granted to the [Treasury]
                                                      Secretary under the ARRA to adopt additional standards, some of which are adapt-
      Exceptional Assistance Recipients:
                                                      ed from principles set forth” in guidance provided by Treasury in February 2009.648
      Companies that receive assistance
      under SSFI, TIP, and AIFP. Current                  The Rule applies to institutions that meet its definition of a TARP recipient as
      recipients are AIG, Chrysler, GM, and           well as any entity that owns at least 50% of any TARP recipient. As long as a TARP
      Ally Financial (formerly GMAC).                 recipient has an outstanding “obligation” to Treasury (as defined by ARRA, this
                                                      does not include warrants to purchase common stock), it must abide by the Rule.649
                                                      The Rule also specifically subjects exceptional assistance recipients to enhanced re-
                                                      strictions designed to “maximize long-term shareholder value and protect taxpayer
      For more information on the Rule and            interests.”650
      a summary of the timeline of TARP                   Some program participants are exempt from the Rule:
      executive compensation restrictions, see
      SIGTARP’s July 2009 Quarterly Report,
                                                      •	 TALF recipients, because they did not directly receive TARP assistance (instead,
      page 118.
                                                         TARP funds are available to purchase collateral surrendered to TALF)651
      For more information on execu-                  •	 PPIFs, because they have no employees. In addition, PPIF investors and asset
      tive compensation issues and find-                 managers are exempt because the program’s terms prohibit any single private
      ings, refer to SIGTARP audit reports:              entity from owning more than 9.9% of any such fund and, therefore, fall below
      “Despite Evolving Rules on Executive               the 50.0% ownership threshold652
      Compensation, SIGTARP Survey
                                                      •	 Making Home Affordable (“MHA”) program participants, which are statutorily
      Provides Insights on Compliance,” issued
      August 19, 2009, and “Extent of Federal            exempt
      Agencies’ Oversight of AIG Compensation
      Varied, and Important Challenges                Special Master
      Remain,” issued October 14, 2009.               Treasury created the Office of the Special Master for TARP Executive
                                                      Compensation on June 15, 2009, and appointed Kenneth R. Feinberg to the posi-
                                                      tion of Special Master; Mr. Feinberg was succeeded by Ms. Patricia Geoghegan,
                                                      who became Acting Special Master on September 10, 2010.653 The Special
      Senior Executive Officers (“SEOs”):             Master’s responsibilities include the following:654
      “Named executive officers” of TARP
      recipients as defined under Federal se-
                                                      •	 Top 25 Reviews — review and approve compensation structures and payments
      curities law, which generally include the
                                                         for the five senior executive officers (“SEOs”) and the next 20 most highly paid
      principal executive officer, the principal
                                                         employees at institutions that received exceptional financial assistance
      financial officer, and the next three
      most highly compensated officers.
                                                      •	 Top 26 through 100 Reviews — review and approve compensation structures
                                                         for the next 75 highest-paid employees at institutions that received exceptional
                                                                               quarterly report to congress I July 28, 2011               141




   financial assistance (employees who are not in the top 25 but are executive              For a discussion of the Special Master
                                                                                            “Look Back” Review, which was com-
   officers or among the top 100 most highly compensated employees fall into this
                                                                                            pleted on July 23, 2010, see SIGTARP’s
   category)
                                                                                            October 2010 Quarterly Report, pages
•	 Prior Payment Reviews — review bonuses, retention awards, and other com-                 153–154.
   pensation paid to SEOs and the 20 next most highly compensated employees of
   each entity that received TARP assistance from the date the entity first received
   TARP assistance until February 17, 2009, and seek to negotiate reimbursements            Public Interest: Regulatory standard
   where the payment was determined to be inconsistent with the purposes of                 that the Special Master is required
   EESA or TARP, or otherwise contrary to the public interest                               to apply in making determinations. It
•	 Interpretation — provide advisory opinions with respect to the Rule’s applica-           refers to the determination of whether
   tion and whether compensation payments and structures were inconsistent with             TARP-recipient compensation plans are
   the purposes of EESA or TARP, or otherwise contrary to the public interest               aligned with the best interests of the
                                                                                            U.S. taxpayer, based on a balancing of
                                                                                            specific principles set forth in the Rule.
Exceptional Assistance Recipients
As of June 30, 2011, only AIG, Chrysler, GM, and Ally Financial (formerly GMAC)
were still considered exceptional assistance recipients.655 Citigroup and Bank of
America had been considered exceptional assistance recipients because each
participated in TIP, but neither falls under this designation now because of repay-
ments each made in December 2009.656 Chrysler Financial was released from all
                                                                                            For the specific principles used in review-
its obligations under the Rule after it repaid its $1.5 billion loan under AIFP and         ing compensation plans, see SIGTARP’s
its parent company, CGI Holding LLC, repaid $1.9 billion of its original $4.0 bil-          July 2009 Quarterly Report, pages
lion TARP loan under AIFP to Treasury on May 14, 2010, in full satisfaction of its          122–123.
outstanding obligations to Treasury.657
    On April 1, 2011, the Office of the Special Master issued the following com-
pensation determinations for 2011 concerning 98 executives who were the “Top
25” executives at the four remaining exceptional assistance recipients:658

•	 Compensation packages for the AIG, GM, and Ally Financial CEOs did not in-
   crease and the cash component remained frozen at 2010 levels (as in past years,
   the Chrysler CEO is compensated by Fiat rather than by the taxpayer-assisted
   Chrysler company).
•	 82% of the Top 25 pay packages for 2011 (the same percentage as in 2010), in-
   cluding target incentives, were in the form of stock, thereby “tying the ultimate
   value of the compensation to company performance.”
•	 More than 75% of the Top 25 pay-packages limited cash salary to $500,000
   or less.
•	 The four companies have made more than $36 billion in TARP repayments
   since the Special Master’s March 2010 Top 25 compensation rulings.
•	 The overall cash compensation and direct compensation levels for the 98 execu-
   tives decreased in 2011 by 18.2% and 1.3%, respectively. Of the 98 executives,
   62 individuals were in the Top 25 in 2010 and 2011, and the overall cash
142   special inspector general I troubled asset relief program




                                                compensation and direct compensation levels increased in 2011 by 4.7% and
                                                4.4%, respectively. Of the 98 executives, 36 individuals were new to the 2011
                                                Top 25, and overall cash compensation and direct compensation decreased by
                                                39% and 9.6%, respectively, as compared to the compensation they received
                                                for 2010.659
             TARP OPERATIONS AND
Sect ion 3
             ADMINISTRATION
144   special inspector general I troubled asset relief program
                                                                                 quarterly report to congress I july 28, 2011   145




Under the Emergency Economic Stabilization Act of 2008 (“EESA”), Congress
authorized the Secretary of the Treasury (“Treasury Secretary”) to create the
operational and administrative mechanisms to carry out the Troubled Asset Relief
Program (“TARP”). EESA established the Office of Financial Stability (“OFS”)
within the U.S. Department of the Treasury (“Treasury”). OFS is responsible for
administering TARP.660 Treasury has authority to establish program vehicles, issue
regulations, directly hire or appoint employees, enter into contracts, and designate
financial institutions as financial agents of the Government.661 In addition to using
permanent and interim staff, OFS relies on contractors and financial agents for
legal services, investment consulting, accounting, and other key services.



TARP Administrative and Program
Expenditures
According to Treasury, as of June 30, 2011, it had spent $200.9 million on TARP
administrative costs and $494.7 million on programmatic expenditures, for a total
of $695.6 million. As of June 30, 2011, Treasury has obligated $240.2 million for
TARP administrative costs and $604.8 million in programmatic expenditures for
a total of $845.0 million.662 Treasury reported that it has employed 92 career civil
servants, 114 term appointees, and 30.25 reimbursable detailees, for a total of
236.25 full-time employees.663 Table 3.1 provides a summary of the expenditures
and obligations for TARP administrative costs through June 30, 2011. These
costs are categorized as “personnel services” and “non-personnel services,” with a
few exceptions.
146   special inspector general I troubled asset relief program




                                             Table 3.1

                                             TARP Administrative expenditures and obligations
                                                                                                                Obligations for Period Expenditures for Period
                                             Budget Object Class Title                                            Ending 6/30/2011         Ending 6/30/2011
                                             Personnel Services
                                                 Personnel Compensation & Benefits                                            $67,827,121                           $67,634,920
                                             Total Personnel Services                                                        $67,827,121                           $67,634,920


                                             Non-Personnel Services
                                                 Travel & Transportation of Persons                                             $1,225,255                            $1,164,264
                                                 Transportation of Things                                                             11,960                                11,960
                                                 Rents, Communications, Utilities & Misc.                                            753,957                               666,107
                                                 Charges
                                                 Printing & Reproduction                                                                   402                                    402
                                                 Other Services                                                               169,343,751                           130,332,014
                                                 Supplies & Materials                                                                841,418                               820,024
                                                 Equipment                                                                           244,067                               222,675
                                                 Land & Structures                                                                           —                                     —
                                                 Dividends and Interest                                                                      93                                    93
                                             Total Non-Personnel Services                                                  $172,420,903                          $133,217,540
                                             Grand Total                                                                   $240,248,024                          $200,852,460

                                             Notes: Numbers affected by rounding. The costs associated with “Other Services” under TARP Administrative Expenditures and
                                             Obligations are composed of administrative services including financial, administrative, IT, and legal (non-programmatic) support.

                                             Source: Treasury, response to SIGTARP data call, 7/8/2011.




                                             Current Contractors and
                                             Financial Agents
                                             As of June 30, 2011, Treasury had retained 108 private vendors: 17 financial agents
                                             and 91 contractors, to help administer TARP.664 Table 3.2 provides a summary of
                                             the programmatic expenditures, which include costs to hire financial agents and
                                             contractors, and obligations through June 30, 2011, excluding costs and obliga-
                                             tions related to personnel services and travel and transportation. Although Treasury
                                             informed SIGTARP that it “does not track” the number of individuals who provide
                                             services under its agreements, the number likely dwarfs the 236.25 that Treasury
                                             has identified as working for OFS.665 For example, on October 14, 2010, the
                                             Congressional Oversight Panel (“COP”) reported that “Fannie Mae alone currently
                                             has 600 employees working to fulfill its TARP commitments.”666 To streamline and
                                             expedite contract solicitation, EESA allowed the Treasury Secretary to waive spe-
                                             cific Federal Acquisition Regulations for urgent and compelling circumstances.667
                                                                                              quarterly report to congress I july 28, 2011              147




table 3.2

OFS SERVICE CONTRACTS           (continued)
                                                                                                Type of                  Obligated       Expended
Date         Vendor                                Purpose                                      Transaction                  Value           Value
                                                   Legal services for the implementation of
10/10/2008   Simpson Thacher & Bartlett MNP LLP                                                 Contract                 $931,090            $931,165
                                                   TARP
10/11/2008   Ennis Knupp & Associates Inc.1        Investment and Advisory Services             Contract                 2,470,242       2,470,242
             The Bank of New York Mellon
10/14/2008                                         Custodian                                    Financial Agent        42,108,749       33,342,133
             Corporation
10/16/2008   PricewaterhouseCoopers                Internal control services                    Contract               31,017,937       28,706,835
                                                                                                Interagency
10/17/2008   Turner Consulting Group, Inc.2        For process mapping consultant services                                   9,000                 —
                                                                                                Agreement
10/18/2008   Ernst & Young LLP                     Accounting Services                          Contract               14,550,519       12,764,038
                                                   Legal services for the Capital
10/29/2008   Hughes Hubbard & Reed LLP                                                          Contract                 3,060,921       2,835,357
                                                   Purchase Program
                                                   Legal services for the Capital
10/29/2008   Squire, Sanders & Dempsey LLP                                                      Contract                 2,687,999       2,687,999
                                                   Purchase Program
10/31/2008   Lindholm & Associates, Inc.           Human resources services                     Contract                   614,963            614,963
                                                   Legal services related to auto industry
11/7/2008    Sonnenschein Nath & Rosenthal LLP                                                  Contract                 2,702,441       2,702,441
                                                   loans
                                                                                                Interagency
11/9/2008    Internal Revenue Service              Detailees                                                                97,239             97,239
                                                                                                Agreement
                                                                                                Interagency
11/17/2008   Internal Revenue Service              CSC Systems & Solutions LLC2                                              8,095              8,095
                                                                                                Agreement
             Department of the Treasury ­—                                                      Interagency
11/25/2008                                         Administrative Support                                              16,512,820       15,876,996
             Departmental Offices                                                               Agreement
             Alcohol and Tobacco Tax and           IAA - TTB Development, Mgmt & Operation Interagency
12/3/2008                                                                                                                   67,489             67,489
             Trade Bureau                          of SharePoint                           Agreement
                                                                                                Interagency
12/5/2008    Washington Post4                      Subscription                                                                395                 —
                                                                                                Agreement
                                                   Legal services for the purchase of
12/10/2008   Sonnenschein Nath & Rosenthal LLP                                                  Contract                   102,769            102,769
                                                   assets-backed securities
12/10/2008   Thacher Proffitt & Wood4              Admin action to correct system issue         Contract                        —                  —
                                                                                                Interagency
12/15/2008   Office of Thrift Supervision          Detailees                                                               225,547            164,823
                                                                                                Agreement
             Department of Housing and                                                          Interagency
12/16/2008                                         Detailees                                                               142,863            142,863
             Urban Development                                                                  Agreement
                                                                                                Interagency
12/22/2008   Office of Thrift Supervision          Detailees                                                               103,871                 —
                                                                                                Agreement
12/24/2008   Cushman and Wakefield of VA Inc.      Painting Services for TARP Offices           Contract                     8,750              8,841
                                                                                                Interagency
1/6/2009     Securities and Exchange Commission Detailees                                                                   30,416             30,416
                                                                                                Agreement
1/7/2009     Colonial Parking Inc.                 Lease of parking spaces                      Contract                   275,650            190,146
1/27/2009    Cadwalader Wickersham & Taft LLP      Bankruptcy Legal Services                    Contract                   409,955            409,955
1/27/2009    Whitaker Brothers Bus Machines Inc.   Paper Shredder                               Contract                     3,213              3,213
                                                                                                Interagency
1/30/2009    Comptroller of the Currency           Detailees                                                               501,118            501,118
                                                                                                Agreement
                                                                                                                             Continued on next page.
148          special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS            (continued)
                                                                                                      Type of             Obligated      Expended
      Date        Vendor                                 Purpose                                      Transaction             Value          Value
                                                         IAA - GAO required by P.L. 110-343 to
                                                                                                      Interagency
      2/2/2009    US Government Accountability Office    conduct certain activities related to                           $7,459,049     $7,459,049
                                                                                                      Agreement
                                                         TARP IAA
                                                                                                      Interagency
      2/3/2009    Internal Revenue Service               Detailees                                                         242,499         242,499
                                                                                                      Agreement
                                                         Temporary Services for Document
      2/9/2009    Pat Taylor & Associates, Inc.          Production, FOIA assistance, and             Contract             692,108         692,108
                                                         Program Support
                                                         Initiate Interim Legal Services in support of
      2/12/2009   Locke Lord Bissell & Liddell LLP                                                     Contract            272,243         272,225
                                                         Treasury Investments under EESA
      2/18/2009   Fannie Mae                             Homeownership Preservation Program           Financial Agent   240,062,528    201,966,238
      2/18/2009   Freddie Mac                            Homeownership Preservation Program           Financial Agent   143,060,025    119,072,889
                                                                                                      Interagency
      2/20/2009   Financial Clerk U.S. Senate            Congressional Oversight Panel                                    3,394,348      3,394,348
                                                                                                      Agreement
                                                                                                      Interagency
      2/20/2009   Office of Thrift Supervision           Detailees                                                         226,931         189,533
                                                                                                      Agreement
      2/20/2009   Simpson Thacher & Bartlett MNP LLP     Capital Assistance Program (I)               Contract            1,530,023      1,530,023
                                                         Capital Assistance Program (II)
      2/20/2009   Venable LLP                                                                         Contract            1,394,724      1,394,914
                                                         Legal Services
                                                                                                      Interagency
      2/26/2009   Securities and Exchange Commission Detailees                                                              18,531          18,531
                                                                                                      Agreement
                                                                                                      Interagency
      2/27/2009   Pension Benefit Guaranty Corporation   Rothschild, Inc.                                                 7,750,000      7,750,000
                                                                                                      Agreement
                                                         Management Consulting relating to the
      3/6/2009    The Boston Consulting Group                                                         Contract             991,169         991,169
                                                         Auto industry
      3/16/2009   Earnest Partners                       Small Business Assistance Program            Financial Agent     2,550,000      2,352,780
                                                                                                      Interagency
      3/23/2009   Heery International Inc.3              Architectural Services                                                  —               —
                                                                                                      Agreement
                                                         SBA Initiative legal services — Contract
      3/30/2009   Bingham McCutchen LLP5                 Novated from TOFS-09-D-0005 with             Contract             273,006         143,893
                                                         McKee Nelson
      3/30/2009   Cadwalader Wickersham & Taft LLP       Auto Investment Legal Services               Contract           17,392,786     17,392,786
      3/30/2009   Haynes and Boone, LLP                  Auto Investment Legal Services               Contract             345,746         345,746
                                                         SBA Initiative Legal Services — Contract
      3/30/2009   McKee Nelson                           Novated to TOFS-10-D-0001 with Bingham Contract                   149,349         126,631
                                                         McCutchen LLP
      3/30/2009   Sonnenschein Nath & Rosenthal LLP      Auto Investment Legal Services               Contract            1,834,193      1,834,193
      3/31/2009   FI Consulting Inc.                     Credit Reform Modeling and Analysis          Contract            2,803,505      2,148,668
                                                                                                      Interagency
      4/3/2009    American Furniture Rentals Inc.3       Furniture Rental 1801                                              35,187          25,808
                                                                                                      Agreement
                                                         Management Consulting relating to the
      4/3/2009    The Boston Consulting Group                                                         Contract            4,100,195      4,099,923
                                                         Auto industry
                                                                                                      Interagency
      4/17/2009   Bureau of Engraving and Printing       Detailees                                                          45,822          45,822
                                                                                                      Agreement
      4/17/2009   Herman Miller, Inc.                    Aeron Chairs                                 Contract              53,799          53,799
      4/21/2009   AllianceBernstein LP                   Asset Management Services                    Financial Agent    33,288,445     29,701,389
      4/21/2009   FSI Group, LLC                         Asset Management Services                    Financial Agent    18,016,838     16,194,442
      4/21/2009   Piedmont Investment Advisors, LLC      Asset Management Services                    Financial Agent     8,522,375      7,691,686
                                                                                                      Interagency
      4/30/2009   Department of State                    Detailees                                                               —               —
                                                                                                      Agreement
                                                                                                                             Continued on next page.
                                                                                           quarterly report to congress I july 28, 2011             149



OFS SERVICE CONTRACTS          (continued)
                                                                                             Type of                  Obligated       Expended
Date        Vendor                              Purpose                                      Transaction                  Value           Value
                                                                                             Interagency
5/5/2009    Federal Reserve Board               Detailees                                                               $48,422           $48,422
                                                                                             Agreement
            Department of the Treasury —                                                     Interagency
5/13/2009                                       “Making Home Affordable” Logo search                                        325              325
            U.S. Mint                                                                        Agreement
                                                Executive Search and recruiting Services
5/14/2009   Knowledgebank Inc.2                                                              Contract                   124,340           124,340
                                                ­— Chief Homeownership Officer
                                                Freedom of Information Act (FOIA) Analysts
5/15/2009   Phacil, Inc.                        to support the Disclosure Services, Privacy Contract                     90,301            90,304
                                                and Treasury Records
                                                                                             Interagency
5/20/2009   Securities and Exchange Commission Detailees                                                                430,000           430,000
                                                                                             Agreement
                                                                                             Interagency
5/22/2009   Department of Justice — ATF         Detailees                                                               243,778           243,778
                                                                                             Agreement
                                                Legal services for work under Treasury’s
5/26/2009   Anderson, McCoy & Orta              Public Private Investment Funds (PPIF)       Contract                 4,068,834       2,287,423
                                                program
                                               Legal services for work under Treasury’s
5/26/2009   Simpson Thacher & Bartlett MNP LLP Public Private Investment Funds (PPIF)        Contract                 7,849,026       3,511,374
                                               program
                                                                                             Interagency
6/9/2009    Financial Management Services       Gartner, Inc.                                                            89,436            89,436
                                                                                             Agreement
                                                                                             Interagency
6/29/2009   Department of the Interior          Federal Consulting Group (Foresee)                                       49,000            49,000
                                                                                             Agreement
                                                Executive search services for the OFS
7/17/2009   Korn/Ferry International                                                         Contract                    75,017            75,017
                                                Chief Investment Officer position
7/30/2009   Cadwalader Wickersham & Taft LLP    Restructuring Legal Services                 Contract                 2,049,979       1,278,696
7/30/2009   Debevoise & Plimpton LLP            Restructuring Legal Services                 Contract                   159,175             1,650
            Fox, Hefter, Swibel, Levin &
7/30/2009                                       Restructuring Legal Services                 Contract                    84,125            26,493
            Carol, LLP
                                                                                             Interagency
8/10/2009   Department of Justice — ATF         Detailees                                                                63,218            63,109
                                                                                             Agreement
            National Aeronautics and Space                                                   Interagency
8/10/2009                                       Detailees                                                               140,889           140,889
            Administration (NASA)                                                            Agreement
8/18/2009   Mercer (US) Inc.                    Executive Compensation Data Subscription Contract                         3,000             3,000
                                                                                             Interagency
8/25/2009   Department of Justice — ATF         Detailees                                                                63,248            63,248
                                                                                             Agreement
9/2/2009    Knowledge Mosaic Inc.               SEC filings subscription service             Contract                     5,000             5,000
9/10/2009   Equilar, Inc.                       Executive Compensation Data Subscription Contract                        59,990            59,990
9/11/2009   PricewaterhouseCoopers              PPIP compliance                              Contract                 1,995,269       1,905,073
                                                                                             Interagency
9/18/2009   Treasury Franchise Fund             BPD                                                                    436,054            436,054
                                                                                             Agreement
                                                                                             Interagency
9/30/2009   Immixtechnology Inc.3               EnCase eDiscovery ProSuite                                              210,184                —
                                                                                             Agreement
                                                                                             Interagency
9/30/2009   Immixtechnology Inc.3               Guidance Inc.                                                           108,000                —
                                                                                             Agreement
9/30/2009   NNA INC.                            Newspaper delivery                           Contract                     8,479             8,220
                                                SNL Unlimited, a web-based
9/30/2009   SNL Financial LC                                                                 Contract                   260,000           260,000
                                                financial analytics service
            Department of the Treasury —                                                     Interagency
11/9/2009                                       Administrative Support                                              23,682,061       17,679,061
            Departmental Offices                                                             Agreement
                                                                                                                          Continued on next page.
150          special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS            (continued)
                                                                                                      Type of            Obligated      Expended
      Date         Vendor                                Purpose                                      Transaction            Value          Value
                                                                                                      Interagency
      12/16/2009   Internal Revenue Service              Detailees                                                        $46,202         $46,202
                                                                                                      Agreement
      12/22/2009   Avondale Investments LLC              Asset Management Services                    Financial Agent     772,657         772,657
      12/22/2009   Bell Rock Capital, LLC                Asset Management Services                    Financial Agent    1,535,000      1,178,559
      12/22/2009   Howe Barnes Hoefer & Arnett, Inc.     Asset Management Services                    Financial Agent    2,856,438      1,957,883
                                                         Document Production services and
      12/22/2009   Hughes Hubbard & Reed LLP                                                          Contract           1,097,205        811,051
                                                         Litigation Support
      12/22/2009   KBW Asset Management, Inc.            Asset Management Services                    Financial Agent    4,937,433      4,937,433
      12/22/2009   Lombardia Capital Partners, LLC       Asset Management Services                    Financial Agent    2,450,000      1,909,605
                   Paradigm Asset Management
      12/22/2009                                         Asset Management Services                    Financial Agent    2,387,250      1,903,935
                   Co., LLC
                                                         IAA - GAO required by P.L.110-343 to         Interagency
      1/14/2010    US Government Accountability Office                                                                   7,304,722      7,304,722
                                                         conduct certain activities related to TARP   Agreement
                   Association of Government
      1/15/2010                                          CEAR Program Application                     Contract               5,000           5,000
                   Accountants
                                                                                                      Interagency
      2/16/2010    Internal Revenue Service              Detailees                                                         52,742          52,742
                                                                                                      Agreement
                                                         FNMA IR2 assessment — OFS task order
      2/16/2010    The MITRE Corporation                                                              Contract            777,604         726,465
                                                         on Treasury MITRE Contract
                                                                                                      Interagency
      2/18/2010    Treasury Franchise Fund               BPD                                                             1,221,140      1,221,140
                                                                                                      Agreement
      3/8/2010     Qualx Corporation                     FOIA Support Services                        Contract            549,518         482,937
                   Department of the Treasury —                                                       Interagency
      3/12/2010                                          Administrative Support                                           671,731         671,731
                   Departmental Offices                                                               Agreement
                                                                                                      Interagency
      3/22/2010    Gartner, Inc.                         Financial Management Services                                     73,750          73,750
                                                                                                      Agreement
                                                                                                      Interagency
      3/26/2010    Federal Maritime Commission           Detailees                                                        159,141         159,141
                                                                                                      Agreement
      3/29/2010    Morgan Stanley                        Disposition Agent Services                   Financial Agent   16,685,290     16,685,290
                                                                                                      Interagency
      4/2/2010     Financial Clerk U.S. Senate           Congressional Oversight Panel                                   4,797,556      4,797,556
                                                                                                      Agreement
      4/8/2010     Squire, Sanders & Dempsey LLP         Housing Legal Services                       Contract           1,229,350        837,992

      4/12/2010    Hewitt EnnisKunpp, Inc.               Investment Consulting Services               Contract           3,037,100      1,082,000

                                                         Data and Document Management
      4/22/2010    Digital Management Inc.                                                            Contract                  —               —
                                                         Consulting Services
                                                         Data and Document Management
      4/22/2010    MicroLink, LLC                                                                     Contract           9,261,836      3,756,533
                                                         Consulting Services
                                                         Data and Document Management
      4/23/2010    RDA Corporation                                                                    Contract           4,516,598      2,316,363
                                                         Consulting Services
                                                                                                      Interagency
      5/4/2010     Internal Revenue Service              Training — Bulux CON 120                                           1,320            1,320
                                                                                                      Agreement
      5/17/2010    Lazard Fréres & Co. LLC               Transaction Structuring Services             Financial Agent    7,500,000      5,433,333
                                                         Accurint subscription service for
      6/24/2010    Reed Elsevier Inc (dba LexisNexis)                                                 Contract              8,208            8,208
                                                         one year — 4 users
                                                         Financial Institution Management &
      6/30/2010    The George Washington University                                                   Contract              5,000            5,000
                                                         Modeling — Training course (J.Talley)
      7/21/2010    Navigant Consulting                   Program Compliance Support Services          Contract            847,416               —
      7/21/2010    Regis and Associates PC               Program Compliance Support Services          Contract            553,990          45,000
                                                                                                                            Continued on next page.
                                                                                           quarterly report to congress I july 28, 2011             151



OFS SERVICE CONTRACTS            (continued)
                                                                                             Type of                  Obligated       Expended
Date         Vendor                               Purpose                                    Transaction                  Value           Value
7/22/2010    Ernst & Young LLP                    Program Compliance Support Services        Contract               $1,329,943            $58,292
7/22/2010    PricewaterhouseCoopers               Program Compliance Support Services        Contract                        —                 —
7/22/2010    Schiff Hardin LLP                    Housing Legal Services                     Contract                   537,375            97,526
7/27/2010    West Publishing Corporation          Subscription Service for 4 users           Contract                     6,722             6,664
8/6/2010     Alston & Bird LLP                    Omnibus procurement for legal services     Contract                 1,285,416            92,548
8/6/2010     Cadwalader Wickersham & Taft LLP     Omnibus procurement for legal services     Contract                 3,789,815       1,976,545
             Fox, Hefter, Swibel, Levin &
8/6/2010                                          Omnibus procurement for legal services     Contract                   181,200            61,321
             Carol, LLP
8/6/2010     Haynes and Boone, LLP                Omnibus procurement for legal services     Contract                        —                 —
8/6/2010     Hughes Hubbard & Reed LLP            Omnibus procurement for legal services     Contract                   831,484           168,543
8/6/2010     Love & Long LLP                      Omnibus procurement for legal services     Contract                        —                 —
8/6/2010     Orrick Herrington Sutcliffe LLP      Omnibus procurement for legal services     Contract                        —                 —
             Paul, Weiss, Rifkind, Wharton &
8/6/2010                                          Omnibus procurement for legal services     Contract                 3,936,741           863,510
             Garrison LLP
8/6/2010     Perkins Coie LLP                     Omnibus procurement for legal services     Contract                        —                 —
8/6/2010     Seyfarth Shaw LLP                    Omnibus procurement for legal services     Contract                        —                 —
             Shulman, Rogers, Gandal, Pordy &
8/6/2010                                          Omnibus procurement for legal services     Contract                  313,725             39,786
             Ecker, PA
8/6/2010     Sullivan Cove Reign Enterprises JV   Omnibus procurement for legal services     Contract                        —                 —
8/6/2010     Venable LLP                          Omnibus procurement for legal services     Contract                  498,100               190
8/12/2010    Knowledge Mosaic Inc.                SEC filings subscription service           Contract                     5,000             5,000
             Department of Housing and                                                       Interagency
8/30/2010                                         Detailees                                                              29,915            29,915
             Urban Development                                                               Agreement
                                                  One-year subscription (3 users) to the CQ
                                                  Today Breaking News & Schedules, CQ
9/1/2010     CQ-Roll Call Inc.                                                              Contract                      7,500             7,500
                                                  Congressional & Financial Transcripts, CQ
                                                  Custom Email Alerts
9/17/2010    Bingham McCutchen LLP                SBA 7(a) Security Purchase Program         Contract                    19,975            11,177
                                                  Program Operations Support Services to
                                                  include project management, scanning
9/27/2010    Davis Audrey Robinette                                                          Contract                  784,311            573,688
                                                  and document management and
                                                  correspondence
                                                  GSA Task Order for procurement
                                                  books — FAR, T&M, Government
9/30/2010    CCH Incorporated                                                                Contract                     2,430             2,430
                                                  Contracts Reference, World Class
                                                  Contracting
                                                                                             Interagency
10/1/2010    Financial Clerk U.S. Senate          Congressional Oversight Panel                                       5,200,000       2,759,737
                                                                                             Agreement
10/8/2010    Management Concepts Inc.             Training Course — CON 217                  Contract                     1,025             1,025
10/8/2010    Management Concepts Inc.             Training Course — CON 216                  Contract                     1,025             1,025
10/8/2010    Management Concepts Inc.             Training Course — CON 218                  Contract                     2,214             2,214
10/8/2010    Management Concepts Inc.             Training Course — 11107705                 Contract                       995              995
10/8/2010    Management Concepts Inc.             Training Course — Analytic Boot            Contract                     1,500             1,500
10/8/2010    Management Concepts Inc.             Training Course — CON 218                  Contract                     2,214             2,214
10/8/2010    Management Concepts Inc.             Training Course — CON 217                  Contract                     1,025             1,025
10/8/2010    Management Concepts Inc.             Training Course — CON 218                  Contract                     2,214             2,214
             Hispanic Association of Colleges &
10/14/2010                                        Detailees                                  Contract                    12,975            12,975
             Universities
                                                                                                                          Continued on next page.
152          special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS              (continued)
                                                                                                      Type of             Obligated      Expended
      Date         Vendor                                Purpose                                      Transaction             Value          Value
                                                         IAA - GAO required by P.L. 110-343 to        Interagency
      10/26/2010   US Government Accountability Office                                                                   $5,600,000     $2,833,828
                                                         conduct certain activities related to TARP   Agreement
                                                         FNMA IR2 assessment — OFS task order
      11/8/2010    The MITRE Corporation                 on Treasury MITRE Contract for cost and Contract                 1,007,050        343,902
                                                         data validation services related to HAMP FA
      11/18/2010   Greenhill & Co., Inc.                 Structuring and Disposition Services         Financial Agent     7,050,000      3,700,000
                                                         Acquisition Support Services — PSD TARP
      12/2/2010    Addx Corporation                                                              Contract                  768,653         404,254
                                                         (action is an order against BPA)
      12/29/2010   Reed Elsevier Inc. (dba LexisNexis)   Accurint subscription services one user      Contract                1,026             686
                                                                                                      Interagency
      1/5/2011     Canon U.S.A. Inc.                     Administrative Support                                             12,937               —
                                                                                                      Agreement
      1/18/2011    Perella Weinberg Partners & Co.       Structuring and Disposition Services         Financial Agent     6,000,000      2,700,000
                                                                                                      Interagency
      1/24/2011    Treasury Franchise Fund               BPD                                                              1,092,962        818,145
                                                                                                      Agreement
                   Association of Government
      1/26/2011                                          CEAR Program Application                     Contract                5,000           5,000
                   Accountants
                                                         Mentor Program Training
      2/24/2011    ESI International Inc.                                                             Contract              20,758          20,758
                                                         (call against IRS BPA)
                   Department of the Treasury —                                                       Interagency
      2/28/2011                                          Administrative Support                                          17,805,529      7,529,944
                   Departmental Offices                                                               Agreement
      3/3/2011     Equilar, Inc.                         Executive Compensation Data Subscription Contract                  59,995          59,995
      3/10/2011    Mercer (US) Inc.                      Executive Compensation Data Subscription Contract                   3,600               —
      3/22/2011    Harrison Scott Publications, Inc.     Subscription Service                         Contract               5,894               —
                                                                                                      Interagency
      3/28/2011    Fox News Network LLC      7
                                                         Litigation Settlement                                             121,000         121,000
                                                                                                      Agreement
                   Federal Reserve Bank of New York
      4/20/2011                                          Oversight Services                           IAA Listing         1,300,000        255,584
                   (FRBNY) HR
      4/26/2011    PricewaterhouseCoopers LLP            Financial Services Omnibus                   Contract Listing      50,000               —
      4/27/2011    ASR Analytics, LLC                    Financial Services Omnibus                   Contract Listing      50,000               —
      4/27/2011    Ernst & Young, LLP                    Financial Services Omnibus                   Contract Listing      50,000               —
      4/27/2011    FI Consulting, Inc.                   Financial Services Omnibus                   Contract Listing      50,000               —
      4/27/2011    Lani Eko & Company CPAs LLC           Financial Services Omnibus                   Contract Listing      50,000               —
      4/27/2011    MorganFranklin, Corporation           Financial Services Omnibus                   Contract Listing      50,000               —
      4/27/2011    Oculus Group, Inc.                    Financial Services Omnibus                   Contract Listing    1,344,568         29,865
      4/28/2011    Booz Allen Hamilton, Inc.             Financial Services Omnibus                   Contract Listing      50,000               —
      4/28/2011    KPMG, LLP                             Financial Services Omnibus                   Contract Listing      50,000               —
                   Office of Personnel Management
      4/28/2011    (OPM) - Western Management            Leadership Training                          IAA Listing           21,300               —
                   Development Center
                                                         Acquisition Support Services - Acquisition
      5/9/2011     Addx Corporation                      planning and contract/agreement reporting Contract Listing         28,792               —
                                                         support (action is an order against BPA)
                                                         Accurint subscriptions by Lexis/Nexis for
      5/31/2011    Reed Elsevier Inc (dba Lexisnexis)                                                 Contract Listing      10,260               —
                                                         5 users
                                                         Five (5) user subscriptions to CLEAR by
      5/31/2011    West Publishing Corporation                                                        Contract Listing       7,515               —
                                                         West Government Solutions
                                                                                                                             Continued on next page.
                                                                                                                                quarterly report to congress I july 28, 2011                                     153



OFS SERVICE CONTRACTS                        (continued)
                                                                                                                                   Type of                              Obligated              Expended
Date                 Vendor                                              Purpose                                                   Transaction                              Value                  Value
                                                                         One year subscription to the CQ Today
                                                                         Breaking
6/9/2011             CQ-Roll Call Inc.                                   News & Schedules, CQ Congressional &                      Contract Listing                         $7,750                        —
                                                                         Financial
                                                                         Transcripts, CQ Custom Email Alerts
                                                                         Anti-Fraud Protection and Monitoring
6/17/2011            Winvale Group LLC                                                                                             Contract Listing                       221,743                         —
                                                                         Subscription Services
                     Department of the Treasury -
                                                                         Administrative Support                                    IAA Listing                            659,542                 120,498
                     Departmental Offices
                     Judicial Watch6                                     Litigation related                                        Other Listing                              1,500                  1,500
                     Judicial Watch6                                     Litigation related                                        Other Listing                              2,146                  2,146
Total                                                                                                                                                           $795,232,179 $645,580,337

Notes: Numbers may not total due to rounding. At year-end, OFS validated the matrix against source documents resulting in modification of award date. At year-end, a matrix entry that included several Inter-
agency Agreements bundled together was split up to show the individual IAAs. For IDIQ contracts, $0 is obligated if no task orders have been awarded. Table 3.2 includes all vendor contracts administered
under Federal Acquisition Regulations, inter-agency agreements and financial agency agreements entered into in support of OFS since the beginning of the program. The table does not include salary, benefits,
travel, and other non-contract related expenses.
1
  EnnisKnupp Contract TOFS-10-D-0004, was novated to Hewitt EnnisKnupp (TOFS-10-D--0004).
2
  Awarded by other agencies on behalf of OFS and are not administered by PSD.
3
  Awarded by other branches within the PSD pursuant to a common Treasury service level and subject to a reimbursable agreement with OFS.
4
  Thacher Profitt & Wood, Contract TOS09-014B, was novated to Sonnenschein Nath & Rosenthal (TOS09-014C).
5
  McKee Nelson Contract, TOFS-09-D-0005, was novated to Bingham McCutchen.
6
  Judicial Watch is a payment in response to a litigation claim. No contract or agreement was issued to Judicial Watch.
7
  Fox News Network LLC is a payment in response to a litigation claim. No contract or agreement was issued to Fox News Network LLC.

Source: Treasury, response to SIGTARP data call, 7/15/2011 and 7/21/11; Treasury call with SIGTARP, 7/22/11.
154   special inspector general I troubled asset relief program
S ec tio n 4   SIGtarp recommendations
156   special inspector general I troubled asset relief program
                                                                              quarterly report to congress I july 28, 2011   157




One of the critical responsibilities of the Office of the Special Inspector General
for the Troubled Asset Relief Program (“SIGTARP”) is to provide recommendations
to the U.S. Department of the Treasury (“Treasury”) and other Federal agencies
managing Troubled Asset Relief Program (“TARP”) initiatives so that the various
TARP-related programs can be designed or modified to facilitate transparency and
effective oversight and to prevent fraud, waste, and abuse. SIGTARP has made
such recommendations in its quarterly reports to Congress and in many of its audit
reports. This section discusses developments with respect to SIGTARP’s prior
recommendations, including recommendations made since SIGTARP’s Quarterly
Report to Congress dated April 28, 2011 (the “April 2011 Quarterly Report”),
and, in the table at the end of this section, summarizes SIGTARP’s recommenda-
tions from past quarters and notes the extent of implementation. Appendix H:
“Correspondence” includes Treasury’s written responses to recommendations
referenced in this section.


UPDATE ON SIGTARP’S RECOMMENDATION
REGARDING THE HOME AFFORDABLE
UNEMPLOYMENT PROGRAM FORBEARANCE TERM
In light of the unusually high degree of long-term unemployment that has marked
this financial crisis, more than one year ago, in its April 2010 Quarterly Report
to Congress, SIGTARP made a recommendation that Treasury reconsider the
length of the minimum term of its unemployment forbearance program known as
the Home Affordable Unemployment Program (“UP”). As of June 30, 2011, UP
provided payment forbearance for a minimum of three months for unemployed
borrowers with the amount forborne added to the balance of the mortgage. The
basis for SIGTARP’s recommendation was a concern that UP’s three-month mini-
mum forbearance term would not go far enough to assist the average unemployed
homeowner effectively.
     The average length of unemployment at the time of SIGTARP’s recommen-
dation, according to the Bureau of Labor Statistics, was 31.2 weeks, the longest
recorded since its measurement began in 1948. Nearly 43% of unemployed work-
ers had been out of work for 27 weeks. Since that time, the average length of
unemployment has increased to 39.9 weeks, as reported in June 2011, with 42%
of unemployed workers out of work for 27 weeks.
    SIGTARP urged Treasury to consider a longer minimum forbearance term,
which would have a broader impact and better assist the typical unemployed
borrower. Although no program will assist all unemployed borrowers, Treasury
should strive for a program that will at least assist the typical unemployed bor-
rower. SIGTARP’s recommendation was based on its concern that large numbers
158   special inspector general I troubled asset relief program




                                             of unemployed homeowners may still be unemployed at the end of the forbear-
                                             ance period, their unpaid amount will still be owed, and they will still face an
                                             unaffordable mortgage with a principal balance that has been made higher by
                                             the unpaid interest amounts during the forbearance period. At the time, Treasury
                                             did not implement SIGTARP’s recommendation, stating in a letter dated May
                                             20, 2010, that it would not increase the three-month minimum because “the
                                             OCC [Office of the Comptroller of the Currency] does not encourage unemploy-
                                             ment forbearance longer than three months,” and because “[i]f the forbearance
                                             period lasts longer than six months, generally accepted accounting standards may
                                             require a financial institution to write down the value of the loan.”
                                                 On July 7, 2011, the Administration announced that it was extending the min-
                                             imum forbearance period for unemployed borrowers under the U.S. Department
                                             of Housing and Urban Development ("HUD") programs to 12 months. In the
                                             press release, HUD Secretary Shaun Donovan stated, “The current unemploy-
                                             ment forbearance programs have mandatory periods that are inadequate for the
                                             majority of unemployed borrowers. Today, 60 percent of the unemployed have
                                             been out of work for more than three months and 45 percent have been out of
                                             work for more than six. Providing the option for a year of forbearance will give
                                             struggling homeowners a substantially greater chance of finding employment
                                             before they lose their home.” The announcement also included that there would
                                             be an increase in the minimum forbearance term under UP to 12 months, “sub-
                                             ject to investor and regulator guidance.” Treasury has told SIGTARP that it will
                                             implement this change sometime in the fall.



                                             RECOMMENDATIONS REGARDING
                                             IMPLEMENTATION OF MAKING HOME AFFORDABLE
                                             SERVICER ASSESSMENTS
                                             In April 2011, Treasury announced that it would start grading the 10 largest
                                             mortgage servicers participating in the Making Home Affordable (“MHA”) program
                                             on “key performance metrics” and would begin withholding financial incentives
                                             for servicers receiving an unsatisfactory grade. In May 2011, Treasury shared with
                                             SIGTARP a preliminary “servicer assessment” process based on MHA servicer
                                             compliance. SIGTARP made two initial recommendations on the proposal (de-
                                             scribed below) that were based on promoting both the integrity of the decision-
                                             making process and meaningful oversight. Treasury has told SIGTARP that it is
                                             implementing the recommendations.
                                                 The servicer assessments could serve as an important step in holding servicers
                                             accountable for following HAMP rules and providing much-needed assistance
                                             to struggling homeowners. However, proper implementation of the assessment
                                                                                quarterly report to congress I july 28, 2011   159




process and the actions Treasury takes in response to unacceptable assessments
may determine whether servicers improve. On June 9, 2011, Treasury published
the first quarterly servicer assessments which showed that four of the 10 largest
servicers needed substantial improvement and the remaining six needed moder-
ate improvement. Three of the servicers ranked poorly on a critical metric known
as “second-look” – when Treasury’s compliance agent MHA-C reviewed loans for
which the servicer did not offer the borrower a permanent modification, MHA-C
did not concur with the servicer’s determination. That is, borrowers who should
have received a permanent mortgage modification were wrongly denied. Four
servicers had an unacceptably high number of cases where in the second-look
process, MHA-C was unable to determine, based on the documentation provided,
how the servicer reached the decision that it would not offer a permanent modifi-
cation. In addition, all ten servicers ranked poorly in the area of borrower income
calculation errors – a calculation described by Treasury as “a critical component
of evaluating eligibility for MHA, as well as establishing an accurate modification
payment.” Clearly, many homeowners are not getting the fair shake they deserve
from some of the largest servicers in determining who gets the benefit of a HAMP
mortgage modification. However, Treasury is only withholding incentives from
three servicers that it determined required “substantial improvement” but not for
the three servicers who ranked poorly in the second-look category. It is not clear
from the assessments how Treasury determined when a servicer required “sub-
stantial improvement,” in which incentives would be withheld, versus a rating of
“moderate improvement” for which incentives would be paid. Treasury must take
strong action, including withholding and clawing back incentives, in response to
unacceptable ratings to force meaningful change in the servicer’s treatment of
homeowners. SIGTARP’s two recommendations, along with Treasury’s responses,
are discussed below.

First, Treasury should establish detailed guidance and internal controls gov-
erning how the MHA Servicer Compliance Assessment will be conducted and
how each compliance area will be weighted.
    Treasury’s preliminary ratings were based on subjective factors such as whether
the servicer identifies and communicates “appropriately” with homeowners and
whether the servicer “correctly” evaluates homeowner eligibility. Detailed objec-
tive guidelines are vital to inform MHA-C, MHA Compliance Committee mem-
bers, servicers, and the public how to judge what types of activity would fall short
of appropriate or correct behavior. Detailed objective guidelines are needed to
inform them how to treat a particular servicer deficiency such as incorrect ap-
plication of the Net Present Value Test, or how to weight that deficiency relative
to another, such as problematic communications with borrowers. In addition,
detailed guidelines are needed to provide instructions on how other problematic
160   special inspector general I troubled asset relief program




                                             servicer deficiencies will be incorporated into the rating, such as extended trial
                                             modifications that last six months or more or a low conversion rate to permanent
                                             modifications.
                                                  Detailed objective guidelines would serve as a consistent framework for those
                                             who are rating the servicers, and inform the servicers how they will be rated so
                                             that they can get their activities in compliance and better serve homeowners.
                                             In any Government program, fundamental fairness requires that similarly situ-
                                             ated participants be treated the same. Servicer ratings should not be arbitrary.
                                             They should be based on a fair, principled, and well-considered policy frame-
                                             work. However, without objective guidelines and internal controls to ensure
                                             those guidelines are followed, Treasury leaves itself vulnerable to criticism that its
                                             decisions are arbitrary or unfair, and risks inconsistent application of the MHA
                                             Servicer Compliance Assessment between MHA-C and individual members of the
                                             Compliance Committee. In addition, public assessments that show exactly where
                                             the servicers fall short are important for transparency. Finally, subjective criteria sig-
                                             nificantly limits the ability to test whether Treasury is fairly and consistently making
                                             decisions, and makes a comprehensive review of the decision-making process
                                             impossible.
                                                  After SIGTARP made this recommendation, Treasury made important changes
                                             to its servicer assessments. Each of the three categories in which servicers will be
                                             rated now contains metrics for the ratings, including several quantitative metrics.
                                             Treasury will use a one-to-three star rating on whether the servicer meets certain
                                             benchmarks for those metrics. The addition of quantitative metrics is a significant
                                             improvement over the opaque and subjective system that Treasury initially pro-
                                             posed. Now the servicers and the public can see areas where servicers are falling
                                             short (as in the categories of income calculation errors and second-look for the
                                             June assessments). SIGTARP appreciates Treasury’s willingness to reconsider its
                                             proposed ratings process.
                                                  However, there remain qualitative metrics to assess the servicer’s internal con-
                                             trols in each of the three areas. It is not clear whether Treasury issued guidelines
                                             or criteria for rating the effectiveness of internal controls. In addition, Treasury has
                                             told SIGTARP that “no one audit, observation, or compliance category carries more
                                             weight than any other.” While SIGTARP appreciates the need for Treasury to have
                                             flexibility in holding HAMP servicers accountable for following HAMP guidelines,
                                             it is critical that in making these decisions, Treasury be consistent in its approach
                                             and give detailed guidelines for its staff and its compliance agent. Treasury has
                                             told SIGTARP that it is finalizing its documentation of the policies and procedures
                                             relating to the servicer assessment process. SIGTARP will continue to monitor
                                             Treasury’s implementation of this recommendation.
                                                            161                   quarterly report to congress I july 28, 2011   161




Second, Treasury should ensure that more detail is captured by the MHA
Compliance Committee meeting minutes. At a minimum, the minutes should
include MHA-C’s proposed rating for each servicer, the committee members’
qualitative and quantitative considerations regarding each servicer’s ratings,
the votes of each committee member, the final rating for each servicer, justifi-
cation for any difference in that rating with MHA-C’s proposed rating, and any
follow-up including escalation to Treasury’s Office of General Counsel or the
Assistant Secretary and the outcomes of that escalation.
    Ratings for each compliance metric and underlying individual observations are
proposed by Treasury’s compliance agent but the final determination rests with
Treasury’s MHA Compliance Committee. Past MHA Compliance Committee
meeting minutes that SIGTARP reviewed were extremely limited and included
only agenda topics, discussion items, and follow-up assignments. This raises the
concern that future meeting minutes will not reflect the qualitative or quantitative
factors considered by the MHA Compliance Committee members when mak-
ing determinations about servicer ratings. The minutes should adequately reflect
the rationale for the decision making, which should include the servicer actions
considered, explanations for their rating, the proposed MHA-C and final ratings
for each servicer and justification for any difference in those two ratings, and the
votes of each MHA Compliance Committee member on servicer ratings. Clear
documentation of decision making promotes consistency and accountability, and
is necessary in order to permit effective oversight. Without adequate documenta-
tion, it is impossible to know what factors the members of the MHA Compliance
Committee actually considered at the time they made their decisions and how
those factors were weighted in the final rating. In addition, it is also important that
the minutes reflect any follow-up action. This includes any referral to Treasury’s
Office of General Counsel for any default by servicers as well as any follow up deci-
sions by the Assistant Secretary on unsatisfactory servicer ratings, and outcomes
of that escalation. Treasury has told SIGTARP that it implemented this recom-
mendation. SIGTARP will continue to monitor Treasury’s implementation of the
recommendation.
 SIGTARP Recommendations Table                    (continued)                                                                                                                          162
                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
1    *    Treasury should include language in the automobile industry
          transaction term sheet acknowledging SIGTARP’s oversight
                                                                                 X
          role and expressly giving SIGTARP access to relevant docu-
          ments and personnel.
2    *    Treasury should include language in new TARP agreements                                                                            Although Treasury has made substantial
          to facilitate compliance and oversight. Specifically, SIGTARP                                                                      efforts to comply with this recommenda-
          recommends that each program participant should (1)                                                                                tion in many of its agreements, there
          acknowledge explicitly the jurisdiction and authority of                                                                           have been exceptions, including in its
          SIGTARP and other oversight bodies, as relevant, to oversee                                                                        agreements with servicers in MHA.
          compliance of the conditions contained in the agreement in
          question, (2) establish internal controls with respect to that                          X
          condition, (3) report periodically to the Compliance depart-
          ment of the Office of Financial Stability (“OFS-Compliance”)
          regarding the implementation of those controls and its com-
          pliance with the condition, and (4) provide a signed certifica-
          tion from an appropriate senior official to OFS-Compliance
          that such report is accurate.
3    *    All existing TARP agreements, as well as those governing
          new transactions, should be posted on the Treasury website             X
          as soon as possible.
                                                                                                                                                                                       special inspector general I troubled asset relief program




4    *    Treasury should require all TARP recipients to report on the
                                                                                 X
          actual use of TARP funds.
5    *    Treasury quickly determines its going-forward valuation
                                                                                 X
          methodology.
6    *    Treasury begins to develop an overall investment strategy to
          address its portfolio of stocks and decide whether it intends          X
          to exercise warrants of common stock.
7    *    In formulating the structure of TALF, Treasury should                                                                              The Federal Reserve adopted mecha-
          consider requiring, before committing TARP funds to the                                                                            nisms that address this recommendation.
          program, that certain minimum underwriting standards and/
                                                                                 X
          or other fraud prevention mechanisms be put in place with
          respect to the ABS and/or the assets underlying the ABS
          used for collateral.
8    *    Agreements with TALF participants should include an
          acknowledgment that: (1) they are subject to the oversight
          of OFS-Compliance and SIGTARP, (2) with respect to any
          condition imposed as part of TALF, that the party on which
                                                                                                                           X
          the condition is imposed is required to establish internal
          controls with respect to each condition, report periodically
          on such compliance, and provide a certification with respect
          to such compliance.
9    *    Treasury should give careful consideration before agreeing                                                                         This recommendation was implemented
          to the expansion of TALF to include MBS without a full review                                                                      with respect to CMBS, and the Federal
                                                                                 X
          of risks that may be involved and without considering certain                                                                      Reserve did not expand TALF to RMBS.
          minimum fraud protections.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                         Continued on next page.
 SIGTARP Recommendations Table                    (continued)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
10   *    Treasury should oppose any expansion of TALF to legacy                                                                             This recommendation was implemented
          MBS without significant modifications to the program to                                                                            with respect to CMBS, and the Federal
                                                                                X
          ensure a full assessment of risks associated with such an                                                                          Reserve did not expand TALF to RMBS.
          expansion.
11        Treasury should formalize its valuation strategy and begin                                                                         Treasury has formalized its valuation
          providing values of the TARP investments to the public.               X                                                            strategy and regularly publishes its
                                                                                                                                             estimates.
12   *    Treasury and the Federal Reserve should provide to SIG-                                                                            On December 1, 2010, the Federal
          TARP, for public disclosure, the identity of the borrowers                                                                         Reserve publicly disclosed the identities
          who surrender collateral in TALF.                                                                                                  of all TALF borrowers and that there had
                                                                                                                                      X
                                                                                                                                             been no surrender of collateral. SIGTARP
                                                                                                                                             will continue to monitor disclosures if a
                                                                                                                                             collateral surrender takes place.
13   *    In TALF, Treasury should dispense with rating agency                                                                               The Federal Reserve announced that
          determinations and require a security-by-security screening                                                                        RMBS were ineligible for TALF loans,
          for each legacy RMBS. Treasury should refuse to participate                                                                        rendering this recommendation moot.
          if the program is not designed so that RMBS, whether new
          or legacy, will be rejected as collateral if the loans backing                                                              X
          particular RMBS do not meet certain baseline underwriting
          criteria or are in categories that have been proven to be
          riddled with fraud, including certain undocumented subprime
          residential mortgages.
14   *    In TALF, Treasury should require significantly higher haircuts                                                                     This recommendation was implemented
          for all MBS, with particularly high haircuts for legacy RMBS,         X                                                            with respect to CMBS, and the Federal
          or other equally effective mitigation efforts.                                                                                     Reserve did not expand TALF to RMBS.
15   *    Treasury should require additional anti-fraud and credit                                                                           The Federal Reserve adopted mecha-
          protection provisions, specific to all MBS, before participat-                                                                     nisms that address this recommenda-
                                                                                X
          ing in an expanded TALF, including minimum underwriting                                                                            tion with respect to CMBS, and did not
          standards and other fraud prevention measures.                                                                                     expand TALF to RMBS.
16   *    Treasury should design a robust compliance protocol with
          complete access rights to all TALF transaction participants                                                      X
          for itself, SIGTARP, and other relevant oversight bodies.
17   *    Treasury should not allow Legacy Securities PPIFs to invest
          in TALF unless significant mitigating measures are included           X
          to address these dangers.
18   *    All TALF modeling and decisions, whether on haircuts or any
          other credit or fraud loss mechanisms, should account for
          potential losses to Government interests broadly, including           X
          TARP funds, and not just potential losses to the Federal
          Reserve.
19   *    Treasury should address the confusion and uncertainty on
          executive compensation by immediately issuing the required            X
                                                                                                                                                                                         quarterly report to congress I july 28, 2011




          regulations.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                          Continued on next page.
                                                                                                                                                                                         163
 SIGTARP Recommendations Table                    (continued)

                                                                                             Partially                    Not                                                               164
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
20   *    Treasury should significantly increase the staffing levels of                                                                      According to Treasury, OFS-Compliance
          OFS-Compliance and ensure the timely development and                                                                               has increased its staffing level and has
          implementation of an integrated risk management and                                     X                                          contracted with four private firms to
          compliance program.                                                                                                                provide additional assistance to OFS-
                                                                                                                                             Compliance.
21   *    Treasury should require CAP participants to (1) establish an                                                                       Treasury closed the program with no
          internal control to monitor their actual use of TARP funds, (2)                                                                    investments having been made, rendering
          provide periodic reporting on their actual use of TARP funds,                                                                      this recommendation moot.
          (3) certify to OFS-Compliance, under the penalty of criminal
          sanction, that the report is accurate, that the same criteria
                                                                                                                                      X
          of internal controls and regular certified reports should be
          applied to all conditions imposed on CAP participants, and
          (4) acknowledge explicitly the jurisdiction and authority of
          SIGTARP and other oversight bodies, as appropriate, to
          oversee conditions contained in the agreement.
22   *    Treasury should impose strict conflict-of-interest rules upon                                                                      Treasury has adopted some significant
          PPIF managers across all programs that specifically address                                                                        conflict-of-interest rules related to this
          whether and to what extent the managers can (1) invest PPIF                                                                        recommendation, but has failed to im-
          funds in legacy assets that they hold or manage on behalf                               X                                          pose other significant safeguards.
          of themselves or their clients or (2) conduct PPIF transac-
          tions with entities in which they have invested on behalf of
                                                                                                                                                                                            special inspector general I troubled asset relief program




          themselves or others.
23   *    Treasury should require that all PPIF fund managers (1) have                                                                       Treasury’s agreements with PPIF manag-
          stringent investor-screening procedures, including compre-                                                                         ers include investor-screening procedures
          hensive “Know Your Customer” requirements at least as                                                                              such as “Know Your Customer” require-
          rigorous as that of a commercial bank or retail brokerage                                                                          ments. Treasury has agreed that it will
          operation to prevent money laundering and the participation                                                                        have access to any information in a fund
                                                                                                  X
          of actors prone to abusing the system, and (2) be required                                                                         manager’s possession relating to benefi-
          to provide Treasury with the identities of all the beneficial                                                                      cial owners. However, Treasury did not
          owners of the private interests in the fund so that Treasury                                                                       impose an affirmative requirement that
          can do appropriate diligence to ensure that investors in the                                                                       managers obtain and maintain beneficial
          funds are legitimate.                                                                                                              owner information.
24   *    Treasury should require most-favored-nation clauses,
          PPIF managers to acknowledge that they owe Treasury a
                                                                                 X
          fiduciary duty, and that each manager adopt a robust ethics
          policy and compliance apparatus.
25        Treasury should require servicers in MHA to submit third-                                                                          Treasury has decided to adopt this
          party verified evidence that the applicant is residing in the                                                                      important SIGTARP recommendation and
          subject property before funding a mortgage modification.                                                                           stated that its program administrator
                                                                                                                                             Fannie Mae conducted a pilot program
                                                                                                                                             to verify owner occupancy. However, as
                                                                                                                                             discussed in Section 2 of this report, the
                                                                                                             X                               residency requirement for HAFA transac-
                                                                                                                                             tions has been significantly loosened so
                                                                                                                                             that the borrower only needs to demon-
                                                                                                                                             strate that he lives in the residence in the
                                                                                                                                             preceding 12 months and Treasury will
                                                                                                                                             not require third party verification of this
                                                                                                                                             requirement.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                           Continued on next page.
 SIGTARP Recommendations Table                    (continued)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
26   *    In MHA, Treasury should require a closing-like procedure be                                                                        See discussion in Section 5: “SIGTARP
          conducted that would include (1) a closing warning sheet                                                                           Recommendations” of SIGTARP’s October
          that would warn the applicant of the consequences of fraud;                                                                        2009 Quarterly Report.
          (2) the notarized signature and thumbprint of each partici-
          pant; (3) mandatory collection, copying, and retention of
          copies of identification documents of all participants in the
          transaction; (4) verbal and written warnings regarding hidden                           X
          fees and payments so that applicants are made fully aware
          of them; (5) the benefits to which they are entitled under the
          program (to prevent a corrupt servicer from collecting pay-
          ments from the Government and not passing the full amount
          of the subsidies to the homeowners); and (6) the fact that no
          fee should be charged for the modification.
27        Additional anti-fraud protections should be adopted in MHA                                                                         Treasury stated that its compliance
          to verify the identity of the participants in the transaction                                                                      agent Freddie Mac has developed and
          and to address the potential for servicers to steal from                                                                           implemented procedures to address this
          individuals receiving Government subsidies without applying                                                                        recommendation. Treasury also stated
          them for the benefit of the homeowner.                                                                                             that its program administrator Fannie
                                                                                                             X                               Mae conducted a pilot program to verify
                                                                                                                                             owner occupancy. Treasury has reas-
                                                                                                                                             signed this effort to its compliance agent
                                                                                                                                             Freddie Mac. SIGTARP will continue to
                                                                                                                                             monitor implementation of this recom-
                                                                                                                                             mendation.
28   *    In MHA, Treasury should require the servicer to compare                                                                            Treasury has rejected SIGTARP’s recom-
          the income reported on a mortgage modification application                                                                         mendation and does not require income
          with the income reported on the original loan applications.                                                      X                 reported on the modification application
                                                                                                                                             to be compared to income reported on
                                                                                                                                             the original loan application.
29   *    In MHA, Treasury should require that verifiable, third-party
          information be obtained to confirm an applicant’s income              X
          before any modification payments are made.
30   *    In MHA, Treasury should defer payment of the $1,000 incen-                                                                         Rather than deferring payment of the
          tive to the servicer until after the homeowner has verifiably                                                                      incentive until after the homeowner has
          made a minimum number of payments under the mortgage                                                                               verifiably made a minimum number of
          modification program.                                                                                                              payments on its permanent modification,
                                                                                                                           X
                                                                                                                                             Treasury will pay the incentive after the
                                                                                                                                             servicer represents that the homeowner
                                                                                                                                             has made three payments during the trial
                                                                                                                                             period.
31   *    In MHA, Treasury should proactively educate homeowners
          about the nature of the program, warn them about modifica-
                                                                                X
          tion rescue fraudsters, and publicize that no fee is neces-
          sary to participate in the program.
                                                                                                                                                                                          quarterly report to congress I july 28, 2011




Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                          Continued on next page.
                                                                                                                                                                                          165
 SIGTARP Recommendations Table                    (continued)                                                                                                                                166
                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
32   *    In MHA, Treasury should require its agents to keep track of                                                                        While Treasury’s program administra-
          the names and identifying information for each participant in                                                                      tor, Fannie Mae, has developed a HAMP
          each mortgage modification transaction and to maintain a                                                                           system of record that maintains the
          database of such information.                                                                                                      servicers’ and investors’ names and
                                                                                                                                             participating borrowers’ personally
                                                                                                  X
                                                                                                                                             identifiable information, such as names
                                                                                                                                             and addresses, the database is not
                                                                                                                                             constructed to maintain other information
                                                                                                                                             that may assist in detecting insiders who
                                                                                                                                             are committing large-scale fraud.
33   *    Treasury should require the imposition of strict information                                                                       Treasury has refused to adopt this signifi-
          barriers or “walls” between the PPIF managers making                                                                               cant anti-fraud measure designed to pre-
          investment decisions on behalf of the PPIF and those                                                             X                 vent conflicts of interest. This represents
          employees of the fund management company who manage                                                                                a material deficiency in the program.
          non-PPIF funds.
34   *    Treasury should periodically disclose PPIF trading activity                                                                        Treasury has committed to publish on a
          and require PPIF managers to disclose to SIGTARP, within                                                                           quarterly basis certain high-level informa-
          seven days of the close of the quarter, all trading activity,                                                                      tion about aggregated purchases by the
          holdings, and valuations so that SIGTARP may disclose                                                                              PPIFs, but not within seven days of the
          such information, subject to reasonable protections, in its                                                      X                 close of the quarter. Treasury has not
                                                                                                                                                                                             special inspector general I troubled asset relief program




          quarterly reports.                                                                                                                 committed to providing full transparency
                                                                                                                                             to show where public dollars are invested
                                                                                                                                             by requiring periodic disclosure of every
                                                                                                                                             trade in the PPIFs.
35        Treasury should define appropriate metrics and an evalua-                                                                          Despite that there has been twenty-one
          tion system should be put in place to monitor the effective-                                                                       months of trading by the PPIFs, Treasury
          ness of the PPIF managers, both to ensure they are fulfilling                                                                      still has not specified a benchmark by
          the terms of their agreements and to measure performance.                                                                          which performance of a PPIF can be mea-
                                                                                                                                             sured. Treasury stated that its contractor
                                                                                                                           X
                                                                                                                                             Ennis Knupp has identified a subcontrac-
                                                                                                                                             tor that will assist with providing analytics
                                                                                                                                             and metrics on the PPIF portfolio. SIG-
                                                                                                                                             TARP will continue to monitor Treasury’s
                                                                                                                                             progress in this area.
36   *    The conditions that give Treasury “cause” to remove a                                                                              Treasury has refused to adopt this recom-
          PPIF manager should be expanded to include a manager’s                                                                             mendation, relying solely on Treasury’s
          performance below a certain standard benchmark, or if                                                                              right to end the investment period after
          Treasury concludes that the manager has materially violated                                                                        12 months. During this time the PPIF
                                                                                                                          X
          compliance or ethical rules.                                                                                                       manager’s performance may continue
                                                                                                                                             to fall below a standard benchmark,
                                                                                                                                             potentially putting significant Government
                                                                                                                                             funds at risk.
37   *    Treasury should require PPIF managers to disclose to Trea-
          sury, as part of the Watch List process, not only information
                                                                                X
          about holdings in eligible assets but also holdings in related
          assets or exposures to related liabilities.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                           Continued on next page.
 SIGTARP Recommendations Table                     (continued)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
38        Treasury should require PPIF managers to obtain and                                                                                Treasury has agreed that it can have
          maintain information about the beneficial ownership of all of                                                                      access to any information in a fund man-
          the private equity interests, and Treasury should have the                                                                         ager’s possession relating to beneficial
          unilateral ability to prohibit participation of private equity                                                                     owners. However, Treasury is not making
          investors.                                                                                                                         an affirmative requirement that manag-
                                                                                                                           X                 ers obtain and maintain beneficial owner
                                                                                                                                             information. Treasury will not adopt the
                                                                                                                                             recommendation to give itself unilateral
                                                                                                                                             ability to deny access to or remove an
                                                                                                                                             investor, stating that such a right would
                                                                                                                                             deter participation.
39   *    Treasury and FRBNY should (1) examine Moody’s assertions                                                                           Treasury and the Federal Reserve have
          that some credit rating agencies are using lower standards                                                                         discussed concerns about potential over-
          to give a potential TALF security the necessary AAA rating                                                                         rating or rating shopping with the rating
                                                                                 X
          and (2) develop mechanisms to ensure that acceptance of                                                                            agencies, and have agreed to continue to
          collateral in TALF is not unduly influenced by the improper                                                                        develop and enhance risk management
          incentives to overrate that exist among the credit agencies.                                                                       tools and processes, where appropriate.
40   *    Treasury should more explicitly document the vote of each
          Investment Committee member for all decisions related to               X
          the investment of TARP funds.
41   *    Treasury should improve existing control systems to docu-
          ment the occurrence and nature of external phone calls and
          in-person meetings about actual and potential recipients of            X
          funding under the CPP and other similar TARP-assistance
          programs to which they may be part of the decision making.
42   *    The Secretary of the Treasury should direct the Special
          Master to work with FRBNY officials in understanding AIG
          compensation programs and retention challenges before
                                                                                 X
          developing future compensation decisions that may affect
          both institutions’ ability to get repaid by AIG for Federal as-
          sistance provided.
43   *    Treasury should establish policies to guide any similar                                                                            Treasury stated that it does not anticipate
          future decisions to take a substantial ownership position in                                                                       taking a substantial percentage owner-
          financial institutions that would require an advance review                                                                 X      ship position in any other financial institu-
          so that Treasury can be reasonably aware of the obligations                                                                        tion pursuant to EESA.
          and challenges facing such institutions.
44   *    Treasury should establish policies to guide decision making                                                                        Treasury has agreed to work closely with
          in determining whether it is appropriate to defer to another                                                                       other Federal agencies that are involved
                                                                                                  X
          agency when making TARP programming decisions where                                                                                in TARP.
          more than one Federal agency is involved.
45        Treasury should rectify the confusion that its own state-                                                                          Despite SIGTARP’s repeated highlighting
          ments have caused for HAMP by prominently disclosing                                                                               of this essential transparency and effec-
                                                                                                                                                                                             quarterly report to congress I july 28, 2011




          its goals and estimates (updated over time, as necessary)                                                                          tiveness measure, Treasury has refused
                                                                                                                           X
          of how many homeowners the program will help through                                                                               to disclose clear and relevant goals and
          permanent modifications and report monthly on its progress                                                                         estimates for the program.
          toward meeting that goal.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                           Continued on next page.
                                                                                                                                                                                             167
                                                                                                                                                                                           168
 SIGTARP Recommendations Table                     (continued)

                                                                                              Partially                    Not
          Recommendation                                                      Implemented   Implemented   In Process   Implemented   TBD/NA   Comments
46        Treasury should develop other performance metrics and                                                                               Although Treasury has increased its
          publicly report against them to measure over time the imple-                                                                        reporting of servicer performance, it has
          mentation and success of HAMP. For example, Treasury                                                                                not identified goals for each metric and
          could set goals and publicly report against those goals for                                                                         measured performance against those
          servicer processing times, modifications as a proportion of                             X                                           goals.
          a servicer’s loans in default, modifications as a proportion
          of foreclosures generally, rates of how many borrowers fall
          out of the program prior to permanent modification, and
          re-default rates.
47        Treasury should undertake a sustained public service
          campaign as soon as possible, both to reach additional bor-
          rowers who could benefit from the program and to arm the                 X
          public with complete, accurate information – this will help to
          avoid confusion and delay, and prevent fraud and abuse.
48        Treasury should reconsider its position that allows servicers
          to substitute alternative forms of income verification based                                                      X
          on subjective determinations by the servicer.
49        Treasury should re-examine HAMP’s structure to ensure that                                                                          Treasury has adopted some programs to
          it is adequately minimizing the risk of re-default stemming                                                                         assist underwater mortgages to address
          from non-mortgage debt, second liens, partial interest rate                             X                                           concerns of negative equity but has not
                                                                                                                                                                                           special inspector general I troubled asset relief program




          resets after the five-year modifications end, and from many                                                                         addressed other factors contained in this
          borrowers being underwater.                                                                                                         recommendation.
50        Treasury should institute careful screening before putting                                                                          Treasury has stated that it has imple-
          additional capital through CDCI into an institution with insuffi-                                                                   mented this recommendation. SIGTARP
                                                                                   X
          cient capital to ensure that the TARP matching funds are not                                                                        will examine Treasury’s implementation of
          flowing into an institution that is on the verge of failure.                                                                        the recommendation.
51        Treasury should develop a robust procedure to audit and                                                                             Treasury has stated that it has imple-
          verify the bona fides of any purported capital raise in CDCI                                                                        mented this recommendation. SIGTARP
                                                                                   X
          and to establish adequate controls to verify the source,                                                                            will examine Treasury’s implementation of
          amount and closing of all claimed private investments.                                                                              the recommendation.
52        Treasury should revise CDCI terms to clarify that Treasury
          inspection and copy rights continue until the entire CDCI
          investment is terminated. Additionally, consistent with
          recommendations made in connection with other TARP                       X
          programs, the terms should be revised to provide expressly
          that SIGTARP shall have access to the CDFI’s records equal
          to that of Treasury.
53        Treasury should consider more frequent surveys of a CDCI
          participant’s use of TARP funds than annually as currently
                                                                                                                            X
          contemplated. Quarterly surveys would more effectively
          emphasize the purpose of CDCI.
54        Treasury should ensure that more detail is captured by the                                                                          Treasury has indicated that it has imple-
          Warrant Committee meeting minutes. At a minimum, the                                                                                mented this recommendation. Although
          minutes should include the members’ qualitative consider-                                                                           the detail of the minutes has improved,
                                                                                   X
          ations regarding the reasons bids were accepted or rejected                                                                         Treasury is still not identifying how each
          within fair market value ranges.                                                                                                    member of the committee casts his or
                                                                                                                                              her vote.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                            Continued on next page.
 SIGTARP Recommendations Table                     (continued)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
55        Treasury should document in detail the substance of all com-                                                                       Treasury has agreed to document the
          munications with recipients concerning warrant repurchases.                                                                        dates, participants, and subject line of
                                                                                                                           X
                                                                                                                                             calls. It has refused to document the
                                                                                                                                             substance of such conversations.
56   *    Treasury should develop and follow guidelines and internal                                                                         Treasury has adopted procedures
          controls concerning how warrant repurchase negotiations                                                                            designed to address this recommenda-
          will be pursued, including the degree and nature of informa-                                                                       tion, including a policy to discuss only
          tion to be shared with repurchasing institutions concerning                                                                        warrant valuation inputs and methodolo-
          Treasury’s valuation of the warrants.                                                                                              gies prior to receiving a bid, generally
                                                                                                                                             to limit discussion to valuation ranges
                                                                                                  X                                          after receiving approval from the Warrant
                                                                                                                                             Committee, and to note the provision of
                                                                                                                                             any added information in the Committee
                                                                                                                                             minutes. However, Treasury believes that
                                                                                                                                             its existing internal controls are sufficient
                                                                                                                                             to ensure adequate consistency in the
                                                                                                                                             negotiation process.
57   *    Treasury should promptly take steps to verify TARP partici-                                                                        Although Treasury largely continues to
          pants’ conformance to their obligations, not only by ensuring                                                                      rely on self-reporting, stating that it only
          that they have adequate compliance procedures but also by                                                                          plans to conduct testing where they have
          independently testing participants’ compliance.                                                                                    particular concerns as to a TARP recipi-
                                                                                                  X
                                                                                                                                             ent’s compliance procedures or testing
                                                                                                                                             results, it has conducted independent
                                                                                                                                             testing of compliance obligations during
                                                                                                                                             some compliance reviews.
58   *    Treasury should develop guidelines that apply consistently                                                                         Treasury states that it has developed
          across TARP participants for when a violation is sufficiently                                                                      guidance and provided that guidance to
          material to merit reporting, or in the alternative require that                                                                    the exceptional assistance participants
          all violations be reported.                                                                                                        remaining in TARP as of June 30, 2011.
                                                                                                  X
                                                                                                                                             Treasury has not addressed other factors
                                                                                                                                             contained in this recommendation, citing
                                                                                                                                             its belief that materiality should be sub-
                                                                                                                                             ject to a fact and circumstances review.
59        For each HAMP-related program and subprogram, Treasury                                                                             Treasury has provided anticipated costs,
          should publish the anticipated costs and expected participa-                                                                       but not expected participation.
          tion in each and that, after each program is launched, it                               X
          report monthly as to the program’s performance against
          these expectations.
60   *    Treasury should re-evaluate the voluntary nature of its                                                                            Treasury plans to maintain the volun-
          principal reduction program and, irrespective of whether it                                                                        tary nature of the program, providing
          is discretionary or mandatory, consider changes to better                                                                          an explanation that on its face seems
                                                                                                                                      X
          maximize its effectiveness, ensure to the greatest extent                                                                          unpersuasive to SIGTARP. SIGTARP will
          possible the consistent treatment of similarly situated bor-                                                                       continue to monitor performance.
          rowers, and address potential conflict of interest issues.
                                                                                                                                                                                             quarterly report to congress I july 28, 2011




61        Treasury should adopt a uniform appraisal process across
          all HAMP and HAMP-related short-sale and principal reduc-                                                       X
          tion programs consistent with FHA’s procedures.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                           Continued on next page.
                                                                                                                                                                                             169
                                                                                                                                                                                           170
 SIGTARP Recommendations Table                    (continued)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
62   *    Treasury should reconsider the length of the minimum term                                                                          See discussion in this section.
                                                                                                             X
          of HAMP’s unemployment forbearance program.
63        Treasury should launch a broad-based information campaign,
          including public service announcements in target markets
          that focus on warnings about potential fraud, and include              X
          conspicuous fraud warnings whenever it makes broad public
          announcements about the program.
64        When Treasury considers whether to accept an existing CPP                                                                          Treasury has indicated that it “generally
          participant into SBLF, because conditions for many of the                                                                          agrees with and is implementing this rec-
          relevant institutions have changed dramatically since they                                                                         ommendation.” SIGTARP will continue to
          were approved for CPP, Treasury and the bank regulators                X                                                           monitor Treasury’s progress in this area.
          should conduct a new analysis of whether the applying insti-
          tution is sufficiently healthy and viable to warrant participa-
          tion in SBLF.
65        When Treasury conducts the new analysis of an institution’s                                                                        Treasury has refused to adopt this
          health and viability, the existing CPP preferred shares should                                                                     recommendation, citing its belief that
          not be counted as part of the institution’s capital base.                                                                          current CPP participants may be unfairly
                                                                                                                                             disadvantaged in their SBLF applications
                                                                                                                                             if their existing CPP investments are not
                                                                                                                                                                                           special inspector general I troubled asset relief program




                                                                                                                           X
                                                                                                                                             counted as part of their capital base, and
                                                                                                                                             that SBLF “already provides substan-
                                                                                                                                             tial hurdles that CPP recipients must
                                                                                                                                             overcome” that do not apply to other
                                                                                                                                             applicants.
66        Treasury should take steps to prevent institutions that are                                                                        Treasury has refused to adopt this recom-
          refinancing into the SBLF from CPP from securing windfall                                                                          mendation, suggesting that its adoption
          dividend reductions without any relevant increase in lending.                                                                      would subvert the will of Congress and
                                                                                                                           X                 that SIGTARP’s recommendation “may
                                                                                                                                             not be helpful” because “it is unclear that
                                                                                                                                             using this statutorily mandated baseline
                                                                                                                                             will lead to anomalies.”
67   *    Treasury, as part of its due diligence concerning any                                                                              Treasury has adopted this recommenda-
          proposed restructuring, recapitalization, or sale of its CPP                                                                       tion, allowing SIGTARP to share informa-
          investment to a third party, should provide to SIGTARP the                                                                         tion about relevant investigations, on a
          identity of the CPP institution and the details of the proposed        X                                                           strictly confidential basis, with certain
          transaction.                                                                                                                       Treasury personnel so that Treasury can
                                                                                                                                             be better informed before engaging in
                                                                                                                                             such transactions.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                          Continued on next page.
 SIGTARP Recommendations Table                    (continued)

                                                                                             Partially                    Not
          Recommendation                                                  Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
68   *    When a CPP participant refinances into SBLF and seeks ad-                                                                          Treasury has adopted this recommenda-
          ditional taxpayer funds, Treasury should provide to SIGTARP                                                                        tion, allowing SIGTARP to share informa-
          the identity of the institution and details of the proposed                                                                        tion about relevant investigations, on a
          additional SBLF investment.                                                                                                        strictly confidential basis, with certain
                                                                                X
                                                                                                                                             Treasury personnel so that Treasury can
                                                                                                                                             be better informed before acting on the
                                                                                                                                             application.

69   *    OFS should adopt the legal fee bill submission standards                                                                           Treasury told SIGTARP that OFS has
          contained in the FDIC’s Outside Counsel Deskbook, or estab-                                                                        created new guidance using the FDIC’s
          lish similarly detailed requirements for how law firms should                                                                      Outside Counsel Deskbook and other
                                                                                X
          prepare legal fee bills and describe specific work performed                                                                       resources.
          in the bills, and which costs and fees are allowable and
          unallowable.
70   *    OFS should include in its open legal service contracts                                                                             Treasury told SIGTARP that OFS has
          detailed requirements for law firms on the preparation and                                                                         distributed its new guidance to all law
          submission of legal fee bills, or separately provide the                                                                           firms currently under contract to OFS.
          instructions to law firms and modify its open contracts, mak-                                                                      Treasury further stated that OFS will work
                                                                                                             X
          ing application of the instructions mandatory.                                                                                     with Treasury’s Procurement Services Di-
                                                                                                                                             vision to begin modifying base contracts
                                                                                                                                             for OFS legal services to include those
                                                                                                                                             standards as well.
71   *    OFS should adopt the legal fee bill review standards and pro-                                                                      Treasury told SIGTARP that OFS has held
          cedures contained in the FDIC’s Outside Counsel Deskbook,                                                                          training on its newly adopted guidance
          or establish similarly specific instructions and guidance                                                                          prescribing how legal fee bills should be
          for OFS COTRs to use when reviewing legal fee bills, and                                                                           prepared with OFS COTRs and other staff
          incorporate those instructions and guidance into OFS written                                                                       involved in the review of legal fee bills,
          policies.                                                                                                                          and that the OFS COTRs will begin review-
                                                                                                             X
                                                                                                                                             ing invoices in accordance with its new
                                                                                                                                             guidance for periods starting with March
                                                                                                                                             2011. Treasury also stated that OFS will
                                                                                                                                             work to incorporate relevant portions of
                                                                                                                                             its training on the new legal fee bill review
                                                                                                                                             standards into written procedures.
72   *    OFS should review previously paid legal fee bills to identify                                                                      Treasury told SIGTARP that each OFS
          unreasonable or unallowable charges, and seek reimburse-                                                                           legal services contract will be reviewed
          ment for those charges, as appropriate.                                                            X                               for questionable invoice amounts, and
                                                                                                                                             OFS intends to seek additional support or
                                                                                                                                             remittance, as appropriate.
73   *    Treasury should establish detailed guidance and internal                                                                           See discussion in this section.
          controls governing how the MHA Servicer Compliance As-
                                                                                                             X
          sessment will be conducted and how each compliance area
          will be weighted.
                                                                                                                                                                                             quarterly report to congress I july 28, 2011




Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                           Continued on next page.
                                                                                                                                                                                             171
                                                                                                                                                                               172
 SIGTARP Recommendations Table                     (continued)

                                                                                             Partially                    Not
          Recommendation                                                     Implemented   Implemented   In Process   Implemented   TBD/NA   Comments
74   *    Treasury should ensure that more detail is captured by the                                                                         See discussion in this section.
          MHA Compliance Committee meeting minutes. At a mini-
          mum, the minutes should include MHA-C’s proposed rating
          for each servicer, the committee members’ qualitative and
          quantitative considerations regarding each servicer’s rat-
                                                                                                             X
          ings, the votes of each committee member, the final rating
          for each servicer, justification for any difference in that rat-
          ing with MHA-C’s proposed rating, and any follow-up includ-
          ing escalation to Treasury’s Office of General Counsel or the
          Assistant Secretary and the outcomes of that escalation.


Note: *Indicates that Treasury considers the recommendation closed and will take no further action.
                                                                                                                                                                               special inspector general I troubled asset relief program
                                                                                              quarterly report to congress I july 28, 2011                 173


1.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
     sTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011; Treasury, response to
     SIGTARP data call, 7/8/2011; Treasury response to SIGTARP data call, 7/14/2011.
2.	  Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 1.	
3.	  Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, pp. 2, 16.
4.	  Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit
     Strategy for TARP,” 12/9/2009, www.treasury.gov/press-center/press-releases/Pages/tg433.aspx, accessed 7/14/2011.
5.	  Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 9.
6.	  Dodd-Frank Wall Street Reform and Consumer Protection Act, P.L. 111-203, 7/21/2010, pp. 1, 759.
7.	  CBO, “Director’s Blog: Troubled Asset Relief Program,” 4/17/2009, cboblog.cbo.gov/?p=231, accessed 5/31/2011; CBO, “The Troubled Asset
     Relief Program: Report on Transactions Through June 17, 2009,” 6/2009, www.cbo.gov/ftpdocs/100xx/doc10056/06-29-TARP.pdf, accessed
     5/31/2011; OMB, “Analytical Perspectives: Budget of the U.S. Government – Fiscal Year 2011,” 2/1/2010, www.gpoaccess.gov/usbudget/fy11/
     pdf/spec.pdf, accessed 5/31/2011.
8.	  OMB, “Analytical Perspectives: Budget of the U.S. Government – Fiscal Year 2012,” 2/14/2011, www.gpoaccess.gov/usbudget/fy12/pdf/
     BUDGET-2012-PER.pdf, accessed 6/27/2011.
9.	Treasury, Section 105(a) Report, 7/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/June%20
     105(a)%20Report.pdf, accessed 7/15/2011.
10.	Treasury, Section 105(a) Report, 7/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/June%20
     105(a)%20Report.pdf, accessed 7/14/2011.
11.	 CBO, “Report on the Troubled Asset Relief Program — March 2011,” 3/2011, www.cbo.gov/ftpdocs/121xx/doc12118/03-29-TARP.pdf, accessed
     7/20/2011.
12.	 CBO, “Report on the Troubled Asset Relief Program — March 2011,” 3/2011, www.cbo.gov/ftpdocs/121xx/doc12118/03-29-TARP.pdf, accessed
     7/20/2011.
13.	Treasury, Section 105(a) Report, 7/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/June%20
     105(a)%20Report.pdf, accessed 7/14/2011.
14.	 CBO, “Report on the Troubled Asset Relief Program — March 2011,” 3/2011, www.cbo.gov/ftpdocs/121xx/doc12118/03-29-TARP.pdf, accessed
     7/20/2011; OMB, “Analytical Perspectives: Budget of the U.S. Government – Fiscal Year 2012,” 2/14/2011, www.gpoaccess.gov/usbudget/fy12/
     pdf/BUDGET-2012-PER.pdf, accessed 6/27/2011; Treasury, Section 105(a) Report, 7/11/2011, www.treasury.gov/initiatives/financial-stability/
     briefing-room/reports/105/Documents105/June%20105(a)%20Report.pdf, accessed 7/14/2011.
15.	Treasury, Section 105(a) Report, 8/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/July%20
     2010%20105(a)%20Report_Final.pdf, accessed 7/20/2011; Helping Families Save Their Homes Act of 2009, P.L. 111-022, 5/20/2009, p. 12.
16.	Treasury, Section 105(a) Report, 8/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/July%20
     2010%20105(a)%20Report_Final.pdf, accessed 7/20/2011; Helping Families Save Their Homes Act of 2009, P.L. 111-022, 5/20/2009, p. 12.
17.	 Treasury, response to SIGTARP data call, 7/8/2011.
18.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
     DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011.
19.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
     DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011; Treasury,
     response to SIGTARP data call, 7/8/2011.
20.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
     DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011; Treasury,
     Section 105(a) Report, 7/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/June%20105(a)%20
     Report.pdf, accessed 7/15/2011; Treasury, Cumulative Dividends, Interest, and Distributions Report, 7/11/2011, www.treasury.gov/initiatives/
     financial-stability/briefing-room/Pages/briefing-room.aspx , accessed 7/14/2011;Treasury, response to SIGTARP data call, 10/18/2010.
21.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
     DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011; Treasury,
     response to SIGTARP data call, 7/8/2011.
22.	 Treasury, response to SIGTARP data call, 7/8/2011.
23.	 Treasury Press Release, “Relief for Responsible Homeowners One Step Closer Under New Treasury Guidelines,” 3/4/2009, www.treasury.gov/
     press-center/press-releases/Pages/tg48.aspx, accessed 7/20/2011.
24.	 Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
     briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 7/20/2011.
25.	 Treasury, “Home Affordable Modification Program — Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 6/29/2011.
26.	 Treasury, “Office of Financial Stability: Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-
     stability/briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 7/20/2011.
27.	 Treasury, response to SIGTARP data call, 7/8/2011.
28.	 Treasury, response to SIGTARP data call, 7/22/2011.
29.	 Treasury, response to SIGTARP data call, 7/22/2011.
30.	 Treasury, “Housing Finance Agency Innovation Fund for the Hardest Hit Housing Markets,” 3/5/2010, http://homeaffordablemodification.net/
     making-home-affordable-programs/housing-finance-agency-innovation-fund/, accessed 7/22/2011.
31.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
     DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011; Treasury,
     “Update to the HFA Hardest Hit Fund Frequently Asked Questions,” 3/29/2010, www.treasury.gov/initiatives/financial-stability/housing-
     programs/hhf/Documents/Hardest20Hit20public20QA20020292010.pdf, accessed 7/22/2011; Treasury, “Housing Finance Agency Innovation
     Fund for the Hardest Hit Housing Markets,” 3/5/2010, www.azhousing.gov/azcms/uploads/PRESS%20ROOM/HFA%20FAQs.pdf, accessed
174            special inspector general I troubled asset relief program



           7/12/2010; Treasury Press Release, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to
           Help Homeowners Struggling with Unemployment,” 8/11/2010, nationalhomeadvocacygroup.com/index.php?option=com_content&view=article
           &id=56&Itemid=70, accessed 1/17/2011.
      32.	 Treasury, response to SIGTARP data call, 7/8/2011.
      33.	 Treasury, response to SIGTARP data call, 7/8/2011.
      34.	 Treasury, response to SIGTARP data call, 7/22/2011.
      35.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 3.
      36.	 Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
           cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/20/2011.
      37.	 Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
           cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/20/2011.
      38.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
           DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011.
      39.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
           DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011.
      40.	 Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit
           Strategy for TARP,” 12/9/2009, www.treasury.gov/press-center/press-releases/Pages/tg433.aspx, accessed 7/20/2011; for date CPP was closed,
           see last investment date in Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/
           tarp-transactions/DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed
           7/14/2011.
      41.	 Treasury, response to SIGTARP draft report, 10/8/2010.
      42.	 Treasury, “Frequently Asked Questions,” no date, www.treasury.gov/resource-center/faqs/Pages/default.aspx, accessed 7/20/2011.
      43.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
           DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011.
      44.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
           DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011.
      45.	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, pp. 1, 80, 83.
      46.	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, pp. 83-85, 95.
      47.	 Treasury, “Resource Center — Small Business Lending Fund,” 12/20/2010, www.treasury.gov/resource-center/sb-programs/Pages/Small-
           Business-Lending-Fund.aspx, accessed 7/21/2011; Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/
           resource-center/sb-programs/Documents/SBLF_Getting_Started_Guide_Final.pdf, accessed 7/20/2011.
      48.	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, pp. 89, 93.
      49.	 Treasury, response to SIGTARP data call, 7/8/2011.
      50.	 Treasury, “Programs,” 5/7/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/AIG/Pages/default.aspx, accessed
           7/20/2011.
      51.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
           DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011.
      52.	 AIG, 8-K, 1/14/2010, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 7/20/2011; Treasury Press
           Release, “Treasury Department Statement on AIG’s Transaction Agreement,” 12/8/2010, www.treasury.gov/press-center/press-releases/Pages/
           tg996.aspx, accessed 7/20/2011.
      53.	 AIG, 8-K, 1/14/2010, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 7/20/2011.
      54.	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 7/20/2011; FRBNY,
           response to SIGTARP draft report, 1/12/2011; FRBNY, response to SIGTARP draft report, 4/12/2011.
      55.	 AIG, 8-K, 1/14/2010, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 7/20/2011.
      56.	 AIG, 8-K, 1/14/2010, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 7/20/2011;
           Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
           DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011.
      57.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
           DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011; AIG,
           424B3, 5/11/2011, www.sec.gov/Archives/edgar/data/5272/000095012311048645/y91210b7e424b3.htm, accessed 6/2/2011.
      58.	 Treasury, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
           OFS%20AFR%2009_24.pdf, accessed 7/21/2011.
      59.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
           DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011.
      60.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
           DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011.
      61.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
           DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011.
      62.	 Treasury, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
           OFS%20AFR%2009_24.pdf, accessed 7/7/2011.
      63.	 Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 12/16/2009, www.treasury.gov/press-
           center/press-releases/Pages/hp1358.aspx, accessed 7/20/2011.
      64.	 U.S. Senate, “Report Pursuant to Section 129 of the Emergency Economic Stabilization Act of 2008: Authorization to Provide Residual
           Financing to Citigroup, Inc. For a Designated Asset Pool,” 11/23/2008, www.banking.senate.gov/public/_files/Sec129ReportCitigroupDec12008.
           pdf, accessed 7/20/2011.
      65.	Treasury, Section 105(a) Report, 1/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/TARP%20
                                                                                             quarterly report to congress I july 28, 2011              175


     105(a)%20Report%20January%202011_final.pdf, accessed 7/20/2011.
66.	 Treasury, response to SIGTARP vetting draft, 10/8/2010.
67.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
     DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011.
68.	 Federal Reserve Press Release, untitled, 11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 7/20/2011.
69.	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed
     7/20/2011.
70.	 FRBNY, response to SIGTARP data call, 7/8/2011.
71.	 FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed
     7/21/2011; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS, Recent Operations,” no date, www.newyorkfed.org/markets/
     TALF_recent_operations.html, accessed 7/21/2011; FRBNY, response to SIGTARP data call, 7/8/2011.
72.	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed
     7/21/2011; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS, Recent Operations,” no date, www.newyorkfed.org/markets/CMBS_
     recent_operations.html, accessed 7/21/2011; FRBNY, response to SIGTARP data call, 7/8/2011.
73.	 Federal Reserve Press Release, untitled, 11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 7/20/2011.
74.	 FRBNY, response to SIGTARP data call, 7/8/2011.
75.	 FRBNY, response to SIGTARP data call, 7/8/2011.
76.	 Treasury, “Road to Stability — Legacy Securities Public-Private Investment Program,” 10/20/2010, http://www.treasury.gov/initiatives/financial-
     stability/programs/Credit%20Market%20Programs/ppip/Pages/publicprivatefund.aspx, accessed 7/22/2011.
77.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
     DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011; Treasury,
     response to SIGTARP data call, 7/8/2011.
78.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
     DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011; Treasury,
     response to SIGTARP data call, 7/8/2011.
79.	 Treasury, response to SIGTARP draft report, 10/8/2010.
80.	 Treasury Press Release, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press-center/press-releases/Pages/
     tg58.aspx, accessed 7/20/2011.
81.	 Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 3/2/2010,
     www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Small-Business/Documents_Contracts_Agreements/
     Coastal%20Securities,%20Inc.pdf, accessed 7/22/2011; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior
     Securities Issued by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
     cbli/Small-Business/Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20MPA%20
     (73485877_2).pdf, accessed 7/22/2011.
82.	 Treasury, “Financial Agency Agreement for Asset Management Services for SBA Related Loans and Securities,” 3/16/2009, www.treasury.gov/
     initiatives/financial-stability/procurement/faa/Financial_Agency_Agreements/TARP%20FAA%20SBA%20Asset%20Manager%20-%20Final%20
     to%20be%20posted.pdf, accessed 7/22/2011; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued
     by SBA Pool Assemblers,” signed 3/2/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Small-Business/
     Documents_Contracts_Agreements/Coastal%20Securities,%20Inc.pdf, accessed 7/22/2011; Treasury, “Master Purchase Agreement for SBA
     Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/
     programs/investment-programs/cbli/Small-Business/Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20
     Services,%20Inc.%20MPA%20(73485877_2).pdf, accessed 7/22/2011.
83.	 Treasury, response to SIGTARP data call, 7/8/2011.
84.	 Treasury, “Guidelines for Automotive Industry Financing Program,” no date, www.treasury.gov/initiatives/financial-stability/programs/Other%20
     Programs/aifp/Documents_Contracts_Agreements/AIFP_guidelines.pdf, accessed 7/22/2011.
85.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
     DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011.
86.	Treasury, Cumulative Dividends, Interest, and Distributions Report, 7/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/
     reports/dividends-interest/DocumentsDividendsInterest/June%202011%20Dividends%20Interest%20Report.pdf , accessed 7/14/2011.
87.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
     DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011.
88.	 SIGTARP, “Additional Insight on Use of Troubled Asset Relief Program Funds,” 12/10/2009, www.sigtarp.gov/audits.shtml, accessed
     7/22/2011; Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
     DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011.
89.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
     DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011.
90.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
     DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011.
91.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
     DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011.
92.	 Chrysler, “Q1 2011 Results Review (Preliminary),” 5/2/2011, media.chrysler.com/newsrelease.do;jsessionid=23C1FD542488367DE927D
     7C03E92EAB0?&id=10867&mid=2, accessed 7/22/2011; Treasury, Transactions Report, 6/2/2011, www.treasury.gov/initiatives/financial-
     stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/6-2-11%20Transactions%20Report%20as%20of%205-31-11_
     INVESTMENT.pdf, accessed 6/6/2011.
93.	 Treasury Press Release, “Treasury Announces Agreement to Exit Remaining Stake in Chrysler Group LLC,” 6/2/2011, www.treasury.gov/press-
176            special inspector general I troubled asset relief program



            center/press-releases/Pages/tg1199.aspx, accessed 7/20/2011.
      94.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011.
      95.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011.
      96.	 SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1 Registration Statement,” 5/17/2011, www.sec.gov/Archives/edgar/
            data/40729/000119312511142459/ds1a.htm, accessed 5/20/2011.
      97.	 SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1 Registration Statement,” 5/17/2011, www.sec.gov/Archives/edgar/
            data/40729/000119312511142459/ds1a.htm, accessed 5/20/2011.
      98.	 Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
            Public Offering,” 3/31/2011, media.ally.com/index.php?s=43&item=453, accessed 7/21/2011.
      99.	 Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry at a Time of Crisis,” no date, www.financialreformwatch.com/uploads/
            file/Treasury%20-%20Auto%20Supplier%20Support%20Program.pdf, accessed 7/14/2011.
      100.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011.
      101.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011.
      102.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011.
      103.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011.
      104.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011.
      105.	 Obama, Barack, “Remarks by the President on the Home Mortgage Crisis,” 2/18/2009, www.whitehouse.gov/the_press_office/Remarks-by-the-
            President-on-the-mortgage-crisis/, accessed 7/22/2011.
      106.	 Treasury Press Release, “Homeowner Affordability and Stability Plan: Executive Summary,” 2/18/2009, www.treasury.gov/press-center/press-
            releases/Pages/tg33.aspx, accessed 7/22/2011.
      107.	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 6/29/2011.
      108.	 Treasury, “Troubled Asset Relief Program: Two Year Retrospective, 10/5/2010, www.treasury.gov/press-center/news/Documents/TARP%20
            Two%20Year%20Retrospective_10%2005%2010_transmittal%20letter.pdf, accessed 6/24/2011.
      109.	 Congressional Budget Office, “Report on the Troubled Asset Relief Program,” 3/2010, www.cbo.gov/ftpdocs/112xx/doc11227/03-17-TARP.pdf,
            accessed 6/29/2011.
      110.	Treasury, Daily TARP Update, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
            TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2007.01.2011.pdf, accessed 7/11/2011.
      111.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/HAMP%20Transactions%20Report%20as%20of%2006.29.2011.pdf, accessed 7/11/2011.
      112.	 Congressional Budget Office, “Report on the Troubled Asset Relief Program,” 3/2010, www.cbo.gov/ftpdocs/112xx/doc11227/03-17-TARP.pdf,
            accessed 6/29/2011.
      113.	 Treasury, “Secretaries Geithner, Donovan Announce New Details of Making Home Affordable Program, Highlight Implementation Progress,”
            5/14/2009, www.makinghomeaffordable.gov/news/latest/Pages/pr_051409.aspx, accessed 6/29/2011.
      114.	 Fannie Mae, response to SIGTARP vetting draft, 10/6/2010.
      115.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.2,” 6/1/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_32.pdf, accessed 6/29/2011.
      116.	 Treasury, “Home Affordable Foreclosure Alternatives Program: Overview,” no date, www.hmpadmin.com/portal/programs/foreclosure_
            alternatives.jsp, accessed 6/29/2011.
      117.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.2,” 6/1/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_32.pdf, accessed 6/29/2011.
      118.	 Treasury, response to SIGTARP data call, 7/22/2011.
      119.	 Treasury, “Supplemental Directive 10-03: Home Affordable Modification Program — Modifications of Loans Insured by the Federal Housing
            Administration (FHA),” 3/26/2010, www.hmpadmin.com/portal/programs/docs/fha_hamp/sd1003.pdf, accessed 6/29/2011; Treasury,
            “Supplemental Directive 10-10: Home Affordable Modification Program-Modifications of Loans Guaranteed by the Rural Housing Service,”
            9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 6/29/2011; Department of Veterans Affairs, “Revised VA
            Making Home Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/homeloans/circulars/26_10_6.pdf, accessed 6/29/2011.
      120.	 Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 6/29/2011.	
      121.	 Treasury, “Office of Financial Stability: Agency Financial Report — Fiscal Year,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 6/29/2011.
      122.	Treasury, Daily TARP Update, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
            TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2007.01.2011.pdf, accessed 7/11/2011.
      123.	Treasury, Daily TARP Update, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
            TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2007.01.2011.pdf, accessed 7/11/2011.
      124.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/HAMP%20Transactions%20Report%20as%20of%2006.29.2011.pdf, accessed 7/25/2011.
      125.	 Treasury, “Supplemental Directive 10-13: Program Participation Cap Adjustment Pursuant to the Servicer Cap Model,” 10/1/2010,
            www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1013.pdf, accessed 6/29/2011.
      126.	 Treasury, “Supplemental Directive 10-13: Program Participation Cap Adjustment Pursuant to the Servicer Cap Model,” 10/1/2010,
                                                                                          quarterly report to congress I july 28, 2011             177


      www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1013.pdf, accessed 6/29/2011.
127.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/HAMP%20Transactions%20Report%20as%20of%2006.29.2011.pdf, accessed 7/11/2011.
128.	 Treasury, response to SIGTARP data call, 7/22/2011.
129.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/HAMP%20Transactions%20Report%20as%20of%2006.29.2011.pdf, accessed 7/11/2011.
130.	 Treasury, response to SIGTARP data call, 7/22/2011.
131.	 Treasury, response to SIGTARP data call, 7/22/2011.
132.	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/resources/docs/counselor/factsheets/
      mhaoverviewsheetengspan.pdf, accessed 6/29/2011.
133.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.2,” 6/1/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_32.pdf, accessed 6/29/2011.
134.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.2,” 6/1/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_32.pdf, accessed 6/29/2011.
135.	 Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, www.makinghomeaffordable.
      gov/programs/Documents/HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 7/22/2011.
136.	 Treasury, “Supplemental Directive 10-09: MHA Program — Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/programs/docs/
      hamp_servicer/sd1009.pdf, accessed 6/29/2011.
137.	 Treasury, “Supplemental Directive 10-09: MHA Program — Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/programs/docs/
      hamp_servicer/sd1009.pdf, accessed 6/29/2011.
138.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.2,” 6/1/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_32.pdf, accessed 6/29/2011.
139.	 Treasury, “Supplemental Directive 09-01: Introduction of the Home Affordable Modification Program,” 4/6/2009, www.hmpadmin.com/portal/
      programs/docs/hamp_servicer/sd0901.pdf, accessed 6/29/2011.
140.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.2,” 6/1/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_32.pdf, accessed 6/29/2011.
141.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.2,” 6/1/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_32.pdf, accessed 6/29/2011.
142.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.2,” 6/1/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_32.pdf, accessed 6/29/2011.
143.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.2,” 6/1/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_32.pdf, accessed 6/29/2011.
144.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/reports/audit/2010/
      Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 6/29/2011.
145.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.2,” 6/1/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_32.pdf, accessed 6/29/2011.
146.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/reports/audit/2010/
      Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 6/29/2011.
147.	 Treasury, response to SIGTARP data call, 7/22/2011.
148.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/reports/audit/2010/
      Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 6/29/2011.
149.	 Treasury, “Supplemental Directive 10-09: MHA Program — Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/programs/docs/
      hamp_servicer/sd1009.pdf, accessed 6/29/2011.
150.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/reports/audit/2010/
      Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 6/29/2011.
151.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/reports/audit/2010/
      Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 6/29/2011.
152.	 Treasury, “Supplemental Directive 11-01: Making Home Affordable — Dodd-Frank Certification, Internal Quality Assurance and Verification of
      Income Update,” 2/17/2011, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1101.pdf, accessed 6/29/2011.
153.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.2,” 6/1/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_32.pdf, accessed 6/29/2011.
154.	 Treasury, “Supplemental Directive 11-06, Making Home Affordable Program – Updates to Servicer Incentives,” 7/6/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1106.pdf, accessed 7/6/2011.
155.	 Treasury, “Supplemental Directive 11-06, Making Home Affordable Program – Updates to Servicer Incentives,” 7/6/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1106.pdf, accessed 7/6/2011.
156.	 Treasury, “Supplemental Directive 11-06, Making Home Affordable Program – Updates to Servicer Incentives,” 7/6/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1106.pdf, accessed 7/6/2011.
157.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.2,” 6/1/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_32.pdf, accessed 6/29/2011.
158.	 Treasury, “Supplemental Directive 10-09: MHA Program — Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/programs/docs/
      hamp_servicer/sd1009.pdf, accessed 6/29/2011.
159.	 Treasury, “Supplemental Directive 10-09: MHA Program — Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/programs/docs/
      hamp_servicer/sd1009.pdf, accessed 6/29/2011.
160.	 Treasury, “Supplemental Directive 09-01: Introduction of the Home Affordable Modification Program,” 4/6/2009, www.hmpadmin.com/portal/
      programs/docs/hamp_servicer/sd0901.pdf, accessed 6/29/2011.
161.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.2,” 6/1/2011, www.hmpadmin.com/
178            special inspector general I troubled asset relief program



            portal/programs/docs/hamp_servicer/mhahandbook_32.pdf, accessed 6/29/2011.
      162.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/HAMP%20Transactions%20Report%20as%20of%2006.29.2011.pdf, accessed 7/11/2011.
      163.	 Treasury, response to SIGTARP data call, 7/22/2011.
      164.	 Treasury, Supplemental Directive 11-04: MHA Program – Single Point of Contact for Borrower Assistance,” 5/18/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1104.pdf, accessed 7/20/2011.
      165.	 Treasury, Supplemental Directive 11-04: MHA Program – Single Point of Contact for Borrower Assistance,” 5/18/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1104.pdf, accessed 7/20/2011.
      166.	 Treasury, Supplemental Directive 11-04: MHA Program – Single Point of Contact for Borrower Assistance,” 5/18/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1104.pdf, accessed 7/20/2011.
      167.	 Treasury, Supplemental Directive 11-04: MHA Program – Single Point of Contact for Borrower Assistance,” 5/18/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1104.pdf, accessed 7/20/2011.
      168.	 Treasury, response to SIGTARP data call, 5/23/2011.
      169.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.2,” 6/1/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_32.pdf, accessed 6/29/2011.
      170.	 Treasury, “Supplemental Directive 09-04: Home Affordable Modification Program — Home Price Decline Protection Incentives,” 7/31/2009,
            www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd0904.pdf, accessed 6/29/2011.
      171.	 Treasury, response to SIGTARP data call, 7/25/2011.
      172.	 Treasury, “HAMP: Modification of Loans with Principal Reduction Alternative,” no date, www.hmpadmin.com/portal/programs/docs/
            hamp_servicer/praoverviewnongse.pdf, accessed 6/3/2011.
      173.	 Treasury, “HAMP: Modification of Loans with Principal Reduction Alternative,” no date, www.hmpadmin.com/portal/programs/docs/
            hamp_servicer/praoverviewnongse.pdf, accessed 6/3/2011.
      174.	 Treasury, response to SIGTARP data call, 7/22/2011.
      175.	 Treasury, “Supplemental Directive 09-01: Introduction of the Home Affordable Modification Program,” 4/6/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd0901.pdf, accessed 6/29/2011.
      176.	 Treasury, “Supplemental Directive 10-14: MHA Program — Principal Reduction Alternative Update,” 12/22/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1014.pdf, accessed 6/29/2011.
      177.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 6/29/2011.
      178.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 6/29/2011.
      179.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 6/29/2011.
      180.	 Treasury, “Supplemental Directive 10-14: Making Home Affordable Program — Principal Reduction Alternative Update,” 12/22/2010,
            www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1014.pdf, accessed 6/29/2011.
      181.	 Treasury, “Supplemental Directive 10-14: Making Home Affordable Program — Principal Reduction Alternative Update,” 12/22/2010,
            www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1014.pdf, accessed 6/29/2011.
      182.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 6/29/2011.
      183.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 6/29/2011.
      184.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 6/29/2011.
      185.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 6/29/2011.
      186.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 6/29/2011.
      187.	 Treasury, response to SIGTARP data call, 7/22/2011.
      188.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 6/29/2011.
      189.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 6/29/2011.
      190.	 Treasury, “Supplemental Directive 10-14: Making Home Affordable Program — Principal Reduction Alternative Update,” 12/22/2010,
            www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1014.pdf, accessed 6/29/2011.
      191.	 Treasury Press Release, “Housing Program Enhancements Offer Additional Options for Struggling Homeowners,” 3/26/2010, www.treasury.gov/
            press-center/press-releases/Pages/tg614.aspx, accessed 6/29/2011.
      192.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.2,” 6/1/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_32.pdf, accessed 6/29/2011.
      193.	 Treasury/Department of Housing and Urban Development, “Unemployment Special Forbearance: Temporary Program Changes, **Fact
            Sheet**,” July 7, 2011, iafnw.org/soundalliance/current-campaigns/foreclosureintervention/FHAUnemploymentSpecialForbearance.pdf/at_
            download/file, accessed 7/20/2011.
      194.	 Treasury, response to SIGTARP data call, 7/22/2011.
      195.	 Treasury, “Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com//portal/programs/docs/hamp_
            servicer/sd1102.pdf, accessed 6/29/2011.
      196.	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com/
                                                                                        quarterly report to congress I july 28, 2011             179


      portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 6/29/2011.
197.	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/programs/docs/
      hamp_servicer/sd1004.pdf, accessed 7/22/2011.
198.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.2,” 6/1/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_32.pdf, accessed 6/29/2011.
199.	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/programs/docs/
      hamp_servicer/sd1004.pdf, accessed 6/1/2011.
200.	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/programs/docs/
      hamp_servicer/sd1004.pdf, accessed 6/1/2011.
201.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.2,” 6/1/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_32.pdf, accessed 6/29/2011.
202.	 Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, www.makinghomeaffordable.gov/
      programs/Documents/HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 6/29/2011.
203.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.2,” 6/1/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_32.pdf, accessed 6/29/2011.
204.	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives,” 3/26/2010, www.hmpadmin.com/portal/programs/
      docs/hafa/sd0909r.pdf, accessed 6/29/2011.
205.	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives,” 3/26/2010, www.hmpadmin.com/portal/programs/
      docs/hafa/sd0909r.pdf, accessed 6/29/2011.
206.	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives,” 3/26/2010, www.hmpadmin.com/portal/programs/
      docs/hafa/sd0909r.pdf, accessed 6/29/2011; Treasury, “HAMP Update — New Program Offers Borrowers Foreclosure Alternatives,” 11/30/2009,
      www.hmpadmin.com/portal/news/docs/2009/hampupdate113009.pdf, accessed 6/29/2011.
207.	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program — Policy Update,” 12/28/2010,
      www.hmpadmin.com/portal/programs/docs/hafa/sd1018.pdf, accessed 6/29/2011.
208.	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program — Policy Update,” 12/28/2010,
      www.hmpadmin.com/portal/programs/docs/hafa/sd1018.pdf, accessed 6/29/2011.
209.	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program — Policy Update,” 12/28/2010,
      www.hmpadmin.com/portal/programs/docs/hafa/sd1018.pdf, accessed 6/29/2011.
210.	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program — Policy Update,” 12/28/2010,
      www.hmpadmin.com/portal/programs/docs/hafa/sd1018.pdf, accessed 6/29/2011.
211.	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program — Policy Update,” 12/28/2010,
      www.hmpadmin.com/portal/programs/docs/hafa/sd1018.pdf, accessed 6/29/2011.
212.	 Treasury, response to SIGTARP data call, 7/22/2011.
213.	 Treasury, response to SIGTARP data call, 7/22/2011.
214.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.2,” 6/1/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_32.pdf, accessed 6/29/2011.
215.	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 6/29/2011.
216.	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 6/29/2011.
217.	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/
      portal/programs/docs/second_lien/sd0905r.pdf, accessed 6/29/2011.
218.	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/
      portal/programs/docs/second_lien/sd0905r.pdf, accessed 6/29/2011.
219.	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com//
      portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 6/29/2011.
220.	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/
      portal/programs/docs/second_lien/sd0905r.pdf, accessed 6/29/2011.
221.	 Treasury, response to SIGTARP data call, 7/22/2011.
222.	 Treasury, “Supplemental Directive 10-10: Home Affordable Unemployment Program — Modifications of Loans Guaranteed by the Rural
      Housing Service,” 9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 6/29/2011.
223.	 Treasury, “Supplemental Directive 10-10: Home Affordable Unemployment Program — Modifications of Loans Guaranteed by the Rural
      Housing Service,” 9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 6/29/2011.
224.	 Treasury, “Supplemental Directive 10-03: Home Affordable Modification Program — Modifications of Loans Insured by the Federal Housing
      Administration (FHA),” 3/26/2010, www.hmpadmin.com/portal/programs/docs/fha_hamp/sd1003.pdf, accessed 6/29/2011.
225.	 Treasury, “Supplemental Directive 10-10: Home Affordable Unemployment Program — Modifications of Loans Guaranteed by the Rural
      Housing Service,” 9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 6/29/2011.
226.	 Treasury, response to SIGTARP data call, 7/22/2011.
227.	 Department of Veterans Affairs, “Revised VA Making Home Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/homeloans/
      circulars/26_10_6.pdf, accessed 6/29/2011.
228.	 Department of Veterans Affairs, “Revised VA Making Home Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/homeloans/
      circulars/26_10_6.pdf, accessed 6/29/2011.
229.	 Department of Veterans Affairs, “Revised VA Making Home Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/homeloans/
      circulars/26_10_6.pdf, accessed 6/29/2011.
230.	 Department of Veterans Affairs, “Revised VA Making Home Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/homeloans/
180            special inspector general I troubled asset relief program



            circulars/26_10_6.pdf, accessed 6/29/2011.
      231.	 Treasury, “Supplemental Directive 11-01: Making Home Affordable — Dodd-Frank Certification, Internal Quality Assurance and Verification of
            Income Update,” 2/17/2011, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1101.pdf, accessed 6/29/2011.
      232.	 Treasury, “Supplemental Directive 11-01: Making Home Affordable — Dodd-Frank Certification, Internal Quality Assurance and Verification of
            Income Update,” 2/17/2011, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1101.pdf, accessed 7/20/2011.
      233.	 Treasury, “Obama Administration Releases May Housing Scorecard Featuring New Making Home Affordable Servicer Assessments, Regional
            Spotlight on Phoenix Housing Data,” 6/9/2011, www.treasury.gov/press-center/press-releases/Pages/tg1205.aspx, accessed 6/13/2011.
      234.	 Treasury, response to SIGTARP data call, 6/28/2011.
      235.	 Treasury, “April 2011 Making Home Affordable Report and Servicer Assessments For First Quarter 2011,” www.treasury.gov/initiatives/financial-
            stability/results/MHA-Reports/Documents/April%202011%20MHA%20Report%20FINAL.PDF, accessed 6/13/2011.
      236.	 Treasury, response to SIGTARP data call, 6/8/2011.
      237.	 Treasury, “Obama Administration Releases May Housing Scorecard Featuring New Making Home Affordable Servicer Assessments, Regional
            Spotlight on Phoenix Housing Data,” 6/9/2011, www.treasury.gov/press-center/press-releases/Pages/tg1205.aspx, accessed 6/13/2011.
      238.	 HUD, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 6/29/2011;
            Treasury, “Supplemental Directive 10-12: Making Home Affordable Program — Treasury/FHA Second Lien Program (FHA2LP) Effective Date,”
            9/24/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1012.pdf, accessed 7/20/2011.
      239.	 Treasury, response to SIGTARP data call, 7/22/2011; Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/tarp-transactions/ DocumentsTARPTransactions/HAMP%20Transactions%20Report%20as%20of%2006.29.2011.pdf,
            accessed 7/25/2011.
      240.	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, www.cq.com/graphics/
            govdoc/2010/03/26/govdoc20100326-107771.pdf, accessed 7/20/2011.
      241.	 Treasury, response to SIGTARP data call, 7/22/2011.
      242.	Treasury, Daily TARP Update, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
            TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2007.01.2011.pdf, accessed 7/25/2011.
      243.	 Treasury, response to SIGTARP data call, 6/28/2011.
      244.	 HUD, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 6/29/2011;
            HUD, response to SIGTARP draft, 1/10/2011.
      245.	 HUD, response to SIGTARP vetting draft, 1/19/2011.
      246.	 HUD, response to SIGTARP draft report, 1/10/2011.
      247.	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, www.cq.com/graphics/
            govdoc/2010/03/26/govdoc20100326-107771.pdf, accessed 7/20/2011.
      248.	 Treasury, “Supplemental Directive 10-08: Making Home Affordable Program — Treasury/FHA Second Lien Program (FHA2LP) to Support FHA
            Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1008.pdf, accessed
            6/29/2011.
      249.	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, www.cq.com/graphics/
            govdoc/2010/03/26/govdoc20100326-107771.pdf, accessed 7/20/2011.
      250.	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, www.cq.com/graphics/
            govdoc/2010/03/26/govdoc20100326-107771.pdf, accessed 7/20/2011; HUD, response to SIGTARP draft report, 3/31/2011.
      251.	 HUD, response to SIGTARP draft report, 1/19/2011.
      252.	 HUD, response to SIGTARP draft report, 1/12/2011.
      253.	 Treasury, “Supplemental Directive 10-08: Making Home Affordable Program — Treasury/FHA Second Lien Program (FHA2LP) to Support FHA
            Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1008.pdf, accessed
            6/29/2011.
      254.	 Treasury, “Update on HFA Hardest-Hit Fund,” 3/5/2010, www.makinghomeaffordable.gov/news/latest/Pages/pr_03052010.aspx, accessed
            6/29/2011.
      255.	 Treasury, “First Housing Finance Agency Innovation Fund for the Hardest Hit Housing Markets Guidelines for Proposal Submission,” www.
            treasury.gov/initiatives/financial-stability/housing-programs/hhf/Documents/HFA%20Proposal%20Guidelines%20-%201st%20Rd.pdf, accessed
            6/29/2011.
      256.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/HAMP%20Transactions%20Report%20as%20of%2006.29.2011.pdf, accessed 7/25/2011.
      257.	 Treasury, “Administration Announces Second Round of Assistance for Hardest-Hit Housing Markets,” 3/29/2010, www.treasury.gov/press-center/
            press-releases/Pages/tg618.aspx, accessed 6/29/2011.
      258.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/HAMP%20Transactions%20Report%20as%20of%2006.29.2011.pdf, accessed 7/25/2011.
      259.	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
            with Unemployment,” 8/11/2010, portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
            6/29/2011.
      260.	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
            with Unemployment,” 8/11/2010, portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
            6/29/2011.
      261.	Treasury, Section 105(a) Report, 9/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/August%20
            2010%20105(a)%20Report_final_9%2010%2010.pdf, accessed 6/29/2011.
      262.	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
            with Unemployment,” 8/11/2010, portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
            6/29/2011.
      263.	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
                                                                                            quarterly report to congress I july 28, 2011                181


      with Unemployment,” 8/11/2010, portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
      6/29/2011.
264.	Treasury, Transactions Report, 9/30/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/9-30-10%20Transactions%20Report%20as%20of%209-28-10.pdf, p. 42, accessed 6/29/2011.
265.	 Treasury, “TARP: Two Year Retrospective,” 10/5/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/
      Documents/TARP%20Two%20Year%20Retrospective_10%2005%2010_transmittal%20letter.pdf, pp. 76, 98, accessed 6/29/2011.
266.	 Treasury, “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,”
      6/23/2010, www.treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 7/21/2011.
267.	 Treasury, response to SIGTARP data call, 7/22/2011.
268.	Treasury, response to SIGTARP data call, 7/22/2011, Hardest Hit Alabama, “Hardest Hit Alabama,” no date, www.hardesthitalabama.com/,
      accessed 6/1/2011; Arizona Department of Housing, “Save our Home AZ,” no date, www.azhousing.gov/, accessed 6/1/2011; CALHFA Mortgage
      Assistance Corporation, “Keep Your Home California,” no date, www.keepyourhomecalifornia.org/, accessed 6/1/2011; Florida Hardest-Hit,
      “Florida Hardest-Hit,” no date, www.flhardesthithelp.org/, accessed 6/1/2011; Georgia Department of Community Affairs, “Hardest Hit Fund,”
      no date, www.dca.state.ga.us/housing/homeownership/programs/hardesthitfund.asp, accessed 6/1/2011; Illinois Housing Development Authority,
      “Illionis Housing Development Authority,” no date, www.ihda.org/, accessed 6/1/2011; Indiana Foreclosure Prevention Network, “Indiana
      Foreclosure Prevention Network,” no date, www.877gethope.org/, accessed 6/1/2011; Kentucky Housing Corporation, “Kentucky Housing
      Corporation,” no date, www.kyhousing.org/, accessed 6/1/2011; Michigan State Housing Development Authority, “Helping Michigan’s Hardest
      Hit Homeowners,” no date, www.michigan.gov/mshda/0,1607,7-141--235359--,00.html, accessed 6/1/2011; Mississippi Home Corporation,
      “Mississippi Home Corporation,” no date, www.mshomecorp.com/firstpage.htm, accessed 6/1/2011; Nevada’s Hardest Hit Funds, “Nevada’s
      Hardest Hit Funds,” no date, www.nahac.org/, accessed 6/1/2011; State of New Jersey Housing and Mortgage Finance Agency, “State of New
      Jersey Housing and Mortgage Finance Agency,” no date, www.state.nj.us/dca/hmfa/, accessed 7/22/2011; NC Foreclosure Prevention Fund,
      “Help for the Hardest Hit Homeowners,” no date, www.ncforeclosureprevention.gov/, accessed 6/1/2011; Ohio.gov, “Ohio’s Foreclosure
	     Prevention Effort, no date, www.savethedream.ohio.gov/, accessed 6/1/2011; Oregon Homeownership Stabilization Initiative, “OHSI,” no date,
      www.oregonhomeownerhelp.org/, accessed 6/1/2011; Hardest Hit Fund-Rhode Island, “HHFRI,” no date, www.hhfri.org/, accessed 6/1/2011;
      SC Help, “South Carolina Homeownership and Employment Lending Program,” no date, www.scmortgagehelp.com/, accessed 6/1/2011;
      Tennesse Housing Development Agency, “THDA,” no date, www.thda.org/, accessed 6/1/2011; District of Columbia Housing Finance Agency,
      “District of Columbia Housing Finance Agency,” no date, www.dchfa.org/, accessed 6/1/2011.
269.	 Aggregate and state quarterly “HFA Performance Data Reporting” reports, as of March 31, 2011, Treasury, response to SIGTARP data request
      on 5/20/2011, and 14 state HHF websites, accessed 6/1/2011.
270.	 OFS conference call, 3/19/2009.
271.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
      programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/21/2011.
272.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
      programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/21/2011.
273.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
      programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/21/2011.
274.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011.
275.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011; Treasury,
      “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/programs/
      investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/21/2011; Treasury, Cumulative Dividends, Interest, and Distributions
      Report, 7/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/DocumentsDividendsInterest/June%20
      2011%20Dividends%20Interest%20Report.pdf , accessed 7/11/2011.
276.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011.
277.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011.
278.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011.
279.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011.
280.	Treasury, Cumulative Dividends, Interest, and Distributions Report , 7/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/
      reports/dividends-interest/DocumentsDividendsInterest/June%202011%20Dividends%20Interest%20Report.pdf, accessed 7/11/2011.
281.	 Treasury, response to SIGTARP vetting draft, 7/8/2011; Treasury, response to SIGTARP data call, 7/8/2011; Treasury, Cumulative Dividends,
      Interest, and Distributions Report, 7/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/June%202011%20Dividends%20Interest%20Report.pdf, accessed 7/11/2011; Treasury and SIGTARP,
      Methodology for Missed Dividends & Interest, 12/31/2011.
282.	 OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 7/22/2011.
283.	 Treasury, response to SIGTARP data call, 10/6/2010; OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,”
      no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20
      Fact%20Sheet.pdf, accessed 7/22/2011.
284.	 Treasury, “Frequently Asked Questions, Missed Dividend (or Interest), Payments and Director Nomination,” no date, www.treasury.gov/
      initiatives/financial-stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20FAQs.pdf, accessed 7/22/2011; Treasury,
      response to SIGTARP data call, 7/8/2011.
182            special inspector general I troubled asset relief program



      285.	 Treasury, response to SIGTARP data call, 7/8/2011.
      286.	 OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 7/20/2011.
      287.	 Treasury, responses to SIGTARP data call, 1/10/2011, 4/6/2011, and 7/11/2011.
      288.	 OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 7/20/2011.
      289.	 Treasury, response to SIGTARP data call, 7/8/2011.
      290.	 OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 7/20/2011.
      291.	 Treasury, response to SIGTARP data call, 7/8/2011.
      292.	 Treasury, “Frequently Asked Questions, Missed Dividend (or Interest), Payments and Director Nomination,” no date, www.treasury.gov/
            initiatives/financial-stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20FAQs.pdf, accessed 7/22/2011; Treasury,
            response to SIGTARP data call, 7/8/2011.
      293.	 Treasury, response to SIGTARP data call, 7/8/2011.
      294.	 Treasury, response to SIGTARP data call, 1/12/2011, 4/8/2011 and 7/8/2011; Treasury, Cumulative Dividends, Interest, and Distributions Report,
            7/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/DocumentsDividendsInterest/June%20
            2011%20Dividends%20Interest%20Report.pdf, accessed 7/11/2011.
      295.	Treasury, Cumulative Dividends, Interest, and Distributions Report, 7/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/
            reports/dividends-interest/DocumentsDividendsInterest/June%202011%20Dividends%20Interest%20Report.pdf, accessed 7/11/2011; SIGTARP,
            CPP-Related Missed Dividend & Interest Payments, 12/31/2010; Treasury and SIGTARP, Methodology for Missed Dividends & Interest,
            12/31/2010.
      296.	Treasury, Cumulative Dividends, Interest, and Distributions Report, 7/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/
            reports/dividends-interest/DocumentsDividendsInterest/June%202011%20Dividends%20Interest%20Report.pdf, accessed 7/11/2011.
      297.	 Treasury, “Decoder,” no date, www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed 7/20/2011.
      298.	Treasury, Warrant Disposition Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/other/DocumentsOther/
            TARP%20Warrant%20Disposition%20Report%2012.31.2010%20Update.pdf, accessed 7/25/2011.
      299.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
            press-center/press-releases/Pages/200962612255225533.aspx, accessed 7/20/2011.
      300.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
            press-center/press-releases/Pages/200962612255225533.aspx, accessed 7/20/2011.
      301.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
            press-center/press-releases/Pages/200962612255225533.aspx, accessed 1/17/2011; Treasury, Transactions Report, 7/1/2011, www.treasury.gov/
            initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20
            of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011.
      302.	 Treasury Press Release, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009,
            www.treasury.gov/press-center/press-releases/Pages/200962612255225533.aspx, accessed 7/20/2011; Treasury, response to SIGTARP data call,
            7/8/2011.
      303.	 Treasury, response to SIGTARP data call, 7/8/2011.
      304.	 Treasury, response to SIGTARP data call, 7/8/2011.
      305.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
            press-center/press-releases/Pages/200962612255225533.aspx, accessed 7/20/2011.
      306.	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 11/19/2009 (updated 4/12/2010),
            www.treasury.gov/press-center/press-releases/Pages/tg415.aspx, accessed 7/20/2011.
      307.	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 11/19/2009 (updated 4/12/2010),
            www.treasury.gov/press-center/press-releases/Pages/tg415.aspx, accessed 7/20/2011.
      308.	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 11/19/2009 (updated 4/12/2010),
            www.treasury.gov/press-center/press-releases/Pages/tg415.aspx, accessed 7/20/2011.
      309.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011; Treasury,
            Section 105(a) Report, 7/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/June%20105(a)%20
            Report.pdf, accessed 7/11/2011.
      310.	 Treasury, response to SIGTARP data call, 7/8/2011; Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_
            INVESTMENT.pdf, accessed 7/22/2011.
      311.	 OFS conference call, 3/19/2010; Treasury, response to SIGTARP data call, 10/8/2010.
      312.	 OFS conference call, 3/19/2010.
      313.	 Treasury, response to SIGTARP draft report, 7/8/2011.
      314.	 OFS conference call, 3/19/2010.
      315.	 OFS conference call, 3/19/2010.
      316.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011.
      317.	 Cascade Financial Corporation, 8-K, 3/4/2011, www.sec.gov/Archives/edgar/data/928911/000092891111000006/c8-k030411.htm, accessed
            7/20/2011.
      318.	 Cascade Financial Corporation, 8-K, 3/4/2011, www.sec.gov/Archives/edgar/data/928911/000092891111000006/c8-k030411.htm, accessed
            7/20/2011.
                                                                                          quarterly report to congress I july 28, 2011              183


319.	 Cascade Financial Corporation, 8-K, 6/1/2011, www.sec.gov/Archives/edgar/data/928911/000092891111000036/c8k-053111.htm, accessed
      7/20/2011; Cascade Financial Corporation, 8-K, 6/27/2011, www.sec.gov/Archives/edgar/data/928911/000092891111000039/c8k-062711.htm,
      accessed 7/20/2011.
320.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011.
321.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011.
322.	 FNB United Corporation, 8-K, 4/27/2011, www.sec.gov/Archives/edgar/data/764811/000117184311001149/f8k_042711.htm, accessed
      5/10/2011.
323.	 FNB United Corporation, 8-K, 4/27/2011, www.sec.gov/Archives/edgar/data/764811/000117184311001149/f8k_042711.htm, accessed
      5/10/2011; FNB United Corporation, 8-K, 3/3/2011, www.sec.gov/Archives/edgar/data/764811/000119312511054953/dex101.htm, accessed
      5/10/2011.
324.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011.
325.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011.
326.	 Valley National Bancorp, 8-K, 5/4/2011, www.sec.gov/Archives/edgar/data/714310/000119312511126281/d8k.htm, accessed 5/10/2011.
327.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011.
328.	 First Federal Bancshares of Arkansas, Inc., 8-K, 1/28/2011, www.sec.gov/Archives/edgar/data/1006424/000110465911003554/a11-4752_18k.
      htm, accessed 4/20/2011.
329.	 First Federal Bancshares of Arkansas, Inc., 10-K, 3/16/2011, www.sec.gov/Archives/edgar/data/1006424/000110465911014495/a11-2043_110k.
      htm, accessed 7/22/2011; Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/
      tarp-transactions/DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed
      7/22/2011.
330.	 First Federal Bancshares of Arkansas, Inc., 8-K, 5/3/2011, www.sec.gov/Archives/edgar/data/1006424/000110465911025345/a11-11382_18k.
      htm, accessed 7/20/2011.
331.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011.
332.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011; M&T Bank
      Corporation, 8-K, www.sec.gov/Archives/edgar/data/36270/000089882209000310/mandt8kbody.htm, accessed 5/16/2011.
333.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011.
334.	 M&T Bank Corporation, 8-K, 4/26/2011, www.sec.gov/Archives/edgar/data/36270/000095012311039508/l42459exv99w1.htm, accessed
      5/16/2011.
335.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011.
336.	 M&T Bank Corporation Press Release, “M&T Bank Corporation Completes Acquisition of Wilmington Trust Corporation,” 5/16/2011, mtb.
      mediaroom.com/wilmington_trust_acquisition, accessed 5/16/2011.
337.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011.
338.	 Hancock Press Release, “Hancock Holding Company & Whitney Holding Corporation Combine,” 12/22/2010, www.onestrongfuture.com/
      press-release/hancock-holding-company-whitney-holding-corporation-combine-to-form-the-preeminent-gulf-south-financial-institution, accessed
      6/7/2011.
339.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011.
340.	 Hancock Press Release, “Hancock Holding Company Receives Approval to Merge Whitney Holding Corporation,” 5/13/2011, www.
      hancockbank.com/home/news_press/merger_approval_fed.asp, accessed 6/7/2011; Hancock Press Release, “Hancock Holding Company
      Completes Whitney Holding Corporation Merger,” 6/5/2011, www.hancockbank.com/home/news_press/whitney_merger_complete.asp, accessed
      6/7/2011.
341.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011.
342.	 Parkvale Financial Corporation, 8-K, 6/15/2011, www.sec.gov/Archives/edgar/data/820907/000095012311059268/l42922e8vk.htm, accessed
      6/16/2011.
343.	 Parkvale Financial Corporation, 8-K, 6/15/2011, www.sec.gov/Archives/edgar/data/820907/000095012311059268/l42922e8vk.htm, accessed
      6/16/2011.
344.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011.
345.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011.
346.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011.
347.	 Mission Community Bancorp, 8-K, 6/27/2011, www.sec.gov/Archives/edgar/data/1129920/000112992011000012/form8k.htm, accessed
      6/29/2011; Santa Lucia Bancorp, 8-K, 6/27/2011, www.sec.gov/Archives/edgar/data/1355607/000114420411037577/v227039_8k.htm, accessed
      6/29/2011.
184            special inspector general I troubled asset relief program



      348.	 Mission Community Bancorp Press Release, “Mission Community Bancorp Announces Agreement to Acquire Santa Lucia Bank,” 6/27/2011,
            www.missioncommunitybank.com/images/pdf/Press_Release_MC_Bancorp_agreement_to_acquire_Santa_Lucia_Bank.pdf, accessed 6/29/2011.
      349.	 Santa Lucia Bancorp, 8-K, 6/27/2011, www.sec.gov/Archives/edgar/data/1355607/000114420411037577/v227039_8k.htm, accessed 6/29/2011;
            Mission Community Bancorp Press Release, “Mission Community Bancorp Announces Agreement to Acquire Santa Lucia Bank,” 6/27/2011,
            www.missioncommunitybank.com/images/pdf/Press_Release_MC_Bancorp_agreement_to_acquire_Santa_Lucia_Bank.pdf, accessed 6/29/2011.
      350.	 Santa Lucia Bancorp, 8-K, 6/27/2011, www.sec.gov/Archives/edgar/data/1355607/000114420411037577/v227039_8k.htm, accessed 6/29/2011.
      351.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011.
      352.	 First Community Bank Corporation of America, Schedule 14a Information, 5/17/2010, www.sec.gov/Archives/edgar/
            data/1082564/000119312510061650/dpre14a.htm, accessed 7/22/2011.
      353.	 First Community Bank Corporation of America, Schedule 14a Information, 5/17/2011, www.sec.gov/Archives/edgar/
            data/1082564/000119312510061650/dpre14a.htm, accessed 7/22/2011.
      354.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011.
      355.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011; First
            Community Bank Corporation of America, 8-K, 6/1/2011, www.sec.gov/Archives/edgar/data/1082564/000119312511155693/d8k.htm, accessed
            6/3/2011.
      356.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011.
      357.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/25/2011.
      358.	 Central Pacific Financial Corp., 8-K, 11/4/2010, www.sec.gov/Archives/edgar/data/701347/000070134710000055/form8-k.htm, accessed
            7/20/2011.
      359.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/25/2011.
      360.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011.
      361.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” no date, www.treasury.gov/initiatives/financial-stability/programs/
            investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/20/2011.
      362.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/25/2011.
      363.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/25/2011.
      364.	 Office of Thrift Supervision, In the Matter of Superior Bancorp, Docket No. H4235, Order to Cease and Desist, November 2, 2010, www.ots.
            treas.gov/_files/enforcement/97501.pdf, accessed 5/9/2011; Office of Thrift Supervision, In the Matter of Superior Bank, Docket No. 18010,
            Order to Cease and Desist, November 2, 2010, www.ots.treas.gov/_files/enforcement/97500.pdf, accessed 5/10/2011.
      365.	 FDIC Press Release, “Superior Bank, N.A., Birmingham, Alabama, Assumes All of the Deposits of Superior Bank, Birmingham, Alabama,”
            4/15/2011, www.fdic.gov/news/news/press/2011/pr11073.html, accessed 5/10/2011.
      366.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-8-11%20Transactions%20Report%20as%20of%207-6-11_INVESTMENT.pdf, accessed 7/11/2011.
      367.	 FDIC Press Release, “Superior Bank, N.A., Birmingham, Alabama, Assumes All of the Deposits of Superior Bank, Birmingham, Alabama,”
            4/15/2011, www.fdic.gov/news/news/press/2011/pr11073.html, accessed 5/10/2011.
      368.	 Treasury, response to SIGTARP conference call, 12/3/2010.
      369.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
            Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 7/14/2011; Treasury, Section 105(a) Report,
            3/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/Monthly%20Report_February2010.pdf,
            accessed 7/14/2011; Small Business Jobs Act, P.L. 111-240, 9/27/2010.
      370.	 White House Press Release, “Remarks by the President on Small Business Initiatives,” 10/21/2010, www.whitehouse.gov/the-press-office/
            remarks-president-small-business-initiatives-landover-md, accessed 7/14/2011.
      371.	 Treasury, “Frequently Asked Questions,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cdci/Pages/
            comdev.aspx, accessed 7/22/2011; Treasury, “Community Development Capital Initiative,” 6/4/2010, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cdci/Pages/comdev.aspx, accessed 7/25/2011; Treasury, Section 105(a) Report, 3/10/2010, www.treasury.
            gov/ initiatives/financial-stability/briefing-room/reports/105/Documents105/Monthly%20Report_February2010.pdf, accessed 7/14/2011;
            Treasury Press Release, “Treasury Announces Special Financial Stabilization Initiative Investments of $570 Million in Community Development
            Financial Institutions in Underserved Areas,” 9/30/2010, www.treasury.gov/press-center/press-releases/Pages/tg885.aspx, accessed 7/22/2011.
      372.	Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
            2010%20105(a)%20report_final.pdf, accessed 7/25/2011.
      373.	 Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
            cdci/Pages/comdev.aspx, accessed 7/22/2011.
      374.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
            Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 7/14/2011.
      375.	 Treasury Press Release, “Treasury Announces Special Financial Stabilization Initiative Investments of $570 Million in 84 Community
            Development Financial Institutions in Underserved Areas,” 9/30/2010, www.cdfifund.gov/docs/2010/tarp/FINAL%20CDCI-TARP%20
            Release%209-30-10.pdf, accessed 7/14/2011.
                                                                                            quarterly report to congress I july 28, 2011               185



376.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
      Institutions,”2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 7/14/2011.
377.	 Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-
      programs/ cdci/Pages/comdev.aspx, accessed 7/22/2011; Treasury, “Application Guidelines for TARP Community Development
      Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cdci/Documents/
      Bank20Thrift20CDCI20Application20Updated20Form.pdf, accessed 7/25/2011.
378.	 Treasury, “Community Development Capital Initiative CDFI Credit Unions Senior Securities — Term Sheet,” no date, www.treasury.gov/
      initiatives/financial-stability/programs/investment-programs/cdci/Documents/CDCI20Credit20Union20Term20Sheet20042610.pdf, accessed
      7/25/2011; Treasury, “Community Development Capital Initiative CDFI Subchapter S Corporation Senior Securities — Term Sheet,” no date,
      www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cdci/Documents/CDCI20S20Corp20Term20Sheet.pdf, accessed
      7/25/2011.
379.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
      Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 7/14/2011.
380.	 Treasury, “Frequently Asked Questions,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cdci/Documents/
      CDCI20FAQs20Updated.pdf, accessed 7/25/2011; Treasury Press Release, “Obama Administration Announces Enhancements for TARP
      Initiative for Community Development Financial Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx,
      accessed 7/14/2011.
381.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
      Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 7/14/2011.
382.	 Treasury Press Release, “Treasury Announces Special Financial Stabilization Initiative Investments of $570 Million in 84 Community
      Development Financial Institutions in Underserved Areas,” 9/30/2010, www.treasury.gov/press-center/press-releases/Pages/tg885.aspx, accessed
      7/22/2011; Treasury OFS, response to SIGTARP data call, 10/7/2010.
383.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/8/2011.
384.	Treasury, Cumulative Dividends, Interest, and Distributions Report, 7/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/
      reports/dividends-interest/DocumentsDividendsInterest/June%202011%20Dividends%20Interest%20Report.pdf, accessed 7/20/2011.
385.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/8/2011.
386.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/8/2011.
387.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/8/2011.
388.	 Office of Thrift Supervision, In the Matter of Carver Bancorp, Inc., Docket No. H2732, 2/7/2011, www.ots.treas.gov/_files/enforcement/97592.
      pdf, accessed 7/7/2011; Office of Thrift Supervision, In the Matter of Carver Federal Savings Bank, Docket No. 05273, 2/7/2011, www.ots.treas.
      gov/_files/enforcement/97591.pdf, accessed 7/7/2011.
389.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/8/2011; Carver
      Bancorp, Inc., 8-K: Exhibit 10.3, 6/29/2011, www.sec.gov/Archives/edgar/data/1016178/000101617811000016/ex103exchangeagreement.htm,
      accessed 7/7/2011; Carver Bancorp, Inc. Press Release, “Carver Bancorp Raises $55 million in New Equity Capital from Institutional Investors,”
      6/29/2011, www.sec.gov/Archives/edgar/data/1016178/000101617811000016/ex991pressrelease.htm, accessed 7/8/2011.
390.	Treasury, Cumulative Dividends, Interest, and Distributions Report, 7/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/
      reports/dividends-interest/DocumentsDividendsInterest/June%202011%20Dividends%20Interest%20Report.pdf, accessed 7/20/2011.
391.	 Treasury, response to SIGTARP data call, 7/13/2011.
392.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/8/2011; Carver
      Bancorp, Inc., 8-K: Exhibit 10.3, 6/29/2011, www.sec.gov/Archives/edgar/data/1016178/000101617811000016/ex103exchangeagreement.htm,
      accessed 7/7/2011; Carver Bancorp, Inc. Press Release, “Carver Bancorp Raises $55 million in New Equity Capital from Institutional Investors,”
      6/29/2011, www.sec.gov/Archives/edgar/data/1016178/000101617811000016/ex991pressrelease.htm, accessed 7/8/2011.
393.	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 1, p. 83.
394.	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 2.
395.	 Treasury, “Resource Center — Small Business Lending Fund,” 12/20/2010, www.treasury.gov/resource-center/sb-programs/Pages/Small-
      Business-Lending-Fund.aspx, accessed 7/21/2011; Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/
      resource-center/sb-programs/Documents/SBLF_Getting_Started_Guide_Final.pdf, accessed 7/14/2011.
396.	 Treasury, “Application Instructions”, 3/28/2011, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_%20Application_%203-28-11.
      pdf, accessed 7/14/2011.
397.	 Treasury, “Small Business Lending Fund – Overview for Subchapter S Corporations and Mutual Institutions,” no date, www.treasury.gov/
      resource-center/sb-programs/Pages/Overview-for-S-Corporation-Banks-and-Mutual-Institutions.aspx, accessed 6/9/2011.
398.	 Treasury, “Small Business Lending Fund: Community Development Financial Institution Loan Funds Equity Equivalent Capital – Summary of
      Terms,” 5/25/2011, www.treasury.gov/resource-center/sb-programs/Documents/SBLF-CDLF%20Term%20Sheet.pdf, accessed 7/14/2011.
399.	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
      Getting_Started_Guide_Final.pdf, accessed 7/14/2011.
400.	 Treasury, “Small Business Lending Fund: Overview for Banks,” www.treasury.gov/resource-center/sb-programs/Pages/Overview-for-Banks.aspx,
      accessed 6/8/2011; Treasury, “Small Business Lending Fund: Overview for Subchapter S Corporations and Mutual Institutions,” no date, www.
      treasury.gov/resource-center/sb-programs/Pages/Overview-for-S-Corporation-Banks-and-Mutual-Institutions.aspx, accessed 6/8/2011.
401.	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
186            special inspector general I troubled asset relief program



            Getting_Started_Guide_Final.pdf, accessed 7/14/2011; Treasury, “Small Business Lending Fund: Overview for Subchapter S Corporations and
            Mutual Institutions,” no date, www.treasury.gov/resource-center/sb-programs/Pages/Overview-for-S-Corporation-Banks-and-Mutual-Institutions.
            aspx, accessed 6/8/2011.
      402.	 Treasury, “Small Business Lending Fund: Community Development Financial Institution Loan Funds Equity Equivalent Capital – Summary of
            Terms,” 5/25/2011, www.treasury.gov/resource-center/sb-programs/Documents/SBLF-CDLF%20Term%20Sheet.pdf, accessed 6/9/2011.
      403.	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
            Getting_Started_Guide_Final.pdf, accessed 7/20/2011.
      404.	 Treasury, “Resource Center – Overview for Banks,” 6/8/2011, www.treasury.gov/resource-center/sb-programs/Pages/Overview-for-Banks.aspx,
            accessed 6/10/2011; Treasury, “Resource Center – Overview for Subchapter S Corporations and Mutual Institutions,” 6/8/2011, www.treasury.
            gov/resource-center/sb-programs/Pages/Overview-for-S-Corporation-Banks-and-Mutual-Institutions.aspx, accessed 6/10/2011.
      405.	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
            Getting_Started_Guide_Final.pdf, accessed 7/14/2011; Treasury, “Small Business Lending Fund – Overview for Subchapter S Corporations and
            Mutual Institutions,” no date, www.treasury.gov/resource-center/sb-programs/Pages/Overview-for-S-Corporation-Banks-and-Mutual-Institutions.
            aspx, accessed 6/9/2011; Treasury, “Small Business Lending Plan Guide: For Community Loan Development Funds,” no date, www.treasury.gov/
            resource-center/sb-programs/Documents/CDLF%20Lending%20Plan%20and%20Guide.pdf, accessed 7/22/2011.
      406.	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 87.
      407.	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 87.
      408.	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 87.
      409.	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 87; Treasury, “Small Business Lending Fund, Senior Preferred Stock — Summary of Terms
            for Current CPP and CDCI Participants,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Refinancing_Term_Sheet_
            Final.pdf, accessed 7/14/2011.
      410.	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
            Getting_Started_Guide_Final.pdf, accessed 7/14/2011.
      411.	 Treasury, “Small Business Lending Fund: Senior Preferred Stock – Summary of Terms,” no date, www.treasury.gov/resource-center/sb-programs/
            Documents/SBLF%20Preferred%20Term%20Sheet.pdf, accessed 6/9/2011; Treasury, “Small Business Lending Fund: Mutual Institution Senior
            Securities – Summary of Terms,” 5/9/2011, www.treasury.gov/resource-center/sb-programs/Documents/SBLF%20Mutual%20Institutions%20
            Term%20Sheet.pdf, accessed 6/9/2011; Treasury, “Small Business Lending Fund: Subchapter S Corporation Senior Securities – Summary
            of Terms,” 5/9/2011, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_S_Corporation_Term_Sheet_05-02-11.pdf, accessed
            6/9/2011.
      412.	 Treasury, response to SIGTARP data call, 7/13/2011.
      413.	 Treasury, response to SIGTARP data call, 7/13/2011.
      414.	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
            Getting_Started_Guide_Final.pdf, accessed 7/14/2011.
      415.	 Treasury, “Resource Center — Small Business Lending Fund,” 12/20/2010, www.treasury.gov/resource-center/sb-programs/Pages/Small-
            Business-Lending-Fund.aspx, accessed 7/14/2011.
      416.	 Treasury, “Small Business Lending Fund, Senior Preferred Stock — Summary of Terms for Current CPP and CDCI Participants,” no date,
            www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Refinancing_Term_Sheet_Final.pdf, accessed 7/20/2010; Treasury, “SBLF
            — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Getting_Started_
            Guide_Final.pdf, accessed 7/14/2011.
      417.	 Treasury, “Department of Treasury Budget in Brief FY 2010”, 10/2009, www.treasury.gov/about/budget-performance/budget-in-brief/Documents/
            FY2010BIB-Complete.pdf, accessed 6/29/2011.
      418.	 Treasury, response to SIGTARP data call, 10/8/2010.
      419.	Treasury, Section 105(a) Report, 12/5/2008, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/TARPfirst-
            105report.pdf, accessed 6/29/2011.
      420.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/8/2011; Treasury,
            “Securities Exchange Agreement,” 4/17/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/AIG/Documents/
            Series.E.Securities.Exchange.Agreement.pdf, accessed 7/22/2011; Treasury, “Securities Purchase Agreement,” 4/17/2009, www.treasury.gov/
            initiatives/financial-stability/investment-programs/AIG/Documents/Series.F.Securities.Purchase.Agreement.pdf, accessed 7/14/2011.
      421.	 Treasury Press Release, “Treasury Announces Completion of the American International Group Recapitalization Transaction,” 1/14/2011, www.
            treasury.gov/press-center/press-releases/Pages/tg1024.aspx, accessed 7/14/2011.
      422.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/8/2011.
      423.	 AIG Press Release, “AIG and the U.S. Department of the Treasury Complete Offering of AIG Common Stock,” 5/27/2011, www.aigcorporate.
            com/newsroom/index.html, accessed 7/14/2011; Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-
            room/reports/tarp-transactions/DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf,
            accessed 7/8/2011. 
      424.	 AIG, 424B3, 5/11/2011, www.sec.gov/Archives/edgar/data/5272/000095012311048645/y91210b7e424b3.htm, accessed 6/29/2011;
            Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/8/2011. 
      425.	 Treasury, response to SIGTARP data call, 1/11/2011.
      426.	 AIG, “Certificate of Designations of Series E Fixed Rate Non-Cumulative Perpetual Preferred Stock of American International Group, Inc.,”
            4/17/2009, www.sec.gov/Archives/edgar/data/5272/000095012309006777/y76448exv3w1.htm, accessed 7/14/2011.
      427.	 Treasury Press Release, “Treasury Names Two Appointees to AIG’s Board of Directors,” 4/1/2010, www.treasury.gov/press-center/press-releases/
            Pages/tg623.aspx, accessed 7/14/2011.
      428.	 FRBNY, “CREDIT AGREEMENT dated as of September 22, 2008, between AMERICAN INTERNATIONAL GROUP, INC., as Borrower and
                                                                                            quarterly report to congress I july 28, 2011               187


      FEDERAL RESERVE BANK OF NEW YORK, as Lender,” 9/22/2008, www.newyorkfed.org/aboutthefed/aig/pdf/original_credit_agreement.
      pdf, accessed 7/14/2011; AIG, 10-K, 2/26/2010, www.sec.gov/Archives/edgar/data/5272/000104746910001465/a2196553z10-k.htm, accessed
      7/14/2011.
429.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/reports/audit/2009/Factors_
      Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 7/14/2011.
430.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/reports/audit/2009/Factors_
      Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 7/14/2011.
431.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/reports/audit/2009/Factors_
      Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 7/14/2011.
432.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 7/14/2011; FRBNY, “Maiden Lane
      Transactions,” no date, www.newyorkfed.org/markets/maidenlane.html, accessed 7/14/2011.
433.	 FRBNY Press Release, “New York Fed to Sell Maiden Lane II Assets in Competitive Process over Time,” 3/30/2011, www.newyorkfed.org/
      newsevents/news/markets/2011/an110330.html, accessed 7/14/2011.
434.	 FRBNY, “Maiden Lane II LLC: Bid List Offering,” no date, www.newyorkfed.org/markets/MLII_recent_bidlistoffering.html, accessed 7/14/2011;
      FRBNY, Maiden Lane II LLC: Bid List Offering,” no date, www.newyorkfed.org/markets/mlII_bidlistoffering.html, accessed 7/14/2011; FRBNY
      Press Release, “New York Fed to Sell Maiden Lane II Assets in Competitive Process over Time,” 3/30/2011, www.newyorkfed.org/newsevents/
      news/markets/2011/an110330.html, accessed 7/14/2011.
435.	 Federal Reserve, “Factors Affecting Reserve Balances,” 7/7/2011, www.federalreserve.gov/releases/h41/Current/, accessed 7/8/2011; FRBNY,
      response to SIGTARP vetting draft, 7/13/2011.
436.	 Federal Reserve Bank of New York, “Maiden Lane II Bid List Offering (FRBNY),” no date, www.newyorkfed.org/markets/MLII/maidenlane.cfm,
      accessed 7/8/2011.
437.	 Treasury Press Release, “U.S. Treasury and Federal Reserve Board Announce Participation in AIG Restructuring Plan,” 3/8/2009, www.treasury.
      gov/press-center/press-releases/Pages/tg44.aspx, accessed 7/14/2011.
438.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 7/14/2011.
439.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 7/14/2011.
440.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 7/20/2011.
441.	 FRBNY, “Factors Affecting Reserve Balances,” 12/30/2010, www.federalreserve.gov/releases/h41/20101230/, accessed 7/14/2011.
442.	 FRBNY, response to SIGTARP vetting draft, 1/19/2011.
443.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/0000950123-11-003061-index.htm, accessed 7/14/2011.
444.	 AIG, “AIG Enters into Agreement to Sell Star and Edison Life Companies,” 9/30/2010, www.aig.co.jp/news/n2010/100930AIG.pdf, accessed
      7/14/2011.
445.	 AIG, 10-K, 2/24/2011, www.sec.gov/Archives/edgar/data/5272/000104746911001283/a2202141z10-k.htm, accessed 7/14/2011.
446.	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 7/14/2011.
447.	 AIG, 8-K, 2/9/2011, www.sec.gov/Archives/edgar/data/5272/000095012311010653/y89586e8vk.htm, accessed 7/14/2011.
448.	 Treasury, response to SIGTARP data call, 2/22/2011; Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/
      briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_
      INVESTMENT.pdf, accessed 7/14/2011.
449.	 AIG, 8-K, 10/22/2010, www.sec.gov/Archives/edgar/data/5272/000095012310095032/y87334e8vk.htm, accessed 6/29/2011; AIG, “AIG Raises
      Nearly $37 Billion in Two Transactions to Repay Government,” 11/1/2010, http://ir.aigcorporate.com/External.File?t=2&item=g7rqBLVLuv81U
      Amrh20Mp/lptmOSyzUBWuL0HcUb4QPW7icXt6tSsNcMErV4ODIOk1KW0aD3/sacvpSe5qek1w==, accessed 6/29/2011.
450.	 AIG, 10-Q, 11/5/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 7/20/2011.
451.	 Treasury Press Release, “With $6.9 Billion Repayment Today from AIG, 70 Percent of TARP Disbursements Now Recovered,” 3/8/2011,
      www.treasury.gov/press-center/press-releases/Pages/tg1096.aspx, accessed 7/14/2011; AIG, 8-K, 3/1/2011, www.sec.gov/Archives/edgar/
      data/5272/000095012311021398/y90008ae8vk.htm, accessed 7/14/2011.
452.	 AIG, “AIG Enters into Agreement to Sell Nan Shan to Taiwan-Based Consortium Led by the Ruentex Group,” 1/12/2011, http://ir.aigcorporate.
      com/External.File?t=2&item=g7rqBLVLuv81UAmrh20Mp2GDwAh4Ju2qNKZiaQ+LC4eLA/wD8wJ898T+OGLtuOD53u0EV2e/
      b6wq8HGwkVuaVQ==, accessed 7/14/2011.
453.	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 7/20/2011; AIG, 8-K,
      1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/0000950123-11-003061-index.htm, accessed 7/14/2011.
454.	 FRBNY, “Master Transaction Agreement,” 12/8/2010, www.ny.frb.org/aboutthefed/aig/pdf/master_transaction_agreement.pdf, accessed
      7/14/2011.
455.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/0000950123-11-003061-index.htm, accessed 7/14/2011;
      FRBNY, response to SIGTARP vetting draft, 1/19/2011.
456.	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 7/14/2011; Treasury, response
      to SIGTARP draft report, 1/19/2011.
457.	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 7/14/2011.
458.	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 7/14/2011.
459.	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 7/14/2011; FRBNY, response to
      SIGTARP vetting draft, 1/19/2011.
460.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011.
461.	 Treasury Press Release, “With $6.9 Billion Repayment Today from AIG, 70 Percent of TARP Disbursements Now Recovered,” 3/8/2011,
      www.treasury.gov/press-center/press-releases/Pages/tg1096.aspx, accessed 7/14/2011; AIG, 8-K 3/2/2011, www.sec.gov/Archives/edgar/
      data/5272/000095012311021398/y90008ae8vk.htm, accessed 7/14/2011.
462.	 AIG, 10-Q, 11/5/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 6/29/2011.
463.	 Treasury, response to SIGTARP vetting draft, 7/8/2011.
188            special inspector general I troubled asset relief program



      464.	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 7/14/2011.
      465.	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 7/14/2011; AIG, 10-Q,
            11/5/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 7/14/2011.
      466.	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 7/14/2011; Treasury, Section
            105(a) Report, 1/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/TARPfirst-105report.pdf,
            accessed 6/29/2011.
      467.	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 6/29/2011.
      468.	 AIG, 10-K, 2/24/2011, www.sec.gov/Archives/edgar/data/5272/000104746911001283/a2202141z10-k.htm, accessed 6/29/2011.
      469.	 AIG, 424B3, 5/11/2011, www.sec.gov/Archives/edgar/data/5272/000095012311048645/y91210b7e424b3.htm, accessed 6/29/2011;
            Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011.
      470.	 AIG, 424B3, 5/11/2011, www.sec.gov/Archives/edgar/data/5272/000095012311048645/y91210b7e424b3.htm, accessed 6/29/2011;
            Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011.
      471.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011.
      472.	 ILFC Press Release, “ILFC Enters into $1.3 Billion Committed Secured Loan with Right to Upsize — Diverse Group of Global Banks to
            Participate,” 3/31/2011, http://207.45.187.42/~ilfc01/viewArticle.php?id=294, accessed 6/29/2011.
      473.	 ILFC Press Release, “ILFC Upsizes Committed Secured loan to $1.5 Billion,” 4/21/2011, http://207.45.187.42/~ilfc01/viewArticle.php?id=297,
            accessed 6/29/2011.
      474.	 Treasury, “Securities Purchase Agreement,” 12/29/2008, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/tip/
            Documents_Contracts_Agreements/Citigroup_12312008.pdf, accessed 7/25/2011.
      475.	 Treasury, “Guidelines for Targeted Investment Program,” 1/20/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-
            programs/tip/Pages/targetedinvestmentprogram.aspx, accessed 7/25/2011.
      476.	Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
            December%20105(a)_final_1-11-10.pdf, accessed 7/14/2011.
      477.	 Treasury, “Warrant Disposition Report,” 8/4/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/other/DocumentsOther/
            TARP_WRRTDISP_80310.pdf, accessed 7/14/2011.
      478.	Treasury, Transactions Report, 2/8/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/2-10-11%20Transactions%20Report%20as%20of%202-8-11.pdf, accessed 7/14/2011.
      479.	 Treasury, “Exchange Agreement,” 6/9/2011, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/Documents/
            Citigroup%20Exchange%20Agreement.pdf, accessed 7/22/2011; Citigroup, 424(b)(7), 1/24/2011, www.sec.gov/Archives/edgar/
            data/831001/000095012311004665/y89177b7e424b7.htm, accessed 7/14/2011.
      480.	 Citigroup, 8-K, 1/16/2009, www.sec.gov/Archives/edgar/data/831001/000095010309000098/dp12291_8k.htm, accessed 7/14/2011; Citigroup,
            10-Q, 6/30/2009, www.citigroup.com/citi/fin/data/q0902c.pdf?ieNocache=21, accessed 7/14/2011.
      481.	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/reports/audit/2011/Extraordinary%20
            Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 7/14/2011.
      482.	 Treasury, “Citigroup Termination Agreement,” 12/23/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
            Documents/Citi%20AGP%20Termination%20Agreement%20-%20Fully%20Executed%20Version.pdf, accessed 7/22/2011.
      483.	 Treasury, “Treasury Announces Public Offering of Citigroup AGP Trups,” 9/29/2010, www.treasury.gov/press-center/press-releases/Pages/tg876.
            aspx, accessed 7/14/2011.
      484.	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/reports/audit/2011/Extraordinary%20
            Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 7/14/2011.
      485.	Treasury, Transactions Report, 2/8/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/2-10-11%20Transactions%20Report%20as%20of%202-8-11.pdf, accessed 7/14/2011.
      486.	Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
            December%20105(a)_final_1-11-10.pdf, accessed 7/14/2011.
      487.	 Bank of America, 8-K, 9/22/2009, www.sec.gov/Archives/edgar/data/70858/000119312509195594/d8k.htm, accessed 7/14/2011.
      488.	 Bank of America, “Termination Agreement,” 9/21/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
            Documents/BofA%20-%20Termination%20Agreement%20-%20executed.pdf, accessed 7/22/2011.
      489.	 Federal Reserve, “Federal Reserve announces agreement with the Treasury Department regarding a reduction of credit protection provided for
            TALF,” 7/20/2010, www.federalreserve.gov/newsevents/press/monetary/20100720a.htm, accessed 7/14/2011.
      490.	 Federal Reserve, “Term Asset-Backed Securities Loan Facility (TALF),” 12/1/2010, www.federalreserve.gov/newsevents/reform_talf.htm, accessed
            7/14/2011.
      491.	 FRBNY, response to SIGTARP data call, 6/28/2011.
      492.	 Treasury, “Legacy Securities Public-Private Investment Program,” 7/8/2009, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
            Market%20Programs/ppip/Pages/publicprivatefund.aspx, accessed 7/25/2011.
      493.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/HAMP%20Transactions%20Report%20as%20of%2006.29.2011.pdf, accessed 7/11/2011.
      494.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/HAMP%20Transactions%20Report%20as%20of%2006.29.2011.pdf, accessed 7/11/2011.
      495.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/14/2011.
      496.	 Federal Reserve Press Release, “Federal Reserve announces the creation of the Term Asset-Backed Securities Loan Facility (TALF),”
            11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 7/14/2011.
      497.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html,
                                                                                           quarterly report to congress I july 28, 2011               189


      accessed 7/14/2011.
498.	 Federal Reserve Press Release, “Federal Reserve announces expansion of eligible collateral under The Term Asset-Backed Securities Loan
      Facility (TALF),” 5/1/2009, www.federalreserve.gov/newsevents/press/monetary/20090501a.htm, accessed 7/14/2011; Federal Reserve Press
      Release, “Federal Reserve announces that certain high-quality commercial mortgage-backed securities will become eligible collateral under The
      Term Asset-Backed Securities Loan Facility (TALF),” 5/19/2009, www.federalreserve.gov/newsevents/press/monetary/20090519b.htm, accessed
      7/14/2011.
499.	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed
      7/14/2011.
500.	 Federal Reserve, “Lending Facilities to Support Overall Market Liquidity,” 3/2010, www.federalreserve.gov/monetarypolicy/clbs_
      lendingfacilities_201003.htm, accessed 7/14/2011.
501.	 FRBNY, response to SIGTARP draft report, 7/9/2010.
502.	 FRBNY, response to SIGTARP draft report, 1/11/2011.
503.	FRBNY, 2009 Annual Report, 12/31/2009, www.newyorkfed.org/aboutthefed/annual/annual09/annual.pdf, accessed 7/14/2011.
504.	 Federal Reserve Press Release, “Federal Reserve announces agreement with the Treasury Department regarding a reduction of credit
      protection provided for the Term Asset-Backed Securities Loan Facility (TALF),” 7/20/2010, www.federalreserve.gov/newsevents/press/
      monetary/20100720a.htm, accessed 7/14/2011; FRBNY, response to SIGTARP data call, 7/12/2010.
505.	 FRBNY, response to SIGTARP data call, 6/28/2011.
506.	 FRBNY, response to SIGTARP data call, 6/28/2011.
507.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 7/14/2011.
508.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 7/14/2011; FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/
      markets/TALF_Terms_print.html, accessed 7/14/2011.
509.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 7/14/2011.
510.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 7/14/2011.
511.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 7/14/2011.
512.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 7/14/2011.
513.	 FRBNY, response to SIGTARP data call, 4/7/2011.
514.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 7/14/2011.
515.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 7/14/2011.
516.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 7/14/2011; Federal Reserve, Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,
      12/2009, www.federalreserve.gov/monetarypolicy/files/monthlyclbsreport200912.pdf, accessed 7/14/2011.
517.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 7/14/2011.
518.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 7/14/2011.
519.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 7/14/2011.
520.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 7/14/2011.
521.	 FRBNY, response to SIGTARP draft report, 7/9/2010.
522.	 FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed
      7/14/2011.
523.	 FRBNY, response to SIGTARP data call, 6/28/2011.
524.	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed
      7/14/2011.
525.	 FRBNY, response to SIGTARP data call, 6/28/2011.
526.	 FRBNY, response to SIGTARP data call, 6/28/2011.
527.	 Federal Reserve, “Term Asset-Backed Securities Loan Facility (TALF),” 12/1/2010, www.federalreserve.gov/newsevents/reform_talf.htm, accessed
      7/14/2011.
528.	 FRBNY, response to SIGTARP data call, 6/28/2011.
529.	 OFS, FRBNY, response to SIGTARP draft report, 4/9/2009; Federal Reserve, response to SIGTARP draft report, 4/7/2011.
530.	 Treasury, “Security and Intercreditor Agreement dated as of March 3, 2009 among TALF LLC, as Borrower, FRBNY, as Senior Lender, United
      States Department of the Treasury, as Subordinated Lender, FRBNY, as Controlling Party, and the Bank of New York Mellon, as Collateral
      Agent,” 3/3/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents_Contracts_Agreements/SPV-
      Sec-Agt.pdf, accessed 7/22/2011; Federal Reserve, response to SIGTARP draft report, 7/9/2010.
531.	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 7/1/2010, www.federalreserve.gov/releases/h41/20100701, note 8, accessed
      7/14/2011.
532.	 Treasury, “Security and Intercreditor Agreement dated as of March 3, 2009, among TALF LLC, as Borrower, FRBNY, as Senior Lender, United
190            special inspector general I troubled asset relief program



            States Department of the Treasury, as Subordinated Lender, FRBNY, as Controlling Party, and the Bank of New York Mellon, as Collateral
            Agent,” 3/3/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents_Contracts_Agreements/SPV-
            Sec-Agt.pdf, accessed 7/22/2011.
      533.	 FRBNY, response to SIGTARP data call, 6/28/2011.
      534.	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 6/30/2011, www.federalreserve.gov/releases/h41/20110630/, accessed 7/14/2011.
      535.	 Federal Reserve, response to SIGTARP draft report, 4/8/2010.
      536.	 Formation Date: Federal Reserve, “TALF LLC, Financial Statements for the Period February 4, 2009, to December 31, 2009, and Independent
            Auditors’ Report,” p. 7, 4/21/2010, www.federalreserve.gov/monetarypolicy/files/BSTTALFLLCfinstmt2009.pdf, accessed 7/14/2011; Amounts:
      537.	 Federal Reserve, response to SIGTARP draft report, 4/8/2010.
      538.	 Treasury Press Release, “Treasury Department Provides Updated Guidance,” 4/6/2009, www.treasury.gov/press-center/press-releases/Pages/tg82.
            aspx, accessed 7/14/2011.
      539.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP), Additional Frequently Asked Questions,” 7/8/2009,
            www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 7/14/2011.
      540.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
            Market%20Programs/ppip/s-ppip/Documents/AB%20Complete%20LPA%20(redacted).pdf, accessed 7/22/2011.
      541.	 Treasury, “Legacy Securities Program,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/
            Pages/publicprivatefund.aspx, accessed 7/22/2011.
      542.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
            Market%20Programs/ppip/s-ppip/Documents/AB%20Complete%20LPA%20(redacted).pdf, accessed 7/22/2011.
      543.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009,
            www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 7/14/2011.
      544.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009,
            www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 7/14/2011.
      545.	 Treasury, “Legacy Securities Public-Private Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009, www.
            treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 7/22/2011; Treasury, “Amended and Restated Limited
            Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/s-ppip/
            Documents/AB%20Complete%20LPA%20(redacted).pdf, accessed 7/22/2011.
      546.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
            Market%20Programs/ppip/s-ppip/Documents/AB%20Complete%20LPA%20(redacted).pdf, accessed 7/22/2011.
      547.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
            Market%20Programs/ppip/s-ppip/Documents/AB%20Complete%20LPA%20(redacted).pdf, accessed 7/22/2011.
      548.	 Treasury, response to SIGTARP data call, 7/8/2011.
      549.	 PPIF Monthly Performance Reports submitted by each PPIF manager, June 2011, received 7/15/2011; Treasury, “Legacy Securities Public-
            Private Investment Program,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/Pages/
            publicprivatefund.aspx, accessed 7/22/2011.
      550.	 Treasury, response to SIGTARP data call, 7/8/2011; Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_
            INVESTMENT.pdf, accessed 7/8/2011.
      551.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
            Market%20Programs/ppip/s-ppip/Documents/AB%20Complete%20LPA%20(redacted).pdf, accessed 7/22/2011.
      552.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/8/2011; Treasury,
            response to SIGTARP data call, 10/7/2010.
      553.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
            Market%20Programs/ppip/s-ppip/Documents/AB%20Complete%20LPA%20(redacted).pdf, accessed 7/22/2011.	
      554.	 SIGTARP, discussion with RLJ, 5/2011.
      555.	 SIGTARP, discussion with RLJ, 5/2011; Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/
            initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/s-ppip/Documents/Western%20Complete%20LPA%20(redacted).pdf,
            accessed 7/22/2011.
      556.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009,
            www.treasury.gov/press-center//press-releases/Documents/legacy_securities_faqs.pdf, accessed 7/14/2011.
      557.	 Treasury, “Public-Private Investment Program,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/
            ppip/Pages/publicprivatefund.aspx, accessed 7/22/2011.
      558.	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended March 31, 2011,” 4/21/2011, www.treasury.
            gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/Pages/publicprivatefund.aspx, p. 9, accessed 7/22/2011.
      559.	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended March 31, 2011,” 4/21/2011, www.treasury.
            gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/Pages/publicprivatefund.aspx, p. 9, accessed 7/22/2011.
      560.	 Congressional Oversight Panel, “August Oversight Report, The Continued Risk of Troubled Assets,” 8/11/2009, http://frwebgate.access.gpo.gov/
            cgi-bin/getdoc.cgi?dbname=111_cong_senate_committee_prints&docid=f:51601.pdf, accessed 7/14/2011.
      561.	 Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press-center/press-releases/Pages/tg58.aspx,
            accessed 7/14/2011; SBA, “Q&A for Small Business Owners,” no date, www.sbaonline.sba.gov/idc/groups/public/documents/sba_homepage/
            recovery_act_faqs.pdf, accessed 6/29/2011.
      562.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/1/2011. 
                                                                                               quarterly report to congress I july 28, 2011                 191


563.	Treasury, Section 105(a) Report — July 2010, 8/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/
      Documents105/July%202010%20105(a)%20Report_Final.pdf, accessed 6/29/2011.
564.	 Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 3/2/2010,
      “www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Small-Business/Documents_Contracts_Agreements/
      Coastal%20Securities,%20Inc.pdf”, accessed 7/22/2011; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior
      Securities Issued by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
      cbli/Small-Business/Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20MPA%20
      (73485877_2).pdf, accessed 7/22/2011.
565.	Treasury, Section 105(a) Report, 8/10/2009, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/
      Documents105/105areport_072009.pdf, accessed 6/29/2011; OFS, response to SIGTARP draft report, 1/11/2011.
566.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/1/2011. 
567.	 Treasury Press Release, “Treasury to Begin Sales of Its Small Business Administration (SBA) 7(a) Securities Portfolio,” 6/2/2011, www.treasury.
      gov/press-center/press-releases/Pages/tg1198.aspx, accessed 7/20/2011.
568.	 Treasury Press Release, “Treasury to Begin Sales of Its Small Business Administration (SBA) 7(a) Securities Portfolio,” 6/2/2011, www.treasury.
      gov/press-center/press-releases/Pages/tg1198.aspx, accessed 6/29/2011.
569.	 Treasury Press Release, “Treasury Announces Sale of Six SBA 7(a) Securities,” 6/8/2011, www.treasury.gov/press-center/press-releases/Pages/
      tg1203.aspx, accessed 6/29/2011.
570.	Treasury, Cumulative Dividends, Interest, and Distributions Report, 7/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/
      reports/dividends-interest/DocumentsDividendsInterest/June%202011%20Dividends%20Interest%20Report.pdf, accessed 6/30/2011.
571.	 Treasury, “Automotive Industry Financing Program,” no date, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/aifp/
      Pages/autoprogram.aspx, accessed 7/20/2011.
572.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/8/2011.
573.	 Treasury, response to SIGTARP vetting draft, 10/8/2009; Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-
      stability/briefing-room/reports/105/Documents105/Final%20April%20105(a)%20with%20Appendix%205-10-2011.pdf, accessed 7/22/2011.
574.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011.
575.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/8/2011.
576.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/8/2011; Treasury,
      “Office of Financial Stability: Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-
      room/ reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 7/22/2011; Treasury, response to SIGTARP data
      call, 7/8/2011.
577.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/June%202011%20Dividends%20Interest%20Report.pdf, accessed 7/22/2011; Treasury, Cumulative Dividends,
      Interest, and Distributions Report, 7/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/Pages/briefing-room.aspx, accessed
      7/20/2011.
578.	 Treasury, “Automotive Industry Financing Program,” 9/4/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/aifp/
      Pages/autoprogram.aspx , accessed 7/21/2011; Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-
      room/reports/tarp-transactions/DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf,
      accessed 7/8/2011.
579.	Treasury, Cumulative Dividends, Interest, and Distributions Report, 7/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/
      reports/dividends-interest/DocumentsDividendsInterest/June%202011%20Dividends%20Interest%20Report.pdf, accessed 7/25/2011.
580.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011.
581.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/22/2011.
582.	 SIGTARP, “Additional Insight on Use of Troubled Asset Relief Program Funds,” 12/10/2009, www.sigtarp.gov/reports/audit/2009/Additional_
      Insight_on_Use_of_Troubled_Asset_Relief_Program_Funds.pdf, accessed 7/20/2011.
583.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 7/20/2011.
584.	 General Motors Company, 10-Q, 8/16/2010, www.sec.gov/Archives/edgar/data/1467858/000119312510189968/d10q.htm, accessed 7/20/2011.
585.	 SIGTARP, “Additional Insight on Use of Troubled Asset Relief Program Funds,” 12/10/2009, www.sigtarp.gov/reports/audit/2009/Additional_
      Insight_on_Use_of_Troubled_Asset_Relief_Program_Funds.pdf, accessed 7/20/2011.
586.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/June%202011%20Dividends%20Interest%20Report.pdf, accessed 7/22/2011; Treasury, Cumulative Dividends,
      Interest, and Distributions Report, 7/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/Pages/briefing-room.aspx, accessed
      7/20/2011.
587.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 7/20/2011.
588.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 7/20/2011.
589.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 7/20/2011; Treasury
      Press Release, “Taxpayers Receive Additional $1.8 Billion in Proceeds from GM IPO: Exercise of Over-allotment Option Brings Total Taxpayer
      Proceeds from GM IPO to $13.5 Billion,” www.treasury.gov/press-center/press-releases/Pages/tg992.aspx, 12/2/2010, accessed 7/20/2011.
590.	 Treasury Press Release, “General Motors Repays Taxpayers $2.1 Billion, Completing Repurchase of Treasury Preferred Stock,” 12/15/2010,
      www.treasury.gov/press-center/press-releases/Pages/tg1006.aspx, accessed 7/20/2011.
192            special inspector general I troubled asset relief program



      591.	 Treasury Press Release, “General Motors Repays Taxpayers $2.1 Billion, Completing Repurchase of Treasury Preferred Stock,” 12/15/2010,
            www.treasury.gov/press-center/press-releases/Pages/tg1006.aspx, accessed 7/20/2011.
      592.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/15/2011; General
            Motors Company, Amendment No. 9 to Form S-1 Registration Statement,” 12/3/2010, http://google.brand.edgar-online.com/EFX_dll/
            EDGARpro.dll?FetchFilingHTML1?ID=7564696&SessionID=RGPIHCg1k6zsWG7, accessed 7/22/2011.
      593.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/8/2011.
      594.	Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
            2010%20105(a)%20report_final.pdf, accessed 7/22/2011.
      595.	 Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
            aspx, accessed 7/20/2011; Treasury Press Release, “Treasury Announces Agreement to Exit Remaining Stake in Chrysler Group LLC,” 6/2/2011,
            www.treasury.gov/press-center/press-releases/Pages/tg1199.aspx. accessed 7/20/2011.
      596.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/8/2011.
      597.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/8/2011.
      598.	 Congressional Oversight Panel, “January Oversight Report: An Update on TARP Support for the Domestic Auto Industry,” 1/13/2011, www.gpo.
            gov/fdsys/pkg/CHRG-112shrg63381/pdf/CHRG-112shrg63381.pdf, accessed 7/20/2011; Treasury, Transactions Report, 7/1/2011, www.treasury.
            gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20
            as%20of%206-30-11_INVESTMENT.pdf, accessed 7/25/2011.
      599.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/8/2011.
      600.	 Chrysler Press Release, “Chrysler Group LLC Completes Refinancing and Repays U.S. and Canadian Government Loans in Full,” 5/24/2011,
            www.chryslergroupllc.com/en-us/investor/PressReleases/ChryslerDocuments/Chrysler_Group_LLC_Completes_Refinancing.pdf, accessed
            7/20/2011; Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/
            tg1189.aspx, accessed 7/20/2011.
      601.	 Chrysler Press Release, “Chrysler Group LLC Completes Refinancing and Repays U.S. and Canadian Government Loans in Full,” 5/24/2011,
            www.chryslergroupllc.com/en-us/investor/PressReleases/ChryslerDocuments/Chrysler_Group_LLC_Completes_Refinancing.pdf, accessed
            7/20/2011.
      602.	 Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
            aspx, accessed 7/20/2011.
      603.	 Chrysler Press Release, “Chrysler Group LLC Completes Refinancing and Repays U.S. and Canadian Government Loans in Full,” 5/24/2011,
            www.chryslergroupllc.com/en-us/investor/PressReleases/ChryslerDocuments/Chrysler_Group_LLC_Completes_Refinancing.pdf, accessed
            7/20/2011.
      604.	 Chrysler, “Q1 2011 Results Review (Preliminary),” 5/2/2011, www.chryslergroupllc.com/en-us/investor/presentations/QAWebcasts/
            ChryslerDocuments/Q1_2011_Presentation.pdf, accessed 7/20/2011; Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/
            financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%20
            6-30-11_INVESTMENT.pdf, accessed 7/1/2011.
      605.	 Treasury Press Release, “Treasury Announces Agreement to Exit Remaining Stake in Chrysler Group LLC,” 6/2/2011, www.treasury.gov/press-
            center/press-releases/Pages/tg1199.aspx, accessed 7/20/2011.
      606.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/8/2011.
      607.	 Ally Financial, 10-K, 2/27/2009, www.sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm#toc11086_9, accessed 7/20/2011.
      608.	Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
            2010%20105(a)%20report_final.pdf, accessed 7/20/2011.
      609.	Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
            2010%20105(a)%20report_final.pdf, accessed 7/20/2011.
      610.	 Ally Financial, 8-K, 5/22/2010, www.sec.gov/Archives/edgar/data/40729/000119312509117131/d8k.htm, accessed 7/20/2011; Treasury, Section
            105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%202010%20105(a)%20
            report_final.pdf, accessed 7/20/2011.
      611.	 Ally Financial, 8-K, 1/5/2010, www.sec.gov/Archives/edgar/data/40729/000119312510001221/d8k.htm, accessed 7/20/2011.
      612.	Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
            2010%20105(a)%20report_final.pdf, accessed 7/20/2011.
      613.	 Ally Financial, 8-K, 5/13/2010, www.sec.gov/Archives/edgar/data/40729/000114420410025354/v183596_8-k.htm, accessed 7/20/2011.
      614.	Treasury, Section 105(a) Report, 1/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
            December105(a)%20report_FINAL_v4.pdf, accessed 7/20/2011.
      615.	 Treasury Press Release, “Treasury Converts Nearly Half of its Ally Preferred Shares to Common Stock,” 12/30/2010, www.treasury.gov/press-
            center/press-releases/Pages/tg1014.aspx, accessed 7/20/2011.
      616.	 Treasury Press Release, “Treasury Announces Public Offering of Ally Financial Inc. TRuPs,” 3/1/2011, www.treasury.gov/press-center/press-
            releases/Pages/tg1081.aspx, accessed 7/21/2011.
      617.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/8/2011; Treasury
            Press Release, “Treasury: With $6.9 Billion Repayment Today from AIG, 70 Percent of TARP Disbursements Now Recovered,” 7/20/2011, www.
            treasury.gov/press-center/press-releases/Pages/tg1096.aspx, accessed 7/21/2011.
      618.	 Ally Financial, 8-K, 12/30/2010, www.sec.gov/Archives/edgar/data/40729/000119312510291571/d8k.htm, accessed 7/20/2011.
                                                                                               quarterly report to congress I july 28, 2011                 193



619.	 Treasury Press Release, “Treasury Names Appointee to Ally Board of Directors,” 2/28/2011, www.treasury.gov/press-center/press-releases/Pages/
      tg1080.aspx, accessed 7/20/2011.
620.	 Treasury, response to SIGTARP data call, 7/8/2011.
621.	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 7/20/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.
      htm, accessed 7/20/2011.
622.	 Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
      Public Offering,” 3/31/2011, http://media.ally.com/index.php?s=43&item=453, accessed 7/21/2011.
623.	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.
      htm, accessed 7/20/2011.
624.	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.
      htm, accessed 7/20/2011.
625.	 Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
      Public Offering,” 3/31/2011, http://media.ally.com/index.php?s=43&item=453, accessed 7/20/2011.
626.	 SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1 Registration Statement,” 5/17/2011, www.sec.gov/Archives/edgar/
      data/40729/000119312511142459/ds1a.htm, accessed 7/20/2011.
627.	 SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1 Registration Statement,” 5/17/2011, www.sec.gov/Archives/edgar/
      data/40729/000119312511142459/ds1a.htm, accessed 7/20/2011.
628.	 SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1 Registration Statement,” 5/17/2011, www.sec.gov/Archives/edgar/
      data/40729/000119312511142459/ds1a.htm, accessed 7/20/2011.
629.	 Treasury Press Release, “Treasury Department Agrees to Be Named as a Selling Shareholder in Ally Financial Inc.’s Registration
      Statement for its Initial Public Offering,” 3/31/2011, www.treasury.gov/press-center/press-releases/Pages/tg1124.aspx, accessed 7/20/2011;
      Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 7/20/2011.
630.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/8/2011; Ally
      Financial, 10-K, 2/27/2009, www.sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm#toc11086_9, accessed 7/20/2011.
631.	 Ally Financial, 8-K, 1/5/2010, www.sec.gov/Archives/edgar/data/40729/000119312510001221/d8k.htm, accessed 7/20/2011; Ally Financial, 8-K,
      5/22/1010, www.sec.gov/Archives/edgar/data/40729/000119312509117131/d8k.htm, accessed 7/20/2011; Ally Financial, 10-K, 2/27/2009, www.
      sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm#toc11086_9, accessed 7/20/2011; Treasury, “Office of Financial Stability:
      Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/
      Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 7/20/2011.
632.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/8/2011; Ally
      Financial, 10-K, 2/27/2009, www.sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm#toc11086_9, accessed 7/20/2011; Ally
      Financial, 8-K, 5/22/2010, www.sec.gov/Archives/edgar/data/40729/000119312509117131/d8k.htm, accessed 7/20/2011; Ally Financial, 8-K,
      1/5/2010, www.sec.gov/Archives/edgar/data/40729/000119312510001221/d8k.htm, accessed 7/20/2011.
633.	Treasury, Cumulative Dividends, Interest, and Distributions Report, 7/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/
      Pages/briefing-room.aspx, accessed 7/8/2011.
634.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/8/2011; Treasury,
      Cumulative Dividends, Interest, and Distributions Report, 7/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/Pages/briefing-
      room.aspx, accessed 7/8/2011.
635.	 Congressional Oversight Panel, “January Oversight Report: An Update on TARP Support for the Domestic Auto Industry,” 1/13/2011, www.gpo.
      gov/fdsys/pkg/CHRG-112shrg63381/pdf/CHRG-112shrg63381.pdf, accessed 7/20/2011; Treasury, Transactions Report, 7/1/2011, www.treasury.
      gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20
      as%20of%206-30-11_INVESTMENT.pdf, accessed 7/8/2011.
636.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/8/2011.
637.	 Congressional Oversight Panel, “January Oversight Report: An Update on TARP Support for the Domestic Auto Industry,” 1/13/2011, www.gpo.
      gov/fdsys/pkg/CHRG-112shrg63381/pdf/CHRG-112shrg63381.pdf, accessed 7/20/2011.
638.	 TD Bank Group Press Release, “TD Completes Chrysler Financial Acquisition,” 4/1/2011, http://td.mediaroom.com/
      index.php?s=43&item=1210, accessed 6/8/2011; TD Auto Finance LLC, 8-K, 4/5/2011, www.sec.gov/Archives/edgar/
      data/1337471/000095012311032930/y90599e8vk.htm, accessed 7/20/2011.
639.	 Treasury Press Release, “Treasury Announces Auto Supplier Support Programs,” 3/19/2009, www.treasury.gov/press-center/press-releases/Pages/
      tg64.aspx, accessed 7/20/2011.
640.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/8/2011.
641.	Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/8/2011.
642.	 Treasury, response to SIGTARP data call, 7/9/2010.
643.	 Congressional Oversight Panel, “Accounting for the Troubled Asset Relief Program,” 6/10/2010, www.gpo.gov/fdsys/pkg/CPRT-111JPRT56698/
      pdf/CPRT-111JPRT56698.pdf, accessed 7/20/2011.
644.	 Treasury, “Office of Financial Stability: Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-
      stability/briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 7/20/2011.
194            special inspector general I troubled asset relief program



      645.	 Treasury, Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/8/2011.
      646.	 Treasury, Treasury, Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 7/8/2011.
      647.	 American Recovery and Reinvestment Act of 2009, P.L. 111-5, 2/13/2009.
      648.	 Treasury Press Release, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treasury.gov/
            press-center/press-releases/Pages/tg165.aspx, accessed 7/14/2011; Treasury, “TARP Standards for Compensation and Corporate Governance,”
            6/10/2009, www.treasury.gov/press-center/press-releases/Documents/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed 7/14/2011.
      649.	 Treasury Press Release, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treasury.gov/
            press-center/press-releases/Pages/tg165.aspx, accessed 7/14/2011; Treasury Press Release, “TARP Standards for Compensation and Corporate
            Governance,” 6/10/2009, www.treasury.gov/press-center/press-releases/Documents/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed
            7/14/2011.
      650.	 Treasury Press Release, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treasury.gov/
            press-center/press-releases/Pages/tg165.aspx, accessed 7/14/2011; Treasury Press Release, “TARP Standards for Compensation and Corporate
            Governance,” 6/10/2009, www.treasury.gov/press-center/press-releases/Documents/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed
            7/14/2011.
      651.	 Treasury Press Release, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treasury.gov/
            press-center/press-releases/Pages/tg165.aspx, accessed 7/14/2011; Treasury Press Release, “TARP Standards for Compensation and Corporate
            Governance,” 6/10/2009, www.treasury.gov/press-center/press-releases/Documents/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed
            7/14/2011.
      652.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP): Additional Frequently Asked Questions,” 7/8/2009,
            www.treasury.gov/initiatives/financial-stability/ programs/Credit%20Market%20Programs/ppip/s-ppip/Documents/legacy_securities_faqs.pdf,
            accessed 7/25/2011.
      653.	 Treasury, response to SIGTARP data call, 10/6/2010; Financial Stability Oversight Board, “Quarterly Report to Congress,” 9/30/2010, www.
            treasury.gov/initiatives/financial-stability/about/Oversight/FSOB/Reports/FINSOB%20Quarterly%20Report%20(093010).pdf, accessed
            7/14/2011.
      654.	 Treasury Press Release, “Special Master for Executive Compensation,” 9/4/2009, www.treasury.gov/press-center/press-releases/Pages/tg329.aspx,
            accessed 7/14/2011.
      655.	 Treasury, response to SIGTARP data call, 7/8/2011.
      656.	 Treasury, “Determination Regarding Citigroup’s December 23, 2009, TARP Repayment — Citigroup,” 12/23/2009, www.treasury.gov/
            initiatives/financial-stability/about/Recipient_Guidance/executive-compensation/Documents/20091223%20Citigroup%20Supplemental%20
            Determination%20Letter.pdf, accessed 7/22/2011; Feinberg, Kenneth L., Letter to J Steele Alphin of Bank of America, “Re: Compensation
            Structures for Executive Officers and Certain Most Highly Compensated Employees,” 12/11/2009, www.treasury.gov/initiatives/financial-
            stability/about/Recipient_Guidance/executive-compensation/Documents/20091210%20Bank%20of%20America%20Determination.pdf, accessed
            7/15/2011.
      657.	 Treasury Press Release, “Chrysler Financial Parent Company Repays $1.9 Billion in Settlement of Original Chrysler Loan,” 5/17/2010, www.
            treasury.gov/press-center/press-releases/Pages/tg700.aspx, accessed 7/14/2011; Transactions Report, 11/18/2010, www.treasury.gov/initiatives/
            financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/11-18-10%20Transactions%20Report%20as%20of%20
            11-16-10.pdf, accessed 7/14/2011.
      658.	 Treasury Press Release, “Fact Sheet: Acting Special Master Issues 2011 Compensation Determinations for ‘Top 25’ Executives at Four
            Companies that Received Exceptional TARP Assistance,” 4/1/2011, www.treasury.gov/press-center/press-releases/Pages/tg1126.aspx, accessed
            7/14/2011.
      659.	 Treasury Press Release, “Fact Sheet: Acting Special Master Issues 2011 Compensation Determinations for ‘Top 25’ Executives at Four
            Companies that Received Exceptional TARP Assistance,” 4/1/2011, www.treasury.gov/press-center/press-releases/Pages/tg1126.aspx, accessed
            7/14/2011.
      660.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
      661.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
      662.	 Treasury, response to SIGTARP data call, 7/8/2011, 7/15/2011, 7/21/2011; Treasury, call with SIGTARP, 7/22/2011.
      663.	 Treasury, response to SIGTARP data call, 7/8/2011, 7/15/2011, 7/21/2011; Treasury, call with SIGTARP, 7/22/2011.
      664.	 Treasury, response to SIGTARP data call, 7/8/2011, 7/15/2011, 7/21/2011; Treasury, call with SIGTARP, 7/22/2011.
      665.	 Treasury, response to SIGTARP data call, 7/8/2011, 7/15/2011, 7/21/2011; Treasury, call with SIGTARP, 7/22/2011.
      666.	 Congressional Oversight Panel, “Examining Treasury’s Use of Financial Crisis Contracting Authority,” 10/14/2010, cybercemetery.unt.edu/
            archive/cop/20110401233834/cop.senate.gov/reports/library/report-101410-cop.cfm, accessed 7/21/2011.
      667.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
                                                                                           glossary I Appendix A I july 28, 2011     195




glossary
This appendix provides a glossary of terms that are used in the context of this report.

7(a) Loan Program: SBA loan program guaranteeing a                 on schedule, it still owes the missed dividend to the stock’s
percentage of loans for small businesses that cannot other-        owner.
wise obtain conventional loans at reasonable terms.
                                                                   Custodian Bank: Bank holding the collateral and managing
504 Community Development Loan Program: SBA                        accounts for FRBNY; for TALF the custodian is Bank of New
program combining Government-guaranteed loans with                 York Mellon.
private-sector mortgages to provide loans of up to $10 million
                                                                   Debt: Investment in a business that is required to be paid
for community development.
                                                                   back to the investor, usually with interest.
Asset-Backed Securities (“ABS”): Bonds backed by a
                                                                   Debtor-in-Possession (“DIP”): Company operating under
portfolio of consumer or corporate loans, e.g., credit card,
                                                                   Chapter 11 bankruptcy protection that technically still owns
auto, or small-business loans. Financial companies typically
                                                                   its assets but is operating them to maximize the benefit to its
issue ABS backed by existing loans in order to fund new loans
                                                                   creditors.
for their customers.
                                                                   Deed-in-Lieu of Foreclosure: Instead of going through
Auction Agent: Firm (such as an investment bank) that buys
                                                                   foreclosure, the borrower voluntarily surrenders the deed to
a series of securities from an institution for resale.
                                                                   the home to the home lender, as satisfaction of the unpaid
Bank Holding Company (“BHC”): Company that owns and/               mortgage balance.
or controls one or more U.S. banks.
                                                                   Deficiency Judgment: Court order authorizing a lender to
Collateral: Asset pledged by a borrower to a lender until a        collect all or part of an unpaid and outstanding debt resulting
loan is repaid. Generally, if the borrower defaults on the loan,   from the borrower’s default on the mortgage note securing a
the lender gains ownership of the pledged asset and may sell       debt. A deficiency judgment is rendered after the foreclosed
it to satisfy the debt. In TALF, the ABS or CMBS purchased         or repossessed property is sold when the proceeds are insuf-
with the TALF loan is the collateral that is posted with           ficient to repay the full mortgage debt.
FRBNY.
                                                                   Due Diligence: Appropriate level of attention or care a
Commercial Mortgage-Backed Securities (“CMBS”):                    reasonable person should take before entering into an agree-
Bonds backed by one or more mortgages on commercial real           ment or a transaction with another party. In finance, it often
estate (e.g., office buildings, rental apartments, hotels).        refers to the process of conducting an audit or review of the
                                                                   institution before initiating a transaction.
Common Stock: Equity ownership entitling an individual to
share in corporate earnings and voting rights.                     Dutch Auction: A Treasury warrant auction (which has
                                                                   multiple bidders bidding for different quantities of the as-
Community Development Financial Institutions
                                                                   set) in which the accepted price is set at the lowest bid of
(“CDFIs”): Financial institutions eligible for Treasury
                                                                   the group of high bidders whose collective bids fulfill the
funding to serve urban and rural low-income communi-
                                                                   amount of shares offered by Treasury. As an example, three
ties through the CDFI Fund. CDFIs were created in 1994
                                                                   investors place bids to own a portion of 100 shares offered
by the Riegle Community Development and Regulatory
                                                                   by the issuer:
Improvement Act. These entities must be certified by
Treasury; certification confirms that they target at least 60%      • Bidder A wants 50 shares at $4/share.
of their lending and other economic development activities to       • Bidder B wants 50 shares at $3/share.
areas underserved by traditional financial institutions.
                                                                    • Bidder C wants 50 shares at $2/share.
Community Development Loan Fund (“CDLF”): Financial
institution that is a type of certified CDFI. These entities       The seller selects Bidders A and B as the two highest bidders,
(usually non-profits) serve businesses, organizations, and         and their collective bids consume the 100 shares offered. The
individuals in urban and rural low-income communities.             winning price is $3, which is what both bidders pay per share.
                                                                   Bidder C’s bid is not filled.
Cumulative Preferred Stock: Stock requiring a defined
dividend payment. If the company does not pay the dividend         Equity: Investment that represents an ownership interest in
                                                                   a business.
196           Appendix a I glossary I july 28, 2011




      Equity Capital Facility: Commitment to invest equity capital         currently being financially supported by the Government.
      in a firm under certain future conditions. An equity facility
                                                                           Haircut: Difference between the value of the collateral and
      when drawn down is an investment that increases the pro-
                                                                           the value of the loan (the loan value is less than the collateral
      vider’s ownership stake in the company. The investor may be
                                                                           value).
      able to recover the amount invested by selling their ownership
      stake to other investors at a later date.                            Illiquid Assets: Assets that cannot be quickly converted
                                                                           to cash.
      Equity Share Agreement: Agreement that a homeowner will
      share future increases in home value with a mortgage investor        Investors: Owners of mortgage loans or bonds backed by
      or other party. In the context of mortgage loan modifications,       mortgage loans who receive interest and principal payments
      the investor may reduce the borrower’s unpaid principal bal-         from monthly mortgage payments. Servicers manage the cash
      ance (“UPB”) in return for the right to share in a portion of        flow from borrowers’ monthly payments and distribute them
      any future rise in the home’s value. An equity share agree-          to investors according to Pooling and Servicing Agreements
      ment thus may provide the mortgage investor with a prospect          (“PSAs”).
      of recovering its full investment, even if it provides a principal
                                                                           Key Person: Individual recognized as being important
      reduction to the borrower. Conversely, it may also provide an
                                                                           to the ongoing operation and investment decisions of an
      immediate benefit to an “underwater” borrower, yet still offer
                                                                           investment fund.
      that borrower some prospect of benefiting from future home
      price appreciation.                                                  Legacy Securities: Real estate-related securities originally
                                                                           issued before 2009 that remained on the balance sheets
      Exceptional Assistance Recipients: Companies that receive
                                                                           of financial institutions because of pricing difficulties that
      assistance under SSFI, TIP, and AIFP. Current recipients are
                                                                           resulted from market disruption.
      AIG, Chrysler, GM, and Ally Financial (formerly GMAC).
                                                                           Limited Partnership: Partnership in which there is at least
      Excess Spread: Funds left over after required payments and
                                                                           one partner whose liability is limited to the amount invested
      other contractual obligations have been met. In TALF it is
                                                                           (limited partner) and at least one partner whose liability ex-
      the difference between the periodic amount of interest paid
                                                                           tends beyond monetary investment (general partner).
      out by the collateral and the amount of interest charged by
      FRBNY on the nonrecourse loan provided to the borrower to            Loan Servicers: Companies that perform administra-
      purchase the collateral.                                             tive tasks on monthly mortgage payments until the loan is
                                                                           repaid. These tasks include billing, tracking, and collecting
      Exercise Price: Preset price at which a warrant holder may
                                                                           monthly payments; maintaining records of payments and
      purchase each share. For warrants in publicly traded institu-
                                                                           balances; allocating and distributing payment collections
      tions issued through CPP, this was based on the average stock
                                                                           to investors in accordance with each mortgage loan’s gov-
      price during the 20 days before the date that Treasury granted
                                                                           erning documentation; following up on delinquencies; and
      preliminary CPP participation approval.
                                                                           initiating foreclosures.
      FICO Credit Score: Used by lenders to assess an applicant’s
                                                                           Loan-to-Value (“LTV”) Ratio: Lending risk assessment ratio
      credit risk and whether to extend a loan. It is determined
                                                                           that mortgage lenders examine before approving a mortgage;
      by the Fair Isaac Corporation (“FICO”) using mathematical
                                                                           calculated by dividing the outstanding amount of the loan by
      models based on an applicant’s payment history, level of in-
                                                                           the value of the collateral backing the loan. Loans with high
      debtedness, types of credit used, length of credit history, and
                                                                           LTV ratios are generally seen as higher risk because the bor-
      newly extended credit.
                                                                           rower has less of an equity stake in the property.
      Government-Sponsored Enterprises (GSEs): Private
                                                                           Mutual Depository Institution: Any bank, savings associa-
      corporations created and chartered by the Government to
                                                                           tion, bank holding company, or savings and loan holding
      reduce borrowing costs and provide liquidity in the market,
                                                                           company organized in a mutual form. Savings associations
      the liabilities of which are not officially considered direct
                                                                           organized as mutual institutions issue no capital stock and
      taxpayer obligations. On September 7, 2008, the two largest,
                                                                           therefore have no stockholders. Mutual savings associations
      the Federal National Mortgage Association (“Fannie Mae”)
                                                                           build capital almost exclusively through retained earnings.
      and the Federal Home Loan Mortgage Corporation (“Freddie
      Mac”), were placed into Federal conservatorship. They are
                                                                                        glossary I Appendix A I july 28, 2011        197




Nationally Recognized Statistical Rating Organization             holding companies, certain savings and loan holding compa-
(“NRSRO”): Credit rating agency registered with the SEC.          nies, and mutual organizations.
Credit rating agencies provide their opinion of the creditwor-
                                                                  Revolving Credit Facility: Line of credit for which bor-
thiness of companies and the financial obligations issued by
                                                                  rowers pay a commitment fee, allowing them to repeatedly
companies. The ratings distinguish between investment grade
                                                                  draw down funds up to a guaranteed maximum amount. The
and non–investment grade equity and debt obligations.
                                                                  amount of available credit decreases and increases as funds
Net Present Value (“NPV”) Test: Compares the money                are borrowed and then repaid.
generated by modifying the terms of the mortgage with the
                                                                  Risk-Weighted Assets: Risk-based measure of total assets
amount an investor can reasonably expect to recover in a
                                                                  held by a financial institution. Assets are assigned broad risk
foreclosure sale.
                                                                  categories. The amount in each risk category is then multi-
Non-Agency Residential Mortgage-Backed Securities                 plied by a risk factor associated with that category. The sum of
(“non-agency RMBS”): Financial instrument backed by a             the resulting weighted values from each of the risk categories
group of residential real estate mortgages (i.e., home mort-      is the bank’s total risk-weighted assets.
gages for residences with up to four dwelling units) not
                                                                  SBA Pool Certificates: Ownership interest in a bond backed
guaranteed or owned by a Government-sponsored enterprise
                                                                  by SBA-guaranteed loans.
(“GSE”) (Fannie Mae or Freddie Mac) or a Government
Agency.                                                           Senior Executive Officers (“SEOs”): “Named executive of-
                                                                  ficers” of TARP recipients as defined under Federal securities
Non-Cumulative Preferred Stock: Preferred stock with
                                                                  law, which generally include the principal executive officer,
a defined dividend, without the obligation to pay missed
                                                                  the principal financial officer, and the next three most highly
dividends.
                                                                  compensated officers.
Non-Recourse Loan: Secured loan in which the borrower is
                                                                  Senior Preferred Stock: Shares that give the stockholder
relieved of the obligation to repay the loan upon surrendering
                                                                  priority dividend and liquidation claims over junior preferred
the collateral.
                                                                  and common stockholders.
Obligations: Definite commitments that create a legal
                                                                  Senior Subordinated Debentures: Debt instrument ranking
liability for the Government to pay funds.
                                                                  below senior debt but above equity with regard to investors’
Pool Assemblers: Firms authorized to create and market            claims on company assets or earnings.
pools of SBA- guaranteed loans.
                                                                  Servicing Advances: If borrowers’ payments are not made
Preferred Stock: Equity ownership that usually pays a fixed       promptly and in full, servicers are contractually obligated to
dividend before distributions for common stock owners but         advance the required monthly payment amount in full to the
only after payments due to debt holders and depositors. It        investor. Once a borrower becomes current or the property is
typically confers no voting rights. Preferred stock also has      sold or acquired through foreclosure, the servicer is repaid all
priority over common stock in the distribution of assets when     advanced funds.
a bankrupt company is liquidated.
                                                                  Short Sales: Sales of a home for less than the unpaid mort-
Pro Rata: Refers to dividing something among a group of           gage balance. A borrower sells the home and the lender col-
participants according to the proportionate share that each       lects the proceeds as full or partial satisfaction of the unpaid
participant holds as a part of the whole.                         mortgage balance, thus avoiding the foreclosure process.
Public Interest: Regulatory standard that the Special Master      Skin in the Game: Equity stake in an investment; down pay-
is required to apply in making determinations. It refers to       ment; the amount an investor can lose.
the determination of whether TARP-recipient compensation
                                                                  Special Purpose Vehicle (“SPV”): Off-balance-sheet legal
plans are aligned with the best interests of the U.S. taxpayer,
                                                                  entity that holds transferred assets presumptively beyond the
based on a balancing of specific principles set forth in the
                                                                  reach of the entities providing the assets, and that is legally
Rule.
                                                                  isolated.
Qualifying Financial Institutions (“QFIs”): Private and
public U.S.-controlled banks, savings associations, bank
198        Appendix a I glossary I july 28, 2011




 Subchapter S corporations (“S corporations”): Corporate           Endnotes:
                                                                   Board of Governors of the Federal Reserve System, “Bank Holding Companies,” no date,
 form that passes corporate income, losses, deductions, and        www.fedpartnership.gov/bank-life-cycle/manage-transition/bank-holding-companies.cfm, accessed
 credit through to shareholders for Federal tax purposes.          6/30/2011.
                                                                   Federal Reserve Board, Federal Reserve Banks Operating Circular No. 8: Collateral,
 Shareholders of S corporations report the flow-through of         www.frbservices.org, accessed 6/30/2011.
 income and losses on their personal tax returns and are taxed     FCIC, glossary, no date, www.fcic.gov/resource/glossary, accessed 6/30/2011.
 at their individual income tax rates.                             FDIC, “Credit Card Securitization Manual,” no date, www.fdic.gov/regulations/examinations/
                                                                   credit_card_securitization/glossary.html, accessed 7/20/2011.
 Subordinated Debt: Loan (or security) that ranks below            FDIC, “FDIC Law, Regulations, Related Acts,” no date, www.fdic.gov/regulations/laws/
                                                                   rules/2000-4600.html, accessed 6/30/2011.
 other loans (or securities) with regard to claims on assets or    FRBNY, “TALF FAQ’s,” 9/1/2009, www.newyorkfed.org/markets/talf_faq.html, accessed 7/20/2011.
 earnings.                                                         SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,”
                                                                   3/25/2010, www.sigtarp.gov/reports/audit/2010/Factors_Affecting_Implementation_of_the_Home_
 Synthetic ABS: Security deriving its value and cash flow          Affordable_Modification_Program.pdf, accessed 6/30/2011.

 from sources other than conventional debt, equities, or           GAO, “Principles of Federal Appropriations Law, Third Edition, Volume II,” 1/2004,
                                                                   www.gao.gov/special.pubs/d06382sp.pdf, p. 7-3, accessed 6/30/2011.
 commodities — for example, credit derivatives.                    GAO, “Troubled Asset Relief Program Treasury Needs to Strengthen Its Decision-Making Process
                                                                   on the Term Asset-Backed Securities Loan Facility,” 2/2010, www.gao.gov/new.items/d1025.pdf,
 Systemically Significant Institutions: Term referring to any      accessed 6/30/2011.

 financial institution whose failure would impose significant      GAO, “Troubled Asset Relief Program: Third Quarter 2010 Update of Government Assistance
                                                                   Provided to AIG and Description of Recent Execution of Recapitalization Plan,” 1/20/2011,
 losses on creditors and counterparties, call into question the    www.gao.gov/new.items/d1146.pdf, accessed 6/30/2011.

 financial strength of similar institutions, disrupt financial     IRS, “Glossary of Offshore Terms,” no date, www.irs.gov/businesses/small/article/
                                                                   0,,id=106572,00.html, accessed 6/30/2011.
 markets, raise borrowing costs for households and businesses,     Making Home Affordable base NPV model documentation v4.0, updated 10/1/2010.
 and reduce household wealth.                                      www.hmpadmin.com/portal/programs/docs/hamp_servicer/
                                                                   npvmodeldocumentationv4.pdf, pp. 23-24, accessed 7/20/2011.

 TALF Agent: Financial institution that is party to the TALF       SBA, “Notice of Changes to SBA Secondary Market Program,” 9/21/2004, archive.sba.gov/idc/
                                                                   groups/public/documents/sba_program_office/bank_notice_of_changes.htm, accessed 7/20/2011.
 Master Loan and Security Agreement and that occasion-             SEC, “NRSRO,” no date, http://www.sec.gov/answers/nrsro.htm, accessed 7/20/2011.
 ally acts as an agent for the borrower. TALF agents include       SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,”
                                                                   3/25/2010, www.sigtarp.gov/reports/audit/2010/Factors_Affecting_Implementation_of_the_Home_
 primary and nonprimary broker-dealers.                            Affordable_Modification_Program.pdf, accessed 6/30/2011.
                                                                   Treasury, “Decoder,” www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed
 Trial Modification: Under HAMP, a period of at least three        6/30/2011.
 months in which a borrower is given a chance to establish         Treasury, “Examinations of Mutual Savings Associations,” 11/1/2001, www.ots.treas.gov/
                                                                   _files/25153.pdf, accessed 6/30/2011.
 that he or she can make lower monthly mortgage payments
                                                                   Treasury, “Fact Sheet: Unlocking Credit for Small Businesses,” no date, www.treasury.gov/initiatives/
 and qualify for a permanent modification.                         financial-stability/investment-programs/sbli/Pages/unlockingCreditforSmallBusinesses.aspx,
                                                                   accessed 6/30/2011.
 Trust Preferred Securities (“TRUPS”): Securities that have        Treasury, “Special Master Feinberg Testimony before the House Committee on Oversight and
                                                                   Government Reform,” 10/28/2009, www.treasury.gov/press-center/press-releases/Pages/
 both equity and debt characteristics, created by establishing a   tg334.aspx, accessed 6/30/2011.
 trust and issuing debt to it.                                     Treasury, “Supplemental Directive 10-14: Making Home Affordable Program - Principal Reduction
                                                                   Alternative Update,” 10/15/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
 Undercapitalized: Condition in which a financial institution      sd1014.pdf, accessed 6/30/2011.
                                                                   Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009,
 does not meet its regulator’s requirements for sufficient         www.treasury.gov/press-center/press-releases/Pages/tg165.aspx, accessed 6/30/2011.
 capital to operate under a defined level of adverse conditions.   U.S. Census Bureau, “Residential Finance Survey, Glossary Of RFS Terms And Definitions,” no date,
                                                                   www.census.gov/hhes/www/rfs/glossary.html#l, accessed 6/30/2011.
 Underwater Mortgage: Mortgage loan on which a home-               U.S. Department of Housing and Urban Development, “Glossary,” no date, www.hud.gov/offices/hsg/
                                                                   sfh/buying/glossary.cfm, accessed 6/30/2011.
 owner owes more than the home is worth, typically as a result
 of a decline in the home’s value. Underwater mortgages are
 also referred to as having negative equity.
                                                                              Acronyms and abbreviations I Appendix B I july 28, 2011      199




Acronyms and Abbreviations

2MP               Second Lien Modification Program                 CMBS                  commercial mortgage-backed securities
ABS               asset-backed securities                          Coastal
                                                                                         Coastal Securities, Inc.
                                                                   Securities
AGP               Asset Guarantee Program
                                                                   Colonial              The Colonial BancGroup, Inc.
                  American International Assurance Co., Ltd.;
AIA
                  AIA Group Limited                                Community             Community Bancorp LLC
AIA SPV           AIA Aurora LLC                                   Community
                                                                                         Community Bank of Manatee
                                                                   Bank
AIFP              Automotive Industry Financing Program
                                                                   COP                   Congressional Oversight Panel
AIG               American International Group, Inc.
                                                                   COTR                  contracting officer’s technical representative
AIG Trust         AIG Credit Facility Trust
                                                                   CPP 	                 Capital Purchase Program
ALICO             American Life Insurance Company
                                                                                         Committee on Uniform Securities Identification
ALICO SPV         ALICO Holdings LLC                               CUSIP
                                                                                         Procedures
Ally Financial    Ally Financial Inc.
                                                                   Delphi                Delphi Automotive LLP
ARM               adjustable rate mortgage
                                                                   DIP                   debtor-in-possession
ARRA              American Recovery and Reinvestment Act of 2009
                                                                                         Dodd-Frank Wall Street Reform and Consumer
                                                                   Dodd-Frank Act
ASSP              Auto Supplier Support Program                                          Protection Act
AWCP              Auto Warranty Commitment Program                 DTI                   debt-to-income ratio
Bank of                                                            Edison                AIG Edison Life Insurance Company
                  Bank of America Corp.
America
                                                                   EESA                  Emergency Economic Stabilization Act of 2008
Bear State        Bear State Financial Holdings, LLC
                                                                   Fannie Mae            Federal National Mortgage Association
BHC               bank holding company
                                                                   FAR                   Federal Acquisition Regulation
Broadway          Broadway Financial Corp.
                                                                   FBI                   Federal Bureau of Investigation
Broadway Bank     Broadway Federal Bank, F.S.B.
                                                                   FCB                   First Community Bank of America
Cadence           Cadence Financial Corporation
                                                                   FCBA                  First Community Bank Corporation of America
CAP               Capital Assistance Program
                                                                   FBHC                  FBHC Holding Company
Capital Bank      Capital Bank Corporation
                                                                   FDIC                  Federal Deposit Insurance Corporation
Carlile           Carlile Bancshares Inc.
                                                                                         Federal Deposit Insurance Corporation Office of
                                                                   FDIC OIG
Carpenter         Carpenter Fund Manager GP LLC                                          Inspector General
Cascade           Cascade Financial Corporation                    FFBA                  First Federal Bancshares Corporation
CBO               Congressional Budget Office                      FFETF                 Financial Fraud Enforcement Task Force
CDCI              Community Development Capital Initiative         FHA                   Federal Housing Administration
CDFI              Community Development Financial Institution      FHA2LP                Treasury/FHA Second-Lien Program
CDLF              Community Development Loan Fund                  FHFA                  Federal Housing Finance Agency
Central Pacific   Central Pacific Financial Corp.                                        Federal Housing Finance Agency Office of the
                                                                   FHFA OIG
                                                                                         Inspector General
CEO               chief executive officer
                                                                   Fiat                  Fiat Automotive LLC
Cerberus          Cerberus Capital Management, L.P.
                                                                   Fidelity              Fidelity Resources Company
Chrysler          Chrysler Holding LLC
                                                                   FinCEN                Financial Crimes Enforcement Network
Chrysler
                  Chrysler Financial Services Americas LLC
Financial                                                          FirstCity             FirstCity Bank
Citigroup         Citigroup, Inc.                                  Flatirons             Flatirons Bank
200              Appendix B I Acronyms and abbreviations I july 28, 2011




      F.N.B.               F.N.B. Corporation                                  North American   North American Financial Holdings, Inc.
      FNB United           FNB United Corporation                              The Notice       Notice 2010-2
      FRBNY                Federal Reserve Bank of New York                    NPV              net present value
                           Federal Reserve Board Office of the Inspector       NRSRO            nationally recognized statistical rating organization
      FRB OIG
                           General
                                                                               Old Chrysler     Chrysler Group LLC
      Freddie Mac          Federal Home Loan Mortgage Corporation
                                                                               OFS              Office of Financial Stability
      FTC                  Federal Trade Commission
                                                                               OMB              Office of Management and Budget
      Galleria             Galleria USA, Inc.
                                                                               Omni             Omni National Bank
      GAO                  Government Accountability Office
                                                                               Option ARM       option adjustable rate mortgage
      GM                   General Motors Company
                                                                               Opus             Opus Bank
      GMAC                 GMAC Inc.
                                                                               Orion            Orion Bank
      GSE                  Government-sponsored enterprise
                                                                               OTS              Office of Thrift Supervision
      HAFA                 Home Affordable Foreclosure Alternatives program
                                                                               Parkvale         Parkvale Financial Corporation
      HAMP                 Home Affordable Modification Program
                                                                               PPIF             Public-Private Investment Fund
      Hancock              Hancock Holding Company
                                                                               PPIP             Public-Private Investment Program
      HFA                  Housing Finance Agency
                                                                               PRA              Principal Reduction Alternative program
      HHF                  Hardest Hit Fund
                                                                               Provident        Provident Bankshares Corporation
      HPDP                 Home Price Decline Protection program
                                                                               PSA              Pooling and Servicing Agreement
      HPF                  Homeownership Preservation Foundation
                                                                               QA               quality assurance
      HSC                  HAMP Solution Center
                                                                               QFI              qualifying financial institution
      HUD                  Department of Housing and Urban Development
                                                                                                U.S. Department of Agriculture Office of
                                                                               RD
                           Department of Housing and Urban Development                          Rural Development
      HUD OIG
                           Office of the Inspector General
                                                                                                Rural Development Home Affordable Modification
                                                                               RD-HAMP
      ILFC                 International Lease Finance Corporation                              Program
      IPO                  initial public offering                             RHS              Rural Housing Service
      IRS                  Internal Revenue Service                            RLJ              RLJ Western Asset Management Company
                           Internal Revenue Service Criminal Investigation     RMA              request for modification and affidavit
      IRS-CI
                           Division
                                                                               RMBS             residential mortgage-backed securities
      KfW IPEX-Bank
                           Kreditanstalt für Wiederaufbau Bankkengruppe                         Interim Final Rule on TARP Standards for
      GmbH                                                                     The Rule
                                                                                                Compensation and Corporate Governance
      Legacy               Legacy Bancorp, Inc.
                                                                               S corporation    Subchapter S corporation
      LPS                  Lender Processing Services
                                                                               Santa Lucia      Santa Lucia Bancorp
      LTV                  loan-to-value ratio
                                                                               SBA              Small Business Administration
      MBS                  mortgage-backed securities
                                                                               SBLF             Small Business Lending Fund
      MCP                  mandatorily convertible preferred shares
                                                                               SEC              Securities and Exchange Commission
      Metropolitan         Metropolitan Bank Group, Inc.
                                                                               SEO              senior executive officer
      MHA                  Making Home Affordable program
                                                                               Shay Financial   Shay Financial Services, Inc.
      MHA-C                Making Home Affordable-Compliance
                                                                                                Special Inspector General for the Troubled Asset
                                                                               SIGTARP
      Mission              Mission Community Bancorp                                            Relief Program
      M&T                  M&T Bank Corporation                                SPA              Servicer Participation Agreement
      Nan Shan             Nan Shan Life Insurance Company Ltd.                                 Office of the Special Master for TARP Executive
                                                                               Special Master
                                                                                                Compensation
      NC Bancorp           NC Bancorp, Inc.
                                                                               SPV              special purpose vehicle
      New Chrysler         Chrysler Group LLC
                                                                               SSFI             Systemically Significant Failing Institutions program
      NHMC                 Nations Housing Modification Center
                                                                               Star             AIG Star Life Insurance Co., Ltd.
      Non-agency
                           non-agency residential mortgage-backed securities
      RMBS                                                                     State Bancorp    State Bancorp Inc.
                                                                       Acronyms and abbreviations I Appendix B I july 28, 2011   201




Superior    Superior Bancorp, Inc.                           UAW                  United Auto Workers
TALF        Term Asset-Backed Securities Loan Facility       UCSB                 Unlocking Credit for Small Businesses
TALF LLC    TALF asset disposition facility                  UP                   Home Affordable Unemployment Program
TARP        Troubled Asset Relief Program                    UPB                  unpaid principal balance
TBW         Taylor, Bean and Whitaker Mortgage Corporation   USDA                 Department of Agriculture
TCW         The TCW Group, Inc.                              USPIS                Postal Inspection Service
TIP         Targeted Investment Program                      VA                   Department of Veterans Affairs
TOTAL       FHA TOTAL Scorecard                              Valley               Valley National Bancorp
TPP         trial period plan                                VEBA                 UAW Retiree Medical Benefits Trust
Treasury    Department of the Treasury                       Veritex              Veritex Holdings
Treasury                                                     Whitney              Whitney Holding Corporation
            The Secretary of the Treasury
Secretary
                                                             Wilmington           Wilmington Trust Corporation
TRUPS       trust preferred securities
202            Appendix C I Reporting Requirements I july 28, 2011




      Reporting Requirements
      This appendix provides Treasury’s responses to data call questions regarding the reporting requirements of the Special
      Inspector General for the Troubled Asset Relief Program outlined in EESA Section 121, as well as a cross-reference to related
      data presented in this report and prior reports. Italic style indicates narrative taken verbatim from source documents.

           EESA        EESA Reporting                                                                                                              SIGTARP
       #   Section     Requirement            Treasury Response to SIGTARP Data Call                                                               Report Section
       1   Section     A description of       Treasury’s authority to make new financial commitments under TARP ended on                           Section 2:
           121(c)(A)   the categories of      October 3, 2010.                                                                                     “TARP Overview”
                       troubled assets pur-
                       chased or otherwise    Below are program descriptions from Treasury’s www.treasury.gov/initiatives/financial-               Appendix D:
                       procured by the        stability/Pages/default.aspx website, as of 6/30/2011:                                               “Transaction
                       Treasury Secretary.                                                                                                         Detail”
                                              CPP: Treasury created the Capital Purchase Program (CPP) in October 2008 to stabilize the
                                              financial system by providing capital to viable financial institutions of all sizes throughout the
                                              nation. With a strengthened capital base, financial institutions have an increased capacity to
                                              lend to U.S. businesses and consumers and to support the U.S. economy.
                                              AIG: In September of 2008, panic in the financial system was deep and widespread.
                                              Amidst these events, on Friday, September 12, American International Group (AIG) officials
                                              informed the Federal Reserve and Treasury that the company was facing potentially fatal
                                              liquidity problems. At the time, AIG was the largest provider of conventional insurance in
                                              the world, with approximately 75 million individual and corporate customers in over 130
                                              countries.a
                                              AGP: Under the Asset Guarantee Program (AGP), Treasury acted to support the value of
                                              certain assets held by qualifying financial institutions, by agreeing to absorb unexpectedly
                                              large losses on certain assets. The program was designed for financial institutions whose
                                              failure could harm the financial system and was used in conjunction with other forms of
                                              exceptional assistance.
                                              TIP: Under the Targeted Investment Program [TIP], Treasury provided exceptional assistance
                                              on a case-by-case basis in order to stabilize institutions that were considered systemically
                                              significant to prevent broader disruption of financial markets. Treasury provided this as-
                                              sistance by purchasing preferred stock, and also received warrants to purchase common
                                              stock, in the institutions.
                                              TALF: This joint initiative with the Federal Reserve builds off, broadens and expands the re-
                                              sources available to support the consumer and business credit markets by providing the fi-
                                              nancing to private investors to help unfreeze and lower interest rates for auto, student loan,
                                              small business, credit card and other consumer and business credit. The U.S. Treasury
                                              originally committed $20 billion to provide credit protection for $200 billion of lending from
                                              the Federal Reserve. This commitment was later reduced to $4.3 billion after the program
                                              closed to new lending on June 30, 2010 with $43 billion in loans outstanding.
                                              PPIP: On March 23, 2009, the U.S. Department of the Treasury (“Treasury”), announced
                                              the Legacy Securities Public-Private Investment Program (“PPIP”) as a key component of
                                              President Obama’s Financial Stability Plan . The Financial Stability Plan outlines a broad
                                              framework to bring capital into the financial system and address the problem of legacy real
                                              estate assets.
                                              CDCI: As part of the Administration’s ongoing commitment to improving access to credit
                                              for small businesses, Treasury announced on February 3 final terms for the Community
                                              Development Capital Initiative [CDCI]. This TARP program invested lower-cost capital in
                                              Community Development Financial Institutions (CDFIs) that lend to small businesses in the
                                              country’s hardest-hit communities.
                                                                                             Reporting Requirements I Appendix C I july 28, 2011             203



    EESA        EESA Reporting                                                                                                           SIGTARP
#   Section     Requirement             Treasury Response to SIGTARP Data Call                                                           Report Section
                                        SBLF: Enacted into law as part of the Small Business Jobs Act of 2010 (the Jobs Act), the
                                        Small Business Lending Fund (SBLF) is a $30 billion fund that encourages lending to small
                                        businesses by providing capital to qualified community banks with assets of less than $10
                                        billion. Through the Small Business Lending Fund, Main Street banks and small businesses
                                        can work together to help create jobs and promote economic growth in local communities
                                        across the nation.
                                        UCSB: The Treasury Department will begin making direct purchases of securities backed by
                                        SBA loans to get the credit market moving again, and it will stand ready to purchase new
                                        securities to ensure that community banks and credit unions feel confident in extending new
                                        loans to local businesses.b
                                        AIFP: The objective of the [AIFP] is to prevent a significant disruption of the American
                                        automotive industry, which would pose a systemic risk to financial market stability and have
                                        a negative effect on the economy of the United States.
                                        ASSP: [ASSP was created to] provide up to $5 billion in financing, giving suppliers the
                                        confidence they need to continue shipping parts, pay their employees and continue their
                                        operations.b
                                        AWCP: The Treasury Department announced an innovative new program to give consumers
                                        who are considering new car purchases the confidence that even while Chrysler and GM
                                        were restructuring in bankruptcy, their warrantees will be honored. This program is part
                                        of the Administration’s broader program to stabilize the auto industry and stand behind a
                                        restructuring effort that will result in stronger, more competitive and viable American car
                                        companies.b
                                        HAMP (a program under MHA): The Home Affordable Modification Program has a simple
                                        goal: reduce the amount homeowners owe per month to sustainable levels to stabilize
                                        communities. This program will bring together lenders, investors, servicers, borrowers,
                                        and the government, so that all stakeholders share in the cost of ensuring that responsible
                                        homeowners can afford their monthly mortgage payments – helping to reach up to 3 to 4
                                        million at-risk borrowers in all segments of the mortgage market, reducing foreclosures,
                                        and helping to avoid further downward pressures on overall home prices.b
2   Section     A listing of the        Treasury’s authority to make new financial commitments under TARP ended on                       Appendix D:
    121(c)(B)   troubled assets         October 3, 2010.                                                                                 “Transaction
                purchased in each                                                                                                        Detail”
                such category           Information on all transactions as well as additional information about these programs and
                described under         related purchases is available in the transaction reports and monthly 105(a) reports posted
                Section 121(c)(A).      at www.treasury.gov/initiatives/financial-stability/briefing-room/reports/Pages/Home.aspx.
                                        Information regarding all transactions through the end of June 2011 is available at the afore-
                                        mentioned link in a transaction report dated July 1, 2011.
3   Section     An explanation of       Treasury’s authority to make new financial commitments under TARP ended on                       Section 2: “TARP
    121(c)(C)   the reasons the         October 3, 2010.                                                                                 Overview”
                Treasury Secretary
                deemed it neces-                                                                                                         Appendix C:
                sary to purchase                                                                                                         “Reporting
                each such troubled                                                                                                       Requirements”
                asset.                                                                                                                   of prior SIGTARP
                                                                                                                                         Quarterly Reports
                                                                                                                                         to Congress
4   Section     A listing of each       See #2.                                                                                          See #2
    121(c)(D)   financial institution
                from which such
                troubled assets
                were purchased.
204               Appendix C I Reporting Requirements I july 28, 2011




            EESA              EESA Reporting                                                                                                                                    SIGTARP
      #     Section           Requirement                    Treasury Response to SIGTARP Data Call                                                                             Report Section
      5     Section           A listing of and               There have been no new PPIP fund managers hired between April 1, 2011 and                                          Section 2:
            121(c)(E)         detailed biographical          June 30, 2011.                                                                                                     “Public-Private
                              information on each                                                                                                                               Investment
                              person or entity hired                                                                                                                            Program”
                              to manage such
                              troubled assets.                                                                                                                                  Appendix C:
                                                                                                                                                                                “Reporting
                                                                                                                                                                                Requirements”
                                                                                                                                                                                of prior SIGTARP
                                                                                                                                                                                Quarterly Reports
                                                                                                                                                                                to Congress
      6     Section           A current estimate             The transaction reports capture detailed information about troubled asset purchases, price                         Table C.1;
            121(c)(F)         of the total amount            paid, and the amount of troubled assets currently on Treasury’s books. The latest transac-                         Section 2: “TARP
                              of troubled assets             tion reports are available on Treasury’s website at www.treasury.gov/initiatives/financial-                        Overview”
                              purchased pursuant             stability/briefing- room/reports/Pages/Home.aspx. Information regarding all transactions
                              to any program                 through the end of June 2011 is available at the aforementioned link in a transaction report                       Appendix D:
                              established under              dated July 1, 2011.                                                                                                “Transaction
                              Section 101, the                                                                                                                                  Detail”
                              amount of troubled             Treasury published its most recent valuation of TARP investments as of March 31, 2011, on
                              assets on the                  July 11, 2011, in its June 2011 105(a) report that is available at the following link:
                              books of Treasury,             www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Pages/default.aspx
                              the amount of                  Information on the repayments of Treasury’s investments under the CPP and proceeds from
                              troubled assets                the sale of warrants are available within Treasury’s press releases, transactions reports and
                              sold, and the profit           Section 105(a) Monthly Congressional Reports at the following links:
                              and loss incurred
                              on each sale or                www.treasury.gov/initiatives/financial-stability/briefing-room/Pages/press-releases.aspx
                              disposition of each
                                                             www.treasury.gov/initiatives/financial-stability/briefing-room/reports/Pages/Home.aspx
                              such troubled
                              asset.
      7     Section           A listing of the               Treasury’s authority to make new financial commitments under TARP ended on                                         Section 2:
            121(c)(G)         insurance contracts            October 3, 2010. As such, Treasury cannot issue any new insurance contracts after                                  “TARP Overview”
                              issued under                   this date.
                              Section 102.                                                                                                                                      Section 2:
                                                                                                                                                                                “Targeted Invest-
                                                                                                                                                                                ment Program and
                                                                                                                                                                                Asset Guarantee
                                                                                                                                                                                Program”
      8     Section           A detailed statement           Treasury’s authority to make new financial commitments under TARP ended on                                         Table C.1;
            121(f)            of all purchases,              October 3, 2010.                                                                                                   Section 2:
                              obligations,                                                                                                                                      “TARP Overview”
                              expenditures, and              Treasury provides information about TARP obligations, expenditures and revenues in
                              revenues associated            separate transaction reports available on Treasury’s public website at www.treasury.gov/                           Section 3: “TARP
                              with any program               initiatives/financial-stability/briefing-room/reports/Pages/Home.aspx. Information regarding                       Operations and
                              established by the             all transactions through the end of June 2011 is available at the aforementioned link in a                         Administration”
                              Secretary of the               transaction report dated July 1, 2011.
                                                                                                                                                                                Appendix D:
                              Treasury under                 Information on obligations and expenditures is also available in the Daily TARP Update                             “Transaction
                              Sections 101 and               reports available on Treasury’s public website at: www.treasury.gov/initiatives/financial-                         Detail”
                              102.                           stability/briefing-room/reports/tarp-daily-summary-report/pages/default.aspx, accessed
                                                             7/8/2011.

      Notes:
      a
        Otherwise known as Systemically Significant Failing Institution (“SSFI”).
      b
        Description is of 3/31/2011.

      Sources: Treasury, response to SIGTARP data call, 6/28/2011; Program Descriptions: Treasury, “Programs,” www.treasury.gov/initiatives/financial-stability/investment-programs/Pages/default.aspx,
      accessed 7/7/2011; ASSP: “Treasury Announces Auto Suppliers Support Program,” 3/19/2009, www.treasury.gov/press-center/press-releases/Pages/tg64.aspx, accessed 7/7/2011; AWCP: “Obama
      Administration’s New Warrantee Commitment Program,” no date, www.whitehouse.gov/assets/documents/Warrantee_Commitment_Program.pdf, accessed 7/7/2011; TALF: Federal Reserve, “Term
      Asset-Backed Securities Loan Facility (TALF) Frequently Asked Questions,” no date, www.federalreserve.gov/newsevents/press/monetary/monetary20090303a2.pdf, accessed 7/7/2011; SBLF: Small
      Business Lending Act, P.L. 111-240, 9/27/2010; MHA “Making Home Affordable Updated Detailed Description Update,” 3/26/2010,www.treasury.gov/initiatives/financial-stability/programs/housing-
      programs/mha/Pages/default.aspx, accessed 7/18/2011.			
      			
                                                                                                           Reporting Requirements I Appendix C I july 28, 2011                       205



 TOTAL AMOUNT OF TROUBLED ASSETS PURCHASED AND HELD ON TREASURY’S BOOKS, AS OF 6/30/2011 ($ BILLIONS)
                                                                                                                                                                  On Treasury’s
                                                                                                       Obligationsa                             Expendedb               Booksc
Capital Purchase Program (“CPP”)                                                                           $204.89                                $204.89                   $24.39
Systemically Significant Failing Institutions (“SSFI”)                                                        69.84                                  67.84                   52.89
Housing Support Programs                                                                                      45.62                                    2.00                   2.00
Targeted Investment Program (“TIP”)                                                                           40.00                                  40.00                      —
Automotive Industry Financing Program (“AIFP”)        d
                                                                                                              81.76                                  79.69                   45.00
Asset Guarantee Program (“AGP”)                                                                                 5.00                                      —                     —
Consumer and Business Lending Initiative (“CBLI”)
    Term Asset-Backed Securities Loan Facility (“TALF”)                                                         4.30                                   0.10                   0.10
    Small Business Lending Program                                                                                —                                      —                      —
    Unlocking Credit for Small Businesses (“UCSB”)                                                              0.40                                   0.37                   0.22
    Community Development Capital Initiative (“CDCI”)                                                           0.57                                   0.21                   0.57
Legacy Securities Public-Private Investment Program (“PPIP”)                                                  22.41                                  17.00                   15.87
Total                                                                                                      $474.79                                $412.10              $141.04
Notes: Numbers affected by rounding.
a
  For purposes of this table, “Obligations” refers to “Face Value Obligations” on the Treasury TARP/Financial Stability Plan Budget Table (“TARP Budget”) as of 4/4/2011.
b
  “Expended” refers to “Face Value Disbursed/Outlays,” defined as “TARP cash that has left the Treasury, according to the TARP Budget.”
c
  “On Treasury’s Books” calculated as “Face Value Disbursed/Outlays” net of repayments per the Transactions Report if they do not appear to be already netted out.
d
  Includes amounts for AIFP, ASSP, and AWCP.

Sources: Repayments data: Treasury, Transactions Report, 7/1/2011; Treasury, Transactions Report — Housing Programs, 7/1/2011; all other data: Treasury, response to
SIGTARP data call, 6/28/2011.
table d.1

 CPP Transaction Detail, as oF 6/30/2011                                                     (continued)                                                                                                                                                                     206


                                                                                                                                               Capital         Capital    Remaining         Final                              Stock Price       Current       Dividends/
Purchase                                                                                                                       Investment   Repayment       Repayment       Capital   Disposition            Final Disposition       as of   Outstanding    Interest Paid
Date          Institution                                                  Investment Description                                 Amount         Date         Amount6       Amount          Date    Note15          Proceeds 6/30/2011         Warrantsa      to Treasury

12/23/2008 1st Constitution Bancorp, Cranbury, NJ                          Preferred Stock w/ Warrants                       $12,000,000    10/27/2010     $12,000,000           —                                                  $7.82                     $1,106,667


2/13/2009     1st Enterprise Bank, Los Angeles, CA2,c                      Preferred Stock w/ Exercised Warrants              $4,400,000
                                                                                                                                                                                                                                   $12.26                       $969,215
12/11/2009 1st Enterprise Bank, Los Angeles, CA2,10a,c                     Preferred Stock                                    $6,000,000


11/14/2008 1st FS Corporation, Hendersonville, NC                          Preferred Stock w/ Warrants                       $16,369,000                                                                                            $0.38                     $1,229,949


1/23/2009     1st Source Corporation, South Bend, IN                       Preferred Stock w/ Warrants                      $111,000,000    12/29/2010    $111,000,000           —      3/9/2011        R      $3,750,000.00       $20.74                    $10,730,000


3/13/2009     1st United Bancorp, Inc., Boca Raton, FL2                    Preferred Stock w/ Exercised Warrants             $10,000,000    11/18/2009     $10,000,000           —    11/18/2009        R       $500,000.00         $6.22                       $370,903


1/23/2009     AB&T Financial Corporation, Gastonia, NC                     Preferred Stock w/ Warrants                        $3,500,000                                                                                            $1.60                       $360,694

                                        2
1/30/2009     Adbanc, Inc, Ogallala, NE                                    Preferred Stock w/ Exercised Warrants             $12,720,000                                                                                                                      $1,588,675

                                                           2
1/23/2009     Alarion Financial Services, Inc., Ocala, FL                  Preferred Stock w/ Exercised Warrants              $6,514,000                                                                                                                        $820,537
                                                                                                                                                                                                                                                                             Appendix D I Transaction Detail I july 28, 2011




2/6/2009      Alaska Pacific Bancshares, Inc., Juneau, AK                  Preferred Stock w/ Warrants                        $4,781,000                                                                                            $7.75                       $545,555


6/26/2009     Alliance Bancshares, Inc., Dalton, GA2                       Preferred Stock w/ Exercised Warrants              $2,986,000                                                                                            $4.70                       $306,889


12/19/2008 Alliance Financial Corporation, Syracuse, NY                    Preferred Stock w/ Warrants                       $26,918,000     5/13/2009     $26,918,000           —     6/17/2009        R       $900,000.00        $30.53                       $538,360

                                                                   8
6/26/2009     Alliance Financial Services Inc., Saint Paul, MN             Subordinated Debentures w/ Exercised Warrants     $12,000,000                                                                                                                        $388,742


4/24/2009     Allied First Bancorp, Inc., Oswego, IL2                      Preferred Stock w/ Exercised Warrants              $3,652,000                                                                                            $1.00                       $409,753


3/27/2009     Alpine Banks of Colorado, Glenwood Springs, CO2              Preferred Stock w/ Exercised Warrants             $70,000,000                                                                                                                      $6,231,166

                                                2
1/30/2009     AMB Financial Corp., Munster, IN                             Preferred Stock w/ Exercised Warrants              $3,674,000                                                                                            $4.49                       $458,929

                                                               2
3/6/2009      AmeriBank Holding Company, Collinsville, OK                  Preferred Stock w/ Exercised Warrants              $2,492,000                                                                                                                        $297,738


1/9/2009      American Express Company, New York, NY                       Preferred Stock w/ Warrants                     $3,388,890,000    6/17/2009   $3,388,890,000          —     7/29/2009        R    $340,000,000.00       $51.70                    $74,367,308


5/29/2009     American Premier Bancorp, Arcadia, CA2                       Preferred Stock w/ Exercised Warrants              $1,800,000     1/26/2011      $1,800,000           —     1/26/2011        R         $90,000.00                                    $162,682

                                                                       2
1/9/2009      American State Bancshares, Inc., Great Bend, KS              Preferred Stock w/ Exercised Warrants              $6,000,000                                                                                                                        $768,450


11/21/2008 Ameris Bancorp, Moultrie, GA                                    Preferred Stock w/ Warrants                       $52,000,000                                                                                            $8.87       698,554       $6,456,667


12/19/2008 AmeriServ Financial, Inc, Johnstown, PA                         Preferred Stock w/ Warrants                       $21,000,000                                                                                            $2.06     1,312,500       $2,525,833


8/21/2009     AmFirst Financial Services, Inc., McCook, NE8                Subordinated Debentures w/ Exercised Warrants      $5,000,000                                                                                                                        $727,135


1/30/2009     Anchor BanCorp Wisconsin Inc., Madison, WI                   Preferred Stock w/ Warrants                      $110,000,000                                                                                            $9.02     7,399,103                —


1/30/2009     Annapolis Bancorp, Inc., Annapolis, MD                       Preferred Stock w/ Warrants                        $8,152,000                                                                                            $4.13       299,706         $934,083


11/21/2008 Associated Banc-Corp, Green Bay, WI                             Preferred Stock w/ Warrants                      $525,000,000      4/6/2011    $262,500,000 $262,500,000                                                $13.27     3,983,308      $63,765,625


12/29/2009 Atlantic Bancshares, Inc., Bluffton, SC2,10                     Preferred Stock w/ Exercised Warrants              $2,000,000                                                                                            $1.05                       $122,725

                                                               2
2/27/2009     Avenue Financial Holdings, Inc., Nashville, TN               Preferred Stock w/ Exercised Warrants              $7,400,000                                                                                                                        $893,982

                                                    2
3/13/2009     BancIndependent, Inc., Sheffield, AL                         Preferred Stock w/ Exercised Warrants             $21,100,000                                                                                                                      $2,497,947


7/10/2009     Bancorp Financial, Inc., Oak Brook, IL2,10                   Preferred Stock w/ Exercised Warrants             $13,669,000                                                                                                                      $1,330,647


                                                                                                                                                                                                                                                   Continued on next page.
 CPP Transaction Detail, as oF 6/30/2011                                                             (continued)



                                                                                                                                                        Capital          Capital    Remaining         Final                              Stock Price       Current       Dividends/
Purchase                                                                                                                                Investment   Repayment        Repayment       Capital   Disposition            Final Disposition       as of   Outstanding    Interest Paid
Date          Institution                                                          Investment Description                                  Amount         Date          Amount6       Amount          Date    Note15          Proceeds 6/30/2011         Warrantsa      to Treasury

12/19/2008 Bancorp Rhode Island, Inc., Providence, RI                              Preferred Stock w/ Warrants                        $30,000,000     8/5/2009       $30,000,000           —     9/30/2009        R      $1,400,000.00       $45.32                       $941,667


2/20/2009     BancPlus Corporation, Ridgeland, MS2,30                              Preferred Stock w/ Exercised Warrants              $48,000,000    9/29/2010       $48,000,000           —     9/29/2010        R      $2,400,000.00                                  $4,207,399

                                        2
4/3/2009      BancStar, Inc., Festus, MO                                           Preferred Stock w/ Exercised Warrants                $8,600,000                                                                                                                        $992,082


12/19/2008 BancTrust Financial Group, Inc., Mobile, AL                             Preferred Stock w/ Warrants                        $50,000,000                                                                                             $2.57       730,994       $6,013,889


8/14/2009     Bank Financial Services, Inc., Eden Prarie, MN2                      Preferred Stock w/ Exercised Warrants                $1,004,000                                                                                                                         $95,877


10/28/2008 Bank of America Corporation, Charlotte, NC1b,c                          Preferred Stock w/ Warrants                     $15,000,000,000   12/9/2009    $15,000,000,000          —      3/3/2010        A    $186,342,968.70                               $458,333,333
                                                                                                                                                                                                                                             $10.96
                                                                 1a,1b,c
1/9/2009      Bank of America Corporation, Charlotte, NC                           Preferred Stock w/ Warrants                     $10,000,000,000   12/9/2009    $10,000,000,000          —      3/3/2010        A    $124,228,645.80                               $835,416,667

                                                 2
1/16/2009     Bank of Commerce, Charlotte, NC                                      Preferred Stock w/ Exercised Warrants                $3,000,000                                                                                                                        $381,046


11/14/2008 Bank of Commerce Holdings, Redding, CA                                  Preferred Stock w/ Warrants                        $17,000,000                                                                                             $4.20       405,405       $2,127,361


3/13/2009     Bank of George, Las Vegas, NV2                                       Preferred Stock w/ Exercised Warrants                $2,672,000                                                                                                                        $279,991

                                                     h
12/5/2008     Bank of Marin Bancorp, Novato, CA                                    Preferred Stock w/ Warrants                        $28,000,000    3/31/2009       $28,000,000           —                                                 $35.37       154,692         $451,111

4/17/2009     Bank of the Carolinas Corporation, Mocksville, NC                    Preferred Stock w/ Warrants                        $13,179,000                                                                                             $0.99       475,204       $1,039,677


12/12/2008 Bank of the Ozarks, Inc., Little Rock, AR                               Preferred Stock w/ Warrants                        $75,000,000    11/4/2009       $75,000,000           —    11/24/2009        R      $2,650,000.00       $52.06                     $3,354,167


1/30/2009     Bankers’ Bank of the West Bancorp, Inc., Denver, CO2                 Preferred Stock w/ Exercised Warrants              $12,639,000                                                                                                                         $717,532

                                                             2
1/23/2009     BankFirst Capital Corporation, Macon, MS                             Preferred Stock w/ Exercised Warrants              $15,500,000                                                                                                                       $1,952,312

                                            2
2/13/2009     BankGreenville, Greenville, SC                                       Preferred Stock w/ Exercised Warrants                $1,000,000                                                                                                                        $122,928


11/21/2008 Banner Corporation, Walla Walla, WAi                                    Preferred Stock w/ Warrants                       $124,000,000                                                                                            $17.50       243,998      $15,396,667


2/6/2009      Banner County Ban Corporation, Harrisburg, NE2                       Preferred Stock w/ Exercised Warrants                 $795,000                                                                                                                          $98,621


1/16/2009     Bar Harbor Bankshares, Bar Harbor, ME                                Preferred Stock w/ Warrants                        $18,751,000    2/24/2010       $18,751,000           —     7/28/2010        R       $250,000.00        $28.20                     $1,036,514


11/14/2008 BB&T Corp., Winston-Salem, NC                                           Preferred Stock w/ Warrants                      $3,133,640,000   6/17/2009     $3,133,640,000          —     7/22/2009        R     $67,010,401.86       $27.00                    $92,703,517


4/3/2009      BCB Holding Company, Inc., Theodore, AL2                             Preferred Stock w/ Exercised Warrants                $1,706,000                                                                                                                        $173,508


12/23/2008 BCSB Bancorp, Inc., Baltimore, MD                                       Preferred Stock w/ Warrants                        $10,800,000    1/26/2011       $10,800,000           —                                                 $13.87       183,465       $1,129,500

                                                                 2
1/30/2009     Beach Business Bank, Manhattan Beach, CA                             Preferred Stock w/ Exercised Warrants                $6,000,000                                                                                            $5.71                       $749,375

                                                         2
6/12/2009     Berkshire Bancorp, Inc., Wyomissing, PA                              Preferred Stock w/ Exercised Warrants                $2,892,000                                                                                           $22.92                       $145,826


12/19/2008 Berkshire Hills Bancorp, Inc., Pittsfield, MA                           Preferred Stock w/ Warrants                        $40,000,000    5/27/2009       $40,000,000           —     6/24/2009        R      $1,040,000.00       $22.39                       $877,778


2/13/2009     Bern Bancshares, Inc., Bern, KS2                                     Preferred Stock w/ Exercised Warrants                 $985,000                                                                                                                         $121,236

                                                                           2
4/24/2009     Birmingham Bloomfield Bancshares, Inc, Birmingham, MI                Preferred Stock w/ Exercised Warrants                $1,635,000
                                                                                                                                                                                                                                              $3.25                       $306,267
                                                                           2,10a
12/18/2009 Birmingham Bloomfield Bancshares, Inc, Birmingham, MI                   Preferred Stock                                      $1,744,000


6/19/2009     Biscayne Bancshares, Inc., Coconut Grove, FL8,10                     Subordinated Debentures w/ Exercised Warrants        $6,400,000                                                                                                                        $995,319
                                                                                                                                                                                                                                                                                       Transaction detail I Appendix D I july 28, 2011




3/13/2009     Blackhawk Bancorp, Inc., Beloit, WI2                                 Preferred Stock w/ Exercised Warrants              $10,000,000                                                                                             $8.50                     $1,183,861


                                                                                                                                                                                                                                                             Continued on next page.
                                                                                                                                                                                                                                                                                       207
                                                                                                                                                                                                                                                                        208
 CPP Transaction Detail, as oF 6/30/2011                                                   (continued)



                                                                                                                                           Capital        Capital   Remaining          Final                              Stock Price       Current       Dividends/
Purchase                                                                                                                   Investment   Repayment      Repayment      Capital    Disposition            Final Disposition       as of   Outstanding    Interest Paid
Date         Institution                                                 Investment Description                               Amount         Date        Amount6      Amount           Date    Note15          Proceeds 6/30/2011         Warrantsa      to Treasury

5/22/2009    Blackridge Financial, Inc., Fargo, ND2                      Preferred Stock w/ Exercised Warrants             $5,000,000                                                                                                                      $539,701


3/6/2009     Blue Ridge Bancshares, Inc., Independence, MO2              Preferred Stock w/ Exercised Warrants            $12,000,000                                                                                                                    $1,106,350


3/6/2009     Blue River Bancshares, Inc., Shelbyville, IN2               Preferred Stock w/ Exercised Warrants             $5,000,000                                                                                          $0.35                       $529,105

12/5/2008    Blue Valley Ban Corp, Overland Park, KS                     Preferred Stock w/ Warrants                      $21,750,000                                                                                          $5.50       111,083         $211,458


4/17/2009    BNB Financial Services Corporation, New York, NY2           Preferred Stock w/ Exercised Warrants             $7,500,000                                                                                                                      $440,542


12/5/2008    BNC Bancorp, Thomasville, NC                                Preferred Stock w/ Warrants                      $31,260,000                                                                                          $7.33       543,337       $3,820,667


2/27/2009    BNC Financial Group, Inc., New Canaan, CT2                  Preferred Stock w/ Exercised Warrants             $4,797,000                                                                                         $13.80                       $579,547

                                               2
1/16/2009    BNCCORP, Inc., Bismarck, ND                                 Preferred Stock w/ Exercised Warrants            $20,093,000                                                                                          $7.14                       $909,542


3/6/2009     BOH Holdings, Inc., Houston, TX2                            Preferred Stock w/ Exercised Warrants            $10,000,000                                                                                                                    $1,194,458
                                                                                                                                                                                                                                                                        Appendix D I Transaction Detail I july 28, 2011




5/15/2009    Boscobel Bancorp, Inc, Boscobel, WI8                        Subordinated Debentures w/ Exercised Warrants     $5,586,000                                                                                                                      $468,624


                                                                                                                                         1/13/2010    $50,000,000 $104,000,000
11/21/2008 Boston Private Financial Holdings, Inc., Boston, MA           Preferred Stock w/ Warrants                     $154,000,000                                              2/1/2011        A     $6,352,500.00         $6.58                    $11,022,222
                                                                                                                                         6/16/2010   $104,000,000           —


                                                                                                                                         2/23/2011    $15,000,000   $8,864,000
12/23/2008 Bridge Capital Holdings, San Jose, CAl                        Preferred Stock w/ Warrants                      $23,864,000                                             4/20/2011        R     $1,395,000.00        $11.08                     $2,613,582
                                                                                                                                         3/16/2011     $8,864,000           —


12/19/2008 Bridgeview Bancorp, Inc., Bridgeview, IL2                     Preferred Stock w/ Exercised Warrants            $38,000,000                                                                                         $11.33                     $2,393,156

                                                                  3a,c
11/14/2008 Broadway Financial Corporation, Los Angeles, CA               Preferred Stock                                   $9,000,000
                                                                                                                                                                                                                               $2.23                       $810,417
12/4/2009    Broadway Financial Corporation, Los Angeles, CA3,10a,c      Preferred Stock                                   $6,000,000


5/15/2009    Brogan Bankshares, Inc., Kaukauna, WI8                      Subordinated Debentures w/ Exercised Warrants     $2,400,000                                                                                                                      $402,720


7/17/2009    Brotherhood Bancshares, Inc., Kansas City, KS2              Preferred Stock w/ Exercised Warrants            $11,000,000                                                                                                                    $1,095,753

                                                      2
4/24/2009    Business Bancshares, Inc., Clayton, MO                      Preferred Stock w/ Exercised Warrants            $15,000,000                                                                                                                    $1,682,688


3/13/2009    Butler Point, Inc., Catlin, IL2                             Preferred Stock w/ Exercised Warrants              $607,000                                                                                                                        $71,792


1/9/2009     C&F Financial Corporation, West Point, VA                   Preferred Stock w/ Warrants                      $20,000,000                                                                                         $21.29       167,504       $2,350,000


12/23/2008 Cache Valley Banking Company, Logan, UT2                      Preferred Stock w/ Exercised Warrants             $4,767,000
                                                                                                                                                                                                                                                           $948,738
                                                          2,10a
12/18/2009 Cache Valley Banking Company, Logan, UT                       Preferred Stock                                   $4,640,000


1/9/2009     Cadence Financial Corporation, Starkville, MS33             Preferred Stock w/ Warrants                      $44,000,000     3/4/2011    $38,000,000           —           N/A                         N/A                                  $3,984,063


2/27/2009    California Bank of Commerce, Lafayette, CA2                 Preferred Stock w/ Exercised Warrants             $4,000,000                                                                                          $7.00                       $483,233


1/23/2009    California Oaks State Bank, Thousand Oaks, CA2              Preferred Stock w/ Exercised Warrants             $3,300,000    12/8/2010     $3,300,000           —     12/8/2010        R       $165,000.00                                     $337,219

                                                          2
1/23/2009    Calvert Financial Corporation, Ashland, MO                  Preferred Stock w/ Exercised Warrants             $1,037,000                                                                                                                      $130,648


1/23/2009    CalWest Bancorp, Rancho Santa Margarita, CA2                Preferred Stock w/ Exercised Warrants             $4,656,000                                                                                          $0.59                       $396,164


12/23/2008 Capital Bancorp, Inc., Rockville, MD2                         Preferred Stock w/ Exercised Warrants             $4,700,000   12/30/2010     $4,700,000           —    12/30/2010        R       $235,000.00                                     $517,281


                                                                                                                                                                                                                                              Continued on next page.
 CPP Transaction Detail, as oF 6/30/2011                                                   (continued)



                                                                                                                                             Capital         Capital    Remaining         Final                              Stock Price       Current       Dividends/
Purchase                                                                                                                     Investment   Repayment       Repayment       Capital   Disposition            Final Disposition       as of   Outstanding    Interest Paid
Date          Institution                                                Investment Description                                 Amount         Date         Amount6       Amount          Date    Note15          Proceeds 6/30/2011         Warrantsa      to Treasury

12/12/2008 Capital Bank Corporation, Raleigh, NC35                       Preferred Stock w/ Warrants                       $41,279,000     1/28/2011     $41,279,000           —           N/A       —                 N/A        $3.49       749,619       $3,973,104


4/10/2009     Capital Commerce Bancorp, Inc., Milwaukee, WI2             Preferred Stock w/ Exercised Warrants              $5,100,000                                                                                                                        $304,973


11/14/2008 Capital One Financial Corporation, McLean, VA                 Preferred Stock w/ Warrants                     $3,555,199,000    6/17/2009   $3,555,199,000          —     12/3/2009        A    $148,731,030.00       $51.67                  $105,174,638


12/23/2008 Capital Pacific Bancorp, Portland, OR2                        Preferred Stock w/ Exercised Warrants              $4,000,000                                                                                                                        $521,989

                                                           8
10/23/2009 Cardinal Bancorp II, Inc., Washington, MO                     Subordinated Debentures w/ Exercised Warrants      $6,251,000                                                                                                                        $818,838


1/9/2009      Carolina Bank Holdings, Inc., Greensboro, NC               Preferred Stock w/ Warrants                       $16,000,000                                                                                            $2.55       357,675       $1,882,500


2/6/2009      Carolina Trust Bank, Lincolnton, NC                        Preferred Stock w/ Warrants                        $4,000,000                                                                                            $2.95        86,957         $455,000


2/13/2009     Carrollton Bancorp, Baltimore, MD                          Preferred Stock w/ Warrants                        $9,201,000                                                                                            $2.63       205,379         $922,656

                                                    3,30
1/16/2009     Carver Bancorp, Inc, New York, NY                          Preferred Stock                                   $18,980,000     8/27/2010     $18,980,000           —           N/A       —                 N/A        $0.80                     $1,531,581


11/21/2008 Cascade Financial Corporation, Everett, WA47,m                Preferred Stock w/ Warrants                       $38,970,000     6/30/2011     $16,250,000           —           N/A       —                 N/A        $0.44                     $1,428,900


12/5/2008     Cathay General Bancorp, Los Angeles, CA                    Preferred Stock w/ Warrants                      $258,000,000                                                                                           $16.39     1,846,374      $31,533,333


2/27/2009     Catskill Hudson Bancorp, Inc., Rock Hill, NY2,c            Preferred Stock w/ Exercised Warrants              $3,000,000
                                                                                                                                                                                                                                 $18.00                       $621,149
                                                               2,10a,c
12/22/2009 Catskill Hudson Bancorp, Inc., Rock Hill, NY                  Preferred Stock w/ Exercised Warrants              $3,500,000


5/29/2009     CB Holding Corp., Aledo, IL2                               Preferred Stock w/ Exercised Warrants              $4,114,000                                                                                                                        $271,580


2/20/2009     CBB Bancorp, Cartersville, GA2                             Preferred Stock w/ Exercised Warrants              $2,644,000                                                                                                                        $442,941


12/29/2009 CBB Bancorp, Cartersville, GA2,10a                            Preferred Stock                                    $1,753,000

                                                2
3/27/2009     CBS Banc-Corp., Russellville, AL                           Preferred Stock w/ Exercised Warrants             $24,300,000                                                                                                        523,076       $1,500,930


12/23/2008 Cecil Bancorp, Inc., Elkton, MD j                             Preferred Stock w/ Warrants                       $11,560,000                                                                                            $1.00       261,538         $516,989


2/6/2009      CedarStone Bank, Lebanon, TN2                              Preferred Stock w/ Exercised Warrants              $3,564,000                                                                                                                        $441,851


1/9/2009      Center Bancorp, Inc., Union, NJ                            Preferred Stock w/ Warrants                       $10,000,000                                                                                           $10.44        86,705       $1,175,000


12/12/2008 Center Financial Corporation, Los Angeles, CA                 Preferred Stock w/ Warrants                       $55,000,000                                                                                            $6.35       432,390       $6,668,750


5/1/2009      CenterBank, Milford, OH2                                   Preferred Stock w/ Exercised Warrants              $2,250,000                                                                                                                        $250,111


11/21/2008 Centerstate Banks of Florida Inc., Davenport, FL              Preferred Stock w/ Warrants                       $27,875,000     9/30/2009     $27,875,000           —    10/28/2009        R       $212,000.00         $6.92                     $1,196,303


1/16/2009     Centra Financial Holdings, Inc., Morgantown, WV2           Preferred Stock w/ Exercised Warrants             $15,000,000     3/31/2009     $15,000,000           —     4/15/2009        R       $750,000.00                                     $172,938


12/5/2008     Central Bancorp, Inc., Somerville, MA                      Preferred Stock w/ Warrants                       $10,000,000                                                                                           $20.55                     $1,222,222


2/27/2009     Central Bancorp, Inc., Garland, TX2                        Preferred Stock w/ Exercised Warrants             $22,500,000                                                                                                                      $2,411,625


1/30/2009     Central Bancshares, Inc., Houston, TX2                     Preferred Stock w/ Exercised Warrants              $5,800,000                                                                                                                        $724,396

2/20/2009     Central Community Corporation, Temple, TX2                 Preferred Stock w/ Exercised Warrants             $22,000,000                                                                                                                      $2,681,097


12/5/2008     Central Federal Corporation, Fairlawn, OH                  Preferred Stock w/ Warrants                        $7,225,000                                                                                            $0.80       336,568         $612,118
                                                                                                                                                                                                                                                                           Transaction detail I Appendix D I july 28, 2011




12/23/2008 Central Jersey Bancorp, Oakhurst, NJ                          Preferred Stock w/ Warrants                       $11,300,000    11/24/2010     $11,300,000           —     12/1/2010        R       $319,658.99                                   $1,084,486


                                                                                                                                                                                                                                                 Continued on next page.
                                                                                                                                                                                                                                                                           209
                                                                                                                                                                                                                                                                               210
 CPP Transaction Detail, as oF 6/30/2011                                                    (continued)



                                                                                                                                               Capital          Capital    Remaining          Final                              Stock Price       Current       Dividends/
Purchase                                                                                                                       Investment   Repayment        Repayment       Capital    Disposition            Final Disposition       as of   Outstanding    Interest Paid
Date          Institution                                                 Investment Description                                  Amount         Date          Amount6       Amount           Date    Note15          Proceeds 6/30/2011         Warrantsa      to Treasury

1/9/2009      Central Pacific Financial Corp., Honolulu, HI37,46          Common Stock w/ Warrants                          $135,000,000     6/17/2011      $35,883,281            —                                                 $14.00        79,288       $2,362,500


1/30/2009     Central Valley Community Bancorp, Fresno, CA                Preferred Stock w/ Warrants                          $7,000,000                                                                                             $6.56        79,067         $802,083


1/30/2009     Central Virginia Bankshares, Inc., Powhatan, VA             Preferred Stock w/ Warrants                        $11,385,000                                                                                              $1.15       263,542         $450,656

                                                             2,10
12/18/2009 Centric Financial Corporation, Harrisburg, PA                  Preferred Stock w/ Exercised Warrants                $6,056,000                                                                                                                         $449,512


2/6/2009      Centrix Bank & Trust, Bedford, NH2                          Preferred Stock w/ Exercised Warrants                $7,500,000                                                                                            $17.00                       $929,906


1/9/2009      Centrue Financial Corporation, St. Louis, MO                Preferred Stock w/ Warrants                        $32,668,000                                                                                              $0.60       508,320         $571,690


6/19/2009     Century Financial Services Corporation, Santa Fe, NM8       Subordinated Debentures w/ Exercised Warrants      $10,000,000                                                                                                                        $1,598,761

                                                         8
5/29/2009     Chambers Bancshares, Inc., Danville, AR                     Subordinated Debentures w/ Exercised Warrants      $19,817,000                                                                                                                        $3,260,674


7/31/2009     Chicago Shore Corporation, Chicago, IL2                     Preferred Stock w/ Exercised Warrants                $7,000,000                                                                                                                         $683,521
                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I july 28, 2011




12/31/2008 CIT Group Inc., New York, NY16                                 Contingent Value Rights                          $2,330,000,000     2/8/2010                —            —           N/A                         N/A       $44.26                    $43,687,500


10/28/2008 Citigroup Inc., New York, NY11,23                              Common Stock w/ Warrants                        $25,000,000,000           **   $25,000,000,000           —    1/25/2011         A    $54,621,848.84        $41.46                  $932,291,667


1/16/2009     Citizens & Northern Corporation, Wellsboro, PA              Preferred Stock w/ Warrants                        $26,440,000      8/4/2010      $26,440,000            —     9/1/2010         R       $400,000.00        $15.07                     $2,049,100


12/23/2008 Citizens Bancorp, Nevada City, CA2                             Preferred Stock w/ Exercised Warrants              $10,400,000                                                                                              $0.25                       $223,571


5/29/2009     Citizens Bancshares Co., Chillicothe, MO2                   Preferred Stock w/ Exercised Warrants              $24,990,000                                                                                                                          $628,033


3/6/2009      Citizens Bancshares Corporation, Atlanta, GA3,30            Preferred Stock                                      $7,462,000    8/13/2010        $7,462,000           —           N/A       —                 N/A        $4.05                       $535,813

                                                               2
3/20/2009     Citizens Bank & Trust Company, Covington, LA                Preferred Stock w/ Exercised Warrants                $2,400,000                                                                                                                         $118,083


2/6/2009      Citizens Commerce Bancshares, Inc., Versailles, KY2         Preferred Stock w/ Exercised Warrants                $6,300,000                                                                                                                         $180,259


12/23/2008 Citizens Community Bank, South Hill, VA2                       Preferred Stock w/ Exercised Warrants                $3,000,000                                                                                                                         $391,492


12/19/2008 Citizens First Corporation, Bowling Green, KY                  Preferred Stock w/ Warrants                          $8,779,000    2/16/2011        $2,212,308   $6,566,692                                                 $7.46       254,218       $1,028,573

                                                        g
12/12/2008 Citizens Republic Bancorp, Inc., Flint, MI                     Preferred Stock w/ Warrants                       $300,000,000                                                                                              $0.69     1,757,813      $13,875,000


12/12/2008 Citizens South Banking Corporation, Gastonia, NC               Preferred Stock w/ Warrants                        $20,500,000                                                                                              $4.15       450,314       $2,485,625


4/10/2009     City National Bancshares Corporation, Newark, NJ2,3         Preferred Stock                                      $9,439,000                                                                                            $52.92                       $281,859


                                                                                                                                            12/30/2009     $200,000,000 $200,000,000
11/21/2008 City National Corporation, Beverly Hills, CA                   Preferred Stock w/ Warrants                       $400,000,000                                                 4/7/2010         R    $18,500,000.00        $54.25                    $23,916,667
                                                                                                                                              3/3/2010     $200,000,000            —


3/27/2009     Clover Community Bankshares, Inc., Clover, SC2              Preferred Stock w/ Exercised Warrants                $3,000,000                                                                                                                         $267,050


12/5/2008     Coastal Banking Company, Inc., Fernandina Beach, FL         Preferred Stock w/ Warrants                          $9,950,000                                                                                             $2.05       205,579         $967,361


8/28/2009     CoastalSouth Bancshares, Inc., Hilton Head Island, SC2,10   Preferred Stock w/ Exercised Warrants              $16,015,000                                                                                                                        $1,235,449


12/19/2008 CoBiz Financial Inc., Denver, CO                               Preferred Stock w/ Warrants                        $64,450,000                                                                                              $6.54       895,968       $7,751,903


1/9/2009      Codorus Valley Bancorp, Inc., York, PA                      Preferred Stock w/ Warrants                        $16,500,000                                                                                             $10.50       263,859       $1,938,750

2/13/2009     ColoEast Bankshares, Inc., Lamar, CO2                       Preferred Stock w/ Exercised Warrants              $10,000,000                                                                                                                        $1,229,278


3/27/2009     Colonial American Bank, West Conshohocken, PA2              Preferred Stock w/ Exercised Warrants                 $574,000                                                                                                                           $51,140


                                                                                                                                                                                                                                                     Continued on next page.
 CPP Transaction Detail, as oF 6/30/2011                                                        (continued)



                                                                                                                                                  Capital         Capital    Remaining         Final                              Stock Price       Current       Dividends/
Purchase                                                                                                                          Investment   Repayment       Repayment       Capital   Disposition            Final Disposition       as of   Outstanding    Interest Paid
Date         Institution                                                      Investment Description                                 Amount         Date         Amount6       Amount          Date    Note15          Proceeds 6/30/2011         Warrantsa      to Treasury

1/9/2009     Colony Bankcorp, Inc., Fitzgerald, GA                            Preferred Stock w/ Warrants                       $28,000,000                                                                                            $2.87       500,000       $3,290,000


11/21/2008 Columbia Banking System, Inc., Tacoma, WA                          Preferred Stock w/ Warrants                       $76,898,000    8/11/2010      $76,898,000           —     9/1/2010         R      $3,301,647.00       $17.63                     $6,621,772


2/27/2009    Columbine Capital Corp., Buena Vista, CO2                        Preferred Stock w/ Exercised Warrants              $2,260,000                                                                                           $17.22                       $273,027


11/14/2008 Comerica Inc., Dallas, TX                                          Preferred Stock w/ Warrants                     $2,250,000,000   3/17/2010    $2,250,000,000          —     5/6/2010         A    $183,673,472.00       $34.57                  $150,937,500


1/9/2009     Commerce National Bank, Newport Beach, CA                        Preferred Stock w/ Warrants                        $5,000,000    10/7/2009       $5,000,000           —                                                  $7.57        87,209          $36,111


5/22/2009    Commonwealth Bancshares, Inc., Louisville, KY8                   Subordinated Debentures w/ Exercised Warrants     $20,400,000                                                                                            $0.40                     $3,389,845


1/23/2009    Commonwealth Business Bank, Los Angeles, CA2                     Preferred Stock w/ Exercised Warrants              $7,701,000                                                                                            $8.25                       $445,348


1/16/2009    Community 1st Bank, Roseville, CA2                               Preferred Stock w/ Exercised Warrants              $2,550,000                                                                                            $2.70                       $139,020

                                                                   2
3/6/2009     Community Bancshares of Kansas, Inc., Goff, KS                   Preferred Stock w/ Exercised Warrants                $500,000                                                                                                                         $59,723


9/11/2009    Community Bancshares of Mississippi, Inc., Brandon, MS2,30       Preferred Stock w/ Exercised Warrants             $52,000,000    9/29/2010      $52,000,000           —    9/29/2010         R      $2,600,000.00                                  $2,975,700


7/24/2009    Community Bancshares, Inc., Kingman, AZ2,10                      Preferred Stock w/ Exercised Warrants              $3,872,000                                                                                                                        $419,982


1/16/2009    Community Bank of the Bay, Oakland, CA3,30                       Preferred Stock                                    $1,747,000    9/29/2010       $1,747,000           —           N/A       —                 N/A                                     $76,189


5/29/2009    Community Bank Shares of Indiana, Inc., New Albany, IN           Preferred Stock w/ Warrants                       $19,468,000                                                                                            $9.97       386,270       $1,908,945


12/19/2008 Community Bankers Trust Corporation, Glen Allen, VA                Preferred Stock w/ Warrants                       $17,680,000                                                                                            $1.35       780,000       $1,242,511


2/27/2009    Community Business Bank, West Sacramento, CA2                    Preferred Stock w/ Exercised Warrants              $3,976,000                                                                                            $5.50                       $480,374


12/19/2008 Community Financial Corporation, Staunton, VA                      Preferred Stock w/ Warrants                       $12,643,000                                                                                            $4.10       351,194       $1,520,672

                                                               2
5/15/2009    Community Financial Shares, Inc., Glen Ellyn, IL                 Preferred Stock w/ Exercised Warrants              $6,970,000                                                                                            $4.45                       $569,865


3/20/2009    Community First Bancshares Inc., Union City, TN2                 Preferred Stock w/ Exercised Warrants             $20,000,000                                                                                                                      $2,346,528


4/3/2009     Community First Bancshares, Inc., Harrison, AR2                  Preferred Stock w/ Exercised Warrants             $12,725,000                                                                                                                      $1,467,887


2/27/2009    Community First Inc., Columbia, TN2                              Preferred Stock w/ Exercised Warrants             $17,806,000                                                                                                                      $1,908,453

             Community Holding Company of Florida, Inc.,
2/6/2009                                                                      Preferred Stock w/ Exercised Warrants              $1,050,000                                                                                                                        $129,676
             Miramar Beach, FL2

12/23/2008 Community Investors Bancorp, Inc., Bucyrus, OH2                    Preferred Stock w/ Exercised Warrants              $2,600,000                                                                                                                        $339,293

                                                           g
1/30/2009    Community Partners Bancorp, Middletown, NJ                       Preferred Stock w/ Warrants                        $9,000,000                                                                                            $4.80       311,972       $1,031,250

                                                                       8,10
11/13/2009 Community Pride Bank Corporation, Ham Lake, MN                     Subordinated Debentures w/ Exercised Warrants      $4,400,000                                                                                                                        $448,253


1/9/2009     Community Trust Financial Corporation, Ruston, LA2               Preferred Stock w/ Exercised Warrants             $24,000,000                                                                                                                      $3,073,800


12/19/2008 Community West Bancshares, Goleta, CA                              Preferred Stock w/ Warrants                       $15,600,000                                                                                            $3.50       521,158       $1,876,333

                                                     2
1/9/2009     Congaree Bancshares, Inc., Cayce, SC                             Preferred Stock w/ Exercised Warrants              $3,285,000                                                                                            $3.50                       $429,718

                                                                       2
2/13/2009    Corning Savings and Loan Association, Corning, AR                Preferred Stock w/ Exercised Warrants                $638,000                                                                                                                         $78,448
                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I july 28, 2011




1/30/2009    Country Bank Shares, Inc., Milford, NE2                          Preferred Stock w/ Exercised Warrants              $7,525,000                                                                                                                        $939,790


6/5/2009     Covenant Financial Corporation, Clarksdale, MS2                  Preferred Stock w/ Exercised Warrants              $5,000,000                                                                                                                        $257,361


                                                                                                                                                                                                                                                      Continued on next page.
                                                                                                                                                                                                                                                                                211
 CPP Transaction Detail, as oF 6/30/2011                                                     (continued)                                                                                                                                                                       212


                                                                                                                                               Capital         Capital     Remaining          Final                              Stock Price       Current       Dividends/
Purchase                                                                                                                       Investment   Repayment       Repayment        Capital    Disposition            Final Disposition       as of   Outstanding    Interest Paid
Date         Institution                                                   Investment Description                                 Amount         Date         Amount6        Amount           Date    Note15          Proceeds 6/30/2011         Warrantsa      to Treasury

2/20/2009    Crazy Woman Creek Bancorp, Inc., Buffalo, WY2                 Preferred Stock w/ Exercised Warrants              $3,100,000                                                                                              $9.55                       $377,791


1/9/2009     Crescent Financial Corporation, Cary, NC                      Preferred Stock w/ Warrants                       $24,900,000                                                                                              $3.90       833,705       $2,303,250


1/23/2009    Crosstown Holding Company, Blaine, MN2                        Preferred Stock w/ Exercised Warrants             $10,650,000                                                                                                                        $1,341,531

                                           2
3/27/2009    CSRA Bank Corp., Wrens, GA                                    Preferred Stock w/ Exercised Warrants              $2,400,000                                                                                                                          $180,940


                                                                                                                                             8/26/2009     $97,500,000    $32,500,000
12/5/2008    CVB Financial Corp, Ontario, CA                               Preferred Stock w/ Warrants                      $130,000,000                                                10/28/2009        R      $1,307,000.00        $9.25                     $4,739,583
                                                                                                                                              9/2/2009     $32,500,000             —


2/27/2009    D.L. Evans Bancorp, Burley, ID2                               Preferred Stock w/ Exercised Warrants             $19,891,000                                                                                                                        $2,403,089

                                                                8
5/15/2009    Deerfield Financial Corporation, Deerfield, WI                Subordinated Debentures w/ Exercised Warrants      $2,639,000                                                                                                                          $442,838


12/4/2009    Delmar Bancorp, Delmar, MD2                                   Preferred Stock w/ Exercised Warrants              $9,000,000                                                                                                                          $709,863
                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I july 28, 2011




2/13/2009    DeSoto County Bank, Horn Lake, MS2,c                          Preferred Stock w/ Exercised Warrants              $1,173,000
                                                                                                                                                                                                                                                                  $248,149
12/29/2009 DeSoto County Bank, Horn Lake, MS2,10a,c                        Preferred Stock                                    $1,508,000


5/22/2009    Diamond Bancorp, Inc., Washington, MO8                        Subordinated Debentures w/ Exercised Warrants     $20,445,000                                                                                                                        $3,397,254


1/16/2009    Dickinson Financial Corporation II, Kansas City, MO2          Preferred Stock w/ Exercised Warrants            $146,053,000                                                                                                                        $2,631,197


3/13/2009    Discover Financial Services, Riverwoods, IL                   Preferred Stock w/ Warrants                     $1,224,558,000    4/21/2010   $1,224,558,000            —      7/7/2010        R    $172,000,000.00       $26.75                    $67,690,844


1/30/2009    DNB Financial Corporation, Downingtown, PA                    Preferred Stock w/ Warrants                       $11,750,000                                                                                             $10.00       186,311       $1,346,354

                                                            8
6/19/2009    Duke Financial Group, Inc., Minneapolis, MN                   Subordinated Debentures w/ Exercised Warrants     $12,000,000                                                                                                                          $408,316


12/5/2008    Eagle Bancorp, Inc., Bethesda, MD                             Preferred Stock w/ Warrants                       $38,235,000    12/23/2009     $15,000,000    $23,235,000                                                $13.30       385,434       $3,627,334


12/5/2008    East West Bancorp, Pasadena, CA                               Preferred Stock w/ Warrants                      $306,546,000    12/29/2010    $306,546,000             —     1/26/2011        R     $14,500,000.00       $20.21                    $31,676,420


1/9/2009     Eastern Virginia Bankshares, Inc., Tappahannock, VA           Preferred Stock w/ Warrants                       $24,000,000                                                                                              $3.35       373,832       $2,220,000


1/16/2009    ECB Bancorp, Inc., Engelhard, NC                              Preferred Stock w/ Warrants                       $17,949,000                                                                                             $11.11       144,984       $2,091,558


12/23/2008 Emclaire Financial Corp., Emlenton, PA                          Preferred Stock w/ Warrants                        $7,500,000                                                                                             $16.62        50,111         $897,917


12/5/2008    Encore Bancshares Inc., Houston, TX                           Preferred Stock w/ Warrants                       $34,000,000                                                                                             $12.02       364,026       $4,155,556


12/19/2008 Enterprise Financial Services Corp., St. Louis, MO              Preferred Stock w/ Warrants                       $35,000,000                                                                                             $13.53       324,074       $4,209,722

                                                                       2
6/12/2009    Enterprise Financial Services Group, Inc., Allison Park, PA   Preferred Stock w/ Exercised Warrants              $4,000,000                                                                                              $8.25                       $419,650


1/30/2009    Equity Bancshares, Inc., Wichita, KS2                         Preferred Stock w/ Exercised Warrants              $8,750,000                                                                                                                        $1,092,942


12/19/2008 Exchange Bank, Santa Rosa, CA2                                  Preferred Stock w/ Exercised Warrants             $43,000,000                                                                                             $43.53                     $5,051,544


5/22/2009    F & C Bancorp, Inc., Holden, MO8                              Subordinated Debentures w/ Exercised Warrants      $2,993,000                                                                                                                          $497,439

                                                     2,c
1/30/2009    F & M Bancshares, Inc., Trezevant, TN                         Preferred Stock w/ Exercised Warrants              $4,609,000
                                                                                                                                                                                                                                                                  $845,096
11/6/2009    F & M Bancshares, Inc., Trezevant, TN2,10a,c                  Preferred Stock                                    $3,535,000


2/6/2009     F & M Financial Corporation, Salisbury, NC2                   Preferred Stock w/ Exercised Warrants             $17,000,000                                                                                                                        $2,107,788


2/13/2009    F&M Financial Corporation, Clarksville, TN2                   Preferred Stock w/ Exercised Warrants             $17,243,000                                                                                                                        $2,119,613


                                                                                                                                                                                                                                                     Continued on next page.
 CPP Transaction Detail, as oF 6/30/2011                                                                (continued)



                                                                                                                                                                Capital         Capital     Remaining          Final                              Stock Price       Current       Dividends/
Purchase                                                                                                                                        Investment   Repayment       Repayment        Capital    Disposition            Final Disposition       as of   Outstanding    Interest Paid
Date          Institution                                                             Investment Description                                       Amount         Date         Amount6        Amount           Date    Note15          Proceeds 6/30/2011         Warrantsa      to Treasury

1/9/2009      F.N.B. Corporation, Hermitage, PA                                       Preferred Stock w/ Warrants                            $100,000,000     9/9/2009     $100,000,000             —                                                 $10.35       651,042       $3,333,333

                                                                                  2
3/6/2009      Farmers & Merchants Bancshares, Inc., Houston, TX                       Preferred Stock w/ Exercised Warrants                   $11,000,000                                                                                                                        $1,313,905


3/20/2009     Farmers & Merchants Financial Corporation, Argonia, KS2                 Preferred Stock w/ Exercised Warrants                      $442,000                                                                                                                           $51,839


1/23/2009     Farmers Bank, Windsor, VA2                                              Preferred Stock w/ Exercised Warrants                    $8,752,000                                                                                                                        $1,102,446


1/9/2009      Farmers Capital Bank Corporation, Frankfort, KY                         Preferred Stock w/ Warrants                             $30,000,000                                                                                              $5.25       223,992       $3,525,000

                                                               8
6/19/2009     Farmers Enterprises, Inc., Great Bend, KS                               Subordinated Debentures w/ Exercised Warrants           $12,000,000                                                                                                                        $1,918,516


3/20/2009     Farmers State Bankshares, Inc., Holton, KS2                             Preferred Stock w/ Exercised Warrants                      $700,000                                                                                                                           $83,097


12/29/2009 FBHC Holding Company, Boulder, CO8,10,38                                   Subordinated Debentures w/ Exercised Warrants            $3,035,000     3/9/2011         $650,000             —           N/A                         N/A                                    $154,592

                                              2
6/26/2009     FC Holdings, Inc., Houston, TX                                          Preferred Stock w/ Exercised Warrants                   $21,042,000                                                                                                                          $156,090

                                                  2
12/19/2008 FCB Bancorp, Inc., Louisville, KY                                          Preferred Stock w/ Exercised Warrants                    $9,294,000                                                                                                                        $1,218,535

12/19/2008 FFW Corporation, Wabash, IN2                                               Preferred Stock w/ Exercised Warrants                    $7,289,000                                                                                                                          $955,511


5/29/2009     Fidelity Bancorp, Inc., Baton Rouge, LA8                                Subordinated Debentures w/ Exercised Warrants            $3,942,000                                                                                                                          $648,580


12/12/2008 Fidelity Bancorp, Inc., Pittsburgh, PA                                     Preferred Stock w/ Warrants                              $7,000,000                                                                                             $11.48       121,387         $848,750

                                                        2,10
11/13/2009 Fidelity Federal Bancorp, Evansville, IN                                   Preferred Stock w/ Exercised Warrants                    $6,657,000                                                                                                                                 —


12/19/2008 Fidelity Financial Corporation, Wichita, KS2                               Preferred Stock w/ Exercised Warrants                   $36,282,000                                                                                                                        $4,756,649


12/19/2008 Fidelity Southern Corporation, Atlanta, GAf                                Preferred Stock w/ Warrants                             $48,200,000                                                                                              $6.89     2,266,458       $5,797,389


12/31/2008 Fifth Third Bancorp, Cincinnati, OH                                        Preferred Stock w/ Warrants                           $3,408,000,000    2/2/2011    $3,408,000,000            —    3/16/2011         R    $280,025,936.00       $12.75                  $355,946,667


                                                                                                                                                             2/23/2011      $12,505,000    $25,010,000
12/23/2008 Financial Institutions, Inc., Warsaw, NYl                                  Preferred Stock w/ Warrants                             $37,515,000                                                5/11/2011         R      $2,079,962.50       $16.42                     $4,192,649
                                                                                                                                                             3/30/2011      $25,010,000             —


2/13/2009     Financial Security Corporation, Basin, WY2                              Preferred Stock w/ Exercised Warrants                    $5,000,000                                                                                                                          $614,639

                                                                   8,10
7/31/2009     Financial Services of Winger, Inc., Winger, MN                          Subordinated Debentures w/ Exercised Warrants            $3,742,000                                                                                                                          $543,932

                                                                              2
5/22/2009     First Advantage Bancshares Inc., Coon Rapids, MN                        Preferred Stock w/ Exercised Warrants                    $1,177,000                                                                                                                          $127,072


6/26/2009     First Alliance Bancshares, Inc., Cordova, TN2                           Preferred Stock w/ Exercised Warrants                    $3,422,000                                                                                                                          $351,741


7/24/2009     First American Bank Corporation, Elk Grove Village, IL8                 Subordinated Debentures w/ Exercised Warrants           $50,000,000                                                                                                                        $7,585,975

                                                                       3,30
3/13/2009     First American International Corp., Brooklyn, NY                        Preferred Stock                                         $17,000,000    8/13/2010      $17,000,000             —           N/A       —                 N/A                                  $1,204,167


1/9/2009      First Bancorp, Troy, NC                                                 Preferred Stock w/ Warrants                             $65,000,000                                                                                             $10.24       616,308       $7,637,500


1/16/2009     First BanCorp, San Juan, PR28                                           Mandatorily Convertible Preferred Stock w/ Warrants    $424,174,000                                                                                              $4.31     5,842,259       $6,611,111


2/20/2009     First BancTrust Corporation, Paris, IL2                                 Preferred Stock w/ Exercised Warrants                    $7,350,000                                                                                              $8.67                       $895,831

                                                                   2
2/6/2009      First Bank of Charleston, Inc., Charleston, WV                          Preferred Stock w/ Exercised Warrants                    $3,345,000                                                                                                                          $414,687
                                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I july 28, 2011




                                                               2
1/16/2009     First Bankers Trustshares, Inc., Quincy, IL                             Preferred Stock w/ Exercised Warrants                   $10,000,000                                                                                             $20.34                     $1,270,153


12/31/2008 First Banks, Inc., Clayton, MO2                                            Preferred Stock w/ Exercised Warrants                  $295,400,000                                                                                                                        $6,037,238


                                                                                                                                                                                                                                                                      Continued on next page.
                                                                                                                                                                                                                                                                                                213
 CPP Transaction Detail, as oF 6/30/2011                                                           (continued)                                                                                                                                                                 214


                                                                                                                                                   Capital        Capital   Remaining         Final                              Stock Price       Current       Dividends/
Purchase                                                                                                                           Investment   Repayment      Repayment      Capital   Disposition            Final Disposition       as of   Outstanding    Interest Paid
Date          Institution                                                        Investment Description                               Amount         Date        Amount6      Amount          Date    Note15          Proceeds 6/30/2011         Warrantsa      to Treasury

3/6/2009      First Busey Corporation, Urbana, IL                                Preferred Stock w/ Warrants                     $100,000,000                                                                                         $5.29       573,833      $10,958,333


4/10/2009     First Business Bank, N.A., San Diego, CA2,c                        Preferred Stock w/ Exercised Warrants             $2,211,000
                                                                                                                                                                                                                                                                  $397,861
12/11/2009 First Business Bank, N.A., San Diego, CA2,10a,c                       Preferred Stock                                   $2,032,000


12/19/2008 First California Financial Group, Inc., Westlake Village, CA          Preferred Stock w/ Warrants                      $25,000,000                                                                                         $3.57       599,042       $3,006,944


4/3/2009      First Capital Bancorp, Inc., Glen Ellen, VA                        Preferred Stock w/ Warrants                      $10,958,000                                                                                         $4.10       250,947       $1,159,722


2/13/2009     First Choice Bank, Cerritos, CA2,30,c                              Preferred Stock w/ Exercised Warrants             $2,200,000    9/24/2010     $2,200,000          —    9/24/2010         R       $110,000.00
                                                                                                                                                                                                                                                                  $300,643
12/22/2009 First Choice Bank, Cerritos, CA2,10a,30,c                             Preferred Stock                                   $2,836,000    9/24/2010     $2,836,000          —           N/A       —                 N/A


1/23/2009     First Citizens Banc Corp, Sandusky, OH                             Preferred Stock w/ Warrants                      $23,184,000                                                                                         $3.79       469,312       $2,679,040


3/20/2009     First Colebrook Bancorp, Inc., Colebrook, NH2                      Preferred Stock w/ Exercised Warrants             $4,500,000                                                                                                                     $527,969
                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I july 28, 2011




5/15/2009     First Community Bancshares, Inc., Overland Park, KS2               Preferred Stock w/ Exercised Warrants            $14,800,000                                                                                                                     $604,950

              First Community Bank Corporation of America,
12/23/2008                                                                       Preferred Stock w/ Warrants                      $10,685,000    5/31/2011     $7,754,267          —           N/A       —                 N/A                                    $744,982
              Pinellas Park, FL39,m

11/21/2008 First Community Bankshares Inc., Bluefield, VA                        Preferred Stock w/ Warrants                      $41,500,000     7/8/2009    $41,500,000          —                                                               88,273       $1,308,403


11/21/2008 First Community Corporation, Lexington, SC                            Preferred Stock w/ Warrants                      $11,350,000                                                                                         $6.94       195,915       $1,409,292

                                                                      2
12/11/2009 First Community Financial Partners, Inc., Joliet, IL                  Preferred Stock w/ Exercised Warrants            $22,000,000                                                                                                                   $1,711,906


12/5/2008     First Defiance Financial Corp., Defiance, OH                       Preferred Stock w/ Warrants                      $37,000,000                                                                                        $14.69       550,595       $4,522,222


9/11/2009     First Eagle Bancshares, Inc., Hanover Park, IL8,30                 Subordinated Debentures w/ Exercised Warrants     $7,500,000    9/17/2010     $7,500,000          —    9/17/2010         R       $375,000.00                                     $639,738


2/6/2009      First Express of Nebraska, Inc., Gering, NE2                       Preferred Stock w/ Exercised Warrants             $5,000,000                                                                                                                     $619,938

                                                                          42,m
3/6/2009      First Federal Bancshares of Arkansas, Inc., Harrison, AR           Preferred Stock w/ Warrants                      $16,500,000     5/3/2011     $6,000,000          —           N/A                         N/A        $6.48                       $570,625


12/23/2008 First Financial Bancorp, Cincinnati, OH                               Preferred Stock w/ Warrants                      $80,000,000    2/24/2010    $80,000,000          —     6/2/2010         A     $3,116,283.90        $16.69                     $4,677,778


6/12/2009     First Financial Bancshares, Inc., Lawrence, KS8,10                 Subordinated Debentures w/ Exercised Warrants     $3,756,000                                                                                                                     $586,752


12/5/2008     First Financial Holdings Inc., Charleston, SC                      Preferred Stock w/ Warrants                      $65,000,000                                                                                         $8.97       241,696       $7,944,444


1/9/2009      First Financial Service Corporation, Elizabethtown, KY             Preferred Stock w/ Warrants                      $20,000,000                                                                                         $3.34       215,983       $1,600,000

                                                               2,10
12/22/2009 First Freedom Bancshares, Inc., Lebanon, TN                           Preferred Stock w/ Exercised Warrants             $8,700,000                                                                                                                     $640,612


2/27/2009     First Gothenburg Bancshares, Inc., Gothenburg, NE2                 Preferred Stock w/ Exercised Warrants             $7,570,000                                                                                                                     $914,863


8/28/2009     First Guaranty Bancshares, Inc., Hammond, LA2                      Preferred Stock w/ Exercised Warrants            $20,699,000                                                                                                                   $1,932,667


11/14/2008 First Horizon National Corporation, Memphis, TN                       Preferred Stock w/ Warrants                     $866,540,000   12/22/2010   $866,540,000          —     3/9/2011         R    $79,700,000.00         $9.54                    $91,227,406

                                                            2, 3
8/28/2009     First Independence Corporation, Detroit, MI                        Preferred Stock                                   $3,223,000                                                                                                                     $276,193


3/13/2009     First Intercontinental Bank, Doraville, GA2                        Preferred Stock w/ Exercised Warrants             $6,398,000                                                                                                                     $757,454


12/12/2008 First Litchfield Financial Corporation, Litchfield, CT                Preferred Stock w/ Warrants                      $10,000,000     4/7/2010    $10,000,000          —     4/7/2010         R     $1,488,046.41                                     $659,722

                                                       30
2/27/2009     First M&F Corporation, Kosciusko, MS                               Preferred Stock w/ Warrants                      $30,000,000    9/29/2010    $30,000,000          —                                                  $3.78       513,113       $2,383,333

                                                               2
1/16/2009     First Manitowoc Bancorp, Inc., Manitowoc, WI                       Preferred Stock w/ Exercised Warrants            $12,000,000    5/27/2009    $12,000,000          —    5/27/2009         R       $600,000.00        $14.50                       $237,983


                                                                                                                                                                                                                                                     Continued on next page.
 CPP Transaction Detail, as oF 6/30/2011                                                      (continued)



                                                                                                                                              Capital        Capital   Remaining         Final                              Stock Price       Current       Dividends/
Purchase                                                                                                                      Investment   Repayment      Repayment      Capital   Disposition            Final Disposition       as of   Outstanding    Interest Paid
Date           Institution                                                  Investment Description                               Amount         Date        Amount6      Amount          Date    Note15          Proceeds 6/30/2011         Warrantsa      to Treasury

2/13/2009      First Menasha Bancshares, Inc., Neenah, WI2                  Preferred Stock w/ Exercised Warrants             $4,797,000                                                                                                                     $589,715

                                                          27
2/20/2009      First Merchants Corporation, Muncie, IN                      Preferred Stock w/ Warrants                      $69,600,000                                                                                         $8.94       991,453      $10,939,444

2/21/2009      First Merchants Corporation, Muncie, IN28                    Trust Preferred Securities w/ Warrants           $46,400,000                                                                                                                   $2,030,000


12/5/2008      First Midwest Bancorp, Inc., Itasca, IL                      Preferred Stock w/ Warrants                     $193,000,000                                                                                        $12.29     1,305,230      $23,588,889

                                                           2
3/13/2009      First National Corporation, Strasburg, VA                    Preferred Stock w/ Exercised Warrants            $13,900,000                                                                                                                   $1,645,567

                                                                        2
3/20/2009      First NBC Bank Holding Company, New Orleans, LA              Preferred Stock w/ Exercised Warrants            $17,836,000                                                                                                                   $2,092,672


11/21/2008 First Niagara Financial Group, Lockport, NY                      Preferred Stock w/ Warrants                     $184,011,000    5/27/2009   $184,011,000          —    6/24/2009         R     $2,700,000.00        $13.20                     $4,753,618


3/13/2009      First Northern Community Bancorp, Dixon, CA                  Preferred Stock w/ Warrants                      $17,390,000                                                                                         $4.60       352,977       $1,888,747


11/21/2008 First PacTrust Bancorp, Inc., Chula Vista, CA                    Preferred Stock w/ Warrants                      $19,300,000   12/15/2010    $19,300,000          —     1/5/2011         R     $1,003,227.00        $14.86                     $1,994,333


3/13/2009      First Place Financial Corp., Warren, OH                      Preferred Stock w/ Warrants                      $72,927,000                                                                                         $1.15     3,670,822       $7,009,095

2/20/2009      First Priority Financial Corp., Malvern, PA2,c               Preferred Stock w/ Exercised Warrants             $4,579,000
                                                                                                                                                                                                                                                             $881,679
12/18/2009 First Priority Financial Corp., Malvern, PA2,10a,c               Preferred Stock                                   $4,596,000


3/6/2009       First Reliance Bancshares, Inc., Florence, SC2               Preferred Stock w/ Exercised Warrants            $15,349,000                                                                                         $1.80                     $1,833,286

                                                2,c
1/30/2009      First Resource Bank, Exton, PA                               Preferred Stock w/ Exercised Warrants             $2,600,000
                                                                                                                                                                                                                                                             $497,277
12/11/2009 First Resource Bank, Exton, PA2,10a,c                            Preferred Stock                                   $2,417,000


1/9/2009       First Security Group, Inc., Chattanooga, TN                  Preferred Stock w/ Warrants                      $33,000,000                                                                                         $0.65       823,627       $1,402,500


12/23/2008 First Sound Bank, Seattle, WA                                    Preferred Stock w/ Warrants                       $7,400,000                                                                                         $0.25       114,080         $330,944

                                                          8
7/17/2009      First South Bancorp, Inc., Lexington, TN                     Subordinated Debentures w/ Exercised Warrants    $50,000,000                                                                                                                   $7,667,527


1/30/2009      First Southern Bancorp, Inc., Boca Raton, FL2                Preferred Stock w/ Exercised Warrants            $10,900,000    6/16/2010    $10,900,000          —    6/16/2010         R       $545,000.00                                     $818,468


3/6/2009       First Southwest Bancorporation, Inc., Alamosa, CO2           Preferred Stock w/ Exercised Warrants             $5,500,000                                                                                                                     $207,327

                                                                2
2/27/2009      First State Bank of Mobeetie, Mobeetie, TX                   Preferred Stock w/ Exercised Warrants              $731,000     4/14/2010      $731,000           —    4/14/2010         R        $37,000.00                                      $45,087

                                                      2
3/6/2009       First Texas BHC, Inc., Fort Worth, TX                        Preferred Stock w/ Exercised Warrants            $13,533,000                                                                                                                   $1,616,529


6/5/2009       First Trust Corporation, New Orleans, LA8                    Subordinated Debentures w/ Exercised Warrants    $17,969,000                                                                                                                   $1,046,896


1/23/2009      First ULB Corp., Oakland, CA2                                Preferred Stock w/ Exercised Warrants             $4,900,000    4/22/2009     $4,900,000          —    4/22/2009         R       $245,000.00                                      $66,021


1/30/2009      First United Corporation, Oakland, MD                        Preferred Stock w/ Warrants                      $30,000,000                                                                                         $4.97       326,323       $2,312,500

                                                              2,10,30
6/12/2009      First Vernon Bancshares, Inc., Vernon, AL                    Preferred Stock w/ Exercised Warrants             $6,000,000    9/29/2010     $6,000,000          —    9/29/2010         R       $245,000.00                                     $417,770


2/6/2009       First Western Financial, Inc., Denver, CO2,c                 Preferred Stock w/ Exercised Warrants             $8,559,000
                                                                                                                                                                                                                                                           $1,909,390
12/11/2009 First Western Financial, Inc., Denver, CO2,10a,c                 Preferred Stock                                  $11,881,000


1/30/2009      Firstbank Corporation, Alma, MI                              Preferred Stock w/ Warrants                      $33,000,000                                                                                         $5.82       578,947       $3,781,250
                                                                                                                                                                                                                                                                          Transaction detail I Appendix D I july 28, 2011




1/9/2009       FirstMerit Corporation, Akron, OH                            Preferred Stock w/ Warrants                     $125,000,000    4/22/2009   $125,000,000          —    5/27/2009         R     $5,025,000.00        $16.51                     $1,788,194


                                                                                                                                                                                                                                                Continued on next page.
                                                                                                                                                                                                                                                                          215
 CPP Transaction Detail, as oF 6/30/2011                                               (continued)                                                                                                                                                                  216


                                                                                                                                       Capital        Capital   Remaining          Final                              Stock Price       Current       Dividends/
Purchase                                                                                                               Investment   Repayment      Repayment      Capital    Disposition            Final Disposition       as of   Outstanding    Interest Paid
Date         Institution                                             Investment Description                               Amount         Date        Amount6      Amount           Date    Note15          Proceeds 6/30/2011         Warrantsa      to Treasury

1/30/2009    Flagstar Bancorp, Inc., Troy, MI                        Preferred Stock w/ Warrants                     $266,657,000                                                                                          $1.19     6,451,379      $30,554,447


7/24/2009    Florida Bank Group, Inc., Tampa, FL2                    Preferred Stock w/ Exercised Warrants            $20,471,000                                                                                                                    $1,180,793


2/20/2009    Florida Business BancGroup, Inc., Tampa, FL2            Preferred Stock w/ Exercised Warrants             $9,495,000                                                                                                                    $1,157,188


12/19/2008 Flushing Financial Corporation, Lake Success, NY          Preferred Stock w/ Warrants                      $70,000,000   10/28/2009    $70,000,000           —    12/30/2009        R       $900,000.00        $13.00                     $3,004,167


2/27/2009    FNB Bancorp, South San Francisco, CA2                   Preferred Stock w/ Exercised Warrants            $12,000,000                                                                                         $11.00                     $1,449,700


2/13/2009    FNB United Corp., Asheboro, NC                          Preferred Stock w/ Warrants                      $51,500,000                                                                                          $0.43     2,207,143       $2,589,305


5/15/2009    Foresight Financial Group, Inc., Rockford, IL2          Preferred Stock w/ Exercised Warrants            $15,000,000                                                                                         $12.60                     $1,635,000

                                                             2
5/22/2009    Fort Lee Federal Savings Bank, Fort Lee, NJ             Preferred Stock w/ Exercised Warrants             $1,300,000                                                                                                                       $87,185


4/3/2009     Fortune Financial Corporation, Arnold, MO2              Preferred Stock w/ Exercised Warrants             $3,100,000                                                                                                                      $357,611
                                                                                                                                                                                                                                                                    Appendix D I Transaction Detail I july 28, 2011




12/5/2008    FPB Bancorp, Inc., Port St. Lucie, FL                   Preferred Stock w/ Warrants                       $5,800,000                                                                                          $0.14       183,158         $273,889


                                                                                                                                    12/16/2009     $1,000,000   $2,240,000    6/16/2010        R
1/23/2009    FPB Financial Corp., Hammond, LA2                       Preferred Stock w/ Exercised Warrants             $3,240,000                                                                      $162,000.00                                     $221,722
                                                                                                                                     6/16/2010     $2,240,000           —     6/17/2010        R


5/22/2009    Franklin Bancorp, Inc., Washington, MO2                 Preferred Stock w/ Exercised Warrants             $5,097,000                                                                                                                      $550,198


5/8/2009     Freeport Bancshares, Inc., Freeport, IL8                Subordinated Debentures w/ Exercised Warrants     $3,000,000                                                                                                                      $508,293


6/26/2009    Fremont Bancorporation, Fremont, CA8                    Subordinated Debentures w/ Exercised Warrants    $35,000,000                                                                                                                    $5,538,580

                                           2
1/23/2009    Fresno First Bank, Fresno, CA                           Preferred Stock w/ Exercised Warrants             $1,968,000                                                                                                                      $214,440


                                                                                                                                    11/24/2009     $1,600,000   $1,400,000
4/24/2009    Frontier Bancshares, Inc., Austin, TX8                  Subordinated Debentures w/ Exercised Warrants     $3,000,000                                             10/6/2010        R       $150,000.00                                     $258,192
                                                                                                                                     10/6/2010     $1,400,000           —


12/23/2008 Fulton Financial Corporation, Lancaster, PA               Preferred Stock w/ Warrants                     $376,500,000    7/14/2010   $376,500,000           —      9/8/2010        R    $10,800,000.00        $10.71                    $29,335,625

                                                         2
5/8/2009     Gateway Bancshares, Inc., Ringgold, GA                  Preferred Stock w/ Exercised Warrants             $6,000,000                                                                                                                      $660,358


2/6/2009     Georgia Commerce Bancshares, Inc., Atlanta, GA2         Preferred Stock w/ Exercised Warrants             $8,700,000    2/16/2011     $8,700,000           —     2/16/2011        R       $435,000.00                                     $961,471


5/1/2009     Georgia Primary Bank, Atlanta, GA2                      Preferred Stock w/ Exercised Warrants             $4,500,000                                                                                                                             —


3/6/2009     Germantown Capital Corporation, Inc., Germantown, TN2   Preferred Stock w/ Exercised Warrants             $4,967,000                                                                                                                      $593,389

                                                  2,10
6/26/2009    Gold Canyon Bank, Gold Canyon, AZ                       Preferred Stock w/ Exercised Warrants             $1,607,000                                                                                                                       $53,860


1/30/2009    Goldwater Bank, N.A., Scottsdale, AZ2                   Preferred Stock w/ Exercised Warrants             $2,568,000                                                                                                                      $145,750


4/24/2009    Grand Capital Corporation, Tulsa, OK2                   Preferred Stock w/ Exercised Warrants             $4,000,000                                                                                                                      $448,717


9/25/2009    Grand Financial Corporation, Hattiesburg, MS8           Subordinated Debentures w/ Exercised Warrants     $2,443,320                                                                                                                      $335,925

                                                                 2
5/29/2009    Grand Mountain Bancshares, Inc., Granby, CO             Preferred Stock w/ Exercised Warrants             $3,076,000                                                                                                                             —

1/9/2009     GrandSouth Bancorporation, Greenville, SC2,c            Preferred Stock w/ Exercised Warrants             $9,000,000
                                                                                                                                                                                                                           $2.60                     $1,603,781
12/11/2009 GrandSouth Bancorporation, Greenville, SC2,10a,c          Preferred Stock                                   $6,319,000


                                                                                                                                                                                                                                          Continued on next page.
 CPP Transaction Detail, as oF 6/30/2011                                                          (continued)



                                                                                                                                                    Capital         Capital    Remaining          Final                              Stock Price       Current       Dividends/
Purchase                                                                                                                            Investment   Repayment       Repayment       Capital    Disposition            Final Disposition       as of   Outstanding    Interest Paid
Date         Institution                                                        Investment Description                                 Amount         Date         Amount6       Amount           Date    Note15          Proceeds 6/30/2011         Warrantsa      to Treasury

7/17/2009    Great River Holding Company, Baxter, MN8                           Subordinated Debentures w/ Exercised Warrants      $8,400,000                                                                                                                         $759,575


12/5/2008    Great Southern Bancorp, Springfield, MO                            Preferred Stock w/ Warrants                       $58,000,000                                                                                            $18.95       909,091       $7,088,889


12/23/2008 Green Bankshares, Inc., Greeneville, TN                              Preferred Stock w/ Warrants                       $72,278,000                                                                                             $2.62       635,504       $5,942,858


2/27/2009    Green Circle Investments, Inc., Clive, IA2                         Preferred Stock w/ Exercised Warrants              $2,400,000                                                                                                                         $289,940

                                                                   2
2/27/2009    Green City Bancshares, Inc., Green City, MO                        Preferred Stock w/ Exercised Warrants                $651,000     7/14/2010        $651,000            —     7/14/2010        R         $33,000.00                                     $49,037

                                                               2
1/30/2009    Greer Bancshares Incorporated, Greer, SC                           Preferred Stock w/ Exercised Warrants              $9,993,000                                                                                             $1.30                       $975,831


2/13/2009    Gregg Bancshares, Inc., Ozark, MO2                                 Preferred Stock w/ Exercised Warrants                $825,000                                                                                                                          $45,190


2/20/2009    Guaranty Bancorp, Inc., Woodsville, NH2                            Preferred Stock w/ Exercised Warrants              $6,920,000                                                                                                                         $843,327

                                                               3,8,30
9/25/2009    Guaranty Capital Corporation, Belzoni, MS                          Subordinated Debentures                           $14,000,000     7/30/2010     $14,000,000            —           N/A       —                 N/A                                    $913,299


1/30/2009    Guaranty Federal Bancshares, Inc., Springfield, MO                 Preferred Stock w/ Warrants                       $17,000,000                                                                                             $5.43       459,459       $1,947,917


9/25/2009    GulfSouth Private Bank, Destin, FL10,21                            Preferred Stock w/ Exercised Warrants              $7,500,000                                                                                                                         $757,380


6/26/2009    Gulfstream Bancshares, Inc., Stuart, FL2                           Preferred Stock w/ Exercised Warrants              $7,500,000                                                                                                                         $770,948

                                                               2,b
2/20/2009    Hamilton State Bancshares, Hoschton, GA                            Preferred Stock w/ Exercised Warrants              $7,000,000     4/13/2011      $7,000,000            —     4/13/2011        R       $350,000.00                                     $819,166

                                                                       31,k
12/31/2008 Hampton Roads Bankshares, Inc., Norfolk, VA                          Common Stock w/ Warrants                          $80,347,000                                                                                             $9.90        53,034       $2,510,844


7/17/2009    Harbor Bankshares Corporation, Baltimore, MD2,3                    Preferred Stock                                    $6,800,000                                                                                                                         $282,744


6/26/2009    Hartford Financial Services Group, Inc., Hartford, CT              Preferred Stock w/ Warrants                     $3,400,000,000    3/31/2010   $3,400,000,000           —     9/21/2010        A    $713,687,430.10       $26.37                  $129,861,111

                                                        2
3/13/2009    Haviland Bancshares, Inc., Haviland, KS                            Preferred Stock w/ Exercised Warrants                $425,000    12/29/2010        $425,000            —    12/29/2010        R         $21,000.00                                     $41,524


12/19/2008 Hawthorn Bancshares, Inc., Lee’s Summit, MO                          Preferred Stock w/ Warrants                       $30,255,000                                                                                             $7.67       265,471       $3,639,005


3/6/2009     HCSB Financial Corporation, Loris, SC                              Preferred Stock w/ Warrants                       $12,895,000                                                                                             $1.01        91,714       $1,090,702


9/11/2009    Heartland Bancshares, Inc., Franklin, IN2,10                       Preferred Stock w/ Exercised Warrants              $7,000,000                                                                                             $4.60                       $637,029


12/19/2008 Heartland Financial USA, Inc., Dubuque, IA                           Preferred Stock w/ Warrants                       $81,698,000                                                                                            $14.55       609,687       $9,826,454

                                                       2, 10
9/25/2009    Heritage Bankshares, Inc., Norfolk, VA                             Preferred Stock w/ Exercised Warrants             $10,103,000     3/16/2011      $2,606,000    $7,497,000                                                $12.50                       $851,222


11/21/2008 Heritage Commerce Corp., San Jose, CA                                Preferred Stock w/ Warrants                       $40,000,000                                                                                             $5.11       462,963       $1,466,667


11/21/2008 Heritage Financial Corporation, Olympia, WA                          Preferred Stock w/ Warrants                       $24,000,000    12/22/2010     $24,000,000            —                                                 $12.93       138,037       $2,503,333


3/20/2009    Heritage Oaks Bancorp, Paso Robles, CA                             Preferred Stock w/ Warrants                       $21,000,000                                                                                             $3.80       611,650         $947,916


11/21/2008 HF Financial Corp., Sioux Falls, SD                                  Preferred Stock w/ Warrants                       $25,000,000      6/3/2009     $25,000,000            —     6/30/2009        R       $650,000.00        $10.94                       $666,667


5/8/2009     Highlands Bancorp, Inc. (Highlands State Bank), Vernon, NJ2,13,c   Preferred Stock w/ Exercised Warrants              $3,091,000
                                                                                                                                                                                                                                          $3.50                       $446,197
             Highlands Bancorp, Inc. (Highlands State Bank),
12/22/2009                                                                      Preferred Stock                                    $2,359,000
             Vernon, NJ2,10a,13,c
                                                                                                                                                                                                                                                                                   Transaction detail I Appendix D I july 28, 2011




3/6/2009     Highlands Independent Bancshares, Inc., Sebring, FL2               Preferred Stock w/ Exercised Warrants              $6,700,000                                                                                                                         $617,712


                                                                                                                                                                                                                                                         Continued on next page.
                                                                                                                                                                                                                                                                                   217
 CPP Transaction Detail, as oF 6/30/2011                                             (continued)                                                                                                                                                                             218


                                                                                                                                             Capital         Capital     Remaining          Final                              Stock Price       Current       Dividends/
Purchase                                                                                                                     Investment   Repayment       Repayment        Capital    Disposition            Final Disposition       as of   Outstanding    Interest Paid
Date           Institution                                         Investment Description                                       Amount         Date         Amount6        Amount           Date    Note15          Proceeds 6/30/2011         Warrantsa      to Treasury

1/30/2009      Hilltop Community Bancorp, Inc., Summit, NJ2        Preferred Stock w/ Exercised Warrants                    $4,000,000     4/21/2010      $4,000,000             —    4/21/2010         R       $200,000.00         $4.12                       $267,050


12/23/2008 HMN Financial, Inc., Rochester, MN                      Preferred Stock w/ Warrants                             $26,000,000                                                                                              $2.45       833,333       $2,462,778


1/16/2009      Home Bancshares, Inc., Conway, AR                   Preferred Stock w/ Warrants                             $50,000,000                                                                                             $23.64       158,472       $5,826,389

                                                               2
2/20/2009      Hometown Bancorp of Alabama, Inc., Oneonta, AL      Preferred Stock w/ Exercised Warrants                    $3,250,000                                                                                              $5.80                       $396,172


2/13/2009      Hometown Bancshares, Inc., Corbin, KY2              Preferred Stock w/ Exercised Warrants                    $1,900,000                                                                                                                          $351,326


9/18/2009      HomeTown Bankshares Corporation, Roanoke, VA2,10    Preferred Stock w/ Exercised Warrants                   $10,000,000                                                                                              $4.25                       $233,563


12/12/2008 HopFed Bancorp, Hopkinsville, KY                        Preferred Stock w/ Warrants                             $18,400,000                                                                                              $7.91       248,692       $2,231,000


12/19/2008 Horizon Bancorp, Michigan City, IN                      Preferred Stock w/ Warrants                             $25,000,000    11/10/2010      $6,250,000    $18,750,000                                                $26.90       212,104       $2,846,354


2/27/2009      Howard Bancorp, Inc., Ellicott City, MD2            Preferred Stock w/ Exercised Warrants                    $5,983,000                                                                                              $6.05                       $722,766
                                                                                                                                                                                                                                                                             Appendix D I Transaction Detail I july 28, 2011




11/13/2009 HPK Financial Corporation, Chicago, IL2,10a,c           Preferred Stock w/ Exercised Warrants                    $5,000,000
                                                                                                                                                                                                                                                                $840,379
5/1/2009       HPK Financial Corporation, Chicago, IL2,c           Preferred Stock w/ Exercised Warrants                    $4,000,000


11/14/2008 Huntington Bancshares, Columbus, OH                     Preferred Stock w/ Warrants                           $1,398,071,000   12/22/2010   $1,398,071,000            —    1/19/2011         R    $49,100,000.00     $1,152.00                  $147,185,809


2/6/2009       Hyperion Bank, Philadelphia, PA2                    Preferred Stock w/ Exercised Warrants                    $1,552,000                                                                                                                          $192,511


9/18/2009      IA Bancorp, Inc., Iselin, NJ2,10                    Preferred Stock w/ Exercised Warrants                    $5,976,000                                                                                                                          $522,590


5/15/2009      IBC Bancorp, Inc., Chicago, IL3,8,30                Subordinated Debentures                                  $4,205,000     9/10/2010      $4,205,000             —           N/A       —                 N/A                                    $427,216


12/5/2008      Iberiabank Corporation, Lafayette, LA               Preferred Stock w/ Warrants                             $90,000,000     3/31/2009     $90,000,000             —    5/20/2009         R     $1,200,000.00        $57.64                     $1,450,000


3/27/2009      IBT Bancorp, Inc., Irving, TX2                      Preferred Stock w/ Exercised Warrants                    $2,295,000                                                                                                                          $266,880


3/13/2009      IBW Financial Corporation, Washington, DC2,3a       Preferred Stock                                          $6,000,000      9/3/2010      $6,000,000             —           N/A       —                 N/A                                    $453,067


3/6/2009       ICB Financial, Ontario, CA2                         Preferred Stock w/ Exercised Warrants                    $6,000,000                                                                                                                          $716,675

                                          2
1/16/2009      Idaho Bancorp, Boise, ID                            Preferred Stock w/ Exercised Warrants                    $6,900,000                                                                                              $0.07                       $124,306


5/22/2009      Illinois State Bancorp, Inc., Chicago, IL2,c        Preferred Stock w/ Exercised Warrants                    $6,272,000
                                                                                                                                                                                                                                                                $964,036
12/29/2009 Illinois State Bancorp, Inc., Chicago, IL2,10a,c        Preferred Stock w/ Exercised Warrants                    $4,000,000


1/9/2009       Independence Bank, East Greenwich, RI2              Preferred Stock w/ Exercised Warrants                    $1,065,000                                                                                                                          $136,347


1/9/2009       Independent Bank Corp., Rockland, MA                Preferred Stock w/ Warrants                             $78,158,000     4/22/2009     $78,158,000             —    5/27/2009         R     $2,200,000.00        $26.25                     $1,118,094


12/12/2008 Independent Bank Corporation, Ionia, MI22               Mandatorily Convertible Preferred Stock w/ Warrants     $74,426,000                                                                                              $2.03       346,154       $2,430,000


4/24/2009      Indiana Bank Corp., Dana, IN2                       Preferred Stock w/ Exercised Warrants                    $1,312,000                                                                                                                          $147,254


12/12/2008 Indiana Community Bancorp, Columbus, IN                 Preferred Stock w/ Warrants                             $21,500,000                                                                                             $17.29       188,707       $2,606,875


2/27/2009      Integra Bank Corporation, Evansville, IN            Preferred Stock w/ Warrants                             $83,586,000                                                                                              $0.05     7,418,876       $1,950,340

12/19/2008 Intermountain Community Bancorp, Sandpoint, ID          Preferred Stock w/ Warrants                             $27,000,000                                                                                              $1.20       653,226       $1,222,500


12/23/2008 International Bancshares Corporation, Laredo, TX        Preferred Stock w/ Warrants                            $216,000,000                                                                                             $16.73     1,326,238      $25,860,000


                                                                                                                                                                                                                                                   Continued on next page.
 CPP Transaction Detail, as oF 6/30/2011                                                       (continued)



                                                                                                                                                  Capital          Capital     Remaining          Final                              Stock Price       Current       Dividends/
Purchase                                                                                                                          Investment   Repayment        Repayment        Capital    Disposition            Final Disposition       as of   Outstanding    Interest Paid
Date         Institution                                                     Investment Description                                  Amount         Date          Amount6        Amount           Date    Note15          Proceeds 6/30/2011         Warrantsa      to Treasury

12/23/2008 Intervest Bancshares Corporation, New York, NY                    Preferred Stock w/ Warrants                        $25,000,000                                                                                               $3.06       691,882       $1,118,056

             Investors Financial Corporation of Pettis County, Inc.,
5/8/2009                                                                     Subordinated Debentures w/ Exercised Warrants        $4,000,000                                                                                                                          $174,325
             Sedalia, MO8

10/28/2008 JPMorgan Chase & Co., New York, NY                                Preferred Stock w/ Warrants                     $25,000,000,000    6/17/2009   $25,000,000,000            —    12/10/2009        A    $950,318,242.75       $40.94                  $795,138,889

                                                              2
1/30/2009    Katahdin Bankshares Corp., Houlton, ME                          Preferred Stock w/ Exercised Warrants              $10,449,000                                                                                              $14.45                     $1,304,944

                                      l
11/14/2008 KeyCorp, Cleveland, OH                                            Preferred Stock w/ Warrants                      $2,500,000,000    3/30/2011    $2,500,000,000            —     4/20/2011        R     $70,000,000.00        $8.33                  $297,222,222


3/20/2009    Kirksville Bancorp, Inc., Kirksville, MO2                       Preferred Stock w/ Exercised Warrants                 $470,000                                                                                                                            $55,240


8/21/2009    KS Bancorp, Inc., Smithfield, NC2                               Preferred Stock w/ Exercised Warrants                $4,000,000                                                                                             $10.00                       $377,867

                                                     2,30,c
2/20/2009    Lafayette Bancorp, Inc., Oxford, MS                             Preferred Stock w/ Exercised Warrants                $1,998,000    9/29/2010        $1,998,000            —     9/29/2010        R       $100,000.00
                                                                                                                                                                                                                                                                      $267,134
                                                     2,10a,30,c                                                                                                                                               —
12/29/2009 Lafayette Bancorp, Inc., Oxford, MS                               Preferred Stock                                      $2,453,000    9/29/2010        $2,453,000            —           N/A                         N/A


                                                                                                                                                 8/4/2010      $20,000,000    $39,000,000
2/6/2009     Lakeland Bancorp, Inc., Oak Ridge, NJ                           Preferred Stock w/ Warrants                        $59,000,000                                                                                               $9.98       949,571       $5,766,806
                                                                                                                                                3/16/2011      $20,000,000    $19,000,000


2/27/2009    Lakeland Financial Corporation, Warsaw, IN                      Preferred Stock w/ Warrants                        $56,044,000      6/9/2010      $56,044,000             —                                                 $22.26       198,269       $3,596,156

                                                                  2
12/18/2009 Layton Park Financial Group, Milwaukee, WI                        Preferred Stock w/ Exercised Warrants                $3,000,000                                                                                                                          $230,263


1/9/2009     LCNB Corp., Lebanon, OH                                         Preferred Stock w/ Warrants                        $13,400,000    10/21/2009      $13,400,000             —                                                 $11.92       217,063         $524,833


12/23/2008 Leader Bancorp, Inc., Arlington, MA2                              Preferred Stock w/ Exercised Warrants                $5,830,000   11/24/2010        $5,830,000            —    11/24/2010        R       $292,000.00                                     $609,961

                                                      3,25
1/30/2009    Legacy Bancorp, Inc., Milwaukee, WI                             Preferred Stock                                      $5,498,000                                                                                             $13.77                       $355,079

                                                              2
1/23/2009    Liberty Bancshares, Inc., Jonesboro, AR                         Preferred Stock w/ Exercised Warrants              $57,500,000                                                                                                                         $7,242,445


2/13/2009    Liberty Bancshares, Inc., Springfield, MO2                      Preferred Stock w/ Exercised Warrants              $21,900,000                                                                                                                         $2,692,118


12/4/2009    Liberty Bancshares, Inc., Fort Worth, TX2,10                    Preferred Stock w/ Exercised Warrants                $6,500,000                                                                                                                          $495,876

                                                                      3,30
2/6/2009     Liberty Financial Services, Inc., New Orleans, LA               Preferred Stock                                      $5,645,000    9/24/2010        $5,645,000            —           N/A       —                 N/A                                    $461,009

                                                 2
2/20/2009    Liberty Shares, Inc., Hinesville, GA                            Preferred Stock w/ Exercised Warrants              $17,280,000                                                                                                                         $1,399,560


7/10/2009    Lincoln National Corporation, Radnor, PA                        Preferred Stock w/ Warrants                       $950,000,000     6/30/2010     $950,000,000             —     9/16/2010        A    $216,620,886.60       $28.49                    $46,180,555


12/12/2008 LNB Bancorp Inc., Lorain, OH                                      Preferred Stock w/ Warrants                        $25,223,000                                                                                               $5.72       561,343       $3,058,289

                                           2
2/6/2009     Lone Star Bank, Houston, TX                                     Preferred Stock w/ Exercised Warrants                $3,072,000                                                                                                                                 —


12/12/2008 LSB Corporation, North Andover, MA                                Preferred Stock w/ Warrants                        $15,000,000    11/18/2009      $15,000,000             —    12/16/2009        R       $560,000.00                                     $700,000


6/26/2009    M&F Bancorp, Inc., Durham, NC2,3,10,30                          Preferred Stock                                    $11,735,000     8/20/2010      $11,735,000             —           N/A       —                 N/A                                    $674,763


12/23/2008 M&T Bank Corporation, Buffalo, NYd                                Preferred Stock w/ Warrants                       $600,000,000     5/18/2011     $370,000,000 $230,000,000                                                  $87.95        95,383    $121,377,083

           M&T Bank Corporation (Provident Bancshares Corp.),
11/14/2008                                                                   Preferred Stock w/ Warrants                       $151,500,000                                                                                              $87.95       407,542       $9,489,792
           Baltimore, MD
                                                                                                                                                                                                                                                                                   Transaction detail I Appendix D I july 28, 2011




             M&T Bank Corporation (Wilmington Trust Corporation),
12/12/2008                                                                   Preferred Stock w/ Warrants                       $330,000,000     5/13/2011     $330,000,000             —                                                            1,856,714      $39,920,833
             Wilmington, DE43,e

4/24/2009    Mackinac Financial Corporation, Manistique, MI                  Preferred Stock w/ Warrants                        $11,000,000                                                                                               $6.00       379,310       $1,132,083


                                                                                                                                                                                                                                                         Continued on next page.
                                                                                                                                                                                                                                                                                   219
 CPP Transaction Detail, as oF 6/30/2011                                                        (continued)                                                                                                                                                                   220


                                                                                                                                                  Capital      Capital    Remaining          Final                              Stock Price       Current       Dividends/
Purchase                                                                                                                          Investment   Repayment    Repayment       Capital    Disposition            Final Disposition       as of   Outstanding    Interest Paid
Date          Institution                                                     Investment Description                                 Amount         Date      Amount6       Amount           Date    Note15          Proceeds 6/30/2011         Warrantsa      to Treasury

3/13/2009     Madison Financial Corporation, Richmond, KY2                    Preferred Stock w/ Exercised Warrants              $3,370,000                                                                                                                      $169,422


                                                                                                                                               11/24/2009   $3,455,000   $10,340,000
12/23/2008 Magna Bank, Memphis, TN2                                           Preferred Stock w/ Exercised Warrants             $13,795,000                                                                                                                    $1,556,494
                                                                                                                                                 6/8/2011   $3,455,000    $6,885,000


12/29/2009 Mainline Bancorp, Inc., Ebensburg, PA2                             Preferred Stock w/ Exercised Warrants              $4,500,000                                                                                                                      $337,900


1/16/2009     MainSource Financial Group, Inc., Greensburg, IN                Preferred Stock w/ Warrants                       $57,000,000                                                                                          $8.30       571,906       $6,642,083


12/5/2008     Manhattan Bancorp, El Segundo, CA                               Preferred Stock w/ Warrants                        $1,700,000     9/16/2009   $1,700,000            —    10/14/2009        R        $63,363.90         $4.00                        $66,347


6/19/2009     Manhattan Bancshares, Inc., Manhattan, IL8                      Subordinated Debentures w/ Exercised Warrants      $2,639,000                                                                                                                      $421,926

                                                                2
3/6/2009      Marine Bank & Trust Company, Vero Beach, FL                     Preferred Stock w/ Exercised Warrants              $3,000,000                                                                                                                      $235,713


2/20/2009     Market Bancorporation, Inc., New Market, MN2                    Preferred Stock w/ Exercised Warrants              $2,060,000                                                                                                                      $138,778
                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I july 28, 2011




5/15/2009     Market Street Bancshares, Inc., Mt. Vernon, IL8                 Subordinated Debentures w/ Exercised Warrants     $20,300,000                                                                                                                    $3,406,340


12/19/2008 Marquette National Corporation, Chicago, IL2                       Preferred Stock w/ Exercised Warrants             $35,500,000                                                                                        $110.00                     $4,654,149

                                                           44
11/14/2008 Marshall & Ilsley Corporation, Milwaukee, WI                       Preferred Stock w/ Warrants                     $1,715,000,000                                                                                         $5.34    13,815,789    $214,613,194


3/27/2009     Maryland Financial Bank, Towson, MD2                            Preferred Stock w/ Exercised Warrants              $1,700,000                                                                                                                      $105,003


12/5/2008     MB Financial Inc., Chicago, IL                                  Preferred Stock w/ Warrants                      $196,000,000                                                                                         $19.24       506,024      $23,955,556


11/20/2009 McLeod Bancshares, Inc., Shorewood, MN2                            Preferred Stock w/ Exercised Warrants              $6,000,000                                                                                                                      $485,958

                                                2,c
2/27/2009     Medallion Bank, Salt Lake City, UT                              Preferred Stock w/ Exercised Warrants             $11,800,000
                                                                                                                                                                                                                                                               $2,109,967
12/22/2009 Medallion Bank, Salt Lake City, UT2,10a,c                          Preferred Stock w/ Exercised Warrants              $9,698,000


5/15/2009     Mercantile Bank Corporation, Grand Rapids, MI                   Preferred Stock w/ Warrants                       $21,000,000                                                                                          $8.30       616,438       $1,050,000


2/6/2009      Mercantile Capital Corp., Boston, MA2                           Preferred Stock w/ Exercised Warrants              $3,500,000                                                                                                                      $433,956

                                                                      2
6/19/2009     Merchants and Manufacturers Bank Corporation, Joliet, IL        Preferred Stock w/ Exercised Warrants              $3,510,000                                                                                                                      $364,609


3/6/2009      Merchants and Planters Bancshares, Inc., Toone, TN2             Preferred Stock w/ Exercised Warrants              $1,881,000                                                                                                                      $224,668


2/13/2009     Meridian Bank, Devon, PA2,c                                     Preferred Stock w/ Exercised Warrants              $6,200,000
                                                                                                                                                                                                                                                               $1,214,401
12/11/2009 Meridian Bank, Devon, PA2,10a,c                                    Preferred Stock                                    $6,335,000


1/30/2009     Metro City Bank, Doraville, GA2                                 Preferred Stock w/ Exercised Warrants              $7,700,000                                                                                                                      $961,698


1/16/2009     MetroCorp Bancshares, Inc., Houston, TX                         Preferred Stock w/ Warrants                       $45,000,000                                                                                          $6.50       771,429       $4,709,219


6/26/2009     Metropolitan Bank Group, Inc., Chicago, IL2,41                  Preferred Stock w/ Exercised Warrants             $74,706,000                                                                                                                    $3,454,185


6/26/2009     Metropolitan Bank Group, Inc. (NC Bancorp, Inc.), Chicago, IL2,41 Preferred Stock w/ Exercised Warrants            $7,186,000                                                                                                                      $332,256

                                                                2,c
4/10/2009     Metropolitan Capital Bancorp, Inc., Chicago, IL                 Preferred Stock w/ Exercised Warrants              $2,040,000
                                                                                                                                                                                                                                                                 $407,639
11/20/2009 Metropolitan Capital Bancorp, Inc., Chicago, IL2,10a,c             Preferred Stock                                    $2,348,000


12/19/2008 Mid Penn Bancorp, Inc., Millersburg, PA                            Preferred Stock w/ Warrants                       $10,000,000                                                                                          $8.20        73,099       $1,202,778


                                                                                                                                                                                                                                                    Continued on next page.
 CPP Transaction Detail, as oF 6/30/2011                                                               (continued)



                                                                                                                                                                Capital          Capital    Remaining         Final                              Stock Price       Current       Dividends/
Purchase                                                                                                                                        Investment   Repayment        Repayment       Capital   Disposition            Final Disposition       as of   Outstanding    Interest Paid
Date          Institution                                                            Investment Description                                        Amount         Date          Amount6       Amount          Date    Note15          Proceeds 6/30/2011         Warrantsa      to Treasury

1/30/2009     Middleburg Financial Corporation, Middleburg, VA                       Preferred Stock w/ Warrants                              $22,000,000    12/23/2009      $22,000,000           —                                                 $14.94       104,101         $986,944

                                                                 2
1/23/2009     Midland States Bancorp, Inc., Effingham, IL                            Preferred Stock w/ Exercised Warrants                    $10,189,000    12/23/2009      $10,189,000           —    12/23/2009        R       $509,000.00                                     $508,989


1/9/2009      MidSouth Bancorp, Inc., Lafayette, LA                                  Preferred Stock w/ Warrants                              $20,000,000                                                                                            $13.63       104,384       $2,350,000


2/27/2009     Midtown Bank & Trust Company, Atlanta, GA2                             Preferred Stock w/ Exercised Warrants                      $5,222,000                                                                                            $0.01                       $275,105

                                                                         14,20
12/5/2008     Midwest Banc Holdings, Inc., Melrose Park, IL                          Mandatorily Convertible Preferred Stock w/ Warrants      $89,388,000                                                                                                       4,282,020         $824,289

                                                                     2
2/13/2009     Midwest Regional Bancorp, Inc., Festus, MO                             Preferred Stock w/ Exercised Warrants                       $700,000    11/10/2009         $700,000           —    11/10/2009        R         $35,000.00                                     $28,294


2/6/2009      MidWestOne Financial Group, Inc., Iowa City, IA                        Preferred Stock w/ Warrants                              $16,000,000                                                                                            $14.45       198,675       $1,820,000


2/20/2009     Mid-Wisconsin Financial Services, Inc., Medford, WI2                   Preferred Stock w/ Exercised Warrants                    $10,000,000                                                                                             $8.00                     $1,082,431

                                                         2
4/3/2009      Millennium Bancorp, Inc., Edwards, CO                                  Preferred Stock w/ Exercised Warrants                      $7,260,000                                                                                                                        $343,053

                                                                                 3
1/9/2009      Mission Community Bancorp, San Luis Obispo, CA                         Preferred Stock                                            $5,116,000                                                                                            $3.50                       $601,130


12/23/2008 Mission Valley Bancorp, Sun Valley, CA3,30                                Preferred Stock                                            $5,500,000    8/20/2010        $5,500,000          —           N/A       —                 N/A        $4.00                       $456,042


12/19/2008 Monadnock Bancorp, Inc., Peterborough, NH2                                Preferred Stock w/ Exercised Warrants                      $1,834,000                                                                                            $3.10                       $190,517


2/6/2009      Monarch Community Bancorp, Inc., Coldwater, MI                         Preferred Stock w/ Warrants                                $6,785,000                                                                                            $1.12       260,962         $262,919


12/19/2008 Monarch Financial Holdings, Inc., Chesapeake, VA                          Preferred Stock w/ Warrants                              $14,700,000    12/23/2009      $14,700,000           —     2/10/2010        R       $260,000.00         $7.90                       $743,167


3/13/2009     Moneytree Corporation, Lenoir City, TN2                                Preferred Stock w/ Exercised Warrants                      $9,516,000                                                                                                                      $1,126,601


1/30/2009     Monument Bank, Bethesda, MD2                                           Preferred Stock w/ Exercised Warrants                      $4,734,000                                                                                                                        $591,318


10/28/2008 Morgan Stanley, New York, NY                                              Preferred Stock w/ Warrants                           $10,000,000,000    6/17/2009   $10,000,000,000          —     8/12/2009        R    $950,000,000.00       $23.01                  $318,055,555

                                                     2
1/16/2009     Morrill Bancshares, Inc., Merriam, KS                                  Preferred Stock w/ Exercised Warrants                    $13,000,000                                                                                                                       $1,651,199


1/23/2009     Moscow Bancshares, Inc., Moscow, TN2                                   Preferred Stock w/ Exercised Warrants                      $6,216,000                                                                                                                        $782,982


9/25/2009     Mountain Valley Bancshares, Inc., Cleveland, GA2                       Preferred Stock w/ Exercised Warrants                      $3,300,000                                                                                                                        $294,754

                                              2
3/27/2009     MS Financial, Inc., Kingwood, TX                                       Preferred Stock w/ Exercised Warrants                      $7,723,000                                                                                                                        $477,009


12/23/2008 MutualFirst Financial, Inc., Muncie, IN                                   Preferred Stock w/ Warrants                              $32,382,000                                                                                             $9.12       625,135       $3,876,845


3/27/2009     Naples Bancorp, Inc., Naples, FL2                                      Preferred Stock w/ Exercised Warrants                      $4,000,000                                                                                                                        $356,067


11/21/2008 Nara Bancorp, Inc., Los Angeles, CA                                       Preferred Stock w/ Warrants                              $67,000,000                                                                                             $8.13       521,266       $8,319,167

                                                             2
2/27/2009     National Bancshares, Inc., Bettendorf, IA                              Preferred Stock w/ Exercised Warrants                    $24,664,000                                                                                            $25.29                     $2,307,492

                                                                          l
12/12/2008 National Penn Bancshares, Inc., Boyertown, PA                             Preferred Stock w/ Warrants                             $150,000,000     3/16/2011     $150,000,000           —     4/13/2011        R      $1,000,000.00        $7.93                    $16,958,333


12/11/2009 Nationwide Bankshares, Inc., West Point, NE8                              Subordinated Debentures w/ Exercised Warrants              $2,000,000   12/29/2010        $2,000,000          —    12/29/2010        R       $100,000.00                                     $176,190


12/19/2008 NCAL Bancorp, Los Angeles, CA2                                            Preferred Stock w/ Exercised Warrants                    $10,000,000                                                                                             $9.50                     $1,311,028

                                                     8
6/19/2009     NEMO Bancshares Inc., Madison, MO                                      Subordinated Debentures w/ Exercised Warrants              $2,330,000                                                                                                                        $372,643
                                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I july 28, 2011




1/16/2009     New Hampshire Thrift Bancshares, Inc., Newport, NH                     Preferred Stock w/ Warrants                              $10,000,000                                                                                            $13.35       184,275       $1,165,278


                                                                                                                                                                                                                                                                     Continued on next page.
                                                                                                                                                                                                                                                                                               221
 CPP Transaction Detail, as oF 6/30/2011                                                   (continued)                                                                                                                                                                     222


                                                                                                                                             Capital         Capital    Remaining         Final                              Stock Price       Current       Dividends/
Purchase                                                                                                                     Investment   Repayment       Repayment       Capital   Disposition            Final Disposition       as of   Outstanding    Interest Paid
Date          Institution                                                Investment Description                                 Amount         Date         Amount6       Amount          Date    Note15          Proceeds 6/30/2011         Warrantsa      to Treasury

1/9/2009      New York Private Bank & Trust Corporation, New York, NY2   Preferred Stock w/ Exercised Warrants            $267,274,000                                                                                                                     $34,231,181


12/12/2008 NewBridge Bancorp, Greensboro, NC                             Preferred Stock w/ Warrants                       $52,372,000                                                                                            $4.58     2,567,255       $6,350,105


12/23/2008 Nicolet Bankshares, Inc., Green Bay, WI2                      Preferred Stock w/ Exercised Warrants             $14,964,000                                                                                                                      $1,952,717


1/9/2009      North Central Bancshares, Inc., Fort Dodge, IA             Preferred Stock w/ Warrants                       $10,200,000                                                                                           $17.95        99,157       $1,198,500


12/12/2008 Northeast Bancorp, Lewiston, ME                               Preferred Stock w/ Warrants                        $4,227,000                                                                                           $13.75        67,958         $512,524


5/15/2009     Northern State Bank, Closter, NJ2,c                        Preferred Stock w/ Exercised Warrants              $1,341,000
                                                                                                                                                                                                                                                              $232,773
12/18/2009 Northern State Bank, Closter, NJ2,10a,c                       Preferred Stock                                    $1,230,000


2/20/2009     Northern States Financial Corporation, Waukegan, IL        Preferred Stock w/ Warrants                       $17,211,000                                                                                            $1.14       584,084         $418,323


11/14/2008 Northern Trust Corporation, Chicago, IL                       Preferred Stock w/ Warrants                     $1,576,000,000    6/17/2009   $1,576,000,000          —    8/26/2009         R    $87,000,000.00        $45.96                    $46,623,333
                                                                                                                                                                                                                                                                           Appendix D I Transaction Detail I july 28, 2011




1/30/2009     Northway Financial, Inc., Berlin, NH2                      Preferred Stock w/ Exercised Warrants             $10,000,000                                                                                           $10.95                     $1,248,958


2/13/2009     Northwest Bancorporation, Inc., Spokane, WA2               Preferred Stock w/ Exercised Warrants             $10,500,000                                                                                            $4.58                       $575,430

                                                              2
2/13/2009     Northwest Commercial Bank, Lakewood, WA                    Preferred Stock w/ Exercised Warrants              $1,992,000                                                                                            $3.50                       $244,953


1/30/2009     Oak Ridge Financial Services, Inc., Oak Ridge, NC          Preferred Stock w/ Warrants                        $7,700,000                                                                                            $3.77       163,830         $882,292


12/5/2008     Oak Valley Bancorp, Oakdale, CA                            Preferred Stock w/ Warrants                       $13,500,000                                                                                            $5.85       350,346       $1,650,000


1/16/2009     OceanFirst Financial Corp., Toms River, NJ                 Preferred Stock w/ Warrants                       $38,263,000    12/30/2009     $38,263,000           —     2/3/2010         R       $430,797.00        $12.95                     $1,828,122

                                             2
1/30/2009     Ojai Community Bank, Ojai, CA                              Preferred Stock w/ Exercised Warrants              $2,080,000                                                                                            $3.50                       $203,103


12/5/2008     Old Line Bancshares, Inc., Bowie, MD                       Preferred Stock w/ Warrants                        $7,000,000     7/15/2009      $7,000,000           —     9/2/2009         R       $225,000.00         $8.38                       $213,889


12/12/2008 Old National Bancorp, Evansville, IN                          Preferred Stock w/ Warrants                      $100,000,000     3/31/2009    $100,000,000           —     5/8/2009         R     $1,200,000.00        $10.80                     $1,513,889


1/16/2009     Old Second Bancorp, Inc., Aurora, IL                       Preferred Stock w/ Warrants                       $73,000,000                                                                                            $0.90       815,339       $5,769,028

                                                      2
4/17/2009     Omega Capital Corp., Lakewood, CO                          Preferred Stock w/ Exercised Warrants              $2,816,000                                                                                                                         $50,311


5/8/2009      One Georgia Bank, Atlanta, GA2                             Preferred Stock w/ Exercised Warrants              $5,500,000                                                                                                                               —


6/5/2009      OneFinancial Corporation, Little Rock, AR8,10              Subordinated Debentures w/ Exercised Warrants     $17,300,000                                                                                                                      $2,729,992


12/19/2008 OneUnited Bank, Boston, MA2,3                                 Preferred Stock                                   $12,063,000                                                                                                                         $93,823

                                                 2
4/24/2009     Oregon Bancorp, Inc., Salem, OR                            Preferred Stock w/ Exercised Warrants              $3,216,000                                                                                            $8.50                       $360,805


5/1/2009      OSB Financial Services, Inc., Orange, TX8                  Subordinated Debentures w/ Exercised Warrants      $6,100,000                                                                                                                      $1,058,285


11/21/2008 Pacific Capital Bancorp, Santa Barbara, CA29                  Common Stock w/ Warrants                         $195,045,000                                                                                           $31.79        15,120       $2,107,397


12/19/2008 Pacific City Financial Corporation, Los Angeles, CA2          Preferred Stock w/ Exercised Warrants             $16,200,000                                                                                                                        $358,065

                                                                     2
12/23/2008 Pacific Coast Bankers’ Bancshares, San Francisco, CA          Preferred Stock w/ Exercised Warrants             $11,600,000                                                                                                                      $1,513,768

1/16/2009     Pacific Coast National Bancorp, San Clemente, CA2,19       Preferred Stock w/ Exercised Warrants              $4,120,000     2/11/2010               —           —           N/A                         N/A                                     $18,088


12/23/2008 Pacific Commerce Bank, Los Angeles, CA2                       Preferred Stock w/ Exercised Warrants              $4,060,000                                                                                            $3.25                       $387,223


                                                                                                                                                                                                                                                 Continued on next page.
 CPP Transaction Detail, as oF 6/30/2011                                                         (continued)



                                                                                                                                                 Capital      Capital     Remaining          Final                              Stock Price       Current       Dividends/
Purchase                                                                                                                         Investment   Repayment    Repayment        Capital    Disposition            Final Disposition       as of   Outstanding    Interest Paid
Date          Institution                                                      Investment Description                               Amount         Date      Amount6        Amount           Date    Note15          Proceeds 6/30/2011         Warrantsa      to Treasury

12/12/2008 Pacific International Bancorp, Seattle, WA                          Preferred Stock w/ Warrants                       $6,500,000                                                                                          $3.47                       $381,875


3/6/2009      Park Bancorporation, Inc., Madison, WI2                          Preferred Stock w/ Exercised Warrants            $23,200,000                                                                                         $65.86                     $2,771,143


12/23/2008 Park National Corporation, Newark, OH                               Preferred Stock w/ Warrants                     $100,000,000                                                                                          $7.76       227,376      $11,972,222


1/30/2009     Parke Bancorp, Inc., Sewell, NJf                                 Preferred Stock w/ Warrants                      $16,288,000                                                                                         $21.50       362,733       $1,866,333


12/23/2008 Parkvale Financial Corporation, Monroeville, PA                     Preferred Stock w/ Warrants                      $31,762,000                                                                                          $5.00       376,327       $3,802,617

              Pascack Bancorp, Inc. (Pascack Community Bank),
2/6/2009                                                                       Preferred Stock w/ Exercised Warrants             $3,756,000                                                                                                                      $465,738
              Westwood, NJ2,13

                                                            2
12/19/2008 Patapsco Bancorp, Inc., Dundalk, MD                                 Preferred Stock w/ Exercised Warrants             $6,000,000                                                                                          $0.75                       $377,867


9/11/2009     Pathfinder Bancorp, Inc., Oswego, NY                             Preferred Stock w/ Warrants                       $6,771,000                                                                                          $8.87       154,354         $568,012


3/27/2009     Pathway Bancorp, Cairo, NE2                                      Preferred Stock w/ Exercised Warrants             $3,727,000                                                                                                                       $77,852


12/19/2008 Patriot Bancshares, Inc., Houston, TX2                              Preferred Stock w/ Exercised Warrants            $26,038,000                                                                                                                    $2,704,136

                                                                       2
4/17/2009     Patterson Bancshares, Inc, Patterson, LA                         Preferred Stock w/ Exercised Warrants             $3,690,000                                                                                                                      $216,795


                                                                                                                                               1/6/2010     $7,172,000   $21,513,000
1/9/2009      Peapack-Gladstone Financial Corporation, Gladstone, NJ           Preferred Stock w/ Warrants                      $28,685,000                                                                                         $11.78       150,296       $2,810,674
                                                                                                                                               3/2/2011     $7,172,000   $14,341,000


1/30/2009     Peninsula Bank Holding Co., Palo Alto, CA                        Preferred Stock w/ Warrants                       $6,000,000                                                                                          $5.70        81,670         $708,943

                                                                   2
4/17/2009     Penn Liberty Financial Corp., Wayne, PA                          Preferred Stock w/ Exercised Warrants             $9,960,000                                                                                                                    $1,127,859

                                              2
2/13/2009     Peoples Bancorp, Lynden, WA                                      Preferred Stock w/ Exercised Warrants            $18,000,000                                                                                         $17.12                     $2,212,700


1/30/2009     Peoples Bancorp Inc., Marietta, OH                               Preferred Stock w/ Warrants                      $39,000,000    2/2/2011    $21,000,000   $18,000,000                                                $11.27       313,505       $4,168,333


12/23/2008 Peoples Bancorp of North Carolina, Inc., Newton, NC                 Preferred Stock w/ Warrants                      $25,054,000                                                                                          $6.39       357,234       $2,999,521

                                                                       2
4/24/2009     Peoples Bancorporation, Inc., Easley, SC                         Preferred Stock w/ Exercised Warrants            $12,660,000                                                                                                                    $1,420,188

                                                                           2
3/20/2009     Peoples Bancshares of TN, Inc, Madisonville, TN                  Preferred Stock w/ Exercised Warrants             $3,900,000                                                                                                                      $457,573


3/6/2009      PeoplesSouth Bancshares, Inc., Colquitt, GA2                     Preferred Stock w/ Exercised Warrants            $12,325,000                                                                                                                    $1,472,121


9/11/2009     PFSB Bancorporation, Inc., Pigeon Falls, WI2,10                  Preferred Stock w/ Exercised Warrants             $1,500,000                                                                                                                      $136,554

                                                  3,30
2/6/2009      PGB Holdings, Inc., Chicago, IL                                  Preferred Stock                                   $3,000,000   8/13/2010     $3,000,000            —           N/A       —                 N/A                                    $227,917

                                                            2,25
1/23/2009     Pierce County Bancorp, Tacoma, WA                                Preferred Stock w/ Exercised Warrants             $6,800,000                                                                                                                      $207,948


3/6/2009      Pinnacle Bank Holding Company, Inc., Orange City, FL2            Preferred Stock w/ Exercised Warrants             $4,389,000                                                                                                      267,455         $284,999


12/12/2008 Pinnacle Financial Partners, Inc., Nashville, TN                    Preferred Stock w/ Warrants                      $95,000,000                                                                                         $15.56                    $11,518,750

                                                            2
12/19/2008 Plains Capital Corporation, Dallas, TX                              Preferred Stock w/ Exercised Warrants            $87,631,000                                                                                                                   $11,488,765

                                                         8,10
7/17/2009     Plato Holdings Inc., Saint Paul, MN                              Subordinated Debentures w/ Exercised Warrants     $2,500,000                                                                                                                      $378,836
                                                                                                                                                                                                                                                                              Transaction detail I Appendix D I july 28, 2011




1/30/2009     Plumas Bancorp, Quincy, CA                                       Preferred Stock w/ Warrants                      $11,949,000                                                                                          $2.42       237,712         $622,344


12/5/2008     Popular, Inc., San Juan, PR12                                    Trust Preferred Securities w/ Warrants          $935,000,000                                                                                         $21.94    20,932,836    $101,421,528


                                                                                                                                                                                                                                                    Continued on next page.
                                                                                                                                                                                                                                                                              223
 CPP Transaction Detail, as oF 6/30/2011                                               (continued)                                                                                                                                                                 224


                                                                                                                                         Capital      Capital   Remaining         Final                              Stock Price       Current       Dividends/
Purchase                                                                                                                 Investment   Repayment    Repayment      Capital   Disposition            Final Disposition       as of   Outstanding    Interest Paid
Date         Institution                                             Investment Description                                 Amount         Date      Amount6      Amount          Date    Note15          Proceeds 6/30/2011         Warrantsa      to Treasury

11/21/2008 Porter Bancorp Inc., Louisville, KY                       Preferred Stock w/ Warrants                       $35,000,000                                                                                        $4.98       330,561       $4,345,833


4/3/2009     Prairie Star Bancshares, Inc., Olathe, KS2              Preferred Stock w/ Exercised Warrants              $2,800,000                                                                                                                    $132,253


5/8/2009     Premier Bancorp, Inc., Wilmette, IL3,8,30               Subordinated Debentures                            $6,784,000    8/13/2010    $6,784,000          —           N/A       —                 N/A                                    $660,215

                                                                2
3/20/2009    Premier Bank Holding Company, Tallahassee, FL           Preferred Stock w/ Exercised Warrants              $9,500,000                                                                                                                    $467,413


10/2/2009    Premier Financial Bancorp, Inc., Huntington, WV         Preferred Stock w/ Warrants                       $22,252,000                                                                                        $7.16       628,588       $1,812,268


5/22/2009    Premier Financial Corp, Dubuque, IA8                    Subordinated Debentures w/ Exercised Warrants      $6,349,000                                                                                                                    $522,263


2/20/2009    Premier Service Bank, Riverside, CA2                    Preferred Stock w/ Exercised Warrants              $4,000,000                                                                                        $1.26                        $54,500


2/13/2009    PremierWest Bancorp, Medford, OR                        Preferred Stock w/ Warrants                       $41,400,000                                                                                        $1.45       109,039       $1,046,500


11/20/2009 Presidio Bank, San Francisco, CA2,10                      Preferred Stock w/ Exercised Warrants             $10,800,000                                                                                        $7.00                       $845,969
                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I july 28, 2011




1/23/2009    Princeton National Bancorp, Inc., Princeton, IL         Preferred Stock w/ Warrants                       $25,083,000                                                                                        $5.00       155,025       $2,271,405


2/27/2009    Private Bancorporation, Inc., Minneapolis, MN2,c        Preferred Stock w/ Exercised Warrants              $4,960,000
                                                                                                                                                                                                                         $13.88                       $498,860
                                                           2,10a,c
12/29/2009 Private Bancorporation, Inc., Minneapolis, MN             Preferred Stock                                    $3,262,000


1/30/2009    PrivateBancorp, Inc., Chicago, IL                       Preferred Stock w/ Warrants                      $243,815,000                                                                                       $13.80       645,013      $27,937,135


10/2/2009    Providence Bank, Rocky Mount, NC2,10                    Preferred Stock w/ Exercised Warrants              $4,000,000                                                                                                                    $349,395


3/13/2009    Provident Community Bancshares, Inc., Rock Hill, SC     Preferred Stock w/ Warrants                        $9,266,000                                                                                        $0.55       178,880         $543,091

                                                   2,30
2/27/2009    PSB Financial Corporation, Many, LA                     Preferred Stock w/ Exercised Warrants              $9,270,000    9/29/2010    $9,270,000          —    9/29/2010         R       $464,000.00                                     $802,802


1/16/2009    Puget Sound Bank, Bellevue, WA2                         Preferred Stock w/ Exercised Warrants              $4,500,000                                                                                       $10.00                       $571,569


1/16/2009    Pulaski Financial Corp, Creve Coeur, MO                 Preferred Stock w/ Warrants                       $32,538,000                                                                                        $7.13       778,421       $3,791,581


2/13/2009    QCR Holdings, Inc., Moline, IL                          Preferred Stock w/ Warrants                       $38,237,000                                                                                        $8.92       521,888       $4,312,284

                                                                2
10/30/2009 Randolph Bank & Trust Company, Asheboro, NC               Preferred Stock w/ Exercised Warrants              $6,229,000                                                                                                                    $438,443


6/19/2009    RCB Financial Corporation, Rome, GA2,10                 Preferred Stock w/ Exercised Warrants              $8,900,000                                                                                                                    $893,934


1/16/2009    Redwood Capital Bancorp, Eureka, CA2                    Preferred Stock w/ Exercised Warrants              $3,800,000                                                                                        $8.92                       $482,658


1/9/2009     Redwood Financial Inc., Redwood Falls, MN2              Preferred Stock w/ Exercised Warrants              $2,995,000                                                                                       $12.00                       $383,638

                                              2
3/6/2009     Regent Bancorp, Inc., Davie, FL                         Preferred Stock w/ Exercised Warrants              $9,982,000                                                                                                                    $784,282


2/27/2009    Regent Capital Corporation, Nowata, OK2                 Preferred Stock w/ Exercised Warrants              $2,655,000                                                                                                                    $320,796


10/23/2009 Regents Bancshares, Inc., Vancouver, WA2,10               Preferred Stock w/ Exercised Warrants             $12,700,000                                                                                                                  $1,044,836


2/13/2009    Regional Bankshares, Inc., Hartsville, SC2              Preferred Stock w/ Exercised Warrants              $1,500,000                                                                                                                    $184,392


11/14/2008 Regions Financial Corporation, Birmingham, AL             Preferred Stock w/ Warrants                     $3,500,000,000                                                                                       $6.20    48,253,677    $437,986,111

2/13/2009    Reliance Bancshares, Inc., Frontenac, MO2               Preferred Stock w/ Exercised Warrants             $40,000,000                                                                                        $0.80                     $3,827,111


2/27/2009    Ridgestone Financial Services, Inc., Brookfield, WI2    Preferred Stock w/ Exercised Warrants             $10,900,000                                                                                           —                        $277,224


                                                                                                                                                                                                                                         Continued on next page.
 CPP Transaction Detail, as oF 6/30/2011                                                   (continued)



                                                                                                                                              Capital        Capital    Remaining          Final                              Stock Price       Current       Dividends/
Purchase                                                                                                                      Investment   Repayment      Repayment       Capital    Disposition            Final Disposition       as of   Outstanding    Interest Paid
Date         Institution                                                    Investment Description                               Amount         Date        Amount6       Amount           Date    Note15          Proceeds 6/30/2011         Warrantsa      to Treasury

1/9/2009     Rising Sun Bancorp, Rising Sun, MD2                            Preferred Stock w/ Exercised Warrants             $5,983,000                                                                                                                       $195,637


6/12/2009    River Valley Bancorporation, Inc., Wausau, WI8                 Subordinated Debentures w/ Exercised Warrants    $15,000,000                                                                                          $16.25                     $2,422,613


5/15/2009    Riverside Bancshares, Inc., Little Rock, AR8                   Subordinated Debentures w/ Exercised Warrants     $1,100,000                                                                                                                       $184,580


1/30/2009    Rogers Bancshares, Inc., Little Rock, AR2                      Preferred Stock w/ Exercised Warrants            $25,000,000                                                                                                                       $738,021


2/20/2009    Royal Bancshares of Pennsylvania, Inc., Narberth, PA           Preferred Stock w/ Warrants                      $30,407,000                                                                                           $1.55     1,104,370         $358,971


1/16/2009    S&T Bancorp, Indiana, PA                                       Preferred Stock w/ Warrants                     $108,676,000                                                                                          $18.59       517,012      $12,663,773


12/23/2008 Saigon National Bank, Westminster, CA2                           Preferred Stock w/ Exercised Warrants             $1,549,000                                                                                           $0.05                              —


3/13/2009    Salisbury Bancorp, Inc., Lakeville, CT                         Preferred Stock w/ Warrants                       $8,816,000                                                                                          $26.44        57,671         $957,516


                                                                                                                                            7/21/2010    $41,547,000   $41,547,000    2/23/2011        R
12/5/2008    Sandy Spring Bancorp, Inc., Olney, MD                          Preferred Stock w/ Warrants                      $83,094,000                                                                     $4,450,000.00        $17.99                     $7,593,868
                                                                                                                                           12/15/2010    $41,547,000            —     2/24/2011        R


2/13/2009    Santa Clara Valley Bank, N.A., Santa Paula, CA2                Preferred Stock w/ Exercised Warrants             $2,900,000                                                                                           $6.59                       $158,928


12/19/2008 Santa Lucia Bancorp, Atascadero, CA                              Preferred Stock w/ Warrants                       $4,000,000                                                                                           $0.35        38,107         $331,111

                                               2
3/27/2009    SBT Bancorp, Inc., Simsbury, CT                                Preferred Stock w/ Exercised Warrants             $4,000,000                                                                                                                       $465,067


1/16/2009    SCBT Financial Corporation, Columbia, SC                       Preferred Stock w/ Warrants                      $64,779,000    5/20/2009    $64,779,000            —     6/24/2009        R     $1,400,000.00        $28.68                     $1,115,639


12/19/2008 Seacoast Banking Corporation of Florida, Stuart, FL              Preferred Stock w/ Warrants                      $50,000,000                                                                                           $1.50       589,623         $388,889


12/23/2008 Seacoast Commerce Bank, Chula Vista, CA2                         Preferred Stock w/ Exercised Warrants             $1,800,000                                                                                           $4.50                       $234,895

                                                                        2
2/13/2009    Security Bancshares of Pulaski County, Inc., Waynesville, MO   Preferred Stock w/ Exercised Warrants             $2,152,000                                                                                                                       $264,622


1/9/2009     Security Business Bancorp, San Diego, CA2                      Preferred Stock w/ Exercised Warrants             $5,803,000                                                                                                                       $743,188


1/9/2009     Security California Bancorp, Riverside, CA2                    Preferred Stock w/ Exercised Warrants             $6,815,000                                                                                           $9.00                       $872,885


6/26/2009    Security Capital Corporation, Batesville, MS2,10,30            Preferred Stock w/ Exercised Warrants            $17,388,000    9/29/2010    $17,388,000            —     9/29/2010        R       $522,000.00                                   $1,153,111

                                                         30
12/19/2008 Security Federal Corporation, Aiken, SC                          Preferred Stock w/ Warrants                      $18,000,000    9/29/2010    $18,000,000            —                                                 $11.00       137,966       $1,600,000


2/20/2009    Security State Bancshares, Inc., Charleston, MO2               Preferred Stock w/ Exercised Warrants            $12,500,000                                                                                                                     $1,523,350


5/1/2009     Security State Bank Holding-Company, Jamestown, ND8            Subordinated Debentures w/ Exercised Warrants    $10,750,000                                                                                                                     $1,414,005


11/21/2008 Severn Bancorp, Inc., Annapolis, MD                              Preferred Stock w/ Warrants                      $23,393,000                                                                                           $3.24       556,976       $2,904,631


1/9/2009     Shore Bancshares, Inc., Easton, MD                             Preferred Stock w/ Warrants                      $25,000,000    4/15/2009    $25,000,000            —                                                  $6.98       172,970         $333,333


6/26/2009    Signature Bancshares, Inc., Dallas, TX8                        Subordinated Debentures w/ Exercised Warrants     $1,700,000   12/15/2010     $1,700,000            —    12/15/2010        R        $85,000.00                                     $209,588


12/12/2008 Signature Bank, New York, NY                                     Preferred Stock w/ Warrants                     $120,000,000    3/31/2009   $120,000,000            —     3/10/2010        A    $11,320,751.00        $57.20                     $1,816,667

1/16/2009    Somerset Hills Bancorp, Bernardsville, NJ                      Preferred Stock w/ Warrants                       $7,414,000    5/20/2009     $7,414,000            —     6/24/2009        R       $275,000.00         $8.55                       $127,686

                                                      2,25
2/20/2009    Sonoma Valley Bancorp, Sonoma, CA                              Preferred Stock w/ Exercised Warrants             $8,653,000                                                                                                                       $347,164
                                                                                                                                                                                                                                                                            Transaction detail I Appendix D I july 28, 2011




1/9/2009     Sound Banking Company, Morehead City, NC2                      Preferred Stock w/ Exercised Warrants             $3,070,000                                                                                           $2.60                       $393,296


                                                                                                                                                                                                                                                  Continued on next page.
                                                                                                                                                                                                                                                                            225
 CPP Transaction Detail, as oF 6/30/2011                                                (continued)                                                                                                                                                                       226


                                                                                                                                          Capital         Capital     Remaining          Final                              Stock Price       Current       Dividends/
Purchase                                                                                                                  Investment   Repayment       Repayment        Capital    Disposition            Final Disposition       as of   Outstanding    Interest Paid
Date          Institution                                             Investment Description                                 Amount         Date         Amount6        Amount           Date    Note15          Proceeds 6/30/2011         Warrantsa      to Treasury

12/5/2008     South Financial Group, Inc., Greenville, SC26           Preferred Stock w/ Warrants                      $347,000,000    9/30/2010     $130,179,219             —    9/30/2010         R       $400,000.00                                  $16,386,111


7/17/2009     SouthCrest Financial Group, Inc., Fayetteville, GA2     Preferred Stock w/ Exercised Warrants             $12,900,000                                                                                              $3.00                       $933,494


1/16/2009     Southern Bancorp, Inc., Arkadelphia, AR 3,30            Preferred Stock                                   $11,000,000     8/6/2010      $11,000,000             —           N/A       —                 N/A                                    $855,556


12/5/2008     Southern Community Financial Corp., Winston-Salem, NC   Preferred Stock w/ Warrants                       $42,750,000                                                                                              $1.10     1,623,418       $4,156,250


2/27/2009     Southern First Bancshares, Inc., Greenville, SC         Preferred Stock w/ Warrants                       $17,299,000                                                                                              $8.50       363,609       $1,917,306


5/15/2009     Southern Heritage Bancshares, Inc., Cleveland, TN2      Preferred Stock w/ Exercised Warrants              $4,862,000                                                                                                                          $529,940


1/23/2009     Southern Illinois Bancorp, Inc., Carmi, IL2             Preferred Stock w/ Exercised Warrants              $5,000,000                                                                                                                          $629,778


12/5/2008     Southern Missouri Bancorp, Inc., Poplar Bluff, MO       Preferred Stock w/ Warrants                        $9,550,000                                                                                             $20.78       114,326       $1,167,222


6/12/2009     SouthFirst Bancshares, Inc., Sylacauga, AL2             Preferred Stock w/ Exercised Warrants              $2,760,000                                                                                              $1.15                       $289,586
                                                                                                                                                                                                                                                                          Appendix D I Transaction Detail I july 28, 2011




12/5/2008     Southwest Bancorp, Inc., Stillwater, OK                 Preferred Stock w/ Warrants                       $70,000,000                                                                                              $9.79       703,753       $8,555,556


3/13/2009     Sovereign Bancshares, Inc., Dallas, TX2                 Preferred Stock w/ Exercised Warrants             $18,215,000                                                                                                                        $2,156,452

                                                 2
3/27/2009     Spirit BankCorp, Inc., Bristow, OK                      Preferred Stock w/ Exercised Warrants             $30,000,000                                                                                                                        $2,261,750


3/13/2009     St. Johns Bancshares, Inc., St. Louis, MO2              Preferred Stock w/ Exercised Warrants              $3,000,000                                                                                                                          $355,158


4/24/2009     Standard Bancshares, Inc., Hickory Hills, IL2           Preferred Stock w/ Exercised Warrants             $60,000,000                                                                                                                        $6,730,750


12/5/2008     State Bancorp, Inc., Jericho, NY                        Preferred Stock w/ Warrants                       $36,842,000                                                                                             $13.34       465,569       $4,502,911


                                                                                                                        $50,000,000    8/12/2009      $12,500,000    $37,500,000
1/16/2009     State Bankshares, Inc., Fargo, ND2,b                    Preferred Stock w/ Exercised Warrants                                                                        6/29/2011         R     $2,500,000.00                                   $5,508,472
                                                                                                                                       6/29/2011      $37,500,000             —


2/13/2009     State Capital Corporation, Greenwood, MS2,30            Preferred Stock w/ Exercised Warrants             $15,000,000    9/29/2010      $15,000,000             —    9/29/2010         R       $750,000.00                                   $1,330,709


10/28/2008 State Street Corporation, Boston, MA                       Preferred Stock w/ Warrants                     $2,000,000,000   6/17/2009    $2,000,000,000            —     7/8/2009         R    $60,000,000.00        $45.09                    $63,611,111

                                                               8
6/26/2009     Stearns Financial Services, Inc., St. Cloud, MN         Subordinated Debentures w/ Exercised Warrants     $24,900,000                                                                                                                        $3,940,293


9/25/2009     Steele Street Bank Corporation, Denver, CO8,10          Subordinated Debentures w/ Exercised Warrants     $11,019,000                                                                                                                        $1,465,398


12/19/2008 StellarOne Corporation, Charlottesville, VA                Preferred Stock w/ Warrants                       $30,000,000    4/13/2011       $7,500,000    $22,500,000                                                $12.11       302,623       $3,575,000


12/23/2008 Sterling Bancorp, New York, NYl                            Preferred Stock w/ Warrants                       $42,000,000    4/27/2011      $42,000,000             —    5/18/2011         R       $945,775.00         $9.49                     $4,923,333


12/12/2008 Sterling Bancshares, Inc., Houston, TX                     Preferred Stock w/ Warrants                      $125,198,000     5/5/2009     $125,198,000             —     6/9/2010         A     $3,007,890.55         $8.16                     $2,486,571


12/5/2008     Sterling Financial Corporation, Spokane, WA24           Common Stock w/ Warrants                         $303,000,000                                                                                             $16.07        97,541       $6,733,333


1/30/2009     Stewardship Financial Corporation, Midland Park, NJ     Preferred Stock w/ Warrants                       $10,000,000                                                                                              $5.00       133,475       $1,145,833


                                                                                                                                       1/14/2011       $4,000,000    $11,568,000   3/16/2011         R
2/6/2009      Stockmens Financial Corporation, Rapid City, SD2        Preferred Stock w/ Exercised Warrants             $15,568,000                                                                          $778,000.00                                   $1,755,554
                                                                                                                                       3/16/2011      $11,568,000             —    3/17/2011         R

1/23/2009     Stonebridge Financial Corp., West Chester, PA2          Preferred Stock w/ Exercised Warrants             $10,973,000                                                                                                                          $634,609


6/19/2009     Suburban Illinois Bancorp, Inc., Elmhurst, IL8          Subordinated Debentures w/ Exercised Warrants     $15,000,000                                                                                                                        $2,083,520


                                                                                                                                                                                                                                                Continued on next page.
 CPP Transaction Detail, as oF 6/30/2011                                                      (continued)



                                                                                                                                                   Capital         Capital     Remaining          Final                              Stock Price       Current       Dividends/
Purchase                                                                                                                           Investment   Repayment       Repayment        Capital    Disposition            Final Disposition       as of   Outstanding    Interest Paid
Date         Institution                                                       Investment Description                                 Amount         Date         Amount6        Amount           Date    Note15          Proceeds 6/30/2011         Warrantsa      to Treasury

12/19/2008 Summit State Bank, Santa Rosa, CA                                   Preferred Stock w/ Warrants                        $8,500,000                                                                                              $6.72       239,212       $1,022,361


1/9/2009     Sun Bancorp, Inc., Vineland, NJ                                   Preferred Stock w/ Warrants                       $89,310,000      4/8/2009     $89,310,000             —     5/27/2009        R      $2,100,000.00        $3.65                     $1,103,971


11/14/2008 SunTrust Banks, Inc., Atlanta, GAc                                  Preferred Stock w/ Warrants                     $3,500,000,000    3/30/2011   $3,500,000,000            —                                                           11,891,280
                                                                                                                                                                                                                                         $25.80                  $567,986,111
12/31/2008 SunTrust Banks, Inc., Atlanta, GAc                                  Preferred Stock w/ Warrants                     $1,350,000,000    3/30/2011   $1,350,000,000            —                                                            6,008,902


12/5/2008    Superior Bancorp Inc., Birmingham, AL17,25                        Trust Preferred Securities w/ Warrants            $69,000,000                                                                                              $0.01     1,923,792       $4,983,333


1/9/2009     Surrey Bancorp, Mount Airy, NC2                                   Preferred Stock w/ Exercised Warrants              $2,000,000    12/29/2010      $2,000,000             —    12/29/2010        R       $100,000.00         $8.90                       $214,972


                                                                                                                                                 4/21/2010    $200,000,000 $100,000,000
12/12/2008 Susquehanna Bancshares, Inc, Lititz, PA                             Preferred Stock w/ Warrants                      $300,000,000                                                 1/19/2011        R      $5,269,179.36        $8.00                    $23,722,222
                                                                                                                                                12/22/2010    $100,000,000             —


4/10/2009    SV Financial, Inc., Sterling, IL2                                 Preferred Stock w/ Exercised Warrants              $4,000,000                                                                                                                          $457,194


12/12/2008 SVB Financial Group, Santa Clara, CA                                Preferred Stock w/ Warrants                      $235,000,000    12/23/2009    $235,000,000             —     6/16/2010        R      $6,820,000.00       $59.71                    $12,109,028


5/8/2009     Sword Financial Corporation, Horicon, WI8                         Subordinated Debentures w/ Exercised Warrants     $13,644,000                                                                                                                        $2,311,666


12/19/2008 Synovus Financial Corp., Columbus, GA                               Preferred Stock w/ Warrants                      $967,870,000                                                                                              $2.08    15,510,737    $116,413,253

                                          2
1/16/2009    Syringa Bancorp, Boise, ID                                        Preferred Stock w/ Exercised Warrants              $8,000,000                                                                                              $0.11                       $253,122


11/21/2008 Taylor Capital Group, Rosemont, IL                                  Preferred Stock w/ Warrants                      $104,823,000                                                                                              $8.16     1,462,647      $13,015,523


8/28/2009    TCB Corporation, Greenwood, SC8,10                                Subordinated Debentures w/ Exercised Warrants      $9,720,000                                                                                                                        $1,351,806

             TCB Holding Company, Texas Community Bank,
1/16/2009                                                                      Preferred Stock w/ Exercised Warrants             $11,730,000                                                                                                                          $690,832
             The Woodlands, TX2

11/14/2008 TCF Financial Corporation, Wayzata, MN                              Preferred Stock w/ Warrants                      $361,172,000     4/22/2009    $361,172,000             —    12/15/2009        A      $9,599,964.00       $13.80                     $7,925,719


12/23/2008 TCNB Financial Corp., Dayton, OH2                                   Preferred Stock w/ Exercised Warrants              $2,000,000                                                                                                                          $260,994


12/19/2008 Tennessee Commerce Bancorp, Inc., Franklin, TN                      Preferred Stock w/ Warrants                       $30,000,000                                                                                              $2.60       461,538       $3,233,333

                                                                    2
12/23/2008 Tennessee Valley Financial Holdings, Inc., Oak Ridge, TN            Preferred Stock w/ Exercised Warrants              $3,000,000                                                                                                                          $146,242


1/16/2009    Texas Capital Bancshares, Inc., Dallas, TX                        Preferred Stock w/ Warrants                       $75,000,000     5/13/2009     $75,000,000             —     3/11/2010        A      $6,709,061.00       $25.83                     $1,218,750


1/9/2009     Texas National Bancorporation, Jacksonville, TX2                  Preferred Stock w/ Exercised Warrants              $3,981,000     5/19/2010      $3,981,000             —     5/19/2010        R       $199,000.00                                     $295,308

                                                 2
8/7/2009     The ANB Corporation, Terrell, TX                                  Preferred Stock w/ Exercised Warrants             $20,000,000                                                                                                                        $1,931,722


12/12/2008 The Bancorp, Inc., Wilmington, DE                                   Preferred Stock w/ Warrants                       $45,220,000     3/10/2010     $45,220,000             —      9/8/2010        R      $4,753,984.55       $10.45                     $2,813,689


2/6/2009     The Bank of Currituck, Moyock, NC2,34                             Preferred Stock w/ Exercised Warrants              $4,021,000     12/3/2010      $1,742,850             —           N/A       —                 N/A                                    $169,834


2/13/2009    The Bank of Kentucky Financial Corporation, Crestview Hills, KY   Preferred Stock w/ Warrants                       $34,000,000    12/22/2010     $17,000,000    $17,000,000                                                $22.27       274,784       $3,496,805


10/28/2008 The Bank of New York Mellon Corporation, New York, NY               Preferred Stock w/ Warrants                     $3,000,000,000    6/17/2009   $3,000,000,000            —      8/5/2009        R    $136,000,000.00       $25.62                    $95,416,667

                                                          2
1/16/2009    The Baraboo Bancorporation, Baraboo, WI                           Preferred Stock w/ Exercised Warrants             $20,749,000                                                                                              $5.95                     $2,635,347
                                                                                                                                                                                                                                                                                   Transaction detail I Appendix D I july 28, 2011




12/19/2008 The Connecticut Bank and Trust Company, Hartford, CT                Preferred Stock w/ Warrants                        $5,448,000                                                                                              $6.54       175,742         $476,700


12/19/2008 The Elmira Savings Bank, FSB, Elmira, NY                            Preferred Stock w/ Warrants                        $9,090,000                                                                                             $16.99       116,538       $1,093,325


                                                                                                                                                                                                                                                         Continued on next page.
                                                                                                                                                                                                                                                                                   227
 CPP Transaction Detail, as oF 6/30/2011                                                                (continued)                                                                                                                                                                       228


                                                                                                                                                           Capital          Capital    Remaining         Final                              Stock Price       Current       Dividends/
Purchase                                                                                                                                   Investment   Repayment        Repayment       Capital   Disposition            Final Disposition       as of   Outstanding    Interest Paid
Date          Institution                                                             Investment Description                                  Amount         Date          Amount6       Amount          Date    Note15          Proceeds 6/30/2011         Warrantsa      to Treasury

1/9/2009      The First Bancorp, Inc., Damariscotta, ME                               Preferred Stock w/ Warrants                        $25,000,000                                                                                            $14.86       225,904       $2,937,500


2/6/2009      The First Bancshares, Inc., Hattiesburg, MS30                           Preferred Stock w/ Warrants                          $5,000,000   9/29/2010         $5,000,000          —                                                  $9.93        54,705         $411,806


2/6/2009      The Freeport State Bank, Harper, KS2                                    Preferred Stock w/ Exercised Warrants                 $301,000                                                                                                                           $8,610


10/28/2008 The Goldman Sachs Group, Inc., New York, NY                                Preferred Stock w/ Warrants                     $10,000,000,000   6/17/2009    $10,000,000,000          —     7/22/2009        R $1,100,000,000.00       $133.09                  $318,055,555


5/22/2009     The Landrum Company, Columbia, MO2                                      Preferred Stock w/ Exercised Warrants              $15,000,000                                                                                                                       $1,619,104


12/23/2008 The Little Bank, Incorporated, Kinston, NC2                                Preferred Stock w/ Exercised Warrants                $7,500,000                                                                                            $9.98                       $978,730


12/31/2008 The PNC Financial Services Group Inc., Pittsburgh, PA                      Preferred Stock w/ Warrants                      $7,579,200,000   2/10/2010     $7,579,200,000          —     4/29/2010        A    $324,195,686.40       $59.61                  $421,066,667

                                                                         2
2/20/2009     The Private Bank of California, Los Angeles, CA                         Preferred Stock w/ Exercised Warrants                $5,450,000                                                                                                                        $664,282


1/9/2009      The Queensborough Company, Louisville, GA2                              Preferred Stock w/ Exercised Warrants              $12,000,000                                                                                                                         $882,900
                                                                                                                                                                                                                                                                                          Appendix D I Transaction Detail I july 28, 2011




9/4/2009      The State Bank of Bartley, Bartley, NE8,10                              Subordinated Debentures w/ Exercised Warrants        $1,697,000                                                                                                                        $233,719


12/11/2009 The Victory Bancorp, Inc., Limerick, PA2,10a,c                             Preferred Stock w/ Exercised Warrants                $1,505,000
                                                                                                                                                                                                                                                                             $177,157
                                                                             2,13,c
2/27/2009     The Victory Bancorp, Inc. (The Victory Bank), Limerick, PA              Preferred Stock w/ Exercised Warrants                 $541,000

              Three Shores Bancorporation, Inc. (Seaside National Bank &
1/23/2009                                                                             Preferred Stock w/ Exercised Warrants                $5,677,000                                                                                            $0.18                       $715,081
              Trust), Orlando, FL2,13

                                             32
12/5/2008     TIB Financial Corp, Naples, FL                                          Preferred Stock w/ Warrants                        $37,000,000    9/30/2010       $12,119,637           —     9/30/2010        R         $40,000.00       $13.42                     $1,284,722


12/19/2008 Tidelands Bancshares, Inc, Mt. Pleasant, SC                                Preferred Stock w/ Warrants                        $14,448,000                                                                                             $0.18       571,821       $1,195,973


4/17/2009     Tifton Banking Company, Tifton, GA2,25a                                 Preferred Stock w/ Exercised Warrants                $3,800,000                                                                                                                        $223,208


12/23/2008 Timberland Bancorp, Inc., Hoquiam, WA                                      Preferred Stock w/ Warrants                        $16,641,000                                                                                             $5.91                       $952,236

                                                         2
4/3/2009      Titonka Bancshares, Inc, Titonka, IA                                    Preferred Stock w/ Exercised Warrants                $2,117,000                                                                                                                        $244,242

                                                             2
2/6/2009      Todd Bancshares, Inc., Hopkinsville, KY                                 Preferred Stock w/ Exercised Warrants                $4,000,000                                                                                                                        $495,950


12/12/2008 TowneBank, Portsmouth, VA                                                  Preferred Stock w/ Warrants                        $76,458,000                                                                                            $13.38                     $9,270,533


1/16/2009     Treaty Oak Bancorp, Inc., Austin, TX2,36                                Warrants                                             $3,268,000   2/15/2011          $500,000           —                                                  $0.25     3,098,341         $192,415

                                                     2
3/27/2009     Triad Bancorp, Inc., Frontenac, MO                                      Preferred Stock w/ Exercised Warrants                $3,700,000                                                                                                                        $430,187

                                                                     2
12/19/2008 Tri-County Financial Corporation, Waldorf, MD                              Preferred Stock w/ Exercised Warrants              $15,540,000                                                                                                                       $2,037,338


3/27/2009     Trinity Capital Corporation, Los Alamos, NM2                            Preferred Stock w/ Exercised Warrants              $35,539,000                                                                                                                       $4,171,086


4/3/2009      Tri-State Bank of Memphis, Memphis, TN2,3,30                            Preferred Stock                                      $2,795,000   8/13/2010         $2,795,000          —           N/A       —                 N/A                                    $190,215

                                                                     2
2/27/2009     TriState Capital Holdings, Inc., Pittsburgh, PA                         Preferred Stock w/ Exercised Warrants              $23,000,000                                                                                                                       $2,782,768

                                               2,c
4/3/2009      TriSummit Bank, Kingsport, TN                                           Preferred Stock w/ Exercised Warrants                $2,765,000
                                                                                                                                                                                                                                                                             $614,920
12/22/2009 TriSummit Bank, Kingsport, TN2,10a,c                                       Preferred Stock                                      $4,237,000


11/21/2008 Trustmark Corporation, Jackson, MS                                         Preferred Stock w/ Warrants                       $215,000,000    12/9/2009      $215,000,000           —    12/30/2009        R     $10,000,000.00       $23.41                    $11,287,500

                                                                 2
5/29/2009     Two Rivers Financial Group, Burlington, IA                              Preferred Stock w/ Exercised Warrants              $12,000,000                                                                                            $15.75                     $1,282,567


                                                                                                                                                                                                                                                                Continued on next page.
 CPP Transaction Detail, as oF 6/30/2011                                                         (continued)



                                                                                                                                                   Capital         Capital    Remaining          Final                              Stock Price       Current       Dividends/
Purchase                                                                                                                           Investment   Repayment       Repayment       Capital    Disposition            Final Disposition       as of   Outstanding    Interest Paid
Date          Institution                                                      Investment Description                                 Amount         Date         Amount6       Amount           Date    Note15          Proceeds 6/30/2011         Warrantsa      to Treasury

11/14/2008 U.S. Bancorp, Minneapolis, MN                                       Preferred Stock w/ Warrants                     $6,599,000,000    6/17/2009   $6,599,000,000           —     7/15/2009        R    $139,000,000.00       $25.51                  $195,220,417

                                            2
8/7/2009      U.S. Century Bank, Miami, FL                                     Preferred Stock w/ Exercised Warrants             $50,236,000                                                                                                                         $745,312


1/30/2009     UBT Bancshares, Inc., Marysville, KS2                            Preferred Stock w/ Exercised Warrants              $8,950,000                                                                                                                       $1,118,334


11/14/2008 UCBH Holdings, Inc., San Francisco, CA14                            Preferred Stock w/ Warrants                      $298,737,000                                                                                             $0.01     7,847,732       $7,509,920


11/14/2008 Umpqua Holdings Corp., Portland, OR                                 Preferred Stock w/ Warrants                      $214,181,000     2/17/2010    $214,181,000            —     3/31/2010        R      $4,500,000.00       $11.57                    $13,475,555

                                                               2,c
5/1/2009      Union Bank & Trust Company, Oxford, NC                           Preferred Stock w/ Exercised Warrants              $3,194,000
                                                                                                                                                                                                                                                                     $566,009
12/18/2009 Union Bank & Trust Company, Oxford, NC2,10a,c                       Preferred Stock                                    $2,997,000


12/29/2009 Union Financial Corporation, Albuquerque, NM2,10                    Preferred Stock w/ Exercised Warrants              $2,179,000                                                                                                                         $158,169

              Union First Market Bankshares Corporation (First Market Bank,
2/6/2009                                                                       Preferred Stock                                   $33,900,000                                                                                            $12.18                     $4,203,177
              FSB), Bowling Green, VA18

              Union First Market Bankshares Corporation (Union Bankshares
12/19/2008                                                                     Preferred Stock w/ Warrants                       $59,000,000    11/18/2009     $59,000,000            —    12/23/2009        R       $450,000.00        $12.18                     $2,695,972
              Corporation), Bowling Green, VA18

                                                       2
2/20/2009     United American Bank, San Mateo, CA                              Preferred Stock w/ Exercised Warrants              $8,700,000                                                                                                                                —


1/16/2009     United Bancorp, Inc., Tecumseh, MI                               Preferred Stock w/ Warrants                       $20,600,000                                                                                             $8.83       311,492       $2,400,472


12/23/2008 United Bancorporation of Alabama, Inc., Atmore, AL30                Preferred Stock w/ Warrants                       $10,300,000      9/3/2010     $10,300,000            —                                                              108,264         $872,639


5/22/2009     United Bank Corporation, Barnesville, GA8                        Subordinated Debentures w/ Exercised Warrants     $14,400,000                                                                                                                       $2,392,831


12/5/2008     United Community Banks, Inc., Blairsville, GA                    Preferred Stock w/ Warrants                      $180,000,000                                                                                            $10.56     1,099,542      $22,018,750

                                                                          2
1/16/2009     United Financial Banking Companies, Inc., Vienna, VA             Preferred Stock w/ Exercised Warrants              $5,658,000    12/15/2010      $3,000,000    $2,658,000                                                $15.43                       $656,174


12/5/2008     Unity Bancorp, Inc., Clinton, NJ                                 Preferred Stock w/ Warrants                       $20,649,000                                                                                             $6.79                     $2,523,767


5/22/2009     Universal Bancorp, Bloomfield, IN2                               Preferred Stock w/ Exercised Warrants              $9,900,000                                                                                                                       $1,068,609

                                                                 3,8,30
6/19/2009     University Financial Corp, Inc., St. Paul, MN                    Subordinated Debentures                           $11,926,000     7/30/2010     $11,926,000            —           N/A       —                 N/A                                  $1,022,886

                                                   2
2/6/2009      US Metro Bank, Garden Grove, CA                                  Preferred Stock w/ Exercised Warrants              $2,861,000                                                                                             $2.60                       $354,718


12/23/2008 Uwharrie Capital Corp, Albemarle, NC2                               Preferred Stock w/ Exercised Warrants             $10,000,000                                                                                             $4.00                     $1,304,972


1/30/2009     Valley Commerce Bancorp, Visalia, CA2                            Preferred Stock w/ Exercised Warrants              $7,700,000                                                                                             $8.59                       $961,698

                                                           2
1/9/2009      Valley Community Bank, Pleasanton, CA                            Preferred Stock w/ Exercised Warrants              $5,500,000                                                                                             $2.00                       $629,476


12/12/2008 Valley Financial Corporation, Roanoke, VA                           Preferred Stock w/ Warrants                       $16,019,000                                                                                             $5.18       344,742         $941,117


12/18/2009 Valley Financial Group, Ltd., 1st State Bank, Saginaw, MI2          Preferred Stock w/ Exercised Warrants              $1,300,000                                                                                                                          $99,780


                                                                                                                                                  6/3/2009     $75,000,000 $225,000,000     5/18/2010        A


11/14/2008 Valley National Bancorp, Wayne, NJ                                  Preferred Stock w/ Warrants                      $300,000,000     9/23/2009    $125,000,000 $100,000,000     5/19/2010        A      $5,571,592.40       $13.61                    $12,979,167

                                                                                                                                                12/23/2009    $100,000,000            —     5/20/2010        A
                                                                                                                                                                                                                                                                                  Transaction detail I Appendix D I july 28, 2011




6/26/2009     Veritex Holdings, Inc. (Fidelity Resources Company), Dallas, TX2,40 Preferred Stock w/ Exercised Warrants           $3,000,000                                                                                                                         $308,379


5/1/2009      Village Bank and Trust Financial Corp, Midlothian, VA            Preferred Stock w/ Warrants                       $14,738,000                                                                                             $2.30       499,029       $1,318,232


                                                                                                                                                                                                                                                        Continued on next page.
                                                                                                                                                                                                                                                                                  229
 CPP Transaction Detail, as oF 6/30/2011                                                          (continued)                                                                                                                                                                 230


                                                                                                                                             Capital          Capital     Remaining          Final                              Stock Price       Current        Dividends/
Purchase                                                                                                                     Investment   Repayment        Repayment        Capital    Disposition            Final Disposition       as of   Outstanding     Interest Paid
Date          Institution                                                       Investment Description                          Amount         Date          Amount6        Amount           Date    Note15          Proceeds 6/30/2011         Warrantsa       to Treasury

12/12/2008 Virginia Commerce Bancorp, Arlington, VA                             Preferred Stock w/ Warrants                $71,000,000                                                                                               $5.91     2,696,203       $8,608,750


6/12/2009     Virginia Company Bank, Newport News, VA2,10                       Preferred Stock w/ Exercised Warrants        $4,700,000                                                                                              $3.00                       $477,150


4/24/2009     Vision Bank — Texas, Richardson, TX2                              Preferred Stock w/ Exercised Warrants        $1,500,000                                                                                                                          $168,269


12/19/2008 VIST Financial Corp., Wyomissing, PA                                 Preferred Stock w/ Warrants                $25,000,000                                                                                               $7.01                     $3,006,944


1/30/2009     W.T.B. Financial Corporation, Spokane, WA2                        Preferred Stock w/ Exercised Warrants     $110,000,000                                                                                             $114.00                    $13,738,541


12/11/2009 Wachusett Financial Services, Inc., Clinton, MA2,10                  Preferred Stock w/ Exercised Warrants      $12,000,000                                                                                                                           $918,090


12/19/2008 Wainwright Bank & Trust Company, Boston, MA                          Preferred Stock w/ Warrants                $22,000,000    11/24/2009      $22,000,000             —    12/16/2009        R       $568,700.00                                   $1,023,611


1/16/2009     Washington Banking Company, Oak Harbor, WA                        Preferred Stock w/ Warrants                $26,380,000     1/12/2011      $26,380,000             —      3/2/2011        R      $1,625,000.00       $13.22                     $2,623,344


11/14/2008 Washington Federal, Inc., Seattle, WA                                Preferred Stock w/ Warrants               $200,000,000     5/27/2009     $200,000,000             —      3/9/2010        A     $15,623,222.40       $16.43                     $5,361,111
                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I july 28, 2011




10/30/2009 WashingtonFirst Bankshares, Inc., Reston, VA2,10a,c                  Preferred Stock                              $6,842,000
                                                                                                                                                                                                                                    $11.00                     $1,355,910
              WashingtonFirst Bankshares, Inc. (WashingtonFirst Bank),
1/30/2009                                                                       Preferred Stock w/ Exercised Warrants        $6,633,000
              Reston, VA2,13,c

6/26/2009     Waukesha Bankshares, Inc., Waukesha, WI2,10                       Preferred Stock w/ Exercised Warrants        $5,625,000                                                                                                                          $559,156


                                                                                                                                            3/3/2010     $100,000,000 $300,000,000

                                                             n
11/21/2008 Webster Financial Corporation, Waterbury, CT                         Preferred Stock w/ Warrants               $400,000,000    10/13/2010     $100,000,000 $200,000,000       6/2/2011        A     $20,678,338.80       $21.02                    $36,944,444


                                                                                                                                          12/29/2010     $200,000,000             —


10/28/2008 Wells Fargo & Company, San Francisco, CA                             Preferred Stock w/ Warrants             $25,000,000,000   12/23/2009   $25,000,000,000            —     5/20/2010        A    $849,014,997.60       $28.06                  $1,440,972,222


12/5/2008     WesBanco, Inc., Wheeling, WV                                      Preferred Stock w/ Warrants                $75,000,000      9/9/2009      $75,000,000             —    12/23/2009        R       $950,000.00        $19.66                     $2,854,167


12/31/2008 West Bancorporation, Inc., West Des Moines, IA                       Preferred Stock w/ Warrants                $36,000,000     6/29/2011      $36,000,000             —                                                  $8.81                     $4,495,000


                                                                                                                                            9/2/2009      $41,863,000    $41,863,000
2/13/2009     Westamerica Bancorporation, San Rafael, CA                        Preferred Stock w/ Warrants                $83,726,000                                                                                              $49.25                     $2,755,981
                                                                                                                                          11/18/2009      $41,863,000             —


11/21/2008 Western Alliance Bancorporation, Las Vegas, NV                       Preferred Stock w/ Warrants               $140,000,000                                                                                               $7.10       787,107      $17,383,333

                                                                            2
12/23/2008 Western Community Bancshares, Inc., Palm Desert, CA                  Preferred Stock w/ Exercised Warrants        $7,290,000                                                                                                                          $554,083

                                                                 2,c
12/23/2008 Western Illinois Bancshares Inc., Monmouth, IL                       Preferred Stock w/ Exercised Warrants        $6,855,000
                                                                                                                                                                                                                                                               $1,209,229
12/29/2009 Western Illinois Bancshares Inc., Monmouth, IL2,10a,c                Preferred Stock                              $4,567,000


5/15/2009     Western Reserve Bancorp, Inc., Medina, OH2                        Preferred Stock w/ Exercised Warrants        $4,700,000                                                                                             $13.70                       $512,300

                                                                        2
2/20/2009     White River Bancshares Company, Fayetteville, AR                  Preferred Stock w/ Exercised Warrants      $16,800,000                                                                                                                         $1,589,583

                                                                 45,m
12/19/2008 Whitney Holding Corporation, New Orleans, LA                         Preferred Stock w/ Warrants               $300,000,000      6/3/2011     $300,000,000             —      6/3/2011        R      $6,900,000.00                                 $36,833,333


12/12/2008 Wilshire Bancorp, Inc., Los Angeles, CA                              Preferred Stock w/ Warrants                $62,158,000                                                                                               $2.94       949,460       $7,536,658


12/19/2008 Wintrust Financial Corporation, Lake Forest, IL                      Preferred Stock w/ Warrants               $250,000,000    12/22/2010     $250,000,000             —      2/8/2011        A     $25,964,061.00       $32.18                    $25,104,167

                                                                        2
5/15/2009     Worthington Financial Holdings, Inc., Huntsville, AL              Preferred Stock w/ Exercised Warrants        $2,720,000                                                                                                                          $296,480


                                                                                                                                                                                                                                                    Continued on next page.
 CPP Transaction Detail, as oF 6/30/2011                                                          (continued)



                                                                                                                                                                         Capital                 Capital        Remaining               Final                                 Stock Price             Current          Dividends/
Purchase                                                                                                                                          Investment          Repayment               Repayment           Capital         Disposition               Final Disposition       as of         Outstanding       Interest Paid
Date           Institution                                                       Investment Description                                              Amount                Date                 Amount6           Amount                Date     Note15            Proceeds 6/30/2011               Warrantsa         to Treasury

1/23/2009      WSFS Financial Corporation, Wilmington, DE                        Preferred Stock w/ Warrants                                    $52,625,000                                                                                                                           $39.65          175,105         $6,081,112


1/16/2009      Yadkin Valley Financial Corporation, Elkin, NCc                   Preferred Stock w/ Warrants                                    $36,000,000                                                                                                                                           385,990
                                                                                                                                                                                                                                                                                        $2.09                         $4,782,227
7/24/2009      Yadkin Valley Financial Corporation, Elkin, NCc                   Preferred Stock w/ Warrants                                    $13,312,000                                                                                                                                           273,534


4/24/2009      York Traditions Bank, York, PA2                                   Preferred Stock w/ Exercised Warrants                            $4,871,000                                                                                                                                                            $546,508


11/14/2008 Zions Bancorporation, Salt Lake City, UT                              Preferred Stock w/ Warrants                                 $1,400,000,000                                                                                                                           $24.01        5,789,909      $175,194,444


                                                                                                                                                                     Total Capital
                                                                                                           Total Purchase Amount * $204,943,827,320                   Repayment      $180,553,774,563
                                                                                                                                                                       Amount**


                                                                                                                                              Total Treasury CPP Invesment                                                               Total Warrant
                                                                                                                                                                                       $24,390,052,757                                                      $7,539,055,553
                                                                                                                                                               Outstanding                                                               Proceeds***


Notes: Numbers may not total due to rounding. Data as of 6/30/2011. Asterisks and numbered notes were taken verbatim from Treasury’s 7/1/2011 Transactions Report. All amounts and totals reflect cumulative reflect cumulative receipts since inception through 6/30/2011.			
									
*	Total purchase amount includes the capitalization of accrued dividends referred to in Notes 20, 22, 28 and 29.
**	Total repaid includes (i) the amount of $25 billion applied as repayment under the Capital Purchase Program from the total proceeds of $31.85 billion received pursuant to the sales of Citigroup, Inc. common stock as of December 6, 2010 (see Note 23 and “Capital Purchase Program - Citigroup Common
        Stock Disposition”.
***	Total warrant proceeds includes $7,566,000, which represents the total amount of warrants that were included in nine institutions’ exchange into the CDCI program (see Note 30a).

1a
  	This transaction was included in previous Transaction Reports with Merrill Lynch & Co., Inc. listed as the qualifying institution and a 10/28/2008 transaction date, footnoted to indicate that settlement was deferred pending merger. The purchase of Merrill Lynch by Bank of America was completed on 1/1/2009, and
     this transaction under the CPP was funded on 1/9/2009.
1b
   	The warrant disposition proceeds amount are stated pro rata in respect of the CPP investments in Bank of America Corporation that occurred on 10/28/2008 and 1/9/2009. The total gross disposition proceeds from CPP warrants on 3/3/2010 was $310,571,615, consisting of $186,342,969 and
     $124,228,646. Proceeds from the disposition of TIP warrants on 3/3/2010 appear on a following page of this report.
2
 	 Privately-held qualified financial institution; Treasury received a warrant to purchase additional shares of preferred stock (unless the institution is a CDFI), which it exercised immediately.
3
 	To promote community development financial institutions (CDFIs), Treasury does not require warrants as part of its investment in certified CDFIs when the size of the investment is $50 million or less.
3a
  	Treasury cancelled the warrants received from this institution due to its designation as a CDFI.
4
 	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009.
5
 	 Redemption pursuant to a qualified equity offering.
6
 	This amount does not include accrued and unpaid dividends, which must be paid at the time of capital repayment.
7
 	The proceeds associated with the disposition of this investment do not include accrued and unpaid dividends.
8
 	 Subchapter S corporation; Treasury received a warrant to purchase additional subordinated debentures (unless the institution is a CDFI), which it exercised immediately.
9
 	In its qualified equity offering, this institution raised more capital than Treasury’s original investment, therefore, the number of Treasury’s shares underlying the warrant was reduced by half.
10
   	This institution participated in the expansion of CPP for small banks.
10a
    	This institution received an additional investment through the expansion of CPP for small banks.
11
   	Treasury made three separate investments in Citigroup Inc. (Citigroup) under the CPP, Targeted Investment Program (TIP), and Asset Guarantee Program (AGP) for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange up to $25 billion of Treasury’s investment in Fixed
     Rate Cumulative Perpetual Preferred Stock, Series H (CPP Shares) “dollar for dollar” in Citigroup’s Private and Public Exchange Offerings. On 7/23/2009 and 7/30/2009, Treasury exchanged a total of $25 billion of the CPP shares for Series M Common Stock Equivalent (“Series M”) and a warrant to purchase
     shares of Series M. On 9/11/2009, Series M automatically converted to 7,692,307,692 shares of common stock and the associated warrant terminated on receipt of certain shareholder approvals.
12
   	On 8/24/2009, Treasury exchanged its Series C Preferred Stock issued by Popular, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Popular Capital Trust III, administrative trustee for Popular, Inc. Popular, Inc. paid a $13 million exchange fee in connection with this transaction.
13
   	This institution converted to a bank holding company structure and Treasury exchanged its securities for a like amount of securities that comply with the CPP terms applicable to bank holding companies. The institution in which Treasury’s original investment was made is shown in parentheses.
14
   	As of the date of this report, this institution is in bankruptcy proceedings.
15
   	 For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution, and “A” represents the proceeds to Treasury, before underwriting fees and selling expenses, from a sale by Treasury in a registered public offering of the warrants issued by the financial institution.
16
   	On 12/10/2009, the bankruptcy reorganization plan of CIT Group Inc. became effective and Treasury’s preferred stock and warrant investment were extinguished and replaced by Contingent Value Rights (CVRs). On 2/8/2010, the CVRs expired without value as the terms and conditions for distribution of common
     shares to holders of CVRs were not met.
17
   	On 12/11/2009, Treasury exchanged its Series A Preferred Stock issued by Superior Bancorp, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Superior Capital Trust II, administrative trustee for Superior Bancorp.
18
   	On 2/1/2010, following the acquisition of First Market Bank (First Market) by Union Bankshares Corporation (the acquiror), the preferred stock and exercised warrants issued by First Market on 2/6/2009 were exchanged for a like amount of securities of the acquiror in a single series but with a blended dividend rate
     equivalent to those of Treasury’s original investment.
19
   	On 2/11/2010, Pacific Coast National Bancorp dismissed its bankruptcy proceedings with no recovery to any creditors or investors, including Treasury, and the investment was extinguished.
20
   	On 3/8/2010, Treasury exchanged its $84,784,000 of Preferred Stock in Midwest Banc Holdings, Inc. (MBHI) for $89,388,000 of Mandatory Convertible Preferred Stock (MCP), which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and unpaid
     dividends. Subject to the fulfillment by MBHI of the conditions related to its capital plan, the MCP may be converted to common stock.
21
   	On 3/30/2010, Treasury exchanged its $7,500,000 of Subordinated Debentures in GulfSouth Private Bank for an equivalent amount of Preferred Stock, in connection with its conversion from a Subchapter S-Corporation, that comply with the CPP terms applicable to privately held qualified financial institutions.
22
   	On 4/16/2010, Treasury exchanged its $72,000,000 of Preferred Stock in Independent Bank Corporation (Independent) for $74,426,000 of Mandatory Convertible Preferred Stock (MCP), which is equivalent to the initial investment amount of $72,000,000, plus $2,426,000 of capitalized previously accrued and
     unpaid dividends. Subject to the fulfillment by Independent of the conditions related to its capital plan, the MCP may be converted to common stock.
23
   	Treasury received Citigroup common stock pursuant to the June 2009 Exchange Agreement between Treasury and Citigroup which provided for the exchange into common shares of the preferred stock that Treasury purchased in connection with Citigroup’s participation in the Capital Purchase Program (see note
     11). On April 26, 2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on June 30, 2010 (or on completion of the sale).
     Completion of the sale under this authority occurred on May 26, 2010. On May 26, 2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on June 30,
     2010 (or on completion of the sale). Completion of the sale under this authority occurred on June 30, 2010. On July 23, 2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time
     during the period ending on September 30, 2010 (or on completion of the sale). Completion of the sale under this authority occurred on September 30, 2010. On October 19, 2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to
     certain parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on December 31, 2010 (or upon completion of the sale), which plan was terminated on December 6, 2010. All such sales were generally made at the market price. On December 6, 2010, Treasury
     commenced an underwritten public offering of its remaining 2,417,407,607 shares. See “Capital Purchase Program - Citigroup, Inc., Common Stock Disposition” on following page for the actual number of shares sold by Morgan Stanley, the weighted average price per share and the total proceeds to Treasury from
     all such sales during those periods.
24
   	On 8/26/2010, Treasury completed the exchange of its $303,000,000 of Preferred Stock in Sterling Financial Corporation (Sterling) for a like amount of Mandatorily Convertible Preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Sterling entered into on 4/29/2010.
                                                                                                                                                                                                                                                                                                                                       Transaction detail I Appendix D I july 28, 2011




     Since Sterling also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, including those related to its capital plan, Treasury’s $303,000,000 of MCP was subsequently, as of 8/26/2010, converted into 378,750,000 shares of common stock.
25
   	As of the date of this report, the banking subsidiary of this institution has been placed in receivership and the subsidiary’s assets and liabilities were ordered to be sold to another bank.
25a
    	As of the date of this report, this institution has been placed in receivership and the assets and liabilities were ordered to be sold to another bank.
                                                                                                                                                                                                                                                                                                                                       231
Endnotes, continued


                                                                                                                                                                                                                                                                                                                               232
26
   	On 9/30/2010, Treasury completed the sale of all Preferred Stock and Warrants issued by South Financial Group, Inc. to Toronto-Dominion Bank (TD) at an aggregate purchase price of $130,179,218.75 for the Preferred Stock and $400,000 for the Warrants, pursuant to the terms of the agreement between
    Treasury and TD entered into on 5/18/2010.
27
   	On 6/30/2010, Treasury exchanged $46,400,000 of its Series A Preferred Stock in First Merchants Corporation for a like amount of non tax-deductible Trust Preferred Securities issued by First Merchants Capital Trust III.
28
   	On 7/20/2010, Treasury completed the exchange of its $400,000,000 of Preferred Stock in First BanCorp for $424,174,000 of Mandatorily Convertible Preferred Stock (MCP), which is equivalent to the initial investment amount of $400,000,000, plus $24,174,000 of capitalized previously accrued and unpaid
    dividends. Subject to the fulfillment by First BanCorp of certain conditions, including those related to its capital plan, the MCP may be converted to common stock. First BanCorp has agreed to have Treasury observers attend board of directors meetings.
29
   	On 8/31/2010, following the completion of the conditions related to Pacific Capital Bancorp’s (Pacific Capital) capital plan, Treasury exchanged its $180,634,000 of Preferred Stock in Pacific Capital for $195,045,000 of Mandatorily Convertible Preferred Stock (MCP), which is equivalent to the initial investment
    amount of $180,634,000, plus $14,411,000 of capitalized previously accrued and unpaid dividends. On 9/27/2010, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 360,833,250 shares of common stock of
    Pacific Capital. Pacific Capital has agreed to have Treasury observers attend board of directors meetings.
30
   	This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has completed an exchange of its Capital Purchase Program investment for an investment under the terms of the CDCI program. See “Community Development Capital Initiative” below.
30a
   	At the time of this institution’s exchange into the CDCI program, the warrant preferreds were included in the total amount of preferred stock exchanged for Treasury’s CDCI investment. Therefore this disposition amount does not represent cash proceeds to Treasury.
31
   	On 9/30/2010, Treasury completed the exchange of its $80,347,000 of Preferred Stock in Hampton Roads Bankshares, Inc. (Hampton) for a like amount of Mandatorily Convertible Preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Hampton entered into on
    8/12/2010. Since Hampton also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, Treasury’s $80,347,000 of MCP was subsequently converted into 52,225,550 shares of common stock.
32
   	On 9/30/2010, Treasury completed the sale of all Preferred Stock and Warrants issued by TIB Financial Corp. to North American Financial Holdings, Inc. (NAFH) at an aggregate purchase price of $12,119,637.37 for the Preferred Stock and $40,000 for the Warrants, pursuant to the terms of the agreement
    between Treasury and NAFH entered into on 9/24/2010.
33
   	On 3/4/2011, Treasury completed the sale to Community Bancorp LLC (“CBC”) of all Preferred Stock and Warrants issued by Cadence Financial Corporation (“Cadence”) to Treasury for an aggregate purchase price of $39,014,062.50, pursuant to the terms of the agreement between Treasury and CBC entered
    into on 10/29/2010.
34
   	On 12/3/2010, Treasury completed the sale of all Preferred Stock (including the Preferred Stock received upon the exercise of warrants) issued by The Bank of Currituck (“Currituck”) to Treasury for an aggregate purchase price of $1,742,850, pursuant to the terms of the agreement between Treasury and Cur-
    rituck entered into on 11/5/2010.
35
   	Treasury entered into an agreement on 1/28/2011 with North American Financial Holdings, Inc. for the sale of all Preferred Stock and Warrants issued by Capital Bank Corporation to Treasury for an aggregate purchase price of $41,279,000. Since the conditions to closing of the sale were satisfied, the closing
    of the sale also occurred on 1/28/2011.
36
   	On 2/15/2011, Treasury completed the sale of all Preferred Stock (including the Preferred Stock received upon the exercise of warrants) issued by Treaty Oak Bancorp (“Treaty Oak”) to Treasury for (i) a cash payment of $500,000, (ii) the right to receive up to $150,000 in principal payments on a note payable by
    Carlile Bancshares, Inc. in favor of Treaty Oak, and (iii) a newly issued warrant to purchase 3,098,341 shares of Treaty Oak common stock, pursuant to the terms of the agreement between Treasury and Treaty Oak entered into on 2/15/2011.
37
   	On 2/18/11, Treasury completed the exchange of its $135,000,000 of Preferred Stock (including accrued and unpaid dividends thereon) in Central Pacific Financial Corp.for not less than 5,620,117 shares of common stock, pursuant to an exchange agreement dated 2/17/2011.
38
   	On 3/9/2011, Treasury completed the sale of all Subordinated Debentures (including the Subordinated Debentures received upon the exercise of warrants) issued by FBHC Holding Company (“FBHC”) to Treasury for an aggregate purchase price of $650,000, pursuant to the terms of the agreement between
    Treasury and FBHC entered into on 3/9/2011.
39
   	On 5/31/2011, Treasury completed the sale of all Preferred Stock and Warrants issued by First Community Bank Corporation of America (FCBCA) for an aggregate purchase price of (i) $7.20 million plus (ii) 72% of the remaining cash assets after giving effect to the payment of defined acquisition expenses,
    debts, liabilities and distributions to other classes of security holders, pursuant to the terms of the agreement between Treasury and FCBCA entered into on 3/11/2011.
40
   	As a result of the acquisition of Fidelity Resources Company (the acquired company) by Veritex Holdings, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/26/2009 were exchanged for a like amount of securities of the acquiror, pursuant to the terms of an
    agreement among Treasury, the acquired company and the acquiror entered into on 3/23/2011.
41
   	As a result of the acquisition of NC Bancorp, Inc. (the acquired company) by Metropolitan Bank Group, Inc. (the acquiror), Treasury exchanged $6,880,000 of its preferred stock in NC Bancorp, Inc. and $71,526,000 of its preferred stock in Metropolitan Bank Group, Inc. for $81,892,000 of a new series of
    preferred stock in Metropolitan Bank Group, Inc., which is equivalent to the combined initial investment amount of $78,406,000 plus $3,486,000 of capitalized previously accrued and unpaid dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on
                                                                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I july 28, 2011




    3/30/2011. Exercised warrants were also exchanged at the time of the agreement.
42
   	On 5/3/2011, Treasury completed the sale of all First Federal Bancshares of Arkansas, Inc. Preferred Stock and Warrants held by Treasury to Bear State Financial Holdings, LLC (“Bear State”) for an aggregate purchase price of $6,000,000.00, pursuant to the terms of the agreement between Treasury and Bear
    State entered into on 05/03/2011.
43
   	On 5/13/2011, Treasury completed the sale of all Wilmington Trust Corporation Preferred Stock held by Treasury to M&T Bank Corporation (“M&T”) for an aggregate purchase price of $330,000,000.00 plus accrued dividends and exchanged its Wilmington Trust Corporation Warrant for an equivalent Warrant
    issued by M&T Bank Corporation, pursuant to the terms of the agreement between Treasury and M&T entered into on 5/13/2010.
44
   	On 5/16/2011, Treasury entered into an agreement with Harris Financial Corp., a wholly-owned subsidiary of Bank of Montreal (“BMO”), for the sale of (i) all Marshall & Ilsley Corporation (“M&I”) Preferred Stock held by Treasury for a purchase price of $1,715,000,000 plus accrued dividends and (ii) the Treasury-
    held M&I Warrant for an amount equal to $3,250,000. Closing of the sale is subject to certain conditions.
45
   	On 6/3/2011, Treasury completed the sale of all Whitney Holding Corporation preferred stock and the related warrant held by Treasury to Hancock Holding Company (“HHC”) for an aggregate purchase price equal to (i) the par amount of the preferred stock ($300,000,000) plus accrued and unpaid dividends
    thereon and (ii) $6,900,000 for the warrant, pursuant to the terms of the agreement between Treasury and HHC entered into on 6/3/2011.
46
   	On 06/22/2011, Treasury completed the sale of 2,850,000 shares of common stock at $12.590625 per share (which represents the $12.75 public offering price less underwriting discounts) for net proceeds of $35,883,281.25 pursuant to an underwriting agreement executed on 06/17/2011.
47
   	On 6/30/2011, Treasury completed the sale of all Cascade Financial Corporation Preferred Stock held by Treasury and the related Warrant to Opus Acquisition, Inc. (“Opus”) for an aggregate purchase price of $16,250,000.00, pursuant to the terms of the agreement between Treasury and Opus entered into on
    06/28/2011.
48
   	On 6/29/2011, Treasury entered into an agreement with Carver Bancorp, Inc. to exchange Treasury’s $18,980,000 of preferred stock for an equivalent amount of common stock. The exchange is subject to the fulfillment by Carver Bancorp, Inc. of certain conditions, including the satisfactory completion of a
    capital plan.
	
a
  	According to Treasury, “if a Share Dividend is declared on a common stock of a bank in which Treasury holds outstanding warrants, Treasury is entitled to additional warrants. The ‘Update’ netted is the amount of new warrant shares that have been received as a result of the corporate action.” It appears that
    Treasury also adjusts the number of shares based on corporate actions as well. Those adjustments are also presented in the current number of outstanding warrants. Amounts are presented as of 6/30/2011.
b
  	According to Treasury, these institutions executed Qualified Equity Offerings which “reduce the number of outstanding warrants held by Treasury.”
c
  	Treasury made more than one investment in these institutions. For purposes of this table, income (dividends and interest), is presented on a combined basis because it could not be split between the two transactions based on the data provided by Treasury.
d
  	According to Treasury, M&T acquired Provident, therefore “warrant details changed as per the conversion ratio.” The previous investment in Provident now reflects M&T market data above.
e
  	According to Treasury, M&T acquired Wilmington therefore “warrant details changed as per the conversion ratio.” The previous investment in Wilmington now reflects M&T market data above.
f
  	According to Treasury, these institutions’ warrants were increased via stock dividend.
g
  	According to Treasury, these institutions executed a 1 to 10 reverse stock split.
h
  	According to Treasury, these institutions’ warrants increased via cash dividend.
i
 	According to Treasury, these institutions executed a 1 to 7 reverse stock split.
j
 	According to Treasury, these institutions executed a 2 to 1 reverse stock split.
k
  	According to Treasury, these institutions executed a 1 to 25 reverse stock split.
l
 	According to Treasury, these institutions’ warrants were sold back to Original QFI.
m
  	According to Treasury, these institutions’ warrants were sold to 3rd pary in QFI sale.
n
  	According to Treasury, these institutions’ warrants were sold into marketplace via auction.

Sources: Treasury, Transactions Report, 7/1/2011; Treasury, Dividend and Interest Report, 7/11/2011; Treasury, responses to SIGTARP data call, 7/8/2011; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 7/16/2011.
Table D.2

    CPP — Citigroup, Inc. Common Stock Disposition, as of 6/30/2011
    Note     Date                                        Pricing Mechanism6                     Number of Shares                                          Proceeds7
    1        4/26/2010 – 5/26/2010                                         $4.12                     1,500,000,000                                   $6,182,493,158
    2        5/26/2010 – 6/30/2010                                         $3.90                     1,108,971,857                                   $4,322,726,825
    3        7/23/2010 – 9/30/2010                                         $3.91                     1,500,000,000                                   $5,863,489,587
    4        10/19/2010 – 12/6/2010                                        $4.26                     1,165,928,228                                   $4,967,921,811
    5        12/6/10                                                       $4.35                     2,417,407,607                                  $10,515,723,090
                                                                                                     Total Proceeds                             $31,852,354,471

    Notes: Numbers may not total due to rounding. Data as of 6/30/2011. Numbered notes taken verbatim from 7/1/2011 Transactions Report.

    1
      On 4/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain param-
      eters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale). Completion
      of the sale under this authority occurred on 5/26/2010.
    2
      On 5/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell up to 1,500,000,000
      shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale). Completion of the sale under this author-
      ity occurred on 6/30/2010.
    3
      On 7/23/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain param-
      eters up to 1,500,000,000 shares of common stock from time to time during the period ending on 9/30/2010 (or upon completion of the sale). Completion
      of the sale under this authority occurred on 9/30/2010.
    4
      On 10/19/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
      parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 12/31/2010 (or upon completion of the sale),
      which plan was terminated on 12/6/2010.
    5
      On 12/6/2010, Treasury commenced an underwritten public offering of its remaining 2,417,407,607 shares. Closing of the offering is subject to the fulfill-
      ment of certain closing conditions.
    6
      The price set forth is the weighted average price for all sales of Citigroup, Inc. common stock made by Treasury over the course of the corresponding period.
    7
       Amount represents the gross proceeds to Treasury.

    Source: Treasury, Transactions Report, 7/1/2011.


Table D.3

 CDCI Program Transaction detail, as of 6/30/2011                                                                         (continued)
                                                     Seller                                                                      Purchase Details                                           Disposition Details

                                                                                                                                                         Additional     Investment                                Remaining        Dividend/Interest
Note       Purchase Date     Name of Institution                                   Investment Description              Amount from CPP                  Investment         Amount    Date          Amount Investment Amount        Paid to Treasurya

           9/24/10           Alternatives Federal Credit Union, Ithaca, NY         Subordinated Debentures                              —                       —       $2,234,000   Par                                                    $28,670
           9/17/10           American Bancorp of Illinois, Inc., Oak Brook, IL     Subordinated Debentures                              —                       —       $5,457,000   Par                                                   $111,838
           9/24/10           Atlantic City Federal Credit Union, Lander, WY        Subordinated Debentures                              —                       —       $2,500,000   Par                                                    $32,083
           9/24/10           Bainbridge Bancshares, Inc., Bainbridge GA            Preferred Stock                                      —                       —       $3,372,000   Par                                                    $43,274
           9/29/10           Bancorp of Okolona, Inc., Okolona, MS                 Subordinated Debentures                              —                       —       $3,297,000   Par                                                    $64,163
1, 2       9/29/10           BancPlus Corporation, Ridgeland, MS                   Preferred Stock                          $50,400,000             $30,514,000.00     $80,914,000   Par                                                 $1,015,920
           9/29/10           BankAsiana, Palisades Park, NJ                        Preferred Stock                                      —                       —       $5,250,000   Par                                                    $65,917
           9/29/10           Bethex Federal Credit Union , Bronx, NY               Subordinated Debentures                              —                       —        $502,000    Par                                                     $6,303
           9/29/10           Border Federal Credit Union, Del Rio, TX              Subordinated Debentures                              —                       —       $3,260,000   Par                                                    $40,931
           9/24/10           Brewery Credit Union, Milwaukee, WI                   Subordinated Debentures                              —                       —       $1,096,000   Par                                                    $14,065
                             Brooklyn Cooperative Federal Credit Union,
           9/30/10                                                                 Subordinated Debentures                              —                       —        $300,000    Par                                                     $3,750
                             Brooklyn, NY
                             Buffalo Cooperative Federal Credit Union, Buffalo,
           9/24/10                                                                 Subordinated Debentures                              —                       —        $145,000    Par                                                     $1,861
                             NY
           9/24/10           Butte Federal Credit Union, Biggs, CA                 Subordinated Debentures                              —                       —       $1,000,000   Par                                                    $12,833
           9/29/10           Carter Federal Credit Union, Springhill, LA           Subordinated Debentures                              —                       —       $6,300,000   Par                                                    $79,100
1          8/27/10           Carver Bancorp, Inc, New York, NY                     Preferred Stock                          $18,980,000                         —      $18,980,000   Par                                                    $82,247
           9/17/10           CFBanc Corporation, Washington, DC                    Preferred Stock                                      —                       —       $5,781,000   Par                                                    $76,438
1          8/13/10                                                                                                            $7,462,000                        —                    Par
                             Citizens Bancshares Corporation, Atlanta, GA          Preferred Stock                                                                     $11,841,000                                                         $170,659
2a         9/17/10                                                                                                                      —            $4,379,000.00                   Par
                             Community Bancshares of Mississippi, Inc.,
1          9/29/10                                                                 Preferred Stock                          $54,600,000                         —      $54,600,000   Par                                                   $685,533
                             Brandon, MS
1, 2       9/29/10           Community Bank of the Bay, Oakland, CA                Preferred Stock                            $1,747,000             $2,313,000.00      $4,060,000   Par                                                    $50,976
                             Community First Guam Federal Credit Union,
           9/24/10                                                                 Subordinated Debentures                              —                       —       $2,650,000   Par                                                    $34,008
                             Hagatna, GU
           9/29/10           Community Plus Federal Credit Union, Rantoul, IL      Subordinated Debentures                              —                       —        $450,000    Par                                                     $5,650
                                                                                                                                                                                                                                                        Transaction detail I Appendix D I july 28, 2011




                             Cooperative Center Federal Credit Union, Berkeley,
           9/24/10                                                              Subordinated Debentures                                 —                       —       $2,799,000   Par                                                    $35,921
                             CA
           9/29/10           D.C. Federal Credit Union, Washington, DC             Subordinated Debentures                              —                       —       $1,522,000   Par                                                    $19,110

                                                                                                                                                                                                                              Continued on next page.
                                                                                                                                                                                                                                                        233
 CDCI Program Transaction detail, as of 6/30/2011                                                       (continued)                                                                                                                234
                                                Seller                                                       Purchase Details                                          Disposition Details

                                                                                                                                     Additional    Investment                                Remaining        Dividend/Interest
Note   Purchase Date   Name of Institution                                  Investment Description    Amount from CPP               Investment        Amount    Date          Amount Investment Amount        Paid to Treasurya

                       East End Baptist Tabernacle Federal Credit Union,
       9/29/10                                                              Subordinated Debentures                —                        —         $7,000    Par                                                         $88
                       Bridgeport, CT
                       Episcopal Community Federal Credit Union, Los
       9/29/10                                                              Subordinated Debentures                —                        —       $100,000    Par                                                     $1,256
                       Angeles, CA
       9/24/10         Fairfax County Federal Credit Union, Fairfax, VA     Subordinated Debentures                —                        —      $8,044,000   Par                                                   $103,231
       9/29/10         Faith Based Federal Credit Union, Vernon, CA         Subordinated Debentures                —                        —        $30,000    Par                                                       $377
       9/29/10         Fidelis Federal Credit Union, Fairfax, VA            Subordinated Debentures                —                        —        $14,000    Par                                                       $176
1      8/13/10         First American International Corp., Brooklyn, NY     Preferred Stock               $17,000,000                       —     $17,000,000   Par                                                   $171,889
1      9/24/10         First Choice Bank, Cerritos, CA                      Preferred Stock                $5,146,000                       —      $5,146,000   Par                                                    $66,040

1      9/17/10         First Eagle Bancshares, Inc., Hanover Park, IL       Subordinated Debentures        $7,875,000                       —      $7,875,000   Par                                                   $161,394

       9/29/10         First Legacy Community Credit Union, Charlotte, NC Subordinated Debentures                  —                        —      $1,000,000   Par                                                    $12,556

1      9/29/10         First M&F Corporation, Kosciusko, MS                 Preferred Stock               $30,000,000                       —     $30,000,000   Par                                                   $376,667

1      9/29/10         First Vernon Bancshares, Inc., Vernon, AL            Preferred Stock                $6,245,000                       —      $6,245,000   Par                                                    $15,959

       9/29/10         Freedom First Federal Credit Union, Roanoke, VA      Subordinated Debentures                —                        —      $9,278,000   Par                                                   $116,490
                       Gateway Community Federal Credit Union, Mis-
       9/24/10                                                              Subordinated Debentures                —                        —      $1,657,000   Par                                                    $21,265
                       soula, MT
                                                                                                                                                                                                                                   Appendix D I Transaction Detail I july 28, 2011




       9/17/10         Genesee Co-op Federal Credit Union, Rochester, NY Subordinated Debentures                   —                        —       $300,000    Par                                                     $3,967
       9/29/10         Greater Kinston Credit Union, Kinston, NC            Subordinated Debentures                —                        —       $350,000    Par                                                     $4,394
1      7/30/10         Guaranty Capital Corporation, Belzoni, MS            Subordinated Debentures       $14,000,000                       —     $14,000,000   Par                                                   $343,583
       9/29/10         Hill District Federal Credit Union, Pittsburgh, PA   Subordinated Debentures                —                        —       $100,000    Par                                                     $1,256
       9/17/10         Hope Federal Credit Union, Jackson, MS               Subordinated Debentures                —                        —      $4,520,000   Par                                                    $59,764
1, 2   9/10/10         IBC Bancorp, Inc., Chicago, IL                       Subordinated Debentures        $4,205,000            $3,881,000.00     $8,086,000   Par                                                   $170,592
1      9/3/10          IBW Financial Corporation, Washington, DC            Preferred Stock                $6,000,000                       —      $6,000,000   Par                                                    $84,000
                       Independent Employers Group Federal Credit Union,
       9/29/10                                                           Subordinated Debentures                   —                        —       $698,000    Par                                                     $8,764
                       Hilo, HI
       9/3/10          Kilmichael Bancorp, Inc., Kilmichael, MS             Subordinated Debentures                —                        —      $3,154,000   Par                                                    $68,442
1      9/29/10         Lafayette Bancorp, Inc., Oxford, MS                  Preferred Stock                $4,551,000                       —      $4,551,000   Par                                                    $57,140
                       Liberty County Teachers Federal Credit Union,
       9/24/10                                                              Subordinated Debentures                —                        —       $435,000    Par                                                     $5,583
                       Liberty, TX
1, 2   9/24/10         Liberty Financial Services, Inc., New Orleans, LA    Preferred Stock                $5,645,000            $5,689,000.00    $11,334,000   Par                                                   $145,453
                       Lower East Side People's Federal Credit Union,
       9/24/10                                                              Subordinated Debentures                —                        —       $898,000    Par                                                    $11,524
                       New York, NY
1      8/20/10         M&F Bancorp, Inc., Durham, NC                        Preferred Stock               $11,735,000                       —     $11,735,000   Par                                                   $172,765
1      8/20/10                                                                                             $5,500,000                       —                   Par
                       Mission Valley Bancorp, Sun Valley, CA               Preferred Stock                                                                                                                           $143,034
2a     9/24/10                                                                                                     —             $4,836,000.00    $10,336,000   Par
                       Neighborhood Trust Federal Credit Union, New
       9/24/10                                                              Subordinated Debentures                —                        —       $283,000    Par                                                     $3,632
                       York, NY
                       North Side Community Federal Credit Union,
       9/29/10                                                              Subordinated Debentures                —                        —       $325,000    Par                                                     $4,081
                       Chicago, IL
                       Northeast Community Federal Credit Union, San
       9/24/10                                                              Subordinated Debentures                —                        —       $350,000    Par                                                     $4,492
                       Francisco, CA
       9/29/10         Opportunities Credit Union, Burlington, VT           Subordinated Debentures                —                        —      $1,091,000   Par                                                    $13,698
1      8/13/10         PGB Holdings, Inc., Chicago, IL                      Preferred Stock                $3,000,000                       —      $3,000,000   Par                                                    $30,333
       9/24/10         Phenix Pride Federal Credit Union, Phenix City, AL   Subordinated Debentures                —                        —       $153,000    Par                                                     $1,964

1      8/13/10         Premier Bancorp, Inc., Wilmette, IL                  Subordinated Debentures        $6,784,000                       —      $6,784,000   Par                                                         $—

       9/24/10         Prince Kuhio Federal Credit Union, Honolulu, HI      Subordinated Debentures                —                        —       $273,000    Par                                                     $3,504

1      9/29/10         PSB Financial Corporation, Many, LA                  Preferred Stock                $9,734,000                       —      $9,734,000   Par                                                   $122,216

       9/24/10         Pyramid Federal Credit Union, Tucson, AZ             Subordinated Debentures                —                        —      $2,500,000   Par                                                    $32,083

                       Renaissance Community Development Credit Union,
       9/29/10                                                         Subordinated Debentures                     —                        —        $31,000    Par                                                       $389
                       Somerset, NJ

       9/24/10         Santa Cruz Community Credit Union, Santa Cruz, CA Subordinated Debentures                   —                        —      $2,828,000   Par                                                    $36,293

1      9/29/10         Security Capital Corporation, Batesville, MS         Preferred Stock               $17,910,000                       —     $17,910,000   Par                                                   $224,870

1, 2   9/29/10         Security Federal Corporation, Aiken, SC              Preferred Stock               $18,000,000            $4,000,000.00    $22,000,000   Par                                                   $276,222

       9/29/10         Shreveport Federal Credit Union , Shreveport, LA     Subordinated Debentures                —                        —      $2,646,000   Par                                                    $33,222

1, 2   8/6/10          Southern Bancorp, Inc., Arkadelphia, AR              Preferred Stock               $11,000,000           $22,800,000.00    $33,800,000   Par                                                   $523,900

                                                                                                                                                                                                         Continued on next page.
    CDCI Program Transaction detail, as of 6/30/2011                                                                   (continued)
                                                   Seller                                                                     Purchase Details                                                                  Disposition Details

                                                                                                                                                      Additional                Investment                                            Remaining         Dividend/Interest
Note     Purchase Date     Name of Institution                                  Investment Description               Amount from CPP                 Investment                    Amount           Date               Amount Investment Amount         Paid to Treasurya

                           Southern Chautauqua Federal Credit Union,
         9/29/10                                                                Subordinated Debentures                              —                        —                $1,709,000           Par                                                         $21,457
                           Lakewood, NY
         9/29/10           Southside Credit Union, San Antonio, TX              Subordinated Debentures                              —                        —                $1,100,000           Par                                                         $13,811

1        9/29/10           State Capital Corporation, Greenwood, MS             Preferred Stock                           $15,750,000                         —               $15,750,000           Par                                                        $197,750

1, 2     9/29/10           The First Bancshares, Inc., Hattiesburg, MS          Preferred Stock                            $5,000,000            $12,123,000.00               $17,123,000           Par                                                        $214,989
         9/29/10           The Magnolia State Corporation, Bay Springs, MS      Subordinated Debentures                              —                        —                $7,922,000           Par                                                        $154,171
                           Thurston Union of Low-Income People (TULIP)
         9/24/10                                                                Subordinated Debentures                              —                        —                    $75,000          Par                                                            $963
                           Cooperative Credit Union, Olympia, WA
         9/24/10           Tongass Federal Credit Union, Ketchikan, AK          Subordinated Debentures                              —                        —                $1,600,000           Par                                                         $20,533
1        8/13/10           Tri-State Bank of Memphis, Memphis, TN               Preferred Stock                            $2,795,000                         —                $2,795,000           Par                                                         $42,236
                           Tulane-Loyola Federal Credit Union,
         9/24/10                                                                Subordinated Debentures                              —                        —                  $424,000           Par                                                          $5,441
                           New Orleans, LA
                           Union Baptist Church Federal Credit Union,
         9/24/10                                                                Subordinated Debentures                              —                        —                    $10,000          Par                                                            $128
                           Fort Wayne, IN
                           Union Settlement Federal Credit Union,
         9/29/10                                                                Subordinated Debentures                              —                        —                  $295,000           Par                                                          $3,704
                           New York, NY

1        9/3/10            United Bancorporation of Alabama, Inc., Atmore, AL Preferred Stock                             $10,300,000                         —               $10,300,000           Par                                                        $144,200

                           UNITEHERE Federal Credit Union (Workers United
         9/29/10                                                                Subordinated Debentures                              —                        —                    $57,000          Par                                                            $716
                           Federal Credit Union), New York, NY
1, 2     7/30/10           University Financial Corp, Inc., St. Paul, MN        Subordinated Debentures                   $11,926,000            $10,189,000.00               $22,115,000           Par                                                        $542,739
         9/24/10           UNO Federal Credit Union, New Orleans, LA            Subordinated Debentures                              —                        —                  $743,000           Par                                                          $9,535
         9/29/10           Vigo County Federal Credit Union, Terre Haute, IN    Subordinated Debentures                              —                        —                $1,229,000           Par                                                         $15,431
         9/24/10           Virginia Community Capital, Inc., Christiansburg, VA Subordinated Debentures                              —                        —                $1,915,000           Par                                                         $24,576

                                                                                                                                                                                                              Total Capital
                                                                                                                                                 Total Purchase
                                                                                                                                                                           $570,073,000                       Repayment                             —
                                                                                                                                                        Amount
                                                                                                                                                                                                              Amount

                                                                                                                                                                                                              Total Treasury
                                                                                                                                                                                                              CDCI Invest-            $570,073,000
                                                                                                                                                                                                              ment Amount

Notes: Numbers affected by rounding. Data as of 6/30/2011. Numbered notes are taken verbatim from Treasury’s 7/1/2011 Transactions Report.

1
   his institution qualified to participate in the Community Development Capital Initiative (CDCI), and has exchanged its Capital Purchase Program investment for an equivalent amount of investment with Treasury under the CDCI program terms.
  T
2
  Treasury made an additional investment in this institution at the time it entered the CDCI program.
2a
   Treasury made an additional investment in this institution after the time it entered the CDCI program.
a
  For the purpose of this table, income (dividends and interest) are presented in aggregate for each CDCI participant.

Source: Treasury, Transactions Report, 7/1/2011.
                                                                                                                                                                                                                                                                            Transaction detail I Appendix D I july 28, 2011
                                                                                                                                                                                                                                                                            235
                                                                                                                                                                                                                                                                                                         236
Table D.4

  AIFP TRANSACTION DETAIL, AS OF 6/30/2011                                                  (continued)
                                                                                                                                                          Treasury Investment After
                                                    Initial Investment                                             Exchange/Transfer/Other Details        Exchange/Transfer/Other                                                                           Payment or Disposition1
                                                                                                                                                                                                                                                                         Remaining
                          Trans-                                                                                                                                                                                                                       Remaining        Investment          Dividend/
                          action                                                                                                                                                               Amount/                                    Amount/     Investment          Amount/     Interest Paid to
               Date       Type       Seller         Description                   Amount    Note         Date            Type            Amount    Note   Obligor    Note Description          Equity %       Date         Type           Proceeds    Description         Equity %          Treasurya
                                                                                                                 Exchange for
                                                    Preferred Stock w/                                             convertible
               12/29/08   Purchase GMAC                                    $5,000,000,000          12/30/09                       $5,000,000,000                             Convertible
                                                    Exercised Warrants                                              preferred                             GMAC       21,
                                                                                                                                                                              Preferred $5,937,500,000
                                                                                                                        stock                             (Ally)     22
                                                                                                                                                                                 Stock
                                                                                                                        Partial
                                                    Convertible                                                     conversion
               5/21/09    Purchase GMAC             Preferred Stock w/     $7,500,000,000   22     12/30/09       of preferred    $3,000,000,000
                                                    Exercised Warrants                                          stock for com-
                                                                                                                    mon stock
GMAC (Ally),
                                                                                                                    Partial                               GMAC                Common                                                                                                  $2,336,534,382
Detroit, MI                                                                                                                                                          3, 26                       73.8%
                                                    Convertible                                                 conversion                                (Ally)                Stock
                                                                                            22,
               12/30/09   Purchase GMAC             Preferred Stock w/     $1,250,000,000          12/30/10   of preferred        $5,500,000,000   26
                                                                                            26
                                                    Exercised Warrants                                      stock for com-
                                                                                                                mon stock
                                                                                                                 Exchange for
                                                    Trust Preferred                                             amended and                                                       Trust
                                                                                                                                                          GMAC                                                       Disposition
               12/30/09   Purchase GMAC             Securities w/ Exer-    $2,540,000,000           3/1/11      restated Trust    $2,670,000,000   27                 27      Preferred $2,670,000,000      3/2/11                  $2,667,000,000           N/A                —
                                                                                                                                                          (Ally)                                                             28
                                                    cised Warrants                                                   Preferred                                                Securities
                                                                                                                    Securities
                                                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I july 28, 2011




                                                                                                                 Exchange for
                                     General Motors
               12/29/08   Purchase                  Debt Obligation         $884,024,131    2       5/29/09     equity interest    $884,024,131    3
                                     Corporation
                                                                                                                      in GMAC
                                                                                                                    Exchange
                                                                                                                 for preferred
                                     General Motors Debt Obligation w/
               12/31/2008 Purchase                                        $13,400,000,000          7/10/2009     and common $13,400,000,000        7
                                     Corporation    Additional Note
                                                                                                                 stock in New
                                                                                                                           GM
                                                                                                                    Exchange
                                                                                                                 for preferred                            General    10,
                                     General Motors Debt Obligation w/                                                                                                        Preferred
               4/22/09    Purchase                                         $2,000,000,000   4       7/10/09      and common       $2,000,000,000   7      Motors     11,                $2,100,000,000    12/15/10   Repayment      $2,139,406,778           N/A               $—
                                     Corporation    Additional Note                                                                                                              Stock
                                                                                                                 stock in New                             Company    24
                                                                                                                           GM
                                                                                                                                                                                                                         Partial
                                                                                                                    Exchange                                                                              11/18/10   Disposition   $11,743,303,903Common Stock               36.9%
                                                                                                                 for preferred                            General    10,                                                     25
                                   General Motors Debt Obligation w/                                                                                                          Common
               5/20/09    Purchase                                         $4,000,000,000   5       7/10/09      and common       $4,000,000,000   7      Motors     11,                         60.8%
                                   Corporation    Additional Note                                                                                                               Stock                                    Partial
                                                                                                                 stock in New                             Company    25
                                                                                                                           GM                                                                             11/26/10   Disposition    $1,761,495,577Common Stock             32.04%
                                                                                                                                                                                                                             25
                                                                                                                                                                                                                         Partial
                                                                                                                                                                                                           7/10/09                   $360,624,198Debt Obligation    $6,711,864,407     $756,714,508
                                                                                                                                                                                                                     Repayment
                                                                                                                                                                                                                         Partial
General                                                                                                             Exchange                                                                              12/18/09                  $1,000,000,000Debt Obligation   $5,711,864,407
                                                                                                                                                          General                                                    Repayment
Motors,b,c                                                                                                       for preferred
                                     General Motors Debt Obligation w/                                                                                    Motors     11,           Debt                                  Partial
Detroit, MI 5/27/09       Purchase                                          $360,624,198    6       7/10/09      and common        $360,624,198    7                                     $7,072,488,605    1/21/10                     $35,084,421Debt Obligation   $5,676,779,986
                                     Corporation    Additional Note                                                                                       Holdings   12       Obligation                             Repayment
                                                                                                                 stock in New
                                                                                                                                                          LLC
                                                                                                                           GM                                                                                            Partial
                                                                                                                                                                                                           3/31/10                  $1,000,000,000Debt Obligation   $4,676,779,986
                                                                                                                                                                                                                     Repayment

                                                                                                                                                                                                           4/20/10   Repayment      $4,676,779,986           N/A               $—

                                                                                                                    Exchange
                                                                                                                 for preferred
                                     General Motors Debt Obligation w/
               6/3/09     Purchase                                        $30,100,000,000   8       7/10/09      and common $22,041,706,310        9
                                     Corporation    Additional Note
                                                                                                                 stock in New
                                                                                                                           GM
                                                                                                                   Transfer of
                                                                                                    7/10/09       debt to New     $7,072,488,605   9
                                                                                                                           GM
                                                                                                                                                          Motors
                                                                                                                   Debt left at                                                    Debt                                  Partial
                                                                                                    7/10/09                        $985,805,085    9      Liquidation 29                   $985,805,085    3/31/11                     $50,000,000Debt Obligation    $935,805,085
                                                                                                                      Old GM                                                  Obligation                             Repayment
                                                                                                                                                          Company

                                                                                                                                                                                                                         Partial
                                                                                                                                                                                                            4/5/11                     $45,000,000Debt Obligation    $890,805,085
                                                                                                                                                                                                                     Repayment

                                                                                                                                                                                                                         Partial
                                                                                                                                                                                                            5/3/11                     $15,887,795Debt Obligation    $874,917,290
                                                                                                                                                                                                                     Repayment


                                                                                                                                                                                                                                                                             Continued on next page.
  AIFP TRANSACTION DETAIL, AS OF 6/30/2011                                             (continued)
                                                                                                                                                      Treasury Investment After
                                                 Initial Investment                                           Exchange/Transfer/Other Details         Exchange/Transfer/Other                                                                                Payment or Disposition1
                                                                                                                                                                                                                                                                           Remaining
                       Trans-                                                                                                                                                                                                                           Remaining         Investment         Dividend/
                       action                                                                                                                                                            Amount/                                         Amount/       Investment           Amount/    Interest Paid to
             Date      Type       Seller         Description                 Amount    Note        Date             Type            Amount     Note   Obligor    Note Description        Equity %         Date          Type             Proceeds      Description          Equity %         Treasurya

                                                                                                                                                                                                                                                    Debt Obligation
                                                 Debt Obligation w/                                                                                                                                                   Partial
             1/16/09   Purchase Chrysler FinCo                        $1,500,000,000   13                                                                                                             3/17/09                          $3,499,055     w/ Additional   $1,496,500,945
                                                 Additional Note                                                                                                                                                  Repayment
                                                                                                                                                                                                                                                              Note

                                                                                                                                                                                                                                                    Debt Obligation
                                                                                                                                                                                                                      Partial
                                                                                                                                                                                                      4/17/09                         $31,810,122     w/ Additional   $1,464,690,823
                                                                                                                                                                                                                  Repayment
                                                                                                                                                                                                                                                              Note

Chrysler
                                                                                                                                                                                                                                                    Debt Obligation
FinCo,                                                                                                                                                                                                                Partial
                                                                                                                                                                                                      5/18/09                         $51,136,084     w/ Additional   $1,413,554,739      $7,405,894
Farmington                                                                                                                                                                                                        Repayment
                                                                                                                                                                                                                                                              Note
Hills, MI

                                                                                                                                                                                                                                                    Debt Obligation
                                                                                                                                                                                                                      Partial
                                                                                                                                                                                                      6/17/09                         $44,357,710     w/ Additional   $1,369,197,029
                                                                                                                                                                                                                  Repayment
                                                                                                                                                                                                                                                              Note

                                                                                                                                                                                                      7/14/09     Repayment        $1,369,197,029 Additional Note               $—

                                                                                                                                                                                                      7/14/09 Repayment*              $15,000,000              N/A                —

                                                                                                                                                                             Debt
                                                                                                             Transfer of                                                obligation
                                  Chrysler       Debt Obligation w/                                                                                   Chrysler                                                      Termina-
             1/2/09    Purchase                                       $4,000,000,000          6/10/09       debt to New       $500,000,000     19                20             w/ $3,500,000,000     5/14/10                      $1,900,000,000              N/A                —
                                  Holding        Additional Note                                                                                      Holding                                                       tion and
                                                                                                                Chrysler                                                additional
                                                                                                                                                                             note                                 settlement
                                                                                                                                                                                                                 payment 20
                                  Chrysler       Debt Obligation w/
             4/29/09   Purchase                                                 $—     14
                                  Holding        Additional Note

                                  Chrysler       Debt Obligation w/
             4/29/09   Purchase                                        $280,130,642    15                                                                                                             7/10/09     Repayment         $280,130,642               N/A              $—
                                  Holding        Additional Note


                                                                                                              Completion                              Old Carco           Right to                               Proceeds                                 Right to
                                                 Debt Obligation w/
             5/1/09    Purchase Old Chrysler                          $1,888,153,580   16     4/30/10      of bankruptcy     (1,888,153,580)   23     Liquidation 23       recover            N/A     5/10/10 from sale of            $30,544,528          recover              N/A
                                                 Additional Note
                                                                                                             proceeding;                              Trust              proceeds                                collateral                              proceeds
                                                                                                          transfer of col-
                                                                                                          lateral security                                                                                       Proceeds                                 Right to
                                                 Debt Obligation w/                                         to liquidation
             5/20/09   Purchase Old Chrysler                                    $—     17                                                                                                              9/9/10 from sale of             $9,666,784          recover              N/A
                                                 Additional Note                                                     trust                                                                                       collateral                              proceeds
Chrylser,c
Auburn                                                                                                                                                                                                           Proceeds                                 Right to                     $1,171,263,942
Hills, MI                                                                                                                                                                                            12/29/10 from sale of             $7,844,409          recover              N/A
                                                                                                                                                                                                                 collateral                              proceeds
                                                                                                                                                                              Debt
                                                                                                                                                                         obligation
                                                 Debt Obligation w/
                                                                                                             Issuance of                              Chrysler                   w/
                                                 Additional Note,                                                                                                19,                                             Repayment -
             5/27/09   Purchase New Chrysler                          $6,642,000,000   18     6/10/09      equity in New                $—            Group              additional $7,142,000,000    5/24/11                      $5,076,460,000
                                                 Zero Coupon Note,                                                                                               31                                                 Principal
                                                                                                                Chrysler                              LLC              note & zero
                                                 Equity
                                                                                                                                                                           coupon
                                                                                                                                                                              note
                                                                                                                                                                                                                                                               N/A              $—
                                                                                                                                                                                                                 Repayment*
                                                                                                                                                                                                      5/24/11     - Additional      $288,000,000
                                                                                                                                                                                                                         Note

                                                                                                                                                                                                                 Repayment*
                                                                                                                                                                                                                      - Zero
                                                                                                                                                                                                      5/24/11                       $100,000,000
                                                                                                                                                                                                                     Coupon
                                                                                                                                                                                                                        Note
                                                                                                                                                      Chrysler
                                                                                                                                                                         Common
                                                                                                                                                      Group      30                          6.6%
                                                                                                                                                                           equity
                                                                                                                                                      LLC

                                                                                                                                                                                                      Additional Proceeds*         $403,000,000

                                    Total Initial Investment Amount $81,344,932,551                                                                                                                         Total Payments       $34,299,229,021
                                                                                                                                                                                                             Total Treasury
                                                                                                                                                                                                        Investment Amount        $43,557,549,950
                                                                                                                                                                                                                                                                                                          Transaction detail I Appendix D I july 28, 2011
                                                                                                                                                                                                                                                                                                          237
    AIFP TRANSACTION DETAIL, AS OF 6/30/2011                                                         (continued)                                                                                                                                                                                                                                           238
Notes: Numbers may not total due to rounding. Data as of 6/30/2011. Numbered notes were taken verbatim from Treasury’s 7/1/2011 Transactions Report.
GMAC refers to GMAC Inc., formerly known as GMAC LLC., and now known as Ally Financial, Inc. (“Ally”).
“Old GM” refers to General Motors Corporation, which is now known as Motors Liquidation Company.
“New GM” refers to General Motors Company, the company that purchased Old GM’s assets on 7/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code. See also footnote 11.
“Chrysler FinCo” refers to Chrysler Financial Services Americas LLC.
“Chrysler Holding” refers to CGI Holding LLC, the company formerly known as “Chrysler Holding LLC”.
“Old Chrysler” refers to Old Carco LLC (fka Chrysler LLC).
“New Chrysler” refers to Chrysler Group LLC, the company that purchased Old Chrysler’s assets on 6/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code.


1
     ayment amount does not include accrued and unpaid interest on a debt obligation, which must be paid at the time of principal repayment.
    P
2
    Treasury committed to lend General Motors Corporation up to $1,000,000,000. The ultimate funding was dependent upon the level of investor participation in GMAC LLC’s rights offering. The amount has been updated to reflect the final level of funding.
3
     Pursuant to its rights under the loan agreement with Old GM reported on 12/29/2008, Treasury exchanged its $884 million loan to Old GM for a portion of Old GM’s common equity interest in GMAC. Treasury held a 35.4% common equity interest in GMAC until the transactions reported on 12/30/2009. (See transactions
      marked by orange line in the table above and footnote 22.)
4
      This transaction is an amendment to Treasury’s 12/31/2008 agreement with Old GM (the “Old GM Loan”), which brought the total loan amount to $15,400,000,000.
5
       This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,400,000,000.
6
        This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,760,624,198. The $360,624,198 loan was used to capitalize GM Warranty LLC, a special purpose vehicle created by Old GM . On 7/10/2009, the principal amount was included in the $7.07 billion of debt assumed
         by the new GM, as explained in footnote 10.
7
         On 7/10/2009, the principal amount outstanding under the Old GM Loan and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM. (See green lines in the table above.)
8
         Under the terms of the $33.3 billion debtor-in-possession credit agreement dated 6/3/2009 with Old GM (the “GM DIP Loan”), Treasury’s commitment amount was $30.1 billion. The remaining $2.2 billion of the financing was provided by Canadian government entities. As of 7/09/2009, $30.1 billion of funds had been
         disbursed by Treasury.
9
         On 7/10/2009, Treasury and Old GM amended the GM DIP Loan, and the principal amount and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM, except for (i) $7.07 billion, which was assumed by New GM as a new obligation under the terms of a
         separate credit agreement between Treasury and New GM (see transactions marked by green lines in table above) and (ii) $986 million, which remained a debt obligation of Old GM.
10
         In total, for the exchange of the Old GM Loan and the GM DIP Loan (other than as explained in footnote 9), Treasury received $2.1 billion in preferred shares and 60.8% of the common shares of New GM. (See transactions marked by green lines in the table above.)
11
         Pursuant to a corporate reorganization completed on or about 10/19/2009, the shareholders of New GM, including with respect to Treasury’s preferred and common stock, became shareholders of General Motors Holding Company (the ultimate parent company of New GM), which was renamed “General Motors Company” on
          an equal basis to their shareholdings in New GM, and New GM was converted to “General Motors LLC”. General Motors LLC is a wholly owned subsidiary of General Motors Holdings LLC, and General Motors Holdings LLC is a wholly owned subsidiary of General Motors Company.
12
          Pursuant to a corporate reorganization completed on 10/19/2009, Treasury’s loan with New GM was assigned and assumed by General Motors Holdings LLC.
13
           The loan was funded through Chrysler LB Receivables Trust, a special purpose vehicle created by Chrysler FinCo. The amount of $1,500,000,000 represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
                                                                                                                                                                                                                                                                                                                                                           Appendix D I Transaction Detail I july 28, 2011




14
            This transaction was an amendment to Treasury’s 1/2/2009 agreement with Chrysler Holding. As of 4/30/2009, Treasury’s obligation to lend any funds committed under this amendment had terminated. No funds were disbursed.
15
             The loan was used to capitalize Chrysler Warranty SPV LLC, a special purpose vehicle created by Old Chrysler.
16
              This transaction was set forth in a credit agreement with Old Chrysler fully executed on 5/5/2009 following a term sheet executed on 5/1/2009 and made effective on 4/30/2009. Treasury’s commitment was $3.04 billion of the total $4.1 billion debtor-in-possession credit facility (the “Chrysler DIP Loan”). As of
               6/30/2009, Treasury’s commitment to lend under the Chrysler DIP Loan had terminated. The remaining principal amount reflects the final amount of funds disbursed under the Chrysler DIP Loan.
17
               This transaction was an amendment to Treasury’s commitment under the Chrysler DIP Loan, which increased Treasury’s commitment by an amount $756,857,000 to a total of $3.8 billion under the Chrysler DIP Loan. As of 6/30/2009, Treasury’s obligation to lend funds committed under the Chrysler DIP Loan had termi-
                nated.
18
                This transaction, first reported based on a term sheet fully executed on 5/27/2009 for an amount up to $6.943 billion, was set forth in a credit agreement with New Chrysler fully executed on 6/10/2009. Under the terms of the credit agreement, Treasury made a new commitment to New Chrysler of up to $6.642 billion.
                 The total loan amount is up to $7.142 billion including $500 million of debt assumed on 6/10/2009 from Chrysler Holding originally incurred under Treasury’s 1/2/2009 credit agreement with Chrysler Holding. The debt obligations are secured by a first priority lien on the assets of New Chrysler. When the sale to new
                 Chrysler was completed, Treasury acquired the rights to 9.85% of the common equity in new Chrysler.
19
                 Pursuant to the agreement explained in footnote 18, $500 million of this debt obligation was assumed by New Chrysler.
20
                  Under loan agreement, as amended on 7/23/2009, Treasury was entitled to proceeds Chrysler Holdco received from Chrysler FinCo equal to the greater of $1.375 billion or 40% of the equity value of Chrysler FinCo. Pursuant to a termination agreement dated 5/14/2010, Treasury agreed to accept a settlement payment of
                  $1.9 billion as satisfaction in full of all existing debt obligations (including additional notes and accrued and unpaid interest) of Chrysler Holdco, and upon receipt of such payment to terminate all such obligations.
21
                  Amount of the Treasury investment exchange includes the exercised warrants from Treasury’s initial investments.
22
                  Under the terms of an agreement dated 12/30/2009, the convertible preferred shares will mandatorily convert to common stock under the conditions and the conversion price as set forth in the terms of the agreement.
23
                  On April 30, 2010, the Plan of Liquidation for the debtors of Old Chrysler approved by the respective bankruptcy court became effective (the “Liquidation Plan”). Under the Liquidation Plan, the loan Treasury had provided to Old Chrysler was extinguished without repayment, and all assets of Old Chrysler were transferred to a
                  liquidation trust. Treasury retained the right to recover the proceeds from the liquidation from time to time of the specified collateral security attached to such loan.
24
                  On October 27, 2010, Treasury accepted an offer by General Motors Company (GM) to repurchase all of the approximately $2.1 billion preferred stock at a price per share of $25.50, which is equal to 102% of the liquidation preference, subject to the closing of the proposed initial public offering of GM’s common stock. The
                  repurchase was completed on 12/15/2010.
25
                  On 11/17/2010, Treasury agreed to sell 358,546,795 shares of common stock at $32.7525 per share (which represents the $33 public sale price less underwriting discounts and fees) pursuant to an underwriting agreement. Following settlement, the net proceeds to Treasury were $11,743,303,903. On 11/26/2010,
                  the underwriters exercised their option to purchase an additional 53,782,019 shares of common stock from Treasury at the same purchase price resulting in additional proceeds of $1,761,495,577. Treasury’s aggregate net proceeds from the sale of common stock pursuant to the underwriting agreement total
                  $13,504,799,480.
26
                  On 12/30/2010, Treasury converted $5,500,000,000 of the total convertible preferred stock then outstanding and held by Treasury (including exercised warrants) into 531,850 shares of common stock of Ally. Following this conversion, Treasury holds $5,937,500,000 of convertible preferred stock.
27
                  On 3/1/2011, Treasury entered into an agreement with Ally Financial, Inc. (Ally) and certain other parties to amend and restate the $2,667,000,000 in aggregate liquidation preference of its Ally trust preferred securities so to facilitate a public underwritten offering. At the time of amendment and restatement, Treasury
                  received all outstanding accrued and unpaid dividends and a distribution fee of $28,170,000.
28
                  On 3/2/2011, Treasury entered into an underwritten offering for all of its Ally trust preferred securities, the proceeds of which were $2,638,830,000, which together with the distribution fee referred to in footnote 27, provided total disposition proceeds to Treasury of $2,667,000,000. This amount does not include the
                  accumulated and unpaid dividends on the trust preferred securities from the date of the amendment and restatement through but excluding the closing date that Treasury will receive separately at settlement.
29
                  On March 31, 2011, the Plan of Liquidation for Motors Liquidation Company (Old GM) became effective, Treasury’s $986 million loan to Old GM was converted to an administrative claim and the assets remaining with Old GM, including Treasury’s liens on certain collateral and other rights attached to the loan, were transferred
                  to liquidation trusts. Under the Plan of Liquidation, Treasury retained the right to recover additional proceeds; however, any additional recovery is dependent on actual liquidation proceeds and pending litigation.
30
                  In June 2009, Treasury provided a $6.6 billion loan commitment to Chrysler Group LLC (as of March 31, 2011, $2.1 billion remained undrawn), and received a 9.9 percent equity ownership in Chrysler Group LLC (Chrysler). In January and April 2011, Chrysler met the first and second of three performance related milestones
                  and Fiat’s ownership automatically increased from 20% to 30%. As a result, Treasury’s ownership was reduced to 8.6%. On May 24, 2011, Fiat, through the exercise of an equity call option, purchased an incremental 16% fully diluted ownership interest in Chrysler for $1.268 billion. Currently, Treasury’s ownership stands at
                  6.6%.
31
                  On May 24, 2011, Chrysler Group LLC terminated its ability to draw on the remaining $2.066 billion outstanding under this loan facility.
a
   For the purpose of this table, income (dividends and interest) are presented in aggregate for each AIFP participant.
b
   According to Treasury, the GM warrant was “Exchanged out of bankruptcy exit.”
c
   This table includes AWCP transactions.

Sources: Treasury, Transactions Report, 7/1/2011, Treasury, Cumulative Dividends, Interest, and Distributions Report, 7/1/2011; Treasury, response to SIGTARP data call, 4/6/2011.
Table D.5

 ASSP Transaction Detail, as of 6/30/2011
                   Seller                                                                                                                   Adjustment Details                                                           Repayment4
                                                                   Investment                                                                                           Adjusted                                                                    Remaining                        Dividends/
                                                    Transaction    Description                  Investment   Pricing         Adjustment          Adjustment           Investment                                                                   Investment                     Interest Paid
Note   Date       Institution Name                  Type                                           Amount Mechanism                Date3            Amount               Amount             Date                 Type                              Description          Amount      to Treasury
                                                                                                                                                                                   11/20/2009       Partial repayment    Debt Obligation w/ Additional Note       $140,000,000
                                                                                                                                                                                                                                                                                 $21,629,701
                  GM Supplier Receivables LLC,                     Debt Obligation w/                                         7/8/2009 $(1,000,000,000) $2,500,000,000               2/11/2010      Partial repayment    Debt Obligation w/ Additional Note       $100,000,000
1      4/9/2009                                     Purchase                              $3,500,000,000              N/A
                  Wilmington, DE                                   Additional Note                                                                                                    3/4/2010            Repayment5                         Additional Note       $50,000,000
                                                                                                                                                                  $290,000,000        4/5/2010               Payment6                                    None      $56,541,893
                                                                                                                                                                                                                                                                                 $10,320,229
                  Chrysler Receivables SPV LLC,                    Debt Obligation w/                                         7/8/2009        ($500,000,000) $1,000,000,000           3/9/2010            Repayment5                         Additional Note      $123,076,735
2      4/9/2009                                 Purchase                                  $1,500,000,000              N/A
                  Wilmington, DE                                   Additional Note                                                                                $123,076,735        4/7/2010               Payment7                                    None      $44,533,054
                                                                    Initial Total        $5,000,000,000                                       Adjusted Total     $413,076,735                                                           Total Repayments $413,076,735
                                                                                                                                             Total Proceeds
                                                                                                                                            from Additional      $101,074,947
                                                                                                                                                      Notes

Notes: Numbers may not total due to rounding. Data as of 6/30/2011. Numbered notes were taken verbatim from Treasury’s 7/1/2011 Transactions Report
1
  The loan was funded through GM Supplier Receivables, LLC, a special purpose vehicle created by General Motors Corporation. The amount of $3,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed
   on 4/9/2009, but was made effective as of 4/3/2009. General Motors Company assumed GM Supplier Receivables LLC on 7/10/2009.
2
   The loan was funded through Chrysler Receivables SPV LLC, a special purpose vehicle created by Chrysler LLC. The amount of $1,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009,
    but was made effective as of 4/7/2009. Chrysler Group LLC assumed Chrysler Receivables SPV LLC on 6/10/2009. 	
3
    Treasury issued notice to the institution of the permanent reduced commitment on 7/8/2009; the reduction was effective on 7/1/2009.
4
     Does not include accrued and unpaid interest due on the amount of principal repayment, which interest must be paid at the time of principal repayment.
5
     All outstanding principal drawn under the credit agreement was repaid.
6
     Treasury’s commitment was $2.5 billion (see note 3). As of 4/5/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds
      disbursed under the loan, all of which have been repaid.
7
      Treasury’s commitment was $1 billion (see note 3). As of 4/7/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds
       disbursed under the loan, all of which have been repaid.

Sources: Treasury, Transactions Report, 7/1/2011; Treasury, response to SIGTARP data call, 4/11/2011.



Table D.6

 TIP Transaction Detail, as of 6/30/2011
                                                                                                                                                               Treasury Investment
                                                                                                                                                                    Remaining
                       Seller                                                                                               Capital Repayment Details        After Capital Repayment                       Final Disposition                                     Market and Warrants Data
                                                                                                                                                   Capital Remaining         Remaining           Final             Final
                                            Transaction    Investment                     Investment         Pricing Capital Repayment          Repayment    Capital           Capital     Disposition       Disposition       Final Disposition           Stock      Outstanding Warrant                         Dividends/
Note Date              Institution Name     Type           Description                       Amount       Mechanism             Amount               Date2   Amount         Description         Date3        Description              Proceeds             Price                   Shares          Interest Paid to Treasury
                                                           Trust Preferred
                       Citigroup Inc., New                 Securities w/
1      12/31/08        York, NY            Purchase        Warrants                 $20,000,000,000                Par   $20,000,000,000         12/23/09            $—        Warrants      1/25/11 A           Warrants        $190,386,428             $41.64                                            $1,568,888,889
                       Bank of America
                       Corporation,                        Preferred Stock w/
       1/16/09         Charlotte, NC        Purchase       Warrants                 $20,000,000,000                Par   $20,000,000,000          12/9/09            $—        Warrants        3/3/10 A          Warrants      $1,255,639,099             $10.96                                            $1,435,555,556

                                                                                                        Total Capital
                                                            Total Investment $40,000,000,000             Repayment $40,000,000,000                                                                                                         Total Warrant Proceeds $1,446,025,527
                                                                                     Total Treasury TIP Investment
                                                                                                           Amount                        $—

Notes: Numbers may not total due to rounding. Data as of 6/30/2011. Numbered notes were taken verbatim from Treasury’s 7/1/2011 Transactions Report.
1
  Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative
   Perpetual Preferred Stock, Series I (TIP Shares) “dollar for dollar” for Trust Preferred Securities.
2
   Repayment pursuant to Title VII, Section 7001 of the American Recovery and Reinvestment Act of 2009.
3
   For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution, and “A” represents the proceeds to Treasury, before underwriting fees and selling expenses, from a sale by Treasury in a registered public offering of the warrants issued by the financial institu-
tion.

Sources: Treasury, Transactions Report, 7/1/2011; Treasury, Cumulative Dividends, Interest, and Distributions Report, 7/11/2011; Treasury, response to SIGTARP data call, 7/8/2011. Market date: Bloomberg L.P., accessed 7/20/2011.
                                                                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I july 28, 2011
                                                                                                                                                                                                                                                                                                                                 239
Table D.7

    AGP Transaction Detail, as of 6/30/2011                                                                                                                                                                                                                                                                                                  240
                           Initial Investmentb                                                      Premium                 Exchange/Transfer/Other Details                                                              Payment or Disposition                                 Market and Warrants Data

                                                                                                                                                                                                                Remaining             Remaining
                 Institution Transaction                          Guarantee                                                         Descrip-                                                            Payment Premium                Premium                     Outstanding                                                 Dividends/
Note    Date     Name        Type        Description                   Limit Description              Amount      Date       Type       tion            Amount       Date Payment Type                   Amount     Desc                Amount                  Warrant Shares                 Stock Price      Interest Paid to Treasury



                                                                                                                         Exchange
                                                                                                                                        Trust                                                                         Trust
                                                                                                                         preferred                                    Partial cancel-
                                                                                                                                    Preferred                                                                     Preferred
                                                                                                                 6/09/       stock                            12/23/ lation for early
                                                                                                                                    Securities $4,034,000,000                                    ($1,800,000,000) Securities $2,234,000,000
                                                                                                                  2009    for trust                             2009 termination of
                                                                                                                                           w/                                                                            w/
                                                                                                                         preferred                                        guarantee
                                                                                                                                     Warrants                                                                      Warrants
                 Citigroup                                                        Preferred                              securities
1,2,3, 1/16/                              Master
                 Inc., New Guarantee                         $5,000,000,000       Stock w/ $4,034,000,000
4,5    2009                               Agreement
                 York, NY                                                         Warrants
                                                                                                                                                                                                                                                                                                   $41.64                  $442,964,764
                                                                                                                       Exchange                                     9/30/
                                                                                                                                      Trust                                   Disposition         $2,246,000,000     Warrants                  —
                                                                                                                       preferred                                     2010
                                                                                                                                  Preferred
                                                                                                                 9/29/ securities
                                                                                                                                  Securities $2,246,000,000
                                                                                                                  2010 for trust                                    1/25/          Warrant
                                                                                                                                         w/                                                          $67,197,045         None                  —
                                                                                                                       preferred                                     2011          Auction
                                                                                                                                   Warrants
                                                                                                                       securities
               Citigroup
        12/23/                       Termination
3              Inc., New Termination                        ($5,000,000,000)
        2009                         Agreement
               York, NY
                                          Total                           $—                                                                                             Total Proceeds          $2,313,197,045
                                                                                                                                                                                                                                                                                                                                             Appendix D I Transaction Detail I july 28, 2011




Notes: Numbers may not total due to rounding. Data as of 6/30/2011. Numbered notes were taken verbatim from Treasury’s 7/1/2011 Transactions Report.
1
  In consideration for the guarantee, Treasury received $4.03 billion of preferred stock, which pays 8% interest.
2
  Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative Perpetual Preferred
   Stock Series G (AGP Shares), received as premium with the AGP agreement, “dollar for dollar” for Trust Preferred Securities.
3
   On 12/23/2009, Treasury entered into a Termination Agreement with the other parties to the Master Agreement which served to terminate Treasury’s guarantee and obligations under the Master Agreement. In connection with the early termination of the guarantee, Treasury agreed to cancel $1.8 billion of the AGP Trust
   Preferred Securities, and the Federal Deposit Insurance Corporation (FDIC) and Treasury agreed that, subject to the conditions set out in the Termination Agreement, the FDIC may transfer $800 million of Trust Preferred Securities to Treasury at the close of Citigroup’s participation in the FDIC’s Temporary Liquidity Guarantee
   Program.”
4
   On 9/29/2010, Treasury entered into an agreement with Citigroup Inc. to exchange $2,234,000,000 in aggregate liquidation preference of its trust preferred securities for $2,246,000,000 in aggregate liquidation preference of trust preferred securities with certain modified terms. At the time of exchange, Citigroup Inc.
   paid the outstanding accrued and unpaid dividends.
5
   On 9/30/2010, Treasury entered into underwritten offering of the trust preferred securities, the gross proceeds of which do not include accumulated and unpaid distributions from the date of the exchange through the closing date.
a
  AGP transaction is a guarantee, not a purchase. Treasury received a premium including preferred stock and warrants as part of this transaction.

Sources: Treasury, Transactions Report, 7/1/2011; Treasury, Cumulative Dividends, Interest, and Distributions Report, 7/11/2011; Treasury, response to SIGTARP data call, 7/8/2011. Market date: Bloomberg L.P., accessed 7/20/2011.




Table D.8


 TALF Transaction Detail, as of 6/30/2011
                       Seller
                                                   Transaction                                                                                    Pricing               Adjusted                 Adjusted
 Note Date             Institution                 Type              Investment Description                   Investment Amount                Mechanism         Investment Date       Investment Amount

 1-2    3/3/09         TALF LLC, Wilmington, DE Purchase             Debt Obligation w/ Additional Note         $20,000,000,000                       N/A               7/19/10              $4,300,000,000


                                                                                                   TOTAL        $4,300,000,000

 Notes: Numbers may not total due to rounding. Data as of 6/30/2011. Numbered notes were taken verbatim from Treasury’s 7/1/2011 Transactions Report.
 1
   The loan was funded through TALF LLC, a special purpose vehicle created by The Federal Reserve Bank of New York (“FRBNY”). The amount of $20,000,000,000 represents the maximum loan
    amount. The loan will be incrementally funded.
 2
    On 7/19/2010, Treasury, the FRBNY and TALF LLC entered into an amendment of the credit agreement previously entered into on 3/3/2009, which amendment reduced Treasury’s maximum loan
    amount to $4,300,000,000.

 Sources: Treasury, Transactions Report, 7/1/2011
 Table D.9

    SSFI (AIG) PROGRAM TRANSACTION DETAIL, AS OF 6/30/2011
                             Seller                                  Purchase Details                                                                                            Exchange/Transfer Details
                                                                                                         Pricing                                                                                                                                                                                               Dividends/
                                          Transaction     Investment                     Investment      Mecha-                      Transaction                                                                                                               Pricing                     Outstanding     Interests Paid
Note       Date        Institution        Type            Description                       Amount         nism               Date         Type                         Investment Description                   Investment Amount                          Mechanism    Stock Price   Warrants Shares        to Treasury
                                                          Preferred Stock
                                                                                                                                                         Preferred Stock w/
     1     11/25/2008 AIG, New York, NY      Purchase     w/ Warrants             $40,000,000,000             Par       4/17/2009       Exchange                                        1                 $40,000,000,000                             Par                    $29.32      2,689,938                    —
                                                                                                                                                         Warrants (Series E)
                                                          (Series D)
                                                          Preferred Stock
    2, 3    4/17/2009 AIG, New York, NY      Purchase     w/ Warrants             $29,835,000,000             Par                     See table below for exchange/transfer details in connection with the recapitalization conducted on 1/14/2011.                          $29.32                  150              —
                                                          (Series F)
                                                          Initial total          $69,835,000,000
                                                                                                                                                          Final Disposition
                                                                                                                                                               Transaction
                                                                                                                              Date    Investment                                                                               Proceeds          Pricing Mechanism
                                                                                                                                                                     Type
                                                                                                                                          Warrants
                                                                                                                                         (Series E)
                                                                                                                                          Warrants
                                                                                                                                         (Series F)




                                                                                      Treasury Holdings Post-
                                Recapitalization                                          Recapitalization                                                                     Final Disposition
                       Investment         Transaction         Pricing            Investment                                                 Transaction                                  Pricing     Remaining Recap
                                                                                                                                                                                  8
Note Date              Description        Type                Mechanism          Description     Amount / Shares                       Date       Type                Proceeds        Mechanism    Investment Amount
                                                                                 Preferred
                                          Exchange            Par                Stock (Series   $2,000,000,000                 5/27/2011      Cancellation                      —          N/A                       — 10
                                                                                 G)
                                                              N/A                                                               2/14/2011         Payment          $185,726,192              Par
                                                                                 AIA Preferred
                       Preferred Stock                                                           $16,916,603,568                 3/8/2011         Payment        $5,511,067,614              Par     $11,163,976,429
4,7,8 1/14/2011                                                                  Units
                       (Series F)                                                                                               3/15/2011         Payment           $55,833,333              Par
                                          Exchange
                                                                                 ALICO Junior                                   2/14/2011         Payment        $2,009,932,072              Par
                                                                                 Preferred       $3,375,328,432                                                                                                       —
                                                                                 Interests                                       3/8/2011         Payment        $1,383,888,037              Par

                                          Exchange            N/A                                167,623,733
                       Preferred Stock                                                                                                                                                                 1,455,037,962
5          1/14/2011                      Exchange                                               924,546,133                                        Partial                                                                9
                       (Series E)                                                Common Stock                                   5/24/2011                        $5,800,000,000             N/A
                                                                                                                                                Disposition
                       Common Stock
6          1/14/2011                      Transfer                                               562,868,096                                                                                                         77%
                       (non-TARP)
                                                                                                                                                 Total        $14,946,447,248


Notes: Numbers may not total due to rounding. Data as of 6/30/2011. Numbered notes were taken verbatim from the Treasury’s 7/1/2011 Transactions Report.
1
   On 4/17/2009, Treasury exchanged its Series D Fixed Rate Cumulative Preferred Shares for Series E Fixed Rate Non-Cumulative Preferred Shares with no change to Treasury’s initial investment amount. In
   addition, in order for AIG to fully redeem the Series E Preferred Shares, it had an additional obligation to Treasury of $1,604,576,000 to reflect the cumulative unpaid dividends for the Series D Preferred
   Shares due to Treasury through and including the exchange date.
2
   The investment amount reflected Treasury’s commitment to invest up to $30 billion less a reduction of $165 million representing retention payments AIG Financial Products made to its employees in March
    2009.
3
    This transaction does not include AIG’s commitment fee of an additional $165 million paid from its operating income over the life of the facility. A $55 million payment was received by Treasury on
     12/17/2010. The remaining $110 million payment was received by Treasury on 05/27/2011.
4
     On 1/14/2011, (A) Treasury exchanged $27,835,000,000 of Treasury’s investment in AIG’s Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series F) which is equal to the amount funded (includ-
     ing amounts drawn at closing) under the Series F equity capital facility, for (i) the transferred SPV preferred interests and (ii) 167,623,733 shares of AIG Common Stock, and (B) Treasury exchanged
     $2,000,000,000 of undrawn Series F for 20,000 shares of preferred stock under the new Series G Cumulative Mandatory Convertible Preferred Stock equity capital facility under which AIG has the right to
     draw up to $2,000,000,000.
5
     On 1/14/2011, Treasury exchanged an amount equivalent to the $40 billion initial investment plus capitalized interest from the April 2009 exchange (see note 1 above) of Fixed Rate Non-Cumulative Perpetual
     Preferred Stock (Series E) for 924,546,133 shares of AIG Common Stock.
6
     On 1/14/2011, Treasury received 562,868,096 shares of AIG Common Stock from the AIG Credit Facility Trust, which trust was established in connection with the credit facility between AIG and the Federal
     Reserve Bank of New York. This credit facility was repaid and terminated pursuant to this recapitalization transaction. The trust had received 562,868,096 shares of AIG common stock in exchange for AIG’s
     Series C Perpetual, Convertible Participating Preferred Stock, which was previously held by the trust for the benefit of the U.S. Treasury.
7
     The amount of Treasury’s AIA Preferred Units and ALICO Junior Preferred Interests holdings do not reflect preferred returns on the securities that accrue quarterly.
8
                                                                                                                                                                                                                                                                                                                            Transaction detail I Appendix D I july 28, 2011




      Proceeds include amounts applied to pay (i) accrued preferred returns and (ii) redeem the outstanding liquidation amount.
9
       On 5/27/2011, Treasury completed the sale of 200,000,000 shares of common stock at $29.00 per share for an aggregate amount equal to $5,800,000,000, pursuant to an underwriting agreement
       executed on 05/24/2011.
10
       On 5/27/2011, pursuant to the terms of the agreements governing the Preferred Stock (Series G), the available amount of the Preferred Stock (Series G) was reduced to $— as a result of AIG’s primary
       offering of its common stock and the Preferred Stock (Series G) was cancelled.
                                                                                                                                                                                                                                                                                                                            241
                                                                                                                                                                                                                                                                                   242
Table D.10

  UCSB TRANSACTION DETAIL, AS OF 6/30/2011                                           (Continued)
                                                                                          1
                                                                       Purchase Details                                                                                                Settlement Details                 Final Disposition
                                                                                                                                                                                                                    Life-to-date       Current
                                                                                              Purchase Face       Pricing              Settlement       Investment                     Senior Security      Trade      Principal         Face       Disposition Interest Paid to
Trade Date   Investment Description                   Institution Name       CUSIP                 Amount3     Mechanism TBA or PMF3         Date        Amount 2, 3   TBA or PMF3       Proceeds 4         Date    Received 1, 8    Amount 6, 8    Amount 5, 6        Treasury

3/19/10      Floating Rate SBA 7a security due 2025   Coastal Securities     83164KYN7         $4,070,000.00      107.75     —           3/24/10       $4,377,249          —                      $2,184 6/21/11      $888,622       $3,151,186     $3,457,746        $160,012

3/19/10      Floating Rate SBA 7a security due 2022   Coastal Securities     83165ADC5         $7,617,617.00         109     —           3/24/10       $8,279,156          —                      $4,130                                                              $328,108

3/19/10      Floating Rate SBA 7a security due 2022   Coastal Securities     83165ADE1         $8,030,000.00     108.875     —           3/24/10       $8,716,265          —                      $4,348 6/21/11    $1,985,470       $5,964,013     $6,555,383        $351,051

4/8/10       Floating Rate SBA 7a security due 2034   Coastal Securities     83165AD84        $23,500,000.00     110.502     —           5/28/10      $26,041,643          —                     $12,983 6/7/11     $1,103,935      $22,350,367    $25,039,989        $390,597

4/8/10       Floating Rate SBA 7a security due 2016   Coastal Securities     83164KZH9         $8,900,014.00       107.5     —           4/30/10       $9,598,523          —                      $4,783 6/7/11     $2,250,945       $6,542,218     $7,045,774      $1,011,429

5/11/10      Floating Rate SBA 7a security due 2020   Coastal Securities     83165AEE0        $10,751,382.00     106.806     —           6/30/10      $11,511,052          —                      $5,741 6/7/11       $869,055       $9,819,270    $10,550,917        $322,089

5/11/10      Floating Rate SBA 7a security due 2035   Coastal Securities     83164K2Q5        $12,898,996.00      109.42     —           6/30/10      $14,151,229          —                      $7,057 6/7/11       $300,770      $12,570,392    $13,886,504        $441,975

5/11/10      Floating Rate SBA 7a security due 2033   Coastal Securities     83165AED2         $8,744,333.00     110.798     —           6/30/10       $9,717,173          —                      $4,844 6/7/11       $243,669       $8,483,188     $9,482,247        $339,834

5/25/10      Floating Rate SBA 7a security due 2029   Coastal Securities     83164K3B7         $8,417,817.00     110.125     —           7/30/10       $9,294,363          —                      $4,635 6/7/11       $223,899       $8,171,159     $8,985,818        $263,213

5/25/10      Floating Rate SBA 7a security due 2033   Coastal Securities     83165AEK6        $17,119,972.00     109.553     —           7/30/10      $18,801,712          —                      $9,377                                                              $457,210
                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I july 28, 2011




6/17/10      Floating Rate SBA 7a security due 2020   Coastal Securities     83165AEQ3        $34,441,059.00     110.785     —           8/30/10      $38,273,995          —                     $19,077 6/21/11    $1,603,564      $32,656,125    $36,072,056        $833,725

6/17/10      Floating Rate SBA 7a security due 2034   Coastal Securities     83165AEP5        $28,209,085.00     112.028     —           8/30/10      $31,693,810          —                     $15,801                                                            $1,169,603

7/14/10      Floating Rate SBA 7a security due 2020   Coastal Securities     83164K3Y7         $6,004,156.00     106.625     —           9/30/10       $6,416,804          —                      $3,200 6/21/11      $309,031       $5,656,049     $6,051,772        $131,436

7/14/10      Floating Rate SBA 7a security due 2025   Shay Financial         83164K4J9         $6,860,835.00     108.505     —           9/30/10       $7,462,726          —                      $3,722                                                              $150,075

7/14/10      Floating Rate SBA 7a security due 2034   Shay Financial         83165AE42        $13,183,361.00      111.86     —           9/30/10      $14,789,302          —                      $7,373 6/21/11      $208,960      $12,704,841    $14,182,379        $380,553

7/29/10      Floating Rate SBA 7a security due 2017   Coastal Securities     83164K4E0         $2,598,386.00    108.4375     —           9/30/10       $2,826,678          —                      $1,408                                                               $71,975

7/29/10      Floating Rate SBA 7a security due 2034   Shay Financial         83164K4M2         $9,719,455.00      106.75     —          10/29/10      $10,394,984          —                      $5,187 6/21/11      $164,331       $9,531,446    $10,223,264        $119,758

8/17/10      Floating Rate SBA 7a security due 2020   Shay Financial         83165AEZ3         $8,279,048.00     110.198     —           9/30/10       $9,150,989          —                      $4,561                                                              $160,620

8/17/10      Floating Rate SBA 7a security due 2019   Coastal Securities     83165AFB5         $5,000,000.00     110.088     —          10/29/10       $5,520,652          —                      $2,752                                                              $247,385

8/17/10      Floating Rate SBA 7a security due 2020   Coastal Securities     83165AE91        $10,000,000.00     110.821     —          10/29/10      $11,115,031          —                      $5,541                                                              $243,271

8/31/10      Floating Rate SBA 7a security due 2020   Shay Financial         83165AEW0         $9,272,482.00     110.515     —           9/29/10      $10,277,319          —                      $5,123                                                              $218,114

8/31/10      Floating Rate SBA 7a security due 2024   Shay Financial         83165AFA7        $10,350,000.00     112.476     —          10/29/10      $11,672,766          —                      $5,820                                                              $234,612

8/31/10      Floating Rate SBA 7a security due 2020   Coastal Securities     83164K5H2         $6,900,000.00     105.875     —          11/30/10       $7,319,688          —                      $3,652                                                              $151,132

9/14/10      Floating Rate SBA 7a security due 2020   Shay Financial         83165AFC3         $8,902,230.00     111.584     —          10/29/10       $9,962,039          —                      $4,966                                                               $87,413

9/14/10      Floating Rate SBA 7a security due 2021   Shay Financial         83165AFK5         $8,050,000.00     110.759     —          11/30/10       $8,940,780          —                      $4,458                                                               $57,046

9/14/10      Floating Rate SBA 7a security due 2029   Coastal Securities     83164K5F6         $5,750,000.00       106.5     —          11/30/10       $6,134,172          —                      $3,061                                                              $211,111

9/14/10      Floating Rate SBA 7a security due 2026   Coastal Securities     83164K5L3         $5,741,753.00       110.5     —          11/30/10       $6,361,173          —                      $3,172                                                               $64,138

9/28/10      Floating Rate SBA 7a security due 2035   Coastal Securities     83164K5M1         $3,450,000.00     110.875     —          11/30/10       $3,834,428          —                      $1,912                                                              $101,738

9/28/10      Floating Rate SBA 7a security due 2034   Coastal Securities     83165AFT6        $11,482,421.00     113.838     —          12/30/10      $13,109,070          —                      $6,535                                                              $265,856

9/28/10      Floating Rate SBA 7a security due 2034   Shay Financial         83165AFM1        $13,402,491.00       113.9     —          11/30/10      $15,308,612          —                      $7,632                                                              $190,293

9/28/10      Floating Rate SBA 7a security due 2035   Shay Financial         83165AFQ2        $14,950,000.00     114.006     —          12/30/10      $17,092,069          —                      $8,521                                                              $247,877

                                                                                                                                             Total                      Total Senior                                                       Total
                                                                             Total Purchase
                                                                                              $332,596,893                             Investment    $368,145,452         Security             $183,555                              Disposition $151,533,849      $9,403,247
                                                                             Face Amount
                                                                                                                                         Amount*                         Proceeds                                                     Proceeds

                                                                                                                                                                                                                                                         Continued on next page.
  UCSB TRANSACTION DETAIL, AS OF 6/30/2011                                                                     (Continued)

Notes: Numbers affected by rounding. Data as of 6/30/2011. Asterisks and numbered notes were taken verbatim from Treasury’s 7/1/2011 Transactions Report.

*	Subject to adjustment
1	 
   The amortizing principal and interest payments are reported on the monthly Cumulative Dividends, Interest, and Distributions Report available at www.FinancialStability.gov.
2	 
   Investment Amount is stated after applying the appropriate month’s factor and includes accrued interest paid at settlement, if applicable.	
3	 
   If a purchase is listed as TBA, or To-Be-Announced, the underlying loans in the SBA Pool have yet to come to market, and the TBA pricing mechanism, purchase face amount, investment amount and senior security proceeds will be adjusted within the variance permitted under the program terms. If a purchase is listed as PMF, or
   Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security and senior security are priced according to the prior-month’s factor. The PMF investment amount and senior security proceeds will be adjusted after publication of the applicable month’s factor (on or about the 11th
   business day of each month).
4	 
   In order to satisfy the requirements under Section 113 of the Emergency Economic Stabilization Act of 2008, Treasury will acquire a senior indebtedness instrument (a Senior Security) from the seller of each respective SBA 7a Security. Each Senior Security will (i) have an aggregate principal amount equal to the product of (A) 0.05%
   and (B) the Investment Amount (excluding accrued interest) paid by Treasury for the respective SBA 7a Security, and (ii) at the option of the respective seller, may be redeemed at par value immediately upon issuance, or remain outstanding with the terms and conditions as set forth in the Master Purchase Agreement.
5	 
   Disposition Amount is stated after applying the appropriate month’s factor and includes accrued interest received at settlement, if applicable. If the disposition is listed as PMF, the disposition amount will be adjusted after publication of the applicable month’s factor.
6	 
   If a disposition is listed as PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security is priced according to the prior-month’s factor. The PMF disposition amount will be adjusted after publication of the applicable month’s factor (on or about the 11th business day of
   each month).
7	 
   Total Program Proceeds To Date includes life-to-date disposition proceeds, life-to-date principal received, life-to-date interest received, and senior security proceeds (excluding accruals).
8	 
   The sum of Current Face Amount and Life-to-date Principal Received will equal Purchase Face Amount only after the applicable month’s factor has been published and trailing principal & interest payments have been received.

Source: Treasury, Transactions Report, 7/1/2011, Treasury, Cumulative Dividends, Interest, and Distributions Report 7/11/2011.




Table D.11

 PPIP Transaction Detail, as of 6/30/2011                                                                    (Continued)
                                                                                                                                                                                                                                                      Investment after Capital
                                                                                                                                                                        3
                                              Seller                                                                                              Adjusted Investment          Final Investment Amount7         Capital Repayment Details                   Repayment                           Distribution or Disposition
                                                                                                                                                                                                                                                                                                                                            Interest/
                                                                        Transaction        Investment                             Pricing                                                                       Repayment          Repayment                                                                                            Distributions
Note    Date             Institution             City             State Type               Description     Investment Amount   Mechanism         Date Amount                Date                     Amount          Date             Amount                Amount Description           Date        Description     Proceeds       Paid to Treasury
                         AG GECC PPIF
2,6     10/30/09         Master Fund, L.P.                                              
                                             Wilmington DE                 Purchase                           $2,222,222,222          Par    3/22/10 $2,542,675,000                7/16/10   $2,486,550,000
                                                                                                                                                                                                                                                                                                                                      $109,218,086
                         AG GECC PPIF
1,6     10/30/09         Master Fund, L.P.                                              
                                             Wilmington DE                 Purchase                           $1,111,111,111          Par    3/22/10 $1,271,337,500                7/16/10   $1,243,275,000
                                                                                           Debt
                         AllianceBernstein                                                 Obligation w/                                                                                                                                                               Debt Obligation
                         Legacy Securities                                                 Contingent                                                                                                                                                                   w/ Contingent
2,6     10/2/09          Master Fund, L.P. Wilmington             DE        Purchase       Proceeds           $2,222,222,222          Par    3/22/10 $2,488,875,000                7/16/10   $2,300,847,000        5/16/11       $30,244,575      $2,270,602,425            Proceeds                                                  $135,396,152
                                                                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                                                                                                                        w/ Contingent
                                                                                                                                                                                                                   6/14/11            $88,087     $2,270,514,339            Proceeds
                         AllianceBernstein
                         Legacy Securities                                                 Membership
1,6     10/2/09          Master Fund, L.P. Wilmington             DE        Purchase       Interest           $1,111,111,111          Par    3/22/10 $1,244,437,500                7/16/10   $1,150,423,500
                                                                                           Debt                                                                                                                                                                                                                                         $19,033,369
                                                                                           Obligation w/
                         Blackrock PPIF,                                                   Contingent
2,6     10/2/09          L.P.                    Wilmington       DE        Purchase       Proceeds           $2,222,222,222          Par    3/22/10 $2,488,875,000                7/16/10   $1,389,960,000
                         Blackrock PPIF,                                                   Membership
1,6     10/2/09          L.P.                    Wilmington       DE        Purchase       Interest           $1,111,111,111          Par    3/22/10 $1,244,437,500                7/16/10    $694,980,000
                                                                                                                                                                                                                                                                                                                                                        Transaction detail I Appendix D I july 28, 2011
                                                                                                                                                                                                                                                                                                                                                        243
PPIP Transaction Detail, as of 6/30/2011                                                 (Continued)


                                                                                                                                                                                                                                                                                                                            244
                                                                                                                                                                                                                        Investment after Capital
                                                                                                                                                   3
                                   Seller                                                                                    Adjusted Investment          Final Investment Amount7       Capital Repayment Details            Repayment                          Distribution or Disposition
                                                                                                                                                                                                                                                                                                                Interest/
                                                         Transaction   Investment                             Pricing                                                                    Repayment       Repayment                                                                                          Distributions
Note    Date        Institution      City          State Type          Description     Investment Amount   Mechanism        Date Amount                Date                    Amount         Date          Amount           Amount Description           Date        Description     Proceeds          Paid to Treasury
                                                                                                                                                                                                                                     Debt Obligation
                                                                                                                                                                                                                                     w/ Contingent
                                                                                                                                                                                           2/18/10       $4,888,718   $1,707,111,282 Proceeds
                                                                                                                                                                                                                                     Debt Obligation
                                                                                                                                                                                                                                     w/ Contingent
                                                                                                                                                                                           4/15/10       $7,066,434   $1,700,044,848 Proceeds
                                                                                                                                                                                                                                     Debt Obligation
                                                                                                                                                                                                                                     w/ Contingent
                                                                                                                                                                                           9/15/10      $60,022,674   $1,640,022,174 Proceeds
                                                                                                                                                                                                                                     Debt Obligation
                                                                       Debt                                                                                                                                                          w/ Contingent
                    Invesco Legacy                                                                                                                                                        11/15/10    $132,928,628    $1,507,093,546 Proceeds
                                                                       Obligation w/
2,6     9/30/09     Securities Master Wilmington   DE    Purchase                         $2,222,222,222          Par    3/22/10 $2,488,875,000               7/16/10   $1,712,000,000
                                                                       Contingent                                                                                                                                                    Debt Obligation
                    Fund, L.P.
                                                                       Proceeds                                                                                                                                                      w/ Contingent
                                                                                                                                                                                          12/14/10      $31,689,230   $1,475,404,316 Proceeds
                                                                                                                                                                                                                                     Debt Obligation
                                                                                                                                                                                                                                     w/ Contingent                                                        $432,688,423
                                                                                                                                                                                           1/14/10      $27,355,590   $1,448,048,726 Proceeds
                                                                                                                                                                                                                                     Debt Obligation
                                                                                                                                                                                                                                     w/ Contingent
                                                                                                                                                                                           2/14/11      $92,300,138   $1,355,748,588 Proceeds
                                                                                                                                                                                                                                     Debt Obligation
                                                                                                                                                                                                                                     w/ Contingent
                                                                                                                                                                                           3/14/11    $128,027,536    $1,227,721,052 Proceeds
                                                                                                                                                                                                                                                                                                                            Appendix D I Transaction Detail I july 28, 2011




                                                                                                                                                                                                                                     Debt Obligation
                                                                                                                                                                                                                                     w/ Contingent
                                                                                                                                                                                           4/14/11    $155,409,286    $1,072,311,766 Proceeds
                                                                                                                                                                                                                                    Debt Obligation
                                                                                                                                                                                                                                    w/ Contingent
                                                                                                                                                                                           5/20/11      $75,085,485    $997,226,281 Proceeds
                                                                                                                                                                                                                                    Debt Obligation
                                                                                                                                                                                                                                    w/ Contingent
                                                                                                                                                                                           6/14/11      $18,259,513    $978,966,768 Proceeds
                    Marathon Legacy                                    Debt
                    Securities Public-                                 Obligation w/
                    Private Investment                                 Contingent
2,6     11/25/09    Partnership, L.P. Wilmington   DE    Purchase      Proceeds           $2,222,222,222          Par    3/22/10 $2,488,875,000               7/16/10    $949,100,000
                                                                                                                                                                                                                                                                                                           $18,256,591
                    Marathon Legacy
                    Securities Public-
                    Private Investment                                 Membership
1,6     11/25/09    Partnership, L.P. Wilmington   DE    Purchase      Interest           $1,111,111,111          Par    3/22/10 $1,244,437,500               7/16/10    $474,550,000
                                                                       Debt
                                                                       Obligation w/
                    Oaktree PPIP                                       Contingent
2,6     12/18/09    Fund, L.P.       Wilmington    DE    Purchase      Proceeds           $2,222,222,222          Par    3/22/10 $2,488,875,000               7/16/10   $2,321,568,200                                                                                                                      $2,852,217

                    Oaktree PPIP                                       Membership
1,6     12/18/09    Fund, L.P.       Wilmington    DE    Purchase      Interest           $1,111,111,111          Par    3/22/10 $1,244,437,500               7/16/10   $1,160,784,100
                                                                       Debt
                    RLJ Western Asset                                  Obligation w/                                                                                                                                                    Debt Obligation
                    Public/Private                                     Contingent                                                                                                                                                       w/ Contingent
2,6     11/4/09     Master Fund, L.P. Wilmington   DE    Purchase      Proceeds           $2,222,222,222          Par    3/22/10 $2,488,875,000               7/16/10   $1,241,156,516     5/13/11      $13,531,530$1,227,624,986       Proceeds                                                           $84,303,606
                    RLJ Western Asset
                    Public/Private                                     Membership
1,6     11/4/09     Master Fund, L.P. Wilmington   DE    Purchase      Interest           $1,111,111,111          Par    3/22/10 $1,244,437,500               7/16/10    $620,578,258
                                                                                                                                                                                                                                    Debt Obligation
                                                                                                                                                                                                                                    w/ Contingent
                                                                       Debt                                                                                                              1/11/2010      $34,000,000    $166,000,000 Proceeds                          N/A
                    UST/TCW Senior
                                                                       Obligation w/
2,4,5   9/30/2009   Mortgage Securi- Wilmington    DE    Purchase                         $2,222,222,222          Par   1/4/2010   $200,000,000                          $200,000,000
                                                                       Contingent                                                                                                                                                                          1/29/2010 Distribution         $502,302
                    ties Fund, L.P.                                                                                                                                                                                                   Contingent
                                                                       Proceeds                                                                                                          1/12/2010    $166,000,000                  —
                                                                                                                                                                                                                                      Proceeds                       Final                                    $342,176
                                                                                                                                                                                                                                                           2/24/2010 Distribution              $1,223

                    UST/TCW Senior                                                                                                                                                                                                                         1/29/2010 Distribution      $20,091,872
                                                                       Membership                                                                                                                                                       Membership
1,4,5   9/30/2009   Mortgage Securi- Wilmington    DE    Purchase                         $1,111,111,111          Par   1/4/2010   $156,250,000                          $156,250,000    1/15/2010    $156,250,000                  —
                                                                       Interest                                                                                                                                                         Interest                     Final
                    ties Fund, L.P.
                                                                                                                                                                                                                                                           2/24/2010 Distribution          $48,922
                    Wellington Manage-                                 Debt
                    ment Legacy                                        Obligation w/
                    Securities PPIF                                    Contingent
2,6     10/1/09     Master Fund, LP Wilmington     DE    Purchase      Proceeds           $2,222,222,222          Par    3/22/10 $2,524,075,000               7/16/10   $2,298,974,000
                                                                                                                                                                                                                                                                                                           $77,093,529
                    Wellington Manage-
                    ment Legacy
                    Securities PPIF                                    Membership
1,6     10/1/09     Master Fund, LP Wilmington     DE    Purchase      Interest           $1,111,111,111          Par    3/22/10 $1,262,037,500               7/16/10   $1,149,487,000


                                                                                                                                                                                                                                                                                     Continued on next page.
 PPIP Transaction Detail, as of 6/30/2011                                                        (Continued)
                                                                                                                                                                                                                                                       Investment after Capital
                                                                                                                                                                       3
                                           Seller                                                                                                Adjusted Investment          Final Investment Amount7           Capital Repayment Details                   Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                                                                          Interest/
                                                                Transaction     Investment                                Pricing                                                                                Repayment          Repayment                                                                                         Distributions
Note    Date             Institution         City         State Type            Description    Investment Amount       Mechanism               Date Amount                 Date                        Amount         Date             Amount               Amount Description      Date           Description     Proceeds       Paid to Treasury



                                                                                Initial                                                                                    Final
                                                                                                                                                                                                                Total Capital                                                                      Total
                                                                                Investment      $30,000,000,000                                                            Investment     $22,406,483,574                     $1,133,147,423                                                                       $20,644,319
                                                                                                                                                                                                                 Repayment                                                                         Proceeds
                                                                                Amount                                                                                     Amount

Notes: Numbers may not total due to rounding. Data as of 6/30/2011. Numbered notes were taken verbatim from Treasury’s 7/1/2011 Transactions Report.
1
  The equity amount may be incrementally funded. Investment amount represents Treasury’s maximum obligation if the limited partners other than Treasury fund their maximum equity capital obligations.
2
   The loan may be incrementally funded. Investment amount represents Treasury’s maximum obligation if Treasury and the limited partners other than Treasury fund 100% of their maximum equity obligations.
3
    Adjusted to show Treasury’s maximum obligations to a fund.
4
    On 1/4/2010, Treasury and the fund manager entered into a Winding-Up and Liquidation Agreement.
5
    Profit after capital repayments will be paid pro rata (subject to prior distribution of Contingent Proceeds to Treasury) to the fund’s partners, including Treasury, in respect of their membership interests.
6
     Following termination of the TCW fund, the $3.33 billion of obligations have been reallocated to the remaining eight funds pursuant to consent letters from Treasury dated as of 3/22/2010. $133 million of maximum equity capital obligation and $267 million of maximum debt obligation were reallocated per fund, after adjustment for the
      $17.6 million and $26.9 million equity capital reallocations from private investors in the TCW fund to the Wellington fund and the AG GECC fund, respectively. The $356 million of final investment in the TCW fund will remain a part of Treasury’s total maximum S-PPIP investment amount.
7
      Amount adjusted to show Treasury’s final capital commitment (membership interest) and the maximum amount of Treasury’s debt obligation that may be drawn down in accordance with the Loan Agreement.

Sources: Treasury, Transactions Report, 7/1/2011; Treasury, Cumulative Dividends, Interest, and Distributions Report, 7/11/2011; Treasury, response to SIGTARP data call, 7/8/2011.




    table d.12

       HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                                           (CONTINUED)

                                       Servicer Modifying Borrowers’ Loans                   Cap of Incentive                                                                       Adjustment Details                                                                                  Non-GSE Incentive Payments
                                                                                                   Payments
                                                                                                 on Behalf of
                                                                                            Borrowers and to                                                                                                                                                                                                                              Total
                                                                                                    Servicers                                                                                                                                                                               Lenders/                                  Non-GSE
                            Name of                     Transaction    Investment                 & Lenders/     Pricing                 Adjustment         Cap Adjustment                                                                                             Borrowers            Investors             Servicers           Incentive
       Date                 Institution                 Type           Description          Investors (Cap) 1    Mechanism       Note    Date                      Amount               Adjusted Cap    Reason for Adjustment                                           Incentive          Incentives            Incentives          Payments

                                                                                                                                         6/12/2009            $284,590,000          $660,590,000        Updated portfolio data from servicer

                                                                                                                                                                                                        Updated portfolio data from servicer & HPDP
                                                                                                                                         9/30/2009            $121,910,000          $782,500,000
                                                                                                                                                                                                        initial cap

                                                                                                                                                                                                        Updated portfolio data from servicer & HAFA
                                                                                                                                         12/30/2009           $131,340,000          $913,840,000
                                                                                                                                                                                                        initial cap

                                                                                                                                         3/26/2010           ($355,530,000)         $558,310,000        Updated portfolio data from servicer

                                                                                                                                         7/14/2010            $128,690,000          $687,000,000        Updated portfolio data from servicer

                                                                                                                                         9/30/2010               $4,000,000         $691,000,000        Initial FHA-HAMP cap and initial FHA-2LP cap

                                                                                                                                         9/30/2010             $59,807,784          $750,807,784        Updated portfolio data from servicer

                                                                                                                                         11/16/2010               ($700,000)        $750,107,784        Transfer of cap due to servicing transfer
                                                                       Financial
                            Select Portfolio                                                                                             12/15/2010            $64,400,000          $814,507,784        Updated portfolio data from servicer
                                                                       Instrument for
       4/13/2009            Servicing,                  Purchase                               $376,000,000      N/A                                                                                                                                                $15,063,850        $39,175,514          $36,766,089           $91,005,453
                                                                       Home Loan
                            Salt Lake City, UT                                                                                           1/6/2011                      ($639)       $814,507,145        Updated portfolio data from servicer
                                                                       Modifications
                                                                                                                                         1/13/2011             ($2,300,000)         $812,207,145        Transfer of cap due to servicing transfer

                                                                                                                                         2/16/2011                 $100,000         $812,307,145        Transfer of cap due to servicing transfer

                                                                                                                                         3/16/2011               $3,600,000         $815,907,145        Transfer of cap due to servicing transfer

                                                                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                                                         3/30/2011                     ($735)       $815,906,410
                                                                                                                                                                                                        reallocation

                                                                                                                                         4/13/2011                ($100,000)        $815,806,410        Transfer of cap due to servicing transfer

                                                                                                                                         5/13/2011                 $400,000         $816,206,410        Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                                                                      Transaction detail I Appendix D I july 28, 2011




                                                                                                                                         6/16/2011                ($100,000)        $816,106,410        Transfer of cap due to servicing transfer

                                                                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                                                         6/29/2011                  ($6,805)        $816,099,605
                                                                                                                                                                                                        reallocation

                                                                                                                                                                                                                                                                                                                        Continued on next page.
                                                                                                                                                                                                                                                                                                                                                      245
                                                                                                                                                                                                                                                                                246
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                          (CONTINUED)

                      Servicer Modifying Borrowers’ Loans             Cap of Incentive                                                      Adjustment Details                                                           Non-GSE Incentive Payments
                                                                            Payments
                                                                          on Behalf of
                                                                     Borrowers and to                                                                                                                                                                                   Total
                                                                             Servicers                                                                                                                                      Lenders/                                Non-GSE
            Name of                   Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrowers       Investors         Servicers             Incentive
Date        Institution               Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount      Adjusted Cap   Reason for Adjustment                             Incentive     Incentives        Incentives            Payments

                                                                                                            6/12/2009    ($991,580,000)   $1,079,420,000   Updated portfolio data from servicer

                                                                                                                                                           Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009    $1,010,180,000   $2,089,600,000
                                                                                                                                                           initial cap

                                                                                                                                                           Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009   ($105,410,000)   $1,984,190,000
                                                                                                                                                           initial cap

                                                                                                                                                           Updated portfolio data from servicer & 2MP
                                                                                                            3/26/2010    ($199,300,000)   $1,784,890,000
                                                                                                                                                           initial cap

                                                                                                                                                           Transfer of cap to Service One, Inc. due to
                                                                                                            4/19/2010        ($230,000)   $1,784,660,000
                                                                                                                                                           servicing transfer

                                                                                                                                                           Transfer of cap to Specialized Loan Servic-
                                                                                                            5/14/2010      ($3,000,000)   $1,781,660,000
                                                                                                                                                           ing, LLC due to servicing transfer

                                                                                                                                                           Transfer of cap to multiple servicers due to
                                                                                                            6/16/2010     ($12,280,000)   $1,769,380,000
                                                                                                                                                           servicing transfer
                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I july 28, 2011




                                                                                                            7/14/2010    ($757,680,000)   $1,011,700,000   Updated portfolio data from servicer

                                                                                                                                                           Transfer of cap to multiple servicers due to
                                                                                                            7/16/2010      ($7,110,000)   $1,004,590,000
                                                                                                                                                           servicing transfer

                                                                                                                                                           Transfer of cap to multiple servicers due to
                                                                                                            8/13/2010      ($6,300,000)    $998,290,000
                                                                                                                                                           servicing transfer
                                                    Financial
            CitiMortgage, Inc.,                     Instrument for                                                                                         Transfer of cap to multiple servicers due to
4/13/2009                             Purchase                       $2,071,000,000      N/A                9/15/2010      ($8,300,000)    $989,990,000                                                   $15,033,316    $46,787,377      $41,072,284         $102,892,977
            O’Fallon, MO                            Home Loan                                                                                              servicing transfer
                                                    Modifications
                                                                                                            9/30/2010      $32,400,000    $1,022,390,000   Initial FHA-HAMP cap and initial FHA-2LP cap

                                                                                                            9/30/2010     $101,287,484    $1,123,677,484   Updated portfolio data from servicer

                                                                                                            10/15/2010     ($1,400,000)   $1,122,277,484   Transfer of cap due to servicing transfer

                                                                                                            11/16/2010     ($3,200,000)   $1,119,077,484   Transfer of cap due to servicing transfer

                                                                                                            1/6/2011             ($981)   $1,119,076,503   Updated portfolio data from servicer

                                                                                                            1/13/2011     ($10,500,000)   $1,108,576,503   Transfer of cap due to servicing transfer

                                                                                                            2/16/2011      ($4,600,000)   $1,103,976,503   Transfer of cap due to servicing transfer

                                                                                                            3/16/2011     ($30,500,000)   $1,073,476,503   Transfer of cap due to servicing transfer

                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                            3/30/2011          ($1,031)   $1,073,475,472
                                                                                                                                                           reallocation

                                                                                                            4/13/2011         $100,000    $1,073,575,472   Transfer of cap due to servicing transfer

                                                                                                            5/13/2011      ($7,200,000)   $1,066,375,472   Transfer of cap due to servicing transfer

                                                                                                            6/16/2011        ($400,000)   $1,065,975,472   Transfer of cap due to servicing transfer

                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                            6/29/2011          ($9,131)   $1,065,966,341
                                                                                                                                                           reallocation

                                                                                                                                                                                                                                                      Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                          (CONTINUED)

                      Servicer Modifying Borrowers’ Loans             Cap of Incentive                                                        Adjustment Details                                                          Non-GSE Incentive Payments
                                                                            Payments
                                                                          on Behalf of
                                                                     Borrowers and to                                                                                                                                                                                    Total
                                                                             Servicers                                                                                                                                       Lenders/                                Non-GSE
            Name of                   Transaction   Investment             & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                     Borrowers       Investors         Servicers             Incentive
Date        Institution               Type          Description      Investors (Cap) 1   Mechanism   Note   Date                 Amount       Adjusted Cap   Reason for Adjustment                            Incentive     Incentives        Incentives            Payments

                                                                                                            6/17/2009     ($462,990,000)    $2,410,010,000   Updated portfolio data from servicer

                                                                                                                                                             Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009        $65,070,000    $2,475,080,000
                                                                                                                                                             initial cap

                                                                                                                                                             Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009    $1,213,310,000    $3,688,390,000
                                                                                                                                                             initial cap

                                                                                                                                                             Transfer of cap (from Wachovia) due to
                                                                                                            2/17/2010     $2,050,236,344    $5,738,626,344
                                                                                                                                                             merger

                                                                                                                                                             Transfer of cap (from Wachovia) due to
                                                                                                            3/12/2010            $54,767    $5,738,681,110
                                                                                                                                                             merger

                                                                                                            3/19/2010      $668,108,890     $6,406,790,000   Initial 2MP cap

                                                                                                            3/26/2010      $683,130,000     $7,089,920,000   Updated portfolio data from servicer

                                                                                                            7/14/2010    ($2,038,220,000)   $5,051,700,000   Updated portfolio data from servicer

                                                                                                            9/30/2010     ($287,348,828)    $4,764,351,172   Updated portfolio data from servicer
                                                    Financial
                                                                                                                                                             Initial FHA-HAMP cap, initial FHA-2LP cap,
            Wells Fargo Bank, NA,                   Instrument for                                          9/30/2010      $344,000,000     $5,108,351,172
4/13/2009                             Purchase                       $2,873,000,000      N/A                                                                 and initial RD-HAMP                           $28,374,162    $80,352,602      $69,281,823         $178,008,588
            Des Moines, IA                          Home Loan
                                                    Modifications
                                                                                                                                                             Transfer of cap (from Wachovia) due to
                                                                                                            12/3/2010         $8,413,225    $5,116,764,397
                                                                                                                                                             merger

                                                                                                            12/15/2010       $22,200,000    $5,138,964,397   Updated portfolio data from servicer

                                                                                                            1/6/2011             ($6,312)   $5,138,958,085   Updated portfolio data from servicer

                                                                                                            1/13/2011         ($100,000)    $5,138,858,085   Transfer of cap due to servicing transfer

                                                                                                            3/16/2011         ($100,000)    $5,138,758,085   Transfer of cap due to servicing transfer

                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                            3/30/2011            ($7,171)   $5,138,750,914
                                                                                                                                                             reallocation

                                                                                                            4/13/2011        ($9,800,000)   $5,128,950,914   Transfer of cap due to servicing transfer

                                                                                                            5/13/2011           $100,000    $5,129,050,914   Transfer of cap due to servicing transfer

                                                                                                            6/16/2011         ($600,000)    $5,128,450,914   Transfer of cap due to servicing transfer

                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                            6/29/2011           ($63,856)   $5,128,387,058
                                                                                                                                                             reallocation

                                                                                                                                                                                                                                                       Continued on next page.
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I july 28, 2011
                                                                                                                                                                                                                                                                                 247
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                          (CONTINUED)                                                                                                                                                                                      248
                      Servicer Modifying Borrowers’ Loans             Cap of Incentive                                                        Adjustment Details                                                            Non-GSE Incentive Payments
                                                                            Payments
                                                                          on Behalf of
                                                                     Borrowers and to                                                                                                                                                                                      Total
                                                                             Servicers                                                                                                                                         Lenders/                                Non-GSE
            Name of                   Transaction   Investment             & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                       Borrowers       Investors         Servicers             Incentive
Date        Institution               Type          Description      Investors (Cap) 1   Mechanism   Note   Date                 Amount       Adjusted Cap   Reason for Adjustment                              Incentive     Incentives        Incentives            Payments

                                                                                                            6/12/2009      $384,650,000     $1,017,650,000   Updated portfolio data from servicer

                                                                                                                                                             Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009     $2,537,240,000    $3,554,890,000
                                                                                                                                                             initial cap

                                                                                                                                                             Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009   ($1,679,520,000)   $1,875,370,000
                                                                                                                                                             initial cap

                                                                                                            3/26/2010      $190,180,000     $2,065,550,000   Updated portfolio data from servicer

                                                                                                                                                             Transfer of cap from Wilshire Credit Corpora-
                                                                                                            5/14/2010         $1,880,000    $2,067,430,000
                                                                                                                                                             tion due to servicing transfer

                                                                                                            7/14/2010     ($881,530,000)    $1,185,900,000   Updated portfolio data from servicer

                                                                                                            8/13/2010        ($3,700,000)   $1,182,200,000   Transfer of cap due to servicing transfer
                                                    Financial
                                                                                                                                                             Initial FHA-HAMP cap, initial FHA-2LP cap,
            GMAC Mortgage, Inc.,                    Instrument for                                          9/30/2010      $119,200,000     $1,301,400,000
4/13/2009                             Purchase                         $633,000,000      N/A                                                                 and initial 2MP cap                             $10,126,737    $39,142,406      $30,951,449           $80,220,591
            Ft. Washington, PA                      Home Loan
                                                    Modifications
                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I july 28, 2011




                                                                                                            9/30/2010      $216,998,139     $1,518,398,139   Updated portfolio data from servicer

                                                                                                            12/15/2010        ($500,000)    $1,517,898,139   Updated portfolio data from servicer

                                                                                                            1/6/2011             ($1,734)   $1,517,896,405   Updated portfolio data from servicer

                                                                                                            3/16/2011         ($100,000)    $1,517,796,405   Transfer of cap due to servicing transfer

                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                            3/30/2011            ($2,024)   $1,517,794,381
                                                                                                                                                             reallocation

                                                                                                            4/13/2011         ($800,000)    $1,516,994,381   Transfer of cap due to servicing transfer

                                                                                                            5/13/2011      ($17,900,000)    $1,499,094,381   Transfer of cap due to servicing transfer

                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                            6/29/2011           ($18,457)   $1,499,075,924
                                                                                                                                                             reallocation

                                                                                                                                                                                                                                                         Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                          (CONTINUED)

                      Servicer Modifying Borrowers’ Loans             Cap of Incentive                                                        Adjustment Details                                                           Non-GSE Incentive Payments
                                                                            Payments
                                                                          on Behalf of
                                                                     Borrowers and to                                                                                                                                                                                     Total
                                                                             Servicers                                                                                                                                        Lenders/                                Non-GSE
            Name of                   Transaction   Investment             & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                      Borrowers       Investors         Servicers             Incentive
Date        Institution               Type          Description      Investors (Cap) 1   Mechanism   Note   Date                 Amount       Adjusted Cap   Reason for Adjustment                             Incentive     Incentives        Incentives            Payments

                                                                                                            6/17/2009      $225,040,000      $632,040,000    Updated portfolio data from servicer

                                                                                                                                                             Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009      $254,380,000      $886,420,000
                                                                                                                                                             initial cap

                                                                                                                                                             Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009     $355,710,000     $1,242,130,000
                                                                                                                                                             initial cap

                                                                                                            3/26/2010      ($57,720,000)    $1,184,410,000   Updated portfolio data from servicer

                                                                                                                                                             Transfer of cap to Ocwen Financial Corpora-
                                                                                                            6/16/2010     ($156,050,000)    $1,028,360,000
                                                                                                                                                             tion, Inc. due to servicing transfer

                                                                                                            7/14/2010     ($513,660,000)     $514,700,000    Updated portfolio data from servicer

                                                                                                                                                             Transfer of cap due to multiple servicing
                                                                                                            7/16/2010      ($22,980,000)     $491,720,000
                                                                                                                                                             transfers

                                                                                                            9/15/2010         $1,800,000     $493,520,000    Transfer of cap due to servicing transfer
                                                    Financial
            Saxon Mortgage
                                                    Instrument for
4/13/2009   Services, Inc.,           Purchase                         $407,000,000      N/A                9/30/2010         $9,800,000     $503,320,000    Initial FHA-HAMP cap and initial FHA-2LP cap   $12,249,385    $24,114,854      $29,456,450           $65,820,689
                                                    Home Loan
            Irving, TX
                                                    Modifications
                                                                                                            9/30/2010      $116,222,668      $619,542,668    Updated portfolio data from servicer

                                                                                                            10/15/2010          $100,000     $619,642,668    Transfer of cap due to servicing transfer

                                                                                                            12/15/2010        $8,900,000     $628,542,668    Updated portfolio data from servicer

                                                                                                            1/6/2011               ($556)    $628,542,112    Updated portfolio data from servicer

                                                                                                            1/13/2011         $2,300,000     $630,842,112    Transfer of cap due to servicing transfer

                                                                                                            3/16/2011           $700,000     $631,542,112    Transfer of cap due to servicing transfer

                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                            3/30/2011              ($654)    $631,541,458
                                                                                                                                                             reallocation

                                                                                                            4/13/2011         $2,100,000     $633,641,458    Transfer of cap due to servicing transfer

                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                            6/29/2011            ($6,144)    $633,635,314
                                                                                                                                                             reallocation

                                                    Financial
            Chase Home Finance,
                                                    Instrument for
4/13/2009   LLC,                      Purchase                       $3,552,000,000      N/A          2     7/31/2009    ($3,552,000,000)              $—    Termination of SPA                                     $—             $—                   $—                 $—
                                                    Home Loan
            Iselin, NJ
                                                    Modifications

                                                                                                                                                                                                                                                        Continued on next page.
                                                                                                                                                                                                                                                                                  Transaction detail I Appendix D I july 28, 2011
                                                                                                                                                                                                                                                                                  249
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                             (CONTINUED)                                                                                                                                                                                  250
                         Servicer Modifying Borrowers’ Loans             Cap of Incentive                                                      Adjustment Details                                                          Non-GSE Incentive Payments
                                                                               Payments
                                                                             on Behalf of
                                                                        Borrowers and to                                                                                                                                                                                  Total
                                                                                Servicers                                                                                                                                     Lenders/                                Non-GSE
               Name of                   Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                    Borrowers       Investors         Servicers             Incentive
Date           Institution               Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount      Adjusted Cap   Reason for Adjustment                            Incentive     Incentives        Incentives            Payments

                                                                                                               6/12/2009    ($105,620,000)    $553,380,000    Updated portfolio data from servicer

                                                                                                                                                              Updated portfolio data from servicer & HPDP
                                                                                                               9/30/2009     $102,580,000     $655,960,000
                                                                                                                                                              initial cap

                                                                                                                                                              Updated portfolio data from servicer & HAFA
                                                                                                               12/30/2009    $277,640,000     $933,600,000
                                                                                                                                                              initial cap

                                                                                                               3/26/2010      $46,860,000     $980,460,000    Updated portfolio data from servicer

                                                                                                                                                              Transfer of cap from Saxon Mortgage
                                                                                                               6/16/2010     $156,050,000    $1,136,510,000
                                                                                                                                                              Services, Inc. due to servicing transfer

                                                                                                               7/14/2010    ($191,610,000)    $944,900,000    Updated portfolio data from servicer
                                                       Financial
               Ocwen Loan Servic-                                                                                                                             Transfer of cap from Saxon Mortgage
                                                       Instrument for                                          7/16/2010      $23,710,000     $968,610,000
4/16/2009      ing, LP,                  Purchase                         $659,000,000      N/A                                                               Services, Inc. due to servicing transfer      $15,103,345    $42,459,575      $36,907,445           $94,470,365
                                                       Home Loan
               West Palm Beach, FL
                                                       Modifications
                                                                                                               9/15/2010         $100,000     $968,710,000    Initial FHA-HAMP cap
                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I july 28, 2011




                                                                                                               9/30/2010       $3,742,740     $972,452,740    Updated portfolio data from servicer

                                                                                                               10/15/2010    $170,800,000    $1,143,252,740   Transfer of cap due to servicing transfer

                                                                                                               1/6/2011           ($1,020)   $1,143,251,720   Updated portfolio data from servicer

                                                                                                               2/16/2011         $900,000    $1,144,151,720   Transfer of cap due to servicing transfer

                                                                                                                                                              Updated due to quarterly assessment and
                                                                                                               3/30/2011          ($1,114)   $1,144,150,606
                                                                                                                                                              reallocation

                                                                                                                                                              Updated due to quarterly assessment and
                                                                                                               6/29/2011         ($10,044)   $1,144,140,562
                                                                                                                                                              reallocation

                                                                                                               6/12/2009       $5,540,000     $804,440,000    Updated portfolio data from servicer

                                                                                                                                                              Updated portfolio data from servicer & HPDP
                                                                                                               9/30/2009     $162,680,000     $967,120,000
                                                                                                                                                              initial cap

                                                                                                                                                              Updated portfolio data from servicer & HAFA
                                                                                                               12/30/2009    $665,510,000    $1,632,630,000
                                                                                                                                                              initial cap

                                                                                                               1/26/2010     $800,390,000    $2,433,020,000   Initial 2MP cap

                                                                                                               3/26/2010    ($829,370,000)   $1,603,650,000   Updated portfolio data from servicer
                                                       Financial
4/17/2009 as
               Bank of America, N.A.,                  Instrument for                                          7/14/2010    ($366,750,000)   $1,236,900,000   Updated portfolio data from servicer
amended on                               Purchase                         $798,900,000      N/A                                                                                                              $3,107,416    $13,713,245      $10,080,939           $26,901,599
               Simi Valley, CA                         Home Loan
1/26/2010
                                                       Modifications                                                                                          Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                               9/30/2010      $95,300,000    $1,332,200,000
                                                                                                                                                              and initial RD-HAMP

                                                                                                               9/30/2010     $222,941,084    $1,555,141,084   Updated portfolio data from servicer

                                                                                                               1/6/2011           ($2,199)   $1,555,138,885   Updated portfolio data from servicer

                                                                                                                                                              Updated due to quarterly assessment and
                                                                                                               3/30/2011          ($2,548)   $1,555,136,337
                                                                                                                                                              reallocation

                                                                                                                                                              Updated due to quarterly assessment and
                                                                                                               6/29/2011         ($23,337)   $1,555,113,000
                                                                                                                                                              reallocation

                                                                                                                                                                                                                                                        Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                             (CONTINUED)

                         Servicer Modifying Borrowers’ Loans             Cap of Incentive                                                        Adjustment Details                                                            Non-GSE Incentive Payments
                                                                               Payments
                                                                             on Behalf of
                                                                        Borrowers and to                                                                                                                                                                                      Total
                                                                                Servicers                                                                                                                                         Lenders/                                Non-GSE
               Name of                   Transaction   Investment             & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                       Borrowers       Investors         Servicers             Incentive
Date           Institution               Type          Description      Investors (Cap) 1   Mechanism   Note   Date                 Amount       Adjusted Cap   Reason for Adjustment                              Incentive     Incentives        Incentives            Payments

                                                                                                               6/12/2009     $3,318,840,000    $5,182,840,000   Updated portfolio data from servicer

                                                                                                                                                                Updated portfolio data from servicer & HPDP
                                                                                                               9/30/2009     ($717,420,000)    $4,465,420,000
                                                                                                                                                                initial cap

                                                                                                                                                                Updated portfolio data from servicer & HAFA
                                                                                                               12/30/2009    $2,290,780,000    $6,756,200,000
                                                                                                                                                                initial cap

                                                                                                               1/26/2010      $450,100,000     $7,206,300,000   Initial 2MP cap

                                                                                                               3/26/2010      $905,010,000     $8,111,310,000   Updated portfolio data from servicer

                                                                                                                                                                Transfer of cap from Wilshire Credit Corpora-
                                                                                                               4/19/2010        $10,280,000    $8,121,590,000
                                                                                                                                                                tion due to servicing transfer

                                                                                                                                                                Transfer of cap from Wilshire Credit Corpora-
                                                                                                               6/16/2010      $286,510,000     $8,408,100,000
                                                                                                                                                                tion due to servicing transfer

                                                                                                               7/14/2010    ($1,787,300,000)   $6,620,800,000   Updated portfolio data from servicer
               BAC Home Loans
               Financial Servicing, LP                 Financial                                                                                                Initial FHA-HAMP cap, initial FHA-2LP cap,
4/17/2009 as                                                                                                   9/30/2010      $105,500,000     $6,726,300,000
               (formerly known as:                     Instrument for                                                                                           and initial RD-HAMP
amended on                               Purchase                       $1,864,000,000      N/A                                                                                                                 $27,559,698    $78,530,233      $68,216,221         $174,306,152
               Countrywide Home                        Home Loan
1/26/2010
               Loans Servicing LP),                    Modifications                                           9/30/2010     ($614,527,362)    $6,111,772,638   Updated portfolio data from servicer
               Simi Valley, CA
                                                                                                               12/15/2010     $236,000,000     $6,347,772,638   Updated portfolio data from servicer

                                                                                                               1/6/2011             ($8,012)   $6,347,764,626   Updated portfolio data from servicer

                                                                                                               2/16/2011         $1,800,000    $6,349,564,626   Transfer of cap due to servicing transfer

                                                                                                               3/16/2011           $100,000    $6,349,664,626   Transfer of cap due to servicing transfer

                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                               3/30/2011            ($9,190)   $6,349,655,436
                                                                                                                                                                reallocation

                                                                                                               4/13/2011           $200,000    $6,349,855,436   Transfer of cap due to servicing transfer

                                                                                                               5/13/2011           $300,000    $6,350,155,436   Transfer of cap due to servicing transfer

                                                                                                               6/16/2011        ($1,000,000)   $6,349,155,436   Transfer of cap due to servicing transfer

                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                               6/29/2011           ($82,347)   $6,349,073,089
                                                                                                                                                                reallocation

                                                                                                               6/12/2009      $128,300,000      $447,300,000    Updated portfolio data from servicer

                                                                                                                                                                Updated portfolio data from servicer & HPDP
                                                                                                               9/30/2009        $46,730,000     $494,030,000
                                                                                                                                                                initial cap

                                                                                                                                                                Updated portfolio data from servicer & HAFA
                                                                                                               12/30/2009     $145,820,000      $639,850,000
                                                                                                                                                                initial cap

                                                                                                               3/26/2010      ($17,440,000)     $622,410,000    Updated portfolio data from servicer

                                                                                                               7/14/2010      ($73,010,000)     $549,400,000    Updated portfolio data from servicer

                                                                                                               9/30/2010         $6,700,000     $556,100,000    Initial FHA-2LP cap
                                                       Financial
               Home Loan Services,                                                                             9/30/2010      ($77,126,410)     $478,973,590    Updated portfolio data from servicer
                                                       Instrument for
4/20/2009      Inc.,                     Purchase                         $319,000,000      N/A                                                                                                                   $169,858      $2,440,768       $3,698,607            $6,309,233
                                                       Home Loan
               Pittsburgh, PA                                                                                  12/15/2010    ($314,900,000)     $164,073,590    Updated portfolio data from servicer
                                                       Modifications
                                                                                                               1/6/2011               ($233)    $164,073,357    Updated portfolio data from servicer

                                                                                                               2/16/2011        ($1,900,000)    $162,173,357    Transfer of cap due to servicing transfer

                                                                                                               3/16/2011         ($400,000)     $161,773,357    Transfer of cap due to servicing transfer

                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                               3/30/2011              ($278)    $161,773,079
                                                                                                                                                                reallocation
                                                                                                                                                                                                                                                                                      Transaction detail I Appendix D I july 28, 2011




                                                                                                               5/13/2011         ($400,000)     $161,373,079    Transfer of cap due to servicing transfer

                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                               6/29/2011            ($2,625)    $161,370,454
                                                                                                                                                                reallocation

                                                                                                                                                                                                                                                            Continued on next page.
                                                                                                                                                                                                                                                                                      251
                                                                                                                                                                                                                                                                              252
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                           (CONTINUED)

                      Servicer Modifying Borrowers’ Loans              Cap of Incentive                                                    Adjustment Details                                                          Non-GSE Incentive Payments
                                                                             Payments
                                                                           on Behalf of
                                                                      Borrowers and to                                                                                                                                                                                Total
                                                                              Servicers                                                                                                                                   Lenders/                                Non-GSE
            Name of                    Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                  Borrowers       Investors         Servicers             Incentive
Date        Institution                Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount    Adjusted Cap   Reason for Adjustment                            Incentive     Incentives        Incentives            Payments

                                                                                                             6/12/2009      $87,130,000    $453,130,000   Updated portfolio data from servicer

                                                                                                                                                          Updated portfolio data from servicer & HPDP
                                                                                                             9/30/2009    ($249,670,000)   $203,460,000
                                                                                                                                                          initial cap

                                                                                                                                                          Updated portfolio data from servicer & HAFA
                                                                                                             12/30/2009    $119,700,000    $323,160,000
                                                                                                                                                          initial cap

                                                                                                             3/26/2010      $52,270,000    $375,430,000   Updated portfolio data from servicer

                                                                                                                                                          Transfer of cap to Countrywide Home Loans
                                                                                                             4/19/2010     ($10,280,000)   $365,150,000
                                                                                                                                                          due to servicing transfer

                                                                                                                                                          Transfer of cap to GMAC Mortgage, Inc. due
                                                                                                             5/14/2010      ($1,880,000)   $363,270,000
                                                                                                                                                          to servicing transfer
                                                     Financial
            Wilshire Credit Corpora-                                                                                                                      Transfer of cap to Countrywide Home Loans
                                                     Instrument for                                          6/16/2010    ($286,510,000)    $76,760,000
4/20/2009   tion,                      Purchase                         $366,000,000      N/A                                                             due to servicing transfer                             $—       $490,394        $1,167,000            $1,657,394
                                                     Home Loan
            Beaverton, OR
                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I july 28, 2011




                                                     Modifications
                                                                                                             7/14/2010      $19,540,000     $96,300,000   Updated portfolio data from servicer

                                                                                                                                                          Transfer of cap to Green Tree Servicing LLC
                                                                                                             7/16/2010        ($210,000)    $96,090,000
                                                                                                                                                          due to servicing transfer

                                                                                                             8/13/2010        ($100,000)    $95,990,000   Transfer of cap due to servicing transfer

                                                                                                             9/30/2010      $68,565,782    $164,555,782   Updated portfolio data from servicer

                                                                                                             1/6/2011             ($247)   $164,555,535   Updated portfolio data from servicer

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             3/30/2011            ($294)   $164,555,241
                                                                                                                                                          reallocation

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011          ($2,779)   $164,552,462
                                                                                                                                                          reallocation

                                                                                                             6/17/2009     ($64,990,000)    $91,010,000   Updated portfolio data from servicer

                                                                                                                                                          Updated portfolio data from servicer & HPDP
                                                                                                             9/30/2009     $130,780,000    $221,790,000
                                                                                                                                                          initial cap

                                                                                                                                                          Updated portfolio data from servicer & HAFA
                                                                                                             12/30/2009   ($116,750,000)   $105,040,000
                                                                                                                                                          initial cap

                                                                                                             3/26/2010      $13,080,000    $118,120,000   Updated portfolio data from servicer

                                                                                                             7/14/2010     ($24,220,000)    $93,900,000   Updated portfolio data from servicer

                                                                                                                                                          Transfer of cap from Wilshire Credit Corpora-
                                                                                                             7/16/2010         $210,000     $94,110,000
                                                                                                                                                          tion due to servicing transfer

                                                                                                             8/13/2010       $2,200,000     $96,310,000   Transfer of cap due to servicing transfer
                                                     Financial
            Green Tree Servicing
                                                     Instrument for                                          9/10/2010      $34,600,000    $130,910,000   Initial 2MP cap
4/24/2009   LLC,                       Purchase                         $156,000,000      N/A                                                                                                             $181,177       $547,482          $815,492            $1,544,151
                                                     Home Loan
            Saint Paul, MN
                                                     Modifications                                           9/30/2010       $5,600,000    $136,510,000   Initial FHA-2LP cap and FHA-HAMP

                                                                                                             9/30/2010      $10,185,090    $146,695,090   Updated portfolio data from servicer

                                                                                                             10/15/2010        $400,000    $147,095,090   Transfer of cap due to servicing transfer

                                                                                                             1/6/2011             ($213)   $147,094,877   Updated portfolio data from servicer

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             3/30/2011            ($250)   $147,094,627
                                                                                                                                                          reallocation

                                                                                                             5/13/2011       $1,200,000    $148,294,627   Transfer of cap due to servicing transfer

                                                                                                             6/16/2011         $100,000    $148,394,627   Transfer of cap due to servicing transfer

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011          ($2,302)   $148,392,325
                                                                                                                                                          reallocation

                                                                                                                                                                                                                                                    Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                          (CONTINUED)

                      Servicer Modifying Borrowers’ Loans             Cap of Incentive                                                    Adjustment Details                                                         Non-GSE Incentive Payments
                                                                            Payments
                                                                          on Behalf of
                                                                     Borrowers and to                                                                                                                                                                               Total
                                                                             Servicers                                                                                                                                  Lenders/                                Non-GSE
            Name of                   Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrowers       Investors         Servicers             Incentive
Date        Institution               Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount    Adjusted Cap   Reason for Adjustment                           Incentive     Incentives        Incentives            Payments

                                                                                                            6/17/2009     ($63,980,000)   $131,020,000   Updated portfolio data from servicer

                                                                                                                                                         Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009      $90,990,000    $222,010,000
                                                                                                                                                         initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009     $57,980,000    $279,990,000
                                                                                                                                                         initial cap

                                                                                                            3/26/2010      $74,520,000    $354,510,000   Updated portfolio data from servicer

                                                                                                            7/14/2010     ($75,610,000)   $278,900,000   Updated portfolio data from servicer
                                                    Financial
            Carrington Mortgage                                                                             8/13/2010       $1,100,000    $280,000,000   Transfer of cap due to servicing transfer
                                                    Instrument for
4/27/2009   Services, LLC,            Purchase                         $195,000,000      N/A                                                                                                           $2,048,283     $7,553,982       $6,050,352           $15,652,617
                                                    Home Loan
            Santa Ana, CA                                                                                   9/30/2010       $3,763,685    $283,763,685   Updated portfolio data from servicer
                                                    Modifications
                                                                                                            12/15/2010        $300,000    $284,063,685   Updated portfolio data from servicer

                                                                                                            1/6/2011             ($325)   $284,063,360   Updated portfolio data from servicer

                                                                                                            1/13/2011       $2,400,000    $286,463,360   Transfer of cap due to servicing transfer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            3/30/2011            ($384)   $286,462,976
                                                                                                                                                         reallocation

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            6/29/2011          ($3,592)   $286,459,384
                                                                                                                                                         reallocation

                                                                                                            6/17/2009    ($338,450,000)   $459,550,000   Updated portfolio data from servicer

                                                                                                                                                         Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009     ($11,860,000)   $447,690,000
                                                                                                                                                         initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009     $21,330,000    $469,020,000
                                                                                                                                                         initial cap

                                                                                                            3/26/2010       $9,150,000    $478,170,000   Updated portfolio data from servicer

                                                                                                            7/14/2010     ($76,870,000)   $401,300,000   Updated portfolio data from servicer
                                                    Financial
            Aurora Loan Services,
                                                    Instrument for
5/1/2009    LLC,                      Purchase                         $798,000,000      N/A                9/1/2010          $400,000    $401,700,000   Initial FHA-HAMP cap                          $5,362,356    $17,224,086      $13,931,039           $36,517,481
                                                    Home Loan
            Littleton, CO
                                                    Modifications
                                                                                                            9/30/2010      ($8,454,269)   $393,245,731   Updated portfolio data from servicer

                                                                                                            1/6/2011             ($342)   $393,245,389   Updated portfolio data from servicer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            3/30/2011            ($374)   $393,245,015
                                                                                                                                                         reallocation

                                                                                                            5/13/2011      $18,000,000    $411,245,015   Transfer of cap due to servicing transfer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            6/29/2011          ($3,273)   $411,241,742
                                                                                                                                                         reallocation

                                                                                                                                                                                                                                                  Continued on next page.
                                                                                                                                                                                                                                                                            Transaction detail I Appendix D I july 28, 2011
                                                                                                                                                                                                                                                                            253
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                          (CONTINUED)                                                                                                                                                                               254
                      Servicer Modifying Borrowers’ Loans             Cap of Incentive                                                    Adjustment Details                                                         Non-GSE Incentive Payments
                                                                            Payments
                                                                          on Behalf of
                                                                     Borrowers and to                                                                                                                                                                               Total
                                                                             Servicers                                                                                                                                  Lenders/                                Non-GSE
            Name of                   Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrowers       Investors         Servicers             Incentive
Date        Institution               Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount    Adjusted Cap   Reason for Adjustment                           Incentive     Incentives        Incentives            Payments

                                                                                                            6/12/2009      $16,140,000    $117,140,000   Updated portfolio data from servicer

                                                                                                                                                         Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009     $134,560,000    $251,700,000
                                                                                                                                                         initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009     $80,250,000    $331,950,000
                                                                                                                                                         initial cap

                                                                                                            3/26/2010      $67,250,000    $399,200,000   Updated portfolio data from servicer

                                                                                                            7/14/2010     ($85,900,000)   $313,300,000   Updated portfolio data from servicer

                                                                                                            8/13/2010         $100,000    $313,400,000   Transfer of cap due to servicing transfer

                                                                                                                                                         Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                            9/30/2010       $2,900,000    $316,300,000
                                                                                                                                                         initial RD-HAMP, and initial 2MP cap
                                                    Financial
            Nationstar Mortgage
                                                    Instrument for                                          9/30/2010      $33,801,486    $350,101,486   Updated portfolio data from servicer
5/28/2009   LLC,                       Purchase                        $101,000,000      N/A                                                                                                           $3,860,681    $10,904,087      $10,218,879           $24,983,647
                                                    Home Loan
            Lewisville, TX
                                                    Modifications                                           11/16/2010        $700,000    $350,801,486   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                            Appendix D I Transaction Detail I july 28, 2011




                                                                                                            12/15/2010      $1,700,000    $352,501,486   Updated portfolio data from servicer

                                                                                                            1/6/2011             ($363)   $352,501,123   Updated portfolio data from servicer

                                                                                                            2/16/2011         $900,000    $353,401,123   Transfer of cap due to servicing transfer

                                                                                                            3/16/2011      $29,800,000    $383,201,123   Transfer of cap due to servicing transfer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            3/30/2011            ($428)   $383,200,695
                                                                                                                                                         reallocation

                                                                                                            5/26/2011      $20,077,503    $403,278,198   Transfer of cap due to servicing transfer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            6/29/2011          ($4,248)   $403,273,950
                                                                                                                                                         reallocation

                                                                                                                                                         Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009      ($1,860,000)    $17,540,000
                                                                                                                                                         initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009     $27,920,000     $45,460,000
                                                                                                                                                         initial cap

                                                                                                            3/26/2010      ($1,390,000)    $44,070,000   Updated portfolio data from servicer

                                                                                                            7/14/2010     ($13,870,000)    $30,200,000   Updated portfolio data from servicer

                                                    Financial                                                                                            Initial FHA-HAMP cap, initial FHA-2LP cap,
            Residential Credit                                                                              9/30/2010         $400,000     $30,600,000
                                                    Instrument for                                                                                       and initial 2MP cap
6/12/2009   Solutions,                Purchase                           $19,400,000     N/A                                                                                                            $235,115       $732,874          $746,671            $1,714,661
                                                    Home Loan
            Fort Worth, TX
                                                    Modifications                                           9/30/2010         $586,954     $31,186,954   Updated portfolio data from servicer

                                                                                                            1/6/2011              ($34)    $31,186,920   Updated portfolio data from servicer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            3/30/2011             ($37)    $31,186,883
                                                                                                                                                         reallocation

                                                                                                            4/13/2011         $100,000     $31,286,883   Transfer of cap due to servicing transfer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            6/29/2011            ($329)    $31,286,554
                                                                                                                                                         reallocation

                                                                                                                                                                                                                                                  Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                          (CONTINUED)

                      Servicer Modifying Borrowers’ Loans             Cap of Incentive                                                    Adjustment Details                                                        Non-GSE Incentive Payments
                                                                            Payments
                                                                          on Behalf of
                                                                     Borrowers and to                                                                                                                                                                              Total
                                                                             Servicers                                                                                                                                 Lenders/                                Non-GSE
            Name of                   Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                Borrowers       Investors         Servicers             Incentive
Date        Institution               Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount    Adjusted Cap   Reason for Adjustment                          Incentive     Incentives        Incentives            Payments

                                                                                                                                                         Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009      $13,070,000     $29,590,000
                                                                                                                                                         initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009    $145,510,000    $175,100,000
                                                                                                                                                         initial cap

                                                                                                            3/26/2010    ($116,950,000)    $58,150,000   Updated portfolio data from servicer
                                                    Financial
                                                                                                            7/14/2010     ($23,350,000)    $34,800,000   Updated portfolio data from servicer
            CCO Mortgage,                           Instrument for
6/17/2009                             Purchase                           $16,520,000     N/A                                                                                                           $477,187      $1,500,099       $1,274,505            $3,251,790
            Glen Allen, VA                          Home Loan
                                                                                                            9/30/2010       $7,846,346     $42,646,346   Updated portfolio data from servicer
                                                    Modifications
                                                                                                            1/6/2011              ($46)    $42,646,300   Updated portfolio data from servicer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            3/30/2011             ($55)    $42,646,245
                                                                                                                                                         reallocation

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            6/29/2011            ($452)    $42,645,793
                                                                                                                                                         reallocation

                                                                                                                                                         Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009     ($11,300,000)    $45,700,000
                                                                                                                                                         initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009    ($42,210,000)     $3,490,000
                                                                                                                                                         initial cap

                                                                                                            3/26/2010      $65,640,000     $69,130,000   Updated portfolio data from servicer

                                                                                                            4/9/2010      ($14,470,000)    $54,660,000   Updated portfolio data from servicer
                                                    Financial
            RG Mortgage Corpora-                                                                            7/14/2010      ($8,860,000)    $45,800,000   Updated portfolio data from servicer
                                                    Instrument for
6/17/2009   tion,                     Purchase                           $57,000,000     N/A                                                                                                           $164,853       $227,582          $401,334              $793,769
                                                    Home Loan
            San Juan, PR                                                                                    9/30/2010      ($4,459,154)    $41,340,846   Updated portfolio data from servicer
                                                    Modifications
                                                                                                            12/15/2010     ($4,300,000)    $37,040,846   Updated portfolio data from servicer

                                                                                                            1/6/2011              ($51)    $37,040,795   Updated portfolio data from servicer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            3/30/2011             ($65)    $37,040,730
                                                                                                                                                         reallocation

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            6/29/2011            ($616)    $37,040,114
                                                                                                                                                         reallocation

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009      $2,020,000      $2,790,000
                                                    Financial                                                                                            initial cap
            First Federal Savings
                                                    Instrument for
6/19/2009   and Loan,                 Purchase                              $770,000     N/A                                                                                                                 $—             $—                   $—                 $—
                                                    Home Loan                                               3/26/2010      $11,370,000     $14,160,000   Updated portfolio data from servicer
            Port Angeles, WA
                                                    Modifications
                                                                                                            5/26/2010     ($14,160,000)            $—    Termination of SPA

                                                                                                                                                         Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009         $330,000       $870,000
                                                                                                                                                         initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009     $16,490,000     $17,360,000
                                                                                                                                                         initial cap

                                                                                                            3/26/2010     ($14,260,000)     $3,100,000   Updated portfolio data from servicer

                                                                                                            7/14/2010      ($1,800,000)     $1,300,000   Updated portfolio data from servicer
                                                    Financial
            Wescom Central Credit
                                                    Instrument for                                          7/30/2010       $1,500,000      $2,800,000   Updated portfolio data from servicer
6/19/2009   Union,                    Purchase                              $540,000     N/A         12                                                                                                 $93,546       $374,719          $210,613              $678,877
                                                    Home Loan
            Anaheim, CA
                                                    Modifications                                           9/30/2010       $1,551,668      $4,351,668   Updated portfolio data from servicer

                                                                                                            1/6/2011               ($2)     $4,351,666   Updated portfolio data from servicer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            3/30/2011              ($2)     $4,351,664
                                                                                                                                                         reallocation

                                                                                                            5/13/2011      ($1,800,000)     $2,551,664   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                           Transaction detail I Appendix D I july 28, 2011




                                                                                                            6/3/2011       ($1,872,787)      $678,877    Termination of SPA

                                                                                                                                                                                                                                                 Continued on next page.
                                                                                                                                                                                                                                                                           255
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                           (CONTINUED)                                                                                                                                                                                  256
                      Servicer Modifying Borrowers’ Loans              Cap of Incentive                                                        Adjustment Details                                                        Non-GSE Incentive Payments
                                                                             Payments
                                                                           on Behalf of
                                                                      Borrowers and to                                                                                                                                                                                  Total
                                                                              Servicers                                                                                                                                     Lenders/                                Non-GSE
            Name of                    Transaction   Investment             & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                   Borrowers       Investors         Servicers             Incentive
Date        Institution                Type          Description      Investors (Cap) 1   Mechanism   Note   Date                 Amount       Adjusted Cap   Reason for Adjustment                          Incentive     Incentives        Incentives            Payments

                                                                                                                                                              Updated portfolio data from servicer & HPDP
                                                                                                             9/30/2009           ($10,000)          $20,000
                                                                                                                                                              initial cap

                                                                                                                                                              Updated portfolio data from servicer & HAFA
                                                                                                             12/30/2009          $590,000         $610,000
                                                                                                                                                              initial cap
                                                     Financial
            Citizens First Wholesale
                                                     Instrument for
6/26/2009   Mortgage Company,          Purchase                               $30,000     N/A                3/26/2010         ($580,000)           $30,000   Updated portfolio data from servicer                $—             $—                   $—                 $—
                                                     Home Loan
            The Villages, FL
                                                     Modifications
                                                                                                             7/14/2010            $70,000         $100,000    Updated portfolio data from servicer

                                                                                                             9/30/2010            $45,056         $145,056    Updated portfolio data from servicer

                                                                                                             2/17/2011         ($145,056)               $—    Termination of SPA

                                                                                                                                                              Updated portfolio data from servicer & HAFA
                                                                                                             12/30/2009        $2,180,000        $2,250,000
                                                                                                                                                              initial cap

                                                                                                             3/26/2010         ($720,000)        $1,530,000   Updated portfolio data from servicer

                                                                                                             7/14/2010         ($430,000)        $1,100,000   Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I july 28, 2011




                                                     Financial
            Technology Credit Union,                 Instrument for                                          9/30/2010            $60,445        $1,160,445   Updated portfolio data from servicer
6/26/2009                              Purchase                               $70,000     N/A                                                                                                                 $9,417        $42,811           $23,917               $76,144
            San Jose, CA                             Home Loan
                                                     Modifications                                           1/6/2011                 ($1)       $1,160,444   Updated portfolio data from servicer

                                                                                                                                                              Updated due to quarterly assessment and
                                                                                                             3/30/2011                ($1)       $1,160,443
                                                                                                                                                              reallocation

                                                                                                                                                              Updated due to quarterly assessment and
                                                                                                             6/29/2011               ($12)       $1,160,431
                                                                                                                                                              reallocation

                                                                                                                                                              Updated portfolio data from servicer & HPDP
                                                                                                             9/30/2009      $315,170,000      $610,150,000
                                                                                                                                                              initial cap

                                                                                                                                                              Updated portfolio data from servicer & HAFA
                                                                                                             12/30/2009       $90,280,000     $700,430,000
                                                                                                                                                              initial cap

                                                                                                             3/26/2010      ($18,690,000)     $681,740,000    Updated portfolio data from servicer

                                                                                                             7/14/2010     ($272,640,000)     $409,100,000    Updated portfolio data from servicer

                                                                                                                                                              Initial FHA-HAMP cap, Initial FHA-2LP cap,
                                                                                                             9/30/2010        $80,600,000     $489,700,000
                                                                                                                                                              and initial 2MP cap

                                                                                                             9/30/2010        $71,230,004     $560,930,004    Updated portfolio data from servicer
                                                     Financial
            National City Bank,                      Instrument for                                          1/6/2011               ($828)    $560,929,176    Updated portfolio data from servicer
6/26/2009                              Purchase                         $294,980,000      N/A                                                                                                               $449,054      $1,757,563       $1,324,245            $3,530,863
            Miamisburg, OH                           Home Loan
                                                     Modifications                                           2/16/2011           $200,000     $561,129,176    Transfer of cap due to servicing transfer

                                                                                                             3/16/2011         ($100,000)     $561,029,176    Transfer of cap due to servicing transfer

                                                                                                                                                              Updated due to quarterly assessment and
                                                                                                             3/30/2011              ($981)    $561,028,195
                                                                                                                                                              reallocation

                                                                                                             4/13/2011        ($2,300,000)    $558,728,195    Transfer of cap due to servicing transfer

                                                                                                             5/13/2011         ($200,000)     $558,528,195    Transfer of cap due to servicing transfer

                                                                                                             6/16/2011         ($200,000)     $558,328,195    Transfer of cap due to servicing transfer

                                                                                                                                                              Updated due to quarterly assessment and
                                                                                                             6/29/2011            ($9,197)    $558,318,998
                                                                                                                                                              reallocation

                                                                                                                                                              Updated portfolio data from servicer & HPDP
                                                                                                             9/30/2009      $723,880,000     $1,357,890,000
                                                                                                                                                              initial cap

                                                                                                                                                              Updated portfolio data from servicer & HAFA
                                                     Financial                                               12/30/2009     $692,640,000     $2,050,530,000
            Wachovia Mortgage,                                                                                                                                initial cap
                                                     Instrument for
7/1/2009    FSB,                       Purchase                         $634,010,000      N/A         3                                                                                                           $—        $76,890          $162,000              $238,890
                                                     Home Loan
            Des Moines, IA                                                                                                                                    Transfer of cap (to Wells Fargo Bank) due
                                                     Modifications                                           2/17/2010    ($2,050,236,344)        $293,656
                                                                                                                                                              to merger

                                                                                                                                                              Transfer of cap (to Wells Fargo Bank) due
                                                                                                             3/12/2010           ($54,767)        $238,890
                                                                                                                                                              to merger

                                                                                                                                                                                                                                                      Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                          (CONTINUED)

                      Servicer Modifying Borrowers’ Loans             Cap of Incentive                                                    Adjustment Details                                                         Non-GSE Incentive Payments
                                                                            Payments
                                                                          on Behalf of
                                                                     Borrowers and to                                                                                                                                                                               Total
                                                                             Servicers                                                                                                                                  Lenders/                                Non-GSE
            Name of                   Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrowers       Investors         Servicers             Incentive
Date        Institution               Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount    Adjusted Cap   Reason for Adjustment                           Incentive     Incentives        Incentives            Payments

                                                                                                                                                         Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009      $23,850,000     $68,110,000
                                                                                                                                                         initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009     $43,590,000    $111,700,000
                                                                                                                                                         initial cap

                                                                                                            3/26/2010      $34,540,000    $146,240,000   Updated portfolio data from servicer

                                                                                                            5/7/2010        $1,010,000    $147,250,000   Initial 2MP cap

                                                                                                            7/14/2010     ($34,250,000)   $113,000,000   Updated portfolio data from servicer
                                                    Financial
            Bayview Loan Servicing,                                                                         9/30/2010         $600,000    $113,600,000   Initial FHA-2LP cap
                                                    Instrument for
7/1/2009    LLC,                      Purchase                           $44,260,000     N/A                                                                                                           $1,847,257     $4,844,286       $4,565,505           $11,257,048
                                                    Home Loan
            Coral Gables, FL                                                                                9/30/2010     ($15,252,303)    $98,347,697   Updated portfolio data from servicer
                                                    Modifications
                                                                                                            1/6/2011              ($70)    $98,347,627   Updated portfolio data from servicer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            3/30/2011             ($86)    $98,347,541
                                                                                                                                                         reallocation

                                                                                                            4/13/2011         $400,000     $98,747,541   Transfer of cap due to servicing transfer

                                                                                                            5/13/2011         $100,000     $98,847,541   Transfer of cap due to servicing transfer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            6/29/2011            ($771)    $98,846,770
                                                                                                                                                         reallocation

                                                                                                                                                         Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009         $150,000       $250,000
                                                                                                                                                         initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009        $130,000       $380,000
                                                                                                                                                         initial cap

                                                                                                            3/26/2010          $50,000       $430,000    Updated portfolio data from servicer
                                                    Financial
                                                                                                            7/14/2010         ($30,000)      $400,000    Updated portfolio data from servicer
            Lake National Bank,                     Instrument for
7/10/2009                             Purchase                              $100,000     N/A                                                                                                              $2,000          $2,324           $3,000                $7,324
            Mentor, OH                              Home Loan
                                                                                                            9/30/2010          $35,167       $435,167    Updated portfolio data from servicer
                                                    Modifications
                                                                                                            1/6/2011               ($1)      $435,166    Updated portfolio data from servicer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            3/30/2011              ($1)      $435,165
                                                                                                                                                         reallocation

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            6/29/2011              ($6)      $435,159
                                                                                                                                                         reallocation

                                                                                                                                                         Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009         ($10,000)      $860,000
                                                                                                                                                         initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009        $250,000      $1,110,000
                                                                                                                                                         initial cap

                                                                                                            3/26/2010         ($10,000)     $1,100,000   Updated portfolio data from servicer
            IBM Southeast Em-                       Financial
                                                                                                            7/14/2010        ($400,000)      $700,000    Updated portfolio data from servicer
            ployees’ Federal Credit                 Instrument for
7/10/2009                             Purchase                              $870,000     N/A                                                                                                              $2,917          $9,814          $10,000               $22,731
            Union,                                  Home Loan
                                                                                                            9/30/2010         $170,334       $870,334    Updated portfolio data from servicer
            Delray Beach, FL                        Modifications
                                                                                                            1/6/2011               ($1)      $870,333    Updated portfolio data from servicer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            3/30/2011              ($1)      $870,332
                                                                                                                                                         reallocation

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            6/29/2011             ($12)      $870,320
                                                                                                                                                         reallocation

                                                                                                                                                                                                                                                  Continued on next page.
                                                                                                                                                                                                                                                                            Transaction detail I Appendix D I july 28, 2011
                                                                                                                                                                                                                                                                            257
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                          (CONTINUED)                                                                                                                                                                              258
                      Servicer Modifying Borrowers’ Loans             Cap of Incentive                                                    Adjustment Details                                                        Non-GSE Incentive Payments
                                                                            Payments
                                                                          on Behalf of
                                                                     Borrowers and to                                                                                                                                                                              Total
                                                                             Servicers                                                                                                                                 Lenders/                                Non-GSE
            Name of                   Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                Borrowers       Investors         Servicers             Incentive
Date        Institution               Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount    Adjusted Cap   Reason for Adjustment                          Incentive     Incentives        Incentives            Payments

                                                                                                                                                         Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009      $18,530,000    $42,010,000
                                                                                                                                                         initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009     $24,510,000    $66,520,000
                                                                                                                                                         initial cap

                                                                                                            3/26/2010      $18,360,000    $84,880,000    Updated portfolio data from servicer

                                                                                                            7/14/2010     ($22,580,000)   $62,300,000    Updated portfolio data from servicer
                                                    Financial
            MorEquity, Inc.,                        Instrument for
7/17/2009                             Purchase                           $23,480,000     N/A         11     9/30/2010      ($8,194,261)   $54,105,739    Updated portfolio data from servicer          $345,841      $2,305,003       $1,977,321            $4,628,165
            Evansville, IN                          Home Loan
                                                    Modifications
                                                                                                            1/6/2011              ($37)   $54,105,702    Updated portfolio data from servicer

                                                                                                            3/16/2011     ($29,400,000)   $24,705,702    Transfer of cap due to servicing transfer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            3/30/2011             ($34)   $24,705,668
                                                                                                                                                         reallocation

                                                                                                                                                         Termination of SPA
                                                                                                            5/26/2011     ($20,077,503)     $4,628,165
                                                                                                                                                                                                                                                                           Appendix D I Transaction Detail I july 28, 2011




                                                                                                                                                         (remaining cap equals distribution amount)

                                                                                                                                                         Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009     ($36,240,000)   $18,230,000
                                                                                                                                                         initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009     $19,280,000    $37,510,000
                                                                                                                                                         initial cap

                                                                                                            3/26/2010       $2,470,000    $39,980,000    Updated portfolio data from servicer

                                                                                                            7/14/2010     ($17,180,000)   $22,800,000    Updated portfolio data from servicer
                                                    Financial
            PNC Bank, National                                                                              9/30/2010      $35,500,000    $58,300,000    Initial FHA-2LP cap and initial 2MP cap
                                                    Instrument for
7/17/2009   Association,              Purchase                           $54,470,000     N/A                                                                                                            $12,833        $30,516           $41,000               $84,349
                                                    Home Loan
            Pittsburgh, PA                                                                                  9/30/2010      $23,076,191    $81,376,191    Updated portfolio data from servicer
                                                    Modifications
                                                                                                            1/6/2011             ($123)   $81,376,068    Updated portfolio data from servicer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            3/30/2011            ($147)   $81,375,921
                                                                                                                                                         reallocation

                                                                                                            5/13/2011        ($100,000)   $81,275,921    Transfer of cap due to servicing transfer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            6/29/2011          ($1,382)   $81,274,539
                                                                                                                                                         reallocation

                                                                                                                                                         Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009         ($90,000)        $80,000
                                                                                                                                                         initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009         $50,000       $130,000
                                                                                                                                                         initial cap
                                                    Financial
            Farmers State Bank,                     Instrument for
7/17/2009                             Purchase                              $170,000     N/A                3/26/2010         $100,000       $230,000    Updated portfolio data from servicer                $—             $—                   $—                 $—
            West Salem, OH                          Home Loan
                                                    Modifications
                                                                                                            7/14/2010        ($130,000)      $100,000    Updated portfolio data from servicer

                                                                                                            9/30/2010          $45,056       $145,056    Updated portfolio data from servicer

                                                                                                            5/20/2011        ($145,056)            $—    Termination of SPA

                                                                                                                                                                                                                                                 Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                          (CONTINUED)

                      Servicer Modifying Borrowers’ Loans             Cap of Incentive                                                      Adjustment Details                                                          Non-GSE Incentive Payments
                                                                            Payments
                                                                          on Behalf of
                                                                     Borrowers and to                                                                                                                                                                                  Total
                                                                             Servicers                                                                                                                                     Lenders/                                Non-GSE
            Name of                   Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                    Borrowers       Investors         Servicers             Incentive
Date        Institution               Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount      Adjusted Cap   Reason for Adjustment                            Incentive     Incentives        Incentives            Payments

                                                                                                                                                           Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009         $890,000        $2,300,000
                                                                                                                                                           initial cap

                                                                                                                                                           Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009      $1,260,000        $3,560,000
                                                                                                                                                           initial cap

                                                                                                            3/26/2010         ($20,000)       $3,540,000   Updated portfolio data from servicer

                                                                                                            7/14/2010        ($240,000)       $3,300,000   Updated portfolio data from servicer
                                                    Financial
            ShoreBank,                              Instrument for
7/17/2009                             Purchase                            $1,410,000     N/A                9/30/2010         $471,446        $3,771,446   Updated portfolio data from servicer             $49,915       $153,906          $143,165              $346,986
            Chicago, IL                             Home Loan
                                                    Modifications
                                                                                                            1/6/2011               ($3)       $3,771,443   Updated portfolio data from servicer

                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                            3/30/2011              ($4)       $3,771,439
                                                                                                                                                           reallocation

                                                                                                            4/13/2011      ($1,100,000)       $2,671,439   Transfer of cap due to servicing transfer

                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                            6/29/2011             ($38)       $2,671,401
                                                                                                                                                           reallocation

                                                                                                                                                           Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009     ($53,670,000)   $1,218,820,000
                                                                                                                                                           initial cap

                                                                                                                                                           Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009    $250,450,000    $1,469,270,000
                                                                                                                                                           initial cap

                                                                                                            3/26/2010     $124,820,000    $1,594,090,000   Updated portfolio data from servicer

                                                                                                            7/14/2010    ($289,990,000)   $1,304,100,000   Updated portfolio data from servicer

                                                                                                            9/30/2010       $1,690,508    $1,305,790,508   Updated portfolio data from servicer
                                                    Financial
            American Home Mort-                                                                             10/15/2010        $300,000    $1,306,090,508   Transfer of cap due to servicing transfer
                                                    Instrument for
7/22/2009   gage Servicing, Inc,      Purchase                       $1,272,490,000      N/A                                                                                                             $12,023,297    $49,651,169      $39,422,434         $101,096,901
                                                    Home Loan
            Coppell, TX                                                                                     11/16/2010       ($100,000)   $1,305,990,508   Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                            1/6/2011           ($1,173)   $1,305,989,335   Updated portfolio data from servicer

                                                                                                            2/16/2011        ($500,000)   $1,305,489,335   Transfer of cap due to servicing transfer

                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                            3/30/2011          ($1,400)   $1,305,487,935
                                                                                                                                                           reallocation

                                                                                                            4/13/2011       $3,100,000    $1,308,587,935   Transfer of cap due to servicing transfer

                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                            6/29/2011         ($12,883)   $1,308,575,052
                                                                                                                                                           reallocation

                                                                                                                                                           Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009       $1,780,000        $5,990,000
                                                                                                                                                           initial cap

                                                                                                                                                           Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009      $2,840,000        $8,830,000
                                                                                                                                                           initial cap

                                                                                                            3/26/2010       $2,800,000      $11,630,000    Updated portfolio data from servicer
                                                    Financial
                                                                                                            7/14/2010      ($5,730,000)       $5,900,000   Updated portfolio data from servicer
            Mortgage Center, LLC,                   Instrument for
7/22/2009                             Purchase                            $4,210,000     N/A                                                                                                                $29,875        $68,270           $94,867              $193,011
            Southfield, MI                          Home Loan
                                                                                                            9/30/2010       $2,658,280        $8,558,280   Updated portfolio data from servicer
                                                    Modifications
                                                                                                            1/6/2011              ($12)       $8,558,268   Updated portfolio data from servicer

                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                            3/30/2011             ($14)       $8,558,254
                                                                                                                                                           reallocation

                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                            6/29/2011            ($129)       $8,558,125
                                                                                                                                                           reallocation
                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I july 28, 2011




                                                                                                                                                                                                                                                     Continued on next page.
                                                                                                                                                                                                                                                                               259
                                                                                                                                                                                                                                                                           260
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                          (CONTINUED)

                      Servicer Modifying Borrowers’ Loans             Cap of Incentive                                                    Adjustment Details                                                        Non-GSE Incentive Payments
                                                                            Payments
                                                                          on Behalf of
                                                                     Borrowers and to                                                                                                                                                                              Total
                                                                             Servicers                                                                                                                                 Lenders/                                Non-GSE
            Name of                   Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                Borrowers       Investors         Servicers             Incentive
Date        Institution               Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount    Adjusted Cap   Reason for Adjustment                          Incentive     Incentives        Incentives            Payments

                                                                                                                                                         Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009        ($490,000)      $370,000
                                                                                                                                                         initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009      $6,750,000      $7,120,000
                                                                                                                                                         initial cap

                                                                                                            3/26/2010      ($6,340,000)      $780,000    Updated portfolio data from servicer
                                                    Financial
            Mission Federal Credit
                                                    Instrument for
7/22/2009   Union,                    Purchase                              $860,000     N/A                7/14/2010        ($180,000)      $600,000    Updated portfolio data from servicer           $14,500        $37,433           $35,000               $86,933
                                                    Home Loan
            San Diego, CA
                                                    Modifications
                                                                                                            9/30/2010         $125,278       $725,278    Updated portfolio data from servicer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            3/30/2011              ($1)      $725,277
                                                                                                                                                         reallocation

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            6/29/2011              ($4)      $725,273
                                                                                                                                                         reallocation

                                                                                                                                                         Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009      ($1,530,000)     $4,930,000
                                                                                                                                                         initial cap
                                                                                                                                                                                                                                                                           Appendix D I Transaction Detail I july 28, 2011




                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009        $680,000      $5,610,000
                                                                                                                                                         initial cap

                                                                                                            3/26/2010       $2,460,000      $8,070,000   Updated portfolio data from servicer
                                                    Financial
                                                                                                            7/14/2010      ($2,470,000)     $5,600,000   Updated portfolio data from servicer
            First Bank,                             Instrument for
7/29/2009                             Purchase                            $6,460,000     N/A                                                                                                           $203,935       $547,448          $588,725            $1,340,108
            St. Louis, MO                           Home Loan
                                                                                                            9/30/2010       $2,523,114      $8,123,114   Updated portfolio data from servicer
                                                    Modifications
                                                                                                            1/6/2011               ($2)     $8,123,112   Updated portfolio data from servicer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            3/30/2011              ($2)     $8,123,110
                                                                                                                                                         reallocation

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            6/29/2011             ($15)     $8,123,095
                                                                                                                                                         reallocation

                                                                                                                                                         Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009         ($60,000)     $1,030,000
                                                                                                                                                         initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009      $1,260,000      $2,290,000
                                                                                                                                                         initial cap

                                                                                                            3/26/2010       $2,070,000      $4,360,000   Updated portfolio data from servicer
                                                    Financial
            Purdue Employees                                                                                7/14/2010      ($3,960,000)      $400,000    Updated portfolio data from servicer
                                                    Instrument for
7/29/2009   Federal Credit Union,     Purchase                            $1,090,000     N/A                                                                                                                 $—             $—                   $—                 $—
                                                    Home Loan
            West Lafayette, IN                                                                              9/30/2010         $180,222       $580,222    Updated portfolio data from servicer
                                                    Modifications
                                                                                                            1/6/2011               ($1)      $580,221    Updated portfolio data from servicer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            3/30/2011              ($1)      $580,220
                                                                                                                                                         reallocation

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            6/29/2011              ($8)      $580,212
                                                                                                                                                         reallocation

                                                                                                                                                         Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009     ($37,700,000)   $47,320,000
                                                                                                                                                         initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009     $26,160,000    $73,480,000
                                                                                                                                                         initial cap
                                                    Financial
            Wachovia Bank, N.A.,                    Instrument for
7/29/2009                             Purchase                           $85,020,000     N/A                3/26/2010       $9,820,000    $83,300,000    Updated portfolio data from servicer                $—             $—                   $—                 $—
            Charlotte, NC                           Home Loan
                                                    Modifications
                                                                                                            7/14/2010     ($46,200,000)   $37,100,000    Updated portfolio data from servicer

                                                                                                            9/30/2010     ($28,686,775)     $8,413,225   Updated portfolio data from servicer

                                                                                                            12/3/2010      ($8,413,225)            $—    Termination of SPA

                                                                                                                                                                                                                                                 Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                          (CONTINUED)

                      Servicer Modifying Borrowers’ Loans             Cap of Incentive                                                        Adjustment Details                                                           Non-GSE Incentive Payments
                                                                            Payments
                                                                          on Behalf of
                                                                     Borrowers and to                                                                                                                                                                                     Total
                                                                             Servicers                                                                                                                                        Lenders/                                Non-GSE
            Name of                   Transaction   Investment             & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                      Borrowers       Investors         Servicers             Incentive
Date        Institution               Type          Description      Investors (Cap) 1   Mechanism   Note   Date                 Amount       Adjusted Cap   Reason for Adjustment                             Incentive     Incentives        Incentives            Payments

                                                                                                                                                             Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009      ($14,850,000)    $2,684,870,000
                                                                                                                                                             initial cap

                                                                                                                                                             Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009    $1,178,180,000    $3,863,050,000
                                                                                                                                                             initial cap

                                                                                                                                                             Updated portfolio data from servicer & 2MP
                                                                                                            3/26/2010     $1,006,580,000    $4,869,630,000
                                                                                                                                                             initial cap

                                                                                                            7/14/2010    ($1,934,230,000)   $2,935,400,000   Updated portfolio data from servicer

                                                                                                                                                             Initial FHA-HAMP cap, Initial FHA-2LP cap,
                                                                                                            9/30/2010        $72,400,000    $3,007,800,000
                                                                                                                                                             and initial RD-HAMP
                                                    Financial
            J.P.Morgan Chase
                                                    Instrument for
7/31/2009   Bank, NA,                 Purchase                       $2,699,720,000      N/A                9/30/2010      $215,625,536     $3,223,425,536   Updated portfolio data from servicer           $42,687,366    $68,670,462      $85,201,942         $196,559,770
                                                    Home Loan
            Lewisville, TX
                                                    Modifications
                                                                                                            1/6/2011             ($3,636)   $3,223,421,900   Updated portfolio data from servicer

                                                                                                            3/16/2011         ($100,000)    $3,223,321,900   Transfer of cap due to servicing transfer

                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                            3/30/2011            ($3,999)   $3,223,317,901
                                                                                                                                                             reallocation

                                                                                                            4/13/2011         ($200,000)    $3,223,117,901   Transfer of cap due to servicing transfer

                                                                                                            5/13/2011      $122,700,000     $3,345,817,901   Transfer of cap due to servicing transfer

                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                            6/29/2011           ($34,606)   $3,345,783,295
                                                                                                                                                             reallocation

                                                                                                                                                             Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009           ($10,000)    $707,370,000
                                                                                                                                                             initial cap

                                                                                                                                                             Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009     $502,430,000     $1,209,800,000
                                                                                                                                                             initial cap

                                                                                                                                                             Updated portfolio data from servicer & 2MP
                                                                                                            3/26/2010     ($134,560,000)    $1,075,240,000
                                                                                                                                                             initial cap

                                                                                                            7/14/2010     ($392,140,000)     $683,100,000    Updated portfolio data from servicer

                                                                                                                                                             Transfer of cap to Saxon Mortgage
                                                                                                            7/16/2010         ($630,000)     $682,470,000
                                                                                                                                                             Services, Inc.

                                                                                                            9/30/2010        $13,100,000     $695,570,000    Initial FHA-HAMP cap and initial FHA-2LP cap
                                                    Financial
            EMC Mortgage Corpora-                                                                           9/30/2010        ($8,006,457)    $687,563,543    Updated portfolio data from servicer
                                                    Instrument for
7/31/2009   tion,                     Purchase                         $707,380,000      N/A                                                                                                                 $7,569,459    $11,592,937      $16,279,383           $35,441,779
                                                    Home Loan
            Lewisville, TX                                                                                  10/15/2010        ($100,000)     $687,463,543    Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                            12/15/2010       ($4,400,000)    $683,063,543    Updated portfolio data from servicer

                                                                                                            1/6/2011               ($802)    $683,062,741    Updated portfolio data from servicer

                                                                                                            2/16/2011         ($900,000)     $682,162,741    Transfer of cap due to servicing transfer

                                                                                                            3/16/2011        ($4,000,000)    $678,162,741    Transfer of cap due to servicing transfer

                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                            3/30/2011              ($925)    $678,161,816
                                                                                                                                                             reallocation

                                                                                                            5/13/2011     ($122,900,000)     $555,261,816    Transfer of cap due to servicing transfer

                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                            6/29/2011            ($8,728)    $555,253,088
                                                                                                                                                             reallocation

                                                                                                                                                                                                                                                        Continued on next page.
                                                                                                                                                                                                                                                                                  Transaction detail I Appendix D I july 28, 2011
                                                                                                                                                                                                                                                                                  261
                                                                                                                                                                                                                                                                           262
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                          (CONTINUED)

                     Servicer Modifying Borrowers’ Loans              Cap of Incentive                                                    Adjustment Details                                                        Non-GSE Incentive Payments
                                                                            Payments
                                                                          on Behalf of
                                                                     Borrowers and to                                                                                                                                                                              Total
                                                                             Servicers                                                                                                                                 Lenders/                                Non-GSE
           Name of                    Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                Borrowers       Investors         Servicers             Incentive
Date       Institution                Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount    Adjusted Cap   Reason for Adjustment                          Incentive     Incentives        Incentives            Payments

                                                                                                                                                         Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009         $180,000       $600,000
                                                                                                                                                         initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009       ($350,000)      $250,000
                                                                                                                                                         initial cap
                                                    Financial
           Lake City Bank,                          Instrument for                                          3/26/2010          $20,000       $270,000    Updated portfolio data from servicer
8/5/2009                              Purchase                              $420,000     N/A                                                                                                               $833          $1,078           $6,000                $7,911
           Warsaw, IN                               Home Loan
                                                    Modifications                                           7/14/2010         ($70,000)      $200,000    Updated portfolio data from servicer

                                                                                                            9/30/2010          $90,111       $290,111    Updated portfolio data from servicer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            6/29/2011              ($3)      $290,108
                                                                                                                                                         reallocation

                                                                                                                                                         Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009         $290,000       $430,000
                                                                                                                                                         initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009        $210,000       $640,000
                                                                                                                                                         initial cap

                                                                                                            3/26/2010         $170,000       $810,000    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                           Appendix D I Transaction Detail I july 28, 2011




                                                                                                            7/14/2010         ($10,000)      $800,000    Updated portfolio data from servicer
                                                    Financial
           Oakland Municipal Credit
                                                    Instrument for
8/5/2009   Union,                     Purchase                              $140,000     N/A                9/30/2010         ($74,722)      $725,278    Updated portfolio data from servicer                $—          $3,568           $6,500               $10,068
                                                    Home Loan
           Oakland, CA
                                                    Modifications
                                                                                                            1/6/2011               ($1)      $725,277    Updated portfolio data from servicer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            3/30/2011              ($1)      $725,276
                                                                                                                                                         reallocation

                                                                                                            4/13/2011        ($200,000)      $525,276    Transfer of cap due to servicing transfer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            6/29/2011              ($7)      $525,269
                                                                                                                                                         reallocation

                                                                                                                                                         Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009    ($121,190,000)   $552,810,000
                                                                                                                                                         initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009    ($36,290,000)   $516,520,000
                                                                                                                                                         initial cap

                                                                                                            3/26/2010     $199,320,000    $715,840,000   Updated portfolio data from servicer

                                                                                                            7/14/2010    ($189,040,000)   $526,800,000   Updated portfolio data from servicer

                                                                                                            9/30/2010      $38,626,728    $565,426,728   Updated portfolio data from servicer
                                                    Financial
           HomEq Servicing,                         Instrument for
8/5/2009                              Purchase                         $674,000,000      N/A                10/15/2010   ($170,800,000)   $394,626,728   Transfer of cap due to servicing transfer           $—      $3,036,319       $5,272,500            $8,308,819
           North Highlands, CA                      Home Loan
                                                    Modifications
                                                                                                            12/15/2010    ($22,200,000)   $372,426,728   Updated portfolio data from servicer

                                                                                                            1/6/2011             ($549)   $372,426,179   Updated portfolio data from servicer

                                                                                                            2/16/2011        ($900,000)   $371,526,179   Transfer of cap due to servicing transfer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            3/30/2011            ($653)   $371,525,526
                                                                                                                                                         reallocation

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            6/29/2011          ($6,168)   $371,519,358
                                                                                                                                                         reallocation

                                                                                                                                                                                                                                                 Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                            (CONTINUED)

                      Servicer Modifying Borrowers’ Loans               Cap of Incentive                                                      Adjustment Details                                                          Non-GSE Incentive Payments
                                                                              Payments
                                                                            on Behalf of
                                                                       Borrowers and to                                                                                                                                                                                  Total
                                                                               Servicers                                                                                                                                     Lenders/                                Non-GSE
            Name of                     Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                    Borrowers       Investors         Servicers             Incentive
Date        Institution                 Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount      Adjusted Cap   Reason for Adjustment                            Incentive     Incentives        Incentives            Payments

                                                                                                                                                             Updated portfolio data from servicer & HPDP
                                                                                                              9/30/2009     $313,050,000    $1,087,950,000
                                                                                                                                                             initial cap

                                                                                                                                                             Updated portfolio data from servicer & HAFA
                                                                                                              12/30/2009    $275,370,000    $1,363,320,000
                                                                                                                                                             initial cap

                                                                                                              3/26/2010     $278,910,000    $1,642,230,000   Updated portfolio data from servicer

                                                                                                              7/14/2010    ($474,730,000)   $1,167,500,000   Updated portfolio data from servicer

                                                                                                              8/13/2010        ($700,000)   $1,166,800,000   Transfer of cap to due to servicing transfer

                                                                                                              9/15/2010      ($1,000,000)   $1,165,800,000   Transfer of cap to due to servicing transfer

                                                                                                              9/30/2010    ($115,017,236)   $1,050,782,764   Updated portfolio data from servicer
                                                      Financial
                                                                                                              10/15/2010       ($800,000)   $1,049,982,764   Transfer of cap due to servicing transfer
            Litton Loan Servicing LP,                 Instrument for
8/12/2009                               Purchase                         $774,900,000      N/A                                                                                                              $7,805,147    $23,240,915      $19,540,214           $50,586,276
            Houston, TX                               Home Loan
                                                                                                              12/15/2010        $800,000    $1,050,782,764   Updated portfolio data from servicer
                                                      Modifications
                                                                                                              1/6/2011           ($1,286)   $1,050,781,478   Updated portfolio data from servicer

                                                                                                              3/16/2011       $8,800,000    $1,059,581,478   Transfer of cap due to servicing transfer

                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                              3/30/2011          ($1,470)   $1,059,580,008
                                                                                                                                                             reallocation

                                                                                                              4/13/2011      ($3,300,000)   $1,056,280,008   Transfer of cap due to servicing transfer

                                                                                                              5/13/2011        ($300,000)   $1,055,980,008   Transfer of cap due to servicing transfer

                                                                                                              6/16/2011        ($700,000)   $1,055,280,008   Transfer of cap due to servicing transfer

                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                              6/29/2011         ($13,097)   $1,055,266,911
                                                                                                                                                             reallocation

                                                                                                                                                                                                                                                       Continued on next page.
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I july 28, 2011
                                                                                                                                                                                                                                                                                 263
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                          (CONTINUED)                                                                                                                                                                               264
                      Servicer Modifying Borrowers’ Loans             Cap of Incentive                                                    Adjustment Details                                                         Non-GSE Incentive Payments
                                                                            Payments
                                                                          on Behalf of
                                                                     Borrowers and to                                                                                                                                                                               Total
                                                                             Servicers                                                                                                                                  Lenders/                                Non-GSE
            Name of                   Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrowers       Investors         Servicers             Incentive
Date        Institution               Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount    Adjusted Cap   Reason for Adjustment                           Incentive     Incentives        Incentives            Payments

                                                                                                                                                         Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009      ($1,200,000)     $5,010,000
                                                                                                                                                         initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009     $30,800,000    $35,810,000
                                                                                                                                                         initial cap

                                                                                                            3/26/2010      $23,200,000    $59,010,000    Updated portfolio data from servicer

                                                                                                                                                         Transfer of cap from CitiMortgage, Inc. due
                                                                                                            6/16/2010       $2,710,000    $61,720,000
                                                                                                                                                         to servicing transfer

                                                                                                            7/14/2010     ($18,020,000)   $43,700,000    Updated portfolio data from servicer

                                                                                                                                                         Transfer of cap from CitiMortgage, Inc. due
                                                                                                            7/16/2010       $6,680,000    $50,380,000
                                                                                                                                                         to servicing transfer

                                                                                                            8/13/2010       $2,600,000    $52,980,000    Transfer of cap to due to servicing transfer

                                                                                                            9/15/2010        ($100,000)   $52,880,000    Transfer of cap to due to servicing transfer

                                                                                                            9/30/2010         $200,000    $53,080,000    Initial FHA-HAMP cap and 2MP initial cap
                                                                                                                                                                                                                                                                            Appendix D I Transaction Detail I july 28, 2011




                                                    Financial
            PennyMac Loan                                                                                   9/30/2010      ($1,423,197)   $51,656,803    Updated portfolio data from servicer
                                                    Instrument for
8/12/2009   Services, LLC,            Purchase                            $6,210,000     N/A                                                                                                            $278,094       $773,340          $865,794            $1,917,229
                                                    Home Loan
            Calasbasa, CA                                                                                   11/16/2010      $1,400,000    $53,056,803    Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                            12/15/2010       ($100,000)   $52,956,803    Updated portfolio data from servicer

                                                                                                            1/6/2011              ($72)   $52,956,731    Updated portfolio data from servicer

                                                                                                            1/13/2011       $4,100,000    $57,056,731    Transfer of cap due to servicing transfer

                                                                                                            2/16/2011        ($100,000)   $56,956,731    Transfer of cap due to servicing transfer

                                                                                                            3/16/2011       $4,000,000    $60,956,731    Transfer of cap due to servicing transfer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            3/30/2011             ($94)   $60,956,637
                                                                                                                                                         reallocation

                                                                                                            4/13/2011        ($100,000)   $60,856,637    Transfer of cap due to servicing transfer

                                                                                                            5/13/2011       $5,800,000    $66,656,637    Transfer of cap due to servicing transfer

                                                                                                            6/16/2011         $600,000    $67,256,637    Transfer of cap due to servicing transfer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            6/29/2011            ($812)   $67,255,825
                                                                                                                                                         reallocation

                                                                                                                                                                                                                                                  Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                          (CONTINUED)

                      Servicer Modifying Borrowers’ Loans             Cap of Incentive                                                      Adjustment Details                                                          Non-GSE Incentive Payments
                                                                            Payments
                                                                          on Behalf of
                                                                     Borrowers and to                                                                                                                                                                                  Total
                                                                             Servicers                                                                                                                                     Lenders/                                Non-GSE
            Name of                   Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                    Borrowers       Investors         Servicers             Incentive
Date        Institution               Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount      Adjusted Cap   Reason for Adjustment                            Incentive     Incentives        Incentives            Payments

                                                                                                                                                           Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009     ($25,510,000)       $4,220,000
                                                                                                                                                           initial cap

                                                                                                                                                           Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009        $520,000        $4,740,000
                                                                                                                                                           initial cap

                                                                                                            3/26/2010       $4,330,000        $9,070,000   Updated portfolio data from servicer

                                                                                                                                                           Transfer of cap from CitiMortgage, Inc. due
                                                                                                            4/19/2010         $230,000        $9,300,000
                                                                                                                                                           to servicing transfer

                                                                                                            5/19/2010         $850,000      $10,150,000    Initial 2MP cap

                                                                                                            7/14/2010        ($850,000)       $9,300,000   Updated portfolio data from servicer

                                                                                                            9/15/2010         $100,000        $9,400,000   Transfer of cap to due to servicing transfer

                                                                                                            9/30/2010         $100,000        $9,500,000   Initial FHA-HAMP cap

                                                                                                            9/30/2010      $16,755,064      $26,255,064    Updated portfolio data from servicer
                                                    Financial
            Servis One, Inc.,                       Instrument for                                          10/15/2010        $100,000      $26,355,064    Transfer of cap due to servicing transfer
8/12/2009                             Purchase                           $29,730,000     N/A                                                                                                                 $2,000          $5,353           $8,000               $15,353
            Titusville, PA                          Home Loan
                                                    Modifications                                           12/15/2010        $100,000      $26,455,064    Updated portfolio data from servicer

                                                                                                            1/6/2011              ($40)     $26,455,024    Updated portfolio data from servicer

                                                                                                            1/13/2011         $300,000      $26,755,024    Transfer of cap due to servicing transfer

                                                                                                            2/16/2011         $100,000      $26,855,024    Transfer of cap due to servicing transfer

                                                                                                            3/16/2011       $2,200,000      $29,055,024    Transfer of cap due to servicing transfer

                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                            3/30/2011             ($52)     $29,054,972
                                                                                                                                                           reallocation

                                                                                                            4/13/2011       $1,500,000      $30,554,972    Transfer of cap due to servicing transfer

                                                                                                            5/13/2011       $1,000,000      $31,554,972    Transfer of cap due to servicing transfer

                                                                                                            6/16/2011         $100,000      $31,654,972    Transfer of cap due to servicing transfer

                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                            6/29/2011            ($534)     $31,654,438
                                                                                                                                                           reallocation

                                                                                                            10/2/2009     $145,800,000     $814,240,000    HPDP initial cap

                                                                                                                                                           Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009   $1,355,930,000   $2,170,170,000
                                                                                                                                                           initial cap

                                                                                                            3/26/2010     $121,180,000    $2,291,350,000   Updated portfolio data from servicer

                                                                                                            7/14/2010    ($408,850,000)   $1,882,500,000   Updated portfolio data from servicer
                                                    Financial
            OneWest Bank,                           Instrument for                                          9/30/2010       $5,500,000    $1,888,000,000   2MP initial cap
8/28/2009                             Purchase                         $668,440,000      N/A                                                                                                              $9,688,319    $34,003,983      $24,184,841           $67,877,144
            Pasadena, STATE                         Home Loan
                                                    Modifications                                           9/30/2010     ($51,741,163)   $1,836,258,837   Updated portfolio data from servicer

                                                                                                            1/6/2011           ($2,282)   $1,836,256,555   Updated portfolio data from servicer

                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                            3/30/2011          ($2,674)   $1,836,253,881
                                                                                                                                                           reallocation

                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                            6/29/2011         ($24,616)   $1,836,229,265
                                                                                                                                                           reallocation

                                                                                                                                                                                                                                                     Continued on next page.
                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I july 28, 2011
                                                                                                                                                                                                                                                                               265
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                          (CONTINUED)                                                                                                                                                                              266
                      Servicer Modifying Borrowers’ Loans             Cap of Incentive                                                    Adjustment Details                                                        Non-GSE Incentive Payments
                                                                            Payments
                                                                          on Behalf of
                                                                     Borrowers and to                                                                                                                                                                              Total
                                                                             Servicers                                                                                                                                 Lenders/                                Non-GSE
            Name of                   Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                Borrowers       Investors         Servicers             Incentive
Date        Institution               Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount    Adjusted Cap   Reason for Adjustment                          Incentive     Incentives        Incentives            Payments

                                                                                                            10/2/2009          $70,000       $370,000    HPDP initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009      $2,680,000      $3,050,000
                                                                                                                                                         initial cap
                                                    Financial
            Stanford Federal Credit
                                                    Instrument for                                          3/26/2010         $350,000      $3,400,000   Updated portfolio data from servicer
8/28/2009   Union,                    Purchase                              $300,000     N/A                                                                                                                 $—             $—                   $—                 $—
                                                    Home Loan
            Palo Alto, CA
                                                    Modifications                                           7/14/2010      ($1,900,000)     $1,500,000   Updated portfolio data from servicer

                                                                                                            9/30/2010      ($1,209,889)      $290,111    Updated portfolio data from servicer

                                                                                                            3/23/2010        ($290,111)            $—    Termination of SPA

                                                                                                            10/2/2009         $130,000       $700,000    HPDP initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009       ($310,000)      $390,000
                                                                                                                                                         initial cap

                                                                                                            3/26/2010       $2,110,000      $2,500,000   Updated portfolio data from servicer
                                                                                                                                                                                                                                                                           Appendix D I Transaction Detail I july 28, 2011




                                                                                                            7/14/2010       $8,300,000    $10,800,000    Updated portfolio data from servicer
                                                    Financial
            RoundPoint Mortgage
                                                    Instrument for                                          9/30/2010       $5,301,172    $16,101,172    Updated portfolio data from servicer
8/28/2009   Servicing Corporation,    Purchase                              $570,000     N/A                                                                                                            $20,000        $89,319           $96,000              $205,319
                                                    Home Loan
            Charlotte, NC
                                                    Modifications                                           1/6/2011              ($22)   $16,101,150    Updated portfolio data from servicer

                                                                                                            3/16/2011        ($400,000)   $15,701,150    Transfer of cap due to servicing transfer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            3/30/2011             ($25)   $15,701,125
                                                                                                                                                         reallocation

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            6/29/2011            ($232)   $15,700,893
                                                                                                                                                         reallocation

                                                                                                            10/2/2009         $130,000       $690,000    HPDP initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009      $1,040,000      $1,730,000
                                                                                                                                                         initial cap

                                                                                                            3/26/2010      ($1,680,000)        $50,000   Updated portfolio data from servicer
                                                    Financial
                                                                                                            5/12/2010       $1,260,000      $1,310,000   Updated portfolio data from servicer
            Horicon Bank,                           Instrument for
9/2/2009                              Purchase                              $560,000     N/A                                                                                                             $1,515          $4,553           $4,570               $10,638
            Horicon, WI                             Home Loan
                                                                                                            7/14/2010      ($1,110,000)      $200,000    Updated portfolio data from servicer
                                                    Modifications
                                                                                                            9/30/2010         $100,000       $300,000    Initial RD-HAMP

                                                                                                            9/30/2010          ($9,889)      $290,111    Updated portfolio data from servicer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            6/29/2011              ($3)      $290,108
                                                                                                                                                         reallocation

                                                                                                                                                                                                                                                 Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                              (CONTINUED)

                        Servicer Modifying Borrowers’ Loans               Cap of Incentive                                                    Adjustment Details                                                         Non-GSE Incentive Payments
                                                                                Payments
                                                                              on Behalf of
                                                                         Borrowers and to                                                                                                                                                                               Total
                                                                                 Servicers                                                                                                                                  Lenders/                                Non-GSE
              Name of                     Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrowers       Investors         Servicers             Incentive
Date          Institution                 Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount    Adjusted Cap   Reason for Adjustment                           Incentive     Incentives        Incentives            Payments

                                                                                                                10/2/2009       $1,310,000      $7,310,000   HPDP initial cap

                                                                                                                                                             Updated portfolio data from servicer & HAFA
                                                                                                                12/30/2009     ($3,390,000)     $3,920,000
                                                                                                                                                             initial cap

                                                                                                                3/26/2010         $410,000      $4,330,000   Updated portfolio data from servicer

                                                                                                                7/14/2010        ($730,000)     $3,600,000   Updated portfolio data from servicer

                                                                                                                9/15/2010       $4,700,000      $8,300,000   Transfer of cap due to servicing transfer

                                                                                                                9/30/2010         $117,764      $8,417,764   Updated portfolio data from servicer

                                                        Financial                                               11/16/2010        $800,000      $9,217,764   Transfer of cap due to servicing transfer
9/2/2009 as   Vantium Capital, Inc.dba
                                                        Instrument for
amended on    Acqura Loan Services,       Purchase                            $6,000,000     N/A         10                                                                                                  $47,464        $80,061           $52,007              $179,532
                                                        Home Loan                                               12/15/2010      $2,700,000     $11,917,764   Updated portfolio data from servicer
8/27/2010     Plano, TX
                                                        Modifications
                                                                                                                1/6/2011              ($17)    $11,917,747   Updated portfolio data from servicer

                                                                                                                1/13/2011         $700,000     $12,617,747   Transfer of cap due to servicing transfer

                                                                                                                2/16/2011       $1,800,000     $14,417,747   Transfer of cap due to servicing transfer

                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                                3/30/2011             ($19)    $14,417,728
                                                                                                                                                             reallocation

                                                                                                                4/13/2011         $300,000     $14,717,728   Transfer of cap due to servicing transfer

                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                                6/29/2011            ($189)    $14,717,539
                                                                                                                                                             reallocation

                                                                                                                10/2/2009         $280,000      $1,530,000   HPDP initial cap

                                                                                                                                                             Updated portfolio data from servicer & HAFA
                                                                                                                12/30/2009       ($750,000)      $780,000
                                                                                                                                                             initial cap

                                                                                                                3/26/2010         $120,000       $900,000    Updated portfolio data from servicer

                                                        Financial                                               7/14/2010        ($300,000)      $600,000    Updated portfolio data from servicer
              Central Florida Educators
                                                        Instrument for
9/9/2009      Federal Credit Union,       Purchase                            $1,250,000     N/A                                                                                                             $14,186        $36,036           $49,820              $100,042
                                                        Home Loan                                               9/30/2010         $270,334       $870,334    Updated portfolio data from servicer
              Lake Mary, FL
                                                        Modifications
                                                                                                                1/6/2011               ($1)      $870,333    Updated portfolio data from servicer

                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                                3/30/2011              ($1)      $870,332
                                                                                                                                                             reallocation

                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                                6/29/2011              ($5)      $870,327
                                                                                                                                                             reallocation

                                                                                                                10/2/2009      $24,920,000    $139,140,000   HPDP initial cap

                                                                                                                                                             Updated portfolio data from servicer & HAFA
                                                                                                                12/30/2009     $49,410,000    $188,550,000
                                                                                                                                                             initial cap

                                                                                                                3/26/2010      $41,830,000    $230,380,000   Updated portfolio data from servicer

                                                        Financial                                               7/14/2010     ($85,780,000)   $144,600,000   Updated portfolio data from servicer
              U.S. Bank National
                                                        Instrument for
9/9/2009      Association,                Purchase                         $114,220,000      N/A                                                                                                           $2,151,198     $8,402,637       $7,410,241           $17,964,076
                                                        Home Loan                                               9/30/2010      $36,574,444    $181,174,444   Updated portfolio data from servicer
              Owensboro, KY
                                                        Modifications
                                                                                                                1/6/2011             ($160)   $181,174,284   Updated portfolio data from servicer

                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                                3/30/2011            ($172)   $181,174,112
                                                                                                                                                             reallocation

                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                                6/29/2011          ($1,431)   $181,172,681
                                                                                                                                                             reallocation

                                                                                                                                                                                                                                                      Continued on next page.
                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I july 28, 2011
                                                                                                                                                                                                                                                                                267
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                          (CONTINUED)                                                                                                                                                                              268
                      Servicer Modifying Borrowers’ Loans             Cap of Incentive                                                    Adjustment Details                                                        Non-GSE Incentive Payments
                                                                            Payments
                                                                          on Behalf of
                                                                     Borrowers and to                                                                                                                                                                              Total
                                                                             Servicers                                                                                                                                 Lenders/                                Non-GSE
            Name of                   Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                Borrowers       Investors         Servicers             Incentive
Date        Institution               Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount    Adjusted Cap   Reason for Adjustment                          Incentive     Incentives        Incentives            Payments

                                                                                                            10/2/2009         $950,000      $5,300,000   HPDP initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009      $5,700,000    $11,000,000
                                                                                                                                                         initial cap

                                                                                                            3/26/2010         $740,000    $11,740,000    Updated portfolio data from servicer

                                                    Financial                                               7/14/2010      ($1,440,000)   $10,300,000    Updated portfolio data from servicer
            CUC Mortgage Corpora-
                                                    Instrument for
9/9/2009    tion,                     Purchase                            $4,350,000     N/A                                                                                                            $11,881        $34,772           $40,849               $87,502
                                                    Home Loan                                               9/30/2010      ($6,673,610)     $3,626,390   Updated portfolio data from servicer
            Albany, NY
                                                    Modifications
                                                                                                            1/6/2011               ($5)     $3,626,385   Updated portfolio data from servicer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            3/30/2011              ($6)     $3,626,379
                                                                                                                                                         reallocation

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            6/29/2011             ($52)     $3,626,327
                                                                                                                                                         reallocation

                                                                                                            10/2/2009         $460,000      $2,530,000   HPDP initial cap
                                                                                                                                                                                                                                                                           Appendix D I Transaction Detail I july 28, 2011




                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009      $2,730,000      $5,260,000
                                                                                                                                                         initial cap

                                                                                                            3/26/2010      $13,280,000    $18,540,000    Updated portfolio data from servicer

                                                    Financial                                               7/14/2010     ($13,540,000)     $5,000,000   Updated portfolio data from servicer
            ORNL Federal Credit
                                                    Instrument for
9/11/2009   Union,                    Purchase                            $2,070,000     N/A                                                                                                                 $—             $—            $2,000                $2,000
                                                    Home Loan                                               9/30/2010       $1,817,613      $6,817,613   Updated portfolio data from servicer
            Oak Ridge, TN
                                                    Modifications
                                                                                                            1/6/2011              ($10)     $6,817,603   Updated portfolio data from servicer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            3/30/2011             ($12)     $6,817,591
                                                                                                                                                         reallocation

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            6/29/2011            ($115)     $6,817,476
                                                                                                                                                         reallocation

                                                                                                            10/2/2009          $60,000       $310,000    HPDP initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009        ($80,000)      $230,000
                                                                                                                                                         initial cap
                                                    Financial
            Allstate Mortgage Loans                                                                         3/26/2010         $280,000       $510,000    Updated portfolio data from servicer
                                                    Instrument for
9/11/2009   & Investments, Inc.,      Purchase                              $250,000     N/A                                                                                                             $1,623          $5,419           $4,623               $11,665
                                                    Home Loan
            Ocala, FL                                                                                       7/14/2010        ($410,000)      $100,000    Updated portfolio data from servicer
                                                    Modifications
                                                                                                            9/30/2010          $45,056       $145,056    Updated portfolio data from servicer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            6/29/2011              ($1)      $145,055
                                                                                                                                                         reallocation

                                                                                                            10/2/2009          $70,000       $350,000    HPDP initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009        $620,000       $970,000
                                                                                                                                                         initial cap

                                                    Financial                                               3/26/2010         $100,000      $1,070,000   Updated portfolio data from servicer
            Metropolitan National
                                                    Instrument for
9/11/2009   Bank,                     Purchase                              $280,000     N/A                                                                                                                 $—             $—                   $—                 $—
                                                    Home Loan                                               7/14/2010        ($670,000)      $400,000    Updated portfolio data from servicer
            Little Rock, AR
                                                    Modifications
                                                                                                            9/30/2010          $35,167       $435,167    Updated portfolio data from servicer

                                                                                                            1/6/2011               ($1)      $435,166    Updated portfolio data from servicer

                                                                                                            1/26/2011        ($435,166)            $—    Termination of SPA

                                                                                                                                                                                                                                                 Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                              (CONTINUED)

                        Servicer Modifying Borrowers’ Loans               Cap of Incentive                                                    Adjustment Details                                                        Non-GSE Incentive Payments
                                                                                Payments
                                                                              on Behalf of
                                                                         Borrowers and to                                                                                                                                                                              Total
                                                                                 Servicers                                                                                                                                 Lenders/                                Non-GSE
              Name of                     Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                Borrowers       Investors         Servicers             Incentive
Date          Institution                 Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount    Adjusted Cap   Reason for Adjustment                          Incentive     Incentives        Incentives            Payments

                                                                                                                10/2/2009       $6,010,000    $33,520,000    HPDP initial cap

                                                                                                                                                             Updated portfolio data from servicer & HAFA
                                                                                                                12/30/2009    ($19,750,000)   $13,770,000
                                                                                                                                                             initial cap

                                                                                                                3/26/2010      ($4,780,000)     $8,990,000   Updated portfolio data from servicer

                                                                                                                7/14/2010      ($2,390,000)     $6,600,000   Updated portfolio data from servicer
                                                        Financial
              Franklin Credit Manage-
                                                        Instrument for                                          9/30/2010       $2,973,670      $9,573,670   Updated portfolio data from servicer
9/11/2009     ment Corporation,           Purchase                           $27,510,000     N/A                                                                                                           $116,049       $274,107          $418,496              $808,651
                                                        Home Loan
              Jersey City, NJ
                                                        Modifications                                           1/6/2011               ($3)     $9,573,667   Updated portfolio data from servicer

                                                                                                                2/16/2011      ($1,800,000)     $7,773,667   Transfer of cap due to servicing transfer

                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                                3/30/2011              ($6)     $7,773,661
                                                                                                                                                             reallocation

                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                                6/29/2011             ($61)     $7,773,600
                                                                                                                                                             reallocation

                                                                                                                10/2/2009          $90,000       $500,000    HPDP initial cap

                                                                                                                                                             Updated portfolio data from servicer & HAFA
                                                                                                                12/30/2009      $1,460,000      $1,960,000
                                                                                                                                                             initial cap

                                                                                                                3/26/2010         $160,000      $2,120,000   Updated portfolio data from servicer

                                                        Financial                                               7/14/2010        ($120,000)     $2,000,000   Updated portfolio data from servicer
              Bay Federal Credit Union,                 Instrument for
9/16/2009                                 Purchase                              $410,000     N/A                                                                                                                 $—             $—                   $—                 $—
              Capitola, CA                              Home Loan                                               9/30/2010      ($1,419,778)      $580,222    Updated portfolio data from servicer
                                                        Modifications
                                                                                                                1/6/2011               ($1)      $580,221    Updated portfolio data from servicer

                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                                3/30/2011              ($1)      $580,220
                                                                                                                                                             reallocation

                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                                6/29/2011              ($8)      $580,212
                                                                                                                                                             reallocation

                                                                                                                10/2/2009         $960,000      $5,350,000   HPDP initial cap

                                                                                                                                                             Updated portfolio data from servicer & HAFA
                                                                                                                12/30/2009     ($3,090,000)     $2,260,000
                                                                                                                                                             initial cap

                                                                                                                3/26/2010         $230,000      $2,490,000   Updated portfolio data from servicer

                                                                                                                7/14/2010       $5,310,000      $7,800,000   Updated portfolio data from servicer

                                                                                                                9/30/2010         $323,114      $8,123,114   Updated portfolio data from servicer
                                                        Financial
              AMS Servicing, LLC,                       Instrument for                                          1/6/2011              ($12)     $8,123,102   Updated portfolio data from servicer
  9/23/2009                               Purchase                            $4,390,000     N/A                                                                                                                 $—             $—                   $—                 $—
              Buffalo, NY                               Home Loan
                                                        Modifications                                           3/16/2011         $600,000      $8,723,102   Transfer of cap due to servicing transfer

                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                                3/30/2011             ($16)     $8,723,086
                                                                                                                                                             reallocation

                                                                                                                4/13/2011         $200,000      $8,923,086   Transfer of cap due to servicing transfer

                                                                                                                5/13/2011         $100,000      $9,023,086   Transfer of cap due to servicing transfer

                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                                6/29/2011            ($153)     $9,022,933
                                                                                                                                                             reallocation

                                                                                                                                                                                                                                                     Continued on next page.
                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I july 28, 2011
                                                                                                                                                                                                                                                                               269
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                            (CONTINUED)                                                                                                                                                                              270
                      Servicer Modifying Borrowers’ Loans               Cap of Incentive                                                    Adjustment Details                                                        Non-GSE Incentive Payments
                                                                              Payments
                                                                            on Behalf of
                                                                       Borrowers and to                                                                                                                                                                              Total
                                                                               Servicers                                                                                                                                 Lenders/                                Non-GSE
            Name of                     Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                Borrowers       Investors         Servicers             Incentive
Date        Institution                 Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount    Adjusted Cap   Reason for Adjustment                          Incentive     Incentives        Incentives            Payments

                                                                                                              10/2/2009          $90,000       $480,000    HPDP initial cap

                                                                                                                                                           Updated portfolio data from servicer & HAFA
                                                                                                              12/30/2009        $940,000      $1,420,000
                                                                                                                                                           initial cap

                                                                                                              3/26/2010        ($980,000)      $440,000    Updated portfolio data from servicer

                                                      Financial                                               7/14/2010        ($140,000)      $300,000    Updated portfolio data from servicer
            Schools Financial Credit
                                                      Instrument for
9/23/2009   Union,                      Purchase                              $390,000     N/A                                                                                                             $3,000        $18,112           $11,500               $32,612
                                                      Home Loan                                               9/30/2010       $1,150,556      $1,450,556   Updated portfolio data from servicer
            Sacramento, CA
                                                      Modifications
                                                                                                              1/6/2011               ($2)     $1,450,554   Updated portfolio data from servicer

                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                              3/30/2011              ($2)     $1,450,552
                                                                                                                                                           reallocation

                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                              6/29/2011             ($22)     $1,450,530
                                                                                                                                                           reallocation

                                                                                                              10/2/2009          $60,000       $290,000    HPDP initial cap
                                                                                                                                                                                                                                                                             Appendix D I Transaction Detail I july 28, 2011




                                                                                                                                                           Updated portfolio data from servicer & HAFA
                                                                                                              12/30/2009        ($10,000)      $280,000
                                                                                                                                                           initial cap
                                                      Financial
            Glass City Federal Credit                                                                         3/26/2010         $130,000       $410,000    Updated portfolio data from servicer
                                                      Instrument for
9/23/2009   Union,                      Purchase                              $230,000     N/A                                                                                                             $2,000          $1,950           $4,000                $7,950
                                                      Home Loan
            Maumee, OH                                                                                        7/14/2010        ($110,000)      $300,000    Updated portfolio data from servicer
                                                      Modifications
                                                                                                              9/30/2010          ($9,889)      $290,111    Updated portfolio data from servicer

                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                              6/29/2011              ($3)      $290,108
                                                                                                                                                           reallocation

                                                                                                              10/2/2009          $10,000         $40,000   HPDP initial cap

                                                                                                                                                           Updated portfolio data from servicer & HAFA
                                                                                                              12/30/2009        $120,000       $160,000
                                                                                                                                                           initial cap
                                                      Financial
            Central Jersey Federal
                                                      Instrument for                                          3/26/2010          $10,000       $170,000    Updated portfolio data from servicer
9/23/2009   Credit Union,               Purchase                               $30,000     N/A                                                                                                                 $—             $—                   $—                 $—
                                                      Home Loan
            Woodbridge, NJ
                                                      Modifications                                           7/14/2010         ($70,000)      $100,000    Updated portfolio data from servicer

                                                                                                              9/30/2010          $45,056       $145,056    Updated portfolio data from servicer

                                                                                                              10/29/2010       ($145,056)            $—    Termination of SPA

                                                                                                              10/2/2009          $60,000       $300,000    HPDP initial cap

                                                                                                                                                           Updated portfolio data from servicer & HAFA
                                                                                                              12/30/2009        $350,000       $650,000
                                                                                                                                                           initial cap

                                                                                                              3/26/2010       $1,360,000      $2,010,000   Updated portfolio data from servicer
                                                      Financial
            Yadkin Valley Bank,                       Instrument for
9/23/2009                               Purchase                              $240,000     N/A                7/14/2010      ($1,810,000)      $200,000    Updated portfolio data from servicer            $2,000          $2,483          $14,000               $18,483
            Elkin, NC                                 Home Loan
                                                      Modifications
                                                                                                              9/30/2010         $235,167       $435,167    Updated portfolio data from servicer

                                                                                                              1/6/2011               ($1)      $435,166    Updated portfolio data from servicer

                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                              6/29/2011              ($4)      $435,162
                                                                                                                                                           reallocation

                                                                                                              10/2/2009         $100,000       $540,000    HPDP initial cap

                                                                                                                                                           Updated portfolio data from servicer & HAFA
                                                                                                              12/30/2009         $20,000       $560,000
                                                                                                                                                           initial cap
                                                      Financial
                                                                                                              3/26/2010        ($290,000)      $270,000    Updated portfolio data from servicer
            SEFCU,                                    Instrument for
9/25/2009                               Purchase                              $440,000     N/A                                                                                                                 $—             $—                   $—                 $—
            Albany, NY                                Home Loan
                                                                                                              7/14/2010         ($70,000)      $200,000    Updated portfolio data from servicer
                                                      Modifications
                                                                                                              9/30/2010         ($54,944)      $145,056    Updated portfolio data from servicer

                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                              6/29/2011              ($1)      $145,055
                                                                                                                                                           reallocation

                                                                                                                                                                                                                                                   Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                           (CONTINUED)

                       Servicer Modifying Borrowers’ Loans             Cap of Incentive                                                    Adjustment Details                                                         Non-GSE Incentive Payments
                                                                             Payments
                                                                           on Behalf of
                                                                      Borrowers and to                                                                                                                                                                               Total
                                                                              Servicers                                                                                                                                  Lenders/                                Non-GSE
             Name of                   Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                 Borrowers       Investors         Servicers             Incentive
Date         Institution               Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount    Adjusted Cap   Reason for Adjustment                           Incentive     Incentives        Incentives            Payments

                                                                                                                                                          Updated portfolio data from servicer & HAFA
                                                                                                             12/30/2009      $1,030,000      $1,600,000
                                                                                                                                                          initial cap

                                                                                                             3/26/2010        ($880,000)      $720,000    Updated portfolio data from servicer

                                                                                                             7/14/2010        ($320,000)      $400,000    Updated portfolio data from servicer
                                                     Financial
             Great Lakes Credit
                                                     Instrument for                                          9/30/2010         $180,222       $580,222    Updated portfolio data from servicer
10/14/2009   Union,                    Purchase                              $570,000     N/A                                                                                                                $917          $2,008           $3,000                $5,925
                                                     Home Loan
             North Chicago, IL
                                                     Modifications                                           1/6/2011               ($1)      $580,221    Updated portfolio data from servicer

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             3/30/2011              ($1)      $580,220
                                                                                                                                                          reallocation

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011              ($8)      $580,212
                                                                                                                                                          reallocation

                                                                                                                                                          Updated portfolio data from servicer & HAFA
                                                                                                             12/30/2009     ($2,900,000)     $1,960,000
                                                                                                                                                          initial cap

                                                     Financial                                               3/26/2010      ($1,600,000)      $360,000    Updated portfolio data from servicer
             Mortgage Clearing
                                                     Instrument for
10/14/2009   Corporation,              Purchase                            $4,860,000     N/A                                                                                                                  $—             $—                   $—                 $—
                                                     Home Loan                                               7/14/2010        ($260,000)      $100,000    Updated portfolio data from servicer
             Tulsa, OK
                                                     Modifications
                                                                                                             9/30/2010          $45,056       $145,056    Updated portfolio data from servicer

                                                                                                             3/9/2011         ($145,056)            $—    Termination of SPA

                                                                                                             1/22/2010          $20,000       $430,000    Updated HPDP cap & HAFA initial cap

                                                                                                             3/26/2010         $400,000       $830,000    Updated portfolio data from servicer

                                                                                                             7/14/2010        ($430,000)      $400,000    Updated portfolio data from servicer
                                                     Financial
             United Bank Mortgage                                                                            9/30/2010         $180,222       $580,222    Updated portfolio data from servicer
                                                     Instrument for
10/21/2009   Corporation,              Purchase                              $410,000     N/A                                                                                                             $12,958        $26,333           $31,580               $70,871
                                                     Home Loan
             Grand Rapids, MI                                                                                1/6/2011               ($1)      $580,221    Updated portfolio data from servicer
                                                     Modifications
                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             3/30/2011              ($1)      $580,220
                                                                                                                                                          reallocation

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011              ($5)      $580,215
                                                                                                                                                          reallocation

                                                                                                             1/22/2010       $4,370,000     $98,030,000   Updated HPDP cap & HAFA initial cap

                                                                                                             3/26/2010      $23,880,000    $121,910,000   Updated portfolio data from servicer

                                                                                                             7/14/2010     ($16,610,000)   $105,300,000   Updated portfolio data from servicer

                                                                                                             9/30/2010       $1,751,033    $107,051,033   Updated portfolio data from servicer
                                                     Financial
             Bank United,                            Instrument for
10/23/2009                             Purchase                           $93,660,000     N/A                1/6/2011              ($77)   $107,050,956   Updated portfolio data from servicer          $1,418,809     $5,424,053       $4,275,468           $11,118,329
             Miami Lakes, FL                         Home Loan
                                                     Modifications
                                                                                                             3/16/2011      ($9,900,000)    $97,150,956   Transfer of cap due to servicing transfer

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             3/30/2011             ($88)    $97,150,868
                                                                                                                                                          reallocation

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011            ($773)    $97,150,095
                                                                                                                                                          reallocation

                                                                                                                                                                                                                                                   Continued on next page.
                                                                                                                                                                                                                                                                             Transaction detail I Appendix D I july 28, 2011
                                                                                                                                                                                                                                                                             271
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                            (CONTINUED)                                                                                                                                                                          272
                       Servicer Modifying Borrowers’ Loans              Cap of Incentive                                                    Adjustment Details                                                    Non-GSE Incentive Payments
                                                                              Payments
                                                                            on Behalf of
                                                                       Borrowers and to                                                                                                                                                                          Total
                                                                               Servicers                                                                                                                             Lenders/                                Non-GSE
             Name of                    Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                            Borrowers       Investors         Servicers             Incentive
Date         Institution                Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount    Adjusted Cap   Reason for Adjustment                      Incentive     Incentives        Incentives            Payments

                                                                                                              1/22/2010          $40,000       $800,000    Updated HPDP cap & HAFA initial cap

                                                                                                              3/26/2010        ($760,000)        $40,000   Updated portfolio data from servicer

                                                                                                              5/12/2010       $2,630,000      $2,670,000   Updated portfolio data from servicer

                                                                                                              7/14/2010        ($770,000)     $1,900,000   Updated portfolio data from servicer
                                                      Financial
             IC Federal Credit Union,                 Instrument for
10/23/2009                              Purchase                              $760,000     N/A                9/30/2010         $565,945      $2,465,945   Updated portfolio data from servicer        $3,833          $7,861          $10,000               $21,694
             Fitchburg, MA                            Home Loan
                                                      Modifications
                                                                                                              1/6/2011               ($4)     $2,465,941   Updated portfolio data from servicer

                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                              3/30/2011              ($4)     $2,465,937
                                                                                                                                                           reallocation

                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                              6/29/2011             ($40)     $2,465,897
                                                                                                                                                           reallocation

                                                      Financial
             Harleysville National
                                                      Instrument for
10/28/2009   Bank & Trust Company,      Purchase                            $1,070,000     N/A                4/21/2010      ($1,070,000)            $—    Termination of SPA                              $—             $—                   $—                 $—
                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I july 28, 2011




                                                      Home Loan
             Harleysville, PA
                                                      Modifications

                                                      Financial
             Members Mortgage
                                                      Instrument for
10/28/2009   Company, Inc,              Purchase                              $510,000     N/A                4/21/2010        ($510,000)            $—    Termination of SPA                              $—             $—                   $—                 $—
                                                      Home Loan
             Woburn, MA
                                                      Modifications

                                                                                                              1/22/2010          $10,000         $80,000   Updated HPDP cap & HAFA initial cap

                                                                                                              3/26/2010          $10,000         $90,000   Updated portfolio data from servicer
                                                      Financial
             DuPage Credit Union,                     Instrument for                                          7/14/2010          $10,000       $100,000    Updated portfolio data from servicer
10/30/2009                              Purchase                               $70,000     N/A                                                                                                         $1,000          $9,587           $3,500               $14,087
             Naperville, IL                           Home Loan
                                                      Modifications                                           9/30/2010          $45,056       $145,056    Updated portfolio data from servicer

                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                              6/29/2011              ($1)      $145,055
                                                                                                                                                           reallocation

                                                                                                              1/22/2010          $40,000       $740,000    Updated HPDP cap & HAFA initial cap

                                                                                                              3/26/2010          $50,000       $790,000    Updated portfolio data from servicer

                                                                                                              7/14/2010       $1,310,000      $2,100,000   Updated portfolio data from servicer
                                                      Financial
             Los Alamos National                                                                              9/30/2010          $75,834      $2,175,834   Updated portfolio data from servicer
                                                      Instrument for
11/6/2009    Bank,                      Purchase                              $700,000     N/A                                                                                                         $2,277          $3,451          $10,474               $16,202
                                                      Home Loan
             Los Alamos, NM                                                                                   1/6/2011               ($3)     $2,175,831   Updated portfolio data from servicer
                                                      Modifications
                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                              3/30/2011              ($4)     $2,175,827
                                                                                                                                                           reallocation

                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                              6/29/2011             ($35)     $2,175,792
                                                                                                                                                           reallocation

                                                                                                                                                                                                                                               Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                             (CONTINUED)

                       Servicer Modifying Borrowers’ Loans               Cap of Incentive                                                    Adjustment Details                                                      Non-GSE Incentive Payments
                                                                               Payments
                                                                             on Behalf of
                                                                        Borrowers and to                                                                                                                                                                            Total
                                                                                Servicers                                                                                                                               Lenders/                                Non-GSE
             Name of                     Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                              Borrowers       Investors         Servicers             Incentive
Date         Institution                 Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount    Adjusted Cap   Reason for Adjustment                        Incentive     Incentives        Incentives            Payments

                                                                                                               1/22/2010         $890,000    $19,850,000    Updated HPDP cap & HAFA initial cap

                                                                                                               3/26/2010       $3,840,000    $23,690,000    Updated portfolio data from servicer

                                                                                                               7/14/2010      ($2,890,000)   $20,800,000    Updated portfolio data from servicer

                                                                                                               9/30/2010       $9,661,676    $30,461,676    Updated portfolio data from servicer

                                                                                                               1/6/2011              ($46)   $30,461,630    Updated portfolio data from servicer

                                                                                                               1/13/2011       $1,600,000    $32,061,630    Transfer of cap due to servicing transfer
                                                       Financial
             Quantum Servicing
                                                       Instrument for
11/18/2009   Corporation,                Purchase                           $18,960,000     N/A                2/16/2011       $1,400,000    $33,461,630    Transfer of cap due to servicing transfer         $—          $1,046           $1,000                $2,046
                                                       Home Loan
             Tampa, FL
                                                       Modifications
                                                                                                                                                            Updated due to quarterly assessment and
                                                                                                               3/30/2011             ($58)   $33,461,572
                                                                                                                                                            reallocation

                                                                                                               4/13/2011         $100,000    $33,561,572    Transfer of cap due to servicing transfer

                                                                                                               5/13/2011         $100,000    $33,661,572    Transfer of cap due to servicing transfer

                                                                                                               6/16/2011         $800,000    $34,461,572    Transfer of cap due to servicing transfer

                                                                                                                                                            Updated due to quarterly assessment and
                                                                                                               6/29/2011            ($559)   $34,461,013
                                                                                                                                                            reallocation

                                                                                                               1/22/2010          $80,000      $1,750,000   Updated HPDP cap & HAFA initial cap

                                                                                                               3/26/2010         $330,000      $2,080,000   Updated portfolio data from servicer

                                                                                                               7/14/2010      ($1,080,000)     $1,000,000   Updated portfolio data from servicer
                                                       Financial
             Hillsdale County National                                                                         9/30/2010         $160,445      $1,160,445   Updated portfolio data from servicer
                                                       Instrument for
11/18/2009   Bank,                       Purchase                            $1,670,000     N/A                                                                                                           $5,143          $9,160          $20,788               $35,091
                                                       Home Loan
             Hillsdale, MI                                                                                     1/6/2011               ($1)     $1,160,444   Updated portfolio data from servicer
                                                       Modifications
                                                                                                                                                            Updated due to quarterly assessment and
                                                                                                               3/30/2011              ($2)     $1,160,442
                                                                                                                                                            reallocation

                                                                                                                                                            Updated due to quarterly assessment and
                                                                                                               6/29/2011             ($16)     $1,160,426
                                                                                                                                                            reallocation

                                                                                                               1/22/2010              $—          $20,000   Updated HPDP cap & HAFA initial cap

                                                                                                               3/26/2010         ($10,000)        $10,000   Updated portfolio data from servicer
                                                       Financial
             QLending, Inc.,                           Instrument for                                          7/14/2010          $90,000       $100,000    Updated portfolio data from servicer
11/18/2009                               Purchase                               $20,000     N/A                                                                                                               $—             $—                   $—                 $—
             Coral Gables, FL                          Home Loan
                                                       Modifications                                           9/30/2010          $45,056       $145,056    Updated portfolio data from servicer

                                                                                                                                                            Updated due to quarterly assessment and
                                                                                                               6/29/2011              ($1)      $145,055
                                                                                                                                                            reallocation

                                                                                                                                                                                                                                                  Continued on next page.
                                                                                                                                                                                                                                                                            Transaction detail I Appendix D I july 28, 2011
                                                                                                                                                                                                                                                                            273
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                           (CONTINUED)                                                                                                                                                                              274
                       Servicer Modifying Borrowers’ Loans             Cap of Incentive                                                    Adjustment Details                                                        Non-GSE Incentive Payments
                                                                             Payments
                                                                           on Behalf of
                                                                      Borrowers and to                                                                                                                                                                              Total
                                                                              Servicers                                                                                                                                 Lenders/                                Non-GSE
             Name of                   Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                Borrowers       Investors         Servicers             Incentive
Date         Institution               Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount    Adjusted Cap   Reason for Adjustment                          Incentive     Incentives        Incentives            Payments

                                                                                                             1/22/2010         $950,000    $21,310,000    Updated HPDP cap & HAFA initial cap

                                                                                                             3/26/2010     ($17,880,000)     $3,430,000   Updated portfolio data from servicer

                                                                                                                                                          Transfer of cap from CitiMortgage, Inc. due
                                                                                                             6/16/2010       $1,030,000      $4,460,000
                                                                                                                                                          to servicing transfer

                                                                                                             7/14/2010      ($1,160,000)     $3,300,000   Updated portfolio data from servicer

                                                                                                             8/13/2010         $800,000      $4,100,000   Transfer of cap due to servicing transfer

                                                                                                             9/30/2010         $200,000      $4,300,000   Initial FHA-HAMP cap and initial RD-HAMP

                                                     Financial                                               9/30/2010       $1,357,168      $5,657,168   Updated portfolio data from servicer
             Marix Servicing, LLC,                   Instrument for
11/25/2009                             Purchase                           $20,360,000     N/A                                                                                                           $114,855       $365,820          $392,171              $872,846
             Phoenix, AZ                             Home Loan                                               1/6/2011               ($1)     $5,657,167   Updated portfolio data from servicer
                                                     Modifications
                                                                                                             3/16/2011       $5,700,000    $11,357,167    Transfer of cap due to servicing transfer

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             3/30/2011              ($6)   $11,357,161
                                                                                                                                                                                                                                                                            Appendix D I Transaction Detail I july 28, 2011




                                                                                                                                                          reallocation

                                                                                                             4/13/2011       $7,300,000    $18,657,161    Transfer of cap due to servicing transfer

                                                                                                             5/13/2011         $300,000    $18,957,161    Transfer of cap due to servicing transfer

                                                                                                             6/16/2011         $900,000    $19,857,161    Transfer of cap due to servicing transfer

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011            ($154)   $19,857,007
                                                                                                                                                          reallocation

                                                     Financial
             Home Financing Center,
                                                     Instrument for
11/25/2009   Inc,                      Purchase                              $230,000     N/A                4/21/2010        ($230,000)            $—    Termination of SPA                                  $—             $—                   $—                 $—
                                                     Home Loan
             Coral Gables, FL
                                                     Modifications

                                                                                                             1/22/2010          $50,000      $1,330,000   Updated HPDP cap & HAFA initial cap

                                                                                                             3/26/2010       $1,020,000      $2,350,000   Updated portfolio data from servicer

                                                                                                             7/14/2010        ($950,000)     $1,400,000   Updated portfolio data from servicer

                                                                                                             9/30/2010          $50,556      $1,450,556   Updated portfolio data from servicer
                                                     Financial
             First Keystone Bank,                    Instrument for
11/25/2009                             Purchase                            $1,280,000     N/A                1/6/2011               ($2)     $1,450,554   Updated portfolio data from servicer            $2,776          $3,423           $8,718               $14,917
             Media, PA                               Home Loan
                                                     Modifications
                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             3/30/2011              ($2)     $1,450,552
                                                                                                                                                          reallocation

                                                                                                             6/16/2011        ($100,000)     $1,350,552   Transfer of cap due to servicing transfer

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011             ($21)     $1,350,531
                                                                                                                                                          reallocation

                                                                                                             1/22/2010          $10,000       $390,000    Updated HPDP cap & HAFA initial cap

                                                                                                             3/26/2010         $520,000       $910,000    Updated portfolio data from servicer
                                                     Financial
             Community Bank & Trust
                                                     Instrument for                                          7/14/2010        ($810,000)      $100,000    Updated portfolio data from servicer
12/4/2009    Company,                  Purchase                              $380,000     N/A                                                                                                                 $—             $—                   $—                 $—
                                                     Home Loan
             Clarks Summit, PA
                                                     Modifications                                           9/30/2010          $45,056       $145,056    Updated portfolio data from servicer

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011              ($1)      $145,055
                                                                                                                                                          reallocation

                                                                                                             1/22/2010         $440,000      $9,870,000   Updated HPDP cap & HAFA initial cap

                                                                                                             3/26/2010      $14,480,000    $24,350,000    Updated portfolio data from servicer

                                                     Financial                                               5/26/2010     ($24,200,000)      $150,000    Updated portfolio data from servicer
             Idaho Housing and
                                                     Instrument for
12/4/2009    Finance Association,      Purchase                            $9,430,000     N/A                                                                                                             $4,844          $3,799           $7,844               $16,487
                                                     Home Loan                                               7/14/2010         $150,000       $300,000    Updated portfolio data from servicer
             Boise, ID
                                                     Modifications
                                                                                                             9/30/2010          ($9,889)      $290,111    Updated portfolio data from servicer

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011              ($3)      $290,108
                                                                                                                                                          reallocation

                                                                                                                                                                                                                                                  Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                           (CONTINUED)

                      Servicer Modifying Borrowers’ Loans              Cap of Incentive                                                    Adjustment Details                                                    Non-GSE Incentive Payments
                                                                             Payments
                                                                           on Behalf of
                                                                      Borrowers and to                                                                                                                                                                          Total
                                                                              Servicers                                                                                                                             Lenders/                                Non-GSE
            Name of                    Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                            Borrowers       Investors         Servicers             Incentive
Date        Institution                Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount    Adjusted Cap   Reason for Adjustment                      Incentive     Incentives        Incentives            Payments

                                                                                                             1/22/2010          $10,000       $370,000    Updated HPDP cap & HAFA initial cap

                                                                                                             3/26/2010         $850,000      $1,220,000   Updated portfolio data from servicer

                                                                                                             7/14/2010        ($120,000)     $1,100,000   Updated portfolio data from servicer
                                                     Financial
            Spirit of Alaska Federal
                                                     Instrument for
12/9/2009   Credit Union,              Purchase                              $360,000     N/A                9/30/2010         $100,000      $1,200,000   Initial FHA-HAMP cap                            $—             $—                   $—                 $—
                                                     Home Loan
            Fairbanks, AK
                                                     Modifications
                                                                                                             9/30/2010         $105,500      $1,305,500   Updated portfolio data from servicer

                                                                                                             1/6/2011               ($2)     $1,305,498   Updated portfolio data from servicer

                                                                                                             2/17/2011      ($1,305,498)            $—    Termination of SPA

                                                                                                             1/22/2010          $70,000      $1,660,000   Updated HPDP cap & HAFA initial cap

                                                                                                             3/26/2010        ($290,000)     $1,370,000   Updated portfolio data from servicer

                                                                                                             7/14/2010        ($570,000)      $800,000    Updated portfolio data from servicer
                                                     Financial
            American Eagle Federal                                                                           9/30/2010          $70,334       $870,334    Updated portfolio data from servicer
                                                     Instrument for
12/9/2009   Credit Union,              Purchase                            $1,590,000     N/A                                                                                                             $—             $—                   $—                 $—
                                                     Home Loan
            East Hartford, CT                                                                                1/6/2011               ($1)      $870,333    Updated portfolio data from servicer
                                                     Modifications
                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             3/30/2011              ($1)      $870,332
                                                                                                                                                          reallocation

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011             ($13)      $870,319
                                                                                                                                                          reallocation

                                                                                                             1/22/2010          $90,000      $1,970,000   Updated HPDP cap & HAFA initial cap

                                                                                                             3/26/2010       $1,110,000      $3,080,000   Updated portfolio data from servicer

                                                                                                             7/14/2010      ($1,180,000)     $1,900,000   Updated portfolio data from servicer
                                                     Financial
            Silver State Schools                                                                             9/30/2010         $275,834      $2,175,834   Updated portfolio data from servicer
                                                     Instrument for
12/9/2009   Credit Union,              Purchase                            $1,880,000     N/A                                                                                                        $11,678        $69,292           $38,845              $119,814
                                                     Home Loan
            Las Vegas, NV                                                                                    1/6/2011               ($2)     $2,175,832   Updated portfolio data from servicer
                                                     Modifications
                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             3/30/2011              ($3)     $2,175,829
                                                                                                                                                          reallocation

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011             ($26)     $2,175,803
                                                                                                                                                          reallocation

                                                                                                             1/22/2010         $140,000      $3,080,000   Updated HPDP cap & HAFA initial cap

                                                                                                             3/26/2010       $6,300,000      $9,380,000   Updated portfolio data from servicer

                                                                                                             7/14/2010      ($1,980,000)     $7,400,000   Updated portfolio data from servicer
                                                     Financial
            Fidelity Homestead                                                                               9/30/2010      ($6,384,611)     $1,015,389   Updated portfolio data from servicer
                                                     Instrument for
12/9/2009   Savings Bank,              Purchase                            $2,940,000     N/A                                                                                                             $—             $—                   $—                 $—
                                                     Home Loan
            New Orleans, LA                                                                                  1/6/2011               ($1)     $1,015,388   Updated portfolio data from servicer
                                                     Modifications
                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             3/30/2011              ($2)     $1,015,386
                                                                                                                                                          reallocation

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011             ($16)     $1,015,370
                                                                                                                                                          reallocation

                                                                                                             1/22/2010          $10,000       $240,000    Updated HPDP cap & HAFA initial cap

                                                                                                             3/26/2010         $440,000       $680,000    Updated portfolio data from servicer
                                                     Financial
            Bay Gulf Credit Union,                   Instrument for
12/9/2009                              Purchase                              $230,000     N/A                7/14/2010         ($80,000)      $600,000    Updated portfolio data from servicer            $—             $—                   $—                 $—
            Tampa, FL                                Home Loan
                                                     Modifications
                                                                                                             9/30/2010         ($19,778)      $580,222    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                        Transaction detail I Appendix D I july 28, 2011




                                                                                                             10/15/2010       ($580,222)            $—    Termination of SPA

                                                                                                                                                                                                                                              Continued on next page.
                                                                                                                                                                                                                                                                        275
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                           (CONTINUED)                                                                                                                                                                          276
                       Servicer Modifying Borrowers’ Loans             Cap of Incentive                                                    Adjustment Details                                                    Non-GSE Incentive Payments
                                                                             Payments
                                                                           on Behalf of
                                                                      Borrowers and to                                                                                                                                                                          Total
                                                                              Servicers                                                                                                                             Lenders/                                Non-GSE
             Name of                   Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                            Borrowers       Investors         Servicers             Incentive
Date         Institution               Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount    Adjusted Cap   Reason for Adjustment                      Incentive     Incentives        Incentives            Payments

                                                                                                             1/22/2010         $290,000      $6,450,000   Updated HPDP cap & HAFA initial cap

                                                                                                             3/26/2010          $40,000      $6,490,000   Updated portfolio data from servicer

                                                                                                             7/14/2010      ($2,890,000)     $3,600,000   Updated portfolio data from servicer
                                                     Financial
             The Golden 1 Credit                                                                             9/30/2010         $606,612      $4,206,612   Updated portfolio data from servicer
                                                     Instrument for
12/9/2009    Union,                    Purchase                            $6,160,000     N/A                                                                                                        $36,246       $180,253          $141,996              $358,496
                                                     Home Loan
             Sacramento, CA                                                                                  1/6/2011               ($4)     $4,206,608   Updated portfolio data from servicer
                                                     Modifications
                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             3/30/2011              ($4)     $4,206,604
                                                                                                                                                          reallocation

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011             ($35)     $4,206,569
                                                                                                                                                          reallocation

                                                                                                             1/22/2010         $100,000      $2,350,000   Updated HPDP cap & HAFA initial cap

                                                                                                             3/26/2010        ($740,000)     $1,610,000   Updated portfolio data from servicer
                                                                                                                                                                                                                                                                        Appendix D I Transaction Detail I july 28, 2011




                                                                                                             7/14/2010        ($710,000)      $900,000    Updated portfolio data from servicer
                                                     Financial
                                                                                                             9/30/2010         $550,556      $1,450,556   Updated portfolio data from servicer
             Sterling Savings Bank,                  Instrument for
12/9/2009                              Purchase                            $2,250,000     N/A                                                                                                        $16,000        $41,860           $54,500              $112,360
             Spokane, WA                             Home Loan
                                                                                                             1/6/2011               ($1)     $1,450,555   Updated portfolio data from servicer
                                                     Modifications
                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             3/30/2011              ($1)     $1,450,554
                                                                                                                                                          reallocation

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011             ($11)     $1,450,543
                                                                                                                                                          reallocation

                                                                                                             1/22/2010          $20,000       $330,000    Updated HPDP cap & HAFA initial cap

                                                                                                             3/26/2010         $820,000      $1,150,000   Updated portfolio data from servicer

                                                                                                             7/14/2010        ($350,000)      $800,000    Updated portfolio data from servicer
                                                     Financial
             HomeStar Bank &                                                                                 9/30/2010          $70,334       $870,334    Updated portfolio data from servicer
                                                     Instrument for
12/11/2009   Financial Services,       Purchase                              $310,000     N/A                                                                                                           $583          $2,578           $3,917                $7,078
                                                     Home Loan
             Manteno, IL                                                                                     1/6/2011               ($1)      $870,333    Updated portfolio data from servicer
                                                     Modifications
                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             3/30/2011              ($1)      $870,332
                                                                                                                                                          reallocation

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011             ($13)      $870,319
                                                                                                                                                          reallocation

                                                                                                             1/22/2010          $20,000       $390,000    Updated HPDP cap & HAFA initial cap
                                                     Financial
             Glenview State Bank,                    Instrument for
12/11/2009                             Purchase                              $370,000     N/A                3/26/2010       $1,250,000      $1,640,000   Updated portfolio data from servicer            $—             $—                   $—                 $—
             Glenview, IL                            Home Loan
                                                     Modifications
                                                                                                             5/26/2010      ($1,640,000)            $—    Termination of SPA

                                                                                                             1/22/2010          $30,000       $630,000    Updated HPDP cap & HAFA initial cap

                                                                                                             3/26/2010         $400,000      $1,030,000   Updated portfolio data from servicer
                                                     Financial
                                                                                                             7/14/2010        ($330,000)      $700,000    Updated portfolio data from servicer
             Verity Credit Union,                    Instrument for
12/11/2009                             Purchase                              $600,000     N/A                                                                                                             $—             $—                   $—                 $—
             Seattle, WA                             Home Loan
                                                                                                             9/30/2010          $25,278       $725,278    Updated portfolio data from servicer
                                                     Modifications
                                                                                                             1/6/2011               ($1)      $725,277    Updated portfolio data from servicer

                                                                                                             2/17/2011        ($725,277)            $—    Termination of SPA

                                                                                                                                                                                                                                              Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                            (CONTINUED)

                       Servicer Modifying Borrowers’ Loans              Cap of Incentive                                                    Adjustment Details                                                      Non-GSE Incentive Payments
                                                                              Payments
                                                                            on Behalf of
                                                                       Borrowers and to                                                                                                                                                                            Total
                                                                               Servicers                                                                                                                               Lenders/                                Non-GSE
             Name of                    Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                              Borrowers       Investors         Servicers             Incentive
Date         Institution                Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount    Adjusted Cap   Reason for Adjustment                        Incentive     Incentives        Incentives            Payments

                                                                                                              1/22/2010          $30,000       $660,000    Updated HPDP cap & HAFA initial cap

                                                                                                              3/26/2010         $800,000      $1,460,000   Updated portfolio data from servicer

                                                                                                              7/14/2010        ($360,000)     $1,100,000   Updated portfolio data from servicer
                                                      Financial
                                                                                                              9/30/2010          $60,445      $1,160,445   Updated portfolio data from servicer
             Hartford Savings Bank,                   Instrument for
12/11/2009                              Purchase                              $630,000     N/A                                                                                                               $—             $—                   $—                 $—
             Hartford, WI                             Home Loan
                                                                                                              1/6/2011               ($2)     $1,160,443   Updated portfolio data from servicer
                                                      Modifications
                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                              3/30/2011              ($2)     $1,160,441
                                                                                                                                                           reallocation

                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                              6/29/2011             ($18)     $1,160,423
                                                                                                                                                           reallocation

                                                      Financial                                               4/21/2010        ($150,000)            $—    Termination of SPA
             The Bryn Mawr Trust Co.,                 Instrument for
12/11/2009                              Purchase                              $150,000     N/A         9                                                                                                     $—             $—                   $—                 $—
             Bryn Mawr, PA                            Home Loan
                                                                                                              6/16/2011         $100,000       $100,000    Transfer of cap due to servicing transfer
                                                      Modifications

                                                                                                              1/22/2010          $30,000       $650,000    Updated HPDP cap & HAFA initial cap

                                                                                                              3/26/2010        ($580,000)        $70,000   Updated portfolio data from servicer

                                                                                                              7/14/2010       $1,430,000      $1,500,000   Updated portfolio data from servicer
                                                      Financial
             Citizens 1st National                                                                            9/30/2010          $95,612      $1,595,612   Updated portfolio data from servicer
                                                      Instrument for
12/16/2009   Bank,                      Purchase                              $620,000     N/A                                                                                                           $2,750          $6,281          $10,917               $19,948
                                                      Home Loan
             Spring Valley, IL                                                                                1/6/2011               ($2)     $1,595,610   Updated portfolio data from servicer
                                                      Modifications
                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                              3/30/2011              ($3)     $1,595,607
                                                                                                                                                           reallocation

                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                              6/29/2011             ($24)     $1,595,583
                                                                                                                                                           reallocation

                                                                                                              1/22/2010          $10,000       $180,000    Updated HPDP cap & HAFA initial cap

                                                                                                              3/26/2010          $30,000       $210,000    Updated portfolio data from servicer
                                                      Financial
             Golden Plains Credit
                                                      Instrument for
12/16/2009   Union,                     Purchase                              $170,000     N/A                7/14/2010         ($10,000)      $200,000    Updated portfolio data from servicer              $—             $—                   $—                 $—
                                                      Home Loan
             Garden City, KS
                                                      Modifications
                                                                                                              9/30/2010          $90,111       $290,111    Updated portfolio data from servicer

                                                                                                              2/17/2011        ($290,111)            $—    Termination of SPA

             First Federal Savings                    Financial                                               1/22/2010         $160,000      $3,620,000   Updated HPDP cap & HAFA initial cap
             and Loan Association of                  Instrument for
12/16/2009                              Purchase                            $3,460,000     N/A                                                                                                               $—             $—                   $—                 $—
             Lakewood,                                Home Loan
                                                                                                              4/21/2010      ($3,620,000)            $—    Termination of SPA
             Lakewood, OH                             Modifications

                                                                                                              1/22/2010          $20,000       $460,000    Updated HPDP cap & HAFA initial cap
                                                      Financial
                                                                                                              3/26/2010       $1,430,000      $1,890,000   Updated portfolio data from servicer
             Sound Community Bank,                    Instrument for
12/16/2009                              Purchase                              $440,000     N/A                                                                                                               $—             $—                   $—                 $—
             Seattle, WA                              Home Loan
                                                                                                              7/14/2010        ($390,000)     $1,500,000   Updated portfolio data from servicer
                                                      Modifications
                                                                                                              9/8/2010       ($1,500,000)            $—    Termination of SPA

                                                                                                              1/22/2010          $30,000       $730,000    Updated HPDP cap & HAFA initial cap

                                                                                                              3/26/2010       $1,740,000      $2,470,000   Updated portfolio data from servicer

                                                                                                              7/14/2010      ($1,870,000)      $600,000    Updated portfolio data from servicer
                                                      Financial
                                                                                                              9/30/2010         $850,556      $1,450,556   Updated portfolio data from servicer
             Horizon Bank, NA,                        Instrument for
12/16/2009                              Purchase                              $700,000     N/A                                                                                                               $—             $—                   $—                 $—
             Michigan City, IN                        Home Loan
                                                                                                              1/6/2011               ($2)     $1,450,554   Updated portfolio data from servicer
                                                      Modifications
                                                                                                                                                                                                                                                                           Transaction detail I Appendix D I july 28, 2011




                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                              3/30/2011              ($2)     $1,450,552
                                                                                                                                                           reallocation

                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                              6/29/2011             ($23)     $1,450,529
                                                                                                                                                           reallocation

                                                                                                                                                                                                                                                 Continued on next page.
                                                                                                                                                                                                                                                                           277
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                           (CONTINUED)                                                                                                                                                                            278
                       Servicer Modifying Borrowers’ Loans             Cap of Incentive                                                    Adjustment Details                                                      Non-GSE Incentive Payments
                                                                             Payments
                                                                           on Behalf of
                                                                      Borrowers and to                                                                                                                                                                            Total
                                                                              Servicers                                                                                                                               Lenders/                                Non-GSE
             Name of                   Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                              Borrowers       Investors         Servicers             Incentive
Date         Institution               Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount    Adjusted Cap   Reason for Adjustment                        Incentive     Incentives        Incentives            Payments

                                                                                                             1/22/2010          $40,000       $800,000    Updated HPDP cap & HAFA initial cap

                                                                                                             3/26/2010         $140,000       $940,000    Updated portfolio data from servicer

                                                                                                             7/14/2010        ($140,000)      $800,000    Updated portfolio data from servicer
                                                     Financial
             Park View Federal Sav-                                                                          9/30/2010          $70,334       $870,334    Updated portfolio data from servicer
                                                     Instrument for
12/16/2009   ings Bank,                Purchase                              $760,000     N/A                                                                                                           $5,000        $13,808           $12,000               $30,808
                                                     Home Loan
             Solon, OH                                                                                       1/6/2011               ($1)      $870,333    Updated portfolio data from servicer
                                                     Modifications
                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             3/30/2011              ($1)      $870,332
                                                                                                                                                          reallocation

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011             ($12)      $870,320
                                                                                                                                                          reallocation

                                                                                                             1/22/2010         $200,000      $4,430,000   Updated HPDP cap & HAFA initial cap

                                                                                                             3/26/2010      ($1,470,000)     $2,960,000   Updated portfolio data from servicer
                                                                                                                                                                                                                                                                          Appendix D I Transaction Detail I july 28, 2011




                                                                                                             7/14/2010      ($1,560,000)     $1,400,000   Updated portfolio data from servicer

                                                     Financial                                               9/30/2010       $5,852,780      $7,252,780   Updated portfolio data from servicer
             Iberiabank,                             Instrument for
12/23/2009                             Purchase                            $4,230,000     N/A         12                                                                                                    $—        $10,502           $15,000               $25,502
             Sarasota, FL                            Home Loan                                               1/6/2011              ($11)     $7,252,769   Updated portfolio data from servicer
                                                     Modifications
                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             3/30/2011             ($13)     $7,252,756
                                                                                                                                                          reallocation

                                                                                                             4/13/2011        ($300,000)     $6,952,756   Transfer of cap due to servicing transfer

                                                                                                             6/3/2011       ($6,927,254)        $25,502   Termination of SPA

                                                                                                             1/22/2010          $20,000       $360,000    Updated HPDP cap & HAFA initial cap

                                                                                                             3/26/2010        ($320,000)        $40,000   Updated portfolio data from servicer

                                                                                                             7/14/2010         $760,000       $800,000    Updated portfolio data from servicer
                                                     Financial
             Grafton Suburban Credit                                                                         9/30/2010         ($74,722)      $725,278    Updated portfolio data from servicer
                                                     Instrument for
12/23/2009   Union,                    Purchase                              $340,000     N/A                                                                                                               $—             $—                   $—                 $—
                                                     Home Loan
             North Garden, MA                                                                                1/6/2011               ($1)      $725,277    Updated portfolio data from servicer
                                                     Modifications
                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             3/30/2011              ($1)      $725,276
                                                                                                                                                          reallocation

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011             ($11)      $725,265
                                                                                                                                                          reallocation

                                                                                                             1/22/2010              $—          $60,000   Updated HPDP cap & HAFA initial cap

                                                                                                             3/26/2010          $90,000       $150,000    Updated portfolio data from servicer
                                                     Financial
             Eaton National Bank &
                                                     Instrument for
12/23/2009   Trust Company,            Purchase                               $60,000     N/A                7/14/2010          $50,000       $200,000    Updated portfolio data from servicer              $—             $—                   $—                 $—
                                                     Home Loan
             Eaton, OH
                                                     Modifications
                                                                                                             9/30/2010         ($54,944)      $145,056    Updated portfolio data from servicer

                                                                                                             5/20/2011        ($145,056)            $—    Termination of SPA

                                                                                                             1/22/2010              $—        $110,000    Updated HPDP cap & HAFA initial cap

                                                                                                             3/26/2010         ($20,000)        $90,000   Updated portfolio data from servicer
                                                     Financial
             Tempe Schools Credit
                                                     Instrument for
12/23/2009   Union,                    Purchase                              $110,000     N/A                7/14/2010          $10,000       $100,000    Updated portfolio data from servicer              $—             $—                   $—                 $—
                                                     Home Loan
             Tempe, AZ
                                                     Modifications
                                                                                                             9/30/2010          $45,056       $145,056    Updated portfolio data from servicer

                                                                                                             12/8/2010        ($145,056)            $—    Termination of SPA

                                                                                                                                                                                                                                                Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                           (CONTINUED)

                      Servicer Modifying Borrowers’ Loans              Cap of Incentive                                                    Adjustment Details                                                        Non-GSE Incentive Payments
                                                                             Payments
                                                                           on Behalf of
                                                                      Borrowers and to                                                                                                                                                                              Total
                                                                              Servicers                                                                                                                                 Lenders/                                Non-GSE
            Name of                    Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                Borrowers       Investors         Servicers             Incentive
Date        Institution                Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount    Adjusted Cap   Reason for Adjustment                          Incentive     Incentives        Incentives            Payments

                                                                                                             3/26/2010         $480,000       $740,000    Updated portfolio data from servicer

                                                                                                             7/14/2010        ($140,000)      $600,000    Updated portfolio data from servicer

                                                                                                             9/30/2010         ($19,778)      $580,222    Updated portfolio data from servicer
                                                     Financial
            Fresno County Federal
                                                     Instrument for
1/13/2010   Credit Union,              Purchase                              $260,000     N/A                1/6/2011               ($1)      $580,221    Updated portfolio data from servicer            $1,000          $4,596           $5,000               $10,596
                                                     Home Loan
            Fresno, CA
                                                     Modifications
                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             3/30/2011              ($1)      $580,220
                                                                                                                                                          reallocation

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011              ($8)      $580,212
                                                                                                                                                          reallocation

                                                                                                             3/26/2010         $610,000       $850,000    Updated portfolio data from servicer

                                                                                                             7/14/2010          $50,000       $900,000    Updated portfolio data from servicer
                                                     Financial
            Roebling Bank,                           Instrument for
1/13/2010                              Purchase                              $240,000     N/A                9/30/2010         ($29,666)      $870,334    Updated portfolio data from servicer                $—             $—                   $—                 $—
            Roebling, NJ                             Home Loan
                                                     Modifications
                                                                                                             1/6/2011               ($1)      $870,333    Updated portfolio data from servicer

                                                                                                             3/23/2011        ($870,333)            $—    Termination of SPA

                                                                                                             3/26/2010         $150,000       $290,000    Updated portfolio data from servicer
                                                     Financial
            First National Bank of                                                                           7/14/2010          $10,000       $300,000    Updated portfolio data from servicer
                                                     Instrument for
1/13/2010   Grant Park,                Purchase                              $140,000     N/A                                                                                                                 $—             $—                   $—                 $—
                                                     Home Loan
            Grant Park, IL                                                                                   9/30/2010          ($9,889)      $290,111    Updated portfolio data from servicer
                                                     Modifications
                                                                                                             1/26/2011        ($290,111)            $—    Termination of SPA

                                                                                                             3/26/2010     ($51,240,000)   $12,910,000    Updated portfolio data from servicer

                                                                                                                                                          Transfer of cap from CitiMortgage, Inc. due
                                                                                                             5/14/2010       $3,000,000    $15,910,000
                                                                                                                                                          to servicing transfer

                                                                                                                                                          Transfer of cap from CitiMortgage, Inc. due
                                                                                                             6/16/2010       $4,860,000    $20,770,000
                                                                                                                                                          to servicing transfer

                                                                                                             7/14/2010       $3,630,000    $24,400,000    Updated portfolio data from servicer

                                                                                                                                                          Transfer of cap from CitiMortgage, Inc. due
                                                                                                             7/16/2010         $330,000    $24,730,000
                                                                                                                                                          to servicing transfer

                                                                                                             8/13/2010         $700,000    $25,430,000    Transfer of cap due to servicing transfer

                                                                                                             9/15/2010         $200,000    $25,630,000    Transfer of cap due to servicing transfer

                                                     Financial                                               9/30/2010      ($1,695,826)   $23,934,174    Updated portfolio data from servicer
            Specialized Loan Servic-
                                                     Instrument for
1/13/2010   ing, LLC,                  Purchase                           $64,150,000     N/A                                                                                                           $311,218       $788,247          $761,288            $1,860,753
                                                     Home Loan                                               11/16/2010        $200,000    $24,134,174    Transfer of cap due to servicing transfer
            Highlands Ranch, CO
                                                     Modifications
                                                                                                             1/6/2011              ($32)   $24,134,142    Updated portfolio data from servicer

                                                                                                             1/13/2011       $1,500,000    $25,634,142    Transfer of cap due to servicing transfer

                                                                                                             3/16/2011       $7,100,000    $32,734,142    Transfer of cap due to servicing transfer

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             3/30/2011             ($36)   $32,734,106
                                                                                                                                                          reallocation

                                                                                                             4/13/2011       $1,000,000    $33,734,106    Transfer of cap due to servicing transfer

                                                                                                             5/13/2011         $100,000    $33,834,106    Transfer of cap due to servicing transfer

                                                                                                             6/16/2011         $300,000    $34,134,106    Transfer of cap due to servicing transfer

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011            ($332)   $34,133,774
                                                                                                                                                          reallocation
                                                                                                                                                                                                                                                                            Transaction detail I Appendix D I july 28, 2011




                                                                                                                                                                                                                                                  Continued on next page.
                                                                                                                                                                                                                                                                            279
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                           (CONTINUED)                                                                                                                                                                            280
                      Servicer Modifying Borrowers’ Loans              Cap of Incentive                                                    Adjustment Details                                                      Non-GSE Incentive Payments
                                                                             Payments
                                                                           on Behalf of
                                                                      Borrowers and to                                                                                                                                                                            Total
                                                                              Servicers                                                                                                                               Lenders/                                Non-GSE
            Name of                    Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                              Borrowers       Investors         Servicers             Incentive
Date        Institution                Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount    Adjusted Cap   Reason for Adjustment                        Incentive     Incentives        Incentives            Payments

                                                                                                             3/26/2010       $8,680,000      $9,450,000   Updated portfolio data from servicer

                                                                                                             7/14/2010      ($8,750,000)      $700,000    Updated portfolio data from servicer

                                                                                                             9/30/2010         $170,334       $870,334    Updated portfolio data from servicer
                                                     Financial
            Greater Nevada Mort-
                                                     Instrument for
1/13/2010   gage Services,             Purchase                              $770,000     N/A                1/6/2011               ($1)      $870,333    Updated portfolio data from servicer         $14,417        $38,315           $37,750               $90,481
                                                     Home Loan
            Carson City, NV
                                                     Modifications
                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             3/30/2011              ($1)      $870,332
                                                                                                                                                          reallocation

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011              ($8)      $870,324
                                                                                                                                                          reallocation

                                                     Financial                                               3/26/2010      $12,190,000    $15,240,000    Updated portfolio data from servicer
            Digital Federal Credit
                                                     Instrument for
1/15/2010   Union,                     Purchase                            $3,050,000     N/A                                                                                                               $—             $—                   $—                 $—
                                                     Home Loan
            Marlborough, MA                                                                                  5/14/2010     ($15,240,000)            $—    Termination of SPA
                                                     Modifications

                                                                                                             3/26/2010        ($730,000)      $230,000    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                          Appendix D I Transaction Detail I july 28, 2011




                                                                                                             7/14/2010         $370,000       $600,000    Updated portfolio data from servicer

                                                                                                             9/30/2010         $200,000       $800,000    Initial FHA-HAMP cap and initial 2MP cap

                                                                                                             9/30/2010        ($364,833)      $435,167    Updated portfolio data from servicer
                                                     Financial
            iServe Residential Lend-
                                                     Instrument for
1/29/2010   ing, LLC ,                 Purchase                              $960,000     N/A                11/16/2010        $100,000       $535,167    Transfer of cap due to servicing transfer         $—             $—                   $—                 $—
                                                     Home Loan
            San Diego, CA
                                                     Modifications
                                                                                                             1/6/2011               ($1)      $535,166    Updated portfolio data from servicer

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             3/30/2011              ($1)      $535,165
                                                                                                                                                          reallocation

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011              ($7)      $535,158
                                                                                                                                                          reallocation

                                                                                                             3/26/2010         $160,000       $700,000    Updated portfolio data from servicer

                                                                                                             9/30/2010          $25,278       $725,278    Updated portfolio data from servicer
                                                     Financial
                                                                                                             1/6/2011               ($1)      $725,277    Updated portfolio data from servicer
            United Bank,                             Instrument for
1/29/2010                              Purchase                              $540,000     N/A                                                                                                               $—             $—                   $—                 $—
            Griffin, GA                              Home Loan
                                                                                                                                                          Updated due to quarterly assessment and
                                                     Modifications                                           3/30/2011              ($1)      $725,276
                                                                                                                                                          reallocation

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011             ($11)      $725,265
                                                                                                                                                          reallocation

                                                     Financial                                               7/14/2010       $4,440,000      $5,500,000   Updated portfolio data from servicer
            Urban Trust Bank,                        Instrument for
3/3/2010                               Purchase                            $1,060,000     N/A                                                                                                               $—             $—                   $—                 $—
            Lake Mary, FL                            Home Loan
                                                                                                             9/24/2010      ($5,500,000)            $—    Termination of SPA
                                                     Modifications

                                                                                                             5/26/2010         $120,000    $28,160,000    Initial 2MP cap

                                                                                                             7/14/2010     ($12,660,000)   $15,500,000    Updated portfolio data from servicer

                                                                                                             9/30/2010         $100,000    $15,600,000    Initial FHA-HAMP cap

                                                                                                             9/30/2010      ($3,125,218)   $12,474,782    Updated portfolio data from servicer
                                                     Financial
            iServe Servicing, Inc.,                  Instrument for
3/5/2010                               Purchase                           $28,040,000     N/A                11/16/2010        $800,000    $13,274,782    Transfer of cap due to servicing transfer         $—             $—                   $—                 $—
            Irving, TX                               Home Loan
                                                     Modifications
                                                                                                             1/6/2011              ($20)   $13,274,762    Updated portfolio data from servicer

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             3/30/2011             ($24)   $13,274,738
                                                                                                                                                          reallocation

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011            ($221)   $13,274,517
                                                                                                                                                          reallocation

                                                                                                                                                                                                                                                Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                          (CONTINUED)

                      Servicer Modifying Borrowers’ Loans             Cap of Incentive                                                    Adjustment Details                                                        Non-GSE Incentive Payments
                                                                            Payments
                                                                          on Behalf of
                                                                     Borrowers and to                                                                                                                                                                              Total
                                                                             Servicers                                                                                                                                 Lenders/                                Non-GSE
            Name of                   Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                Borrowers       Investors         Servicers             Incentive
Date        Institution               Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount    Adjusted Cap   Reason for Adjustment                          Incentive     Incentives        Incentives            Payments

                                                                                                            7/14/2010     ($44,880,000)   $15,900,000    Updated portfolio data from servicer

                                                                                                            9/30/2010       $1,071,505    $16,971,505    Updated portfolio data from servicer
                                                    Financial
            Navy Federal Credit                                                                             1/6/2011              ($23)   $16,971,482    Updated portfolio data from servicer
                                                    Instrument for
3/10/2010   Union,                    Purchase                           $60,780,000     N/A                                                                                                            $16,833       $118,817          $128,333              $263,984
                                                    Home Loan
            Vienna, VA                                                                                                                                   Updated due to quarterly assessment and
                                                    Modifications                                           3/30/2011             ($26)   $16,971,456
                                                                                                                                                         reallocation

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            6/29/2011            ($238)   $16,971,218
                                                                                                                                                         reallocation

                                                                                                            7/14/2010         $400,000       $700,000    Updated portfolio data from servicer

                                                                                                            9/30/2010          $25,278       $725,278    Updated portfolio data from servicer
                                                    Financial
                                                                                                            1/6/2011               ($1)      $725,277    Updated portfolio data from servicer
            Vist Financial Corp,                    Instrument for
3/10/2010                             Purchase                              $300,000     N/A                                                                                                                 $—             $—                   $—                 $—
            Wyomissing, PA                          Home Loan
                                                                                                                                                         Updated due to quarterly assessment and
                                                    Modifications                                           3/30/2011              ($1)      $725,276
                                                                                                                                                         reallocation

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            6/29/2011             ($11)      $725,265
                                                                                                                                                         reallocation

                                                                                                            7/14/2010         $300,000       $600,000    Updated portfolio data from servicer

                                                                                                            9/30/2010         ($19,778)      $580,222    Updated portfolio data from servicer
                                                    Financial
            Midwest Bank and                                                                                1/6/2011               ($1)      $580,221    Updated portfolio data from servicer
                                                    Instrument for
4/14/2010   Trust Co.,                Purchase                              $300,000     N/A                                                                                                                 $—             $—                   $—                 $—
                                                    Home Loan
            Elmwood Park, IL                                                                                                                             Updated due to quarterly assessment and
                                                    Modifications                                           3/30/2011              ($1)      $580,220
                                                                                                                                                         reallocation

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            6/29/2011              ($8)      $580,212
                                                                                                                                                         reallocation

                                                                                                            7/14/2010        ($150,000)     $6,400,000   Updated portfolio data from servicer

                                                                                                            9/15/2010       $1,600,000      $8,000,000   Transfer of cap due to servicing transfer

                                                                                                            9/30/2010      ($4,352,173)     $3,647,827   Updated portfolio data from servicer
                                                    Financial
            Wealthbridge Mortgage                                                                           1/6/2011               ($5)     $3,647,822   Updated portfolio data from servicer
                                                    Instrument for
4/14/2010   Corp,                     Purchase                            $6,550,000     N/A                                                                                                                 $—             $—                   $—                 $—
                                                    Home Loan
            Beaverton, OR                                                                                                                                Updated due to quarterly assessment and
                                                    Modifications                                           3/30/2011              ($6)     $3,647,816
                                                                                                                                                         reallocation

                                                                                                            4/13/2011      ($3,000,000)      $647,816    Transfer of cap due to servicing transfer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            6/29/2011              ($9)      $647,807
                                                                                                                                                         reallocation

                                                                                                            5/26/2010          $30,000         $40,000   Updated FHA-HAMP cap
                                                    Financial
            Aurora Financial Group,
                                                    Instrument for                                          9/30/2010         $250,111       $290,111    Updated portfolio data from servicer
5/21/2010   Inc.,                     Purchase                               $10,000     N/A         4, 8                                                                                                $5,784                -          $5,867               $11,651
                                                    Home Loan
            Marlton, NJ
                                                    Modifications                                                                                        Updated due to quarterly assessment and
                                                                                                            6/29/2011          $59,889       $350,000
                                                                                                                                                         reallocation

                                                                                                                                                         Transfer of cap from CitiMortgage, Inc. due
                                                                                                            6/16/2010       $3,680,000      $3,680,000
                                                                                                                                                         to servicing transfer

                                                                                                            8/13/2010       $3,300,000      $6,980,000   Transfer of cap due to servicing transfer

                                                                                                            9/30/2010       $3,043,831    $10,023,831    Updated portfolio data from servicer

                                                                                                            10/15/2010      $1,400,000    $11,423,831    Transfer of cap due to servicing transfer

                                                    Financial                                               1/6/2011              ($17)   $11,423,814    Updated portfolio data from servicer
            Selene Finance LP.                      Instrument for
6/16/2010                             Transfer                                    $—     N/A         9                                                                                                    $6,750       $14,653            $6,500               $27,903
            Houston, TX                             Home Loan                                               3/16/2011       $2,100,000    $13,523,814    Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            3/30/2011             ($24)   $13,523,790
                                                                                                                                                         reallocation
                                                                                                                                                                                                                                                                           Transaction detail I Appendix D I july 28, 2011




                                                                                                            4/13/2011       $2,900,000    $16,423,790    Transfer of cap due to servicing transfer

                                                                                                            6/16/2011        ($200,000)   $16,223,790    Transfer of cap due to servicing transfer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            6/29/2011            ($273)   $16,223,517
                                                                                                                                                         reallocation
                                                                                                                                                                                                                                                                           281




                                                                                                                                                                                                                                                 Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                              (CONTINUED)                                                                                                                                                                            282
                      Servicer Modifying Borrowers’ Loans                 Cap of Incentive                                                    Adjustment Details                                                      Non-GSE Incentive Payments
                                                                                Payments
                                                                              on Behalf of
                                                                         Borrowers and to                                                                                                                                                                            Total
                                                                                 Servicers                                                                                                                               Lenders/                                Non-GSE
            Name of                       Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                              Borrowers       Investors         Servicers             Incentive
Date        Institution                   Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount    Adjusted Cap   Reason for Adjustment                        Incentive     Incentives        Incentives            Payments

                                                                                                                9/30/2010       $1,585,945      $2,465,945   Updated portfolio data from servicer

                                                                                                                1/6/2011               ($4)     $2,465,941   Updated portfolio data from servicer
                                                        Financial
            Suburban Mortgage
                                                        Instrument for
8/4/2010    Company of New Mexico,        Purchase                              $880,000     N/A                                                             Updated due to quarterly assessment and           $—             $—                   $—                 $—
                                                        Home Loan                                               3/30/2011              ($4)     $2,465,937
            Alburquerque, NM                                                                                                                                 reallocation
                                                        Modifications
                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                                6/29/2011             ($40)     $2,465,897
                                                                                                                                                             reallocation

                                                                                                                9/30/2010       $1,040,667      $1,740,667   Updated portfolio data from servicer

                                                                                                                1/6/2011               ($2)     $1,740,665   Updated portfolio data from servicer
                                                        Financial
            Bramble Savings Bank,                       Instrument for
8/20/2010                                 Purchase                              $700,000     N/A                                                             Updated due to quarterly assessment and           $—             $—                   $—                 $—
            Cinncinati, OH                              Home Loan                                               3/30/2011              ($3)     $1,740,662
                                                                                                                                                             reallocation
                                                        Modifications
                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                                6/29/2011             ($28)     $1,740,634
                                                                                                                                                             reallocation
                                                                                                                                                                                                                                                                             Appendix D I Transaction Detail I july 28, 2011




                                                                                                                9/30/2010       $2,181,334      $3,481,334   Updated portfolio data from servicer

                                                                                                                1/6/2011               ($5)     $3,481,329   Updated portfolio data from servicer
                                                        Financial
            Pathfinder Bank,                            Instrument for
8/25/2010                                 Purchase                            $1,300,000     N/A                                                             Updated due to quarterly assessment and         $917           $840            $1,917                $3,673
            Oswego, NY                                  Home Loan                                               3/30/2011              ($6)     $3,481,323
                                                                                                                                                             reallocation
                                                        Modifications
                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                                6/29/2011             ($58)     $3,481,265
                                                                                                                                                             reallocation

                                                                                                                9/30/2010       $7,014,337    $11,314,337    Updated portfolio data from servicer

                                                                                                                1/6/2011              ($17)   $11,314,320    Updated portfolio data from servicer
                                                        Financial
            First Financial Bank, N.A.,                 Instrument for
8/27/2010                                 Purchase                            $4,300,000     N/A                                                             Updated due to quarterly assessment and           $—             $—                   $—                 $—
            Terre Haute, ID                             Home Loan                                               3/30/2011             ($20)   $11,314,300
                                                                                                                                                             reallocation
                                                        Modifications
                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                                6/29/2011            ($192)   $11,314,108
                                                                                                                                                             reallocation

                                                                                                                9/30/2010          $45,056       $145,056    Updated portfolio data from servicer

                                                                                                                1/6/2011           $34,944       $180,000    Updated portfolio data from servicer
                                                        Financial
            RBC Bank (USA),                             Instrument for
9/1/2010                                  Purchase                              $100,000     N/A         4, 8                                                Updated due to quarterly assessment and       $3,152             $—            $3,152                $6,304
            Raleigh, NC                                 Home Loan                                               3/30/2011          $40,000       $220,000
                                                                                                                                                             reallocation
                                                        Modifications
                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                                6/29/2011          $50,000       $270,000
                                                                                                                                                             reallocation

                                                                                                                9/30/2010       $5,168,169      $8,268,169   Updated portfolio data from servicer

                                                                                                                1/6/2011              ($12)     $8,268,157   Updated portfolio data from servicer
                                                        Financial
                                                                                                                                                             Updated due to quarterly assessment and
            Fay Servicing, LLC,                         Instrument for                                          3/30/2011             ($15)     $8,268,142
9/3/2010                                  Purchase                            $3,100,000     N/A                                                             reallocation                                      $—             $—                   $—                 $—
            Chicago, IL                                 Home Loan
                                                        Modifications
                                                                                                                4/13/2011         $400,000      $8,668,142   Transfer of cap due to servicing transfer

                                                                                                                                                             Updated due to quarterly assessment and
                                                                                                                6/29/2011            ($143)     $8,667,999
                                                                                                                                                             reallocation

                                                                                                                                                                                                                                                   Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                             (CONTINUED)

                       Servicer Modifying Borrowers’ Loans               Cap of Incentive                                                    Adjustment Details                                                      Non-GSE Incentive Payments
                                                                               Payments
                                                                             on Behalf of
                                                                        Borrowers and to                                                                                                                                                                            Total
                                                                                Servicers                                                                                                                               Lenders/                                Non-GSE
            Name of                      Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                              Borrowers       Investors         Servicers             Incentive
Date        Institution                  Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount    Adjusted Cap   Reason for Adjustment                        Incentive     Incentives        Incentives            Payments

                                                                                                               9/15/2010       $1,000,000      $1,000,000   Transfer of cap due to servicing transfer

                                                                                                               9/30/2010         $450,556      $1,450,556   Updated portfolio data from servicer

                                                                                                               1/6/2011               ($2)     $1,450,554   Updated portfolio data from servicer
                                                       Financial
                                                                                                               2/16/2011       $3,000,000      $4,450,554   Transfer of cap due to servicing transfer
            Vericrest Financial, Inc.,                 Instrument for
9/15/2010                                Purchase                                    $—     N/A         9                                                                                                 $6,469        $19,130           $20,469               $46,069
            Oklahoma City, OK                          Home Loan
                                                                                                               3/16/2011      $10,200,000    $14,650,554    Transfer of cap due to servicing transfer
                                                       Modifications
                                                                                                                                                            Updated due to quarterly assessment and
                                                                                                               3/30/2011             ($24)   $14,650,530
                                                                                                                                                            reallocation

                                                                                                                                                            Updated due to quarterly assessment and
                                                                                                               6/29/2011            ($227)   $14,650,303
                                                                                                                                                            reallocation

                                                                                                               9/30/2010         $180,222       $580,222    Updated portfolio data from servicer

                                                                                                               1/6/2011               ($1)      $580,221    Updated portfolio data from servicer
                                                       Financial
            Midwest Community
                                                       Instrument for
9/15/2010   Bank,                        Purchase                              $400,000     N/A                                                             Updated due to quarterly assessment and           $—             $91           $1,000                $1,091
                                                       Home Loan                                               3/30/2011              ($1)      $580,220
            Freeport, IL                                                                                                                                    reallocation
                                                       Modifications
                                                                                                                                                            Updated due to quarterly assessment and
                                                                                                               6/29/2011              ($8)      $580,212
                                                                                                                                                            reallocation

                                                       Financial                                               9/30/2010          $45,056       $145,056    Updated portfolio data from servicer
            American Finance House
                                                       Instrument for
9/24/2010   LARIBA,                      Purchase                              $100,000     N/A                                                                                                               $—             $—                   $—                 $—
                                                       Home Loan
            Pasadena, CA                                                                                       2/2/2011         ($145,056)            $—    Termination of SPA
                                                       Modifications

                                                                                                               9/30/2010         $856,056      $2,756,056   Updated portfolio data from servicer
                                                       Financial
            Centrue Bank,                              Instrument for
9/24/2010                                Purchase                            $1,900,000     N/A                1/6/2011               ($4)     $2,756,052   Updated portfolio data from servicer              $—             $—                   $—                 $—
            Ottawa, IL                                 Home Loan
                                                       Modifications
                                                                                                               3/9/2011       ($2,756,052)            $—    Termination of SPA

                                                       Financial                                               9/30/2010          $45,056       $145,056    Updated portfolio data from servicer
            AgFirst Farm Credit
                                                       Instrument for
9/30/2010   Bank,                        Purchase                              $100,000     N/A                                                                                                               $—             $—                   $—                 $—
                                                       Home Loan
            Columbia, SC                                                                                       3/23/2011        ($145,056)            $—    Termination of SPA
                                                       Modifications

                                                       Financial                                               9/30/2010          $45,056       $145,056    Updated portfolio data from servicer
            Amarillo National Bank,                    Instrument for
9/30/2010                                Purchase                              $100,000     N/A         4, 8                                                                                                  $—             $—                   $—                 $—
            Amarillo, TX                               Home Loan                                                                                            Updated due to quarterly assessment and
                                                                                                               6/29/2011              ($1)      $145,055
                                                       Modifications                                                                                        reallocation

                                                       Financial                                               9/30/2010          $45,056       $145,056    Updated portfolio data from servicer
            American Financial
                                                       Instrument for
9/30/2010   Resources Inc.,              Purchase                              $100,000     N/A         4, 8                                                                                                  $—             $—                   $—                 $—
                                                       Home Loan                                                                                            Updated due to quarterly assessment and
            Parsippany, NJ                                                                                     6/29/2011              ($1)      $145,055
                                                       Modifications                                                                                        reallocation

                                                                                                               9/30/2010         $765,945      $2,465,945   Updated portfolio data from servicer

                                                                                                               1/6/2011               ($3)     $2,465,942   Updated portfolio data from servicer
                                                       Financial
            Banco Popular de Puerto
                                                       Instrument for                                   4,
9/30/2010   Rico,                        Purchase                            $1,700,000     N/A                                                             Updated due to quarterly assessment and           $—             $—                   $—                 $—
                                                       Home Loan                                        5, 8   3/30/2011              ($4)     $2,465,938
            San Juan, PR                                                                                                                                    reallocation
                                                       Modifications
                                                                                                                                                            Updated due to quarterly assessment and
                                                                                                               6/29/2011             ($36)     $2,465,902
                                                                                                                                                            reallocation

                                                       Financial                                               9/30/2010          $45,056       $145,056    Updated portfolio data from servicer
            Capital International
                                                       Instrument for
9/30/2010   Financial, Inc.,             Purchase                              $100,000     N/A         4, 8                                                                                                  $—             $—                   $—                 $—
                                                       Home Loan                                                                                            Updated due to quarterly assessment and
            Coral Gables, FL                                                                                   6/29/2011              ($1)      $145,055
                                                       Modifications                                                                                        reallocation

                                                                                                               9/30/2010         $360,445      $1,160,445   Updated portfolio data from servicer
                                                       Financial
            Citizens Community
                                                       Instrument for
9/24/2010   Bank,                        Purchase                              $800,000     N/A                1/6/2011               ($2)     $1,160,443   Updated portfolio data from servicer              $—             $—                   $—                 $—
                                                                                                                                                                                                                                                                            Transaction detail I Appendix D I july 28, 2011




                                                       Home Loan
            Freeburg, IL
                                                       Modifications
                                                                                                               3/23/2011      ($1,160,443)            $—    Termination of SPA

                                                                                                                                                                                                                                                  Continued on next page.
                                                                                                                                                                                                                                                                            283
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                           (CONTINUED)                                                                                                                                                                          284
                      Servicer Modifying Borrowers’ Loans              Cap of Incentive                                                    Adjustment Details                                                    Non-GSE Incentive Payments
                                                                             Payments
                                                                           on Behalf of
                                                                      Borrowers and to                                                                                                                                                                          Total
                                                                              Servicers                                                                                                                             Lenders/                                Non-GSE
            Name of                    Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                            Borrowers       Investors         Servicers             Incentive
Date        Institution                Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount    Adjusted Cap   Reason for Adjustment                      Incentive     Incentives        Incentives            Payments

                                                                                                             9/30/2010         $901,112      $2,901,112   Updated portfolio data from servicer

                                                                                                             1/6/2011               ($4)     $2,901,108   Updated portfolio data from servicer
                                                     Financial
            Community Credit Union
                                                     Instrument for
9/30/2010   of Florida,                Purchase                            $2,000,000     N/A         6                                                   Updated due to quarterly assessment and         $—             $—                   $—                 $—
                                                     Home Loan                                               3/30/2011              ($5)     $2,901,103
            Rockledge, FL                                                                                                                                 reallocation
                                                     Modifications
                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011             ($48)     $2,901,055
                                                                                                                                                          reallocation

                                                     Financial                                               9/30/2010          $45,056       $145,056    Updated portfolio data from servicer
            CU Mortgage Services,
                                                     Instrument for
9/30/2010   Inc.,                      Purchase                              $100,000     N/A         4, 8                                                                                                $—             $—                   $—                 $—
                                                     Home Loan                                                                                            Updated due to quarterly assessment and
            New Brighton, MN                                                                                 6/29/2011              ($1)      $145,055
                                                     Modifications                                                                                        reallocation

                                                     Financial                                               9/30/2010          $45,056       $145,056    Updated portfolio data from servicer
            First Federal Bank of
                                                     Instrument for
9/30/2010   Florida,                   Purchase                              $100,000     N/A         4, 8                                                                                                $—             $—                   $—                 $—
                                                     Home Loan                                                                                            Updated due to quarterly assessment and
            Lake City, FL                                                                                    6/29/2011              ($1)      $145,055
                                                     Modifications                                                                                        reallocation
                                                                                                                                                                                                                                                                        Appendix D I Transaction Detail I july 28, 2011




                                                     Financial                                               9/30/2010          $45,056       $145,056    Updated portfolio data from servicer
            First Mortgage Copora-
                                                     Instrument for
9/30/2010   tion,                      Purchase                              $100,000     N/A         4, 8                                                                                                $—             $—                   $—                 $—
                                                     Home Loan                                                                                            Updated due to quarterly assessment and
            Diamond Bar, CA                                                                                  6/29/2011              ($1)      $145,055
                                                     Modifications                                                                                        reallocation

                                                                                                             9/30/2010         $180,222       $580,222    Updated portfolio data from servicer
                                                     Financial
            First Safety Bank,                       Instrument for
9/30/2010                              Purchase                              $400,000     N/A                1/6/2011               ($1)      $580,221    Updated portfolio data from servicer            $—             $—                   $—                 $—
            Cincinnati, OH                           Home Loan
                                                     Modifications
                                                                                                             3/23/2011        ($580,221)            $—    Termination of SPA

                                                                                                             9/30/2010         $360,445      $1,160,445   Updated portfolio data from servicer

                                                                                                             1/6/2011               ($2)     $1,160,443   Updated portfolio data from servicer
                                                     Financial
            Flagstar Capital Markets
                                                     Instrument for
9/30/2010   Corporation,               Purchase                              $800,000     N/A         7, 8                                                Updated due to quarterly assessment and         $—             $—                   $—                 $—
                                                     Home Loan                                               3/30/2011              ($2)     $1,160,441
            Troy, MI                                                                                                                                      reallocation
                                                     Modifications
                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011             ($18)     $1,160,423
                                                                                                                                                          reallocation

                                                                                                             9/30/2010         $765,945      $2,465,945   Updated portfolio data from servicer

                                                                                                             1/6/2011               ($4)     $2,465,941   Updated portfolio data from servicer
                                                     Financial
            Franklin Savings,                        Instrument for
9/30/2010                              Purchase                            $1,700,000     N/A         4                                                   Updated due to quarterly assessment and         $—             $—                   $—                 $—
            Cincinnati, OH                           Home Loan                                               3/30/2011              ($4)     $2,465,937
                                                                                                                                                          reallocation
                                                     Modifications
                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011             ($40)     $2,465,897
                                                                                                                                                          reallocation

                                                     Financial                                               9/30/2010          $45,056       $145,056    Updated portfolio data from servicer
            Gateway Mortgage
                                                     Instrument for
9/30/2010   Group, LLC,                Purchase                              $100,000     N/A         4, 8                                                                                                $—             $—                   $—                 $—
                                                     Home Loan                                                                                            Updated due to quarterly assessment and
            Tulsa, OK                                                                                        6/29/2011              ($1)      $145,055
                                                     Modifications                                                                                        reallocation

                                                     Financial                                               9/30/2010          $45,056       $145,056    Updated portfolio data from servicer
            GFA Federal Credit
                                                     Instrument for
9/30/2010   Union,                     Purchase                              $100,000     N/A                                                                                                             $—             $—                   $—                 $—
                                                     Home Loan
            Gardner, MA                                                                                      3/23/2011        ($145,056)            $—    Termination of SPA
                                                     Modifications

                                                     Financial                                               9/30/2010          $45,056       $145,056    Updated portfolio data from servicer
            Guaranty Bank,                           Instrument for
9/30/2010                              Purchase                              $100,000     N/A         4, 8                                                                                              $917             $—            $1,000                $1,917
            Saint Paul, MN                           Home Loan                                                                                            Updated due to quarterly assessment and
                                                                                                             6/29/2011              ($1)      $145,055
                                                     Modifications                                                                                        reallocation

                                                                                                             9/30/2010         $135,167       $435,167    Updated portfolio data from servicer

                                                                                                             1/6/2011               ($1)      $435,166    Updated portfolio data from servicer
                                                     Financial
            James B. Nutter &
                                                     Instrument for
9/24/2010   Company,                   Purchase                              $300,000     N/A         4, 8                                                Updated due to quarterly assessment and         $—             $—                   $—                 $—
                                                     Home Loan                                               3/30/2011              ($1)      $435,165
            Kansas City, MO                                                                                                                               reallocation
                                                     Modifications
                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011              ($6)      $435,159
                                                                                                                                                          reallocation

                                                                                                                                                                                                                                              Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                           (CONTINUED)

                      Servicer Modifying Borrowers’ Loans              Cap of Incentive                                                    Adjustment Details                                                    Non-GSE Incentive Payments
                                                                             Payments
                                                                           on Behalf of
                                                                      Borrowers and to                                                                                                                                                                          Total
                                                                              Servicers                                                                                                                             Lenders/                                Non-GSE
            Name of                    Transaction   Investment             & Lenders/    Pricing            Adjustment   Cap Adjustment                                                            Borrowers       Investors         Servicers             Incentive
Date        Institution                Type          Description      Investors (Cap) 1   Mechanism   Note   Date                Amount    Adjusted Cap   Reason for Adjustment                      Incentive     Incentives        Incentives            Payments

                                                                                                             9/30/2010         $450,556      $1,450,556   Updated portfolio data from servicer

                                                                                                             1/6/2011               ($2)     $1,450,554   Updated portfolio data from servicer
                                                     Financial
            Liberty Bank and
                                                     Instrument for
9/30/2010   Trust Co,                  Purchase                            $1,000,000     N/A                                                             Updated due to quarterly assessment and         $—             $—                   $—                 $—
                                                     Home Loan                                               3/30/2011              ($2)     $1,450,552
            New Orleans, LA                                                                                                                               reallocation
                                                     Modifications
                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011             ($23)     $1,450,529
                                                                                                                                                          reallocation

                                                                                                             9/30/2010         $315,389      $1,015,389   Updated portfolio data from servicer

                                                                                                             1/6/2011               ($1)     $1,015,388   Updated portfolio data from servicer
                                                     Financial
            M&T Bank,                                Instrument for
9/30/2010                              Purchase                              $700,000     N/A         4, 8                                                Updated due to quarterly assessment and    $10,736             $—           $10,902               $21,638
            Buffalo, NY                              Home Loan                                               3/30/2011              ($1)     $1,015,387
                                                                                                                                                          reallocation
                                                     Modifications
                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011             ($11)     $1,015,376
                                                                                                                                                          reallocation

                                                                                                             9/30/2010         $630,778      $2,030,778   Updated portfolio data from servicer

                                                                                                             1/6/2011               ($3)     $2,030,775   Updated portfolio data from servicer
                                                     Financial
            Magna Bank,                              Instrument for
9/30/2010                              Purchase                            $1,400,000     N/A         5                                                   Updated due to quarterly assessment and         $—             $—                   $—                 $—
            Germantown, TN                           Home Loan                                               3/30/2011              ($3)     $2,030,772
                                                                                                                                                          reallocation
                                                     Modifications
                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011             ($33)     $2,030,739
                                                                                                                                                          reallocation

                                                                                                             9/30/2010         $225,278       $725,278    Updated portfolio data from servicer
                                                     Financial
            Mainstreet Credit Union,                 Instrument for
9/30/2010                              Purchase                              $500,000     N/A                1/6/2011               ($1)      $725,277    Updated portfolio data from servicer            $—             $—                   $—                 $—
            Lexena, KS                               Home Loan
                                                     Modifications
                                                                                                             3/9/2011         ($725,277)            $—    Termination of SPA

                                                     Financial                                               9/30/2010          $45,056       $145,056    Updated portfolio data from servicer
            Marsh Associates, Inc.,                  Instrument for
9/30/2010                              Purchase                              $100,000     N/A         4, 8                                                                                                $—             $—                   $—                 $—
            Charlotte, NC                            Home Loan                                                                                            Updated due to quarterly assessment and
                                                                                                             6/29/2011              ($1)      $145,055
                                                     Modifications                                                                                        reallocation

                                                                                                             9/30/2010      $49,915,806    $93,415,806    Updated portfolio data from servicer

                                                                                                             1/6/2011             ($125)   $93,415,681    Updated portfolio data from servicer
                                                     Financial
            Midland Mortgage
                                                     Instrument for
9/30/2010   Company,                   Purchase                           $43,500,000     N/A         4, 5                                                Updated due to quarterly assessment and   $381,358          $1,427         $422,637              $805,423
                                                     Home Loan                                               3/30/2011            ($139)   $93,415,542
            Oklahoma City, OK                                                                                                                             reallocation
                                                     Modifications
                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                             6/29/2011          ($1,223)   $93,414,319
                                                                                                                                                          reallocation

                                                     Financial                                               9/30/2010          $45,056       $145,056    Updated portfolio data from servicer
            Schmidt Mortgage
                                                     Instrument for
9/30/2010   Company,                   Purchase                              $100,000     N/A         4, 8                                                                                                $—             $—                   $—                 $—
                                                     Home Loan                                                                                            Updated due to quarterly assessment and
            Rocky River, OH                                                                                  6/29/2011              ($1)      $145,055
                                                     Modifications                                                                                        reallocation

                                                     Financial                                               9/30/2010          $45,056       $145,056    Updated portfolio data from servicer
            Stockman Bank of
                                                     Instrument for
9/30/2010   Montana,                   Purchase                              $100,000     N/A         4, 8                                                                                                $—             $—                   $—                 $—
                                                     Home Loan                                                                                            Updated due to quarterly assessment and
            Miles City, MT                                                                                   6/29/2011              ($1)      $145,055
                                                     Modifications                                                                                        reallocation

                                                                                                             9/30/2010         $270,334       $870,334    Updated portfolio data from servicer
                                                     Financial
            University First Federal
                                                     Instrument for
9/30/2010   Credit Union,              Purchase                              $600,000     N/A                1/6/2011               ($1)      $870,333    Updated portfolio data from servicer            $—             $—                   $—                 $—
                                                     Home Loan
            Salt Lake City, UT
                                                     Modifications
                                                                                                             2/17/2011        ($870,333)            $—    Termination of SPA

                                                     Financial                                               9/30/2010          $45,056       $145,056    Updated portfolio data from servicer
            Weststar Mortgage, Inc.,                 Instrument for
9/30/2010                              Purchase                              $100,000     N/A         4, 8                                                                                                $—             $—                   $—                 $—
            Woodbridge, VA                           Home Loan                                                                                            Updated due to quarterly assessment and
                                                                                                                                                                                                                                                                        Transaction detail I Appendix D I july 28, 2011




                                                                                                             6/29/2011              ($1)      $145,055
                                                     Modifications                                                                                        reallocation

                                                                                                                                                                                                                                              Continued on next page.
                                                                                                                                                                                                                                                                        285
  HAMP TRANSACTION DETAIL, AS OF 6/30/2011                                                             (CONTINUED)

                                 Servicer Modifying Borrowers’ Loans                     Cap of Incentive
                                                                                               Payments
                                                                                                                                                                                 Adjustment Details                                                                                Non-GSE Incentive Payments
                                                                                                                                                                                                                                                                                                                                        286
                                                                                             on Behalf of
                                                                                        Borrowers and to                                                                                                                                                                                                                        Total
                                                                                                Servicers                                                                                                                                                                             Lenders/                              Non-GSE
                       Name of                      Transaction     Investment                & Lenders/     Pricing                  Adjustment          Cap Adjustment                                                                                            Borrowers         Investors         Servicers           Incentive
 Date                  Institution                  Type            Description         Investors (Cap) 1    Mechanism       Note     Date                       Amount           Adjusted Cap     Reason for Adjustment                                             Incentive       Incentives        Incentives          Payments

                                                                                                                                      12/15/2010              $5,000,000            $5,000,000     Updated portfolio data from servicer

                                                                                                                                      1/6/2011                         ($7)         $4,999,993     Updated portfolio data from servicer

                                                                                                                                      2/16/2011                 $500,000            $5,499,993     Transfer of cap due to servicing transfer
                                                                    Financial
                       Statebridge Company,
                                                                    Instrument for
 12/15/2010            LLC,                         Purchase                                           $—    N/A             9        3/16/2011                 $100,000            $5,599,993     Transfer of cap due to servicing transfer                              $—               $—                   $—               $—
                                                                    Home Loan
                       Denver, CO
                                                                    Modifications
                                                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                                      3/30/2011                        ($9)         $5,599,984
                                                                                                                                                                                                   reallocation

                                                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                                      6/29/2011                      ($85)          $5,599,899
                                                                                                                                                                                                   reallocation

                                                                                                                                      12/15/2010              $4,300,000            $4,300,000     Updated portfolio data from servicer
                                                                    Financial
                       Scotiabank de Puerto
                                                                    Instrument for                                                    1/6/2011                         ($4)         $4,299,996     Updated portfolio data from servicer
 12/15/2010            Rico,                        Purchase                                           $—    N/A             9                                                                                                                                       $28,509         $124,667           $46,337            $199,513
                                                                    Home Loan
                       San Juan, PR
                                                                    Modifications                                                                                                                  Updated due to quarterly assessment and
                                                                                                                                      6/29/2011                        ($5)         $4,299,991
                                                                                                                                                                                                   reallocation

                                                                                                                                      4/13/2011                 $200,000              $200,000     Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                                                        Appendix D I Transaction Detail I july 28, 2011




                       AmTrust Bank, A Division                     Financial                                                         5/13/2011                 $100,000              $300,000     Transfer of cap due to servicing transfer
                       of New York Community                        Instrument for
 4/13/2011                                          Purchase                                           $—    N/A             9                                                                                                                                            $—               $—                   $—               $—
                       Bank,                                        Home Loan                                                         6/16/2011                 $300,000              $600,000     Transfer of cap due to servicing transfer
                       Cleveland, OH                                Modifications
                                                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                                      6/29/2011                        ($9)           $599,991
                                                                                                                                                                                                   reallocation

                                                                    Financial
                       SunTrust Mortgage, Inc.,                     Instrument for
 4/13/2011                                          Purchase                                           $—    N/A             9        4/13/2011                 $100,000              $100,000     Transfer of cap due to servicing transfer                              $—               $—                   $—               $—
                       Richmond, VA                                 Home Loan
                                                                    Modifications

                                                                    Financial                                                         4/13/2011               $1,000,000            $1,000,000     Transfer of cap due to servicing transfer
                       Urban Partnership Bank,                      Instrument for
 4/13/2011                                          Purchase                                           $—    N/A             9                                                                                                                                            $—               $—                   $—               $—
                       Chicago, IL                                  Home Loan                                                                                                                      Updated due to quarterly assessment and
                                                                                                                                      6/29/2011                 $233,268            $1,233,268
                                                                    Modifications                                                                                                                  reallocation

                                                                    Financial                                                         4/13/2011                 $200,000              $200,000     Transfer of cap due to servicing transfer
                       Western Federal Credit
                                                                    Instrument for
 4/13/2011             Union,                       Purchase                                           $—    N/A             9                                                                                                                                            $—            $6,092           $3,000              $9,092
                                                                    Home Loan                                                                                                                      Updated due to quarterly assessment and
                       Hawthorne, CA                                                                                                  6/29/2011                   $17,687             $217,687
                                                                    Modifications                                                                                                                  reallocation

                                                                                                                                      5/13/2011                 $500,000              $500,000     Transfer of cap due to servicing transfer
                                                                    Financial
                       FCI Lender Services,
                                                                    Instrument for                                                    6/16/2011                 $100,000              $600,000     Transfer of cap due to servicing transfer
 5/13/2011             Inc.,                        Purchase                                           $—    N/A             9                                                                                                                                            $—             $349                   $—             $349
                                                                    Home Loan
                       Anaheim Hills, CA
                                                                    Modifications                                                                                                                  Updated due to quarterly assessment and
                                                                                                                                      6/29/2011                        ($9)           $599,991
                                                                                                                                                                                                   reallocation



                                                                    Total Initial
                                                                                                                    Total Cap Adjustments               $6,056,226,119                             Totals                                                       $227,031,667     $623,375,055     $575,608,521       $1,426,015,243
                                                                    Cap               $23,831,570,000

                                                                                                Total Cap                                             $29,887,796,119


Notes: Numbers affected by rounding. Data as of 6/30/2011. Numbered notes and definitions are taken directly from the Treasury’s 7/1/2011 Transaction Report-Housing Programs.
1
   The Cap of Incentive Payments represents the potential total amount allocated to each servicer and includes the maximum amount allotted for all payments on behalf of borrowers and payments to servicers and lenders/investors.
The Cap is subject to adjustment based on the total amount allocated to the program and individual servicer usage for borrower modifications. Each adjustment to the Cap is reflected under Adjustment Details.			
2
    On July 31, 2009, the SPA with Chase Home Finance, LLC was terminated and superseded by new SPAs with J.P. Morgan Chase Bank, NA and EMC Mortgage Corporation. 					
3
    Wachovia Mortgage, FSB was merged with Wells Fargo Bank, NA, and the remaining Adjusted Cap stated above represents the amount previously paid to Wachovia Mortgage, FSB prior to such merger.  				
4
    Initial cap amount includes FHA-HAMP.
5
    Initial cap amount includes RD-HAMP.
6
    Initial cap amount includes 2MP.	
7
    Initial cap amount includes FHA-2LP.
8
    Initial cap does not include HAMP.
9
    This institution executed an Assignment and Assumption Agreement (a copy of which is available on www.FinancialStability.gov) with respect to all rights and obligations for the transferred loan modifications. The amount transferred is realized as a
     cap adjustment and not as initial cap.
10
     The amendment reflects a change in the legal name of the institution.
11
     MorEquity, Inc executed a subservicing agreement with Nationstar Mortgage, LLC, that took effect 02/01/2011. All mortgage loans including all HAMP loans were transferred to Nationstar. The remaining Adjusted Cap stated above represents the
      amount previously paid to MorEquity, Inc. prior to such agreement.
12
      The remaining Adjusted Cap stated above represents the amount paid to servicer prior to SPA termination.

“HAFA” means the Home Affordable Foreclosure Alternatives program.
“HPDP” means the Home Price Decline Protection program.
“2MP” means the Second Lien Modification Program.
“RD-HAMP” means the Rural Housing Service Home Affordable Modification Program.
“FHA-2LP” means the FHA Second Lien Program.

Source: Treasury, Transactions-Report-Housing Programs, 07/01/2011.
Table D.13

    HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 3/30/2011                                                            (CONTINUED)

                      Seller

                                                                                               Transaction                                          Initial Investment   Additional Investment        Investment                 Pricing
Note     Trade Date   Name of Institution                                                      Type          Investment Description                            Amount                  Amount            Amount1              Mechanism

         6/23/10                                                                                             Financial Instrument for HHF Program      $102,800,000                        —                                          N/A

2        9/23/10      Nevada Affordable Housing Assistance Corporation, Reno, NV               Purchase      Financial Instrument for HHF Program                  —             $34,056,581      $194,026,240                        N/A

3        9/29/10                                                                                             Financial Instrument for HHF Program                  —             $57,169,659                                          N/A

         6/23/10                                                                                             Financial Instrument for HHF Program      $699,600,000                        —                                          N/A

2        9/23/10      CalHFA Mortgage Assistance Corporation, Sacramento, CA                   Purchase      Financial Instrument for HHF Program                  —            $476,257,070     $1,975,334,096                       N/A

3        9/29/10                                                                                             Financial Instrument for HHF Program                  —            $799,477,026                                          N/A

         6/23/10                                                                                             Financial Instrument for HHF Program      $418,000,000                        —                                          N/A

2        9/23/10      Florida Housing Finance Corporation, Tallahassee, FL                     Purchase      Financial Instrument for HHF Program                  —            $238,864,755     $1,057,839,136                       N/A

3        9/29/10                                                                                             Financial Instrument for HHF Program                  —            $400,974,381                                          N/A

         6/23/10                                                                                             Financial Instrument for HHF Program      $125,100,000                        —                                          N/A
                      Arizona (Home) Foreclosure Prevention Funding Corporation, Phoenix, AZ   Purchase                                                                                           $267,766,006
3        9/29/10                                                                                             Financial Instrument for HHF Program                  —            $142,666,006                                          N/A

         6/23/10                                                                                             Financial Instrument for HHF Program      $154,500,000                        —                                          N/A

2        9/23/10      Michigan Homeowner Assistance Nonprofit Housing Corporation, Lansing, MI Purchase      Financial Instrument for HHF Program                  —            $128,461,559      $498,605,738                        N/A

3        9/29/10                                                                                             Financial Instrument for HHF Program                  —            $215,644,179                                          N/A

         8/3/10                                                                                              Financial Instrument for HHF Program      $159,000,000                        —                                          N/A

2        9/23/10      North Carolina Housing Finance Agency, Raleigh, NC                       Purchase      Financial Instrument for HHF Program                  —            $120,874,221      $482,781,786                        N/A

3        9/29/10                                                                                             Financial Instrument for HHF Program                  —            $202,907,565                                          N/A

         8/3/10                                                                                              Financial Instrument for HHF Program      $172,000,000                        —                                          N/A

2        9/23/10      Ohio Homeowner Assistance LLC, Columbus, OH                              Purchase      Financial Instrument for HHF Program                  —            $148,728,864      $570,395,099                        N/A

3        9/29/10                                                                                             Financial Instrument for HHF Program                  —            $249,666,235                                          N/A

         8/3/10                                                                                              Financial Instrument for HHF Program       $88,000,000                        —                                          N/A

2        9/23/10      Oregon Affordable Housing Assistance Corporation, Salem, OR              Purchase      Financial Instrument for HHF Program                  —             $49,294,215      $220,042,786                        N/A

3        9/29/10                                                                                             Financial Instrument for HHF Program                  —             $82,748,571                                          N/A

         8/3/10                                                                                              Financial Instrument for HHF Program       $43,000,000                        —                                          N/A

2        9/23/10      Rhode Island Housing and Mortgage Finance Corporation, Providence, RI    Purchase      Financial Instrument for HHF Program                  —             $13,570,770       $79,351,573                        N/A

3        9/29/10                                                                                             Financial Instrument for HHF Program                  —             $22,780,803                                          N/A

         8/3/10                                                                                              Financial Instrument for HHF Program      $138,000,000                        —                                          N/A

2        9/23/10      SC Housing Corp, Columbia, SC                                            Purchase      Financial Instrument for HHF Program                  —             $58,772,347      $295,431,547                        N/A

3        9/29/10                                                                                             Financial Instrument for HHF Program                  —             $98,659,200                                          N/A

         9/23/10                                                                                             Financial Instrument for HHF Program       $60,672,471                        —                                          N/A
                      Alabama Housing Finance Authority, Montgomery, AL                        Purchase                                                                                           $162,521,345
3        9/29/10                                                                                             Financial Instrument for HHF Program                  —            $101,848,874                                          N/A

         9/23/10                                                                                             Financial Instrument for HHF Program       $55,588,050                        —                                          N/A
                      Kentucky Housing Corporation, Frankfort, KY                              Purchase                                                                                           $148,901,875
3        9/29/10                                                                                             Financial Instrument for HHF Program                  —             $93,313,825                                          N/A
                                                                                                                                                                                                                                             Transaction detail I Appendix D I july 28, 2011




         9/23/10                                                                                             Financial Instrument for HHF Program       $38,036,950                        —                                          N/A
                      Mississippi Home Corporation, Jackson, MS                                Purchase                                                                                           $101,888,323
3        9/29/10                                                                                             Financial Instrument for HHF Program                  —             $63,851,373                                          N/A

                                                                                                                                                                                                                   Continued on next page.
                                                                                                                                                                                                                                             287
    HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 3/30/2011                                                                                                   (CONTINUED)                                                                                                           288
                                               Seller

                                                                                                                               Transaction                                                                Initial Investment             Additional Investment       Investment      Pricing
Note              Trade Date                   Name of Institution                                                             Type              Investment Description                                              Amount                            Amount           Amount1   Mechanism

                  9/23/10                                                                                                                        Financial Instrument for HHF Program                         $126,650,987                                 —                            N/A
                                               GHFA Affordable Housing, Inc., Atlanta, GA                                      Purchase                                                                                                                           $339,255,819
3                 9/29/10                                                                                                                        Financial Instrument for HHF Program                                      —                     $212,604,832                           N/A

                  9/23/10                                                                                                                        Financial Instrument for HHF Program                          $82,762,859                                 —                            N/A
                                               Indiana Housing and Community Development Authority, Indianapolis, IN           Purchase                                                                                                                           $221,694,139
3                 9/29/10                                                                                                                        Financial Instrument for HHF Program                                      —                     $138,931,280                           N/A

                  9/23/10                                                                                                                        Financial Instrument for HHF Program                         $166,352,726                                 —                            N/A
                                               Illinois Housing Development Authority, Chicago, IL                             Purchase                                                                                                                           $445,603,557
3                 9/29/10                                                                                                                        Financial Instrument for HHF Program                                      —                     $279,250,831                           N/A

                  9/23/10                                                                                                                        Financial Instrument for HHF Program                         $112,200,637                                 —                            N/A
                                               New Jersey Housing and Mortgage Finance Agency, Trenton, NJ                     Purchase                                                                                                                           $300,548,144
3                 9/29/10                                                                                                                        Financial Instrument for HHF Program                                      —                     $188,347,507                           N/A

                  9/23/10                                                                                                                        Financial Instrument for HHF Program                           $7,726,678                                 —                            N/A
                                               District of Columbia Housing Finance Agency, Washington, DC                     Purchase                                                                                                                            $20,697,198
3                 9/29/10                                                                                                                        Financial Instrument for HHF Program                                      —                      $12,970,520                           N/A

                  9/23/10                                                                                                                        Financial Instrument for HHF Program                          $81,128,260                                 —                            N/A
                                               Tennessee Housing Development Agency, Nashville, TN                             Purchase                                                                                                                           $217,315,593
                                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I july 28, 2011




3                 9/29/10                                                                                                                        Financial Instrument for HHF Program                                      —                     $136,187,333                           N/A

                                                                                                                                                                                                                                 Total Investment Amount         $7,600,000,000


Notes: Numbers affected by rounding. Data as of 6/30/2011. Numbered notes are taken directly from Treasury’s 7/1/2011 Transactions Report-Housing Programs.
1
  The purchase will be incrementally funded up to the investment amount.
2
  On 9/23/2010, Treasury provided additional investment to this HFA and substituted its investment for an amended and restated Financial Instrument.
3
  On 9/29/2010, Treasury provided additional investment to this HFA and substituted its investment for an amended and restated Financial Instrument.

Source: Treasury, Transactions Report-housing programs, 7/1/2011.




Table D.14

    FHA SHORT REFINANCE PROGRAM, AS OF 6/30/2011
                             Seller
Note         Trade Date      Name                                             Transaction Type            Investment Description                                              Investment Amount            Pricing Mechanism
1            9/3/10          Citigroup, Inc., New York, NY                    Purchase                    Facility Purchase Agreement, dated as of September 3,                   $8,117,000,000                            N/A
                                                                                                          2010, between the U.S. Department of the Treasury and
                                                                                                          Citibank, N.A
                                                                                                          TOTAL INVESTMENT                                                      $8,117,000,000

Notes: Numbers affected by rounding. Data as of 6/30/2011. Numbered notes are taken directly from Treasury’s 7/1/2011 Tranactions Report-Housing Programs.

1
    On September 3, 2010, the U.S. Department of the Treasury and Citibank, N.A. entered into a facility purchase agreement (the ‘L/C Facility Agreement”), which allowed Treasury to demand from Citigroup the issu-
    ance of an up to $8 billion, 10-year letter of credit (the “L/C”). Treasury will increase availability under the L/C incrementally in proportion to the dollar value of mortgages refinanced under the FHA Short Refinance
    program from time to time during the first 2.5 years. At that time, the amount of the L/C will be capped at the then-current level. Under the terms of the L/C Facility Agreement, Treasury will incur fees for the
    availability and usage of the L/C up to a maximum amount of $117 million.

Source: Treasury, Transactions Report-Housing Programs, 7/1/2011.
                                                     Cross-Reference of Report to the Inspector General Act of 1978 I july 28, 2011 | Appendix E                   289




Cross-Reference of Report to the Inspector General
Act of 1978
This appendix cross-references this report to the reporting requirements under the Inspector General Act of 1978
(P.L. 95-452), as amended, 5 U.S.C. APP.

 Section    Statute (Inspector General Act of 1978)                 SIGTARP Action                               Report Reference
 Section    “Description of significant problems, abuses, and       List problems, abuses, and deficiencies      Section 1: “The Office of the SIGTARP”
 5(a)(1)    deficiencies... ”                                       from SIGTARP audits and investigations.      Section 4: “SIGTARP Recommendations”
            “Description of recommendations for corrective
 Section                                                            List recommendations from SIGTARP            Section 1: “The Office of the SIGTARP”
            action…with respect to significant problems,
 5(a)(2)                                                            audits and investigations.                   Section 4: “SIGTARP Recommendations”
            abuses, or deficiencies... ”
            “Identification of each significant recommendation      List all instances of incomplete
 Section
            described in previous semiannual reports on which       corrective action from previous              Section 4: “SIGTARP Recommendations”
 5(a)(3)
            corrective action has not been completed...”            semiannual reports.
            “A summary of matters referred to prosecutive
 Section                                                            List status of SIGTARP investigations
            authorities and the prosecutions and convictions                                                     Section 1: “The Office of the SIGTARP”
 5(a)(4)                                                            referred to prosecutive authorities.
            which have resulted... ”
            “A summary of each report made to the [Treasury
 Section    Secretary] under section 6(b)(2)... ” (instances        List TARP oversight reports by Treasury,     Appendix G: “Key Oversight Reports and
 5(a)(5)    where information requested was refused or not          GAO, FDIC, and SIGTARP.                      Testimony”
            provided).
            “A listing, subdivided according to subject matter,
 Section    of each audit report issued...” showing dollar value
                                                                    List SIGTARP audits.                         Section 1: “The Office of the SIGTARP”
 5(a)(6)    of questioned costs and recommendations that
            funds be put to better use.
 Section    “A summary of each particularly significant             Provide a synopsis of significant
                                                                                                                 Section 1: “The Office of the SIGTARP”
 5(a)(7)    report... ”                                             SIGTARP audits.
                                                                                                                 As detailed in Section 1: “The Office of the
            “Statistical tables showing the total number of audit   Provide statistical tables showing dollar    SIGTARP,” SIGTARP has made significant
 Section
            reports and the total dollar value of questioned        value of questioned costs from SIGTARP       findings in its audit reports. However, to
 5(a)(8)
            costs... ”                                              audits.                                      date SIGTARP’s audits have not included
                                                                                                                 questioned costs findings.
                                                                                                                 As detailed in Section 1: “The Office of the
            “Statistical tables showing the total number of audit   Provide statistical tables showing dollar    SIGTARP,” SIGTARP has made important
 Section
            reports and the dollar value of recommendations         value of funds put to better use by          findings in its audit reports. However, to date
 5(a)(9)
            that funds be put to better use by management...”       management from SIGTARP audits.              SIGTARP’s audits have not included funds put
                                                                                                                 to better use findings.
            “A summary of each audit report issued before
            the commencement of the reporting period for
                                                                    Provide a synopsis of significant
            which no management decision has been made by
 Section                                                            SIGTARP audit reports in which               Section 1: “The Office of the SIGTARP”
            the end of reporting period, an explanation of the
 5(a)(10)                                                           recommendations by SIGTARP are               Section 4: “SIGTARP Recommendations”
            reasons such management decision has not been
                                                                    still open.
            made, and a statement concerning the desired
            timetable for achieving a management decision...”
                                                                                                                 As detailed in Section 1: “The Office of the
                                                                                                                 SIGTARP,” and Section 4: “SIGTARP Recom-
                                                                    Explain audit reports in which significant   mendations,” SIGTARP has made notewor-
 Section    “A description and explanation of the reasons for
                                                                    revisions have been made to manage-          thy recommendations in its audit reports,
 5(a)(11)   any significant revised management decision...”
                                                                    ment decisions.                              and the majority of these recommendations
                                                                                                                 have been agreed to. To date, no manage-
                                                                                                                 ment decisions have been revised.
            “Information concerning any significant manage-                                                      See discussion in Section 1: “The Office
 Section                                                            Provide information where management
            ment decision with which the Inspector General is                                                    of the SIGTARP,” and Section 4: “SIGTARP
 5(a)(12)                                                           disagreed with a SIGTARP audit finding.
            in disagreement...”                                                                                  Recommendations.”
290           Appendix F I public announcements of audits I july 28, 2011




      PUBLIC ANNOUNCEMENTS OF                                               GAO3
      AUDITS                                                                Ongoing Audits
      This appendix provides an announcement of new and                     •	 AIG indicators report will be issued on July 18.
      ongoing public audits by the agencies listed below. See               •	 Updated review of CPP looking at the status of the overall
      Appendix G: “Key Oversight Reports and Testimony” for a                  program and the condition of the institutions still in the
      listing of published reports. Italic style indicates narrative           program, with expected issuance in September.
      taken verbatim from the agencies’ responses to SIGTARP’s              •	 Financial statement audit expected in November.
      data call.                                                            •	 Overview report expected in January.
      •	 U.S. Department of Treasury Office of Inspector General
          (“Treasury OIG”)                                                  FDIC OIG4
      •	 Federal Reserve Board Office of Inspector General                  Ongoing Audits
          (“Federal Reserve OIG”)                                           •	 None
      •	 Government Accountability Office (“GAO”)
      •	 Federal Deposit Insurance Corporation Office of                    Endnotes
                                                                            1
                                                                             	 Treasury OIG, response to SIGTARP data call, 7/5/2011.
          Inspector General (“FDIC OIG”)                                    2
                                                                             	 Federal Reserve OIG, response to SIGTARP data call, 7/11/2011.
                                                                            3
                                                                             	 GAO, response to SIGTARP data call, 7/1/2011.
      Treasury OIG1                                                         4
                                                                             	 FDIC OIG, response to SIGTARP data call, 6/30/2011.

      Ongoing Audits
      •	 None

      Federal Reserve OIG2
      Ongoing Audits
      •	 None
                                                                                key oversight reports and testimonY I Appendix g I JULY 28, 2011              291




KEY OVERSIGHT REPORTS AND TESTIMONY
This list reflects TARP-related reports and testimony published since SIGTARP’s last quarterly report. See
previous SIGTARP quarterly reports for lists of prior oversight reports and testimony.


U.S. DEPARTMENT OF THE TREASURY (Treasury)
ROLES AND MISSION
The mission of Treasury is to serve the American people and strengthen national security by managing the U.S. government’s finances effectively;
promoting economic growth and stability; and ensuring the safety, soundness, and security of the U.S. and international financial systems. Treasury advises
the President on economic and financial issues, encourages sustainable economic growth, and fosters improved governance in financial institutions.
OVERSIGHT REPORTS
Treasury, Transactions Report, 4/1/2011 – 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Pages/de-
fault.aspx, accessed 7/7/2011. (released weekly)
Treasury, Daily TARP Update, 4/1/2011 – 6/30/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
Pages/default.aspx, accessed 7/7/2011.
Treasury, TARP Monthly 105(a) Report, 4/8/2011 – 6/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Pages/
default.aspx, accessed 7/7/2011.
Treasury, Cumulative Dividends, Interest, and Distributions Report, 4/8/2011 – 6/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/
reports/dividends-interest/Pages/default.aspx, accessed 7/7/2011. (released monthly)
Treasury, Making Home Affordable Program Report, 4/1/2011 – 6/9/2011, www.treasury.gov/initiatives/financial-stability/results/MHA-Reports/Pages/
default.aspx, accessed 7/7/2011. (released monthly)
Treasury, HAMP Activity by Metropolitan Statistical Area, 4/1/2011 – 6/9/2011, www.treasury.gov/initiatives/financial-stability/results/MHA-Reports/
Pages/default.aspx, accessed 7/7/2011. (released monthly)
RECORDED TESTIMONY
Treasury, “Opening Statement of Timothy G. Massad Before the United States Senate Committee on Banking, Housing and Urban Affairs,” 5/3/2011,
www.treasury.gov/press-center/press-releases/Pages/tg1158.aspx, accessed 7/7/2011.


GOVERNMENT ACCOUNTABILITY OFFICE (GAO)
ROLES AND MISSION
GAO is tasked with performing ongoing oversight of TARP’s performance, including:
•	 evaluating the characteristics of asset purchases and the disposition of assets acquired
•	 assessing TARP’s efficiency in using the funds
•	 evaluating compliance with applicable laws and regulations
•	 assessing the efficiency of contracting procedures
•	 auditing TARP’s annual financial statements and internal controls
•	 submitting reports to Congress at least every 60 days.
OVERSIGHT REPORTS
GAO, “Troubled Asset Relief Program: Survey of Housing Counselors about the Home Affordable Modification Program,” 5/26/2011, www.gao.gov/
special.pubs/gao-11-368sp/index.htm, accessed 7/7/2011.
GAO, “Troubled Asset Relief Program: Results of Housing Counselors Survey on Borrowers’ Experiences with the Home Affordable Modification Program,”
5/26/2011, www.gao.gov/new.items/d11367r.pdf, accessed 7/7/2011.
GAO, “TARP: Treasury’s Exit from GM and Chrysler Highlights Competing Goals, and Results of Support to Auto Communities Are Unclear,” 5/10/2011,
www.gao.gov/new.items/d11471.pdf, accessed 7/7/2011.
GAO, “Management Report: Improvements Are Needed in Internal Control Over Financial Reporting for the Troubled Asset Relief Program,” 4/18/2011,
www.gao.gov/new.items/d11434r.pdf, accessed 7/7/2011.
292                Appendix g I key oversight reports and testimonY I JULY 28, 2011




      FEDERAL DEPOSIT INSURANCE CORPORATION (FDIC)
      ROLES AND MISSION

      FDIC is an independent agency created by Congress that maintains the stability and public confidence in the nation’s financial system by insuring deposits,
      examining and supervising financial institutions, and managing receiverships.

      RECORDED TESTIMONY

      FDIC, “Statement of Sheila C. Bair, Chairman, Federal Deposit Insurance Corporation on The Changing Role of the FDIC before the Subcommittee on
      TARP, Financial Services, and Bailouts of Public and Private Programs; Committee on Oversight and Government Reform, U.S. House Of Representatives,”
      6/22/2011, www.fdic.gov/news/news/speeches/chairman/spjun2211.html, accessed 7/7/2011.
      FDIC, “Statement of Michael H. Krimminger, General Counsel, Federal Deposit Insurance Corporation on ‘Does The Dodd-Frank Act End Too Big To Fail?’;
      Subcommittee on Financial Institutions and Consumer Credit; Financial Services Committee; U.S. House Of Representatives; Washington, DC,” 6/14/2011,
      www.fdic.gov/news/news/speeches/chairman/spjun1411.html, accessed 7/7/2011.
      FDIC, “Statement of Sheila C. Bair, Chairman, Federal Deposit Insurance Corporation on FDIC Oversight: Examining and Evaluating the Role of the
      Regulator during the Financial Crisis and Today before the House Subcommittee on Financial Institutions and Consumer Credit,” 5/26/2011,
      www.fdic.gov/news/news/speeches/chairman/spmay2611.html, accessed 7/13/2011.



      SPECIAL INSPECTOR GENERAL FOR THE TROUBLED ASSET RELIEF PROGRAM (SIGTARP)
      ROLES AND MISSION
      Under EESA, the Special Inspector General has the responsibility, among other things, to conduct, supervise and coordinate audits and investigations of the
      purchase, management, and sale of assets under the Troubled Asset Relief Program (“TARP”).

      SIGTARP’s mission is to advance economic stability by promoting the efficiency and effectiveness of TARP management, through transparency, through
      coordinated oversight, and through robust enforcement against those, whether inside or outside of Government, who waste, steal or abuse TARP funds.
      OVERSIGHT REPORTS

      SIGTARP, Quarterly Report to Congress, 4/28/2011,
      www.sigtarp.gov/reports/congress/2011/April2011_Quarterly_Report_to_Congress.pdf, accessed 7/7/2011.

      SIGTARP, “Treasury’s Process for Contracting for Professional Services under TARP,” 4/14/2011, www.sigtarp.gov/reports/audit/2011/
      Treasury’s%20Process%20for%20Contracting%20for%20Professional%20Services%20under%20TARP%2004_14_11.pdf, accessed 7/7/2011.

      RECORDED TESTIMONY

      SIGTARP, “Statement of Christy Romero, Before the House Committee on Financial Services Subcommittee on Financial Institutions and Consumer Credit,”
      6/14/2011, www.sigtarp.gov/reports/testimony/2011/Citi_Too_Big_To_Fail_June_14_2011_Testimony.pdf, accessed 7/7/2011.

      Note: Italic style indicates verbatim narrative taken from source documents.

      Sources: Treasury, www.treasury.gov, accessed 7/7/2011; Treasury Inspector General, www.treas.gov, accessed 7/7/2011; Financial Stability Oversight Board, www.treas.gov, accessed 7/7/2011;
      GAO, www.gao.gov, accessed 7/7/2011; FDIC, www.fdic.gov, accessed 7/7/2011; FDIC OIG, www.fdicoig.gov, accessed 7/7/2011; SIGTARP,www.sigtarp.gov, accessed 7/7/2011; FDIC, response to
      SIGTARP data call, 6/30/2011; GAO, response to SIGTARP data call, 7/1/2011; Treasury, response to SIGTARP data call, 7/5/2011.
                                                                                     correspondence I Appendix h I July 28, 2011   293




correspondence
This appendix provides a copy of the following correspondence:

 Correspondence
 Date          From             To              Regarding
 2/14/2011     SIGTARP          Treasury        Treasury’s Ability to Withhold or Claw Back Payments from HAMP Servicers
 5/23/2011     SIGTARP          Treasury        Making Home Affordable (“MHA”) Servicer Compliance Assessment
 7/14/2011     Treasury         SIGTARP         Status Update on Recommendations in the SIGTARP Quarterly Report
 7/22/2011     Treasury         SIGTARP         Response to SIGTARP April 2011 Quarterly Report
294   Appendix h I correspondence I July 28, 2011
correspondence I Appendix h I July 28, 2011   295
296   Appendix h I correspondence I July 28, 2011
correspondence I Appendix h I July 28, 2011   297
298   Appendix h I correspondence I July 28, 2011
correspondence I Appendix h I July 28, 2011   299
organizational chart                                                                                                                                                                                                                                           300


                                                                                                              Special Inspector General
                                                                                                               Christy Romero (Acting)

                                                                                                                                                                                                       EEO Program
                                                                                                                                                                                                         Manager
                                                                                                                                                                                                            Vacant
                                                                                                                    Deputy Special
                                                                                                                  Inspector General
                                                                                                                   Christy Romero
                                      Chief of Staff                                                                                     Senior Policy Advisor                    General Counsel
                                          Mia Levine                                                                                             Vacant                           Roderick Fillinger


                                                                                                                                                                      Communications             Director of
                                      Deputy Chief                                                                                                                       Director            Congressional Affairs
                                        of Staff
                                                                                                                                                                        Kristine Belisle         Lori Hayman
                                            Vacant
                                                                                                                                                                                                                                                               Appendix I I organizational chart I july 28, 2011




                          Deputy SIG –                                                                              Deputy SIG –                                                                                Deputy SIG –
                         Investigations                                                                                Audit                                                                                     Operations
                         Scott Rebein                                                                                 Kurt Hyde                                                                                      Cathy Alix


                         Special Agent in                                                                              Assistant                                                                                Assistant Deputy
                            Charge                                                                                 Deputy SIG – Audit                                                                           SIG – Operations
                             Vacant                                                                                     Vacant                                                                                   Dr. Eileen Ennis



 Chief Investigative                            Chief HQ Operations                                                                                                        ADSIG − Special         ADSIG − HR
                          Investigators                                                                                                                                                                                       ADSIG − CIO     ADSIG − CFO
      Counsel
                                                        Vacant                                                                                                                Programs
                                                                                                                                                                                                       Sally Ruble                AJ Germek   Deborah Mathis
   Michael Rivera                                                                                                                                                           Lynn Perkoski


                                                Hotline Supervisor
  Attorney Advisors
                                                     Camille Wright
                                                                           Director              Director               Director              Director                Director

                                                        Analysts       Shannon Williams         Alisa Davis          Brenda James           Craig Meklir             Eric Mader



                                                 Cyber Forensics      Auditors & Analysts   Auditors & Analysts    Auditors & Analysts   Auditors & Analysts     Auditors & Analysts




Note: SIGTARP organizational chart as of 7/3/2011.
SIGTARP
SIG-QR-11-03

202.622.1419
Hotline: 877.SIG.2009
SIGTARP@do.treas.gov
www.SIGTARP.gov
